U.S. DEPARTMENT OF COMMERCE

      F Y 2012 PERFORMANCE &

      ACCOUNTABILIT Y REPORT
                                              D E PA R T M E N T O F C O M M E R C E W E B A D D R E S S E S

                                                     FOR PLANNING AND PERFORMANCE

Department of Commerce                                Economics and Statistics Administration                             National Technical Information Service
http://www.commerce.gov/                              http://www.esa.doc.gov/                                             http://www.ntis.gov/

Department of Commerce Strategic Plan,                Bureau of Economic Analysis                                         U.S. Patent and Trademark Office
Performance Reports and Performance Plans             http://www.bea.gov                                                  http://www.uspto.gov
http://www.osec.doc.gov/bmi/budget/budgetsub_
perf_strategicplans.htm                               ◆◆   BEA’s Mission, Vision, Values, and Role                        ◆◆   Performance and Accountability Report
                                                           http://bea.gov/about/mission.htm                                    http://www.uspto.gov/web/offices/com/annual/
Economic Development Administration
Annual Reports                                        ◆◆   BEA Strategic Plan for FY 2010-FY 2014                         ◆◆   President’s Budget and Strategic Plan
http://www.eda.gov/pdf/FY2011_EDA_Annual_                  http://bea.gov/about/pdf/strategic_plan_matrix_2010-2014.pdf        http://www.uspto.gov/web/offices/ac/comp/
Report.pdf                                                                                                                     budg/index.html
                                                      ◆◆   Release Dates for 2012
International Trade Administration                         http://www.bea.gov/newsreleases/news_release_sort_             National Telecommunications and Information
Strategic Plan                                             national.htm                                                   Administration
http://trade.gov/pdfs/ITA_stratplan2007.pdf                                                                               Annual Reports
                                                      National Institute of Standards and Technology                      http://www.ntia.doc.gov/ntiahome/annreports.html
Minority Business Development Agency                  http://www.nist.gov/index.html
Portal/Annual Report                                                                                                      National Oceanic and Atmospheric
http://www.mbda.gov                                   ◆◆   NIST Performance Evaluation                                    Administration
                                                           http://www.nist.gov/director/planning/impact_assessment.cfm    Strategic Planning and Performance
Bureau of Industry and Security                                                                                           http://www.ppi.noaa.gov/about-us/
Annual Report                                         ◆◆   NIST Planning
http://www.bis.doc.gov/                                    http://www.nist.gov/director/planning/planning.cfm             Office of Inspector General
                                                                                                                          http://www.oig.doc.gov/
Census Bureau                                         ◆◆   NIST Manufacturing Extension Partnership Reports 
http://www.census.gov                                      http://www.mep.nist.gov/reports.cfm




                                                B U D G E T A N D P E R F O R M A N C E C O N TA C T S

Departmental Management                               Economics and Statistics Administration/                            U.S. Patent and Trademark Office
  Bill Tatter, btatter@doc.gov,                       Bureau of Economic Analysis                                            Robert Fawcett, robert.fawcett@uspto.gov,
  	202-482-5979                                       	 Douglas Follansbee, dfollansbee@doc.gov,                             	571-272-7006
  William Tootle, wtootle@doc.gov,                       	202-482-5103
  	202-482-4891                                                                                                           National Institute of Standards and Technology
                                                      International Trade Administration                                     Francisco Balicao, francisco.balicao@nist.gov,
Office of Inspector General                               Matthew Bright, matthew.bright@trade.gov,                          	301-975-5510
  John Webb, jwebb@oig.gov,                               	202-482-3504                                                      Jason Boehm, jason.boehm@nist.gov,
  	202-482-1719                                                                                                              	 301-975-8678
	 Kathleen Frampton, kframpton@oig.doc.gov,           Bureau of Industry and Security
                                                         Brad Burke, brad.burke@bis.doc.gov,                              National Technical Information Service
  	202-482-4530
                                                         	202-482-6006                                                       Angie Martin, amartin@ntis.gov,
Economic Development Administration                      Divya Soni, divya.soni@bis.doc.gov,                                 	703-605-6455
  Bryan Borlik, bryan.borlik@eda.gov,                    	202-482-7986                                                       Mary Houff, mhouff@ntis.gov,
  	202-482-3901                                                                                                              	703-605-6611
  Hilary Sherman, hsherman@eda.doc.gov,               Minority Business Development Agency
                                                                                                                          National Telecommunications and Information
  	202-482-3357                                          Ron Marin, rmarin@mbda.gov,
                                                                                                                          Administration
                                                         	202-482-3341
Census Bureau                                                                                                             	 Charles Franz, cfranz@ntia.doc.gov,
  James.S.Belton, james.s.belton@census.gov,          National Oceanic and Atmospheric Administration                        	202-482-1826
  	301-763-3593                                          Heidi Keller, heidi.keller@noaa.gov,
  Everett Whiteley, everett.g.whiteley@census.gov,       	202-482-2855
  	301-763-3861




                                For additional copies of the FY 2012 Performance and Accountability Report, please contact
               the Department of Commerce, Office of Budget, 202-482-4648, or refer to the people noted above under Departmental Management.
U.S. DEPARTMENT          OF   COMMERCE
  PERFORMANCE & ACCOUNTABILIT Y REPORT




           F I S C A L   Y E A R




          2012
                                       T H E D E PA R T M E N T AT A G L A N C E

HISTORY AND ENABLING LEGISLATION                                       STRATEGIC THEMES

The Department of Commerce was originally established by               PROGRAMMATIC THEMES
Congressional Act on February 14, 1903 as the Department               ■	 Economic Growth
of Commerce and Labor (32 Stat. 826; 5 U.S.C. 591) and was             ■	 Science and Information
subsequently renamed the U.S. Department of Commerce by
                                                                       ■	 Environmental Stewardship
President William H. Taft on March 4, 1913 (15 U.S.C. 1512).
The defined role of the new Department was “to foster, promote,        MANAGEMENT THEMES
and develop the foreign and domestic commerce, the mining,
                                                                       ■	 Customer Service
manufacturing, and fishery industries of the United States.”
                                                                       ■	 Organizational Excellence
                                                                       ■	 Workforce Excellence
MISSION
                                                                       LOCATION
The Department of Commerce creates the conditions for
economic growth and opportunity by promoting innovation,
                                                                       The Department is headquartered in Washington, D.C., at the
entrepreneurship, competitiveness, and stewardship.
                                                                       Herbert Clark Hoover Building, which is located on eight acres
                                                                       of land covering three city blocks. The Department also has field
                         Program Bureaus                               offices in all states and territories and maintains offices in more
                                                                       than 86 countries worldwide.
  ■	     Economic Development Administration (EDA)
  ■	     Economics and Statistics Administration (ESA)                 EMPLOYEES
         ●	 Bureau of Economic Analysis (BEA)

         ●	 Census Bureau                                              As of September 30, 2012, the Department had approximately
  ■	     International Trade Administration (ITA)                      45,000 employees.
  ■	     Bureau of Industry and Security (BIS)
  ■	     Minority Business Development Agency (MBDA)                   FINANCIAL RESOURCES
  ■	     U.S. Patent and Trademark Office (USPTO)
  ■	     National Institute of Standards and Technology (NIST)         The Department’s FY 2011 and FY 2012 budgets were
         ●	 National Technical Information Service (NTIS)
                                                                       approximately $9.1 billion and $8.0 billion respectively (budget
                                                                       authority).
  ■	     National Telecommunications and Information
         Administration (NTIA)
  ■	     National Oceanic and Atmospheric Administration
                                                                       INTERNET
         (NOAA)
                                                                       The Department’s Internet address is www.commerce.gov.




    II                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                            III
     Table of Contents
     Statement from the Secretary	                                                                                         VI
     How to Use this Report	                                                                                             XIII

     Management’s Discussion and Analysis 	                                                                                 1

     Mission and Organization	                                                                                              2
     FY 2012 Performance and Financial Highlights	                                                                          3
     The Department of Commerce Process for Strategic Planning and Performance Reporting	                                   7
     FTE, Funding, and Performance Summary	                                                                               17
     Management Controls 	                                                                                                26
       Federal Managers’ Financial Integrity Act (FMFIA) of 1982 	                                                        27
       Federal Financial Management Improvement Act (FFMIA) of 1996 	                                                     35
       Report on Audit Follow-up 	                                                                                        35
       Biennial Review of Fees	                                                                                           35
     Priority Goals	                                                                                                      36
     Cross-Agency Priority Goals	                                                                                         42

     FY 2012 Performance Section	                                                                                          43

     Theme 1: Economic Growth 	                                                                                           45
       Strategic Goal – Innovation and Entrepreneurship: Develop the tools, systems, policies, and
                       technologies critical to transforming our economy, fostering U.S. competitiveness,
                       and driving the development of new businesses (USPTO, EDA, NIST, NTIA) 	                           49
       Strategic Goal – Market Development and Commercialization: Foster market opportunities that equip
                       businesses and communities with the tools they need to expand, creating quality jobs
                       with special emphasis on unserved and underserved groups (EDA, MBDA, ITA, NIST) 	                  66
       Strategic Goal – Trade Promotion and Compliance: Improve our global competitiveness and foster
                       domestic job growth while protecting American security (ITA, BIS, NTIA)	                           75
     Theme 2: Science and Information	                                                                                    89
       Strategic Goal: Generate and communicate new, cutting-edge scientific understanding of
                       technical, economic, social, and environmental systems (NTIS, NTIA, ESA/CENSUS,
                       ESA/BEA, NOAA) 	                                                                                   91
     Theme 3: Environmental Stewardship 	                                                                                107
       Strategic Goal: Promote economically-sound environmental stewardship and science (NOAA)	                          109
     Themes 4, 5, 6: Management Themes 	                                                                                 125
       Strategic Goal: Create a culture of outstanding communication and services to our internal and
                       external customers (DM)	                                                                          129




IV                                      F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
      Strategic Goal: Create a high-performing organization with integrated, efficient, and effective
                        service delivery (DM, OIG)	                                                     134
      Strategic Goal: Develop and support a diverse, highly qualified workforce with the right skills
                        in the right jobs to carry out the Department’s mission (DM)	                   143



   FY 2012 Financial Section	                                                                           149

   Message from the Chief Financial Officer	                                                            150
   Financial Management and Analysis 	                                                                  153
   Debt Management 	                                                                                    163
   Payment Practices 	                                                                                  164
   Analysis of FY 2012 Financial Condition and Results 	                                                165
   Limitations of the Financial Statements 	                                                            170
   Principal Financial Statements 	                                                                     171
      Consolidated Balance Sheets 	                                                                     173
      Consolidated Statements of Net Cost 	                                                             174
      Consolidated Statements of Changes in Net Position 	                                              175
      Combined Statements of Budgetary Resources 	                                                      176
   Notes to the Financial Statements 	                                                                  177
   Consolidating Balance Sheet 	                                                                        239
   Required Supplementary Information 	                                                                 243
   Required Supplementary Stewardship Information 	                                                     251
   Other Accompanying Information 	                                                                     267
   Independent Auditors’ Report 	                                                                       271

   Appendices	291

   Appendix A: Performance and Resource Tables	                                                         293
   Appendix B: Stakeholders and Crosscutting Programs	                                                  356
   Appendix C: FY 2012 Management Challenges and Actions Taken	                                         357
   Appendix D: FY 2013 Management Challenges	                                                           386
   Appendix E: Improper Payments Information Act (IPIA) of 2002, as Amended, Reporting Details 	        426
   Appendix F: Summary of Financial Statement Audit and Management Assurances 	                         434
   Appendix G: Undisbursed Balances in Expired Grant Accounts 	                                         435
   Appendix H: Glossary of Key Acronyms 	                                                               437




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                              V
S TAT E M E N T F R O M T H E S E C R E TA R Y




       Statement from the Secretary

                                                           I 
                                                                 am pleased to present the Department of Commerce’s fiscal year (FY)
                                                                2012 Performance Accountability Report (PAR). The PAR highlights
                                                                the Department’s accomplishments and the challenges we faced in
                                                          FY 2012, as well as provides information on our financial management and
                                                          performance. The Department helps make U.S. businesses more innovative
                                                          for economic growth and opportunity. Every day, the Department promotes
                                                          innovation, entrepreneurship, competitiveness, and stewardship informed
                                                          by world-class scientific research and information. The Department achieves
                                                          its mission through its 13 bureaus in partnership with U.S. businesses.

                                                             Through weather forecasts, climate and ocean monitoring, marine resource
                                                             management, and support for marine commerce, the National Oceanic and
                                                             Atmospheric Administration’s (NOAA) services have a daily impact on our
       lives and U.S. commerce. The Economics and Statistics Administration (ESA), including the Census Bureau and the Bureau
       of Economic Analysis (BEA), provides the economic and demographic information necessary to evaluate growth, understand
       markets, and make sound decisions for the future. The National Telecommunications and Information Administration (NTIA),
       through broadband grants and spectrum reform, is expanding the information highway to propel job growth and competitiveness.
       The National Institute of Standards and Technology (NIST) and U.S. Patent and Trademark Office (USPTO) are critical to
       supporting innovation and advancing U.S. commerce. Economic development and commercialization activities supported by
       the Economic Development Administration (EDA) and the Minority Business Development Agency (MBDA) turn ideas into jobs.
       Export promotion and economic security activities at the International Trade Administration (ITA) and the Bureau of Industry and
       Security (BIS) directly support our Nation’s international competitiveness and help U.S. companies sell more of what they make
       in countries around the world.

       Our FY 2012 accomplishments and challenges are highlighted within the three programmatic themes of our strategic plan:
       Economic Growth, Science and Information, and Environmental Stewardship.


       Economic Growth

       The Department, through ITA has made strong progress in protecting U.S. industries and workers against unfair trade
       practices, along with strengthening the U.S. economy through promoting exports. In FY 2012, ITA issued 260 antidumping
       and countervailing duty (CVD) determinations covering a wide variety of products, helping provide U.S. businesses, workers,
       and farmers the opportunity to compete on a level playing field. ITA also successfully strengthened trade enforcement by
       making important regulatory reforms, strengthening its duty collection cooperation with U.S. Customs and Border Protection,
       and working with Congress to enact legislation reaffirming the Department’s ability to apply the CVD law to imports from market
       and non-market economies alike. ITA has also successfully helped U.S. firms overcome 89 trade barrier cases in 45 different
       countries that have directly benefitted U.S. industry and competitiveness. ITA has continued to make promoting exports a
       priority and has assisted over 19,000 companies with export transactions worth over $103 billion. ITA also continues to assist
       small and medium-sized businesses to compete globally with programs like the Market Development Cooperator Program.
       On average, every government dollar invested in this program has generated $219 of exports.

       In FY 2012, EDA continued to develop, implement, and lead successful efforts to coordinate federal resources and streamline
       processes and procedures for both grant application requirements and post-award grant administration. EDA championed
       several interagency funding competitions in FY 2012, including the Rural Jobs and Innovation Accelerator Challenge: the Strong




  VI                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                        S TAT E M E N T F R O M T H E S E C R E TA R Y




Cities, Strong Communities Visioning Challenge; and the Advanced Manufacturing Jobs and Innovation Accelerator Challenge.
The Rural Jobs and Innovation Accelerator Challenge leveraged the resources of the EDA, U.S. Department of Agriculture,
Appalachian Regional Commission, and Delta Regional Authority to support the development and implementation of locally-driven
economic development strategies that foster the development of clusters and accelerate the benefits of regional innovation
cluster-based economic development, with a targeted focus on economically-distressed rural communities. Following a similar
structure, EDA spearheaded the Advanced Manufacturing Jobs and Innovation Accelerator Challenge, which strategically
combined federal resources from EDA, NIST, the U.S. Department of Energy, the U.S. Department of Labor’s Employment and
Training Administration, the U.S. Small Business Administration, and the National Science Foundation. The collaboration between
these agencies provided funding to assist the development and implementation of regionally-driven economic development
strategies that will support advanced manufacturing and cluster development. The goal is to create jobs, grow the economy, and
enhance the competitiveness of U.S. manufacturers in the global marketplace. The Strong Cities, Strong Communities Visioning
Challenge is conducted in support of the Strong Cities, Strong Communities interagency initiative administered by the White
House Strong Cities, Strong Communities Council. This challenge, in the same vein of interagency collaboration, leveraged
the U.S. Department of Housing and Urban Development’s resources and philanthropic networks to provide funding for cities
to conduct economic planning competitions, in which financial prizes are used to incentivize the submission of community-
led, bottom-up economic development plans. In addition to these new regional innovation strategies, EDA conducted a third
i6 Challenge in FY 2012, a national competition to accelerate innovative product development, spur the formation of start-
ups, and create small businesses by supporting Proof of Concept Centers at universities and research consortiums across the
country. Lastly, EDA received an appropriation of $200 million to support long-term economic recovery and infrastructure support
in communities that received a major disaster designation in FY 2011. To ensure that these resources began to be disbursed as
rapidly and effectively as possible, EDA developed a streamlined application process that allows for an expeditious review and
evaluation.

MBDA promotes the ability of minority businesses to succeed in the local, national, and global economies. MBDA continued its
upward trend of increasing contract and financial awards, rising from $1.6 billion in FY 2005 to $2.7 billion in FY 2012. One of
MBDA’s goals is to increase the number of new job opportunities. In that regard, MBDA has increased the number of new jobs
created from 2,270 in FY 2005 to 5,331 in FY 2012.

BIS’s mission is to advance U.S. national security, foreign policy, and economic objectives by ensuring an effective export control
and treaty compliance system and by promoting continued U.S. strategic technology leadership. BIS is currently assisting to
implement the President’s long-term goals of the Export Control Reform (ECR) Initiative. On March 7, 2012, the Administration
officially opened two new national, multi-agency centers to improve how the U.S. government administers its export control
system: the Export Enforcement Coordination Center (E2C2) and the Information Triage Unit (ITU). The E2C2 is responsible
for enhanced information sharing and coordination between law enforcement and intelligence officials regarding possible
violations of U.S. export controls laws. The ITU, housed at the Department, is responsible for assembling and disseminating
relevant information, including intelligence, upon which to base informed decisions on proposed export licenses. As part of the
ECR implementation process, BIS has published 12 proposed rules, in conjunction with proposed rules published by the State
Department, in FY 2012. State’s proposed rules seek public comment on the revision of State’s United States Munitions List
(USML) into a positive, objective list, and BIS’s proposed rules seek public comment on the transfer of tens of thousands of low
level military items, primarily parts and components, from the USML to the more flexible export control system administered
by BIS.

As a non-regulatory agency in the Department, an experienced partner of industry, and the federal research agency specifically
focused on promoting U.S. economic competitiveness, NIST is well-positioned to accelerate and promote innovation and advanced
technologies through its Laboratory Programs and its Innovation and Industry Services Programs. NIST addressed critical national
needs and emerging challenges in a wide variety of industry sectors, including energy, cybersecurity, manufacturing, healthcare,
cyberphysical systems, biotechnology, and nanotechnology. Two new advanced laboratories for high-precision science and
measurements opened at NIST and JILA, a joint venture of NIST and the University of Colorado at Boulder, to support technology,




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      VII
S TAT E M E N T F R O M T H E S E C R E TA R Y




         innovation, economic growth, and the training of future scientists. In the area of manufacturing, NIST established the Advanced
         Manufacturing National Program Office to enable more effective collaboration in identifying and addressing challenges and
         opportunities that span technology areas and cut across agency missions. NIST also established the National Cybersecurity
         Center of Excellence, a public-private collaboration for accelerating the widespread adoption of integrated cybersecurity tools and
         technologies. In the area of energy, NIST unveiled the Net-Zero Energy Residential Test Facility, a new laboratory designed to
         demonstrate that a typical-looking suburban home for a family of four can generate as much energy as it uses in a year. In support
         of forensic science, NIST published a revised biometric standard that vastly expands the type and amount of information that
         forensic scientists can share across their international networks to identify victims or solve crimes. NIST also published two new
         documents on cloud computing that provide guidance for understanding the cloud computing standards and categories of cloud
         services that industry and government can use. To strengthen the competitiveness of our Nation’s domestic manufacturing base,
         the NIST Hollings Manufacturing Extension Partnership (MEP) provided a range of tools and services focused on the adoption of
         new technologies, exporting strategies, and workforce retention which supported its clients, primarily small manufacturers, in
         generating an estimated $2.7 billion in increased sales, $2.6 billion in capital investment, and $966 million in cost savings during
         FY 2011 (MEP results have a one-year time lag). 	

         NTIA, in collaboration with the Federal Communications Commission, launched the National Broadband Map on February 17,
         2011. This dataset publicly displays the geographic areas where broadband service is available; the technology used to provide
         the service; the speeds of the service; and broadband service speeds used at many public schools, libraries, hospitals, colleges,
         universities, and public buildings. The Web site is powered by data representing 1,865 broadband providers nationwide with more
         than 20 million records, and was collected in partnership with every state. Since its launch last year, the National Broadband Map
         has attracted more than 650,000 users who are utilizing the map to meet a variety of needs. Developers can use 51 Application
         Programming Interface (API) tools to process the data and can also download the data in multiple formats. The Broadband
         Technology Opportunities Program is on track to meet—and in most cases exceed—its program goals, delivering significant
         progress in areas such as infrastructure construction, computer center launches, and delivery of training to new broadband
         users. Cumulatively, federal outlays for the program totaled $2.1 billion, while total recipient matching contributions exceeded
         $820 million.

         NTIA participated with other Department operating units in the Internet Policy Task Force, which is conducting comprehensive
         reviews of the nexus between privacy policy, copyright, global free flow of information, cybersecurity, and innovation in the
         Internet economy. Multi-stakeholder organizations have played a major role in the design and operation of the Internet and are
         directly responsible for its success. Maintaining and extending this model is important for ensuring the continued growth and
         innovation of the Internet. Consumer trust is essential for the continued growth of the digital economy, and meaningful privacy
         protections are critical to fostering trust. In FY 2012, NTIA convened a multi-stakeholder process to develop legally enforceable
         codes of conduct that implement elements of the Administration’s Consumer Privacy Bill of Rights. NTIA is planning a series of
         privacy multistakeholder processes. NTIA’s first process, which focuses on mobile application transparency, began in FY 2012
         and will continue in FY 2013. NTIA selected this topic based on almost 100 electronic comments received from stakeholders
         around the country.

         NTIA is providing a forum for stakeholders to develop a code of conduct regarding mobile application transparency. The NTIA
         multistakeholder process provides an opportunity for robust participation by companies, consumer advocates, and technical
         experts. Stakeholders can participate in each meeting either through Webcast or remotely through a moderated teleconference
         bridge. NTIA uses technology to ensure that stakeholders who participate remotely have the opportunity to meaningfully
         participate in the process. As stakeholders gain experience working together to address mobile application transparency, NTIA is
         laying the groundwork for tackling other privacy challenges.

         In order to strengthen the very infrastructure that marshals new innovation to the marketplace, under its 2010-2015 Strategic
         Plan, the entire USPTO team made some important strides in FY 2012. Their hard work advances USPTO’s mission of promoting
         a 21st century intellectual property system, a system that empowers innovation from the sole inventor to every U.S. employer.




  VIII                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E MS
                                                                                      ETNATT’ S
                                                                                              E MDEI S
                                                                                                     NCT UFSRSOI O
                                                                                                                 MNT A
                                                                                                                     HNE DS EACNRAELTYASRI S
                                                                                                                                           Y




USPTO has accelerated the patent examination process while building in new quality control measures. USPTO reduced its
unexamined utility patent application backlog to the lowest it has been in more than five years. USPTO expects to reach its
optimal inventory goal in the near future. Further, USPTO implemented critical provisions of the America Invents Act (AIA), the
most significant reform to patent law in 60 years. USPTO also made history in July 2012, when it opened its first ever satellite
office, the Elijah J. McCoy Satellite Office in Detroit, MI. The office will function as a hub of innovation and creativity, helping
protect and foster U.S. innovation in the global marketplace, helping businesses cut through red tape, and creating new economic
opportunities in its local community. USPTO also continues to see an increase in trademark applications. USPTO increased
engagement with its trademark stakeholder community through a series of roundtables, while extending educational outreach
to the small business and entrepreneurial community. USPTO continues to maintain consistent first office action trademark
pendency figures within the planned target range. Information technology (IT) is a mission-critical enabler for every USPTO
business function. USPTO is implementing an aggressive multi-year plan to upgrade its IT infrastructure by stabilizing its aging
data center and networks, updating automated IT systems, and migrating to “cloud” computing. Finally, it is notable that USPTO
has been active in the World Intellectual Property Organization (WIPO), playing a key role in the signing of the WIPO Audiovisual
Performances Treaty in Beijing, China.


Science and Information

BEA and the Census Bureau continued to upgrade the quality and availability of critical economic and demographic information
for policymakers, business leaders, and the public. The Census Bureau released all 2010 Decennial Census data products
scheduled for FY 2012. These products provided the most detailed information available so far from the 2010 Census about
every community’s entire population, including cross-tabulations of age, sex, households, families, relationship to householder,
housing units, detailed race and Hispanic or Latino origin groups, and group quarters.

In FY 2012, the Census Bureau released over 200 economic reports, including 120 principal economic indicators. Responses to
censuses and surveys provide information on a wide range of activities, industries, and outputs. The Census Bureau released
its first-ever mobile application, “America’s Economy,” which provides constantly updated statistics on the U.S. economy.
The America’s Economy application provides real-time updates for 16 key economic indicators released from the Census Bureau,
Bureau of Labor Statistics, and BEA. In addition, the Census Bureau released a new report on the ownership characteristics of
U.S. exporting firms, “Ownership Characteristics of Classifiable U.S. Exporting Firms: 2007.” The report provides new insights
on the ownership and performance of U.S. exporting firms by gender, ethnicity, race, and veteran status.

In FY 2012, ESA released reports on competitiveness and innovation, the benefits of manufacturing jobs, intellectual property
and patent reform, and broadband usage. ESA continued its efforts to improve how economic information is disseminated to
the public and journalists and to improve economic literacy though ESA blog posts, as well as daily email and Twitter updates.

One of BEA’s primary goals in FY 2012 was to maintain and improve the relevance and usefulness of its economic accounts.
This year, BEA emphasized research and development (R&D) of new or alternate statistics as an important avenue toward that
goal. As part of this emphasis, BEA organized joint meetings of the International Association for Research in Income and Wealth
and the National Bureau of Economic Research’s Conference on Research in Income and Wealth, which provided a unique
forum for statistical officials and experts from around the world to present new research findings on topics related to national
accounting, well being, and income distribution. BEA staff presented nearly a dozen papers, ranging in topic from accounting for
multinational companies to depreciating R&D business capital. Additionally, BEA developed new statistics on the distribution of
household income and consumption that will provide decisionmakers with a better understanding of the differential impact of
the current economic struggle across households, industries, and regions. The creation of a new linked dataset that combines
data on cross-border trade in services with data on operations of multinational companies can answer myriad questions, such as
about the characteristics of firms that trade in services and the patterns of international trade in R&D. BEA’s exploration of an
alternate approach to detailing household expenditures on health care by classifying expenditures by disease can facilitate cost-
benefit assessments and allow a better understanding of the factors driving the growth in health care spending. As critical as




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       IX
S TAT E M E N T F R O M T H E S E C R E TA R Y




      these new efforts are, they do not replace the need for BEA to make continuous improvements to the source data and methods
      underlying the economic accounts. The 2012 flexible annual revision of the National Income and Product Accounts incorporated
      expanded data from the Census Bureau’s Quarterly Services Survey (QSS) to improve estimates for the transportation, education,
      and utilities industries and implemented an improved methodology for state and local corporate profits taxes. The annual revision
      of the international transactions accounts incorporated changes in methodology for some categories of estimates and new
      source data that improved statistics on exports and imports of goods, imports of services, income payments, and net unilateral
      current transfers. BEA also provided its customers with important improvements to its Web site. In keeping with BEA’s goal
      to make its statistics more widely available and its Web site easier to use, it made significant improvements to the content of
      regional and international statistics that are available through interactive tables on the bea.gov Web site. BEA launched the new
      “BEABlog” to augment its means of communicating with customers.

      In April 2012, NOAA’s Storm Prediction Center (SPC) issued a high risk outlook for severe weather across Oklahoma, Kansas,
      Nebraska, and Iowa 36 hours in advance of the storm outbreak. NOAA had begun discussion of a potential major tornado outbreak
      nearly seven days before the event occurred. This extraordinary lead time of 36 hours exceeded all previous lead times for similar
      warned events. The SPC and affected Weather Forecast Offices (WFO) issued a total of 11 watches (eight for tornadoes and
      three for severe weather) for the outbreak. With this high risk outlook for severe weather, WFOs in the affected regions began
      a major outreach effort. Community response included the staging of emergency equipment and staff, rescheduling of proms,
      football games, and a large country music concert in Wichita, KS. The Wichita WFO alone issued 32 tornado warnings with
      tornado lead times of 20 minutes.


       Environmental Stewardship

      Each year, NOAA’s annual Arctic Report Card presents a wide range of environmental observations throughout the Arctic.
      The most recent update provided in December 2011 by a team of international scientists indicated that the Earth’s northern
      polar region is entering a new state, one with warmer air and water temperatures, less summer sea ice and snow cover, and
      changed ocean chemistry.

      This shift is also causing changes in the region’s life, both on land and in the sea, including fewer habitats for polar bears and
      walruses, but increased access to feeding areas for whales. The 2011 Report Card showed that record-setting changes are
      occurring throughout the Arctic environmental system and major Arctic changes will likely continue in years to come, with
      increasing climatic, biological, and social impacts.

      As sea ice continues to disappear at a rapid rate, vessel traffic in the Arctic has begun to rise. This is leading to new maritime
      concerns, especially in areas increasingly transited by the offshore oil and gas industry, cruise liners, military craft, tugs and barges,
      and fishing vessels. Keeping all of this new ocean traffic moving smoothly is important to the U.S. economy, environment, and
      national security. In 2012, NOAA released a new nautical chart for Kotzebue Harbor and Approaches, addressing a pressing
      need for the Arctic regional transportation hub in northwest Alaska. The new chart’s accurate and precise depth measurements
      (previously charted in the 1800s) will make ocean-going vessel traffic more efficient through northwest Alaska.

      In October 2011, NOAA established three new Regional Integrated Sciences and Assessments (RISA) awards to climate science
      collaborations in Alaska, California-Nevada, and the Carolinas. The three new awards include the Alaska Center for Climate
      Assessments and Policy (ACCAP – University of Alaska-Fairbanks), the California-Nevada Applications Program (CNAP- Scripps
      Institution of Oceanography), and the Carolinas Integrated Science and Assessments program (CISA – University of South
      Carolina). All three institutions will conduct research efforts collaboratively with other universities and research organizations.
      The ACCAP center will focus on coastal and living marine resources with potential topics including sea ice extent and the
      vulnerability of coastal infrastructure to storms. CNAP will address water supply, planning and preparedness for wildfires, and




  X                                                F Y   2 0 1 2   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                         M A N A G E MS
                                                                                      ETNATT’ S
                                                                                              E MDEI S
                                                                                                     NCT UFSRSOI O
                                                                                                                 MNT A
                                                                                                                     HNE DS EACNRAELTYASRI S
                                                                                                                                           Y




coastal management. The CISA project addresses early warning and preparedness for drought, groundwater vulnerability to saltwater
intrusion, and shellfish pathogens. RISA teams, along with NOAA’s Regional Climate Centers and regional climate services directors,
work with state climate offices to help regional stakeholders address the challenges of a changing climate. RISA team members are
also key contributors to research and assessment activities of the cross-federal agency National Climate Assessment overseen by the
U.S. Global Change Research Program.

The Suomi National Polar-orbiting Partnership Satellite (SNPP) was launched on October 28, 2011, from Vandenberg Air Force Base,
to begin its Earth observation mission. Since the launch, SNPP data has been successfully used in NOAA’s global numerical weather
forecast systems. The launch of SNPP and the effective data collection from weather and climate monitoring sensors represent many
years of exceptional effort by NOAA, the National Aeronautics and Space Administration, and contractor teams to create the gateway to
the U.S. climate monitoring system, collecting both climate and operational weather data and continuing key data records that are critical
for global change science. SNPP carries five science instruments and test key technologies for the Joint Polar Satellite System mission.
It is the first satellite mission to address the challenge of acquiring a wide range of land, ocean, and atmospheric measurements
for earth system science while simultaneously preparing to address operational requirements for long-range weather forecasting.
Understanding, monitoring, and predicting the course of long-term climate change and short-term weather conditions remain tasks of
profound importance.

To prevent and end overfishing in the United States, the Magnuson-Stevens Reauthorization Act requires that all federal fisheries be
harvested under annual catch limits with accompanying accountability measures. On June 29, 2012, NOAA achieved a significant
milestone by approving the final Fishery Management Plan amendment to put annual catch limits and accountability measures into
place. During the next few years, as NOAA continues to manage fisheries under annual catch limits and completes new scientific
stock assessments, we expect to confirm that overfishing has ended and depleted stocks are rebuilding to higher levels of abundance.
Ending overfishing and rebuilding stocks are an investment in the long-term viability of our Nation’s fisheries and fishing communities.
We commend the fishermen and communities impacted by these management changes for their commitment and participation in
making U.S. fisheries among the most responsibly managed in the world.


Customer Service and Organizational Excellence and Workforce Excellence

The Department and the U.S. Small Business Administration were identified as members of the Executive Committee charged to
implement the President’s October 28, 2011 memorandum entitled, “Making it Easier for America’s Small Businesses and America’s
Exporters to Access Government Services to Help Them Grow and Hire.” The Department’s own CommerceConnect was chosen to
oversee the development, implementation, and operations of this federal agency-wide initiative called BusinessUSA. BusinessUSA
continued CommerceConnect’s “No Wrong Door” approach to servicing customers. BusinessUSA fully complements the Department’s
Customer Service and Organizational Excellence objectives. CommerceConnect successfully transitioned to BusinessUSA and met
the presidential objectives, including the launch of the new business.USA.gov Web site, a central contact center through 1-800-FED-
INFO, and interagency collaboration to support improved business assistance and enhanced customer service. U.S. small businesses
and exporters access the Department’s business-facing programs, resources, and services through BusinessUSA. More importantly,
BusinessUSA has helped make it easier for them to find the information they need across the government. Since the release of the
business.USA.gov Web site on February 17, 2012, through September 30, 2012, there have been 623 thousand visits, nearly 1.7 million
pages viewed, over 35,000 content subscribers, nearly 20,000 twitter followers, and 62 links from partner Web sites to BusinessUSA.
BusinessUSA greatly expanded the number of business-facing resources (programs, services, tools, and data) in one central location
from 297 to 1,200 federal, state, and local entities. In addition, it has promoted over 130 success stories and 4,500 local business related
events.

The Department continued the phased migration of human resources (HR) information systems to the HR Management System,
which constitutes a signification investment in updating internal HR systems to provide an enterprise-wide, modern, cost-effective




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       XI
S TAT E M E N T F R O M T H E S E C R E TA R Y




standardized and interoperable HR solution. The migration, which ensures that each phase adds value to the Agency within each fiscal
year, began in FY 2011 and is tentatively scheduled to be completed in FY 2014.

Workforce reshaping efforts continued through the use of the Voluntary Early Retirement Authority (VERA) and Voluntary Separation
Incentive Payment (VSIP) and establishment of a Department Voluntary Resume Bank Program to assist in restructuring and streamlining
the Department workforce while continuing to meet mission goals. The Department received approval for a total of 1,796 VSIPs and
offered approximately 1,389, of which 582 employees have accepted, for a 41 percent acceptance rate, which greatly exceeds the
14.2 percent government-wide rate.

The formation of a Departmental Diversity and Inclusion Program and Diversity and Inclusion Council was approved by Department
leadership, to be headed by the recently appointed Chief Diversity Officer and Deputy Chief Diversity Officer and executed by a
Diversity and Inclusion Council. The council will consist of both bureau and functional representatives responsible for implementing and
monitoring initiatives in support of the FY 2012 – FY 2016 Department Diversity and Inclusion Strategic Plan and Executive Order 13583,
“Establishing a Coordinated Government-wide Initiative to Promote Diversity and Inclusion in the Workforce.”

As one of eight federal agencies participating in the HRstat pilot being led by the Office of Personnel Management and the Performance
Improvement Council, the Department established and held the first reviews of its HRstat program. In alignment with the Government
Performance and Results Act Modernization Act of 2010, quarterly reports and reviews by senior leadership and HR managers on agency
progress and status on key human capital/HR management metrics that drive agency performance will be performed. All metrics will
also be tracked against specific organizations that support the Department’s top four strategic priorities for FY 2012 – FY 2013.

The Department’s financial data and performance results for FY 2012 are provided together in this report in response to the Reports
Consolidation Act of 2000. This information is crucial in helping us to effectively administer our programs, determine their success, and
make adjustments that may be necessary to improve the quality of program operation and service delivery.

For the 14th year in a row, the independent auditors tasked with reviewing our financial statements have provided an unqualified
opinion. Our financial management systems have been found to be in substantial compliance with the Federal Financial Management
Improvement Act (FFMIA) of 1996, and, in accordance with Office of Management and Budget (OMB) Circulars A-136 and A-11, the
financial and performance data published in this report are substantially complete and reliable.

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and OMB Circular A-123 provide the framework within which Departmental
and operating unit managers may determine whether adequate internal controls are in place and operating as they should. We rely on a
wide range of studies conducted by programmatic and administrative managers, the Office of Inspector General (OIG), the Government
Accountability Office (GAO), and others to assist in this effort. Based on activities undertaken during FY 2012, the Department’s system
of internal controls, taken as a whole, is consistent with FMFIA.


In Conclusion

Again, I am proud to submit this report on the FY 2012 performance of the Department, and hope it provides a useful summary of the
results of the Department and its 45,000 employees.




                                                                              Dr. Rebecca Blank
                                                                              Acting Secretary of Commerce
                                                                              November 15, 2012




  XII                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                   HOW TO USE THIS REPORT
                                                   T
                                                          his Performance and Accountability Report (PAR) for FY 2012 provides the
                                                          Department of Commerce’s financial and performance information, enabling
                                                          the President, Congress, and the American people to assess the Department’s
                                                   performance as provided by the requirements of the:

                                                   ●●       Reports Consolidation Act of 2000 and other laws
                                                   ●●       Government Management Reform Act of 1994
                                                   ●●       Government Performance and Results Act (GPRA) of 1993
                                                   ●●       Chief Financial Officers (CFO) Act of 1990
                                                   ●●       Federal Managers’ Financial Integrity Act (FMFIA) of 1982.

                                            The assessment of the Department’s performance contained in this report compares
                                            performance results to the Department’s strategic goals and performance goals.
                                            The Department’s Strategic Plan, Performance Plan, and annual PARs are available
                                            on the Department’s Web site at http://www.osec.doc.gov/bmi/budget/budgetsub_
perf_strategicplans.htm. The Department welcomes feedback on the form and content of this report.

This report is organized into the following major components:

Statement from the Secretary of Commerce
The Secretary’s statement includes an assessment of the reliability and completeness of the financial and performance information
presented in the report and a statement of assurance on the Department’s management controls as required by the FMFIA.

Management’s Discussion and Analysis (MD&A)
This section provides an overview of the financial and performance information contained in the Performance Section, Financial
Section, and Appendices. The MD&A includes an overview of the Department’s organization, a summary of the performance, full-time
equivalents (FTE) and funding of the Department, summary of the performance process, current status of systems and internal control
weaknesses, and summaries of the American Recovery and Reinvestment Act (ARRA) of 2009 funding as it applies to FY 2012 and
Priority Goals.

Performance Section
This section provides the annual performance information as required by Office of Management and Budget (OMB) Circular A-11 and
GPRA. Included in this section is a detailed discussion and analysis of the Department’s performance in FY 2012. For each service and
major office, the results are presented by each of the six Secretarial themes, strategic goals within themes, and objectives within goals.

Financial Section
This section contains the details of the Department’s finances in FY 2012. A message from the Department’s Chief Financial Officer
(CFO), is followed by the information on the Department’s financial management, debt management, payments management, audited
financial statements, other supplemental financial information, and the independent auditors’ report.

Appendices
This section provides summary charts of performance information, a listing of key stakeholders, a discussion of management challenges
including actions taken to address them as well as the FY 2013 management challenges, financial information, a discussion of
undisbursed expired grant accounts, and a glossary of acronyms. The definitions and data sources of performance measures appears
at the end of the Web site version of the PAR located at http://www.osec.doc.gov/bmi/budget/. Appendix C, FY 2012 Management
Challenges and Actions Taken, and Appendix D, FY 2013 Management Challenges, are not Section 508 compliant, unlike the rest of
the PAR. However, Section 508-compliant reports on the FY 2012 and FY 2013 Top Management Challenges can be downloaded from
the OIG’s Web site at http://1.usa.gov/ZvJKqc.
For additional copies of this report, please call the Department of Commerce, Office of Budget, at 202-482-4648 or email either Bill Tatter at
BTatter@doc.gov or William Tootle at WTootle@doc.gov. A listing of Web addresses and email addresses of other Departmental and bureau staff
appears on the inside front cover.
XIV   F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
M anagement ’s
D iscussion and
    A nalysis
             M I S S I O N A N D O R G A N I Z AT I O N



                            MIS S ION

      The Department of Commerce creates the conditions for
    economic growth and opportunity by promoting innovation,
        entrepreneurship, competitiveness, and stewardship.




2                    F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                         FY 2012 PERFORMANCE AND FINANCIAL HIGHLIGHTS

                                                       PERFORMANCE HIGHLIGHTS




 O 
       verall performance results for the Department show
       that of the 118 performance targets, 74 percent were
       at or above target, ten percent slightly below target,
and 16 percent not on target. Overall trends among these
measures reflected the following:

●●    44 (37 percent) reflected a positive trend in that over time
      performance was improving;
●●    40 (34 percent) remained stable in their trends. In most
      cases, these indicators had maintenance targets in that the
      goal was to maintain a standard over time;
●●    6 (5 percent) reflected a negative trend in that performance
      declined over time;
●●    22 (19 percent) were measures that were not in place for
      more than three years and therefore a trend could not be
      detected; and
●●    6 (5 percent) were measures whose targets and actuals were
      closely dependent on the volatile amount of funds from year to year and thus a trend could not be detected. These measures
      were specific to the Economic Development Administration EDA and reflected the amount of invested generated and jobs
      created or retained as a result of EDA funds.

Below are the funding and full-time equivalent (FTE) levels by strategic goal and financial highlights for FY 2012 and FY 2011.
Beginning on page 17 is a summary of the FTE and funding by theme and objective. Discussions and highlights of public benefits,
achievements, and performance results appear in the performance section of this report.


                                                                            Percentage
 (Dollars in Millions)1                                                      Change            FY 2012       FY 2011

     For the Years Ended September 30, 2012 and 2011
     Obligations by Themes:
     Theme 1: Economic Growth                                                    +2.8%        $	4,271.5    $	4,156.0
     Theme 2: Science and Information                                            -0.8%        $	4,635.2    $	4,670.4
     Theme 3: Environmental Stewardship                                          -8.9%        $	1,788.5    $	1,962.4
     Themes 4-6: Management Themes                                               -3.8%        $	87.3       $	91.1
     TOTAL OBLIGATIONS                                                           -0.9%        $	10,782.5   $	10,879.9
     Full Time Equivalents (FTEs) by Strategic Goal:
     Theme 1: Economic Growth                                                    +2.0%        	 16,010     	 15,698
     Theme 2: Science and Information                                            -9.2%        	 17,056     	 18,787
     Theme 3: Environmental Stewardship                                          -0.8%        	 5,167      	 5,209
     Themes 4-6: Management Themes                                              -10.8%        	    297     	    333
     TOTAL FTEs                                                                  -3.7%        	 38,530     	 40,027

 1Performance   funding may differ from funding shown in financial statements because the performance funds do not include one-time funds for unexpected
 events (e.g., hurricanes) or reimbursable work that cannot be planned. In these cases, the funding is not factored into bureau performance amounts. Also
 funding reflects obligations as opposed to costs.




F Y   2 0 1 2       P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                        3
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                   FINANCIAL HIGHLIGHTS

                                                                      Percentage
(Dollars in Thousands)                                                 Change         FY 2012        FY 2011

 As of September 30, 2012 and 2011
 Condensed Balance Sheets:
 ASSETS:
 Fund Balance with Treasury                                              -11%       $	19,261,281   $	21,661,030
 General Property, Plant, and Equipment, Net                            +20%          10,000,512        8,362,263
 Direct Loans and Loan Guarantees, Net                                   +1%             570,348         566,250
 Other                                                                   -27%            587,406         809,498
 TOTAL ASSETS                                                             -3%       $	30,419,547   $	31,399,041

 LIABILITIES:
 Unearned Revenue                                                        +1%          $1,386,503     $1,374,524
 Federal Employee Benefits                                               +5%             851,211         808,482
 Accounts Payable                                                        +5%             452,901         431,735
 Accrued Grants                                                          +7%             635,856         595,721
 Debt to Treasury                                                        +3%             554,281         540,001
 Accrued Payroll and Annual Leave                                         0%             580,715         578,952
 Other                                                                    -8%            241,846         261,713
 TOTAL LIABILITIES                                                       +2%        $	4,703,313    $	4,591,128

 NET POSITION:
 Unexpended Appropriations                                               -27%       $	6,716,434    $	9,219,657
 Cumulative Results of Operations                                        +8%          18,999,800     17,588,256
 TOTAL NET POSITION                                                       -4%       $	25,716,234   $	26,807,913
 TOTAL LIABILITIES AND NET POSITION                                       -3%       $	30,419,547   $	31,399,041


 For the Years Ended September 30, 2012 and 2011

 Condensed Statements of Net Cost:
 Theme 1: Economic Growth Net Program Costs                             +36%        $	3,902,083    $	2,865,357
 Theme 2: Science and Information Net Program Costs                       -8%          3,635,663        3,955,362
 Theme 3: Environmental Stewardship Net Program Costs                    -11%          2,144,275        2,413,081
 TOTAL NET COST OF OPERATIONS                                            +5%        $	9,682,021    $	9,233,800

 Total Gross Costs                                                       +5%        $	13,018,305   $	12,419,854
 Less: Total Earned Revenue                                              +5%        	 (3,336,284) 	 (3,186,054)

 Total Net Cost Of Operations                                                       $	9,682,021    $	9,233,800




   4                                                  F Y   2 0 1 2    P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                      R E V I E W O F F I N A N C I A L P O S I T I O N A N D R E S U LT S



                                                                                            ASSETS

                                                                              The Department had total assets of
                                                                              $30.4 billion as of September 30, 2012.
                                                                              This represents a decrease of $979
                                                                              million or 3 percent over total assets
                                                                              of $31.4 billion at September 30, 2011.
                                                                              Fund Balance with Treasury decreased
                                                                              $2.4 billion or 11 percent, from $21.7
                                                                              billion to $19.3 billion, primarily due to
                                                                              a $1.7 billion decrease in Fund Balance
                                                                              with Treasury for NTIA’s Broadband
                                                                              Technology Opportunities Program under
                                                                              the Recovery Act mainly as a result of
                                                                              a significant decrease in payments to
                                                                              grantees, and also due to a $215
                                                                              million decrease in Fund Balance with
                                                                              Treasury for NIST’s Recovery Act funds
f o r                                                                         construction of research facilities and for
                                                                              scientific and technical research and
                                                                              services. General Property, Plant, and
                                                                              Equipment, Net increased $1.6 billion
or 20                                                                         percent, mainly due to an increase in
                                                                              NOAA Construction-in-progress of
                                                                              $1.6 billion, primarily for satellite
                                                                              programs. Other Assets decreased by
                                                                              $222 million or 27 percent, primarily
due                                                                           to a decrease of $109 million in
                                                                              Advances to the Federal Emergency
                                                                              Management Agency related to NTIA’s
Public Safety Interoperable Communications Program and a $93 million decrease in Advances for NOAA’s Pacific Region
Center construction project.


LIABILITIES

The Department had total liabilities of $4.7 billion as of September 30, 2012. This represents an increase of $112 million
or 2 percent as compared to total liabilities of $4.6 billion at September 30, 2011. Federal Employee Benefits increased
by $43 million or 5 percent, primarily due to an increase of $54 million in the NOAA Corps Retirement System Liability.
Accrued Grants increased by $40 million or 7 percent, primarily due to an increase for EDA of $36 million for economic
development grants. Accounts Payable increased by $21 million or 5 percent, primarily due to an increase in NOAA’s
Accounts Payable of $40 million, mainly related to NOAA’s satellites and weather systems.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    5
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




       NET COST OF OPERATIONS

       In FY 2012, the Department’s Net Cost
       of Operations amounted to $9.7 billion,
       which consists of Gross Costs of
       $13.0 billion less Earned Revenue of
       $3.3 billion. Theme 1 includes Gross
       Costs of $6.5 billion related to enabling
       economic growth through innovation
       and entrepreneurship, market devel-
       opment and commercialization, and
       trade promotion and compliance.
       Theme 2 includes Gross Costs of $4.2
       billion related to promoting science
       and information by generating and
       communicating new cutting-edge
       scientific understanding of technical,
       economic, social, and environmental
       systems. Theme 3 includes Gross Costs of $2.3 billion related to promoting economically-sound environmental steward-
       ship and science.

       The Theme 1 increase in FY 2012 Net Program Costs over FY 2011 of $1.0 billion or 36 percent is primarily due to an increase
       in Gross Costs of $973 million for NTIA’s Broadband Technology Opportunities Program mainly as a result of significantly
       increased grantee costs incurred. The Theme 2 decrease in FY 2012 Net Program Costs over FY 2011 of $320 million or
       8 percent is primarily due to decreased costs of $332 million for Census Bureau’s Decennial and Periodic Censuses major
       program, including decreased costs for information technology, surveys, field data collection, and other costs. The Theme
       3 decrease in FY 2012 Net Program Costs over FY 2011 of $269 million or 11 percent is primarily due to a $342 million
       decrease in NOAA Gross Costs, including a $111 million decrease in costs related to the 2010 Deepwater Horizon oil spill,
       a $36 million decrease in Recovery Act habitat restoration grants costs, and decreases in costs for the National Weather
       Service and the National Centers for Coastal Ocean Science program.




   6                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                      THE DEPARTMENT OF COMMERCE PROCESS FOR

                S T R AT E G I C P L A N N I N G A N D P E R F O R M A N C E R E P O R T I N G



MANAGEMENT STRATEGIC FRAMEWORK, PERFORMANCE PLANNING AND REPORTING AT A GLANCE




 T 
        he Department of Commerce process for strategic planning and performance
        reporting is based on the FY 2011 – FY 2016 Strategic Plan. This plan has       MISSION
                                                                                        & VISION
        three programmatic themes and three organizational themes to guide the
Department in accomplishing its mission to create the conditions for economic
                                                                                        THEMES
growth and opportunity by promoting innovation, entrepreneurship, competi-
tiveness, and stewardship. Within these themes the Department has goals
and objectives that define the structure of accomplishing this mission.             STRATEGIC GOALS
Strategic goals describe objectives that define the results that the
bureaus aim to achieve. These are long-term objectives that often                      OBJECTIVES
involve the work of more than one Department bureau. Each objec-
tive has associated indicators and targets to measure the Depart-                  PROGRAM-SPECIFIC
ment’s impact on a continuous basis. The strategic plan can                     PERFORMANCE MEASURES
be found at http://www.osec.doc.gov/bmi/budget/docfy11-
16strategicplan%20_508version.pdf.                                            PROGRAM-SPECIFIC OUTPUTS


In the FY 2013 Congressional Budget submission, the                       PROGRAM/EMPLOYEE PERFORMANCE
Department’s bureau-specific performance goals and
measures align with the Department’s strategic themes,
goals, and objectives. The performance goals in the Annual Performance Plans (APP) link with the resource requirements
for the past, current, and upcoming fiscal years. Each plan is integrated with the President’s Budget submission to
Congress, at the bureau level. The FY 2013 budget submission and its associated APPs can be found at http://www.osec.
doc.gov/bmi/budget/.

This FY 2012 PAR aligns with the Strategic Plan and provides a public accounting of the Department’s FY 2012 performance
results. The FY 2012 PAR Web address is http://www.osec.doc.gov/bmi/budget/12par/docfy2012par_508version.pdf.
Appendix A of the FY 2012 PAR provides historical results of the Department’s performance, matching targets against
actuals going back as far as FY 2000 in some cases.

How the Department Selects Its Performance Outcomes and Measures

Performance objectives articulated in the introductory material for each strategic goal in the Strategic Plan and APP,
convey a sense of how the Department creates value for the U.S. public. Performance measures depict tangible progress
by Department program activities toward these goals. The Department has tailored performance measures to be more
outcome-oriented (described in the next section). When considered along with external factors and information provided
in program evaluations, these measurements give valuable insight into the performance of Department programs, and
are meant to broadly illustrate how the Department adds value to the U.S. economy. The FY 2012 PAR depicts a top-level,
integrated system for managing for results within the Department, but is not an exhaustive treatment of all Department
programs and activities. This report must also be read with each Department bureau’s own performance results to gain a




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    7
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




       comprehensive picture of the Department’s accomplishments in FY 2012. More in-depth performance results for FY 2012
       and prior years are available in Appendix A. Other information about the bureaus can be found on individual bureau Web
       sites. The directory of Web sites is located on the inside front cover of this report and provides a base for researching
       additional information. Descriptions of any changes between FY 2011 and FY 2012, as well as descriptions including
       validation and verification information of each measure, can be found on the Department’s Web site at http://www.osec.
       doc.gov/bmi/budget/11PAR/DOCFY2011PAR_508version.pdf. This Web site provides all measure descriptions for each
       bureau as part of the FY 2013 annual budgets for each bureau incorporated as Exhibit 3A (APP) of each bureau’s budget
       submission and the soon to be released FY 2014 Congressional Budget submission

       Performance Validation and Verification

       The Department uses a broad range of performance outcomes and measures to make reporting useful and reliable.
       It is imperative to demonstrate that performance measures are backed by accurate and reliable data; valid data are
       important to support management decisions on a day-to-day basis. The data and the means to validate and verify the
       measures are also diverse. As in the measures descriptions above, validation and verification tables appear in the APPs of
       each bureau’s FY 2013 budget submissions. These tables identify each measure, and the following information: (1) data
       source, (2) frequency, (3) data storage, (4) internal control procedures, (5) data limitations, and (6) any actions to be taken.
       This information is available at http://www.osec.doc.gov/bmi/budget/10PARR/DOCFY2010PAR_508version.pdf.

       The Department reviews its performance validation and verification processes to ensure that the performance data are
       accurate. The Department maintains a quarterly monitoring process of performance based upon each bureau’s individual
       balanced scorecards, expanding the Department’s scorecard into bureau-specific activities that feed into the Department’s
       scorecard. Performance measures are associated with the bureaus’ scorecards, flowing into the Department’s scorecard
       and into the PAR.

       Performance Controls and Procedures

       Leadership: In the past, the Department has conducted quarterly performance reviews, during which bureau heads report
       to the Deputy Secretary on the current status of bureau performance. These reviews are continuing in various forms with
       the current administration. These reviews are taking the form of a Balanced Scorecard approach to management, by not
       only emphasizing budget and finance, but also customer, internal business process, and learning and growth perspectives
       into management activities. The Department also took a more integrated, crosscutting approach to its programs. In the
       current Departmental Balanced Scorecard and the FY 2011 – FY 2016 Strategic Plan, bureaus tend to cross themes,
       goals, and objectives, giving a greater emphasis to the Secretary’s three programmatic themes of Economic Growth,
       Science and Information, and Environmental Stewardship, and the three management themes of Customer Service,
       Organizational Excellence, and Workforce along with a greater integration of programs. Individual bureau scorecards
       follow the structure of the Departmental scorecard while providing greater detail about their programs. Finally, progress
       towards Government Performance and Results Act (GPRA) measures appear in this report.

       Performance Data: The Department’s performance measurement data are collected by its 13 bureaus, each with systems
       to manage their data validation and verification processes. Some of these are automated systems and others are manual
       processes. Data can be divided into three types: Financial Data, Data Management Methods, and Data from Manual
       Processes. Some examples include: jobs created or retained (EDA), lead time of tornado warnings (NOAA), and trademark
       applications filed electronically (USPTO).




   8                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Financial Data: As stated above, the Department has a high degree of confidence in its financial data. Internal assessment
and other financial management controls maintain the integrity of these data elements. During the FY 2012 Consolidated
Financial Statement audit, tests and review of the core accounting system and internal controls were conducted as
required by the Chief Financial Officers (CFO) Act. Further, the Department conducted its assessment of the effectiveness
of internal control over financial reporting, which includes safeguarding of assets and compliance with applicable laws
and regulations, in accordance with the requirements of Appendix A of Office of Management and Budget (OMB) Circular
A-123. As a result, the Department is able to provide a qualified statement of assurance that its internal controls and
financial management systems meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA), with the
exception of one material weakness. The material weakness is related to the budgetary control issues identified for the
unauthorized reprogramming of funds at the National Weather Service (NWS) and other potential matters under review
by the Department, and accounting for satellites and property at the National Oceanic and Atmospheric Administration
(NOAA). Other than this exception, internal controls were operating effectively and no other material weaknesses
were found.

Departmental Performance Structure

Programmatic themes are the realm of the bureaus while the organizational themes (Customer Service, Organizational
Excellence, and Workforce Excellence) focus on Departmental Management and the Office of Inspector General (OIG)
though these themes do have elements from other bureaus. Nearly all of the funding occurs in the three programmatic
themes, though no theme dominates the other with occasional fluctuations occurring that change the respective
percentages.

Since one of the primary purposes of the PAR is to examine the FY 2012 performance, this PAR does not include past
discontinued measures since they do not provide a true reflection of historical trends through FY 2012, particularly when
measures didn’t accurately reflect the work of the bureau. Therefore, performance historical tables reflect past trends
using the measures that the Department reports on in FY 2012.


SUMMARY DESCRIPTION OF BUREAUS

The following are summary descriptions of each bureau in budget appropriation order with applicable themes listed at the
end of each description.

The Departmental Management (DM) develops and implements policy affecting U.S. and international activities as
well as internal goals and operations of the Department. DM serves as the primary liaison with the executive branch and
Congressional and private sector groups, and acts as the management and administrative control point for the Department.
Executive Direction develops and implements Departmental policies and coordinates bureau program activities to
accomplish the Department’s mission while Departmental Staff Services develops and implements the Department’s
internal policies, procedures, and other administrative guidelines. CUSTOMER SERVICE, ORGANIZATIONAL EXCELLENCE, AND
WORKFORCE EXCELLENCE



The Office of Inspector General (OIG) ensures that the Department’s employees and others managing federal
resources comply with applicable laws and regulations, and actively work to prevent fraud, waste, and abuse in program
operations. The OIG monitors and tracks the use of taxpayer dollars in federally-funded programs with its purpose being
to keep Departmental officials and Congress fully and currently informed about issues, problems, and deficiencies relating
to the administration of programs and operations and the need for corrective action. ORGANIZATIONAL EXCELLENCE




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    9
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




       The Economic Development Administration (EDA) directly supports the Department’s goal to maximize U.S.
       competitiveness and enable economic growth for U.S. industries, workers, and consumers with the objective to foster
       domestic economic development as well as export opportunities. To achieve this objective, EDA promotes a favorable
       business environment through strategic investments in public infrastructure. These investments help attract private
       capital investment and jobs that address problems of high unemployment, low per capital income, and sudden, severe
       economic challenges. ECONOMIC GROWTH

       The Census Bureau is the leading source of quality data about the Nation’s people and economy. The Census Bureau
       measures those trends and segments of the U.S. population and economy most critical to continued U.S. success and
       prosperity. The Census Bureau provides benchmark measures of the U.S. population, economy, and governments; and
       provides current measures of the U.S. population, economy, and governments. The Census Bureau’s cyclical programs
       include the Economic Census and the Census of Governments, conducted every five years, and the Decennial Census
       program, conducted every 10 years. SCIENCE AND INFORMATION

       The Bureau of Economic Analysis (BEA) produces some of the Nation’s most important economic statistics, including
       GDP and the balance of payments. BEA promotes a better understanding of the U.S. economy by providing timely,
       relevant, and accurate economic accounts data in an objective and cost-effective manner. Although a relatively small
       agency, BEA’s economic statistics are among the Nation’s most closely watched. BEA’s statistics influence critical
       decisions made by policymakers, business leaders, households, and individuals affecting interest and exchange rates, tax
       and budget projections, business investment plans, and the allocation of over $200 billion in federal funds. SCIENCE AND
       INFORMATION



       The International Trade Administration (ITA) works to create prosperity by promoting trade and investment, ensuring fair
       trade and compliance with trade laws and agreements, and strengthening the competitiveness of U.S. industry. Within ITA,
       the Manufacturing and Services (MAS) unit analyzes the domestic and international aspects of U.S. competitiveness by
       working with U.S. industries to evaluate the needs of the MAS sectors, conducting economic and regulatory studies aimed
       at strengthening U.S. industry, obtaining input and advice from U.S. industries for trade policy setting, and participating,
       as appropriate, with ITA trade policy and negotiation advancement initiatives. The Market Access and Compliance (MAC)
       unit concentrates on the development of strategies to overcome market access obstacles faced by U.S. businesses.
       MAC monitors foreign country compliance with numerous trade-related agreements and identifies compliance problems
       and other market access obstacles. The Import Administration (IA) helps ensure fair trade by administering the U.S.
       antidumping and countervailing duty (AD/CVD) laws in a manner consistent with U.S. international obligations. IA works
       extensively with U.S. businesses on a regular basis to educate them about U.S. trade laws related to dumping and foreign
       government subsidies and how to act if they are injured by those practices. Trade Promotion and the U.S. and Foreign
       Commercial Service (US&FCS) broadens and deepens the base of U.S. exports by providing U.S. companies with reliable
       advice on the range of public and private assistance available, and knowledgeably supports all other federal trade promotion
       services. ECONOMIC GROWTH

       The Bureau of Industry and Security (BIS) advances U.S. national security, foreign policy, and economic objectives by
       ensuring an effective export control and treaty compliance system and by promoting continued U.S. strategic technology
       leadership. BIS (1) regulates the export of sensitive “dual use” goods and technologies in an effective and efficient manner;
       (2) enforces export control, antiboycott, and public safety laws; (3) cooperates with and assists other countries on export
       control and strategic trade issues; (4) assists U.S. industry in complying with international arms agreements; monitors
       the viability of the U.S. defense industrial base; (5) evaluates the effects on national security of foreign investments in
       U.S. companies; and (6) supports continued U.S. technology leadership in industries that are essential to national security.
       ECONOMIC GROWTH




  10                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The Minority Business Development Agency (MBDA) actively promotes the ability of minority business enterprises
(MBE) to grow and to participate in the global economy through a range of activities that include funding a network of
centers that provide MBEs a variety of business assistance services.

MBDA (1) fosters the expansion of opportunities for minority-owned business in the global marketplace; (2) identifies
sources of financial capital for minority-owned firms; (3) develops and upgrades electronic tools to provide access to growth
markets through automated matching of MBEs to public and private sector opportunities; (4) provides management and
technical assistance to minority-owned businesses; and (5) advocates for the increased use of electronic commerce and
new technologies by MBEs. SCIENCE AND INFORMATION, ENVIRONMENTAL STEWARDSHIP

The National Oceanic and Atmospheric Administration (NOAA) promotes environmental stewardship. NOAA encom-
passes all of Strategic Goal 3. SCIENCE AND INFORMATION, ENVIRONMENTAL STEWARDSHIP

NOAA is divided into two primary appropriation accounts, Operations, Research, and Facilities; and Procurement,
Acquisition, and Construction, for both of which the following six programs apply:

●●   The National Ocean Service (NOS) provides scientific, technical, and management expertise to promote safe
     navigation; protects and restores coastal and marine resources damaged by natural or human-induced threats; and
     manages and preserves coastal and ocean environments.

●●   The National Marine Fisheries Service (NMFS) manages and conserves the living marine resources within the
     200-mile U.S. Exclusive Economic Zone. NMFS is dedicated to the stewardship of living marine resources through
     science-based conservation and management.

●●   The Office of Oceanic and Atmospheric Research (OAR) provides the research and technology development
     necessary to improve NOAA climate, weather, coastal, and ocean services. OAR supplies the scientific information
     to advise national policy decisions in such areas as climate change, air quality, coastal resource management, and
     stratospheric ozone depletion.

●●   The National Weather Service (NWS) provides weather, hydrologic, and climate forecasts and warnings for
     the United States, its territories, adjacent waters, and ocean areas, for the protection of life and property and the
     enhancement of the national economy.

●●   The National Environmental Satellite, Data and Information Service (NESDIS) operates the polar-orbiting and
     geostationary operational environmental satellites and manages NOAA’s environmental data collections for use in
     studying long-term environmental change.

●●   Program Support provides overall NOAA management, planning, and administrative support for NOAA. Program
     Support promotes environmental literacy and develops and sustains a world-class workforce. Program Support
     provides for repair, restoration, and other construction efforts, along with NOAA-wide environmental compliance and
     safety issues. With Program Support, the Office of Marine and Aviation Operations operates and maintains NOAA’s
     ships and aircraft and uses them to collect data to support NOAA’s mission.

The U.S. Patent and Trademark Office (USPTO) fosters innovation and competitiveness by providing high quality
and timely examination of patent and trademark applications, guiding domestic and international intellectual property
(IP) policy, and delivering IP information and education worldwide. Two distinct business lines, Patents and Trademarks,
administer the patent and trademark laws which provide protection to inventors and businesses for their inventions and
corporate and product identifications, and encourage innovation and scientific and technical advancement of U.S. industry
through the preservation, classification, and dissemination of patent and trademark information. ECONOMIC GROWTH



F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    11
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




       The National Institute of Standards and Technology (NIST) promotes U.S. innovation and industrial competitiveness
       by advancing measurement science, standards, and technology in ways that improve economic security and quality of
       life. NIST develops and disseminates measurement techniques, reference data, test methods, standards, and other
       technologies and services needed by U.S. industry to compete in the 21st century. The NIST laboratories provide the
       measurement science and physical standards that are essential components of the technology infrastructure underpinning
       U.S. innovation. NIST’s Technology Innovation Program (TIP) supports innovative, high-risk, high-reward research in
       areas of critical national need where the government has a clear interest due to the magnitude of the problems and
       their importance to society. Through federal-state-local and private sector partnerships, NIST’s Hollings Manufacturing
       Extension Partnership (MEP) provides technical and business assistance to manufacturers through a nationwide network
       of centers in all 50 states and Puerto Rico. The Baldrige National Quality Program promotes proven quality and performance
       management practices to strengthen U.S. companies, educational organizations, and health care providers. Recognized
       worldwide, the program furthers organizational excellence through education, outreach, and annual awards. ECONOMIC
       GROWTH



       The National Technical Information Service (NTIS) collects and preserves scientific, technical, engineering, and
       other business-related information from federal and international sources, and disseminates it to the U.S. business and
       industrial research community. SCIENCE AND INFORMATION

       The National Telecommunications and Information Administration (NTIA) develops domestic and international
       telecommunications and information policy for the executive branch; ensures the efficient and effective management and
       use of the federal radio spectrum; and performs state-of-the-art telecommunications research, engineering, and planning.
       ECONOMIC GROWTH, SCIENCE AND INFORMATION



       On the following pages is a listing of the key measures of each of the bureaus in the Department. This list is not all-
       inclusive. Further information concerning these and other performance measures can be found in Appendix A. The status
       of a given measure is either exceeded (more than 125 percent of the target), met (100 to 125 percent of target), slightly
       below (95 to 99 percent of the target), or not met (below 95 percent of target).




  12                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                          KEY PERFORMANCE MEASURES
      THEME                        PERFORMANCE MEASURE                                   TARGET                        ACTUAL               STATUS
Theme 1:             Patent quality composite rate (USPTO)                                48-56                          72.4               Exceeded
Economic             Patent total pendency (months) (USPTO)                                34.7                          32.4                 Met
Growth
                     Trademark final compliance rate (USPTO)                             97.0%                          97.1%                 Met

                     Trademark average total pendency (months)                             12.0                          10.2
                                                                                                                                              Met
                     (USPTO)
                     Private investment leveraged – 9 year totals                       $1,810M                       $1,620M1
                                                                                                                                             Not Met
                     (EDA)
                     Jobs created/retained – 9 year totals (EDA)                         52,700                        45,8001               Not Met

                     Dollar value of contract awards obtained (MBDA)                     $1.10B                         $1.16B                Met

                     Dollar value of financial awards obtained (MBDA)                    $0.90B                         $1.56B              Exceeded

                     Miles of broadband networks deployed (NTIA)                         50,000                         72,1522             Exceeded

                     Community anchor institutions connected (NTIA)                      10,000                        10,0452              Exceeded

                     New and upgraded computer workstations (NTIA)                       35,000                        36,3472              Exceeded

                     New household and business subscribers to                           350,000                       388,6792
                                                                                                                                            Exceeded
                     broadband (NTIA)
                     Qualitative assessment and review of technical              Complete annual peer                 Completed
                                                                                                                                              Met
                     quality and merit using peer review (NIST)                        review
                     Standard Reference Materials (SRM) sold (NIST)                      31,000                         33,441                Met

                     Annual cost savings resulting from the adoption                     $250M                           $0M
                     of MAS recommendations contained in MAS                                                                                 Not Met
                     studies and analysis (ITA)
                     Increased sales attributed to Hollings MEP                 $2,000M from FY 2011           $2,700M from FY 2011
                                                                                                                                            Exceeded
                     centers receiving federal funding (NIST)                         funding                        funding
                     Cost savings attributed to Hollings MEP centers            $1,100M from FY 2011            $966M from FY 2011
                                                                                                                                             Not Met
                     receiving federal funding (NIST)                                 funding                        funding
                     Number of clients assisted by US&FCS (ITA)                          20,709                         18,945               Not Met

                     Commercial diplomacy success (cases) (annual)                         152                            215
                                                                                                                                            Exceeded
                     (ITA)
                     Number of actions that result in a deterrence or                      850                           1,162
                     prevention of a violation and cases which result in                                                                    Exceeded
                     a criminal and/or administrative charge (BIS)
                     Percent of industry-specific trade barriers                          20%                            37%
                                                                                                                                            Exceeded
                     addressed that were removed or prevented (ITA)
                     Number of compliance and market access cases                           80                            89
                                                                                                                                              Met
                     resolved successfully (ITA)
                     Dollar value of U.S. export content in advocacy                      $19B                           $74B
                                                                                                                                              Met
                     cases won (ITA)
1	   Estimates as of November 15, 2012. EDA expects to meet or be slightly below the targets with the release of final performance data.
2	   Actuals as of June 30, 2012. NTIA anticipates exceeding all its targets with fourth quarter data.
                                                                                                                                           (continued)




F Y   2 0 1 2     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                             13
     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                 KEY PERFORMANCE MEASURES (continued)
      THEME                      PERFORMANCE MEASURE                                    TARGET                         ACTUAL                STATUS
Theme 2:           Number of information products disseminated                        49,878,000                     54,592,481
                                                                                                                                                Met
Science and        (NTIS)
Information        Complete key activities for cyclical census                    At least 90% of key            At least 90% of key
                   programs on time to support effective decision-                activities completed           activities completed
                   making by policymakers, businesses, and the                            on time                        on time                Met
                   public and meet constitutional and legislative
                   mandates (ESA/CENSUS)
                   Achieve pre-determined collection rates for                  At least 90% of key            At least 80% of key
                   Census Bureau censuses and surveys to provide               censuses and surveys           censuses and surveys
                   statistically reliable data to support effective           meet/exceed collection         met/exceeded collection          Not Met4
                   decision-making of policymakers, businesses, and           rates/levels of reliability    rates/levels of reliability
                   the public (ESA/CENSUS)
                   Release data products for key Census Bureau               ●●    100% of Economic         ●●   100% of Economic
                   programs on time to support effective decision-                 Indicators released           Indicators released on
                   making of policymakers, businesses, and the                     on time                       time
                   public (ESA/CENSUS)                                                                                                          Met
                                                                             ●●    At least 90% of          ●●   At least 90% of
                                                                                   key prep activities           key prep activities
                                                                                   completed on time             completed on time
                   Timeliness: Reliability of delivery of economic data                   62                              62
                   (number of scheduled releases issued on time)
                   (ESA/BEA)                                                                                                                    Met




                   Accuracy: Percent of GDP estimates correct                           > 85%                            87%
                                                                                                                                                Met
                   (ESA/BEA)
                   Severe weather warnings for tornadoes – Lead                           13                             125
                                                                                                                                           Slightly Below
                   time (minutes) (NOAA)
                   Severe weather warnings for tornadoes (storm-                         72%                            71%5
                                                                                                                                           Slightly Below
                   based) – Accuracy (%) (NOAA)
                   Hurricane forecast track error (48 hours) (nautical                    84                             705
                                                                                                                                             Exceeded
                   miles) (NOAA)
                   Hurricane forecast intensity error (48 hours)                          13                             14.4
                                                                                                                                              Not Met
                   (difference in knots) (NOAA)
4	 Whereas this target appears to have been met, there are extenuating circumstances. The Survey of Income Program and Participation (SIPP) is a
   longitudinal (cannot add to sample) survey that realizes a decrease in response rates as the survey progresses and respondents decline participation.
   The Annual Capital Expenditures Survey (ACES) consists of businesses (sample) without employees. Their unwillingness to participate in the survey had
   a negative impact on the response rate that resulted in missing the targets through the third quarter of FY 2012.
5	 Estimates. Pending collection of final performance data.

                                                                                                                                            (continued)




       14                                               F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                             M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                  KEY PERFORMANCE MEASURES (continued)
     THEME                      PERFORMANCE MEASURE                                   TARGET                         ACTUAL                STATUS
Theme 3:      Error in global measurement of sea surface                               0.50ºC                         0.56ºC
                                                                                                                                            Not Met
Environmental temperature (NOAA)
Stewardship   Fish stock sustainability index (FSSI) (NOAA)                            603.5                            606                   Met

                   Percentage of fish stocks with adequate                             57.4%                           56.1%
                                                                                                                                         Slightly Below
                   population assessments and forecasts (NOAA)                       (132/230)                       (129/230)
                   Number of habitat acres restored (annual) (NOAA)                   80,007                          8,2426               Exceeded

                   Annual number of coastal, marine, and Great                        69,550                        8,694,0707
                   Lakes habitat acres acquired or designated for                                                                          Exceeded
                   long-term protection (NOAA)
                   Percentage of U.S. coastal states and territories                    34%                            46%
                   demonstrating 20% or more annual improvement
                                                                                                                                           Exceeded
                   in resilience capacity to weather and climate
                   hazards (%/year) (NOAA)
                   Hydrographic survey backlog within navigationally                   2,200                           2,947
                   significant areas (square nautical miles surveyed                                                                          Met
                   per year) (NOAA)
                   Percent of U.S. and territories enabled to benefit                   20%                           23.9%
                   from a new national vertical reference system for                                                                          Met
                   improved inundation management (NOAA)
Theme 4:           Number of referrals made (DM)                                       1,100                            703                 Not Met

Customer           Number of companies engaged – field operations                       400                             401
                                                                                                                                              Met
Service            (DM)
Theme 5:       Provide accurate and timely financial information            ●●   Eliminate any            ●●   Did not eliminate
Organizational and conform to federal standards, laws, and                       significant deficiency        significant deficiency
Excellence     regulations governing accounting and financial                    within 1 year of
                                                                                                          ●●   Completed A-123
               management (DM)                                                   determination that
                                                                                                               assessment
                                                                                 there is a significant                                     Not Met
                                                                                 deficiency
                                                                            ●●   Complete FY 2012
                                                                                 A-123 assessment of
                                                                                 internal controls
                   Effectively use commercial services management           ●●   Increase use of          ●●   1% increase
                   (DM)                                                          competition by
                                                                                                          ●●   16% decrease
                                                                                 2% measured by
                                                                                 procurement dollars
                                                                                 awarded
                                                                            ●●   Decrease                                                Slightly Below
                                                                                 procurement dollars
                                                                                 awarded on cost-
                                                                                 reimbursement, time
                                                                                 and materials, and
                                                                                 labor hour contracts
                                                                                 by 10%
6	 Acres restored with funding from the Pacific Coastal Salmon Recovery Fund were not available at the time of publication. The acres shown were
   restored with Habitat Program funding, which exceeded the target of 6,007.
7	 Acres acquired or designated was exceeded due to the expansion of the Fagatele Bay National Marine Sanctuary in American Samoa to include five

   additional discrete sites.
                                                                                                                                          (continued)



F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                             15
    M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S



                                             KEY PERFORMANCE MEASURES (continued)
   THEME                     PERFORMANCE MEASURE                                   TARGET                         ACTUAL                 STATUS
Theme 5:       Improve the management of information                     ●●   IT investments          ●●   75% of major IT
Organizational technology (DM)                                                have cost/schedule           investments have cost/
Excellence                                                                    overruns and                 schedule overruns and
(continued)                                                                   performance                  performance shortfalls
                                                                              shortfalls averaging         averaging less than
                                                                              less than 10%                10%
                                                                         ●●   Perform IT security     ●●   Completed 29 IT
                                                                              compliance review            security assessments.
                                                                              of all operating             Conducted IT security
                                                                              units, and 10 FISMA          compliance checks
                                                                              systems in CSAM              of all Department
                                                                                                           operating units and
                                                                         ●●   Increase security
                                                                                                           in-depth internal control
                                                                              training completion
                                                                                                           review meetings with
                                                                              rate to 80% for
                                                                                                           five selected operating
                                                                              privileged users
                                                                                                           units as part of the
                                                                              (role-based)
                                                                                                           Department’s IT internal
                                                                         ●●   Deploy 80% of the            control review program.
                                                                              required NCSD 3-10
                                                                                                      ●●   Trained Authorizing             Met
                                                                              communications
                                                                                                           Officials and System
                                                                              capabilities. Expand
                                                                                                           Owners throughout
                                                                              cyber intelligence
                                                                                                           the Department with
                                                                              communications
                                                                                                           quarterly workshops.
                                                                              channel to all
                                                                                                           Achieved greater
                                                                              operating unit
                                                                                                           than 85% of required
                                                                              Computer Incident
                                                                                                           security training for
                                                                              Response Teams.
                                                                                                           privileged users
                                                                                                           (role-based).
                                                                                                      ●●   The Department is
                                                                                                           currently at 50%.
                                                                                                           Required equipment
                                                                                                           and systems are
                                                                                                           installed at the
                                                                                                           Herbert C. Hoover
                                                                                                           Building. Deploying
                                                                                                           classified connectivity
                                                                                                           to all outside bureau
                                                                                                           components.
                Dollar value of financial benefits identified by the               $39.0M                        $175.8M
                                                                                                                                         Exceeded
                OIG (OIG)
Theme 6:        Acquire and maintain diverse and highly qualified        ●●   Meet or exceed the      ●●   84 calendar days
Workforce       staff in mission-critical occupations (DM)                    80-day hiring goals
                                                                                                      ●●   122 Department
Excellence                                                                    mandated by OPM
                                                                                                           participants in
                                                                         ●●   Train 100-200                leadership development
                                                                              participants                 programs
                                                                              on leadership
                                                                                                      ●●   711 participants in
                                                                              development                                                  Met
                                                                                                           Careers in Motion
                                                                              programs via ALDP,
                                                                              ELDP, and APCP
                                                                         ●●   Train 180-200
                                                                              participants via
                                                                              Careers in Motion



      16                                               F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                       FTE, FUNDING, AND PERFORMANCE SUMMARY


                                    THEME 1:            ECONOMIC GROWTH




T
        he following three strategic goals (and their applicable bureaus) apply to this theme.

●●   Strategic Goal – Innovation and Entrepreneurship: Develop the tools, systems, policies, and technologies critical
     to transforming our economy, fostering U.S. competitiveness, and driving the development of new businesses (USPTO,
     EDA, NIST, NTIA)

●●   Strategic Goal – Market Development and Commercialization: Foster market opportunities that equip businesses
     and communities with the tools they need to expand, creating quality jobs with special emphasis on unserved and
     underserved groups (EDA, MBDA, ITA, NIST)

●●   Strategic Goal – Trade Promotion and Compliance: Improve our global competitiveness and foster domestic job
     growth while protecting American security (ITA, BIS, NTIA)

Of all the themes within the Department, the Economic Growth theme accounted for 39 percent of the total funding, and
39 percent of the full-time equivalent (FTE). Within the Economic Growth theme, the Innovation and Entrepreneurship
goal accounted for 84 percent of the FTE and 78 percent of the theme funding. This goal includes all of the U.S. Patent
and Trademark Office (USPTO) and portions of the Economic Development Administration (EDA), the National Institute
of Standards and Technology (NIST), and the National Telecommunications and Information Administration (NTIA).
Market Development, the smallest of the three goals in terms of FTE and funding, accounted for 3 percent of FTE and
9 percent of the theme funding. This goal includes all of the Minority Business Development Agency (MBDA), and portions
of EDA, the International Trade Administration (ITA), and NIST. The Trade Promotion goal accounted for 13 percent of
FTE and 13 percent of the theme funding. This goal includes all of the Bureau of Industry and Security (BIS), and portions
of ITA and NTIA.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    17
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




              STRATEGIC GOAL – INNOVATION AND ENTREPRENEURSHIP: Develop the tools, systems, policies, and technologies
              critical to transforming our economy, fostering U.S. competitiveness, and driving the development of new businesses
         OBJECTIVE                                                                                           FUNDING
          NUMBER                                         OBJECTIVE                                       (Dollars in Millions)    FTE
                       Improve intellectual property protection by reducing patent pendency,
              1        maintaining trademark pendency, and increasing the quality of issued patents          $2,329.6            10,342
                       and trademarks (USPTO)
                       Expand international markets for U.S. firms and inventors by improving the
              2                                                                                                $45.1              127
                       protection and enforcement of intellectual property rights (USPTO)
                       Stimulate high-growth business formation and entrepreneurship, through
              3        investing in high-risk, high-reward technologies and by removing impediments            $57.1               53
                       to accelerate technology commercialization (EDA)
                       Drive innovation by supporting an open global Internet and through
              4        communications and broadband policies that enable robust infrastructure,                $77.3              160
                       ensure integrity of the system, and support e-commerce (NTIA)
                       Provide measurement tools and standards to strengthen manufacturing, enable
              5                                                                                               $774.7             2,849
                       innovation and enhance efficiency (NIST)




  18                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                    M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                 STRATEGIC GOAL – MARKET DEVELOPMENT AND COMMERCIALIZATION: Foster market opportunities
                   that equip businesses and communities with the tools they need to expand, creating quality jobs
                                     with special emphasis on unserved and underserved groups
  OBJECTIVE                                                                                                          FUNDING
   NUMBER                                                  OBJECTIVE                                             (Dollars in Millions)   FTE
                    Promote the advancement of sustainable technologies, industries, and
         61                                                                                                            $26.7              12
                    infrastructure (EDA)
                    Promote the vitality and competitiveness of our communities and businesses,
         7                                                                                                            $234.4             229
                    particularly those that are disadvantaged or in distressed areas (EDA, MBDA)
                    Improve the competitiveness of small and medium-sized firms in
         8                                                                                                            $185.3             285
                    manufacturing and service industries (ITA, NIST)
 1	   The measures that apply to this objective also apply to Objective 3 and are reflected in the status of that objective.



                    STRATEGIC GOAL – TRADE PROMOTION AND COMPLIANCE: Improve our global competitiveness
                                and foster domestic job growth while protecting American security
  OBJECTIVE                                                                                                          FUNDING
   NUMBER                                                  OBJECTIVE                                             (Dollars in Millions)   FTE
                    Increase U.S. export value through trade promotion, market access,
         9          compliance, and interagency collaboration (including support for small and                        $350.2             1,198
                    medium enterprises) (ITA)
                    Implement an effective export control reform program to advance national
         10                                                                                                           $101.0             366
                    security and overall economic competitiveness (BIS)
                    Develop and influence international standards and policies to support the
         11         full and fair competitiveness of the U.S. information and communications                            $2.2              8
                    technology sector (NTIA)
                    Vigorously enforce U.S. fair trade laws through impartial investigation of
         12         complaints, improved access for U.S. firms and workers, and fuller compliance                      $87.9             381
                    with antidumping/countervailing duty remedies (ITA)




F Y   2 0 1 2     P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                 19
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                   THEME 2:            S C I E N C E A N D I N F O R M AT I O N




        T 
              his theme has only one strategic goal, that being, “Generate and communicate new, cutting-edge scientific
              understanding of technical, economic, social, and environmental systems.” The Economics and Statistics
              Administration’ (ESA) Census Bureau and Bureau of Economic Analysis (BEA), the National Oceanic and Atmospheric
       Administration (NOAA), the National Technical Information Service (NTIS), and NTIA all contribute to this goal and theme.

       Off all the themes within the Department, the Science and Information theme accounted for 43 percent of the total
       funding, and 47 percent of the FTE.




  20                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                STRATEGIC GOAL: Generate and communicate new, cutting-edge scientific understanding of technical,
                                         economic, social, and environmental systems
  OBJECTIVE                                                                                            FUNDING
   NUMBER                                           OBJECTIVE                                      (Dollars in Millions)    FTE
                  Increase scientific knowledge and provide information to stakeholders to
      13          support economic growth and to improve innovation, technology, and public              $89.3              205
                  safety (NTIS, NTIA)
                  Enable informed decision-making through an expanded understanding of the
      14          U.S. economy, society, and environment by providing timely, relevant, trusted,       $3,447.6            11,797
                  and accurate data, standards, and services (ESA/CENSUS, ESA/BEA, NOAA)
      15          Improve weather, water, and climate reporting and forecasting (NOAA)                 $1,098.3            5,054




F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     21
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                THEME 3:            E N V I R O N M E N TA L S T E WA R D S H I P




        T 
               his theme has only one strategic goal, that being, “Promote economically-sound environmental stewardship and
               science.” NOAA is the only bureau that contributes to this theme. Environmental Stewardship accounted for
               17 percent of funding and 13 percent of FTE.




  22                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                        STRATEGIC GOAL: Promote economically-sound environmental stewardship and science
  OBJECTIVE                                                                                              FUNDING
   NUMBER                                             OBJECTIVE                                      (Dollars in Millions)   FTE1
        16          Support climate adaptation and mitigation (NOAA)                                      $281.4             693
        17          Develop sustainable and resilient fisheries, habitats, and species (NOAA)             $976.1             3,122
                    Support coastal communities that are environmentally and economically
        18                                                                                                $531.0             1,352
                    sustainable (NOAA)
 1	   Estimates.




F Y   2 0 1 2      P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       23
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                               MANAGEMENT THEMES (THEMES 4, 5, AND 6)




        T       he following three management themes have been grouped together since their combined activities reflect that
                of only two bureaus: Departmental Management (DM) and the Office of Inspector General (OIG).

       ●●   Customer Service

       ●●   Organizational Excellence

       ●●   Workforce Excellence




  24                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                 M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The tables below show the strategic goals and objectives for the Customer Service, Organizational Excellence, and
Workforce Excellence themes that have FY 2012 funding and FTE. Note that the Department has not yet provided
funding and FTE for Objectives 20, 26, and 27.


                                                          THEME 4: CUSTOMER SERVICE

          STRATEGIC GOAL: Create a culture of outstanding communication and services to our internal and external customers
  OBJECTIVE                                                                                                   FUNDING
   NUMBER                                                  OBJECTIVE                                      (Dollars in Millions)   FTE
                    Provide streamlined services and a single point of contact assistance for cus-
         19         tomers, improving interaction and communication through CommerceConnect,                     $2.4             N/A1
                    partnerships, and other means of stakeholder involvement (DM)
                    Provide a high level of customer service to our internal and external customers
         21         through effective and efficient functions implemented by empowered                           $6.8             N/A1
                    employees (DM)
 1	   All of DM FTE is shown in Objective 22.



                                                   THEME 5: ORGANIZATIONAL EXCELLENCE

              STRATEGIC GOAL: Create a high-performing organization with integrated, efficient, and effective service delivery
  OBJECTIVE                                                                                                   FUNDING
   NUMBER                                                  OBJECTIVE                                      (Dollars in Millions)   FTE
                    Strengthen financial and non-financial internal controls to maximize program
         22         efficiency, ensure compliance with statutes and regulations, and prevent                    $55.7             297
                    waste, fraud, and abuse of government resources (DM, OIG)
                    Re-engineer key business processes to increase efficiencies, manage risk, and
         23                                                                                                      $3.8             N/A1
                    strengthen effectiveness (DM)
                    Create an IT enterprise architecture that supports mission-critical business and
         24         programmatic requirements, including effective management of cyber security                 $13.7             N/A1
                    threats (DM)
 1	   All of DM FTE is shown in Objective 22.



                                                        THEME 6: WORKFORCE EXCELLENCE

                           STRATEGIC GOAL: Develop and support a diverse, highly qualified workforce with the
                                   right skills in the right jobs to carry out the Department’s mission
  OBJECTIVE                                                                                                   FUNDING
   NUMBER                                                  OBJECTIVE                                      (Dollars in Millions)   FTE
                    Recruit, grow, develop, and retain a high-performing diverse workforce with
         25         the critical skills necessary for mission success, including the next generation             $4.9             N/A1
                    of scientists and engineers (DM)
 1	   All of DM FTE is shown in Objective 22.




F Y   2 0 1 2     P E R F O R M A N C E         A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                            25
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                MANAGEMENT CONTROLS




              T 
                     he Department’s management is responsible for establishing and maintaining effective internal control
                     and financial management systems that meet the objectives of the Federal Managers’ Financial Integrity
                     Act (FMFIA). During FY 2012, the Department assessed its internal control over the effectiveness
             and efficiency of operations and compliance with applicable laws and regulations in accordance with Office of
             Management and Budget (OMB) Circular A-123, Management’s Responsibility for Internal Control. As a result,
             the Department is able to provide a qualified statement of assurance that its internal controls and financial
             management systems meet the objectives of FMFIA, with the exception of one material weakness as discussed
             below.

             During FY 2012, the Department assessed its internal control over the effectiveness and efficiency of operations
             and compliance with applicable laws and regulations in accordance with OMB Circular A123, Management’s
             Responsibility for Internal Control. Based on the results of this evaluation, the Department identified one material
             weakness in financial management oversight at the National Oceanic and Atmospheric Administration (NOAA).
             This weakness is related to the budgetary controls issues identified for the unauthorized reprogramming of
             funds at the National Weather Service (NWS) and other potential matters under review by the Department, and
             accounting for satellites and property at NOAA. The Department’s, Office of General Counsel has determined
             that the unauthorized reprogramming of NWS funds to be a violation of the Anti-Deficiency Act. Other than this
             exception, internal controls were operating effectively and no other material weaknesses were found.

             The supplemental funding received under the American Recovery and Reinvestment Act of 2009 continued
             to receive comprehensive programmatic and administrative attention throughout the Department in order to
             achieve the legislative goals attributable to it. Funds have been awarded and expended for authorized purposes
             in as prompt and efficient a manner as possible while safeguarding against fraud, waste, and abuse. Reporting
             associated with this funding has been performed clearly, transparently, and comprehensively. Monitoring has
             been and will continue to be conducted to insure that recipients are meeting the goals stated in their application
             and as incorporated into award documents, and will also focus on the results of these activities.

             The Department also assessed the effectiveness of management and administrative internal controls. The Office
             of Human Resources Accountability coordinated and/or led six Delegated Examining on-site accountability and
             oversight audits at several bureaus and operating unit human resources offices. During FY 2012, the Office of
             Human Resources Management (OHRM) continued to strengthen its policies and practices in safeguarding
             personally identifiable information (PII) by making improvements in applications like the Performance Payout
             System to store all PII information in encrypted form in the next release of software. In June 2012, the
             Government Accountability Office (GAO) reported on the accuracy of the Federal Real Property Profile (FRPP).
             In anticipation of further direction from the General Services Administration (GSA), the Department has begun to
             review and validate all FRPP data. In September 2012, OMB required all agencies to conduct a thorough review
             of the policies and controls associated with conference-related activities and expenses. The Department’s Office
             of Administrative Services (OAS) continues to address and resolve the issues identified and has implemented
             a plan of action.




  26                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




        Based on reviews conducted by the Department, it has been able to determine that its financial systems are
        in conformance with government-wide requirements.




                                                                        Dr. Rebecca Blank
                                                                        Acting Secretary of Commerce
                                                                        November 15, 2012




     FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT (FMFIA) OF 1982

The objective of the Department’s management control system is to provide reasonable assurance that:

●●   Obligations and costs are in compliance with applicable laws;

●●   Assets are safeguarded against waste, loss, and unauthorized use of appropriations;

●●   Revenues and expenditures applicable to Agency operations are properly recorded and accounted for, permitting
     accurate accounts, reliable financial reports, and full accountability for assets; and

●●   Programs are efficiently and effectively carried out in accordance with applicable laws and management policy.

During FY 2012, the Department reviewed its management control system in accordance with the requirements of
FMFIA, and OMB and Departmental guidelines.

SECTION 2 OF FMFIA – INTERNAL MANAGEMENT CONTROLS

Section 2 of FMFIA requires that federal agencies report, on the basis of annual assessments, any material weaknesses
that have been identified in connection with their internal and administrative controls. The efficiency of the Department’s
operations is continually evaluated using information obtained from reviews conducted by GAO and the Office of Inspector
General (OIG), evaluations conducted by other federal agencies such as the Office of Personnel Management (OPM), and
other specifically requested studies. The diverse reviews that took place during FY 2012 relative to non-financial controls
provide assurance that Department systems and management controls comply with standards established under FMFIA.

One material weakness related to financial controls management oversight at NOAA was identified for the period
July 1, 2011 through June 30, 2012, the reporting period established by OMB Circular A-123. This weakness is related to
the budgetary controls issues identified for the unauthorized reprogramming of funds at NWS and other potential matters
under review by the Department, and accounting for satellites and property at NOAA. Further, with limited review and
inquiries, other than the exception noted, no material weaknesses related to internal control over financial reporting were
identified between July 1, 2012 and September 30, 2012.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    27
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




       The following table reflects the number of material weaknesses reported under Section 2 of FMFIA in recent years by
       the Department.


               	                           NUMBER OF MATERIAL WEAKNESSES UNDER SECTION 2
                                          NUMBER AT                                                                NUMBER REMAINING
                                         BEGINNING OF          NUMBER CORRECTED            NUMBER ADDED             AT END OF FISCAL
                                          FISCAL YEAR                                                                    YEAR
                     FY 2008                   1                         0                          0                        1
                     FY 2009                   1                         0                          0                        1
                     FY 2010                   1                         1                          0                        0
                     FY 2011                   0                         0                          0                        0
                     FY 2012                   0                         0                          1                        1


       Key Administrative and Management Internal Control Activities

       Human Resource Management

       In compliance with the FMFIA, OHRM provides the following information regarding the adequacy of management and
       internal control systems. Highlights of OHRM’s FY 2012 accomplishments relative to management and internal controls
       are detailed below.

       Strategic Human Capital Management. The Department developed a strategic approach to accountability in human
       capital management that proactively addresses the challenges of aligning human capital strategies with Department
       strategies, and to improve leadership, knowledge management, acquisition of talent, and performance. Updates to the
       Department’s hiring policies were made in support of President Obama’s memorandum dated May 11, 2010, Improving
       the Federal Recruitment and Hiring Process; and OPM Director’s Memorandum, Comprehensive Recruitment and Hiring
       Reform, Implementation of the President’s Memorandum of May 11, 2010.

       Oversight and Accountability Audits. In accordance with Title 5, U.S. Code § 1104(a)(2) and Executive Order 13197,
       “Government wide Accountability for Merit Systems Principles; Workforce Information,” dated January 18, 2001,
       Interagency Delegated Examining Agreement Number DOC-1, between OPM and the Department, and Human Resources
       (HR) Bulletin #036, FY 2006, Human Resources Management Accountability System, the Office of Human Resources
       Accountability coordinated and/or led six Delegated Examining on-site audits at several bureaus and operating unit human
       resources offices.

       Administrative. During FY 2012, the Director for Human Resources Management continued to monitor internal
       controls for each OHRM office to mitigate risks identified. Weekly monitoring of OHRM’s budget was conducted by
       the Director and Deputy Director and quarterly meetings were held with staff from the Office of Financial Management.
       OHRM has a multi-level review process for all purchases. Typically, the signature from the requestor, the budget officer,
       the Deputy Director, and the Director are required before any funds are expended for equipment, supplies or training.
       Property management continued to be a high priority for OHRM during FY 2012. All accountable property is physically
       signed down to an end-user after it has been assigned in Sunflower, the Department’s property management system.
       Training for new property custodians continued throughout the year. A complete physical inventory of OHRM’s property
       was completed in the fourth quarter of FY 2012.




  28                                               F Y   2 0 1 2   P E R F O R M A N C E    A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Protecting Personally Identifiable Information (PII). OHRM/OPM and information technology (IT) remains vigilant to
ensure that PII records are secure. This includes the following OHRM PII security controls:

●●   Annual audit/review of users’ access and permissions to sensitive data.

●●   Identification, implementation, and communication of existing policies that are compliant with safeguarding PII.

●●   Exposure of security gaps and providing recommendations to patch the gaps. When the gaps are reviewed and
     identified, a plan of action and milestones (POA&M) is opened, and the issue is tracked and resolved. In 2011 issues
     with password length were identified in some of the General Support System applications and changes were made
     to resolve them.

●●   Communication of the need for and monitoring of the completion of Department-wide IT security awareness training.


Administrative Services

In September 2012, OMB required all agencies to conduct a thorough review of the policies and controls associated
with conference-related activities and expenses. OAS continues to address and resolve the issues identified through the
following activities:

●●   All bureaus are required to provide OAS with information and details on conferences with costs greater than $75 thousand.
     OAS is responsible for gathering appropriate data, conducting independent cost validations, ensuring the details of events
     are accurate and complete, and preparing a synopsis with high-level information for Department senior management
     review.

●●   OAS has developed draft policies for distribution, which are currently being updated to reflect more recent guidance
     from OMB. Anticipated finalization is no later than October 31, 2012. OAS is also responsible for quarterly reporting
     to the Department OIG on the status of conference spending and associated contracting tasks. The Department
     has contracted with a third party to compile, review, and analyze the FY 2012 conference spend plan, and to set up
     quarterly processes for future reporting.

In June 2012, GAO reported on the accuracy of the FRPP. In anticipation of further direction from GSA, the Department
has begun to review and validate all FRPP data. In addition, the OIG made several recommendations after a review of the
Herbert C. Hoover Building (HCHB) Renovation Project to protect against cost overruns, schedule delays, and disruptions
to employee productivity and safety. OAS has developed and implemented a plan to address the issues identified. Internal
control activities for addressing these concerns include:

●●   Inclusion of metrics for the HCHB renovation in the Department’s balanced scorecard, which are measured to assess
     budget, schedule, project scope, and frequency of customer disruptions;

●●   Bi-weekly briefings to the Deputy Assistant Secretary for Administration on the project status; and

●●   Bi-weekly meetings with a Working Overarching Product team, senior bureau managers, and the GSA senior project
     manager.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    29
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




       IT Security Receives Continued Focus

       The Office of the Chief Information Officer (OCIO) conducts reviews of IT investments to ensure their efficiency and
       effectiveness in supporting the Department’s mission. The Department, following OMB policies and guidelines and
       complying with Federal Information Security Management Act (FISMA) requirements, oversees and manages IT resources
       by establishing and implementing policies and controls to mitigate IT risks.

       As part of its compliance and oversight efforts in FY 2012, the OCIO conducted IT security compliance one-on-one evaluations
       with five bureau CIOs; completed IT compliance checks on all Department bureaus; and performed an additional 10 security
       assessments of programs, applications, and information systems. The Department also engaged the Department of Homeland
       Security (DHS) to perform an independent assessment of Office of Secretary information systems components. The Depart-
       ment’s CIOs continue to use the balanced scorecard to track progress on critical IT security controls, including continuous
       monitoring under the new Risk Management Framework guidance, configuration, vulnerability, and patch management.

       Although there are continuing IT security management issues, the Department has made a significant effort to enhance
       its security posture by improving continuous monitoring, developing an IT Security Shared Services initiative, and taking
       concrete steps to institute a sustainable IT security program.

       Accomplishments resulting from the Department’s efforts to address the deficiencies include additional policies and
       guidance on POA&M management, vulnerability scanning and patch management, secure configuration checklist, password
       management, risk management framework guidelines, and safeguarding information while on foreign travel. The Department
       also continued the IT Audit Working Group, a joint effort between the OCIO and the Office of Financial Management to
       resolve prior year findings. The Department also launched an IT Security Shared Services initiative to centralize selected IT
       security processes and functions within the HCHB campus, including common controls, independent security assessments,
       configuration management, and IT security training. The Department continues to develop and implement Enterprise
       Cyber security Monitoring and Operations (ECMO) for continuous monitoring of IT security-related events throughout the
       Department. The Department also continues to press forward to identify resources to develop an Enterprise Security
       Operations Center (ESOC). While these improvements will allow the Department to elevate its IT security posture, more
       work still remains to be achieved. The OIG has noted IT security control deficiencies in security categorizations, vulnerability,
       and patch management; secure configuration settings,; IT security role-based training; and POA&M management in the
       FY 2012 FISMA report.


       Accomplishments toward FMFIA

       To ensure that the Department effectively manages ongoing IT security concerns, the OCIO has been developing a Cyber
       Security Strategic Plan to strengthen its IT security posture and operations. Additionally, the OCIO security office continues
       to conduct rigorous IT security compliance reviews based on FISMA requirements, OMB policy, and National Institute of
       Standards and Technology (NIST) standards and guidelines, and previous OIG recommendations.

       In addition to completing most significant corrective actions addressing IT security deficiencies, the following are highlights
       significant to IT security accomplishments in FY 2012:

       OCIO Balanced Scorecard and IT Security Performance Measures. Developed and measured metrics quarterly in the
       OCIO balanced scorecard, including POA&M management, internal control reviews, cyber scope and general vulnerability
       scans, and continuous monitoring. Implemented and tracked progress on “Top 3” security controls; and configuration,
       vulnerability and patch management; and monitored progress on additional controls selected by operating units.



  30                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Enterprise Initiatives. Implemented Managed Trusted Internet Protocol Service (MTIPS) to support the operating units
within the HCHB in accordance with OMB’s Trusted Internet Connection (TIC) initiative. Twelve of the 14 Department
operating units will be in compliance with OMB’s TIC initiative by the end of 2012. Awarded contract for ECMO for continuous
monitoring of security-related information across the Department. At least half of the operating units should complete
installation by the end of 2012. Commenced the DHS cyber hygiene initiative to assess the “health” of the Department’s
unclassified systems reachable via the Internet on a recurring basis. Cyber hygiene activities consist of network mapping,
non-authenticated vulnerability scanning, and configuration review of common services (e.g., as Domain Name System
(DNS)) for errors or deviations from accepted best practices.


IT Security Policy. Issued Department policies for vulnerability scanning and patch management, security configuration
checklist program, POA&M management, risk management framework, password management and safeguarding information
while on foreign travel. Also issued frequently asked question guidance on the Commerce Interim Technical Requirements
(CITR) implementation. Issued Department-wide guidance for the secure implementation, use, and management of mobile
technology.


Compliance. Completed 29 IT security assessments, exceeding the OCIO’s FY 2012 target of 24 assessments. Conducted
IT security compliance checks of all Department operating units and in-depth internal control review meetings with five
selected operating units as part of the Department’s IT internal control review program. Engaged two independent
assessments of the Office of Secretary, including one performed by the National Security Administration and another
provided by DHS. Continued to hold monthly IT Audit Working Group meetings to address remediation of FY 2011
FFMIA IT findings in a timely manner. Migrated Cyber Security Assessment and Management (CSAM) application from
Department environment to Department of Justice Cloud environment. Performed monthly reviews of selected Department
IT investments and provided IT security program compliance ratings. Launched monthly DHS cyber scope data feeds in
October 2011. Developed Department dashboards for tracking and monitoring of vulnerability data.


Shared Services. As an effort to increase efficiency and improve cyber security posture, the OCIO launched the HCHB
Security Shared Services initiative, including formation of a working group that meets weekly. Created charter and
developed action plans to implement shared services starting in the first quarter of FY 2013. The focus areas include
common controls, IT security training, IT security assessments, and configuration management.


IT Security Training. In an effort to improve the FISMA reporting metrics, multiple instructor-led training and webinars
were offered for authorizing officials and system owners. Attendees included individuals from the National Oceanic and
Atmospheric Administration (NOAA), the National Telecommunications and Information Administration (NTIA), the U.S.
Patent and Trademark Office (USPTO), NIST, the Bureau of Industry and Security (BIS), the Office of Secretary, the Census
Bureau, the Economic Development Administration (EDA), and the International Trade Administration (ITA); a total of
144 individuals participated in the training. Launched tracking of Department’s compliance with role-based training policy
for employees with significant IT security roles and responsibilities. Developed training and webinars to assist in preparing
employees for implementation of revised Department FISMA reporting tool.


IT Investment Review Process. Since IT expenditures constitute such a large portion of the Department’s annual
budget (an IT portfolio of $2.5 billion for FY 2012), it is imperative that special management attention be given to the
Department’s proposed and continuing IT investments. This is done through an OCIO-led capital planning and investment
control process, which continues to be strengthened to provide broader and deeper analysis of proposed IT investments,
projects under development, and projects recently completed and deployed, as well as of the overall performance of the
IT portfolio.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    31
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




       This process is based on OMB Circular A-11, Exhibit 300, “Capital Asset Plan and Business Case Summary,” and Exhibit 53,
       “Agency IT Investment Portfolio,” and has linkage to all Department IT planning processes and documents. In a cooperative
       effort with the Office of Budget and the Office of Acquisition, the OCIO established the OMB Exhibit 300 as the primary
       documentation for summarizing the business case for each IT project, and as the foundation for IT budget justifications, IT
       acquisition approvals, and major system reviews. This provides the Department with a consistent foundation for monitoring
       the selection, control, and evaluation of major IT investments, helping ensure that proposed investments contribute to
       the Department’s strategic vision, mission requirements, and performance goals. It also helps ensure that the operating
       units employ sound IT investment methodologies, comply with Departmental and federal architectures, and provide the
       highest return on the investment at acceptable project risk.

       The OCIO has worked closely with the Office of Budget to establish a framework and schedule for linking the IT investment
       review of proposed initiatives with the budget process. As initiatives are developed by the operating units for submission
       to the Department, those initiatives that have a significant IT component are reviewed by the CIO. Major proposals are
       reviewed by the Department’s Commerce Information Technology Review Board (CITRB), which is co-chaired by the
       CIO and the Chief Financial Officer (CFO) and Assistant Secretary for Administration, and whose members include the
       Department’s Budget Officer, Procurement Executive, Director for the Office of Financial Management, and selected
       operating unit CIOs. The Board evaluates proposals relative to contribution to the mission, role in maintaining or achieving
       key performance results, IT security and privacy management and funding, risk management, acquisition strategy, the
       viability and appropriateness of the IT solution, including conformance to Department and federal architectures, and overall
       project management. Guidance for improving project proposals is provided by the Board and the OCIO staff. This process
       results in the identification of IT investment initiatives that have sound IT management proposals.

       In addition to the aforementioned focus, the CITRB continues to place emphasis on the link between proposed IT investments
       and the qualifications of the IT project managers and contracting officers who manage the Department’s IT programs.
       The CITRB ensures that high quality certification and accreditation packages, which are critical to the confidentiality,
       integrity, and availability of Department IT investments, are in place. By ensuring that qualified managers are available for
       these programs, the risk associated with large-scale IT investments is significantly reduced. The OCIO leads a continuing
       training process for IT project managers, working together with OHRM, to ensure that the Department has a pool of well-
       qualified IT project managers to be assigned to new or continuing projects.

       The OCIO has instituted the TechStat process which is a face-to-face, risk-based review by the Department’s senior
       management that produces corrective action strategies for any of the Department’s major IT investments which are
       underperforming or at high risk of underperforming. As part of the Department’s transparency efforts, the OCIO evaluated
       and submitted 45 business cases to the federal IT Dashboard, demonstrating to the public the sound management of
       the Department’s IT investments. On average, the Department achieved within five percent of its cost, schedule, and
       performance targets for the major IT investments undergoing development and enhancement.

       Further, to provide even more rigorous analysis of cost, schedule, and performance, Commerce systematically uses
       Earned Value Management (EVM) data for IT investments under development. This provides regular monitoring of the
       performance of Commerce projects and early warning of projects that may not be meeting cost, schedule, or performance
       goals, allowing course correction to bring the development effort back on track, if needed. The EVM analysis has been
       supported by focused training sessions on EVM techniques. Additionally, operating unit CIOs and major investment owners
       are required to conduct operational analyses to certify that steady-state investments meet cost, schedule, and performance
       goals. The operating unit reviews of proposed and continuing projects are also supplemented with formal evaluation or




  32                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




post-implementation reviews by the CITRB. The approach helps ensure all project managers can benefit from lessons
learned from other implementation efforts.


Privacy Impact Assessments

The Department is committed to ensuring all information, relating to both individuals and businesses, collected
and maintained by the Department is afforded proper privacy safeguards as defined in the Privacy Act of 1974, the
E-Government Act of 2002, and OMB Memoranda. The Department has developed an IT privacy policy to ensure that PII
in its IT systems is effectively protected and secured. The Department has provided policy and guidance for operating
units on the preparation of Web privacy policies, conducted privacy impact assessments (PIA), and posted privacy policies
and PIAs on Department Web sites that are visited by the public. The Department conduct PIAs to ensure that it does
not collect, process, or disseminate any identifiable information from or about members of the general public that is not
needed or authorized. The Department also extends this same level of privacy protection to business entities.

As another step to ensure that personally identifiable and other sensitive information is protected, all Department PIAs
now include data extract log and verification procedures. This requirement, which was incorporated in the Department’s
IT Security Program Policy and Minimum Implementation Standards, requires that operating units “Log all computer-
readable data extracts from databases holding sensitive information and verify each extract including sensitive data has
been erased within 90 days or determine that its use is still required.” The OCIO, in concert with the Office of Public
Affairs, issued a new policy, “Approval and Use of Social Media and Web 2.0,” in part to inform Department employees
on how to use social media and be alert to privacy concerns.

The Department established an executive position in the Office of the CFO/Assistant Secretary for Administration
of Director of Privacy and Open Government. This individual serves as the Department’s Chief Privacy Officer and
participates in the Department Privacy Council, which is chaired by the General Counsel. The council serves as the Senior
Agency Official for Privacy, and works closely with the OCIO to ensure that the Department continues to protect all
privileged-access personal and business information provided to it.


Future Efforts

The Department is actively pressing forward with future plans to respond to the ever changing IT security environment.
As mentioned previously, the Department has launched an IT Security Shared Services effort for the bureaus within
the HCHB campus. The effort is focused on centralizing several IT security processes, including common controls,
assessments, IT security training, and security operations center. The Department has awarded a contract for and will
implement the ECMO tool for continuous monitoring of security-related information across the Department information
system environment in FY 2013. The Department is continuing to develop an ESOC. The Department continues to
implement a Personal Identity Verification pilot program to deliver multifactor logical access to Office of Secretary users.
The Department is also moving forward with plans to update and revise the Department’s standards and policies as new
guidelines become available. These future measures will strengthen the Department’s overall IT security posture and
protection of its IT systems and information.

In conclusion, the OCIO is able to provide reasonable assurance that management controls are in place and operating
effectively to oversee and manage the Department’s significant investments in IT. Where the cost, schedule, or
performance goals of IT investments are not yet being fully achieved, the processes in place have detected the problems
and directed corrective action.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    33
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




       Other Internal Control Enhancement Activities Continue

       During FY 2012, the Department’s A-123 Appendix A review and assessment included the following:

       ●●   Utilized the Senior Management Council to implement, direct, and oversee the assessment process, and the Senior
            Assessment Team (SAT) to develop A-123 planning documentation, administer internal control test plans, and monitor
            and review the test work;

       ●●   Updated Departmental sampling plan and Department-wide testing templates for selected key processes/sub-
            processes;

       ●●   Each of the Department’s bureaus has completed an entity-level controls assessment as required by OMB Circular
            A-123, Appendix A;

       ●●   Through the SAT, the Department completed the first phase of a comprehensive internal control assessment
            involving all grant-making bureaus and service providers. The assessment included grants program process mapping,
            risk identification, development and completion of a grants program and grants administration internal control risk
            assessment questionnaire, and evaluation and scoring of risk categories;

       ●●   Performed quarterly validation and verification of acquisition and administrative savings, including selecting samples
            and reviewing supporting documentation;

       ●●   Analyzed the results of the overall effort to assess and document the adequacy of Department internal controls in
            order to develop the annual statement of assurance issued by the Secretary and published in the Performance and
            Accountability Report; and

       ●●   Utilized contractor assistance with reviewing the workpapers relating to the annual A-123 Appendix A process, including
            ensuring bureaus followed the workpaper guidance, analyzing the lead sheets of each of the applicable Department
            bureaus, developing criteria for determining a “finding” that can be used at both the bureau level and department level,
            and an overall gap analysis of A-123 Appendix A process.


       SECTION 4 OF FMFIA – INTERNAL CONTROLS OVER FINANCIAL MANAGEMENT SYSTEMS

       As reflected in the following table, the Department has reported no material weaknesses under FMFIA Section 4 in
       recent years.


                                      NUMBER OF MATERIAL WEAKNESSES UNDER SECTION 4
                                          NUMBER AT                                                                NUMBER REMAINING
                                         BEGINNING OF          NUMBER CORRECTED            NUMBER ADDED             AT END OF FISCAL
                                          FISCAL YEAR                                                                    YEAR
                      FY 2009                  0                         0                          0                        0
                      FY 2010                  0                         0                          0                        0
                      FY 2011                  0                         0                          0                        0
                      FY 2012                  0                         0                          0                        0


       Based on reviews conducted by the Department and its bureaus for FY 2012, the financial systems in the Department are
       compliant with GAO principles and standards, the requirements of the CFO Act, and OMB requirements.




  34                                               F Y   2 0 1 2   P E R F O R M A N C E    A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




  FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA) OF 1996




 U 
         nder FFMIA, the Department is required to have financial management systems that comply with federal financial
         management system requirements, federal accounting standards, and the U.S. Government Standard General
         Ledger (USSGL) at the transaction level. In FY 2012, the Department remained in compliance with FFMIA.


                                     REPORT ON AUDIT FOLLOW-UP




 T 
        he Inspector General Act, as amended, requires that the Secretary report to Congress on the final action taken
        for Inspector General audits. This report covers Commerce Department audit follow-up activities for the period
        June 1, 2011, through May 31, 2012.


                                         SUMMARY OF ACTIVITY ON AUDIT REPORTS
                                            JUNE 1, 2011 THROUGH MAY 31, 2012
                                                                    FUNDS TO BE PUT TO            NONMONETARY
                               DISALLOWED COSTS1                       BETTER USE2                  REPORTS3             TOTAL
                          NUMBER OF                           NUMBER OF                             NUMBER OF
                           REPORTS           DOLLARS           REPORTS            DOLLARS            REPORTS           REPORTS
 Beginning Balance            18           $	7,058,986              4          $	2,010,729               22                44
 New Reports                  10             23,718,077             2                 93,822             22                34
 Total Reports                28             30,777,063             6              2,104,551             44                78
 Reports Closed                (8)           (1,954,976)           (3)            (1,394,555)           (17)              (28)
 Ending Balance               20           $	28,822,087             3          $	709,996                 27                50
 1.	Disallowed costs are questioned costs that management has sustained or agreed should not be charged to the government.
 2. 	“Funds to be put to better use” refers to any management action to implement recommendations where funds should be applied
     to a more efficient use.
 3.	Includes management, contract, grant, loan, and financial statement audits with nonmonetary recommendations.



                                          BIENNIAL REVIEW OF FEES




 O 
         MB Circular A-25, User Charges, requires the biennial review of agency programs to determine whether fees
         should be charged for government goods or services, and to ascertain that existing charges are adjusted to reflect
         unanticipated changes in costs or market values.

The Department conducts a review of its programs biennially, with some bureaus conducting annual reviews. In the current
review, it was noted that the Department is in compliance with the requirement to adjust its fees to meet the Circular A-25
requirement of full-cost recovery for user charges.




F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     35
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                          PRIORITY GOALS




        P 
               riority Goals are a clear statement of the specific, measurable, ambitious near-term priority targets chosen by the
               senior leaders of major federal agencies. The Priority Goals communicate the performance improvements each
               agency is trying to accomplish relative to its priorities using existing legislative authority, previously appropriated
       funds, and funding at levels proposed in the President’s FY 2012 Budget. The Priority Goals constitute the priority
       operational targets the agency will work to accomplish within 18 to 24 months of setting the targets. This distinguishes
       the Priority Goals from the longer-term targets agencies include in their strategic plans, and the full set of performance
       goals and measures agencies include in the annual plans and reports required by the Government Performance and
       Results Act (GPRA).


            GOAL         INTELLECTUAL PROPERTY (IP) PROTECTION: Advance Commercialization of New Technologies by
                         Reducing Patent Application Pendency and Backlog by September 30, 2013 first action and for final
                         actions from the end of 2011 levels of 28.0 and 33.7 months respectively by the end of 2013, as well as
                         the patent backlog.
           BUREAU        U.S. PATENT AND TRADEMARK OFFICE (USPTO)
        Performance First Action Patent Pendency                         Final Action Patent Pendency        Patent Backlog
        Measures
        Description      This measure tracks the timeliness of            This measure identifies            This measure tracks the
                         first office actions on patent applications,     the timeliness related to          number of patent applications
                         measuring the time in months from                issuance of the patent             awaiting first action review
                         the application filing date to the date          or abandonment of the              by an examiner.
                         of mailing the first office actions.             application, measuring the
                                                                          average time in months
                                                                          from the application filing
                                                                          date to the date of issue or
                                                                          abandonment.
        Results           Fiscal
                           Year          Target            Actual            Target           Actual             Target             Actual
                           2003           18.4              18.3              27.7             26.7             484,700             457,274
                           2004           20.2              20.2              29.8             27.6             524,000             508,878
                           2005           21.3              21.1              31.0             29.1             594,800             586,580
                           2006           22.0              22.6              31.3             31.1             680,700             674,333
                           2007           23.7              25.3              33.0             31.9             801,000             737,288
                           2008           26.9              25.6              34.7             32.2             801,300             750,596
                           2009           27.5              25.8              37.9             34.6             741,400             718,835
                           2010           25.4              25.7              34.8             35.3             698,000             708,535
                           2011           23.0              28.0              34.5             33.7             670,000             669,625
                           2012           22.6              21.9              34.7             32.4             615,300             608,283
                           2013           18.0                                30.1                              566,800
                           2014           15.8                                26.1                              486,500
                           2015           12.9                                23.7                              398,900
                                                                                                                                    (continued)




  36                                              F Y   2 0 1 2     P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     GOAL         INTELLECTUAL PROPERTY (IP) PROTECTION: Advance Commercialization of New Technologies by
                  Reducing Patent Application Pendency and Backlog by September 30, 2013 first action and for final
                  actions from the end of 2011 levels of 28.0 and 33.7 months respectively by the end of 2013, as well as
                  the patent backlog. (continued)
    BUREAU        U.S. PATENT AND TRADEMARK OFFICE (USPTO) (continued)
 Milestones        Hire Patent Examiners and Institute a Nationwide Workforce: A hiring approach that assumes a mix of traditional
                   and experienced professionals (e.g., registered patent attorneys and agents, skilled technologists having
                   experience with USPTO as inventors) as patent examiners. Target is to hire 1,500 patent examiners by
                   September 30, 2012. The Agency has recognized the need to broaden hiring practices to achieve its hiring
                   targets and attract patent examiner expertise in locations across the country. Establishment of a nationwide
                   workforce is a key USPTO priority. This initiative has provided for a USPTO presence in four metropolitan
                   areas, with the first being Detroit, MI. Three other regional offices will be opened in Dallas, TX, Denver,
                   CO, and Silicon Valley, CA. A nationwide workforce will directly aid the hiring of patent examiners by
                   creating an awareness of USPTO and its role in the U.S. economy, educating potential applicants about the
                   job of patent examination, and serving as an outlet for intellectual property (IP) education to inventors, law
                   students, practitioners and the public education systems. While meeting Agency hiring needs and space
                   demands, this initiative enables the expansion of USPTO presence as a business and academic partner for
                   innovation. The target date of July 2012 for the first regional office to open in Detroit, MI was completed on
                   July 13, 2012.
                   Develop and Implement the Patent End-To-End (PE2E) Processing System: Modernize information technology (IT)
                   systems by developing and implementing the PE2E IT capability. USPTO proposes to transition the patent
                   application process to one in which the majority of applications are submitted, handled, and prosecuted
                   electronically. The IT architecture and systems currently in place are inadequate and unable to evolve to
                   meet the demands of the future; and databases containing patent data are already some of the world’s
                   largest, and continue to grow at multiple terabytes per year. Therefore, the continued dependency on
                   inefficient and outdated automation will lead to an inability to support the USPTO mission of granting IP
                   rights and disseminating information contained in those patents.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     37
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




            GOAL         EXPAND BROADBAND SERVICE TO COMMUNITIES: By September 30, 2013, the Department will
                         increase the Nation’s broadband infrastructure developed through the Broadband Technology
                         Opportunities Program (BTOP), from 29,000 miles at the end of FY 2011 to 75,000.
           BUREAU        NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION (NTIA)
        Performance Miles of broadband networks                       Community anchor            New and upgraded           New household and
        Measures    deployed (Infrastructure Projects)                institutions connected      public computer            business subscribers
                                                                      (Infrastructure             workstations (Public       to broadband
                                                                      Projects)                   Computer Centers           (Sustainable
                                                                                                  Projects)                  Broadband Adoption
                                                                                                                             Projects)
        Description      BTOP is funding projects that                ARRA places a high          BTOP grants are            The BTOP portfolio
                         provide broadband service in                 priority on deploy-         funding expansion          of projects initially
                         unserved areas and enhance                   ing and enhancing           of public computer         included 44 sustain-
                         broadband service in underserved             broadband capa-             center (PCC) capacity.     able broadband adop-
                         areas of the United States.                  bilities for community      The BTOP portfolio         tion (SBA) projects
                         The BTOP portfolio of projects               anchor institutions         of projects initially      totaling $250.7 million
                         initially included 123 infrastructure        such as libraries,          included 66 PCC            in federal grant funds
                         projects totaling $3.5 billion               hospitals, schools,         projects totaling          to support innovative
                         in federal grant funds to                    and public safety           $201 million in            projects that promote
                         construct broadband networks                 entities. The BTOP          federal grant funds        broadband adoption,
                         and to connect “community                    portfolio of projects       to provide access to       especially among
                         anchor institutions” such as                 initially included 123      broadband, computer        vulnerable popula-
                         schools, libraries, hospitals,               infrastructure projects     equipment, computer        tion groups where
                         and public safety facilities.                totaling $3.5 billion in    training, job training,    broadband technol-
                         BTOP infrastructure projects                 federal grant funds         and educational            ogy traditionally has
                         are deploying a variety of                   to construct broad-         resources to the           been underutilized.
                         technologies and approaches to               band networks and to        public and specific        This measure’s target
                         enhance the Nation’s broadband               connect “community          vulnerable populations.    is the number of new
                         capabilities. This measure’s                 anchor institutions”        This measure’s target      household and busi-
                         target is the number of miles of             such as schools,            is the number of           ness subscribers to
                         network (e.g., fiber, microwave)             libraries, hospitals, and   new and improved           broadband generated
                         deployed using BTOP funding.                 public safety facili-       computer workstations      by projects funded
                         The American Recovery and                    ties. This measure’s        funded through the         through the BTOP SBA
                         Reinvestment Act (ARRA)                      target is the number        BTOP PCC category          category of funding, as
                         provided all of BTOP’s grants                of anchor institutions      of funding. ARRA           reported by awardees.
                         funding.                                     connected with new or       provided all of BTOP’s
                                                                      improved broadband          grants funding.
                                                                      capabilities. ARRA
                                                                      provided all of BTOP’s
                                                                      grants funding.
        Results               Fiscal
                               Year       Target       Actual           Target       Actual         Target        Actual       Target       Actual
                              2010        New            N/A             New           N/A          New            N/A          New          N/A
                              2011       10,000        29,191           3,000         4,613        10,000         24,512      100,000      230,755
                              2012       50,000        72,1521         10,000        10,0451       35,000        36,3471      350,000      388,6791
                              2013       75,000                        15,000                      35,000                     500,000
                         1	   Through the third quarter of FY 2012.




  38                                                 F Y   2 0 1 2      P E R F O R M A N C E      A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     GOAL         EXPAND MARKETS FOR U.S. EXPORTERS: By September 30, 2013, increase the annual number of
                  new markets that current U.S. exporters enter with U.S. and Foreign Commercial Service (US&FCS)
                  assistance by seven percent from 5,700 at the end of FY 2011 to 6,100 at the end of FY 2013.
    BUREAU        INTERNATIONAL TRADE ADMINISTRATION (ITA)
 Performance Annual number of new markets that current U.S. exporters enter with U.S. and Foreign Commercial Service
 Measures    (US&FCS) assistance
 Description      The overall strategy laid out by ITA and US&FCS to achieve the Priority Goal has been to reach out to more
                  U.S. companies with the intention of expanding into new markets. The specific components of this strategy
                  included utilizing technology to deliver services and provide value-added assistance to clients. ITA (through
                  US&FCS) targeted U.S. companies that are already in one or more markets and assisted these companies
                  with the necessary customized assistance to penetrate new markets. ITA accomplished this by expanding
                  its presence in priority sectors and markets where opportunities are greatest.
 Results            Fiscal
                     Year                          Target                                               Actual
                    2011                             N/A
                    2012                            5,900                                                5,083
                    2013                            6,100
 Comments         US&FCS missed the annual target for this goal primarily due to continued decreases in client-facing staff in
                  FY 2012. In FY 2012, US&FCS’s domestic field decreased by 21 trade specialists and its international Locally
                  Engaged Staff decreased by more than 40.

                  In FY 2013, US&FCS will move aggressively to fill staffing vacancies across its service.
 Milestones       Travel and Tourism Promotion Campaign: Launch of international marketing program in top 12 source markets
                  for gaining expanded exports for travel and tourism through the partnership with the Corporation for Travel
                  Promotion.
                  Redesign of StopFakes.gov: ITA’s Office of Intellectual Property, in cooperation with USPTO and other U.S.
                  agencies, is currently redesigning the Web site STOPFakes.gov. STOPFakes.gov is the portal for all U.S.
                  government intellectual property resources, events, programs, and enforcement contact. The redesign
                  will make it easier for new-to-market exporters to learn about protecting and enforcing their intellectual
                  property rights (IPR) in foreign markets. The site will continue to provide updates and links to IPR programs
                  and resources as well as allow businesses to file complaints about IPR-related trade problems and contact
                  law enforcement. The current site, with its numerous free resources, remains fully operational during the
                  redesign.
                  FTA Tariff Tool Database Improvements: Add additional functionality to the publicly-available free trade agreement
                  (FTA) tariff tool to ensure that Rules of Origin for manufactured goods are provided for all countries covered
                  within the tariff tool database.
                  Supply Chain/Sourcing Promotion for U.S. textiles Suppliers: Build on the success of OTEXA (Office of Textiles
                  and Apparel) sponsored sourcing event at the MAGIC apparel trade show in Las Vegas in August 2011 to
                  encourage and provide additional opportunities for small and medium-sized enterprise textile exporters to
                  identify and meet new buyers in Western Hemisphere apparel manufacturing countries.
                  IndustryStats Express (ISE) Prototype: Develop and deploy a publicly-available Web tool that will provide the
                  industry-based data/information to help support analysts, researchers, public officials, etc. in meeting the
                  National Export Initiative and other Administration goals.
                  MDCP Grants for Expanded Travel and Tourism Exports: ITA will be administering two Market Development
                  Cooperator Program (MDCP) grants in key and emerging markets for expanding international leisure and
                  business travel to the United States.
                                                                                                                         (continued)




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                       39
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




            GOAL         EXPAND MARKETS FOR U.S. EXPORTERS: By September 30, 2013, increase the annual number of
                         new markets that current U.S. exporters enter with U.S. and Foreign Commercial Service assistance
                         by seven percent from 5,700 at the end of FY 2011 to 6,100 at the end of FY 2013. (continued)
           BUREAU        INTERNATIONAL TRADE ADMINISTRATION (ITA) (continued)
        Milestones       Reposition ITA’s Global Footprint: This action will be completed to allocate resources to those markets and
        (continued)      sectors with greatest export potential for U.S. companies.
                         Pilot a Service Delivery Model: This model will leverage partners and multipliers in a strategic manner across the
                         Commercial Service.
                         Promote Made-in-the-USA: Increase domestic match-making activities by assisting textile and apparel
                         companies to locate domestic production houses for certain manufacturing needs. Assist U.S. companies
                         on locating domestic manufacturers for their supply chains. Through ITA’s outreach activities, it will provide
                         companies information regarding domestic sourcing opportunities.
                         Export.gov 2.0: ITA is redesigning export.gov to deliver a personalized (MyExport.gov) experience for U.S.
                         companies looking to begin and/or expand exporting. This new site will streamline how customers interact
                         with ITA by auto-populating forms using information from the customer’s account information. This site will
                         provide export information to U.S. companies that are currently being provided by ITA staff. This will allow
                         ITA’s experienced trade specialists to focus more of their time on providing customized counseling that ITA’s
                         customers need and value as they expand internationally. ITA plans on doing two rounds of beta releases
                         and then quarterly releases. Full implementation of the Web site is targeted for September 2013 pending
                         the availability of funding.

                         Other milestones include:

                         ●●   May 2012 – Internal Beta for ITA and selected Trade Promotion Coordinating Committee (TPCC)
                              agencies

                         ●●   July 2012 – External Beta for U.S. companies

                         ●●   Quarterly releases


            GOAL         WEATHER READY NATION: For FY 2012 and FY 2013 NOAA will work to ensure the protection of life
                         and property by substantially improving severe weather warnings and lead times through effective
                         deployment and integration of Dual Polarization (Dual Pol) technology to the Nation’s array of Next
                         Generation Weather Radars (NEXRAD).
           BUREAU        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA)
        Performance Improve severe weather warnings for flash flood lead time from FY 2011 target of 38 minutes to 42 minutes
        Measures    in FY 2012 and 45 minutes in FY 2013.
        Description      This enhancement ensures protection of life and property by improving severe storm and flash flood
                         warnings. NEXRAD is the primary observing system used by NOAA’s National Weather Service (NWS)
                         forecasters in the development of watches, warnings, and advisories for severe weather. Dual Pol will
                         improve precipitation estimation for flash flood warnings. NWS will ensure that personnel at associated
                         NEXRADs complete requisite training within three months of deployment to improve service delivery.
                         Longer flash flood warning lead times enable those impacted by events to move out of harm’s way and limit
                         property losses. The goal is to increase the target lead time for severe weather warnings for flash floods from
                         38 in FY 2011 minutes to 42 minutes in FY 2012 and to 45 minutes in FY 2013.
                                                                                                                                 (continued)




  40                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                               M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     GOAL         WEATHER READY NATION: For FY 2012 and FY 2013 NOAA will work to ensure the protection of life
                  and property by substantially improving severe weather warnings and lead times through effective
                  deployment and integration of Dual Polarization (Dual Pol) technology to the Nation’s array of Next
                  Generation Weather Radars (NEXRAD). (continued)
    BUREAU        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) (continued)
 Results               Fiscal
                        Year                             Target                                            Actual
                       2008                               49                                                 77
                       2009                               49                                                 66
                       2010                               38                                                 71
                       2011                               38                                                 73
                       2012                               42                                                571
                       2013                               45
                  1	   As of July 31, 2012.
                  Note: In FY 2010, in order to provide geographically specific and accurate warning information to the public,
                  NWS effected a transition from a county-based warning service to a storm-based warning service for flash
                  floods. The warnings are now verified solely for the areas impacted by the warning, rather than for the entire
                  county or counties containing the threat. The more geographically specific storm-based warnings cover a
                  significantly smaller area providing overall better service to the Nation. As such, there are a greater number
                  of unwarned events yielding overall lower lead times and accuracy scores. NWS generally waits until a
                  multi-year year trend has been established in the performance of any measure before re-baselining it.
 Milestones       Deploy Dual Pol Technology to all 122 NEXRADs: NOAA began deploying Dual Pol technology to its array of
                  NEXRADs in September 2011. NWS is targeting the Dual Pol modification deployments to be over 50 percent
                  complete by the fourth quarter of FY 2012 and 75 percent complete by the first quarter of FY 2013.
                  Ensure all Forecasters with Warning Responsibilities Complete all Requisite Training: This measure tracks the
                  number of forecasters who have completed requisite training designed to enable effective use of Dual
                  Pol data for generation of weather and hydrological forecast, watches, and warnings. NWS is targeting
                  completion of forecaster training in the fourth quarter of FY 2013.
                  Update Radar Product Generation Software: In the first quarter of FY 2012, the NEXRAD program will develop
                  and integrate an updated version of Radar Product Generator (RPG) and Radar Data Acquisition Unit (RDA)
                  software, which provides new signal processing science for Dual Pol enhancements. Testing and certification
                  will be completed in the fourth quarter of FY 2012 and deployment will occur in FY 2013.
                  Update Radar Signal Processor: Since the current NEXRAD signal processor has insufficient capacity to process
                  the new Dual Pol data stream during heavy weather scenarios, a technology refresh of the computer
                  processors began in FY 2011. The signal processors are being upgraded at each radar site prior to Dual Pol
                  installation at the site. Of the 122 NWS radars, 80 were upgraded in FY 2011, and the remaining 42 were
                  upgraded in FY 2012.
                  Ensure Requisite Training Materials are Developed: Given the addition of considerably larger data volumes
                  available to the forecaster and the complexity of the Dual Pol data itself, careful operations’ training is critical.
                  The NWS Warning Decision Training Branch delivers training on the RPG and RDA and the requisite modules
                  that make up the Dual Pol operations courses. These courses present the new functionality, system changes,
                  and their impacts to users.




F Y   2 0 1 2   P E R F O R M A N C E         A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          41
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                         CROSS-AGENCY PRIORITY GOALS




        B 
                esides the Departmental Priority Goals, the Department is also involved in Cross-Agency Priority Goals that the
                Administration has adopted to improve cross-agency coordination and best practice sharing. Per the GPRA
                Modernization Act requirement to address Cross-Agency Priority Goals in the Department’s strategic plan, the
       annual performance plan (Exhibit 3A of the budget submission), and the annual performance report (incorporated into this
       FY 2012 PAR), please refer to www.Performance.gov for the Department’s contributions to those goals and progress, where
       applicable. The Department currently contributes to the following Cross-Agency Priority Goals with the corresponding
       organizations within the Department listed below the goal:

       Exports                                                            Broadband

       ●●   International Trade Administration                            ●●   National Telecommunications and Information
                                                                               Administration – Broadband Technologies
            ◆◆ Market Access and Compliance
                                                                               Opportunities Program
            ◆◆ Import Administration

            ◆◆ Manufacturing and Services                                 Veteran Career Readiness

            ◆◆ U.S. and Foreign Commercial Service                        ●●   Veterans Employment Program Office

       ●●   Trade Promotion Programs
                                                                          Cybersecurity
       ●●   District Export Councils
                                                                          ●●   National Institute of Standards and Technology –
       ●●   BusinessUSA                                                        Computer Security Division

       ●●   Strategic Partnership Programs
                                                                          Sustainability
       ●●   Market Development Cooperator Programs
                                                                          ●●   Senior Sustainability Officer
       ●●   Advocacy Center

                                                                          Improper Payments
       Entrepreneurship and Small Business
                                                                          ●●   Office of Financial Management
       ●●   I6 Challenge

       ●●   Jobs and Innovation Accelerator Challenge                     Real Property

       ●●   BusinessUSA                                                   Federal Data Center Consolidation




  42                                             F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
P erformance
   S ection
    THEME 1
Economic G rowth
                            T H E M E , S T R AT E G I C G O A L S , A N D O B J E C T I V E S

THEME 1: ECONOMIC GROWTH
Strategic Goal – Innovation and Entrepreneurship: Develop the tools, systems, policies, and technologies
critical to transforming our economy, fostering U.S. competitiveness, and driving the development of new
businesses

Objective 1            Improve intellectual property protection by reducing patent pendency, maintaining trademark
                       pendency, and increasing the quality of issued patents and trademarks (USPTO)

Objective 2            Expand international markets for U.S. firms and inventors by improving the protection and
                       enforcement of intellectual property rights (USPTO)

Objective 3            Stimulate high-growth business formation and entrepreneurship, through investing in high-
                       risk, high-reward technologies and by removing impediments to accelerate technology
                       commercialization (EDA)

Objective 4            Drive innovation by supporting an open global Internet and through communications and broadband
                       policies that enable robust infrastructure, ensure integrity of the system, and support e-commerce
                       (NTIA)

Objective 5            Provide measurement tools and standards to strengthen manufacturing, enable innovation, and
                       increase efficiency (NIST)

Strategic Goal – Market Development and Commercialization: Foster market opportunities that equip
businesses and communities with the tools they need to expand, creating quality jobs with special
emphasis on unserved and underserved groups

Objective 61           Promote the advancement of sustainable technologies, industries, and infrastructure (EDA)

Objective 7            Promote the vitality and competitiveness of our communities and businesses, particularly those
                       that are disadvantaged or in distressed areas (EDA, MBDA)

Objective 8            Improve the competitiveness of small and medium-sized firms in manufacturing and service
                       industries (ITA, NIST)

Strategic Goal – Trade Promotion and Compliance: Improve our global competitiveness and foster
domestic job growth while protecting American security

Objective 9            Increase U.S. export value through trade promotion, market access, compliance, and interagency
                       collaboration (including support for small and medium enterprises) (ITA)

Objective 10           Implement an effective export control reform program to advance national security and overall
                       economic competitiveness (BIS)

Objective 11           Develop and influence international standards and policies to support the full and fair
                       competitiveness of the U.S. information and communications technology sector (NTIA)

Objective 12           Vigorously enforce U.S. fair trade laws through impartial investigation of complaints, improved
                       access for U.S. firms and workers, and fuller compliance with antidumping/countervailing duty
                       remedies (ITA)
1	   The measures for this objective are shown in Objective 3.
                                                                                   PERFORMANCE SECTION • THEME 1




                                        THEME 1:            ECONOMIC GROWTH




 T 
          he Economic Growth theme consists of three strategic
          goals related to Innovation and Entrepreneurship,
          Market Development and Commercialization, and
Trade Promotion and Compliance. Within those three goals are
12 corresponding objectives: five associated with Innovation and
Entrepreneurship, three with Market Development and Commer-
cialization, and four with Trade Promotion and Compliance.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                             47
PERFORMANCE SECTION • THEME 1




                                                      PUBLIC BENEFITS


Innovation and Entrepreneurship

The U.S. Patent and Trademark Office (USPTO) facilitates the generation of innovative and commercially viable processes and products,
while protecting the intellectual property rights (IPR) of the inventor. USPTO’s goal to provide efficient and thorough review of patents
and trademarks optimizes the economic value to investors and improves U.S. competitiveness. The Economic Development Admin-
istration (EDA) grants play a large role in encouraging innovation, and the forums that the Agency establishes create research-based
communities of practice that foster commercialization. The National Telecommunications and Information Administration (NTIA) assists
communication, key to business growth, by improving telecommunication performance, optimizing use of the federal spectrum, and
increasing broadband access. As the federal government’s National Laboratory focuses on innovation and industrial competitiveness,
the National Institute of Standards and Technology (NIST) works to promote and accelerate technological innovation and to provide the
measurement infrastructure necessary for a robust manufacturing sector which are essential to the health of the Nation’s economy
both as a source of high-paying, high-skilled jobs, and as a driver for future technological advancement.

Market Development and Commercialization

NIST’s Hollings Manufacturing Extension Partnership (MEP) and the International Trade Administration (ITA) support small and medium-
sized enterprises (SME) to encourage job growth, job creation, and innovation, with a focus on environmentally and economically
sustainable technologies. Through private enterprise job creation, EDA and the Minority Business Development Agency (MBDA) assist
in developing markets in disadvantaged or distressed communities so as to reduce economic duress.

Trade Promotion and Compliance

The Department generates economic growth and jobs through extensive assistance to firms engaging in international trade. ITA focuses
on increasing exports by assisting U.S. exporters in expanding to foreign markets as outlined by the National Export Initiative (NEI).
ITA works to achieve this goal by addressing the following priorities:

●● Expanding programs designed to enhance exports by small and medium-sized enterprises;


●● Promoting federal resources currently available to assist exports by U.S. companies;


●● Ensuring that U.S. government-led trade missions effectively promote exports by U.S. companies;


●● Ensuring that Commercial Advocacy effectively promotes exports by U.S. companies;


●● Improving market access overseas for U.S. manufacturers, farmers, and service providers by actively opening new markets,
   reducing significant trade barriers, and robustly enforcing U.S.trade agreements; and

●● Developing a framework, including policy and export promotion tools, for exports of services.


Furthermore, ITA vigorously enforces the U.S. fair trade laws to provide an opportunity for U.S. businesses and workers to compete on
a level playing field. Export control reform has become a central concern to the Bureau of Industry and Security (BIS) as it updates the
intergovernmental processes that are in place. NTIA promotes the use of telecommunication devices, speeding the pace of business.




  48                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




Strategic Goal – Innovation and Entrepreneurship
Develop the tools, systems, policies, and technologies critical to transforming our economy,
fostering U.S. competitiveness, and driving the development of new businesses




 T 
        his strategic goal is comprised of five objectives which
        contribute to the Secretary’s theme of Economic
        Growth. The following public benefits, achievements,
and performance results are associated with each objective.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                             49
PERFORMANCE SECTION • THEME 1




                                                          OBJECTIVE 1

         Improve intellectual property protection by reducing patent pendency, maintaining trademark
               pendency, and increasing the quality of issued patents and trademarks (USPTO)


                                                       PUBLIC BENEFITS



 I ntellectual property (IP) contributes to a strong global economy by encouraging investment in innovation and fostering entre-
   preneurial spirit. People worldwide benefit from innovations, both directly on a personal level, and indirectly through economic
growth fueled by innovation. Continual development of a vigorous, flexible, and efficient IP system thereby achieving this objective
protects individual rights, encourages investment in innovation, and fosters entrepreneurial spirit.

The Department promotes the IP system through the protection of inventions or creations via patent, trademark, trade secret, and
copyright laws. Under this system of protection, industry in the United States has flourished, creating employment opportunities for
millions of Americans.

Patents provide incentives to invent and invest in new technology by allowing innovators the opportunity to benefit from their discov-
eries. Registration of trademarks assists businesses in protecting their investments and safeguards consumers against confusion
and deception in the marketplace by providing notice of marks in use. Through dissemination of patent and trademark information,
the Department promotes a global understanding of IP protection and facilitates the development and sharing of new technologies
worldwide.

It is a legal requirement for patentability to determine whether an invention is new, useful, and non-obvious to someone knowl-
edgeable in that subject matter. To that end, not only is it important that a patent or trademark be issued in a timely manner, but that it
is of high quality. Patent examinations are subjected to both end-product allowance and in-process reviews that evaluate the quality of
the substantive basis for examiner decisions, applicability of publications found by the examiner, or the quality reviewer; evidence; and
clarity of communications with applicants. Findings produced by these reviews are shared individually with examiners, are collected
in a database for ongoing analysis, serve as the basis for the development of training programs, and are used to strengthen the
review process.



ACHIEVEMENTS

An important tool needed in improving patent pendency and increasing the quality of issued patents is the Leahy-Smith America
Invents Act (AIA), (PL 112-29), signed into law by President Obama on September 16, 2011. USPTO is pleased to report that its AIA
implementation efforts are proceeding on a timely basis. U.S. innovators are already seeing the benefits of this legislation. USPTO has
implemented several provisions of the AIA, all within the time frames prescribed by the act.

USPTO launched a major program called Clearing Our Oldest Patent Applications 2.0 (COPA 2.0). COPA 2.0 is a continuation of the
original COPA effort to eliminate the “tail” of backlog applications. For COPA 2.0, the “tail” is applications that were 13 months and
older as of October 1, 2011 that had not received a first office action.




  50                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     PERFORMANCE SECTION • THEME 1




The Agency is moving from a one-track patent examination process to a multi-track process by adopting procedures and initiatives that
incentivize abandoning applications that are not important to applicants, accelerating critical technologies, permitting an applicant to
accelerate important applications, and exploring other incentive and accelerated examination options.

USPTO continues to increase its examination capacity by employing new recruitment and development models to hire, train, and retain
a highly skilled and diverse workforce.

For the first time ever, USPTO has expanded its operations outside of the Washington, DC metropolitan area as part of its ongoing
effort to recruit and retain the Nation’s top professionals. The first USPTO satellite office, the Elijah J. McCoy Satellite Office, opened in
Detroit, MI on July 13, 2012. This location will function as a hub of innovation and creativity, helping protect and foster U.S. innovation
in the global marketplace, assisting businesses to cut through red tape, and creating hundreds of highly skilled jobs in each of the local
communities.

Patent processing times are primarily gauged by two measures: Average First Action Pendency and Average Total Pendency.
Average First Action Pendency is the average length of time it takes from filing until an examiner’s initial determination of the patent-
ability of an invention. Average Total Pendency is the average length of time it takes from filing until the application is issued as a patent
or abandoned by the applicant. Average First Action Pendency (21.9 months) improved significantly from FY 2011 (28.0 months).

In recent years, the Patent Prosecution Highway has proven to be a significant work sharing initiative for USPTO, and a successful
vehicle enabling faster and less expensive multi-country patent prosecution for the IP community.

New performance standards were implemented that place a greater emphasis on examiners interacting with patent applicants earlier
in the process to clarify claims and enhance the quality of patent reviews.

In enhancing its effective training regimes, USPTO implemented the Patent Examiner Technical Training Program which provides
patent examiners with direct access to experts who are able to share their technical knowledge on prior art and industry standards in
areas of emerging technologies and established technologies. This enhanced communication contributes to improving overall patent
quality and decreasing patent pendency.

USPTO is implementing a variety of information technology (IT) initiatives to improve its patent operations. Some of these measures
include, but are not limited to: converting imaged-based documents to XML text versions of key documents for the entire active
patent backfile; deployed Universal Laptops to all patent examiners, on time and on budget, enabling applicants to obtain real-time
decisions on their petitions by automating the handling of common electronically-filed petitions; upgraded network infrastructure,
providing ISP-grade network bandwidth to USPTO examiners; and continuing to provide and enhance tools for applicants’ use for
patent application filing.

The Trademark organization consistently met and exceeded its pendency targets for first action and final disposition. With final
pendency less than 11 months—a sustained record low for the office—a new application is registered or issued a notice of allowance
on average in less than a year.

Pendency has improved as electronic filing and processing have become the primary means of conducting business. Increased use
of electronic forms, particularly Trademark Electronic Application System (TEAS) Plus, has improved the efficiency and timeliness
of examination.




F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         51
PERFORMANCE SECTION • THEME 1




Trademark first action pendency measures the average number of months from the date of application filing to the first office action.
Trademark final pendency measures the average number of days from date of filing to notice of allowance, notice of abandonment, or
registration for applications based on use in that month. First action pendency has been maintained within its optimized range of 2.5 to
3.5 months every month for the past six years. Average final pendency, including suspended and inter partes cases, was 12.0 months.
Excluding applications that were suspended or delayed for inter partes proceedings, average total pendency was 10.2 months.

The Trademark organization continues to meet and exceed standards for high quality examination; 96.2 percent of all first actions and
97.1 percent of all final decisions (approvals and rejections) were compliant with the registrability standards set by statute, and also
met or exceeded Agency standards for writing quality. Results for both the first and final compliance action measures are at or above
their targets and indicate high accuracy in decision-making and writing.

The Trademark organization strives to enhance the quality of examination by adopting more rigorous customer-centric measures.
The new “exceptional” quality measure exceeded its target. This measure reflects comprehensive excellence of the search, evidence,
writing, and decision-making of the initial office action. It also emphasizes the appropriate use of telephone and e-mail communica-
tions to settle or clarify issues with the applicant or its attorney. The target is an indication of the high standard that has been set in
defining excellence.




                                            SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                         PERFORMANCE MEASURE (USPTO)                                       TARGET             ACTUAL             STATUS
 Patent quality composite rate                                                             48-56                72.4             Exceeded

 Patent first action pendency (months)                                                      22.6                21.9               Met

 Patent total pendency (months)                                                             34.7                32.4               Met

 Patent applications filed electronically                                                  96.0%               97.1%               Met

 Trademark first action compliance rate                                                    95.5%               96.2%               Met

 Trademark final compliance rate                                                           97.0%               97.1%               Met

 Trademark first action pendency (months)                                                  2.5-3.5               3.2               Met

 Trademark average total pendency (months), excluding suspended and inter
                                                                                            12.0                10.2               Met
 partes proceedings
 Trademark applications processed electronically                                           74.0%               77.0%               Met




  52                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




                                                         OBJECTIVE 2

                Expand international markets for U.S. firms and inventors by improving the protection
                              and enforcement of intellectual property rights (USPTO)


                                                      PUBLIC BENEFITS



 I n an era of a global economy it is also important that the property rights of inventors be protected not only in the United States,
   but internationally as well. USPTO plays a leadership role in promoting effective domestic and international protection and
enforcement of IPR by advocating U.S. government IPR policy, working to develop unified standards for international IPR, providing
policy guidance on domestic IPR issues, and fostering innovation. USPTO advises the President and federal agencies on national and
international IPR policy matters and trade-related aspects of IPR, and conducts technical assistance and capacity-building programs
for foreign governments seeking to develop or improve their IPR regulatory and enforcement mechanisms.



ACHIEVEMENTS

USPTO develops and advances domestic and international U.S. IP policy objectives that include the establishment of strong and
balanced IP systems to serve the needs of all stakeholders. USPTO develops IP policy through information gathering and analysis
and stakeholder consultations. Stakeholders include domestic and foreign IP rights holders and users, consumers, U.S. government
agencies, foreign governments, and the public at large. USPTO furthers IP policy goals through training foreign officials, providing
domestic and international educational outreach, launching strategic cooperation projects between national IP offices, deploying IP
Attachés to critical regions of the world, and advising on the IP aspects of U.S. trade efforts.

USPTO, through the Global IP Academy (GIPA) in the Office of Policy and External Affairs, provides IP educational opportunities to
U.S. and foreign government officials, domestic small and medium-sized enterprises, universities, foreign officials, and the public.
GIPA provides expertise on administration, protection, and enforcement in all areas of domestic and international IP. In FY 2012, GIPA
conducted training programs for foreign government officials, reaching an audience of foreign government officials from 78 countries.

Throughout FY 2012, USPTO continued to seek improved protection for IP multilaterally in several fora including the World Intellectual
Property Organization (WIPO), the World Trade Organization (WTO), and other intergovernmental organizations.

●● In June 2012 in Beijing, China, a delegation from USPTO joined U.S. Department of State and U.S. Copyright Office officials, and
   negotiated and signed a landmark multilateral treaty that advances global IPR for the creative content of audiovisual performers.

●● USPTO also advanced work with WIPO on issues relating to the protection of broadcasting and the access to copyrighted works by
   persons with print disabilities.

●● The TM5, consisting of the United States, Japan, Europe, Korea, and China trademark entities, brings together the largest trademark
   offices in the world to share information and collaborate on projects that increase efficiencies in filing for and maintaining interna-
   tional trademark portfolios. USPTO, Japan Patent Office, and the European Community’s Office of Harmonization for the Internal
   Market invited the Korean Intellectual Property Office and the Chinese State Administration for Industry and Commerce to the
   TM5 discussions to share information regarding the development of practice and procedure in these offices for the benefit of all
   trademark owners.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     53
PERFORMANCE SECTION • THEME 1




●● To improve enforcement in high-priority countries and regions, USPTO has developed rigorous capacity-building programs for
   foreign enforcement officials, including police and investigators, prosecutors, border enforcement officials, as well as the judiciary.
   USPTO has taken an active role in working with foreign judiciaries and prosecutors to increase their understanding of IP issues
   through direct training and exchanges with U.S. officials, including U.S. judges and prosecutors who are experts in handling IP cases.

●● Combating the proliferation of counterfeit medicines is a training priority. USPTO organized a series of workshops in Indonesia and
   Jordan. The U.S. Food and Drug Administration, U.S. Department of Justice, and the U.S. Immigration and Customs Enforcement,
   Homeland Security Investigations participated in the workshops.

●● USPTO worked with Korea, Colombia, and Panama to guide implementation of the IP provisions of their free trade agreements
   (FTA) with the United States.

●● Two new Attaché Post locations were established in Mexico City, Mexico and Shanghai, China, respectively. The addition of the
   Shanghai position will increase USPTO’s presence in China from two cities to three, and the addition of the Mexico City position will
   expand USPTO’s overseas presence from seven countries to eight.

For more detailed information about USPTO achievements this fiscal year, please see its FY 2012 PAR at:
http://www.uspto.gov/about/stratplan/.




                                           SUMMARY OF PERFORMANCE


The Department uses the following measure to gauge the performance of the activities associated with this objective.


                         PERFORMANCE MEASURE (USPTO)                                      TARGET             ACTUAL            STATUS
 Percentage of prioritized countries that have implemented at least 75%
 of action steps in the country-specific action plans toward progress along
 following dimensions:
 1.	 Institutional improvements of IP office administration for advancing IPR              75%                75%               Met
 2.	 Institutional improvements of IP enforcement entities
 3.	 Improvements in IP laws and regulations
 4.	 Establishment of government-to-government cooperative mechanisms




  54                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




                                                         OBJECTIVE 3

                Stimulate high-growth business formation and entrepreneurship through investing in
                   high-risk, high-reward technologies and by removing impediments to accelerate
                                         technology commercialization (EDA)


                                                      PUBLIC BENEFITS



 E    DA encourages entrepreneurship and commercialization through its i6 Challenge Grants designed to encourage and reward
      innovative, groundbreaking ideas that will accelerate technology commercialization and new venture formation across the
United States. Continuing the i6 concept developed in previous years, EDA conducted an i6 Challenge in 2012 to issue up to
12 competitive awards to support proof-of-concept centers. Along with several other federal agencies, EDA also provided funding
for the 2012 Advanced Manufacturing Jobs Accelerator; up to 12 awards are expected to be made that will support various projects
that foster advanced manufacturing, sponsor entrepreneurship, and utilize commercialized technology. EDA also uses its Office
of Innovation and Entrepreneurship to conduct forums, collaborate on cutting-edge research, and analyze policy with the intent of
identifying opportunities for enhancing federal efforts to encourage commercialization and entrepreneurship.



ACHIEVEMENTS

Using its broad portfolio of economic development programs, EDA took significant steps to stimulate high growth, business formation,
entrepreneurship, and technology commercialization through strategic investments in FY 2012. EDA’s investments in University
Centers helped to identify opportunities for technology commercialization, and facilitated implementation and dissemination of
programs to cultivate innovation and entrepreneurship. EDA’s Office of Innovation and Entrepreneurship worked with key stakeholders
throughout the country to identify and disseminate strategies to promote technology transfer and commercialization, especially through
the Nation’s federal laboratories. Vital to this effort was EDA-funded research completed in FY 2012 that identified factors affecting
technology transfer and commercialization and provided key innovative strategies that can be employed as they are pursued.

In FY 2012, EDA continued to develop, implement, and lead successful efforts to coordinate federal resources and streamline
processes and procedures for both grant application requirements and post-award grant administration. EDA championed several of
these interagency funding competitions in FY 2012, including: the Rural Jobs and Innovation Accelerator and the Advanced Manufac-
turing Jobs and Innovation Accelerator. The Rural Jobs and Innovation Accelerator Challenge leveraged the resources of both EDA and
the U.S. Department of Agriculture to support the development and implementation of locally-driven economic development strategies
that foster the development of high-growth clusters and accelerate the benefits of regional innovation cluster-based economic devel-
opment, with a targeted focus on economically-distressed rural communities. Following a similar structure, EDA spearheaded the
Advanced Manufacturing Jobs and Innovation Accelerator, which strategically combined federal resources from EDA, NIST, U.S.
Department of Energy, U.S. Department of Labor’s Employment and Training Administration, U.S. Small Business Administration, and
the National Science Foundation. The collaboration between these agencies provided funding for public-private partnerships between
small and large businesses, colleges and universities, nonprofits, and other local stakeholders to support and strengthen advanced
manufacturing at the local level. In addition to these new regional innovation strategies, EDA conducted a second i6 Challenge in
FY 2012, in which recipients will develop and enhance technology commercialization activities.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 55
PERFORMANCE SECTION • THEME 1




                                                SUMMARY OF PERFORMANCE


The following 10 measures associated with EDA overlap among Objectives 3, 6, and 7 and are reflected in the crosswalk below.
Objective 6 has no other measures other than the ones noted in this list while Objectives 3 and 7 have separate measures that don’t
overlap with each other.


                                  PERFORMANCE MEASURE (EDA)                                          OBJECTIVE 3      OBJECTIVE 6     OBJECTIVE 7
 Private investment leveraged – 9 year totals (in millions)                                                3               3                 3
 Private investment leveraged – 6 year totals (in millions)                                                3               3                 3
 Private investment leveraged – 3 year totals (in millions)                                                3               3                 3
 Jobs created/retained – 9 year totals                                                                     3               3                 3
 Jobs created/retained – 6 year totals                                                                     3               3                 3
 Jobs created/retained – 3 year totals                                                                     3               3                 3
 Percentage of Economic Development Districts (EDD) and Indian tribes
 implementing projects from the Comprehensive Economic Development Strategy                                3                                 3
 (CEDS) that lead to private investment and jobs
 Percentage of sub-state jurisdiction members actively participating in the Economic
                                                                                                           3                                 3
 Development District program
 Percentage of University Center clients taking action as a result of University Center
                                                                                                           3                                 3
 assistance
 Percentage of those actions taken by University Center clients that achieve the
                                                                                                           3                                 3
 expected results

The table that appears below reflects performance for those measures that apply to either all three, or to Objectives 3 and 7, and to
those measures that apply to only Objective 3. Measures that apply to only Objective 7 appear under the text for that objective.


                              PERFORMANCE MEASURE (EDA)                                           TARGET               ACTUAL             STATUS
 Private investment leveraged – 9 year totals (in millions)                                       $1,810              $1,6201              Not Met

 Private investment leveraged – 6 year totals (in millions)                                        $662                 $662                 Met
 Private investment leveraged – 3 year totals (in millions)                                        $490                $4371               Not Met

 Jobs created/retained – 9 year totals                                                            52,700              45,8001              Not Met

 Jobs created/retained – 6 year totals                                                            17,548              17,4581           Slightly Below

 Jobs created/retained – 3 year totals                                                            11,269              11,1831           Slightly Below

 Percentage of Economic Development Districts (EDD) and Indian tribes
 implementing projects from the Comprehensive Economic Development                                 95%                  90%                Not Met
 Strategy (CEDS) that lead to private investment and jobs
 Percentage of sub-state jurisdiction members actively participating in the
                                                                                                   89%                  87%             Slightly Below
 Economic Development District program
 Percentage of University Center clients taking action as a result of the
                                                                                                   75%                  70%                Not Met
 University Center assistance
 Percentage of those actions taken by University Center clients that achieve
                                                                                                   80%                  82%                  Met
 the expected results
 1	   Estimates as of November 15. EDA expects to meet or be slightly below the targets with the release of final performance data.




  56                                                   F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




NIST’s final FY 2012 enacted appropriations did not provide funding for the Technology Innovation Program (TIP) and the program is
currently implementing a closeout, expected to be completed by the end of FY 2014. Therefore, TIP’s performance measures have
been discontinued. TIP’s performance measures and targets for previous years appear in the FY 2011 PAR.

Prior to its closeout, TIP awarded 38 projects advancing research in the areas of civil infrastructure (17 projects) and advanced
manufacturing (21 projects). These awards leverage $136 million in TIP funding with an additional $144 million in industry cost-share.
Two projects have successfully completed research and development (R&D) and the remaining projects will continue the research
using previously obligated funds. NIST technical experts will continue to monitor the technical progress and ensure the fidelity of the
research during this time.



F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        PRIVATE INVESTMENT LEVERAGED – 9 YEAR TOTALS (IN MILLIONS) (EDA)
                  The performance goal was set at an approximate target level, and the deviation from that level is slight. There was
 Explanation
                  no effect on overall program or activity performance.
 Action           No actions to be taken.
   MEASURE        PRIVATE INVESTMENT LEVERAGED – 3 YEAR TOTALS (IN MILLIONS) (EDA)
                  The performance goal was set at an approximate target level, and the deviation from that level is slight. There was
 Explanation
                  no effect on overall program or activity performance.
 Action           No actions to be taken.
   MEASURE        JOBS CREATED/RETAINED – 9 YEAR TOTALS (EDA)
                  The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                  The deviation can largely be explained by targets not accounting for the economic downturn that began in 2008.
 Action           No actions to be taken.
   MEASURE        JOBS CREATED/RETAINED – 6 YEAR TOTALS (EDA)
                  The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                  The deviation can largely be explained by targets not accounting for the economic downturn that began in 2008.
 Action           No actions to be taken.
   MEASURE        JOBS CREATED/RETAINED – 3 YEAR TOTALS (EDA)
                  The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                  The deviation can largely be explained by targets not accounting for the economic downturn that began in 2008.
 Action           No actions to be taken.
   MEASURE        PERCENTAGE OF ECONOMIC DEVELOPMENT DISTRICTS (EDD) AND INDIAN TRIBES IMPLEMENTING PROJECTS FROM THE
                  COMPREHENSIVE ECONOMIC DEVELOPMENT STRATEGY (CEDS) THAT LEAD TO PRIVATE INVESTMENT AND JOBS (EDA)
                  For this measure, EDA uses a strict definition that requires EDDs to report both jobs and private investment as
 Explanation      a result of their economic development projects. This year, a significant number of EDDs reported either jobs or
                  private investment, but not both. If these were to be counted, the percentage would be greater.
 Action           No actions to be taken.
                                                                                                                           (continued)




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  57
PERFORMANCE SECTION • THEME 1




   MEASURE        PERCENTAGE OF SUB-STATE JURISDICTION MEMBERS ACTIVELY PARTICIPATING IN THE ECONOMIC DEVELOPMENT
                  DISTRICT PROGRAM (EDA)
                  The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                  This measure represents an improvement over the previous year.
 Action           There was no effect on overall program or activity performance.
   MEASURE        PERCENTAGE OF UNIVERSITY CENTER CLIENTS TAKING ACTION AS A RESULT OF THE UNIVERSITY CENTER ASSISTANCE
                  (EDA)
                  The performance goal was set at an approximate target level, and the deviation from that level is slight. There was
 Explanation
                  no effect on overall program or activity performance.
 Action           No actions to be taken.



HISTORICAL TRENDS

Except for FY 2012, EDA has consistently met or exceeded its targets for private investment leveraged and jobs created, as well as its
EDD and University Center targets.




                                                         OBJECTIVE 4

              Drive innovation by supporting an open global Internet and through communications
             and broadband policies that enable robust infrastructure, ensure integrity of the system,
                                        and support e-commerce (NTIA)


                                                      PUBLIC BENEFITS



 I n this era of technological expansion two areas where the Department provides significant benefits to the U.S. public involve
   the radio frequency spectrum and broadband technology. NTIA acts as an advisor to the President on communications policy
matters; Internet domain names, wireless telecommunications standards, and technology; and high-speed Internet services.
NTIA continues to further the technological advances for wireless communication, Internet services, domain name management
issues, and other advances in technology. NTIA’s responsibilities have increased considerably in this expansion of technology with
the enactment of the American Recovery and Reinvestment Act (ARRA) of 2009. NTIA and the U.S. Department of Agriculture’s
Rural Utilities Service are administering a $7 billion initiative to expand broadband access and adoption. Specifically, NTIA is utilizing
approximately $4 billion of that funding for grants through the Broadband Technology Opportunities Program (BTOP). BTOP projects
extend broadband access to unserved and underserved areas of the country and to vulnerable populations, including minorities, low
income residents, the aged, the unemployed, and people with disabilities. These projects are deploying broadband infrastructure,
enhancing capacity at public computing centers, and supporting projects to encourage non-users to subscribe to broadband services.
BTOP objectives include:

●● Extend broadband access to unserved and underserved areas;

●● Increase broadband education, awareness, training, access, equipment, and support;




  58                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




●● Expand broadband access and use by public safety agencies; and

●● Stimulate broadband demand, economic growth, and job creation.


NTIA also leads Department activities in the areas of next-generation Internet Protocols, ultrawideband technology, wireless broadband
applications, wireless sensor technologies, and Internet technical functions. Congress directed NTIA to use ARRA funding to develop
a national broadband map which would educate the Nation about broadband availability and assist the public and private sectors in
making decisions affecting their businesses and constituents.



ACHIEVEMENTS

NTIA and the Economics and Statistics Administration (ESA) released a report, “Exploring the Digital Nation,” that analyzes broadband
Internet adoption in the United States. The report analyzes data collected through an Internet Use supplement to the Current Population
Survey of about 54,300 households conducted by the U.S. Census Bureau in October 2010. Overall, approximately seven out of
10 households in the United States subscribe to broadband service. The report finds a strong correlation between broadband adoption
and socio-economic factors, such as income and education, but says these differences do not explain the entire broadband adoption
gap that exists along racial, ethnic, and geographic lines. Even after accounting for socio-economic differences, certain minority and
rural households still lag in broadband adoption.

NTIA and the Federal Communications Commission (FCC) together will identify 500 megahertz (MHz) of spectrum to reallocate for
commercial wireless broadband. In January 2011, NTIA selected the 1755-1850 MHz band as a priority for analysis based on a variety
of factors, including industry interest and its potential for commercial use within 10 years. In March, NTIA released a report finding
that 95 MHz of prime spectrum could be repurposed for wireless broadband use. NTIA, working with federal agencies, evaluated
the potential of the 1755-1850 MHz band to accommodate commercial wireless broadband service. This spectrum band is of great
interest to the wireless industry. However, over 20 federal agencies currently hold more than 3,100 individual frequency assignments
in this band to perform a host of mission-critical functions, including law enforcement surveillance, military tactical communications, air
combat training, and precision-guided munitions.

In the report, NTIA proposes a new path forward for spectrum repurposing that relies on a combination of relocating federal users
and sharing spectrum between federal agencies and commercial users. Spectrum sharing will be a vital component to satisfying the
growing demand for spectrum, and federal and non-federal users will need to adopt innovative spectrum-sharing techniques to accom-
modate this demand. NTIA proposes convening discussions between industry and the relevant federal agencies under the auspices of
the Commerce Spectrum Management Advisory Committee, with the goal of finding ways to work together through sharing or other
means to reduce the time and expense of repurposing the 1755-1850 MHz band, while maintaining essential federal capabilities and
maximizing commercial utilization.

In February, the Administration released its Privacy Blueprint for consumer data privacy policy in the 21st century. The Privacy Blueprint
is the result of more than two years of work by the Department Internet Policy Task Force, as well as extensive discussions with stake-
holders in the private sector and the government. NTIA played a key role in developing this policy, and is leading the Administration’s
work to put it into practice. The Privacy Blueprint directs NTIA to convene multistakeholder processes to develop legally enforceable
codes of conduct that specify how the Consumer Privacy Bill of Rights applies in specific business contexts. NTIA announced that the
goal of the first multistakeholder process is to develop a code of conduct to provide transparency in how companies providing appli-
cations and interactive services for mobile devices handle personal data. NTIA convened four multistakeholder process meetings in
July, August, and September. Approximately 300 people took part in the first meeting: 200 in person in Washington and 100 online or
by telephone.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      59
PERFORMANCE SECTION • THEME 1




BTOP recipients are exceeding their performance goals in deploying new fiber-optic infrastructure, constructing new public computer
centers, and encouraging greater Internet adoption. As of June 30, 2012, BTOP recipients reported that they had:

●● exceeded NTIA’s FY 2012 goal to deploy 50,000 new or upgraded network miles across the country, bringing the total number of
   miles to more than 72,000, deploying facilities in 47 states and territories; reached its FY 2012 goal to connect 10,000 community
   anchor institutions to high-speed broadband Internet service;

●● entered into nearly 400 interconnection agreements with third-party providers to leverage or interconnect with their networks;

●● recipients installed more than 36,000 workstations in public computer centers in 40 states, exceeding the FY 2012 goal;

●● provided more than 8 million hours of technology training to approximately 2 million users;

●● exceeded NTIA’s FY 2012 goal of 350,000 planned new broadband subscribers with more than 380,000 households and
   8,000 businesses subscribed to broadband services after receiving digital literacy or job training; and

●● funded more than 4,000 jobs in the second quarter of FY 2012.


In all, NTIA broadband grant recipients have spent approximately $2.1 billion in federal funds and, as of June 30, 2012, more than
$820 million in non-federal matching funds, towards building the Nation’s 21st century infrastructure. NTIA expects the pace of
construction to remain strong over the next several quarters and expects communities to begin to fully realize the impact of these
investments.

In February 2011, NTIA released the National Broadband Map (www.broadbandmap.gov), the first U.S. public, searchable nationwide
dataset of broadband availability, and updated it twice in FY 2012. Each update is powered by an extensive, publicly available dataset—
more than 20 million records representing 1,865 U.S. broadband providers—that shows where broadband is available, the technology
used to provide the service, the maximum advertised speeds, and the names of the service providers. It is the most extensive dataset
of its kind, created in partnership with every state. The interactive Web site is a powerful tool for researchers, economic developers,
state government leaders, and business owners seeking to better harness the power of broadband to improve their communities.

NTIA awarded a new Internet Assigned Numbers Authority (IANA) functions contract to the Internet Corporation for Assigned Names
and Numbers (ICANN). The IANA functions are key technical services critical to the continued operations of the Internet’s underlying
address book, the Domain Name System (DNS). The IANA functions include: (1) the coordination of the assignment of technical Internet
protocol parameters, (2) the administration of certain responsibilities associated with the Internet DNS root zone management, (3) the
allocation of Internet numbering resources, and (4) other services related to the management of the .ARPA and .INT top-level domains.
(The .INT domain is operated by IANA, and available for registration exclusively by intergovernmental organizations established by inter-
national treaties between or among national governments. The .ARPA domain is the “Address and Routing Parameter Area” domain
and is designated to be used exclusively for Internet-infrastructure purposes. It is administered by the IANA in cooperation with the
Internet technical community.)The period of performance for the contract is October 1, 2012 – September 30, 2015, with two separate
two-year option periods for a total contract period of seven years.

NTIA hosted four meetings of the Commerce Spectrum Management Advisory Committee in FY 2012. The committee provides advice
on needed reforms to domestic spectrum policies and management in order to: license radio frequencies in a way that maximizes their
public benefits; keep wireless networks as open to innovation as possible; and make wireless services available to all Americans.




  60                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                             PERFORMANCE SECTION • THEME 1




NTIA issued a Request for Information (RFI) seeking public comment on various issues relating to the development of the State and Local
Implementation grant program, which NTIA must establish pursuant to the Middle Class Tax Relief and Job Creation Act of 2012 to assist
state and local governments in planning for a single, nationwide interoperable public safety broadband network. NTIA intends to use the
input from this process to inform the development of programmatic requirements to govern the state and local planning grants program.

The act also created the First Responder Network Authority (FirstNet) as an independent authority within NTIA. FirstNet is Congressionally
mandated to establish a nationwide wireless broadband network that enables police, firefighters, emergency services personnel, and
others in public safety to better communicate with one another during emergencies and use new technology to improve response time,
keep communities safe, and save lives. The FirstNet Board is responsible for making strategic decisions regarding FirstNet’s operations.
The FirstNet Board held its first public meeting on September 25, 2012, adopting bylaws and making initial organizational decisions.


                                                  SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                              PERFORMANCE MEASURE (NTIA)                                              TARGET          ACTUAL1       STATUS
 Update the spectrum inventory first established in FY 2010                                                          Inventory
                                                                                                     spectrum       updated and
                                                                                                     inventory     made available     Met
                                                                                                       update        to federal
                                                                                                                     agencies
 Identify up to 500 MHz of spectrum to support commercial broadband                               Meet 66% of
 services or products                                                                              milestones
                                                                                                  regarding the
                                                                                                  identification       85%          Exceeded
                                                                                                   of 500 MHz
                                                                                                   for wireless
                                                                                                    broadband
 Miles of broadband networks deployed (infrastructure projects)                                       50,000          72,152        Exceeded

 Community anchor institutions connected (infrastructure projects)                                    10,000          10,045        Exceeded

 New and upgraded computer workstations (public computer centers
                                                                                                      35,000          36,347        Exceeded
 projects)
 New household and business subscribers to broadband (sustainable
                                                                                                     350,000          388,679       Exceeded
 broadband adoption projects)
 1	   Actuals as of June 30, 2012. NTIA anticipates exceeding all its targets with fourth quarter data.




F Y   2 0 1 2     P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                            61
PERFORMANCE SECTION • THEME 1




                                                          OBJECTIVE 5

           Provide measurement tools and standards to strengthen manufacturing, enable innovation,
                                       and increase efficiency (NIST)


                                                       PUBLIC BENEFITS



 N    IST works with U.S. industry and other stakeholders to promote U.S. innovation and industrial competitiveness by advancing
      measurement science, standards, and technology that drive technological change. The NIST laboratories play a unique role in
the Nation’s scientific, industrial, and business communities and anchor the national measurement and standards system that is the
language of research and commerce. NIST’s presence and leadership in the Nation’s measurement and standards system enables
companies, government agencies, and universities to work with each other more easily, improving the Nation’s economic security
and quality of life. NIST’s activities also help address a broad range of critical challenges for the Nation to lay the foundation for
future success in priority areas such as advanced manufacturing, cybersecurity, Smart Grid, healthcare IT, alternative energies, and
improved sustainability.

The NIST Laboratory Programs work at the frontiers of measurement science to ensure that the U.S. system of measurements is
firmly grounded on sound scientific and technical principles. Today, the NIST laboratories address increasingly complex measurement
challenges, ranging from the very small (e.g., nanoscale devices) to the very large (e.g., vehicles and buildings), and from the physical
(e.g., renewable energy sources) to the virtual (e.g., cybersecurity and cloud computing). As new technologies develop and evolve,
NIST’s measurement research and services remain central to innovation, productivity, trade, and public safety.

The NIST Laboratory Programs provide industry, academia, and other federal agencies with:

●● Scientific underpinnings for basic and derived measurement units in the international standards community, measurement and
   calibration services, and certified reference materials;

●● Impartial expertise and leadership in basic and applied research to enable development of test methods and verified data to support
   the efficient commercialization and exchange of goods and services in industry and commerce;

●● Support for the development of open, consensus-based standards and specifications that define technical and performance require-
   ments for goods and services, with associated measurements and test methods for conformity; and

●● Unique cutting edge user facilities that support innovation in materials science, nanotechnology discovery and fabrication, and other
   emerging technology areas through the NIST Center for Neutron Research, which provides world class neutron measurement
   capabilities to the U.S. research community, and the NIST Center for Nanoscale Science and Technology, which supports nanotech-
   nology development from discovery to production.

In addition, NIST is designated under the National Technology Transfer Advancement Act as the coordinator for all federal agencies
using documentary standards that are developed by private-sector consensus bodies to carry out their policy objectives.




  62                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




ACHIEVEMENTS

Two New Advanced Laboratories Open at NIST Boulder and JILA

New buildings for high-precision science and measurements have opened in Boulder, CO, providing upgraded facilities to support
technology innovation, economic growth, and the training of future scientists. The Precision Measurement Lab at NIST and the X-Wing
at JILA—a joint venture of NIST and University of Colorado at Boulder—tightly control environmental conditions such as vibration
and temperature, as is required for cutting-edge research with lasers, atomic clocks, nanotechnology, and other areas of study.
Both buildings also have capabilities for micro and nanofabrication of custom research devices. The original labs were built in the 1950s
and 1960s. (http://www.nist.gov/public_affairs/tech-beat/tb20120417.cfm#labs)

Advanced Manufacturing National Program Office Established at NIST

NIST has established the Advanced Manufacturing National Program Office to enable more effective collaboration in identifying and
addressing challenges and opportunities that span technology areas and cut across Agency missions. Hosted by NIST, the office
will be staffed by representatives from federal agencies with manufacturing-related missions as well as fellows from manufacturing
companies and universities. It will link federal efforts to the growing number of private-sector partnerships between manufacturers,
universities, state and local governments, and other organizations. (http://www.nist.gov/public_affairs/releases/npo-121911.cfm)

NIST Establishes National Cybersecurity Center of Excellence

NIST established the National Cybersecurity Center of Excellence, a public-private collaboration for accelerating the widespread
adoption of integrated cybersecurity tools and technologies. The center will work to strengthen U.S. economic growth by addressing
the cybersecurity challenges of real-world complex IT systems. Potential use case examples would be interoperable cybersecurity
templates to address challenges in health IT, cloud and mobile computing, cryptography, or continuous monitoring of IT systems.
(http://www.nist.gov/public_affairs/tech-beat/tb20120221.cfm#nccoe)

NIST Opens the Net-Zero Energy Residential Test Facility

NIST unveiled a new laboratory designed to demonstrate that a typical-looking suburban home for a family of four can generate as
much energy as it uses in a year. The two-story, four-bedroom, three-bath facility incorporates energy-efficient construction and
appliances, as well as energy-generating technologies such as solar water heating and solar photovoltaic systems. Following an initial
year-long experiment to prove net-zero energy usage, the facility will be used to improve test methods for energy-efficient technologies
and develop cost-effective design standards for energy-efficient homes that could reduce overall energy consumption and harmful
pollution, and save families money on their monthly utility bills. (http://www.nist.gov/el/nzertf/net_zero_91212.cfm)

NIST Physicists Benchmark Quantum Simulator with Hundreds of Qubits

Physicists at NIST have built a quantum simulator that can engineer interactions among hundreds of quantum bits (qubits)—10 times
more than previous devices. The simulator has passed a series of benchmarking tests and scientists are poised to study problems
in material science that are impossible to model on conventional computers. Other experiments have yet to fully involve more than
30 qubits, the threshold at which calculations become impossible on conventional computers, but the NIST simulator has extensive
control over hundreds of qubits. (http://www.nist.gov/public_affairs/tech-beat/tb20120502.cfm#qubits)




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    63
PERFORMANCE SECTION • THEME 1




Study Finds Failure Points in Firefighter Protective Equipment

NIST researchers uncovered temperature and heat-flow conditions that can seriously damage facepiece lenses on standard firefighter
breathing equipment, a potential contributing factor for first-responder fatalities and injuries. The experiments will inform efforts to
improve the match between standard requirements and real-life conditions. Until now, these efforts have been hampered by lack of
information regarding the high-temperature and high-heat-flow performance of facepiece lenses and the actual fire-scene conditions
that have resulted in lens failures. (http://www.nist.gov/el/fire_research/scba-120611.cfm)

New NIST Biometric Data Standard Adds DNA, Footmarks, and Enhanced Fingerprint Descriptions

NIST published a revised biometric standard that vastly expands the type and amount of information that forensic scientists can
share across their international networks to identify victims or solve crimes. New types of biometric data—DNA and footprints—were
added as well as updates to existing record types such as fingerprints, facial images, or iris samples. The revision includes the first
international standard for the exchange of DNA data. (http://www.nist.gov/public_affairs/tech-beat/tb20111206.cfm#biometric)

Publications Provide Cloud Computing Standards Roadmap and Reference Architecture

NIST has published two new documents on cloud computing that provide guidance for understanding the cloud computing standards
and categories of cloud services that industry and government can use. Cloud computing is a model for enabling ubiquitous,
on-demand network access to a shared pool of computing resources, including servers, data storage, and applications and services.
These documents are incorporated into the NIST U.S. Government Cloud Computing Technology Roadmap, which describes
what needs to be done to establish cloud computing across government agencies. (http://www.nist.gov/public_affairs/tech-beat/
tb20110913.cfm#cloud)

New Tool Helps Organizations Meet Health Care Security Requirements

A new free toolkit developed by NIST can help public and private organizations to understand and implement the requirements of
the Health Insurance Portability and Accountability Act Security Rule. The act was enacted by Congress in part to promote efficiency
in the health care industry through the use of standardized electronic transactions, while protecting the privacy and security of health
information. Organizations can use the toolkit to identify areas where security safeguards may be needed to protect electronic
health information, or where their existing safeguards may need to be improved. (http://www.nist.gov/public_affairs/tech-beat/
tb20111122.cfm#hipaa)

NIST Releases Final Smart Grid ‘Framework 2.0’ Document

NIST has updated its Framework and Roadmap for Smart Grid Interoperability Standards. The new version adds 22 standards,
specifications and guidelines to the 75 NIST recommended in the 1.0 version of January 2010 as relevant to the Smart Grid. Further
additions include an expanded view of Smart Grid architecture, developments to ensure grid cybersecurity, a new framework for
testing the conformity of devices and systems to be connected to the Smart Grid, and information on coordinating Smart Grid standards
development in the United States with similar efforts elsewhere in the world. (http://www.nist.gov/smartgrid/framework-022812.cfm)




  64                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                         PERFORMANCE SECTION • THEME 1




Novel Filter Material Could Cut Natural Gas Refining Costs

Measurements taken by a team including NIST scientists show that a new material has the ability to separate components of natural
gas from one another, a task that currently demands a good deal of energy to accomplish. The results, published in the journal Science,
might improve the efficiency of the distillation process, which currently involves chilling gas down to the point where its components
liquefy. The “metal-organic framework” material the team examined can selectively absorb light hydrocarbons at much higher
temperatures, potentially making separation more economical. (http://www.nist.gov/ncnr/filter-032812.cfm)


                                                SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                             PERFORMANCE MEASURE (NIST)                                             TARGET       ACTUAL      STATUS
 Qualitative assessment and review of technical quality and merit using                            Complete
 peer review                                                                                      annual peer   Completed      Met
                                                                                                    review
 Citation impact of NIST-authored publications                                                       > 1.1        > 1.11       Met

 Peer-reviewed technical publications produced                                                      1,210         1,335        Met

 Standard Reference Materials (SRM) sold                                                            31,000       33,441        Met

 NIST-maintained datasets downloaded                                                              18,000,000    22,567,416   Exceeded

 Number of calibration tests performed                                                              14,000       17,206        Met
 1	   Actual for this measure lags nine months. The actual shown here is based on FY 2011 data.




HISTORICAL TRENDS

The National Research Council (NRC), in cooperation with NIST, has completed its peer assessments every year with typically high
praise for NIST programs. NIST typically meets all its targets each year.




F Y   2 0 1 2    P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                     65
PERFORMANCE SECTION • THEME 1




Strategic Goal – Market Development
and Commercialization
Foster market opportunities that equip businesses and communities with the tools they need to expand,
creating quality jobs with special emphasis on unserved and underserved groups




 T 
        his strategic goal is comprised of three objectives
        which contribute to the Secretary’s theme of Economic
        Growth. The following public benefits, achievements,
and performance results are associated with each objective.




  66                                         F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    PERFORMANCE SECTION • THEME 1




                                                          OBJECTIVE 6

           Promote the advancement of sustainable technologies, industries, and infrastructure (EDA)


                                                       PUBLIC BENEFITS



 G   reen technologies and industries refer to efforts and activities that preserve or enhance environmental quality by limiting the
     Nation’s dependence on fossil fuels, enhancing energy efficiency, curbing greenhouse-gas emissions, and protecting natural
systems. As a subset of green, blue technologies refer to environmentally-sustainable efforts and activities related to oceans and
waterways, aquaculture, renewable energy (hydropower, ocean thermal energy, wave power, etc.), and water science management.

Facing the challenges presented by global warming and climate change also offers opportunities to U.S. businesses. It is a Departmental
priority to gather data about the environment, promote energy efficient and environmentally sustainable technologies, and use this
information to grow jobs in the blue and green economies.

The Economic Development Administration (EDA) provides strategic investments in projects that encourage growth of the green
economy. Recent EDA-funded research reveals that businesses in renewable energy and alternative fuels, green building and energy
efficiency technology, energy-efficient infrastructure, transportation, and recycling are growing faster than the rest of the economy.
These findings illustrate the promise environmentally sustainable development, and more specifically, advances in green industries and
technologies, have for transforming regional economies and spurring innovation and fostering job growth.

Through its strategic investments, EDA helps communities leverage their regional assets to promote economic development
in a sustainable manner. For example, EDA can provide technical assistance to plan or test the feasibility of transitioning to green
practices, resources to help construct U.S. Green Building Council’s Leadership in Energy and Environmental Design (LEED) certified
(or equivalent) buildings, or support to make a business or manufacturing process more environmentally-friendly and more competitive.
Since FY 2010, EDA has measured its success in promoting environmentally-sustainable economic development through a Priority Goal
by raising to 12 percent the percentage of construction projects involving buildings or structures funded by Economic Development
Assistance Programs that are certified by the U.S. Green Building Council’s LEED or a comparable third-party certification program.



ACHIEVEMENTS

In FY 2012, EDA updated its Environmental Sustainable Development investment priority, which encourages the use of its programs
to support environmentally-sustainable economic development. There are several conditions which must be met for an EDA project to
advance this investment priority, such as a project’s proximity to quality transit and its reuse of existing developed land. EDA streamlined
an applicant’s ability to achieve this investment priority by enabling projects sited within the boundaries of an area that has received the
U.S. Department of Housing and Urban Development’s (HUD) Preferred Sustainability Status designation and can demonstrate how
the project is consistent with the Partnership for Sustainable Communities Livability Principles to do so.


                                            SUMMARY OF PERFORMANCE


The measures for this objective overlap with those of Objectives 3 and 7. The targets and actual performance of those measures
appear on page 56.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       67
PERFORMANCE SECTION • THEME 1




                                                          OBJECTIVE 7

            Promote the vitality and competitiveness of our communities and businesses, particularly
                       those that are disadvantaged or in distressed areas (EDA, MBDA)


                                                       PUBLIC BENEFITS



 I n support of disadvantaged individuals and communities, EDA promotes private enterprise and job creation in economically
   distressed communities and regions by investing in projects that produce jobs and generate private capital investment.
Through partnerships with local development officials: Economic Development Districts (EDD); University Centers; faith-based
and community-based organizations; and local, state, and federal agencies, EDA can assist distressed communities with strategic
planning and investment activities. This process helps communities set priorities, determine the viability of projects, and leverage
outside resources to improve the local economy to sustain long-term economic growth.

For communities that are particularly distressed through natural disasters, EDA has a long history of providing concerted economic
assistance designed to assist these communities with their long-term economic recovery. In partnership with the Federal Emergency
Management Agency (FEMA), EDA will often provide the initial economic impact assessment of affected areas. EDA then works with
the community to provide tailored assistance, whether by supporting a disaster coordinator to help guide the community in its recovery
efforts, or by providing funds for targeted infrastructure designed to help catalyze the regional economy to overcome the effects of
the disaster.

The Minority Business Development Agency (MBDA) promotes the ability of minority business enterprises (MBE) to grow and to
participate in the global economy through a range of activities that include funding a network of centers that provide MBEs a variety
of business assistance services. MBDA, through its direct federal client services and its network of funded centers (1) fosters the
expansion of opportunities for minority-owned business in the global marketplace, (2) identifies sources of financial capital for minority-
owned firms, (3) develops and upgrades electronic tools to provide access to growth markets through automated matching of MBEs
to public and private sector opportunities, (4) provides management and technical assistance to minority-owned businesses, and
(5) advocates for the increased use of e-commerce and new technologies by MBEs.



ACHIEVEMENTS

In FY 2012, EDA continued to develop, implement, and lead successful efforts to coordinate federal resources and streamline processes
and procedures for both grant application requirements and post-award grant administration. The Strong Cities, Strong Communities
Visioning Challenge, in the same vein of interagency collaboration, leveraged HUD’s resources and philanthropic networks to provide
funding for cities to conduct economic planning competitions, in which financial prizes are used to incentivize the submission of
community-led, bottom-up economic development plans. Lastly, EDA received a supplemental appropriation of $200 million to support
long-term economic recovery and infrastructure support in communities receiving a major disaster designation in FY 2011. To ensure
that these resources began to be disbursed as rapidly and effectively as possible, EDA developed a streamlined application process
that allows for an expeditious review and evaluation.




  68                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




In FY 2012, MBDA experienced a very productive year. MBDA created 5,331 new jobs across the Nation and saved tens of thousands
of existing jobs by helping minority-owned and operated businesses obtain contracts, totaling $1.16 billion, and financial awards,
totaling $1.56 billion.

MBDA continued to operate a nationwide network of 39 MBDA Business Centers, including centers focused on American Indians and
Alaska Natives. MBDA also continued to operate a center for government contracting to provide direct support to minority-owned
companies across the Nation that desire to compete for government contracts. This center provides a central location for minority-
owned businesses to obtain the information, skills, and relationships they need to achieve favorable contract acquisition.

In FY 2012, MBDA engaged in an ambitious reorganization effort to focus its critical resources on supporting the Nation’s MBEs
through its network of Business Centers. MBDA’s regional administrative offices were closed and staff were integrated into MBDA
headquarters. The network of funded centers now have a central point of contact with MBDA headquarters to support their local and
national efforts to help MBEs succeed in the global marketplace.

The National Advisory Council on Minority Business Enterprises continued to be a critical source of policy recommendations on how to
expand the economic capability of MBEs. MBDA worked closely with advisory board members to promote policies that create a level
playing field for MBEs across the Nation.

Under the auspices of President Obama’s National Export Initiative (NEI), export promotion and the globalization of the minority
business community continued to be a substantial focus of Agency activities in FY 2012. MBDA’s target clients have unique
competitive advantages in the global markets, including language skills, cultural knowledge, knowledge of local business practices, and
familial and other relationships. These competitive advantages have resulted in minority-owned firms being twice as likely to export as
non-minority-owned firms. To leverage these competitive advantages on behalf of the U.S. economy, MBDA engaged in an effort to
identify those companies that have export potential and support them as they globalize their business models.


                                           SUMMARY OF PERFORMANCE


Several of the measures for this objective overlap with those of Objectives 3 and 6. The targets and actual performance of those
measures appear on page 56. In addition, the following measures apply only to this objective.


                              PERFORMANCE MEASURE                                           TARGET         ACTUAL          STATUS
 Percentage of Trade Adjustment Assistance Center (TAAC) clients taking
                                                                                            90%             85%             Not Met
 action as a result of the assistance facilitated by the TAACs (EDA)
 Percentage of those actions taken by Trade Adjustment Assistance Center
                                                                                            95%            100%               Met
 clients that achieved the expected results (EDA)
 Dollar value of contract awards obtained (billions) (MBDA)                                 $1.10          $1.16              Met

 Dollar value of financial awards obtained (billions) (MBDA)                                $0.90          $1.56           Exceeded

 Number of new job opportunities created (MBDA)                                             5,000          5,331              Met




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    69
PERFORMANCE SECTION • THEME 1




F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        PERCENTAGE OF TRADE ADJUSTMENT ASSISTANCE CENTER (TAAC) CLIENTS TAKING ACTION AS A RESULT OF THE ASSIS-
                  TANCE FACILITATED BY THE TAACS (EDA)
                  The decrease in the percentage of TAAC clients taking action as a result of the assistance facilitated by the
 Explanation      TAACs may be due to firms having to allocate resources that would have gone towards implementing projects to
                  operating costs as a result of the recession-driven economic downturn.
 Action           No actions to be taken.



HISTORICAL TRENDS

In the past, EDA and MBDA have consistently met their targets.




                                                         OBJECTIVE 8

                  Improve the competitiveness of small and medium-sized firms in manufacturing
                                        and service industries (ITA, NIST)


                                                      PUBLIC BENEFITS


ITA



 T    he International Trade Administration’s (ITA) Manufacturing and Services (MAS) program provides the Administration, Congress,
      and U.S. businesses the data and analysis needed to make informed decisions on issues impinging on U.S. competitiveness
and employment. The data program is especially valuable to policymakers who require trade information at sub-national (state and
metropolitan) and small and medium exporter levels. MAS has also created an online database of U.S. free trade agreement (FTA)
tariff rates to better enable small and medium-sized firms to take advantage of these agreements. In addition, to be competitive in
today’s global economy, U.S. companies need to be able to move products and services securely, quickly, and efficiently within U.S.
borders and beyond. MAS launched a national dialogue to explore supply chain infrastructure issues that cut across the broad range
of national priorities. MAS is framing the issues and prioritizing what needs to be done to improve U.S. competitiveness, especially
through coordinating with other ITA units to develop in-depth and data-driven strategies that can be the basis for Administration
policies and coordinated activities to expand U.S. exports that support U.S. jobs.

The Nation’s approximately 300,000 manufacturers employed more than 11.5 million people in high-paying jobs in 2010. U.S. manufac-
turers represent roughly two-thirds of total U.S. research and development (R&D) expenditures and account for 60 percent of all U.S.
goods and exports. A strong manufacturing base is critical to the economic strength and stability of the United States. Increased manufac-
turing productivity and competitiveness are essential for the survival of this crucial industrial base.

MAS administers the Market Development Cooperator Program (MDCP). An MDCP award establishes a public-private partnership
whereby ITA provides a trade association or other non-profit industry organization with technical and financial assistance. MDCP
awards enhance the competitiveness of U.S. industries by reducing the startup costs of new projects designed to help U.S. firms to




  70                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




export. Projects vary based on industry focus and target market. Project elements vary as well, ranging from organizing U.S. industry
participation in foreign trade shows to removal of market access barriers that limit exports. Performance is measured by the value of
exports generated annually from public-private MDCP partnerships.


NIST

A strong domestic manufacturing base is vital to the U.S. economy, national security, and fostering U.S. technology and innovation.
The National Institute of Standards and Technology’s (NIST) Hollings Manufacturing Extension Partnership (MEP) connects
manufacturers with the tools, information, and opportunities available to develop innovative products, diversify into new markets, and
increase options for growth and profitability. In doing so, MEP supports the mission of NIST of promoting U.S. innovation and industrial
competitiveness, while also advancing the Department’s Market Development and Commercialization goal.

MEP is a federal-state-industry partnership that provides U.S. manufacturers with access to technologies, resources, and industry
experts. The MEP program consists of centers in every state and Puerto Rico that work directly with their local manufacturing
communities to strengthen the competitiveness of the Nation’s domestic manufacturing base. Funding for the MEP centers is a
cost-sharing arrangement consisting of support from the federal government, state and local government/entities, and fees charged to
the manufacturing clients for services provided by the MEP centers.

Through the MEP program, manufacturers have access to a network of manufacturing experts available to assist in the adoption of
new technologies, developing innovative products, and implementing process innovations to improve their productivity, profitability,
and competitiveness. MEP, in collaboration with partners in all levels of the government, universities, community colleges, and the
private sector, is working to accelerate manufacturing’s ongoing transformation into a more efficient and powerful engine of innovation
that drives economic growth and job creation.

Each year MEP works with thousands of U.S. manufacturers to implement the best combination of process improvements and growth
services for each individual company. MEP is focused on providing the services that reduce manufacturer’s bottom-line expenses,
increase efficiencies, and build capacity to foster the development of new products, expand into new markets, and the adoption of
new technologies that improve the overall competitiveness of each manufacturer.

Through an annual client survey, the program obtains quantifiable impacts of MEP services on its clients’ bottom line. MEP demonstrates
the impact of its services on increased sales, increased capital investment, and cost savings attributed to MEP assistance.



ACHIEVEMENTS


ITA

As part of the Office of Management and Budget (OMB) led interagency rulemaking process, the MAS Regulatory Affairs team
provided comments on the Environmental Protection Agency’s (EPA) Treatment of Confidential Business Information for the Chemicals
Industry rule. Although EPA had not calculated compliance costs for the rule; the Regulatory Affairs team estimates the annual costs
to be approximately $800 million. The Regulatory Affairs team also contributed to EPA’s greenhouse gas and Corporate Average Fuel
Economy (CAFE) regulations. The Regulatory Affairs team suggested changes to the text of the proposed 2017-2025 greenhouse gas
and CAFE standards for light duty vehicles to highlight the benefits to U.S. automobile competitiveness of moving efficiency standards
closer to those of other major markets, and EPA agreed to the suggested changes.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   71
PERFORMANCE SECTION • THEME 1




ITA continues to make progress toward achievement of NEI goals by leveraging public-private partnerships through the
MAS-administered MDCP. Led by tourism and building material exports to China, MDCP partners have helped U.S. companies export
$1.7 billion to various foreign markets during the first nine months of FY 2012. This is the second highest three-quarter export result
since MDCP export result tracking began in 1997. MDCP awards help trade associations and other non-profit industry groups help
small and medium-sized enterprises to increase revenue and create jobs. On average, for every MDCP award dollar, $219 is generated
in exports. Additionally, MAS has 24 active MDCP cooperative agreements, including nine 2012 awards for $2.4 million in financial
assistance.


NIST

Manufacturing Extension Partnership Helps Manufacturers Increase Sales and Retain Jobs

MEP’s nationwide network of centers with nearly 1,300 technical experts helped small and mid-sized manufacturers receiving services
in FY 2011 increase their sales by an estimated $2.7 billion (MEP results have a one-year time lag). MEP provided its clients with a range
of tools and services focused on the adoptions of new technologies, exporting strategies, and workforce retention. These activities will
generate an estimated $2.6 billion in capital investments, $966 million in cost savings, and 65,077 jobs created or retained.

For example, with help from the MEP system and partners, Idaho-based Rekluse Motor Sports developed a strategic export action plan
that increased sales to the European Union, created 31 new jobs, and expanded revenues to over $3 million. Unarco, an Oklahoma-
based manufacturer of shopping carts, was looking to drive out waste in their manufacturing process and reduce their impact on
the environment. By working with MEP, the company revamped their manufacturing processes and incorporated powder coating
technologies resulting in near elimination of hazardous materials, $15,000 in utility savings, and the creation of three new jobs.
Additional MEP client success stories are available on MEP’s Web site at: http://ws680.nist.gov/mepmeis/SearchSS.aspx.

Energy and Commerce Departments Announce New Centers for Building Operations Excellence

Through MEP, the Department and the U.S. Department of Energy selected three Centers for Building Operations Excellence to
receive a total of $1.3 million to create and deploy programs aimed at training and expanding current and incoming building operators.
The centers will work with universities, local community and technical colleges, trade associations, and the Energy Department’s
national laboratories to build training programs that provide commercial building professionals with the critical skills they need to
optimize building efficiency while reducing energy waste and saving money.


                                            SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                             PERFORMANCE MEASURE                                          TARGET              ACTUAL               STATUS
 Exports generated annually from public/private partnerships (ITA)                         $1.9B               $1.7B1                 Met
 Annual cost savings resulting from the adoption of MAS recommendations
                                                                                          $250M                 $0M                 Not Met
 contained in MAS studies and analysis (ITA)
 Number of clients served by Hollings MEP centers receiving federal funding
                                                                                          32,500               32,123            Slightly Below
 (NIST)
                                                                                                                                    (continued)




  72                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                             PERFORMANCE SECTION • THEME 1




                                  PERFORMANCE MEASURE                                                 TARGET               ACTUAL             STATUS
 Increased sales attributed to Hollings MEP centers receiving federal funding                        $2,000M              $2,700M
 (NIST)                                                                                           from FY 2011         from FY 2011             Met
                                                                                                      funding             funding2
 Capital investment attributed to Hollings MEP centers receiving federal                             $1,100M              $2,600M
 funding (NIST)                                                                                   from FY 2011         from FY 2011           Exceeded
                                                                                                      funding             funding2
 Cost savings attributed to Hollings MEP centers receiving federal                                   $1,100M            $966M from
 funding (NIST)                                                                                   from FY 2011            FY 2011              Not Met
                                                                                                      funding             funding2
 1	   Results as of June 30, 2012. Once final numbers are in, ITA expects to meet or exceed the target.
 2	   NIST performance actuals for this objective lagged at least six months. Therefore, beginning with the FY 2005 PAR, NIST shifted to a format
      in which NIST reports actuals one year later. This data lag, coupled with the time line for producing the PAR, precludes the reporting of actual
      FY 2012 data. With the exception of the number of clients, the NIST data reported in the current year PAR are an estimate based on three
      quarters of actual client reported impacts and one quarter estimated client impacts.




F Y 2 0 1 2 M I S S E D TA R G E T S

      MEASURE        ANNUAL COST SAVINGS RESULTING FROM THE ADOPTION OF MAS RECOMMENDATIONS CONTAINED IN MAS STUDIES
                     AND ANALYSIS (ITA)
                     MAS did not meet the target for annual cost savings resulting from the adoption of MAS recommendations
                     contained in MAS studies and analysis because none of the rules MAS commented on in FY 2012, which would
                     have resulted in cost savings, have been issued as final rules. MAS, however, contributed industry and analytical
 Explanation         expertise on several rules, the most important of which was the Department of Energy 810 rule regulating the
                     export of unclassified nuclear technology. MAS analysis indicating that the value of nuclear civil exports could
                     cross the $100 million threshold by 2015 has caused OMB to reconsider whether the rule might be deemed
                     economically significant.
                     MAS actively follows the rule-making process and focuses especially on economically significant rules, i.e., those
                     that have an impact of over $100 million that have the potential to impact the global competitiveness of U.S.
 Action
                     industry. In FY 2012, there have been significantly fewer rules to consider than in past years. The number of rules
                     to consider in any year is beyond the control of MAS.
      MEASURE        NUMBER OF CLIENTS SERVED BY HOLLINGS MEP CENTERS RECEIVING FEDERAL FUNDING (NIST)
                     The performance target was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                     There was no effect on the overall program or activity performance.
 Action              No actions to be taken.
      MEASURE        COST SAVINGS ATTRIBUTED TO HOLLINGS MEP CENTERS RECEIVING FEDERAL FUNDING (NIST)
                     In FY 2012, MEP continued the transition of the MEP system from a focus on continuous improvement and primarily
                     cost savings to a broader focus on innovation-driven business growth for U.S. manufacturing firms. This transition
                     involves the MEP centers working with companies on longer-term projects with expected economic impacts in
 Explanation         the area of new product development, expanded markets, and increased sales. These innovation-focused projects
                     realize lower economic impact with respect to the cost savings measure. In addition, business innovation service
                     offerings require a renewed skill set for the MEP center staff and a considerable effort was made in FY 2012 to
                     build the capacity and skills of center staff to effectively deliver innovation services to manufacturers.
                     As the program continues this transition, MEP will monitor all impact measures and specific measures and
 Action
                     targets may need to be adjusted to reflect the program's shifting focus to longer-term, innovation projects.



F Y   2 0 1 2     P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                      73
PERFORMANCE SECTION • THEME 1




HISTORICAL TRENDS

MAS has consistently met its targets for annual cost savings resulting from the adoption of MAS recommendations contained in MAS
studies and analysis when the rule-making process has been more active, a characteristic beyond the the control of MAS.

MEP has consistently exceeded its targets. Performance projections are based in part on past programmatic results but also on
the current operating realities of the MEP centers and their manufacturing clients. The projections reflect a realization that any sort
of forecast must be based on current economic and market conditions and also other contributing factors such as state funding
uncertainties. Simply projecting past results into the future in a linear fashion does not take into account these other considerations.
Data from the Federal Reserve Board, the Institute for Supply Management, Bureau of Labor Statistics, and Bureau of Economic
Analysis are monitored and assessed on a regular basis to inform MEP’s performance targets.




  74                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




Strategic Goal – Trade Promotion and Compliance
Improve our global competitiveness and foster domestic job growth while protecting American security




 T 
        his strategic goal is comprised of four objectives which
        contribute to the Secretary’s theme of Economic
        Growth. The following public benefits, achievements
and performance results are associated with each objective.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                             75
PERFORMANCE SECTION • THEME 1




                                                        OBJECTIVE 9

       Increase U.S. export value through trade promotion, market access, compliance, and interagency
                   collaboration (including support for small and medium enterprises) (ITA)


                                                     PUBLIC BENEFITS



 T   he health of the U.S. economy depends on small and medium-sized enterprises (SME) since they account for 98 percent of
     all U.S. exporters. Many of these firms have been successful in doing business in countries that have recently negotiated free
trade agreements (FTA) with the United States. The U.S. and Foreign Commercial Service (US&FCS) program provides front-line
diplomatic support to U.S. companies for commercial issues overseas, advocates for U.S. companies bidding on foreign government
procurements, and creates a supporting environment at home in which all U.S. firms, including SMEs, can flourish by increasing
export opportunity awareness among U.S. companies. This is accomplished by advocating on behalf of the U.S. companies in
foreign markets; identifying potential exporters who need assistance; leveraging electronic and traditional media; enhancing relation-
ships with customers; and developing alliances and partnerships with state, local, and private partners to deliver export assistance.
US&FCS helps U.S. companies take advantage of world market conditions to find new buyers.



ACHIEVEMENTS

Amidst the pressures of a troubled global economy, US&FCS continued to help U.S businesses maximize their export potential,
enabling them to diversify their customer base, remain globally competitive, and maintain jobs for Americans through global trade.
In 2012, US&FCS assisted nearly 19.000 U.S. companies by providing in-depth export counseling, market entry plans, business-to-
business matchmaking services, market research and due diligence reports, and other customized export development and market
entry services. US&FCS also led trade missions around the globe, brought foreign buyer delegations to U.S. trade shows, promoted
U.S. companies at international trade events, and organized product launches and technical seminars overseas. In addition, US&FCS
continued to provide front-line diplomatic support to U.S. companies overseas and advocated for U.S. companies bidding on foreign
government procurements. As a result of these efforts, US&FCS facilitated more than $100 billion in exports for nearly 5,600 U.S.
companies in 2012. Over 80 percent of these companies were SMEs that exported for the first time, entered a new market, or
increased their market share in an existing market.

US&FCS continues to support the National Export Initiative (NEI). Launched in February 2010, President Obama’s NEI is designed to
reach the goal of doubling exports by 2014 to support two million jobs in the United States. The NEI is focused on three key areas:
(1) a more robust effort by this administration to expand its trade advocacy in all its forms, especially for SMEs, (2) improving access
to credit with a focus on SMEs that want to export, and (3) continuing the rigorous enforcement of international trade laws to help
remove barriers that prevent U.S. companies from getting free and fair access to foreign markets. Since the President announced the
NEI, the Department’s Advocacy Center has assisted U.S. companies competing for export opportunities, supporting $111 billion in
exports. With offices and staff around the globe and throughout the United States, the Department’s Commercial Service has helped
more than 15,000 companies generate $162 billion worth of exports. To date, the Department has coordinated 103 trade missions
with over 1,000 companies to 82 countries.

The International Trade Administration’s (ITA) Export.gov is currently the federal government’s most comprehensive Web site on
exporting. Since its launch in 2001, ITA has made incremental improvements to Export.gov over the years, and in 2012 ITA began




  76                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




the effort to transition the Export.gov Web site to a new platform that will improve clients’ online experience and deliver personalized
content to SMEs through a “MyExport.gov” like experience. Based on a company’s profile (including industry, exporting maturity, size
of company, etc.), information on events, market research, and trade leads will be pushed to clients. This will save SMEs time and
effort so that they can focus on building the best product, expanding international sales, and providing world class service. This new
tool is being designed to consolidate feeds from the Trade Promotion Coordinating Committee agencies and integrate them into
Export.gov and into BusinessUSA, delivering an enhanced client experience.

The Strategic Partnership Program has grown exponentially in 2012, from 18 public-private partnership agreements to 96 agreements
with companies and associations, and continued to promote successful public-private partnerships through the growth of the New
Market Exporter Initiative (NMEI) and the introduction of the Global Buyers Initiative (GBI). In 2012 alone, partners cooperated on
more than 260 activities reaching more than 13,500 clients and committed more than $120,000 in resources including paying for
their customers to receive services and supporting educational outreach. The NMEI is a program of the President’s NEI, recom-
mended in the September 16, 2010 “Report to the President on the National Export Initiative: The Export Promotion Cabinet’s Plan for
Doubling U.S. Exports in Five Years.” The NMEI leverages strategic partners to expand U.S. exports by identifying their customers and
members who sell to at least one international market and providing them with assistance selling to additional markets. The GBI was
developed as a foreign buyer recruitment program to better identify and align foreign importers with U.S. exporters. To date, the NMEI
has 23 active partners and has generated more than 2,000 company registrations, while the GBI has developed initial partnerships with
16 organizations.

SelectUSA was created last year by Executive Order of the President to promote and facilitate business investment in the United
States. In addition to developing and formalizing its advocacy, ombudsman, and investor inquiry services, SelectUSA has used its
2012 pilot year to develop a robust outreach strategy focused on leveraging the Department’s foreign and domestic fields. Interna-
tionally, SelectUSA identified 25 target markets for focused outreach and engagement. Those markets—which include Belgium, Brazil,
Canada, China & Hong Kong, Finland, France, Germany, India, Ireland, Israel, Italy, Japan, Mexico, Netherlands, Russia, Saudi Arabia,
Singapore, South Korea, Spain, Sweden, Switzerland, Taiwan, United Arab Emirates, and United Kingdom—comprise 90 percent of
current foreign direct investment in the United States. SelectUSA provided training to commercial officers in 23 of these 25 target
markets. Domestically, SelectUSA increases awareness of its services among U.S. economic development organizations and other
key stakeholders by leveraging intra-agency partners, including the National Institute of Science and Technology’s (NIST) Hollings
Manufacturing Extension Partnership (MEP), the Economic Development Administration (EDA), the Minority Business Development
Agency (MBDA), and the U.S. Patent and Trademark Office (USPTO).

In March 2012, then Secretary Bryson led an Infrastructure Business Development Trade Mission to India. Over the course of five
days, the 16 companies and 27 executives represented on the missions participated in over 200 individual and group meetings with
Indian companies and government officials, as well as attended several large events where additional introductions were made,
including breakfasts/luncheons hosted by the local American Chamber of Commerce, Indian Business Organizations (CII and FICCI),
and the Ambassador and Consul General. These activities generated multiple leads, potential agreements, and potential future sales.
During the wrap-up discussions, the participating companies indicated that there were significant opportunities in the Indian market
and most expected commercial success to come from their participation in the mission in the next 18-24 months.

The International Buyer Program (IBP) is one of the most successful US&FCS trade promotion programs. The IBP offers business-
to-business matchmaking service offerings enabling U.S. companies to meet a breadth of prospective buyers from around the world
all in one domestic venue. In FY 2012, the IBP recruited 10,880 prospective buyers from international markets to come and meet
U.S. exporters at 33 participating U.S. industry trade events. During these trade shows, US&FCS personnel facilitated 3,860 trade
counseling sessions with U.S. and international companies. As a result, the IBP generated nearly $614 million in exports in FY 2012.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   77
PERFORMANCE SECTION • THEME 1




An excellent example of the IBP value proposition is the Consumer Electronics Show (CES)—the world’s largest annual trade show
for the broad-based consumer electronics technology market, held in January 2012 in Las Vegas, NV. Through the IBP, the US&FCS
recruited 39 international buyer delegations consisting of 1,126 delegates, and conducted 320 trade counseling sessions with U.S.
companies. The then Department Deputy Secretary Blank participated in this IBP trade show, providing welcome remarks at the
session “Getting Us Back on Track: How Technology and Innovation Can Save America,” and presenting an Export Achievement
Certificate to a U.S. company, Meridrew Enterprises.


                                          SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                          PERFORMANCE MEASURE (ITA)                                    TARGET              ACTUAL             STATUS
 Commercial diplomacy success (cases) (annual)                                           152                 215              Exceeded

 Ratio of US&FCS export value to US&FCS costs                                           $140                 $387             Exceeded

 Number of clients assisted by US&FCS                                                  20,709               18,945            Not Met

 Dollar value of U.S. export content in advocacy cases won                              $19B                $74B              Exceeded

 Annual number of SMEs US&FCS assists exporting to a second or
                                                                                        3,307               3,444               Met
 additional country



F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE       NUMBER OF CLIENTS ASSISTED BY US&FCS
                 US&FCS missed the annual target for this goal due to the technology challenges associated with US&FCS’s
 Explanation     current Customer Relationship Management (CRM) system, which hinders timely and accurate reporting of trade
                 promotion activities.
 Action          In FY 2013, US&FCS will remedy technology challenges by procuring a new CRM system.




                                                     OBJECTIVE 10

               Implement an effective export control reform program to advance national security
                                      and economic competitiveness (BIS)


                                                    PUBLIC BENEFITS



 I t is essential to security of the Unites States that it prevent the export of sensitive goods. To prevent illegal exports, the
   Department administers and enforces controls on exports of dual-use goods and technologies to counter proliferation of weapons
of mass destruction, combat terrorism, and pursue other national security policy goals. The Department processes export license
applications for controlled commodities of U.S. companies engaged in international trade in accordance with Export Administration




  78                                           F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                    PERFORMANCE SECTION • THEME 1




Regulations (EAR). The Department engages in activities to prevent violations before they occur and to investigate and prosecute
violators to dismantle illicit proliferation networks. Preventive activities include the following:

●● screening license applications for enforcement concerns;

●● conducting end-use checks abroad to confirm the bona fides of parties to export transactions;

●● confirming compliance with license conditions;

●● uncovering diversions to unauthorized end-users/uses; and

●● reviewing Shippers Export Declarations and foreign visitors’ visa applications to identify potential export control issues.


Outreach activities include educating U.S. businesses on export control requirements and identifying suspicious transactions leading
to successful preventative and investigative actions. Investigation and prosecution activities involve Department Special Agents
conducting cases focused on significant proliferation, terrorism, and military end-use export violations, and the vigorous pursuit of
criminal and administrative sanctions. Finally, an integral part of the Bureau of Industry and Security’s (BIS) mission is to facilitate
compliance with U.S. export controls by keeping U.S. firms informed of export control regulations through an extensive domestic and
foreign outreach program.

The Department also works to strengthen the export control systems of other countries, assess the viability of key sectors of the
defense industrial base, and assure the timely availability of industrial resources to meet national defense and emergency preparedness
requirements. Further information on these tasks is available on www.bis.doc.gov/news/index.htm#annual. Finally, the Department
also serves as the lead agency for ensuring U.S. industry compliance with Chemical Weapons Convention (CWC).

Driven by the President’s call for an Export Control Reform Initiative, BIS is contributing to accomplishing the initiative’s key recom-
mendations of establishing a single control list, a single primary enforcement coordination agency, a single information technology (IT)
system, and a single licensing agency. The initiative is split into three phases: make immediate improvements on the current system
while creating a framework for the new system, complete deployment of reforms, and complete the transition to the new U.S. export
control system with legislative assistance.


ACHIEVEMENTS

In FY 2012, BIS published 12 proposed rules to implement the President’s Export Control Reform Initiative. These rules, and the
counterpart proposals published by the U.S. Department of State, seek public comment on the revision of State Department’s U.S.
Munitions List (USML) into a positive, objective list and propose to transfer tens of thousands of low level military items, primarily
parts and components, from the USML to the more flexible export control system administered by BIS. Revising these controls will
achieve the objectives of the President’s Export Control Reform Initiative: focusing limited resources on the threats that matter most,
facilitating military interoperability with close U.S. friends and allies, and strengthening the U.S. defense industrial base by reducing the
current incentives for foreign manufacturers to “design out” U.S.-origin parts and components because foreign-made end products
into which USML-listed items are incorporated will be controlled under the International Traffic in Arms Regulations (ITAR).

In FY 2012, the Bureau played a leading role in mapping the intricate industrial supply chains for such key defense sectors as Space
and Naval Underwater Acoustics; assessing the overall health of companies that support human space flight activities; and identi-
fying sectoral equipment, labor, and technology shortfalls that could jeopardize the ability of the warfighter to successfully accomplish
missions. The space industry defense industrial base assessment is a good example of how BIS worked closely with defense and




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        79
PERFORMANCE SECTION • THEME 1




civilian agencies, such as the U.S. Air Force, National Aeronautics and Space Administration, and National Reconnaissance Office,
and leveraged unique authorities and analytical capabilities to support the U.S. defense industrial base. BIS, in conjunction with these
agencies, surveyed more than 9,000 companies that supply products or services to the U.S. government for space-related purposes.
The survey results give the U.S. government unprecedented visibility into the intricate supply chain network supporting the provision of
products and services across the defense, intelligence, and commercial space sectors.

The Bureau plays a critical compliance role within the U.S. government. BIS implemented and monitored compliance with License
Exception Strategic Trade Authorization (STA), which allows for the export, reexport, or transfer in-country, without a license, to a group
of approximately 36 partner and allied countries. The compliance requirements are significant because they ensure that controlled items
eligible for STA will not be reexported outside the group of 36 countries without the appropriate export authorization. The compliance
activities require analysts to evaluate exporters’ adherence to the conditions, including their internal control programs. Since its inception
through June 2012 (most current data), 69 U.S. companies have made 543 shipments worth over $29 million under STA.

On March 7, 2012, the Administration officially opened two new national, multi-agency centers to improve how the U.S. government
administers its export control system: the Export Enforcement Coordination Center (E2C2) and the Information Triage Unit.

●● The E2C2 is responsible for enhanced information sharing and coordination between law enforcement and intelligence officials
   regarding possible violations of U.S. export controls laws. The E2C2 is administered by the U.S. Department of Homeland Security
   (DHS) with a leadership team comprising officials from DHS, the Federal Bureau of Investigation, and the Department. The opening
   of the E2C2 builds on the increased criminal penalties for export control violations and the provision of the Department’s permanent
   law enforcement authorities, further strengthening the enforcement of U.S. export controls.

●● The Information Triage Unit, housed at the Department, is responsible for assembling and disseminating relevant information,
   including intelligence, upon which to base informed decisions on proposed export licenses. This multi-agency screening will
   coordinate the reviews of separate stove-piped processes across the government to ensure that all departments and agencies have
   a full dataset, consistent with national security, from which to make decisions on license applications. Such screening contributes
   to more timely, predictable, and consistent processes that U.S. exporters engaged in global trade have confirmed are critical to their
   competitiveness.

In FY 2012, BIS, working with the Department‘s Office of the Chief Information Officer, successfully deployed the Secret Internet
Protocol Router Network (SIPRNet) through most of BIS’s headquarters and field office operations. Full deployment should be
completed in FY 2013. SIPRNet is a system of interconnected computer networks used by the U.S. Department of Defense (DOD)
to transmit classified information (up to and including information classified SECRET). This is an important element of BIS’s efforts to
migrate to DOD’s USXPORTS System, one of the key components of the Administration’s Export Control Reform.




  80                                               F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




                                           SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                           PERFORMANCE MEASURE (BIS)                                        TARGET        ACTUAL          STATUS
 Percent of licenses requiring interagency referral referred within 9 days                  98%            97%          Slightly Below

 Median processing time for new regime regulations (months)                                  2.0            2.0              Met

 Percent of attendees rating seminars highly                                                93%            93%               Met

 Percent of declarations received from U.S. industry in accordance with
 CWC regulations (time lines) that are processed, certified, and submitted
                                                                                            100%          100%               Met
 to the State Department in time so the United States can meet its treaty
 obligations
 Number of actions that result in a deterrence or prevention of a violation
                                                                                             850           1,162          Exceeded
 and cases which result in a criminal and/or administrative charge
 Percent of shipped transactions in compliance with the licensing
                                                                                            99%            99%               Met
 requirements of the Export Administration Regulations (EAR)
 Percentage of post-shipment verifications completed and categorized above
                                                                                       315 PSVs/90%   343 PSVs/87%      Slightly Below
 the "unfavorable" classification
 Number of end-use checks completed                                                          850           983               Met

 Percent of industry assessments resulting in BIS determination, within three
                                                                                            100%          100%               Met
 months of completion, on whether to revise export controls



F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        PERCENT OF LICENSES REQUIRING INTERAGENCY REFERRAL REFERRED WITHIN 9 DAYS (BIS)
 Explanation       The performance target was set at an approximate target level, and the deviation from that level is slight.
 Action            None.
   MEASURE        PERCENTAGE OF POST-SHIPMENT VERIFICATIONS COMPLETED AND CATEGORIZED ABOVE THE “UNFAVORABLE”
                  CLASSIFICATION (BIS)
 Explanation       The performance target was set at an approximate target level, and the deviation from that level is slight.
 Action            None.



HISTORICAL TRENDS

BIS has consistently met or exceeded the targets for this outcome.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   81
PERFORMANCE SECTION • THEME 1




                                                        OBJECTIVE 11

   Develop and influence international standards and policies to support the full and fair competitiveness
                  of the U.S. information and communications technology sector (NTIA)


                                                      PUBLIC BENEFITS



 T    he National Telecommunications and Information Administration (NTIA) serves as the President’s primary policy advisor on
      domestic and international telecommunications and information issues. NTIA fulfills this role in part by advocating globally
for foreign regulatory and policy regimes that encourage competition and innovation, and by encouraging dialogue with the private
sector through sponsorship and participation in conferences, workshops, and other forums. NTIA will pursue policies promoting
international trade in telecommunications products and services, promoting consistent international approaches to telecommunica-
tions policies, and improving relations with countries with rapidly expanding markets.

NTIA is also responsible for coordinating the federal government’s participation in the International Telecommunication Union’s (ITU)
World Radiocommunication Conferences (WRC) and related national and international meetings. NTIA works with the Federal Commu-
nications Commission (FCC), which represents the civil spectrum community, and the State Department, to create U.S. Preliminary
Views and Proposals for the WRCs.



ACHIEVEMENTS


NTIA

NTIA participated in the 2012 WRC (WRC-12), where policymakers negotiated changes to the international treaty that governs the use
of radiofrequency spectrum. This conference is convened every three to four years to ensure the treaty, called the Radio Regulations,
keeps up with the rapid pace of technological development in radio communications. WRC-12, held in Geneva, Switzerland, brought
together more than 3,000 people from most of the ITU’s 193 member countries. There were 33 items on the WRC-12 agenda, and the
United States was highly successful in achieving its objectives and satisfying critical federal agency and industry radio spectrum needs.

For example, the conference allocated new spectrum to support radars the Department uses to monitor the ocean’s surface and to
collect airborne imagery that enhances U.S. national security. The conference also allocated spectrum that enables unmanned aircraft
to be commanded and controlled safely from the ground. In addition, the next WRC will examine allocating spectrum for the command
and control of unmanned aircraft from space. The conference also allocated spectrum that supports lunar missions, earth observation
and climate monitoring, and digital maritime communications for ship and port safety and security. In addition, participants improved
the procedures for registering satellite networks with the ITU.

Most importantly, however, the United States. secured a broadband agenda item at the next conference. This agenda item will
support NTIA’s effort to nearly double the amount of spectrum available for U.S. commercial wireless broadband service this decade,
a goal set by President Obama. To maximize the economic value of the spectrum NTIA is identifying for wireless broadband, it should
be harmonized globally. That is one of the objectives for WRC-15 and NTIA is now planning the technical studies needed to support
solid decision-making at this conference. These accomplishments will support the expanding wireless communications needs of U.S.
consumers, businesses, and government while removing international barriers to the introduction of new U.S. technologies.




  82                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




NIST-led Development of Principles for Effective Federal Agency Engagement in Standardization Activities

NIST leadership of the National Science and Technology Council’s Subcommittee on Standards has led to the development of principles
for effective federal agency engagement in standardization activities to address national priorities (http://standards.gov/upload/
Federal_Engagement_in_Standards_Activities_October12_final.pdf). These principles reflect the consensus of federal agencies with
varied interests (technology, innovation, trade, competition, etc.) in standards and have helped guide coordination of agency positions
on important international standardization activities in the information and communications technology sectors. These principles also
will help guide U.S. positions on standards-related proposals related to the International Telecommunication Regulations that will
be renegotiated at the 2012 World Conference on Information Technology to be held in December. In addition, broad U.S. public
and private sector stakeholder buy-in of these principles is helping ensure that U.S. government positions reflect approaches that
promote technological innovation and competitiveness. NIST efforts to raise awareness among U.S. industry and standards setting
organizations of information and communication technology related standardization activities in the ITU has led to greater engagement
in the current U.S. government-led processes for input into these activities. This enhanced engagement will reduce the likelihood of
duplicative standards and increase the likelihood that standards are developed by organizations with relevant expertise. NIST also leads
activities in standardization committees within the Joint Technical Committee 1 of the International Organization for Standardization
and International Electrotechnical Commission, and the ITU in the areas of cloud computing, Smart Grid, and cyber security.


                                           SUMMARY OF PERFORMANCE


The Department uses the following measure to gauge the performance of the activities associated with this objective.

                          PERFORMANCE MEASURE (NTIA)                                        TARGET         ACTUAL           STATUS
 Percent of NTIA positions substantially adopted or successful at                      75% adoption
                                                                                                            >80%               Met
 international meetings                                                                 or success




                                                        OBJECTIVE 12

    Vigorously enforce U.S. fair trade laws through impartial investigation of complaints, improved access
   for U.S. firms and workers, and fuller compliance with antidumping/countervailing duty remedies (ITA)


                                                      PUBLIC BENEFITS



 U    .S. industries are entitled to the benefits of trade agreements negotiated by the United States. They are also entitled to the
      aggressive investigation of unfair trade practices that undercut those agreements. Three program units in ITA, Market Access
and Compliance (MAC), Manufacturing and Services (MAS), and Import Administration (IA), work to ensure that U.S. firms receive
those benefits and obtain prompt relief from unfair trade practices. Trade compliance with negotiated trade agreements and access
to foreign markets are existing problems faced by U.S. businesses that choose to sell their products overseas.

Ensuring that U.S. industries and workers have the opportunity to compete on a level playing field is critical to advancing business
competitiveness in the United States and abroad, and is a key component of the NEI. Accordingly, IA is committed to the vigorous
enforcement of U.S. trade laws. IA promotes free and fair trade by administering the U.S. antidumping (AD) and countervailing duty




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     83
PERFORMANCE SECTION • THEME 1




(CVD) laws thereby providing U.S. industries and workers with a reliable and transparent mechanism to seek critical relief from unfair
trade practices, including injurious dumping and foreign government subsidies.

IA has a team of experts available to assist any U.S. business with questions on remedies available under the trade laws, or that
wishes to develop and file an AD and/or CVD petition. Particular attention is paid to small businesses that may find the petition
process unwieldly, or may be unable to afford the assistance of outside trade counsel to develop and file a successful petition.
Extensive outreach and work with industry was instrumental in helping IA successfully initiate more than 20 new AD/CVD investi-
gations in 2012. IA also has a team of experts dedicated to monitoring U.S. trade partners’ use of trade remedies and that works
closely with U.S. businesses whose access to export markets may be harmed by the misuse of these instruments. IA works with
U.S. Customs and Border Protection (CBP), Immigration and Customs Enforcement, Department of Justice, and Office of the U.S.
Trade Representative (USTR) to resolve AD/CVD issues. IA works closely with CBP to ensure that the trade remedy laws are enforced
vigorously and that efforts to evade the payment of AD/CVD duties are identified and thwarted.

MAC also strongly supports the NEI by creating, expanding, and defending market access for U.S. exports of goods, services, and
investment overseas. MAC executes this mission by developing specific and tailored country engagement strategies to develop a
business climate abroad that promotes trade and investment, pursuing crosscutting policy initiatives to address transnational market
access challenges (such as anticorruption, intellectual property enforcement, and standards/regulatory cooperation), and proac-
tively working to identify and break down foreign government-imposed trade barriers through the MAC-led ITA Trade Agreements
Compliance Program.

A key tool in the NEI’s trade enforcement efforts, the program provides the framework for proactive monitoring of trade agreements;
the process for identification, investigation, and resolution of trade barriers for companies; and the strategy for conducting outreach to
inform stakeholders of efforts and services in this area. There is no cost for the program’s services.

Once a barrier is identified, MAC assembles a case team of ITA specialists to investigate and address the problem. The team works
with affected companies or industries to establish objectives and to implement agreed action plans to achieve market access and
ensure that U.S. trade agreement rights are safeguarded. In taking action, ITA teams can gradually escalate trade issues, and as
appropriate, bring the full weight of the U.S government to bear in an effort to resolve the issues, leveraging relevant trade agreements,
multilateral/World Trade Organization (WTO) fora, FTA negotiations and other diplomatic means. If warranted, cases may be referred to
USTR, the Interagency Trade Enforcement Center, and the interagency for formal dispute settlement action consideration.

The program benefits from the active involvement of ITA trade officials stationed around the world as well as designated compliance
officers in Beijing, Brussels, San Salvador, and New Delhi. To assist in outreach to companies, ITA also maintains contact with the
office of each member of Congress, some 60 District Export Councils, more than 100 trade associations, and state agencies.

MAC and MAS seek to obtain market access for U.S. industries and workers and to achieve full compliance by foreign nations with
trade agreements they sign with the United States. MAC and MAS ensure market access for U.S. businesses; advance the rule of law
internationally; and create a fair, open, and predictable trading environment. Based on customer needs, MAC has a sizable caseload
from U.S. firms that have encountered a trade barrier. Beyond casework, MAC and MAS work to develop a pro-growth business climate
in other markets that encourages U.S. exports and transparent policies. MAC and MAS also conduct critical trade policy analysis and
negotiation support for USTR and represent the Department in trade-related dealings with other U.S. government agencies.




  84                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




ACHIEVEMENTS

In FY 2012, IA conducted 39 investigations covering products as diverse as high pressure steel cylinders from China, large residential
washers from South Korea and Mexico, and steel nails from the United Arab Emirates.

In December 2011, the Court of Appeals for the Federal Circuit found, in GPX v. United States, that U.S. law prohibits the Department
from applying CVD duties to imports from countries that the Department has determined to be non-market economies, including
China and Vietnam. Had it taken effect, the court’s decision could have resulted in the termination of more than two dozen existing
CVD orders as well as numerous ongoing and potential future CVD investigations, impacting billions of dollars of imports into the
United States and affecting manufacturing operations in the majority of U.S. states. With the strong support of the Department and
the Administration, in a few short months and with overwhelming bipartisan support, the U.S. Congress, before the court’s mandate
became final, passed legislation in March 2012 that reaffirmed the Department’s ability to apply the CVD law to imports from market
and nonmarket economies alike. With the passage into law of H.R. 4105, Congress and the President have confirmed that U.S. trade
remedies will remain a strong and effective tool in combating unfair trading practices and in ensuring a level playing field for U.S.
manufacturers, exporters, and workers.

Capping months of close collaboration between IA and USTR, in June 2012, a WTO dispute settlement panel upheld the key U.S.
complaints in a WTO case against China’s AD/CVDs imposed on U.S. exports of grain-oriented electrical steel, a market worth over
$271 million prior to China’s AD measure.

While the number of new U.S. investigations of injuriously dumped and subsidized imports has fluctuated over the past several years,
the average number of AD/CVD determinations issued during the three-year period was approximately 275 per fiscal year. In FY 2012,
as of June 4, 2012, 23 new AD/CVD investigations have been initiated.

Approximately one-third of the AD/CVD orders administered by IA are handled by the China/non-market economy unit, a unit dedicated
to the enforcement of the AD law with respect to China and other non-market economy countries, e.g., Vietnam. This unit enables IA
to consolidate and cultivate the expertise necessary to address the unique trade problems associated with conducting AD proceedings
involving non-market economy countries, such as irregular financial reporting, fraudulent filings, opaque company relations, and close
ties to local and provincial governments.

Led by MAC, ITA was able to exceed targets for casework under the Trade Agreements Compliance (TAC) Program, identifying and
working to remove foreign trade barriers on behalf of U.S. firms. Two hundred twenty seven new cases were initiated in FY 2012,
44 percent on behalf of SMEs. Of the 168 cases closed in FY 2012, ITA teams were able to successfully remove the barriers identified
in 89 of the cases, ensuring that American workers and firms could benefit from the trade agreements negotiated on their behalf.

A recent example demonstrates the benefits of the TAC Program for U.S. Industry. In February 2011, a U.S. egineering company
reported that Chile’s Ministry of Health excluded it from bidding on a government tender to build a hospital because it did not have prior
experience in Chile designing seismic shock resilient structures. This exclusion, which shut the company out of an opportunity worth
several hundred thousand dollars, was clearly inconsistent with Chile’s FTA obligations, which ensures that U.S. companies are treated
the same as Chilean companies when competing for covered government procurement contracts. A MAC-led ITA team engaged the
Chilean government on this issue, and in May 2012, the Chilean government concurred that U.S. company’s global experience should
have been considered when assessing its eligibility to participate in the procurement. The company was happy with this outcome, and
most importantly, by enforcing our rights under the U.S.-Chile FTA, we set a positive precedent for all U.S. companies seeking to do
future business in Chile.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     85
PERFORMANCE SECTION • THEME 1




Beyond these performance metrics, MAC works to increase U.S. access to foreign markets through bilateral engagement, multilateral
negotiations, and direct interaction with the exporting community. Some representative accomplishments for MAC in FY 2012 include
bilateral engagement with priority export markets for the United States. For example, Brazil is an NEI priority market with a large
and diversified economy offering U.S. companies many opportunities to export their goods and services. MAC helped implement
several key initiatives, including an education services trade mission to Brazil. Additionally, MAC organizes and manages two high-
profile mechanisms for improving and expanding the U.S.-Brazil commercial relationship: the U.S.-Brazil CEO Forum, co-chaired by
the Secretary of Commerce, which brings together business leaders from both countries to provide joint recommendations to our
two governments on ways to strengthen the bilateral relationship; and the U.S.-Brazil Commercial Dialogue, a forum for our trade
ministries to collaborate to increase bilateral trade and investment through better mutual understanding. Activities include best practice
exchanges on a wide variety of issues ranging from customs and express delivery, services, and intellectual property and standards,
with the goal of improving the flow of trade between our two countries.

MAC’s global trade agenda included a number of other significant accomplishments. For example, MAC played a key role in
implementing the successful outcomes from the November 2011 bilateral U.S.-China Joint Commission on Commerce and Trade
(JCCT). MAC established a U.S.-Indonesia Commercial Dialogue to enhance U.S. exports to the largest country in Southeast Asia by
working with Indonesia to identify concrete reforms the Indonesian government should implement to improve its standing in the World
Bank’s Ease of Doing Business report. MAC staff supported President Obama’s commitment to the Turkish President to expand
the U.S.-Turkish economic and commercial relationship through the U.S.-Turkey Framework for Strategic Economic and Commercial
Cooperation (FSECC). MAC worked with the U.S. private sector to ensure that companies were aware of the opportunities afforded to
them as a result of recently implemented FTAs with the Republic of Korea and Colombia, as well as to update industry on the probable
impacts of Russia’s August 2012 accession to the WTO and the implications of the success or failure in our efforts to establish
Permanent Normal Trade Relations with Russia. MAC staff also support the coordination of the Secretary’s leadership of the Business
Development and Economic Relations Working Group, one of the key bilateral initiatives under the U.S.-Russia Bilateral Presidential
Commission.

MAC also works to create market access through negotiations and multilateral organizations. In FY 2012, the 14th round of Trans Pacific
Partnership (TPP) negotiations in Leesburg, VA successfully concluded with MAC staff providing on-site advice in the technical barriers
to trade, sanitary and phytosanitary (SPS) standards, customs, rules of origin, anti-corruption, government procurement, investment,
labor, and environment sections. MAC staff worked with their interagency counterparts to remove as many brackets as possible in
preparation for Canada and Mexico’s participation in the December negotiations. MAC staff were instrumental in drafting negotiating
language in several areas, including anti-corruption, customs, and SPS. For example, MAC recommended substantially expanding
anti-corruption obligations in the TPP. MAC was largely responsible for developing the robust text and working with the interagency to
secure support. In the end, a joint Departments of Commerce and State proposal to USTR was made and accepted.

MAS worked to create new market access for U.S. industry through the Asia-Pacific Economic Cooperation (APEC) Environmental
Goods and Services negotiations. APEC members agreed to a list of 54 environmental goods for tariff reduction during the September
2012 APEC Leaders meeting in Vladivostok, Russia. APEC leaders have agreed to reduce applied tariffs on these 54 products to five
percent or less by 2015. This list encompasses a wide range of environmental technologies, from renewable energy to wastewater
management, and will impact an estimated $1.2 billion worth of U.S. exports to the region.




  86                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   PERFORMANCE SECTION • THEME 1




                                           SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                           PERFORMANCE MEASURE (ITA)                                        TARGET             ACTUAL           STATUS
 Percent of identified unfair trade practices affecting U.S. parties addressed
                                                                                             20%                27%               Met
 through informal/formal intervention of dispute settlement
 Number of new antidumping/countervailing duty petitioners counseled                          50                 77             Exceeded

 Percent of industry-specific trade barriers addressed that were removed or
                                                                                             20%                37%             Exceeded
 prevented
 Percent of industry-specific trade barrier milestones completed                             55%                72%             Exceeded

 Number of compliance and market cases initiated                                              210                227              Met

 Number of compliance and market access resolved successfully                                 80                 89               Met




                                        T H E M E 1 P R O G R A M E VA L U AT I O N S


The following program evaluations were conducted on programs related to this theme in FY 2012.

  BUREAU        REVIEWER                  NAME OF EVALUATION                          DATE                       WEB SITE
 NIST           Panel on       A Review of the Manufacturing-related                 9/2012         http://www.nist.gov/director/
                Review         Programs at NIST                                                     nrc/upload/final-manufacturing-
                of the                                                                              report2012.pdf
                Manufac-
                turing-
                Related
                Programs
                at NIST,
                National
                Research
                Council
 NIST           GAO            Cybersecurity: Challenges in Securing the           7/17/2012        http://gao.gov/products/
                               Electricity Grid                                                     GAO-12-926T
 NIST           GAO            Information Security: Additional Guidance           10/6/2011        http://gao.gov/products/
                               Needed to Address Cloud Computing                                    GAO-12-130T
                               Concerns
 NIST           GAO            Information Security: Weaknesses Continue           10/3/2011        http://gao.gov/products/GAO-12-137
                               Amid New Federal Efforts to Implement
                               Requirements

                                                                                                                               (continued)




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        87
PERFORMANCE SECTION • THEME 1




 BUREAU   REVIEWER              NAME OF EVALUATION                        DATE                       WEB SITE
NIST      OIG        Oversight Activities of NIST’s Recovery Act        6/1/2012       http://www.oig.doc.gov/Pages/
                     Construction Contracts Need Improvements                          Oversight-Activities-of-NIST-
                                                                                       Recovery-Act-Construction-
                                                                                       Contracts-Need-Improvement.aspx
NIST      OIG        Oversight Activities of NIST’s Recovery Act        2/14/2012      http://www.oig.doc.gov/Pages/
                     Construction Grant Awards are Generally                           Oversight-Activities-of-NIST-
                     Effective but Need Improvements                                   Recovery-Act-Construction-Grant-
                                                                                       Awards-Are-Generally-Effective-but-
                                                                                       Need-Improvements.aspx




 88                                    F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
       THEME 2
Science and I nformation
                      T H E M E , S T R AT E G I C G O A L , A N D O B J E C T I V E S

THEME 2: SCIENCE AND INFORMATION
Strategic Goal: Generate and communicate new, cutting-edge scientific understanding of technical, economic,
social, and environmental systems

Objective 13     Increase scientific knowledge and provide information to stakeholders to support economic growth
                 and to improve innovation, technology, and public safety (NTIS, NTIA)

Objective 14     Enable informed decision-making through an expanded understanding of the U.S. economy,
                 society, and environment by providing timely, relevant, trusted, and accurate data, standards, and
                 services (ESA/CENSUS, ESA/BEA, NOAA)

Objective 15     Improve weather, water, and climate reporting and forecasting (NOAA)
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 12




                                THEME 2:            S C I E N C E A N D I N F O R M AT I O N



Strategic Goal: Generate and communicate new, cutting-edge scientific
understanding of technical, economic, social, and environmental systems




 T 
         his theme contains one strategic goal and within that
         strategic goal, three objectives which contribute to
         the Secretary’s theme of Science and Information.
The following public benefits, achievements, and performance
results are associated with each objective.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                91
PERFORMANCE SECTION • THEME 2
                            1




                                                        OBJECTIVE 13

       Increase scientific knowledge and provide information to stakeholders to support economic growth
                     and to improve innovation, technology, and public safety (NTIS, NTIA)


                                                      PUBLIC BENEFITS



 T   he National Technical Information Service (NTIS) seeks to advance measurement science by bringing scientific and technical
     information to U.S. business and industry. NTIS promotes innovation and economic growth for U.S. business by (1) collecting,
classifying, coordinating, integrating, recording, and cataloging scientific and technical information from a variety of sources, foreign
and domestic; (2) disseminating this information to the public; and (3) providing information management services to other federal
agencies that help them interact with and better serve the information needs of their own constituents, and to accomplish this
without appropriated funds.

Through its laboratory at the Institute for Telecommunication Sciences (ITS), the National Telecommunications and Information Admin-
istration (NTIA) supports basic research in innovative telecommunications and information technologies. This research has the potential
to improve both the performance of telecommunications networks and the availability of digital content on the Internet.

Currently, ITS and NTIA’s Office of Spectrum Management are conducting a pilot test-bed program to evaluate approaches and
techniques to increase spectrum sharing between federal and non-federal spectrum users. NTIA will publish an annual report
evaluating private sector-supplied devices in the areas of emission characterization, sensor characterization, geo-location character-
ization, spectrum access behavior, and land mobile radio (LMR) emission characterization.



ACHIEVEMENTS


NTIA

NTIA, in coordination with the Federal Communication Commission (FCC) and the federal agencies, established a Spectrum Sharing
Innovation Test-Bed (Test-Bed) pilot program to examine the feasibility of increased sharing between federal and non-federal users.
This pilot program is an opportunity for the federal agencies to work cooperatively with industry, researchers, and academia to examine
objectively new technologies that can improve management of the Nation’s airwaves. The Test-Bed pilot program evaluates the
ability of dynamic spectrum access devices employing spectrum sensing and/or geo-location techniques to share spectrum with LMR
systems operating in the 410-420 megahertz (MHz) federal band and in the 470-512 MHz non-federal band. In FY 2012, NTIA reported
on the progress to date and sought comments on the types and depth of testing that NTIA intends to conduct in Phase II/III of the pilot
program.

In July, NTIA’s ITS hosted the International Symposium on Advanced Radio Technologies (ISART), which brings together government,
academia, and industry leaders for the purpose of forecasting the development and application of advanced radio technologies.




  92                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 12




NTIS

NTIS released a new version of the National Technical Reports Library and instituted the Federal Science Repository Program to assist
other federal agencies in establishing information repositories to support the dissemination of their science and technology information
products to their constituents.


                                           SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                              PERFORMANCE MEASURE                                            TARGET        ACTUAL           STATUS
 Number of updated items available (annual) (NTIS)                                           875,000       978,871             Met

 Number of information products disseminated (annual) (NTIS)                                49,878,000   54,592,481            Met

 Customer satisfaction (NTIS)                                                                95-98%         98.4%              Met

 Annual progress report on the Test-Bed program (NTIA)                                 Publish annual     Published
                                                                                                                               Met
                                                                                           report          report



HISTORICAL TRENDS

NTIS has consistently met its targets for the past 10 years.




                                                        OBJECTIVE 14

           Enable informed decision-making through an expanded understanding of the U.S. economy,
          society, and environment by providing timely, relevant, trusted, and accurate data, standards,
                                 and services (ESA/CENSUS, ESA/BEA, NOAA)


                                                      PUBLIC BENEFITS



 I n many ways the United States is a statistics driven society. The Nation depends on statistics provided by the Census Bureau and
   the Bureau of Economic Analysis (BEA) to determine business decisions, plan for geographic and economic (both national and
international) expansion, provide funds to needy organizations, and determine political expansion and contraction. Accurate business
information regarding the demographics of the Nation, including measures of the population, economy, and governments assists
entrepreneurs in identifying market opportunities that can generate jobs. Population estimates serve as a starting point for allocating
federal, state, and local funds to various groups within society.

The Economics and Statistics Administration (ESA), comprised of the Census Bureau and BEA, provides decisionmakers with timely,
relevant, and accurate economic and statistical information related to the U.S. economy and population.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     93
PERFORMANCE SECTION • THEME 2
                            1




Current and benchmark measures of the U.S. population, economy, and governments play a vital role in the Nation’s economic well
being. The Census Bureau uses the decennial census to provide the official population counts for determining the allocation to
states of seats in the U.S. House of Representatives and for determining how the districts are defined for those seats. The Census
Bureau provides to each state the data necessary to determine Congressional, state, and local legislative boundaries. The decennial
census provides comprehensive and useful demographic information about all people living in the United States, Puerto Rico, and
the associated Island Areas. The program also provides data for small geographic areas and population groups that federal agencies
need to implement legally mandated programs. Approximately $400 billion a year is distributed to state and local governments using
formulas that are based on data such as state population and personal income.

The Economic Census provides comprehensive, detailed, and authoritative facts about the structure of the U.S. economy ranging
from the national to the local level. The Economic Census covers nearly 29 million business locations and 84 percent of the Nation’s
economic activity. The Census of Governments is the only source of comprehensive and uniformly classified data on the economic
activities of state and local governments. The Census of Governments covers about 90,000 local governments, 12 percent of the gross
domestic product (GDP) and nearly 14 percent of the U.S. workforce. The Demographic Surveys Sample Redesign (DSSR) program
designs and selects samples for the major national household surveys. The Intercensal Demographic Estimates program provides
updated estimates of the U.S. population for the country, states, counties, cities, and townships.

BEA invests in the improvement of the accuracy and relevance of GDP, international trade in goods and services, industry economic
measures, and regional and metropolitan statistics, thereby supplying the economic statistics essential to sound business forecasting
and monetary policy. In these ways, the Department seeks to understand the strength and direction of the economy as well as the
determinants of growth as the Nation shifts to more knowledge-based and skill-based industries.

One of the primary methods for improving the understanding of the environment is through the examination of oceanic and atmospheric
conditions patterns worldwide. To this end, the National Oceanic and Atmospheric Administration (NOAA) develops and procures
satellite systems, aircraft, and ships with the purpose of providing information to determine weather patterns and predict weather
forecasts. This information affects all facets of society from agricultural planning to electric power usage to disaster planning. It plays a
major role in the accuracy of national, regional, and local forecasting as well as impacting short and long-term climate modeling.



ACHIEVEMENTS


Census Bureau

The Census Bureau released all 2010 Decennial Census data products scheduled for FY 2012. These products provided the most
detailed information available so far from the 2010 Census about every community’s entire population, including cross-tabulations
of age, sex, households, families, relationship to householder, housing units, detailed race and Hispanic or Latino origin groups, and
group quarters.

The Census Bureau released results of Coverage Measurement Program ahead of schedule. The results showed that the 2010
Decennial Census had a net overcount of 0.01 percent, meaning about 36,000 people were overcounted in the census. This sample-
based result, however, was not statistically different from zero. By way of comparison, the 2000 Census had an estimated net
overcount of 0.49 percent and the 1990 Census had a net undercount of 1.61 percent. The 2010 Decennial Census Program for
Evaluations and Experiments (CPEX) is progressing on schedule for completion in 2013. The Census Bureau released all 2010 Census
evaluation, assessment, and experiment reports scheduled for FY 2012. Its results will influence how the 2020 Census is designed,
tested, and implemented.




  94                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 12




The Census Bureau’s Count Question Resolution (CQR) Program continues to research and respond to state, local and tribal area
elected officials who have challenged their jurisdiction’s 2010 Decennial Census counts. As of September 21, the Census Bureau has
received 174 CQR challenges, of which they have completed the CQR review and responded with findings to 122 of the challenging
jurisdictions.

All the three and five-year 2010 American Community Survey (ACS) data and the one-year 2011 ACS data products were released
by the Census Bureau on schedule. For the first time they also released Selected Population Tables and American Indian and
Alaska Native Tables to fulfill one aspect of the promise that was made to the public that the ACS would replace the decennial
census long form and provide similar information. These two ACS products provide comprehensive social, economic, housing, and
demographic data for hundreds of race, ethnic, tribal, and ancestry population groups that is of a level similar to the 2000 long form
data. The Census Bureau also redesigned the ACS Web site to provide more information about the program and its purpose to the
public and stakeholders.

During its first year of funding, the 2020 Decennial Census program identified candidate approaches for measuring and improving
Master Address File quality for the 2020 Census; identified candidate approaches for automating, tailoring, and increasing the
efficiencies of response for the 2020 Census; and identified infrastructure approaches for integrating, expanding, and optimizing field
and information technology (IT) infrastructure for the 2020 Census. The program also updated a business plan, developed research and
testing plans, and completed documentation of key program management and system engineering plans to support the first phase of
research and testing (FY 2012-FY 2014).

In FY 2012, the Census Bureau released nearly 400 economic reports, including 120 principal economic indicators. Responses to
censuses and surveys provide information on manufacturing, retail, and wholesale trade; selected service industries; construction
activity; quantity and value of industrial output; inventories; new orders; capital expenditures; e-commerce sales; foreign trade; and
state and local government activities.

In FY 2012, the 2012 Economic Census forms were finalized, and all the printing contracts were awarded for the program’s core
content report forms. Data collection began for the Census of Governments.

In an effort to make economic statistics more usable through census.gov, an economic indicator dashboard was created highlighting
key indicators produced by the Census Bureau. The dashboard provides a quick glance of the most recent data releases, highlighting
the major findings, and links to the Economic Indicator Briefing Room for more detailed information, and access to the full press
releases. It is also embeddable so it can be easily shared on other Web sites as well.

The Census Bureau released its first-ever mobile application, “America’s Economy,” which provides constantly updated statistics
on the U.S. economy, including monthly and quarterly economic indicators and trends, along with a schedule of upcoming releases.
The application, which is available for Android and Apple users, combines statistics from the Department’s Census Bureau and BEA,
and the U.S. Department of Labor’s Bureau of Labor Statistics (BLS). “America’s Economy” provides smartphone and tablet users
with the real-time government statistics that drive business hiring, sales, and production decisions; and assist economists, researchers,
planners, and policymakers. The economic indicators track monthly and quarterly trends in industries, such as employment, housing
construction, international trade, personal income, retail sales, and manufacturing.

The Census Bureau released prototype tables for an Enterprise Statistics Program in June 2012. The new tables are based on 2007
Economic Census data, and a newly developed enterprise classification system. The tables show the industrial specialization and
diversification of U.S. businesses, and provide a valuable new tool for the analysis of enterprises.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    95
PERFORMANCE SECTION • THEME 2
                            1




In August 2012, the Census Bureau released the first ever Public Use Microdata Sample (PUMS) from the 2007 Survey of Business
Owners. The PUMS will allow researchers to create customized tables and models and to study entrepreneurial activity and the
relationships between business characteristics such as access to capital, firm size, employer-paid benefits, minority and women-
ownership, and firm age.

In FY 2012, the Census Bureau completed several major milestones toward redesigning major demographic surveys. The first stage
selection of primary sampling units (PSU) is on track for timely completion as all U.S. counties were combined into PSUs, and sampling
methods were researched and programmed for implementation in early FY 2013. Also, the Census Bureau completed research on
different modeling approaches to identify blocks that do not meet housing unit frame coverage requirements for reimbursable surveys
using the Master Address File. This will help to optimize cost and efficiency for our sponsors starting in FY 2013.


BEA

In FY 2012, BEA continued to maintain and improve the relevance and usefulness of its economic accounts. BEA successfully advanced
several collaborative projects with other agencies that resulted in new or improved statistics, including:

●● linkage of BEA and BLS data to provide new data on the impact of foreign direct investment on employment and wages;

●● work with the Federal Reserve Bank to provide quarterly detail in the joint BEA-Federal Reserve Bank Integrated Macroeconomic
   Accounts; and

●● work with the Census Bureau to improve source data and seasonal adjustment methods to address statistical issues revealed by
   the recession.

In addition, as the recession underscored the need for better information on the distribution of income, BEA used existing economic
accounts to better capture the differential impacts of the recession across households, industries, and regions.

BEA also achieved a major milestone in support of the President’s export initiative by creating a new linked dataset that combines data
on cross-border trade in services with data on the operations of multinational companies to provide services information with increased
detail on industry classification and firm size with no additional respondent burden. BEA reached another important milestone
in expanding its accounts to better measure health care, innovation, and intangibles with the development of a prototype health
care spending account that illustrates how health care expenditures can be presented by type of illness and by type of commodity
(e.g., inpatient care, prescription drugs, etc.). BEA explored the best methods and data sources for estimating such detail.

BEA also provided customers with major enhancements to its Web site in FY 2012. In keeping with the goal to make the statistics more
widely available and the Web site easier to use, BEA made significant improvements to the content of regional economic statistics and
the range of information on the operations of U.S. affiliates of foreign multinational companies that are available through the new inter-
active tables on BEA.gov (which were introduced in FY 2011). Furthermore, BEA launched the new “BEABlog” to augment communi-
cation with customers.

ESA provides timely and accurate economic insight to the Secretary and his policy advisors through regular economic briefings.
These briefings help to inform the Department’s long-term policy goals and senior staff enjoys the opportunity to hear a clear, consice
summation of economic events.




  96                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 12




NOAA

Successful Launch and Commissioning of the Suomi National Polar-orbiting Partnership (SNPP)
Environmental Satellite

The SNPP spacecraft was launched on October 28, 2011, from Vandenberg Air Force Base, to begin its Earth observation mission.
The initial checkout and commissioning was completed March 6, 2012. SNPP data are already used in the operational long-range weather
forecast. The launch of SNPP and the successful data collection from weather and climate monitoring sensors represents many years
of exceptional effort by NOAA, the National Aeronautics and Space Administration and contractor teams to create the gateway to the
U.S. climate monitoring system, collecting both climate and operational weather data and continuing key data records that are critical
for global change science. SNPP represents a critical first step in building this next-generation satellite system. SNPP will carry five
science instruments and test key technologies for the Joint Polar Satellite System mission. SNPP is the first satellite mission to address
the challenge of acquiring a wide range of land, ocean, and atmospheric measurements for earth system science while simultaneously
preparing to address operational requirements for long-range weather forecasting. Understanding, monitoring, and predicting the course
of long-term climate change and short-term weather conditions remain tasks of profound importance. Economic competitiveness, human
health and welfare, and global security all depend in part on the ability to understand and adapt to global environmental changes.

National Polar-orbiting Partnership (NPP) Data Exploitation (NDE) Project delivers NPP products to National
Weather Service and EUMETSAT

NDE began delivering atmospheric products from Suomi NPP infrared and microwave sounders to the National Weather Service’s
(NWS) National Centers for Environmental Prediction (NCEP) within a few weeks after the instruments were activated in orbit. As a
result, the NCEP has declared the microwave data operational in the Numerical Weather Prediction Models only five months after NDE
started to receive the data. NDE has also delivered these products to EUMETSAT (Europe’s Meteorological Satellite Organization),
NOAA’s long-term international partner, for evaluation by the European Weather Modeling Centers. NDE is a development project
that generates NOAA-unique products from NPP for NWS and other operational user communities. NDE devoted additional resources
to provide the necessary monitoring of NDE production to ensure the users continued to receive the products they expect from the
National Environmental Satellite, Data, and Information Service (NESDIS). By delivering the products to NWS as early as two months
after launch, NDE has made it possible for NWS to evaluate the microwave data and declare these data operational in the Weather
Models in May 2012. This is a significant improvement over the 11 months it took for similar microwave sounding data from the
last Polar-orbiting Environmental Satellite (POES) mission, NOAA 19, to be declared operational by NWS. These data enable NWS to
generate improved 3-7 day weather forecasts, which in turn mitigate the loss of life and property.

NGDC Implements Satellite Anomaly Assessment Tool

The National Geophysical Data Center (NGDC) has implemented a computer-based tool to assess environmental risk factors for
satellites in geostationary orbit. In 2010, NGDC determined that a debilitating anomaly experienced by the Galaxy-15 geostationary
communications satellite was the likely result of heightened space weather conditions. In support of NOAA’s goal for providing
relevant weather and water information, NGDC has now implemented the Space Environmental Anomalies Expert System Real Time
(SEAESRT) as a tool and graphical product to monitor those aspects of the space environment known to affect satellites in geosta-
tionary orbit. Using space weather data from the NOAA Geostationary Operational Environmental Satellites (GOES), the SEAESRT tool
calculates hazard quotients for satellite surface charging, internal charging, single event effects, and total dose. SEAESRT was recently
used to assess the likely environmental factors contributing to the SkyTerra-1 satellite anomaly that occurred on March 7, 2012.
SEAESRT provides real-time assessments of space environmental vulnerabilities likely to be experienced by satellites in geostationary
orbit. Knowing the root cause for a spacecraft anomaly is critical to restoring, if possible, full operational capabilities. SEAESRT can
also be used to determine extreme environmental risk factors, which are used by satellite manufacturers for worst-case assessments.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     97
PERFORMANCE SECTION • THEME 2
                            1




Monitoring Gas Flaring with VIIRS

NGDC developed a technique for identifying and estimating the light signatures of gas flares worldwide using data collected by the
Visible Infrared Imaging Radiometer Suite (VIIRS) instrument. Gas flares are identified by their intense and persistent light emission,
which can be easily detected at night. Since 2005, NGDC has been using Defense Meteorological Satellite Program data to estimate
national and global gas flaring volumes. Natural gas, mostly in the form of the greenhouse gas methane, is commonly released in oil
production and processing. In locations where there is limited infrastructure to capture this gas for energy utilization, the industry
standard is to flare (burn) it off rather than release the gas uncombusted into the atmosphere. NGDC estimate for global flaring
in 2011 was 140 billion cubic meters, which is equivalent to 20 percent of U.S. natural gas consumption. In 2012, NGDC began
collaborating with the California Air Resources Board to rate the carbon intensity of crude oil from oil fields around the world in support
of the California Low Carbon Fuel Standard. NGDC’s new technique for monitoring gas flaring with VIIRS data will play a key role in
documenting reductions or changes in gas flaring activity worldwide. This activity is key to reducing the carbon intensity of crude oils
produced in many parts of the world. This activity supports the World Bank’s Global Gas Flaring Reduction Partnership as a part of the
World Summit on Sustainable Development.


                                            SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                            PERFORMANCE MEASURE                                           TARGET              ACTUAL              STATUS
 Produce timely, relevant, and accurate measures showing the dynamics               For states           For states
 of local job markets and identifying the changing structure of the U.S.            that provide         that provide
 economy and its effect on jobs (ESA/CENSUS)                                        wage records         wage records
                                                                                    on schedule,         on schedule,
                                                                                    Census Bureau        Census Bureau
                                                                                    will produce         produced
                                                                                    Quarterly            Quarterly                  Met
                                                                                    Workforce            Workforce
                                                                                    Indicators for       Indicators for
                                                                                    at least 90%         at least 90%
                                                                                    of those states      of those states
                                                                                    on time every        on time every
                                                                                    quarter              quarter
 Release monthly export statistics on schedule (ESA/CENSUS)                               100%                100%                  Met

 Achieve pre-determined collection rates for Census Bureau censuses                 At least 90% of      At least 80% of
 and surveys in order to provide statistically reliable data to support             key censuses         key censuses
 effective decision-making of policymakers, businesses, and the public              and surveys          and surveys
 (ESA/CENSUS)                                                                       meet/exceed          met/exceeded             Not Met
                                                                                    collection           collection
                                                                                    rates/levels of      rates/levels of
                                                                                    reliability          reliability
                                                                                                                                 (continued)




  98                                              F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 12




                       PERFORMANCE MEASURE (continued)                                      TARGET         ACTUAL          STATUS
 Release data products for key Census Bureau programs on time to                    •	 100% of         •	 100% of
 support effective decision-making of policymakers, businesses, and                    Economic           Economic
 the public (ESA/CENSUS)                                                               Indicators         Indicators
                                                                                       released on        released on
                                                                                       time               time
                                                                                                                             Met
                                                                                    •	 At least 90%    •	 At least 90%
                                                                                       of key prep        of key prep
                                                                                       activities         activities
                                                                                       completed on       completed on
                                                                                       time               time
 Complete key activities for cyclical census programs on time to                    At least 90% of    At least 90% of
 more effectively support effective decision-making by policymakers,                key prep activi-   key prep activi-
                                                                                                                             Met
 businesses, and the public and meet constitutional and legislative                 ties completed     ties completed
 mandates (ESA/CENSUS)                                                              on time            on time
 Timeliness: Reliability of delivery of economic data (number of scheduled
                                                                                             62               62             Met
 releases issued on time) (ESA/BEA)
 Relevance: Customer satisfaction (mean rating on a 5-point scale)
                                                                                             >4.0            4.3             Met
 (ESA/BEA)
 Accuracy: Percent of GDP estimates correct (ESA/BEA)                                       >85%            87%              Met

 Complete all major strategic plan milestones related to improving the              Completion of        Completed
 economic accounts (ESA/BEA)                                                        strategic plan      strategic plan       Met
                                                                                    milestones           milestones



F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        ACHIEVE PRE-DETERMINED COLLECTION RATES FOR CENSUS BUREAU CENSUSES AND, SURVEYS IN ORDER TO PROVIDE
                  STATISTICALLY RELIABLE DATA TO SUPPORT EFFECTIVE DECISION-MAKING OF POLICYMAKERS, BUSINESSES AND THE
                  PUBLIC (ESA/CENSUS)
                  The Survey of Income Program and Participation (SIPP) is a longitudinal (cannot add to sample) survey that
                  realizes a decrease in response rates as the survey progresses and respondents decline participation.
 Explanation      The Annual Capital Expenditures Survey (ACES) consists of businesses (sample) without employees.
                  Their unwillingness to participate in the survey had a negative impact on the response rate that resulted in
                  missing the targets through the third quarter of FY 2012.
                  The remedy for ACES is to change the methodologiy to better capture and measure responses starting in FY 2013.
                  The new methodology will specifically focus on factors more pertinent to the study and survey.
 Action
                  The response rate for SIPP will be adjusted to be in line with the trend of the respondents’ participation in
                  the survey.



HISTORICAL TRENDS

Census and BEA has consistently met or achieved its targets for its four performance measures over the past several years, as shown in
Appendix A.



F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   99
PERFORMANCE SECTION • THEME 2
                            1




                                                       OBJECTIVE 15

                       Improve weather, water, and climate reporting and forecasting (NOAA)


                                                     PUBLIC BENEFITS



 W     eather affects all facets of society, impacting the economy in ways ranging from agricultural preparation to transportation
       planning to disaster response. Accurate weather forecasting can affect the number of lives saved or lost as well as mitigate
the extent of property damage as a result of weather events. Weather forecast guidance and decision support also affects how
power companies plan for daily, weekly, and seasonal variances. Because of this, Americans benefit from sound weather forecasting
both in their daily lives and planning, and in preparation for major storm events.

A weather-ready nation will be able to prepare for and respond to environmental events that affect safety, health, the environment,
economy, and homeland security. NOAA’s capacity to provide accurate and relevant information can help create a society that is
more adaptive to its environment; that experiences fewer disruptions, dislocation, and injuries, and that operates a more efficient
economy. Over the long term, climate change may increase the intensity and even the frequency of adverse weather events,
ranging from drought and flooding to wildfires, heat waves, storms, and hurricanes. Changing weather, water, and climate conditions
affect the economic vitality of communities and commercial industries, such as the energy, transportation, and agriculture sectors.
Environmental information aligned with user needs will become ever more critical to the safety and well being of those exposed to
sudden or prolonged hazards and will enable U.S. businesses and policymakers to make informed decisions.

NOAA conducts sound, scientific research and provides warnings, forecast, and decision support for managers of environmental
resources, ranging from fresh water supplies to coastal ecosystems to air quality. Realizing that NOAA’s information and services bridge
weather to climate timescales, NOAA will continue to collect and analyze environmental data and issue forecasts and warnings that help
protect life and property and enhance the U.S. economy. The Department is committed to excellent customer service and depends on
its partners in the private sector, academia, and government to add value and help disseminate critical weather and climate information.

One of the growing challenges in the 21st century is the escalation of the demand for water and improved water and air quality.
Changing water temperatures and poor air quality impact the Nation’s population and its fish and shellfish populations. To this end,
NOAA can combine predictive weather information with an understanding of weather, water, and climate to develop integrated predic-
tions that can improve the health of ecosystems and communities.



ACHIEVEMENTS

First Operational Tornado Warning Issued Using AWIPS II

The first tornado warning issued using Advanced Weather Interactive Processing System (AWIPS) II was issued to Foard County, TX
on March 18, 2012. Operational since 1999, AWIPS is NWS’s primary system to clearly communicate hazardous weather information
to decisionmakers responsible for implementing life-saving measures when catastrophic weather hits, such as the Joplin, MO and
Tuscaloosa, AL tornado outbreaks. In 2011, NOAA began deployment of the software upgrade known as AWIPS II. This upgrade
transforms existing AWIPS capabilities into a modern, robust software architecture. This modern software architecture lays the
foundation to transform its service delivery to better align itself with the emerging needs of the U.S. Department of Homeland Security,
Federal Aviation Administration, emergency managers, decisionmakers, the U.S. public and industry.



 100                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 12




Collaboration with FEMA on Wireless Emergency Alerts

On June 28, 2012, the Federal Emergency Management Agency (FEMA) began to disseminating critical NWS warnings via Wireless
Emergency Alerts (WEA) to wireless mobile devices. The WEA program, a partnership between FEMA, FCC, and commercial wireless
carriers, enhances public safety by relaying presidential, AMBER alerts, and Imminent Threat alerts to millions of mobile phones.
All major wireless carriers and hundreds of smaller carriers voluntarily participate in WEA. Numerous cell phones are already capable
of receiving WEAs; by 2014 most commercially available phones are expected to be WEA capable. WEA messages are not subject
to delay or non-delivery when cellular networks become congested as with traditional text messaging. NWS messages which trigger
WEA broadcast includes tornado warnings, flash flood warnings, hurricane and typhoon warnings, extreme wind warnings, blizzard and
ice storm warnings, and dust storm warnings. By the end of 2012, WEA for tsunami warnings will also be disseminated.

Lifesaving Support in Advance of and During 2012 Heat Wave

NOAA provided lifesaving advisories and warnings across the United States before and during the 2012 heat wave. Weather Forecast
Offices issued 140 Excessive Heat Warnings and 521 Heat Advisories during the 2012 heat season. NOAA maintained daily contact
with media and emergency managers providing up-to-date information and forecasts to ensure advanced preparation and appropriate
actions were undertaken. NOAA partnered with multiple federal and private partners to provide guidance on preventive measures for
avoidance of harmful exposure to excessive heat and ultra violet (UV) radiation to the Nation. Beginning in May 2012, much of the conti-
nental United States sweltered under an extreme heat wave; according to NOAA’s National Climatic Data Center Extremes Archive, a
total of 645 records were set for the all-time hottest June temperatures. Kansas, Illinois, Indiana, Missouri, Nebraska, New Jersey, Ohio,
Oklahoma and Tennessee saw multiple days of extremes prompting emergency management officials to issue warnings for excessive
heat. An all-time record was set at the Nation’s capital with a daily maximum temperature reaching 104°F on June 29 making for the
area’s hottest June day in 142 years. NOAA began alerting the public on extreme heat danger on May 22 with the release of its annual
Heat and Sun Safety Guidance Public Information Statement. During a similar heat wave in Chicago in 1995, nearly 700 people died of
heat related causes. In the summer of 2012, Chicago reported a few dozen deaths, with potential fatalities averted due to advanced
warning and preemptive actions such as opening cooling shelters and increased attention paid to seniors and other vulnerable popula-
tions. These efforts proved especially critical during widespread power outages that accompanied the extreme heat.

NOAA Completes Deployment of New River Forecasting System

NOAA completed deployment of its Community Hydrologic Prediction System (CHPS) to all 13 River Forecast Centers (RFC) leading to
improved river forecasting. CHPS replaces the previous river forecast modeling system that was developed in the 1970s. CHPS, which
is built upon modern software architecture, provides expanded and enhanced tools for water forecasting services. CHPS enables
the larger hydrologic community access to NOAA’s hydrologic modeling. NOAA is now able to access and leverage a wide variety
of external hydrologic tools. These improvements significantly expand tools and capabilities to the RFCs and have led to improved
products and services, including decision support services. CHPS enabled the Northeast RFC (NERFC) to provide critical decision
support information to the New York City Department of Environmental Protection (NYCDEP), supporting construction at the Gilboa
Dam. In advance of widespread heavy rain, CHPS enabled the NERFC to provide “what-if” river stage scenarios which allowed
NYCDEP to make informed decisions regarding the safe removal of construction equipment and personnel prior to the heavy rains.

NOAA Upgrades Global Forecast System and Data Assimilation

In March 2012, NOAA implemented major improvements to its Global Forecast System (GFS) including a new method of data assimi-
lation which more effectively uses the information content in observations to correct errors in forecast models. This new data assimi-
lation system which represents one of the biggest improvements in U.S. weather and climate forecasting in a decade was developed
in collaboration with the Office of Oceanic and Atmospheric Research and facilitated by the Hurricane Forecast Improvement Project




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    101
PERFORMANCE SECTION • THEME 2
                            1




team. The GFS is the foundational computer model used in the development of guidance for more than 1.5 million weather forecasts
annually. Decisionmakers across the country depend on these weather forecasts to improve their planning and hazard preparedness.
Advancements over the previous GFS version were also made in the model physics, post-processing, and improved quality control.
Additional data from GOES East and West (GOES-13 and 15), changes in the use of global positioning system (GPS) Radio Occultation
data, and use of new observations including the operational transition of the Advanced Technology Microwave Sounder data from the
new Suomi NPP satellite were also incorporated. The new forecast system is anticipated to produce more accurate forecasts out to
16 days. This includes improved hurricane track forecast accuracy, general global weather predictions, and forecasts of stratospheric
ozone, which affects the amount of skin damaging radiation that hits Earth’s surface and also affects climate.

Sea Ice Support for Emergency Nome, Alaska Fuel Resupply

During January 2012, the U.S. Coast Guard ice-breaker HEALY successfully escorted a Russian fuel tanker delivering an emergency
supply of 1.3 million gallons of winter fuel to Nome, AK. The normal winter fuel supply had been blocked by a major November
winter storm then subsequently by heavy sea ice, placing Nome in danger of running out of fuel mid-winter. The earliest the next
seasonal fuel supply barge would arrive would have been June 2012. NWS provided continuous decision support to U.S. Coast Guard
operations beginning with daily briefing beginning in early December 2011 continuing throughout the operation until the end of January
2012. The NWS Sea Ice Forecaster worked 46 straight days and was in direct contact with the HEALY supplying special routing
forecasts and satellite images daily which were critical to the mission’s success. The NWS Sea Ice Forecaster collaborated with the
Interagency National Ice Center, the U.S. Navy, the University of Alaska, and the U.S. Coast Guard on this effort.

NOAA Provides Decision Support for 2012 Fire Season

NOAA provided extensive decision support services enabling the Western United States to effectively manage the FY 2012 active fire
season starting in late April. Because of a drier than average winter across much of the West, the 2012 fire season was the most active
since 2008. The 2012 fire season was characterized by severe drought conditions and record temperature extremes from central Wyoming,
southward through Arizona, Colorado and New Mexico. As early as January, NOAA began providing a seasonal outlook, focusing on the
potential for significant wildfires to stakeholders and began coordinating with partners including federal, tribal, state, and local fire service
providers. NOAA continued to provide daily-to-weekly updates to their partners, including the impacts of the current weather forecasts on
potential wildfire conditions. NOAA has provided over 18,000 spot forecasts for wildfire management year to date, including 11,000 for
prescribed burns. NOAA deployed Incident Meteorologists (IMET) as front-line support, with 167 on-site dispatches through September
providing approximately 21,000 hours of direct support for these devastating fire outbreaks. On average, IMET were on site within 14 hours
of request to NWS, enabling them to participate from the first stages overall Incident Management Team response to closeout. During the
morning of June 12, 2012, at the Cow Camp Fire in Wyoming, a high-confidence IMET forecast of light winds resulted in implementing
an aggressive tactical strategy to drop 160,000 gallons of water resulting in the protection of the towns of Hartville and Guernsey, WY.
At the incident closeout, the Incident Commander commented that this action shortened the fire duration by two days. IMETs continue
to serve on fires at this time, with a projected total number of deployments this year totaling 175; 35 deployments above an average year.

Weather-Ready Nation Community Pilot Projects Launched

As part of the Weather-Ready Nation (WRN) initiative, NOAA began piloting concepts for improved coordination for the emergency
management community and effective response by the public and business community. These pilot projects will help set the direction
for NOAA services of the future to better meet its mission to protect life and property mission. The community pilot projects launched
in strategic locations in the Gulf Coast, South and mid-Atlantic were designed to improve warning and forecast services. These six
community pilot projects are now operational in Silver Spring, MD; Fort Worth, TX; Sterling, VA; Slidell, LA; Tampa Bay, FL; and Charleston,
WV. The pilot projects are helping these communities reach the highest level of preparedness and resilience to high-impact weather




  102                                               F Y   2 0 1 2   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                            P E R F O R M A N C E S E C T I O N • T H E M E 12




while sharing best practices and lessons learned with other NOAA offices. Each of the pilots are designed to test new service concepts
laid out in the WRN Roadmap and range in focus from emergency response to integrated environmental support services. Early accom-
plishments of the pilot projects include a public-private partnership in Slidell where a Significant Weather Emergency Response Vehicle
was acquired and equipped at no cost to taxpayers. The vehicle will be deployed at weather-dependent emergencies and incidents to
better support NOAA Core Partners on location. Also, working with social scientists, in collaboration with the National Hurricane Center,
the pilot projects in Slidell and Tampa Bay tested a prototype Storm Surge Warning product during Tropical Storm Debby.

NWS Prepares Workforce to Integrate Dual-Pol Radar into Nation’s Warning Services

In 2012, NWS accelerated forecast staff expertise on Dual-Polarization (Dual-Pol) radar data which is critical for improved warnings and
forecasts used by the public and key decisionmakers. Preliminary assessment by a team of expert forecasters indicated that a well-trained
forecaster staff using Dual-Pol data is better able to identify areas of heavy precipitation over the standard radar leading to improved flash
flood warnings, winter weather warnings, and warning of severe convective weather. This training success has received attention around
the world with 10 other nations’ meteorological agencies requesting access to this operations training for their workforce. The operational
integration of Dual-Pol technology, being currently deployed to the Nation’s fleet of weather radars, requires synchronization of all the
interrelated components of NWS, including current operations, technology improvements, training, and service delivery by forecasters.
To address the complex Dual-Pol training needs, NWS designed a comprehensive training course targeted to 1,800 Meteorologists-in-
Charge, Hydrologists-in-Charge, Science and Operations Officers, Warning Coordination Meteorologists, forecasters, and hydrologists
with warning responsibilities at NWS to effectively use Dual-Pol data in the development of warnings. This training program is the most
comprehensive and challenging since NWS trained its workforce to effectively use the Doppler weather radar in the 1990s.


                                                 SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                              PERFORMANCE MEASURE (NOAA)                                             TARGET           ACTUAL       STATUS
 Severe weather warnings for tornadoes (storm-based) – Lead time                  (minutes)1            13             121       Slightly Below

 Severe weather warnings for tornadoes (storm-based) – Accuracy (%)1                                   72%             711       Slightly Below

 Severe weather warnings for tornadoes (storm-based) – False alarm rate (%)1                           72%            70%1            Met

 Severe weather warnings for flash floods (storm-based) – Lead time (minutes)                           42             571         Exceeded

 Severe weather warnings for flash floods (storm-based) – Accuracy (%)                                 74%            74%1            Met

 Hurricane forecast track error (48 hours) (nautical        miles)1                                     84             703         Exceeded

 Hurricane forecast intensity error (48 hours)(difference in knots)                                     13            14.43         Not Met

 Accuracy (%) (threat score) of day 1 precipitation forecasts                                          31%             321            Met

 Winter storm warnings – Lead time (hours)                                                              19             18        Slightly Below

 Winter storm warnings – Accuracy (%)                                                                  90%             83%          Not Met

 Marine wind speed accuracy (%)                                                                        71%            76%1            Met

 Marine wave height accuracy (%)                                                                       75%            77%1            Met

 Aviation forecast accuracy for ceiling/visibility (3 mile/1,000 feet or       less)(%)3               65%            61%2          Not Met

 Aviation forecast FAR for ceiling/visibility (3 mile/1,000 feet or less)(%)                           40%            39%2            Met
 1	   Pending collection of final data and verification and validation.
 2	   Pending verification and validation.
 3	   Beginning in FY 2007, NOAA reported the previous year’s results because data is not available until February.




F Y   2 0 1 2    P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                            103
PERFORMANCE SECTION • THEME 2
                            1




F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE     SEVERE WEATHER WARNINGS FOR TORNADOES (STORM-BASED) – LEAD TIME (MINUTES) AND ACCURACY (NOAA)
               The performance targets for tornado lead time and accuracy were set at an appropriate level, and the deviation
 Explanation
               from that level is slight. There was no effect on the overall program or activity performance.
               A full field deployment of the dual-polarization upgrade to the Next-Generation Radar and associated training from
               FY 2011-FY 2013 will aid forecasters in better diagnosing severe thunderstorm structure and will lead to better
               detection of airborne tornado debris in radar data in FY 2014 and beyond.
 Action
               Integrated Hazard Information Services software is being developed, which will allow forecasters to better
               manage hazardous weather warning services as well as their situation awareness. Rapid prototyping is ongoing
               with field deployment scheduled to begin in FY 2013.
   MEASURE     HURRICANE FORECAST INTENSITY ERROR (48 HOURS)(DIFFERENCE IN KNOTS) (NOAA)
               NOAA set aggressive targets for hurricane intensity forcasting in FY 2011 which were not fully realized. This was
               based on anticipated performance improvements from the physics upgrades to the operational Hurricane
 Explanation
               Weather Research and Forecasting (H-WRF) model. FY 2011 48 hour intensity error value exceeded the 5-year
               average, although it fell below the target.
               NOAA continues to address issues contained with the H-WRF software including refining model physics.

               In FY 2010, NOAA’s initiated its Hurricane Forecast Improvement Project (HFIP) which focuses on improving the
               accuracy and reliability of hurricane forecasts. The specific goals of the HFIP are to reduce the average errors of
 Action        hurricane track and intensity forecasts by 20 percent. These efforts include enhanced observational strategies,
               improved data assimilation, numerical model systems, and expanded forecast applications.

               HFIP has developed a prototype hurricane forecast system which will be transitioned to operations contingent up
               availability of high performance computing.
   MEASURE     WINTER STORM WARNINGS - LEAD TIME AND ACCURACY (NOAA)
               In a typical fiscal year, the number of winter weather events varies from 4,500 to 7,800. In FY 2012 the Nation
               experienced 3,207 winter storms. The lack of storms and near record warmth throughout the FY 2012 winter
               made it difficulty for NOAA’s forecasters to distinguish between snow versus rain or mixed events. This resulted
               in reduced winter storm warning accuracy. The lack of large winter storm systems also made it difficult to warn
 Explanation
               across multiple counties, which contributed to longer lead times than during a typical winter. Despite these
               difficulties, the winter storm warnings lead time was missed by less than an hour; from a service perspective,
               the lead time still gave NOAA’s users, particularly emergency managers, adequate time to prepare and to mitigate
               impacts—which is critical to decision support services.
               In FY 2013 and beyond, NWS forecasters will benefit from advanced numerical weather prediction model forecast
 Action
               of winter storms.
   MEASURE     AVIATION FORECAST ACCURACY FOR CEILING/VISIBILITY (3 MILE/1,000 FEET OR LESS)(%) (NOAA)
               Instrument Flight Rules (IFR) are defined as ceiling <1,000 feet and/or visibility <3 miles. Typically, NWS forecasts
               IFR events more accurately during years with higher occurrences of low clouds and fog. FY 2012 was a milder
 Explanation   than normal winter, when most events occur, and a significant drought over much of the Unitied States during
               the summer resulted in fewer low cloud and fog events to forecast. Fewer events to forecast result in lower
               performance.
               NWS continues to focus on detecting IFR conditions and making accurate and precise forecasts. NWS is focusing
 Action
               on improving Terminal Aerodrome Forecast (TAF) products at 30 busiest airports.




 104                                          F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 12




HISTORICAL TRENDS

Each year, NOAA’s NWS typically meets or exceeds 12 of 14 Government Performance and Results Act (GPRA) measures. In FY 2012,
the Nation witnessed an exceptionally dry year with over 80 percent of the Nation being impacted. FY 2012 was characterized by a low
frequency of weather events, unusually high temperatures, and drought. The reduced weather event frequency led to less represen-
tative performance results. During a typical year, a larger number of weather events allow NWS forecasters to have greater situational
awareness, leading to improved average weather forecasts and warnings.

Since 2010, NWS has exceeded flash flood lead time targets. NWS effected a transition from a county-based warning service to a
storm-based warning service for flash floods in FY 2010 to provide more geographically-specific and accurate warning information to
the public. During 2010 and 2011, the Nation had extremely wet years dominated by periods of highly predictable storm activity which
was a factor in improved accuracy. As noted, FY 2012 was characterized by fewer storms and drought. At the end of FY 2012, NWS
conducted a review of its past performance of flash flood lead time. Based upon this analysis, NWS has increased its targets beginning
in FY 2013. NOAA’s hurricane forecast track error performance has steadily improved by one to three percent since 2003; targets are
routinely reassessed and adjusted to reflect these performance trends.


                                        T H E M E 2 P R O G R A M E VA L U AT I O N S


The following program evaluations were conducted on programs related to this theme in FY 2012.

  BUREAU        REVIEWER                NAME OF EVALUATION                      DATE                      WEB SITE
 NOAA              GAO        Information Technology Cost Estimation:           7/2012      www.gao.gov
                              Agencies Need to Address Significant
                              Weaknesses in Policies and Practices
 NOAA              GAO        Polar-orbiting Environmental Satellites:          7/2012      www.gao.gov
                              Changing Requirements, Tehcnical
                              Issues, and Looming Data Gaps Require
                              Focused Attention
 NOAA              GAO        Geostationary Weather Satellites: Design          6/2012      www.gao.gov
                              Progress Made, but Schedule Uncertainty
                              Needs to be Addressed
 NOAA              GAO        GAO Annual Report: Opportunities                  2/2012      www.gao.gov
                              to Reduce Duplication, Overlap and
                              Fragmentation, Achieve Savings, and
                              Enhance Revenue (GAO-12-342SP)
 NOAA              GAO        Change Adaptation: Federal Efforts               11/2011      www.gao.gov
                              to Provide Information Could Help
                              Government Decision Making
                              (GAO-12-238T)




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                105
PERFORMANCE SECTION • THEME 2
                            1




 106                      F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
         THEME 3
E nvironmental S tewardship
                     T H E M E , S T R AT E G I C G O A L , A N D O B J E C T I V E S

THEME 3: ENVIRONMENTAL STEWARDSHIP
Strategic Goal: Promote economically-sound environmental stewardship and science

Objective 16    Support climate adaption and mitigation (NOAA)

Objective 17    Develop sustainable and resilient fisheries, habitats, and species (NOAA)

Objective 18    Support coastal communities that are environmentally and economically sustainable (NOAA)
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 13




                             THEME 3:             E N V I R O N M E N TA L S T E WA R D S H I P


Strategic Goal: Promote economically-sound environmental stewardship and science




 T 
        his theme contains one strategic goal and within that
        strategic goal, three objectives which contribute to
        the Secretary’s theme of Environmental Stewardship,
all of which are associated with the National Oceanic and
Atmospheric Administration (NOAA). The following public
benefits, achievements, and performance results are associated
with each objective.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                109
PERFORMANCE SECTION • THEME 3
                            1




                                                       OBJECTIVE 16

                                    Support climate adaption and mitigation (NOAA)


                                                     PUBLIC BENEFITS



 T   he Nation has an urgent need to advance U.S. understanding of the climate system and climate impacts so as to improve
     climate predictions and projections and to better inform adaptation and mitigation strategies. Key scientific uncertainties limit
scientists’ ability to understand and predict changes in the climate system. International, national, state, and local efforts to limit
greenhouse gases require reliable information to support emissions verification, as do efforts to track climate changes and mitigate
impacts. Adaptation and mitigation strategies must be informed by a solid scientific understanding of the climate system.

Society exists in a highly variable climate system, with conditions changing over the span of seasons, years, decades, and centuries.
Given such stresses as population growth, drought, and increasing demand for fresh water, it is essential for NOAA to provide
reliable observations, forecasts, and assessments of climate, water, and ecosystems to enhance decisionmakers’ ability to minimize
climate risks. This information supports decisions regarding community planning, business management, and natural resource and
water planning.

Climate-related changes projected for the future include the following:

●● increased global temperatures;

●● melting sea ice and glaciers;

●● rising sea levels;

●● increased frequency of extreme precipitation events;

●● acidification of the oceans;

●● modifications of growing seasons;

●● changes in storm frequency and intensity;

●● alterations in species’ ranges and migration patterns;

●● earlier snowmelt;

●● increased drought; and

●● altered river flow volumes.


The impacts of these changes are regionally diverse and affect numerous sectors, including water, energy, transportation, forestry,
tourism, fisheries, agriculture, and human health. A changing climate is projected to increase demand for water resources and
exacerbate other human impacts on fisheries and marine ecosystems, such as over-fishing, habitat destruction, pollution, and
excess nutrients in coastal waters. Sea level rise is expected to amplify the effects of other coastal hazards, and rising temperatures
are expected to increase invasions of non-native species. Climate change can also have a direct impact on commerce, transportation
and the economy. In the Arctic, retreating sea ice is providing access for regional oil and gas development, expanding commercial
fisheries northward, and opening sea routes for commerce and tourism.



  110                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 13




These changes have profound implications for society, underscoring the need for scientific information to aid decisionmakers
in developing and evaluating options for mitigating the human causes of climate change and adapting to foreseeable climate
impacts. While the Nation has made significant progress in Its understanding of climate, more work is needed to improve scientific
understanding, produce accurate predictions, identify risks and vulnerabilities, and inform decision-making. No single agency can
do this alone; climate science, assessment, service, engagement, and education efforts require and benefit from interagency,
academic, and private sector partnerships. Building on decades of strong scientific research and information and engagement with
stakeholders, NOAA will advance this long-term goal by deepening its scientific understanding of climate, developing authoritative
climate assessments, developing and delivering climate services at global, regional, and local scales, and improving public
knowledge of a changing climate and its impacts. Given its stewardship responsibilities and expertise, NOAA will focus particularly
closely on the impacts of a changing climate on weather patterns, ocean and coastal ecosystems, living marine resources, and salt
and freshwater resources.

In FY 2012, NOAA continued to play a lead role in the U.S. Global Change Research Program (USGCRP) which coordinates and
synergizes climate research and activities across numerous member agencies, gaining efficiencies in the process. NOAA leads the
USGCRP effort to produce the National Climate Assessment which is a quadrennial compilation of the state of the climate, climate
research, and assessments pertaining to the impacts of climate variability and change.



ACHIEVEMENTS

Carbon Dioxide Levels Reach Milestone at Arctic Sites

In April 2012, NOAA measured the highest concentration of carbon dioxide (CO2) ever recorded in the atmosphere of Barrow,
AK, 400 parts per million (ppm). Carbon dioxide at six other remote northern sites in NOAA’s international cooperative air sampling
network also reached 400 parts per million at least once this spring: at a second site in Alaska and others in Canada, Iceland, Finland,
Norway, and an island in the North Pacific. Measurements at all those remote sites reflect background levels of CO2, influenced
by long-term human emissions around the world, but not directly by emissions from a nearby population center. Carbon dioxide,
emitted by fossil fuel combustion and other human activities, is the most significant greenhouse gas contributing to climate change.
By comparing these values to historical CO2 amounts, NOAA can predict future levels of CO2.

NOAA Scientists Point to Climate-protecting Potential of Montreal Protocol

NOAA Research scientists and international colleagues authored a Policy Forum on “Preserving Montreal Protocol Climate Benefits
by Limiting HFCs” published in Science (February 24, 2012: 922-923). The Montreal Protocol’s protection of the stratospheric ozone
layer could have unintended impacts on climate because it has encouraged the use of chemicals called HFCs (hydrofluorocarbons)
as substitutes for ozone-depleting substances such as CFCs (chlorofluorocarbons). HFCs do not deplete ozone, but they are potent
climate-warming greenhouse gases, and their use is rising. The Montreal Protocol has provided some global climate protection.
Many ozone-depleting substances, now phased out of production, are also greenhouse gases. The authors note the Montreal Protocol’s
climate benefits could be preserved if HFCs were also addressed under the protocol.

NOAA Expanded the Climate Stewards Education Project

The NOAA Climate Stewards Education Project (CSEP) expanded to include 140 educators in 40 states and the District of Columbia
providing professional development and collaborative online learning to increase climate science knowledge and engage kindergarten
to college and informal learners in local stewardship projects. NOAA CSEP educators completed over 1,300 contact hours of




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  111
PERFORMANCE SECTION • THEME 3
                            1




professional development in climate change science and pedagogy via Webinar and online tutorials, as well as face to face workshops
hosted by the National Ocean Service and partners like the U.S. Forest Service, National Science Teachers Association, and American
Meteorological Society in states and localities including Georgia, Wisconsin, Louisiana, New York, Maryland, and Washington, D.C.

“Seeing” Sea Level Rise and Improving Local Sea Level Change Scenarios

Datasets, models, visualizations, and many other resources must come into play when coastal professionals talk with communities
about flood-related changes such as sea level rise. Some audiences begin to understand coastal changes only when they can visualize
the impacts. For this reason the NOAA Coastal Services Center developed the Sea Level Rise and Coastal Flooding Impacts Viewer.
This viewer uses local elevation data and visualization software that enables users to see, in maps and pictures, how one to six feet
of sea level rise is likely to impact their coastal communities. Featured on the Digital Coast Web site, this tool has been very popular,
garnering 9,760 direct Web hits between October 1, 2011, and July 20, 2012. The viewer is in year three of a four-year effort, covering
a total of 98 counties or parishes in six states. The release of the viewer by region will include Webinars and meetings to ensure its
application by coastal managers.

NOAA Completes Move into the Center for Weather and Climate Prediction

NOAA successfully moved into the NOAA Center for Weather and Climate Prediction (NCWCP). NCWCP is a newly-constructed,
leased facility located in College Park, MD with 268,762 square feet of available space. NCWCP was a joint NOAA and General Services
Administration project. This effort consolidates three current locations into one. Five of NOAA’s National Centers for Environmental
Prediction; two elements of NOAA’s National Environmental Satellite, Data, and Information Service; and NOAA’s Air Resources
Laboratory will operate out of the NCWCP. The co-location of these organizations will improve programmatic integration in national
weather and climate modeling and prediction product development. The NCWCP facility is currently a candidate for silver certification
in the Leadership in Energy and Environmental Design (LEED) Green Building Rating System. LEED sets standards for green buildings,
verifying that the building is environmentally responsible, profitable and healthy for occupants. NCWCP has environmentally-friendly
features such as planted “green roofs,” bio-retention areas, and a storm water cistern to collect water for irrigation.

Examining the State of the Climate in 2011

NOAA released the 2011 State of the Climate Report, which is a peer-reviewed report compiled by scientists from countries around
the world. It provides a detailed update on global climate indicators, notable weather events, and other data collected by environ-
mental monitoring stations and instruments on land, sea, ice, and in the sky. According to the report, 2011 was the coolest year
on record since 2008 even though temperatures remained above the 1981–2010 average. The State of the Climate Report is peer-
reviewed and published annually as a special supplement to the Bulletin of the American Meteorological Society. The report is part
of a suite of climate services NOAA provides to government, business, and community leaders so they can make informed decisions.
The National Climatic Data Center has led the annual effort to assemble the State of the Climate Report for the last 12 years. In that
time, the number of contributing authors has grown from 13 in 2001 to 378 authors from every continent in 2012. Each year the report
reaches a broader audience as an increasing number of businesses, groups, and individuals gather ever-growing interest and concern
in the climate. Educators also use this report as a tool to teach students about various aspects of climate and climate change.

Explaining Extreme Events of 2011 from a Climate Perspective

A National Climatic Data Center scientist along with colleagues from the UK Met Office Hadley Centre and the NOAA Office of Program
Planning and Integration authored a paper entitled “Explaining Extreme Events of 2011 from a Climate Perspective.” The paper was
published in the Bulletin of the American Meteorological Society and explains how the odds of extreme events have changed in response




  112                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                           P E R F O R M A N C E S E C T I O N • T H E M E 13




to global warming. Currently, scientists find attributing single extreme events to human-induced climate change very challenging. In the
past, scientists often stated that it simply was not possible to say whether an individual weather or climate event could be attributed
to climate change. However, scientists now widely accept that attributing individual weather or climate events to climate change is
possible, if the probabilistic nature of doing so is properly taken into account. This paper explains which of several specific extreme
events of 2011 can be attributed to human-induced climate change. By developing the ability to put recent extreme weather or climate
events into the longer-term context of climate change, scientists can provide the public with the information needed to make decisions
to effectively minimize and prepare for the impacts of these variations and changes in the climate system.

New Regional Climate Science Collaborations in Alaska, California-Nevada, and the Carolinas

NOAA established three new Regional Integrated Sciences and Assessments (RISA) collaborations in Alaska, California-Nevada, and
the Carolinas. The three new awards include the Alaska Center for Climate Assessments and Policy (ACCAP – University of Alaska-
Fairbanks), the California-Nevada Applications Program (CNAP – Scripps Institution of Oceanography), and the Carolinas Integrated
Science and Assessments program (CISA – University of South Carolina). All three institutions will address issues expressed by regional
decisionmakers and will conduct research efforts collaboratively with other universities and research organizations. The ACCAP center
will focus on coastal and living marine resources with potential topics including sea ice extent and the vulnerability of coastal infra-
structure to storms. CNAP will address water supply, planning and preparedness for wildfires, and coastal management. The CISA
project addresses early warning and preparedness for drought, groundwater vulnerability to saltwater intrusion, and shellfish pathogens.
The teams will support dialogue between scientists and decisionmakers through which social scientists and outreach experts can
evaluate the use of climate information.


                                                   SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                               PERFORMANCE MEASURE (NOAA)                                           TARGET         ACTUAL         STATUS
 U.S. temperature forecasts (cumulative skill score computed over the
                                                                                                     21              28           Exceeded
 regions where predictions are made)
 Uncertainty in the magnitude of the North American (NA) carbon uptake                         0.40 GtC/year   0.40 GtC/year        Met

 Error in global measurement of sea surface temperature                                             0.50ºC         0.56ºC          Not Met

 Annual percentage of U.S. states and territories that use NOAA climate
 information and services to improve decision-making in the face of a                               22%             22%             Met
 changing climate
 1	   Pending final data and verification and validation.




F Y   2 0 1 2     P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          113
PERFORMANCE SECTION • THEME 3
                            1




F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        ERROR IN GLOBAL MEASUREMENT OF SEA SURFACE TEMPERATURE (NOAA)
                  The primary reason for the increase is the residual effect of the unexpected short life spans for some batches of
                  drifters. While correction procedures have been in place and more drifters have been deployed since April 2012
 Explanation      by the Global Drifter Program, deployments are lacking in the Southern Ocean during the Southern Hemisphere
                  winter season. Combined with the times required for the deployed drifters to disperse to other areas from the
                  deployment points, this resulted in more data gaps particularly in the Southern Ocean regions.
                  With the planned enhanced deployment for the Southern Ocean region as the warmer Southern Hemisphere
 Action           seasons come, combined with the farther spread of last season's deployed drifters, NOAA anticipates that the
                  sea surface temperature GPRA results will improve.




                                                        OBJECTIVE 17

                      Develop sustainable and resilient fisheries, habitats, and species (NOAA)


                                                      PUBLIC BENEFITS



 O     cean and coastal ecosystems provide many important human benefits, including nourishment, recreational opportunities, and
       support for U.S. economies. Yet ocean and coastal resources, stressed by human uses and habitat changes, are experiencing
depleted fish and shellfish stocks, increased numbers of species at-risk and declining marine, coastal, and Great Lakes biodiversity.
Since humans are an integral part of the ecosystem, these declines in ocean and coastal ecosystem functions and quality directly
impact human health and well being. Global demands for seafood, recreational use of the marine environment, and other pressures
on habitats and over-exploited species are expected to increase as a result of long-term environmental, climate, and population
trends. Depleted fish stocks and declines in iconic species such as killer whales, salmon, and sea turtles result in lost opportunities
for employment, economic growth, and recreation along the coasts. In addition, climate change impacts to the ocean such as sea
level rise, acidification, and warming will alter habitats and the relative abundance and distribution of species as well as the produc-
tivity of coastal and marine ecosystems. This will affect recreational, economic, and conservation activities, as concerns about the
sustainability of ecosystems and safety of seafood rise commensurately.

By working toward the long-term sustainability of all species, NOAA will also ensure that seafood is a safe, reliable, and affordable
food source for present and future generations; that both consumptive and non-consumptive uses of living marine resources, including
seafood production and recreational fishing opportunities, continue to support vibrant coastal communities and economies; and that
species of cultural and economic value can flourish. Restoration of species that have declined to the point where, without intervention,
they would simply die out does not occur overnight; it often requires a substantial amount of time to restore their natural habitat and
their depleted levels. Native species also can be affected by the inadvertent introduction of invasive species, often through the shipping
industry or through direct human release of such species. NOAA defines them as “aquatic and terrestrial organisms and plants that
have been introduced into new ecosystems (i.e., Great Lakes, San Francisco Bay, Florida, Hawaii) throughout the United States and
the world and are both harming the natural resources in these ecosystems and threatening the human use of these resources.”
Examples of recent invasive species include zebra mussels and snakeheads. NOAA will ensure that the ocean, estuarine, and related
ecosystems and the species that inhabit these ecosystems are vibrant and sustainable in the face of these challenges. An ecosystem-




  114                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 13




based approach to management that accounts for the complex connections between organisms (including humans); their physical,
biotic, cultural, and economic environments; and the wide range of processes that control their dynamics will assist policymakers by
giving them a stronger understanding of these systems and allowing them to weigh trade-offs between alternative courses of action.



ACHIEVEMENTS

Major Management Milestone Reached for U.S. Fisheries

On June 29, 2012, NOAA achieved a significant milestone by approving the final Fishery Management Plan amendment to put annual
catch limits and accountability measures into place. To prevent and end overfishing in the United States, the Magnuson-Stevens
Reauthorization Act requires that all federal fisheries be harvested under annual catch limits with accompanying accountability
measures. During the next few years, as NOAA continues to manage fisheries under annual catch limits and completes new scientific
stock assessments, it expects to confirm that overfishing has ended and depleted stocks are rebuilding to higher levels of abundance.
Ending overfishing and rebuilding stocks are an investment in the long-term viability of the Nation’s fisheries and fishing communities.
NOAA commends the fishermen and communities impacted by these management changes for their commitment and participation in
making U.S. fisheries among the most responsibly managed in the world.

Record Number of Stocks Rebuilt, Improving the Nation’s Fisheries

By the close of 2011, NOAA had declared six fish stocks rebuilt—the most in a single year—and overall results showed a decrease in
the number of both overfished stocks and stocks experiencing overfishing. Between December 31, 2010, and December 31, 2011,
the number of overfished stocks dropped from 48 to 45, and the number of stocks experiencing overfishing dropped from 40 to 36.
These results underscore the strength of NOAA’s science-based management process and clearly demonstrate that the Agency is
actively turning the corner on ending overfishing and rebuilding the Nation’s fisheries.

Positive Results from First Year of Innovative Catch Shares Program for West Coast Groundfish

Final figures for the 2011 fishing year for the West Coast Groundfish Fishery showed successful fishing under the catch share system
as reflected in a year-round fishery based on the business decisions of fishermen. In 2011, annual revenues were up by 14 percent
in the non-whiting portion of the shoreside fishery compared to the historical average. Shoreside whiting landings and revenue both
increased dramatically, with landings up by 40 percent and revenues up by 121 percent compared to the historical average. Buttressed
by high sablefish prices and a large whiting quota, revenues in the combined fishery reached higher than average levels. These sectors
combined reached a total of $54 million in 2011 compared to the 2006-2010 average of $38 million. NOAA scientists also support the
fishery with timely information on fish stocks and retention. These results are promising for the groundfish resource, the fishermen,
and their communities.

NOAA’s Transformed Law Enforcement Provides Benefits for Protected Species, Marine Resources,
and Constituents

The transition of NOAA’s Office of Law Enforcement toward a more holistic approach that combines focused and effective criminal
enforcement with more extensive compliance assistance, monitoring, patrols, and inspections has yielded benefits for protected
species, marine resources, and constituents. For the first time, NOAA took a collaborative approach to creating its enforcement
priorities, reaching out to commercial and recreational fishermen, fishery management councils and interstate commissions, federal
and state enforcement partners, nongovernmental organizations, and others. As a result, NOAA adjusted the composition of its
workforce such that a better balance exists between special agents and enforcement officers.



F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  115
PERFORMANCE SECTION • THEME 3
                            1




As an example of this successful approach, NOAA has made significant progress protecting endangered sea turtles. In the wake of
high levels of sea turtle strandings in the Gulf of Mexico (525 documented in 2011 and 350 documented through July 15, 2012), NOAA
inspected 240 shrimp trawl vessels for Turtle Excluder Device (TED) compliance from October 2011 through May 2012 and discovered
79 vessels with noncompliant TEDs. While this effort resulted in multiple warnings and violations as well as one civil penalty, NOAA
personnel also helped many shrimpers comply with the TED requirements, correcting improperly installed TEDs, investigating reports
of incorrect TED construction, and educating the industry on TED requirements.

NOAA Restores Access to Valuable Fish Habitat

NOAA worked with state and federal agencies and nongovernmental partners to open rivers and streams for fish and other species
by removing barriers to fish passage while supporting national infrastructure and energy projects that promote economic growth.
Mitigating the negative impacts of dams and other obstacles, such as water supply and diversion structures, is an important strategy
for allowing migratory fish populations to return to their spawning grounds. NOAA contributions to partner programs will open more
than 1,000 river miles with benefits for fish and entire riverine, coastal, and marine ecosystems. Important examples include:

●● The removal of the Great Works dam on the Penobscot River in Maine;

●● A new fish passage facility at the Savannah River’s New Savannah Bluff Lock and Dam in South Carolina;

●● Mitigation for the relicensing of the Toledo Bend Hydro Project on the Sabine River in the Gulf of Mexico river basin;

●● Fish passage facilities negotiated by NOAA and partners at the Goose Creek Dam above Charleston, SC; and

●● Large-scale dam removal projects on the Elwha and White Salmon rivers in Washington State.


Historic Sockeye Returns in Columbia River Basin

In 2012, the number of sockeye salmon passing Bonneville Dam was the highest in more than seven decades. Over 514,000 sockeye
passed the dam in 2012, up from 386,000 in 2010. The average count for 2008 to 2012 was 295,000 fish. This increased abundance
is even more impressive since the majority of these fish are wild fish from the Okanogan River, which pass nine mainstem dams, and
Lake Wenatchee, which pass seven mainstem dams. High survival rates of in-river migrating smolts in recent years demonstrate
positive impacts from recent improvement to fish passage and hydrosystem operations. For example, survival rates in 2010 and
2011 between Rock Island and Bonneville dams—a six-dam reach—were estimated at about 49 percent and 51 percent, respectively.
Survival estimates in earlier low flow years (similar to 2010) were much lower: 15 percent in 2002 and 16 percent in 2005.

NOAA Protects Atlantic Sturgeon

On February 6, 2012, NOAA announced its decision to list five populations of Atlantic sturgeon along the U.S. East Coast under the
Endangered Species Act (ESA): four as endangered and one as threatened. This listing follows a formal status review of Atlantic
sturgeon in 2007 conducted by biologists from NOAA, the U.S. Geological Survey, and the U.S. Fish and Wildlife Service. Because the
ESA requires consultation on actions that might affect listed species, and several Northeast fisheries are either known, or have the
potential, to interact with Atlantic sturgeon, the listing triggered the need to analyze the effects on those fisheries. NOAA is working
closely with partner agencies to gather the information necessary to fully assess the impacts of these fisheries on Atlantic sturgeon.
Working with the New England and Mid-Atlantic Fishery Management Councils, NOAA is also identifying measures to minimize the




  116                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                         P E R F O R M A N C E S E C T I O N • T H E M E 13




impacts of these fisheries on Atlantic sturgeon as necessary. All nine planned fishery consultations should be finished by the end of
2012. The National Resources Defense Council petitioned NOAA to list Atlantic sturgeon and designate critical habitat under the ESA
on October 6, 2009.

NOAA Achieves Key U.S. Goals in International Fora

NOAA made key contributions toward improving international management of marine resources. NOAA led the U.S. delegation to
the 2012 Annual Meeting of the Inter-American Tropical Tuna Commission (IATTC) and was key to achieving a landmark international
agreement that, for the first time ever, establishes catch limits for bluefin tuna in the Eastern Pacific. The IATTC adopted a catch
limit of 10,000 metric tons and agreed to request that the Western and Central Pacific Fisheries Commission adopt similar measures.
These catch limits are an essential step toward the sustainable management of this highly prized fish in the Pacific Ocean.

Improving Coastal Resiliency and Creating Jobs

The National Marine Fisheries Service awarded a $45 million construction contract funded by the Coastal Wetlands Planning,
Protection and Restoration Act Program to restore two miles of Gulf of Mexico shoreline and 500 acres of coastal habitats on Louisi-
ana’s Pelican Island. The project largely completes a 15-year effort led by NOAA in partnership with Louisiana to restore over 12 miles
of critically eroding barrier shoreline in the Barataria Basin, one of the Nation’s most productive estuaries. That effort has created and
protected 2,200 acres of coastal habitats while improving protection for significant energy supply infrastructure and maintaining the
“first line of defense” against storm surge. The Pelican Island project uses over four million cubic yards of sediments (equivalent to
filling 80 percent of the Louisiana Superdome) to re-create dune, salt marsh and other habitats important to Gulf of Mexico marine
resources. Project construction is about 50 percent complete, with over 70 private sector employees providing a wide variety of
marine construction, skilled labor, and supporting services. This project is part of NOAA’s nationwide effort to ensure healthy habitats
that sustain resilient and thriving marine resources and communities.


                                                SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                             PERFORMANCE MEASURE (NOAA)                                           TARGET              ACTUAL            STATUS
 Fish stock sustainability index (FSSI)                                                           603.5                 606                Met

 Percentage of fish stocks with adequate population assessments                                    57.4%               56.1%
                                                                                                                                      Slightly Below
 and forecasts                                                                                   (132/230)           (129/230)
 Number of protected species with adequate population assessments                                 20.6%               20.9%
                                                                                                                                           Met
 and forecasts                                                                                   (78/378)            (79/378)
 Number of protected species designated as threatened, endangered,
                                                                                                    28                   29                Met
 or depleted with stable or increasing population levels
 Number of habitat acres restored (annual)                                                        80,007              8,2421            Exceeded
 1	   Acres restored with funding from the Pacific Coastal Salmon Recovery Fund were not available at the time of publication. The acres shown
      were restored with Habitat Program funding, which exceeded the target of 6,007.




F Y   2 0 1 2    P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                                 117
PERFORMANCE SECTION • THEME 3
                            1




F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE       PERCENTAGE OF FISH STOCKS WITH ADEQUATE POPULATION ASSESSMENTS AND FORECASTS (NOAA)
                 The target of 57.4% or 132 stocks with adequate population assessments was missed by three stocks as a result
                 of the following:
                 ●● Two new assessments (cobia and Spanish mackerel) have been completed but not yet fully reviewed and
                     approved. They were delayed by the decision to include 2011 data and the need to revise the model, and
                     the process was slowed by the workload of the scientific staff.
                 ●● One new assessment did not meet the adequacy requirements due to data limitations. The stock in
 Explanation
                     question (skipjack tuna) is an international stock, and the survey was conducted by the Inter-American
                     Tropical Tuna Commission, so data from multiple nations were required, and NOAA was not in charge of
                     the assessment process.
                 ●● One existing assessment (blue king crab) was determined to be invalid due to problems with the
                     assessment model. This effort was led by the Alaska Department of Fish and Game so NOAA was not
                     in charge of the schedule for revision of the model.
                 The delayed assessments for cobia and Spanish mackerel are expected to be completed in second quarter
 Action          FY 2013. The revised model for blue king crab was accepted in September 2012 and will be fully implemented
                 and the assessment finalized during FY first quarter FY 2013.



HISTORICAL TRENDS

Although the shortfalls in both FY 2011 and FY 2012 were largely related to individual assessment events, steps are being taken to
address larger issues to ensure that this pattern does not turn into an ongoing negative trend. These issues include the loss of days at
sea and the demand for increased frequency of assessments that are already adequate, especially in the Northeast. Individual Science
Centers are working with their respective Regional Fishery Management Councils to revise assessment processes and get more stock
assessments onto an expedited update schedule and streamlined review in lieu of full benchmark assessments.




                                                       OBJECTIVE 18

          Support coastal communities that are environmentally and economically sustainable (NOAA)


                                                     PUBLIC BENEFITS



 C    oastal areas are among the most developed in the Nation, with over half the population living on less than one-fifth of the land
      in the contiguous United States. At over 230 persons per square mile, the population density of the near shore is three times
that of the Nation as a whole. The portion of the U.S. economy that depends directly on the ocean is also large, with 13 million
U.S. jobs provided by the water and transportation industry and over $800 billion in domestic trade added to the national economy
in 2010. Approximately 90 million people support the travel and tourism industry along U.S. coasts every year. With its Exclusive
Economic Zone of 3.4 million square miles, the United States manages one of the largest marine areas of any nation in the world.
While an increasing range of uses will allow coastal communities to create diverse ocean-based economies, care must be taken to
ensure continued access to coastal areas and sustained ecosystems services.




  118                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 13




The complex interdependence of ecosystems and economies will grow with increasing uses of land, marine, and coastal resources,
generating economic and environmental pressures that bear particularly heavily on the Nation’s coastal communities. Maritime-
dependent economies will expand in all Exclusive Economic Zone areas and coastal economies will be highly dependent on safe and
efficient transportation of people and goods.

At the same time, these ecosystems will be increasingly vulnerable to environmental disruptions, such as harmful algal blooms, that
can weaken coastal economies and communities by killing fish and closing beaches. Shifting patterns in weather and climate will
result in coastal communities, urban centers, and economic sectors relying more heavily upon geospatial and other environmental
information. The Nation’s profound need for alternative energy solutions will result in more competition for land and ocean resources,
adding additional challenges to sustaining environmentally and economically sustainable coastal and Great Lakes communities.

No single region better exemplifies the complex interdependence of communities and changing climate and ecosystem conditions than
the Arctic. There is evidence of widespread, dramatic change in the Arctic region, with local to global implications. National security
concerns are increasing as reductions in sea-ice bring opportunities for economic development and increased access to Arctic
resources. The breadth and complexity of the cultural, societal, economic, and environmental impacts within this region requires a
concerted, systematic, and rapid effort with partners from local to international levels.

NOAA works with its partners to achieve a balance between the use and protection of these resources to ensure their sustainability,
health, and vitality for the benefit of this and future generations and their optimal contribution to the Nation’s economy and society.
Marine planning is a comprehensive management approach that is designed to support sustainable uses and ensure healthy and
resilient ocean and coastal ecosystems. In some areas, NOAA and its partners collaboratively protect and manage critical coastal
and ocean ecosystems. The National Ocean Service worked with states and localities to ensure accurate shoreline data for efficient
debris cleanup.

NOAA will invigorate coastal communities and economies and lead to increased resiliency and productivity. Comprehensive planning
will address competing uses to protect coastal communities and resources from the impacts of hazards and land-based pollution on
vulnerable ecosystems, as well as to improve water quality and foster integrated management for sustainable uses. Geospatial services
will support communities, navigation, and economic efficiency with accurate, useful characterizations, charts and maps, assessments,
tools, and methods. Coastal decisionmakers will have the capacity to adaptively manage coastal communities and ecosystems with
best available natural and social science. Enabling this goal are strong collaborative partnerships with regional, state, and local private
and public entities that have responsibilities and interests in managing coastal communities and ecosystems. Close collaboration
across goals will ensure success in meeting NOAA’s strategic priorities.

NOAA’s Marine Transportation System (MTS) spans ports and inland waterways across U.S. coastal waters and oceans to support
commerce, recreation, and national security. MTS supports the Nation’s economy, with more than 78 percent by weight and 95 percent
by volume of U.S. overseas trade carried by ship. By 2020, the value of domestic maritime freight is forecasted to nearly double.
MTS is increasingly vulnerable to natural and human-caused disruptions, potentially impacting the viability of the economy. Increased
maritime activity can stress sensitive marine and freshwater environments and increase the risk of maritime accidents. Improving the
reliability and resilience of MTS will decrease risks to the economy and the environment.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     119
PERFORMANCE SECTION • THEME 3
                            1




ACHIEVEMENTS

NOAA Responds to Changing Conditions in Alaska and the Arctic

As sea ice continues to disappear at a rapid rate, vessel traffic in the Arctic has begun to rise. This is leading to new maritime concerns,
especially in areas increasingly transited by the offshore oil and gas industry, cruise liners, military craft, tugs and barges, and fishing
vessels. Keeping all of this new ocean traffic moving smoothly is important to the U.S. economy, environment, and national security.
In 2012, NOAA released a new nautical chart for Kotzebue Harbor and Approaches, addressing a pressing need for the Arctic regional
transportation hub in Northwest Alaska. The new chart’s accurate and precise depth measurements (previously charted in the 1800s)
will make ocean-going vessel traffic more efficient through Northwest Alaska.

NOAA’s Mapping and Charting Data, Products, and Services—Foundation for Applications in United States
and Abroad (e.g., United Kingdom)

NOAA produces, updates, and maintains the Nation’s suite of nautical charts, other public and private groups access and repackage
the charts for sale. This year NOAA and the United Kingdom Hydrographic Office signed an agreement to repackage the NOAA charts
and improve the distribution of these charts, especially those vessels that use UK Admiralty series. NOAA’s electronic navigational
charts (NOAA ENC®) that cover the approaches to the East Coast now alert mariners when they are approaching Right Whale seasonal
management areas, giving them better information to plan to reduce their speeds or avoid the areas altogether. The ENCs also provide
for an alarm on the ship’s electronic chart display and information system as vessels enter the speed zone, further alerting the bridge
watchstander of speed restrictions. NOAA’s nautical charts are the backbone of today’s modern computer navigation systems, both on
the bridges of the largest commercial vessels and in the wheelhouses of countless boats that line local marinas from coast to coast.
To continue to provide accurate nautical charting information, the FERDINAND R. HASSLER, a state-of-the-art coastal mapping vessel
was recently commissioned. Ocean transportation contributes more than $742 billion to the national economy, and NOAA’s effort to
improve efficiencies benefits communities and industries that rely on maritime trade.

Record-Breaking Harmful Algal Bloom Forecasts in Texas and Lake Erie Algae Helps Businesses Prepare
and Mitigate Impacts

Harmful algal bloom (HAB) forecasters at the Center for Operational Oceanographic Products and Services (CO-OPS) issued
a final forecast in mid-February for a HAB that severely impacted the Texas coast and coastal bays over the past five months.
Karenia brevis bloom or “red tide” may have been the longest lasting and one of the largest, extending from the southern tip of
Texas to Galveston Bay. The Houston Chronicle reported preliminary costs to the Texas shellfish industry alone at $7 million due
to this past season’s HAB-related closures. Fortunately, HAB forecasts for Texas were transitioned from a research application,
developed by the National Centers for Coastal Ocean Science, to routine and reliable operations at NOAA’s CO-OPS just one year
prior to the onset of this devastating bloom. NOAA and partners announced a new seasonal HAB forecast for Lake Erie during an
event hosted by Ohio State University Sea Grant’s Stone Laboratory. The seasonal forecast supplements a weekly, near-real-time
forecast that helps water treatment plant operators know when to use extra carbon filtration to preserve the quality of lakeside
communities’ drinking water.

New Sanctuary Exploration Center in Santa Cruz Expected to Serve 150,000 Visitors a Year

NOAA’s Monterey Bay National Marine Sanctuary, the City of Santa Cruz, and the National Marine Sanctuary Foundation opened the
Sanctuary Exploration Center, a state-of-the-art facility full of interpretive and hands-on exhibits highlighting the sanctuary’s extraordinary
natural and cultural resources. More than 150,000 visitors a year are expected. The National Marine Sanctuary Foundation brought in




  120                                              F Y   2 0 1 2   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                   P E R F O R M A N C E S E C T I O N • T H E M E 13




over $3 million in private and public monies to fund the exhibits, which include the Exploration Theater, a walk through a kelp forest, an
intertidal interactive display, an open-ocean mini-theater, and a replica deep-sea canyon with a remotely operated vehicle. Just steps
from the ocean, the two-story, 12,387-square foot center located in Santa Cruz’s famed beach area, educates visitors as they learn
about NOAA’s National Marine Sanctuary system, ocean conservation partners, and the vital role citizens play as ocean stewards.
The Sanctuary Exploration Center also serves as a starting point for visitors to experience other facilities and on-the-water activities.
NOAA and the City of Santa Cruz specified the project to be a model for sustainable, environmentally sensitive design, construction, and
operation. The Sanctuary Exploration Center implemented multiple strategies during the construction process using U.S. Green Building
Council’s LEED criteria. The Sanctuary Exploration Center was built with the highest of green standards and is currently pursuing
certification for a Gold rating.

Regional Operational Forecast System Available for the Northern Gulf of Mexico

NOAA’s Office of Coast Survey and CO-OPS expanded the suite of operational Nowcast and forecast hydrodynamic models by
unveiling the new Northern Gulf of Mexico Operational Forecast System developed with the NWS’s National Centers for Environ-
mental Prediction and the University of Massachusetts-Dartmouth. The system is NOAA’s first regional ocean model, encom-
passing the shelf and coastal areas from Pensacola, FL to Corpus Christi, TX. These forecasts support mariners, port managers, and
emergency response teams with present and future conditions of water levels, currents, wind, temperature, and salinity. The model
includes spatial animations and time series for each parameter at nearly 100 stations across the entire Northern Gulf of Mexico region.
NOAA’s new Gulf of Mexico Disaster Response Center creates an unprecedented regional presence and expands federal capacity to
plan for and respond to hazards in the Gulf of Mexico. In addition to the Office of Response and Restoration, the Disaster Response
Center will house staff from the Office of Coast Survey, National Marine Fisheries Service, and NWS. The Disaster Response Center
not only includes offices, a training room, and conference rooms, but also a large multifunction space which can be used for large
trainings, meetings, emergency response operations, and drills. Training curriculum is being designed to expand the cadre of NOAA
responders in the region and build a broader trained and educated response partnership across NOAA.

Coral Reef Program Collaborates on Monitoring, Mapping, and Education Efforts

In 2012, NOAA’s Coral Program addressed climate-related risks to coral reefs by establishing ocean acidification monitoring equipment
in one-third of the six Coral Triangle countries to support the U.S. Agency for International Development’s U.S. Coral Triangle Initiative.
In addition, the program advanced near-real-time satellite monitoring of ocean temperatures to provide higher spatial resolution
products to more accurately predict mass coral bleaching events and monitor thermal stress at scales specific to coral reefs. To further
support marine protected area management capacity and address/reduce impacts of land based sources of pollution, NOAA’s Coral
Program responded to a request from Puerto Rico’s Coastal Zone Management Program and partnered with the Caribbean Fisheries
Management Council, the U.S. Coast Guard, and academia to map Puerto Rico’s Northeast Great Reserve, a recently established
marine protected area. The program also launched NOAA Reef Smart in Puerto Rico, an education initiative designed to engage
students, stakeholders, and policymakers and increase their awareness of NOAA’s coral reef ecosystem research. The Reef Smart
initiative also helped foster discussions about ways NOAA’s existing technology, data, and expertise can be leveraged to support the
needs of local managers in coral reef priority areas.

Historic 19th Century Shipwreck Discovered in Northern Gulf of Mexico

During a 2012 expedition in the Gulf of Mexico, NOAA Research, Department of Interior’s Bureau of Ocean Energy Management,
and partners discovered a historic wooden-hulled vessel which likely sank at least 200 years ago. Scientists on NOAA’s OKEANOS
EXPLORER ship used underwater robots with lights and high definition cameras to view remnants of the wreck: anchors, navigational
instruments, glass bottles, ceramic plates, cannons, and boxes of muskets. Equipped with telepresence technology, OKEANOS
EXPLORER reached audiences around the world who participated in the expedition through live streaming Internet video.



F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     121
PERFORMANCE SECTION • THEME 3
                            1




High Frequency Radar Efforts Advance Globally and Technically

The Group on Earth Observations recently launched an effort to develop a global High Frequency Radar (HFR) network, with short and
long-term deliverables. HFR systems measure surface current speed and direction in near real time to benefit search and rescue,
oil spill response, harmful algal bloom monitoring, water quality assessments, ecosystem assessments, and fisheries management.
Long-term goals of the global effort include: make HFR data available in a single, standardized format in near real time; develop a
worldwide quality assurance and control standard; develop easy-to-use standard products; assure HFR data assimilation in ocean and
ecosystem modeling; and develop emerging uses of HFR in the areas of ecosystem, tsunami, and climate.

NOAA-Funded Researchers Find Caffeine in Pacific Northwest Coastal Waters

A July 2012 NOAA-funded study reveals that traces of caffeine in Pacific Northwest waters point to septic tanks and sewer overflows
as likely source. Results of the study, funded in part by Oregon Sea Grant and NOAA, were published in the Marine Pollution Bulletin.
This research, the first to look at caffeine contamination off the Oregon coast, found elevated levels of caffeine at several sites in Pacific
Ocean waters off the coast of Oregon—though not necessarily where researchers expected. The study found high caffeine levels
near Carl Washburne State Park in Florence, and at Cape Lookout—two areas not near the potential pollution sources. Meanwhile,
the researchers also measured low levels of caffeine near large population centers like Astoria/Warrenton and Coos Bay. They also
found that caffeine levels spiked following a late-season storm of wind and rain that triggered sewer overflows. The results suggest
that wastewater treatment plants are effective at removing caffeine, but that high rainfall and combined sewer overflows flush the
contaminants out to sea. The results also suggest that septic tanks, such as those used at the state parks, may be less effective at
containing pollution.




  122                                              F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                        P E R F O R M A N C E S E C T I O N • T H E M E 13




                                               SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.

                            PERFORMANCE MEASURE (NOAA)                                          TARGET             ACTUAL            STATUS
 Annual number of coastal, marine, and Great Lakes ecological
                                                                                                  51                   51               Met
 characterizations that meet management needs
 Cumulative number of coastal, marine, and Great Lakes issue-based
                                                                                                  55                   58               Met
 forecasting capabilities developed and used for management
 Percentage of tools, technologies, and information services that are used by
                                                                                                  88%                88%                Met
 NOAA partners/customers to improve ecosystem-based management
 Annual number of coastal, marine, and Great Lakes habitat acres acquired
                                                                                                69,550           8,694,0701          Exceeded
 or designated for long-term protection
 Percentage of U.S. coastal states and territories demonstrating 20% or
 more annual improvement in resilience capacity to weather and climate                            34%                46%             Exceeded
 hazards (%/year)
 Hydrographic survey backlog within navigationally significant areas (square
                                                                                                 2,200              2,947               Met
 nautical miles surveyed per year)
 Percent of U.S. and territories enabled to benefit from a new national
                                                                                                20.0%               23.9%               Met
 vertical reference system for improved inundation management
 1	   Acres acquired or designated was exceeded due to the expansion of the Fagatele Bay National Marine Sanctuary in American Samoa to include
      five additional discrete sites. A total of 8,691,840 acres make up the sanctuary expansion.




                                          T H E M E 3 P R O G R A M E VA L U AT I O N S


The following program evaluations were conducted on programs related to this theme in FY 2012.

  BUREAU           REVIEWER                    NAME OF EVALUATION                         DATE                        WEB SITE
 NOAA            GAO                Endangered Sea Turtles: Better Coordi-               1/2012          www.gao.gov
                                    nation, Data Collection, and Planning
                                    Could Improve Federal Protection and
                                    Recovery Efforts




F Y   2 0 1 2    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                              123
PERFORMANCE SECTION • THEME 3
                            1




 124                      F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
THEMES 4, 5, and 6
M anagement Themes
                         T H E M E S , S T R AT E G I C G O A L S , A N D O B J E C T I V E S
THEME 4: CUSTOMER SERVICE
Strategic Goal: Create a culture of outstanding communication and services to our internal and external customers

Objective 19       Provide streamlined services and a single point of contact assistance to customers, improving
                   interaction and communication through CommerceConnect, partnerships, and other means of
                   stakeholder involvement (DM)

Objective 20       Promote information access and transparency through the use of technology, fuller understanding
                   of customer requirements, and new data products and services that add value for customers
                                                                                                      TARGETS(DM)
                                                                                                               MET
                      S T R AT E G I C G O A L S A N D O B J E C T I V E S                               OR EXCEEDED
Objective 21      Provide a high level of customer service to our internal and external customers through effective
Strategic Goal: xxx
                  and efficient functions implemented by empowered employees (DM)
Objective
THEME 5:xx ORGANIZATIONAL
              xxx         EXCELLENCE                                                                          x of x

Objective
Strategic xx     xxx a high-performing organization with integrated, efficient, and effective servicex delivery
          Goal: Create                                                                                 of x

Objective
Objective xx
          22       xxx                                                                                        x of x
                   Strengthen financial and non-financial internal controls to maximize program efficiency, ensure
                   compliance with statutes and regulations, and prevent waste, fraud, and abuse of government
                   resources (DM, OIG)

Objective 23       Re-engineer key business processes to increase efficiencies, manage risk, and strengthen
                   effectiveness (DM)

Objective 24       Create an IT enterprise architecture that supports mission-critical business and programmatic
                   requirements, including effective management of cyber security threats (DM)

THEME 6: WORKFORCE EXCELLENCE
Strategic Goal: Develop and support a diverse, highly qualified workforce with the right skills in the right jobs
to carry out the Department’s mission

Objective 25       Recruit, grow, develop, and retain a high-performing, diverse workforce with the critical skills
                   necessary for mission success, including the next generation of scientists and engineers (DM)

Objective 26       Create an optimally-led Department by focusing on leadership development, accountability, and
                   succession planning (DM)

Objective 27       Provide an environment that empowers employees and creates a productive and safe
                   workforce (DM)
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




                           MANAGEMENT THEMES (THEMES 4, 5, AND 6)




 B 
          
         elow is a summary of the following three management themes: Customer Service, Organizational Excellence, and Workforce
         Excellence. After this summary are individual sections for each of the themes.




 As U.S. society becomes increasingly oriented toward using
electronic means of communication and information dissemi-
nation, federal agencies must ensure that they continue to
be as responsive as possible to the needs of the public, the
private sector, other levels of government, and other federal
agencies.

Departmental Management (DM) must promote leading-edge
technologies, collaboration, and technology transformation
across the Department, ensuring alignment with mission
requirements, goals, and objectives in order to deploy and
maintain systems able to perform at the highest levels.

Achieving organizational and management excellence is a goal
that requires extensive interaction and coordination among
entities throughout the Department. DM—consisting of the
Offices of the Secretary, Deputy Secretary, Chief Financial



F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      127
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




Officer (CFO) and Assistant Secretary for Administration (ASA), Chief Information Officer (CIO), and General Counsel—provides
the policies and guidelines that support the management infrastructure the Department needs to carry out its mission.

The Department must have the capacity to do business with the public and its partner agencies, as both a more than $8 billion
worldwide enterprise, and an integrated set of individual programs. This requires that it identify, adopt, and maintain business
practices essential to successful operations; use its resources wisely; and effectively implement the laws that affect it.
In order to ensure the accomplishment of its mission, the Department has developed and put into place policies and programs
designed to enable the successful operation of its units, the effective and efficient use of both material and human resources,
and the implementation of laws and regulations that govern the use of those resources.




 128                                          F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




                                         THEME 4:            CUSTOMER SERVICE


Strategic Goal: Create a culture of outstanding communication and services to our internal
and external customers




 T   his strategic goal is comprised of the following three objectives which contribute to the Secretary’s theme of Customer Service
     and all of which are associated with DM.

                                                        OBJECTIVE 19
      Provide streamlined services and a single point of contact assistance to customers, improving interaction and
      communication through CommerceConnect, partnerships, and other means of stakeholder involvement (DM)



                                                        OBJECTIVE 20
      Promote information access and transparency through the use of technology, fuller understanding of customer
                     requirements, and new data products and services that add value for customers (DM)



                                                        OBJECTIVE 21
                Provide a high level of customer service to our internal and external customers through effective
                              and efficient functions implemented by empowered employees (DM)



The following public benefits, achievements, and performance results are associated with each objective.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      129
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




                                                     PUBLIC BENEFITS



T    hrough its CommerceConnect initiative, the Department provided a one-stop approach to expose businesses to the array of
     programs, services, and data available from the federal government. CommmerceConnect teamed up with partner bureaus,
and other federal and local agencies to develop and improve the delivery of programs that met business needs, and identified
existing programs to better target areas of business needs.

CommerceConnect acted as a one-stop touch point for the entire Department by matching businesses and referring them to the
Department’s more than 70 programs, services, and resources. The goal was simple: help emerging entrepreneurs and established
companies around the country overcome challenges, exploit opportunities, and connect to the right resources to advance their
objectives.

The Department initiated CommerceConnect to transform government and breakdown bureaucratic silos. The initiative fostered
customer service to U.S. business enterprises and interagency collaboration. CommerceConnect provided assistance to U.S.
businesses through a Web-based portal, call center, stand alone field office, and bureau field offices. The assistance portals were
fully integrated with a customer relationship management system to track customer service and performance metrics, respecting
business privacy.



ACHIEVEMENTS

On October 28, 2011, the President issued a memorandum entitled, “Making it Easier for America’s Small Businesses and America’s
Exporters to Access Government Services to Help Them Grow and Hire” and directed the adoption of a “No Wrong Door” policy that
uses technology to quickly connect businesses to the services and information relevant to them, regardless of which agency’s Web
site, call center, or office they go to for help. The President directed the U.S. Department of Commerce and the U.S. Small Business
Administration to lead this federal-wide initiative. CommerceConnect was selected as the Department’s lead unit to oversee the imple-
mentation, development, and operations of BusinessUSA. CommerceConnect maintained limited operations through FY 2012 and
transitioned to become BusinessUSA and oversaw the Program Management Office. The transition began in December 2011 and was
completed by the end of the fiscal year.

BusinessUSA expanded the Department’s customer service initiative. BusinessUSA streamlined access to enterprise assistance
resources across the entire federal government by launching a new online platform, Business.USA.gov, to help small businesses and
exporters of all sizes find information about available federal programs without having to waste time and resources navigating the
federal bureaucracy.

The Business.USA.gov Web site was created with the customer in mind. BusinessUSA reached out to businesses and sought input
as to what they would like to see from a Web site when it comes to finding federal government resources. Their feedback led to the
creation of dynamic functionality in the Business.USA.gov Web site including: robust search engines, five content category “swim”
lanes, dynamic content sorting and filtering, direct contact information for program resources, related resources, discoverable events,
state and local resources, and more.

BusinessUSA combined information and services from 10 different government agencies through one consolidated Web site.
It greatly enhanced the Department’s capability to promote more resources to customers. It also multiplied the number of business-
related resources to nearly 1,000 federal-wide, state and local resources by the end of FY 2012. In addition, over 100 success stories




 130                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




were captured online and nearly 4,000 local business events were captured and promoted via Business.USA.gov. Although the
BusinessUSA Web site was officially launched on February 17, 2012, it had over 1.5 million pages viewed, with nearly 560 thousand
unique visitors, and recorded an average use time of nearly 6.5 minutes on the site.

CommerceConnect also transitioned its former call center operations to a new BusinessUSA Contact Center at 1-800-FED-INFO.
The new contact center is designed to compliment BusinessUSA and support caller questions and emails received. The new contact
center will also implement a phased approach to conducting “warm hand-offs” between the contact center and partner agencies
beginning in FY 2013.

The Department’s participation in BusinessUSA helped improve information sharing to promote open and transparent access to
information generated by the Department and bureaus. The Department fostered a culture of information sharing to promote
outstanding customer service by using new tools, such as social media to provide timely information sharing; providing single point
of contact assistance to customers; and promoting access to information that meets Department customers’ needs.

●● Develop the use of new tools, such as social media, to provide timely information sharing both inside and outside of the
   Department and bureaus. This may be achieved through integration of these tools into existing information dissemination
   processes.

●● Provide single point of contact assistance to customers. This is achieved by understanding customer requirements, communi-
   cating clearly with Department customers, and following up with partners and customers to ensure that customers get the level
   of service they expect.

●● Promote information access. This is achieved by understanding customer requirements, and then applying existing technology as
   well as creating new data products and services to meet customer requirements.

In addition to developing a culture of information sharing and a single point of access for customers, the Department used its open
government initiative to improve transparency, collaboration, and cooperation with the public and across all levels of government.

In seeking to develop a culture which emphasizes outstanding customer service, a variety of strategies were developed and
measured using a strategic planning and management system known as the Balanced Scorecard. The Department-wide strategies
included the following:

●● Provide integrated services and single point of contact assistance to customers. This may be achieved through enhanced stake-
   holder involvement, by means of improved interaction and communication using techniques such as partnerships and branding (see
   Objective 19).

●● Promote information access. This may be achieved by establishing an understanding of customer requirements, and then applying
   existing technology as well as creating new data products and services to deliver added value to customers (see Objective 20).

●● Establish the Department’s open government initiative to improve transparency, collaboration, and cooperation with the public and
   across all levels of government (see Objective 20).

●● Implement BusinessUSA (formerly CommerceConnect) to provide businesses and entrepreneurs with a single source for economic,
   technology, trade, and statistical information (see Objective 19).

●● Re-engineer key business processes in accordance with the President’s Government-wide Hiring Reform Initiative to increase
   efficiencies and strengthen effectiveness (see Objective 25).

●● Improve risk management and reduce Department exposure to high-risk contracts (see Objective 23).




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      131
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




                                             SUMMARY OF PERFORMANCE


The following three measures apply to Objectives 19, 20, and 21.


                           PERFORMANCE MEASURE (DM)                                         TARGET              ACTUAL             STATUS
 Number of referrals made                                                                    1,100                703              Not Met

 Number of companies engaged – field operations                                               400                 401               Met

 Number of existing Commerce field locations                                                   30                  19              Not Met


CommerceConnect reports partial accomplishment of its annual performance goals due to a strategic shift in priorities and objectives
that occurred during FY 2012. CommerceConnect was identified as the Department’s lead unit to oversee the implementation,
development, and operations of BusinessUSA, a new federal-wide initiative.

CommerceConnect began BusinessUSA work assignments on October 28, 2011. It supported itself and BusinessUSA throughout
FY 2012 while executing a progressive shift in work priorities, resulting in a full transition by end of FY 2012. During the transition, staff
continued to serve customers through a new virtual platform at business.usa.gov.

The original performance measures were determined to be insufficient and were no longer tracked prior to mid-year. Subsequently, the
development of new performance measures were initiated and completed by the end of FY 2012.

The table above represents substantive, yet partial year performance achievements for CommerceConnect including:

●● 63 percent of goal accomplished for Number of Referrals Made;

●● 100 percent of goal accomplished for Number of Companies Engaged – Field Operations; and,

●● 63 percent of goal accomplished for Number of Existing Commerce Field Locations.




  132                                              F Y   2 0 1 2   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        NUMBER OF REFERRALS MADE (DM)
                  Strategic transition from CommerceConnect to BusinessUSA occurred during FY 2012. New BusinessUSA
 Explanation
                  performance measures were developed and identified for release in FY 2013.
                  New performance measures and targets established for BusinessUSA and will be reported for FY 2013 and
 Action
                  beyond.
   MEASURE        NUMBER OF COMPANIES ENGAGED – FIELD OPERATIONS (DM)
                  Strategic transition from CommerceConnect to BusinessUSA occurred during FY 2012. New BusinessUSA
 Explanation
                  performance measures were developed and identified for release in FY 2013.
                  New performance measures and targets established for BusinessUSA and will be reported for FY 2013 and
 Action
                  beyond.
   MEASURE        NUMBER OF EXISTING COMMERCE FIELD LOCATIONS (DM)
                  Strategic transition from CommerceConnect to BusinessUSA occurred during FY 2012. New BusinessUSA
 Explanation
                  performance measures were developed and identified for release in FY 2013.
                  New performance measures and targets established for BusinessUSA and will be reported for FY 2013 and
 Action
                  beyond.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      133
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




                             THEME 5:            O R G A N I Z AT I O N A L E X C E L L E N C E


Strategic Goal: Create a high-performing organization with integrated, efficient,
and effective service delivery




 T      his theme is comprised of three objectives which contribute to the Secretary’s theme of Organizational Excellence.
        The following public benefits, achievements, and performance results are associated with each objective.




                                                      OBJECTIVE 22

            Strengthen financial and non-financial internal controls to maximize program efficiency,
                   ensure compliance with statutes and regulations, and prevent waste, fraud,
                                 and abuse of government resources (DM, OIG)


                                                     PUBLIC BENEFITS



 D    M strengthens financial and non-financial internal controls within the Department by conducting the Office of Management
      and Budget (OMB) Circular A-123 financial internal controls assessments annually, performing non-financial management
internal controls reviews on selected sensitive programs, overseeing the development of corrective action plans to address any
identified weakness, and continuously monitoring the progress made on corrective actions.

The Office of Inspector General (OIG) improves Departmental programs and operations through independent and objective oversight
and detects and deters fraud, waste, and mismanagement. As required by statute, the OIG’s annual Top Management Challenges
report presents the Secretary with an objective analysis of the major issues and areas of greatest program risk facing the Department.




 134                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                  P E R F O R M A NPCE ER FSO
                                                                                            ECR TMI A
                                                                                                    ONNC •
                                                                                                         E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                       MDE 16




As part of its mission, the OIG keeps Departmental decisionmakers and Congressional stakeholders informed of longstanding as well
as emerging problems identified through its audits and investigations so that timely corrective action can be taken. In addition to areas
identified in its Top Management Challenges report, the OIG performs audits required by law (such as the Federal Information Security
Management Act of 2002 (FISMA)); of interest to Congress, the Secretary, or the current Administration; and/or based on significant
issues uncovered during a previous review or when a program or office is determined to be higher risk. OIG criminal, civil, and adminis-
trative investigations continue to disclose instances of misconduct by employees, contractors, and grantees that threaten the integrity
of the Department’s programs and operations.



ACHIEVEMENTS

In FY 2012, OIG issued 30 audit and evaluation reports addressing programs overseen by the Economics and Statistics Adminis-
tration (ESA), International Trade Administration (ITA), National Institute of Standards and Technology (NIST), National Oceanic and
Atmospheric Administration (NOAA), National Telecommunications and Information Administration (NTIA), U.S. Patent and Trademark
Office (USPTO), and the Department itself. Many of its products addressed issues identified in the Top Management Challenges
report: cost reductions and operations improvements, oversight of resources for long-term benefits, Department-wide information
security, and acquisitions and contracting. Among the areas that underwent OIG scrutiny were USPTO’s backlog of ex parte appeals,
NTIA’s American Recovery and Reinvestment Act-funded Broadband Technology Opportunities Program, compliance with improper
payment requirements, FISMA and Web security management audits, managing risks in the acquisition and development of the next
generation of environmental satellites, and the Department’s Acquisition Human Capital Plan and its Office of Acquisition Management.

During FY 2012, the OIG examined 374 audit reports prepared by independent public accountants and local, state, and other federal
auditors for recipients of grants from multiple bureaus. The OIG identified $2.9 million in the federal share of questioned costs and
$229,000 in funds to be put to better use from these audit reports.

Most significant was the $112.6 million in financial benefits identified by OIG audit and evaluation recommendations, which far
surpassed this year’s target of $30 million. The OIG’s review of NOAA’s cost-plus-award-fee and award-term processes accounted
for $104.7 million of this amount. Going forward, Department bureaus will be able to increase efficiency and effectiveness by imple-
menting action plans that respond to OIG’s findings and recommendations.

On the investigative front, the OIG participated in criminal and civil cases that resulted in financial recoveries to the government totaling
more than $63.2 million. Additionally, the OIG conducted investigations that resulted in numerous judicial and administrative actions.
Among these successes were the guilty pleas from two NOAA grant recipients for theft, the indictment of an NTIA grant recipient
for fraud and theft, a guilty plea from a Georgia resident who assaulted a Census enumerator, and a 23-year prison sentence given
to a former Census Bureau employee for attempted murder. The OIG also issued multiple investigative reports with findings and
recommendations resulting in programmatic and policy changes at NOAA, NIST, and Department management. Also, the Inspector
General issued a letter, co-signed by the Census Bureau Director, to all law enforcement agencies nationwide noting the risk of physical
harm faced by Census workers and encouraging investigation and prosecution of reported assaults on Census employees.

Department-related hotline complaints increased significantly in FY 2012, and the OIG developed several initiatives to improve
complaint handling and to provide guidance and assistance to bureaus conducting fact-finding inquiries in response to OIG complaint
referrals. These efforts have helped to increase awareness in the Department regarding the role of the OIG, and its commitment to
whistleblower protection.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       135
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




                                          SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                  PERFORMANCE MEASURE                                   TARGET                          ACTUAL                     STATUS
 Provide accurate and timely financial information and        ●● Eliminate any               ●● Did not eliminate
 conform to federal standards, laws, and regulations             significant deficiency           significant deficiency
 governing accounting and financial management                   within 1 year of            ●● Completed A-123
 (DM)                                                            determination that               assessment
                                                                 there is a significant                                             Not Met
                                                                 deficiency
                                                              ●● Complete FY 2012
                                                                 A-123 assessment of
                                                                 internal controls
 Effectively use commercial services management               ●● Increase use of             ●● 1% increase
 (DM)                                                            competition by              ●● 16% decrease
                                                                 2% measured by
                                                                 procurement dollars
                                                                 awarded
                                                              ●● Decrease procurement                                            Slightly Below
                                                                 dollars awarded on
                                                                 cost-reimbursement,
                                                                 time and materials, and
                                                                 labor hour contracts by
                                                                 10%
 Percent of OIG recommendations accepted by
                                                                         95%                             90%1                    Slightly Below
 Departmental and bureau management (OIG)
 Dollar value of financial benefits identified by the OIG
                                                                        $39.0M                         $175.8M                     Exceeded
 (OIG)
 Percent of criminal and civil matters that are
                                                                         75%                              40%                       Not Met
 accepted for prosecution (OIG)
 1	   Estimate.




 136                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        PROVIDE ACCURATE AND TIMELY FINANCIAL INFORMATION AND CONFORM TO FEDERAL STANDARDS, LAWS, AND
                  REGULATIONS GOVERNING ACCOUNTING AND FINANCIAL MANAGEMENT (DM)
                  This measure was partially met since the Department had completed FY 2012 A-123 Assessment of Internal
                  Controls, but did not eliminate the significant deficiency finding related to NOAA Satellite Programs. As a result
 Explanation      of delays encountered by NOAA for the corrective actions as planned and identification of new findings related
                  to the satellite programs, this significant deficiency has been elevated to a material weakness in the FY 2012
                  Financial Statements Audit.
                  Discussions are in progress both at the Departmental and bureau level to ensure additional corrective actions and
 Action           monitoring needed to properly address the areas of findings. The Department will continue its effort to eliminate
                  repeat findings in FY 2013.
   MEASURE        EFFECTIVELY USE COMMERCIAL SERVICES MANAGEMENT (DM)
                  Actual increase of one percent. Reason target was missed: there were some large dollar procurements that did
 Explanation
                  not lend themselves to competitive procedures..
 Action           None.
   MEASURE        PERCENT OF OIG RECOMMENDATIONS ACCEPTED BY DEPARTMENTAL AND BUREAU MANAGEMENT (OIG)
 Explanation      The performance target was set at an approximate target level, and the deviation from that level is slight.
 Action           None.
   MEASURE        PERCENT OF CRIMINAL AND CIVIL MATTERS THAT ARE ACCEPTED FOR PROSECUTION (OIG)
                  The Inspector General Act of 1978 states, “each Inspector General shall report expeditiously to the Attorney
                  General whenever the Inspector General has reasonable grounds to believe there has been a violation of Federal
                  criminal law.” This means the OIG is required to refer matters even when our experience leads us to believe the
 Explanation
                  matter will not be accepted for prosecution. Department of Justice (DOJ) acceptance depends on considerations,
                  including individual U.S. Attorney’s Office prosecutive priorities, monetary thresholds, and workload, in addition
                  to other factors such as availability and appropriateness of administrative remedies.
                  Notwithstanding DOJ acceptance considerations, improvement in case selection and management—with
 Action           emphasis on developing grant and contract cases viable for criminal and civil prosecution—should enable
                  future target attainment.



HISTORICAL TRENDS

The OIG will continue to work to meet targets and address shortfalls identified in FY 2012.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      137
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




                                                       OBJECTIVE 23

  Re-engineer key business processes to increase efficiencies, manage risk, and strengthen effectiveness (DM)


                                                     PUBLIC BENEFITS



A    s U.S. society becomes increasingly oriented toward using electronic means of communication and information dissemination,
     federal agencies must ensure that they continue to be as responsive as possible to the needs of the public, the private sector,
other levels of government, and other federal agencies. DM must promote leading-edge technologies, collaboration, and technology
transformation across the Department, ensuring alignment with mission requirements, goals, and objectives in order to deploy and
maintain systems able to perform at the highest levels.



ACHIEVEMENTS

As U.S. society becomes increasingly oriented toward using electronic means of communication and information dissemination, federal
agencies must ensure that they continue to be as responsive as possible to the needs of the public, the private sector, other levels of
government, and other federal agencies. DM must promote leading-edge technologies, collaboration, and technology transformation
across the Department, ensuring alignment with mission requirements, goals, and objectives in order to deploy and maintain systems
able to perform at the highest levels.

Acquisition is one of the key areas in terms of re-engineering key business processes. The Office of Acquisition Management achieved
the following results in FY 2012:

●● Established a Procurement Performance Excellence Office to sustain existing strategic sourcing cost reduction savings and
   implement new initiatives to drive additional efficiencies;

●● Developed a Scalable Acquisition Project Management Framework to serve as the infrastructure to an integrated acquisition
   project management system to institute a systematic approach to overseeing and managing acquisitions; and

●● Increased the focus on acquisition planning in order to maximize competition and create more effective acquisition strategies.



                                           SUMMARY OF PERFORMANCE


The Department uses the following measure to gauge the performance of the activities associated with this objective.


                          PERFORMANCE MEASURE (DM)                                       TARGET             ACTUAL             STATUS
 Obligate funds through performance-based contracting
                                                                                          50%                 45%              Not Met
 (% of eligible service contracting $)




 138                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        OBLIGATE FUNDS THROUGH PERFORMANCE-BASED CONTRACTING (% OF ELIGIBLE SERVICE CONTRACTING $) (DM)
                  Not all requirements lend themselves to performance-based contracting. Successful implementation of
                  performance-based contracting requires a behavioral management approach. Due to staffing shortages, resources
 Explanation
                  have not been available to assist bureaus and program offices with a better understanding and implementation
                  of performance-based contracting.
                  Implementation of the Acquisition Project Management Framework will be used to help identify requirements
 Action
                  suitable for performance-based contracting.



HISTORICAL TRENDS

DM has consistently missed this target due to the reasons noted in the explanation above.




                                                        OBJECTIVE 24

          Create an IT enterprise architecture that supports mission-critical business and programmatic
                  requirements, including effective management of cyber security threats (DM)


                                                      PUBLIC BENEFITS



T    he benefits of this objective are both internal and external. By having a strong information technology (IT) enterprise archi-
     tecture, the Department ensures the security of information both within its own structure and with outside stakeholders.
The priorities driving the achievement of this objective are to (1) improve the effectiveness of IT investments and resources across
the Department, (2) strengthen cyber security through an increased use of security technologies, and (3) increase collaboration
across bureaus using the Department CIO community.

The Department IT Enterprise Architecture has a federated structure. This allows the various bureaus the flexibility they need to meet
their mission-specific goals while at the same time providing an overarching structure to meet Department-wide program needs, and
to encourage deploying and using IT resources more effectively wherever possible.

The goals of the Enterprise Architecture are to:

●● Foster the development and use of IT architectural standards based on established best practices;

●● Assist in identifying applications and systems that can be deployed with new technology solutions;

●● Identify technologies and services that can be purchased and/or deployed Department-wide to reduce costs;

●● Increase the use of automated continuous monitoring tools; and

●● Provide tools and analysis to capital planners and acquisitions staff to channel purchases in the direction established by
   the CIO Council.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      139
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




Taking a phased approach, initially the larger bureaus are looking at optimization and consolidation across geographically distributed
organizations, while smaller co-located bureaus are prompted to work collaboratively. Subsequently, such efforts can be expanded to
optimize more broadly the activities, operations, and investments of the Department as a whole.



ACHIEVEMENTS

Significant IT Security accomplishments in FY 2012 include:

●● OCIO Balanced Scorecard and IT Security Performance Measures

   ■■   Developed and measured metrics quarterly in the Office of the CIO (OCIO) Balanced Scorecard, including plan of action and
        milestones (POA&M) management, Internal Control Reviews, IT Security Workforce, Cyberscope and general vulnerability scans,
        Continuous Monitoring, and Enterprise Initiatives. Implemented and tracked progress on “Top 3” security controls; configuration,
        vulnerability, and patch management; and monitored progress on additional controls selected by operating units.

●● Enterprise Initiatives

   ■■   Implemented Managed Trusted Internet Protocol Service (MTIPS) to support the operating units within the Herbert C. Hoover
        Building (HCHB) in accordance with OMB’s Trusted Internet Connection (TIC) initiative. Twelve of the 14 Department operating
        units will be in compliance with OMB’s TIC initiative by the end of the 2012 calendar year.

   ■■   Issued request for proposals and set milestones for Enterprise Cybersecurity Monitoring and Operations (ECMO) for continuous
        monitoring of security-related information across the Department. At least half of the operating units should complete installation
        by the end of 2012.

   ■■   Commenced the Department of Homeland Security (DHS) Cyber Hygiene initiative to assess the “health” of Department
        unclassified systems reachable via the Internet on a recurring basis. Cyber Hygiene activities consist of network mapping,
        vulnerability scanning, and configuration review of common services (e.g., Domain Name System (DNS)) for errors or deviations
        from accepted best practice.

   ■■   Continued implementation of the Personal Identity Verification (PIV) pilot program to deliver PIV multifactor logical access authen-
        tication to all Office of Secretary users.

●● IT Security Policy

   ■■   Issued Department policies for Vulnerability Scanning and Patch Management, Security Configuration Checklist Program, POA&M
        Management, Risk Management Framework, and Safeguarding Information while on Foreign Travel. Also issued FAQ guidance
        on Commerce Interim Technical Requirements (CITR) implementation.

   ■■   Issued Department-wide guidance for the secure implementation, use, and management of mobile technology.

●● Compliance

   ■■   Remediated a significant deficiency in the FY 2011 Federal Financial Management Improvement Act (FFMIA) IT Audit.

   ■■   Focused efforts on Economic Development Administration (EDA) compliance and configuration management assessments to
        assist in recovery and reconstitution of EDA IT security infrastructure.




 140                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




   ■■   Completed 29 IT security assessments, exceeding FY 2012 target of 24 assessments.

   ■■   Conducted IT security compliance checks of all Department operating units and in-depth Internal Control Review meetings with
        five selected operating units as part of the Department’s IT internal control review program.

   ■■   Engaged two independent assessments of the Office of the Secretary including one performed by the National Security
        Administration and another provided by DHS.

   ■■   Continued to hold monthly IT Audit Working Group meetings to address remediation of FY 2011 FFMIA IT findings in a timely
        manner.

   ■■   Migrated the Cyber Security Assessment and Management (CSAM) application from Department environment to DOJ Cloud
        environment.

   ■■   Performed monthly reviews of selected Department IT investments and provided IT security program compliance ratings.

   ■■   Launched monthly DHS Cyberscope data feeds in October 2011. Developed Department dashboards for tracking and monitoring
        of vulnerability data.

●● Shared Services

   ■■   As an effort to increase efficiency and improve cyber security posture, the OCIO launched the HCHB Security Shared Services
        initiative, including formation of working group that meets weekly. Created charter and developed action plans to implement
        shared services by first quarter FY 2013. The focus areas include common controls, IT security training, IT security assess-
        ments, and configuration management.

●● IT Security Training

   ■■   Trained Authorizing Officials and System Owners throughout the Department with quarterly workshops.

   ■■   Launched tracking of Department’s compliance with role-based training policy for employees with significant IT security roles
        and responsibilities.

   ■■   Developed training and Webinars to assist in training employees for implementation of revised Department FISMA reporting tool.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      141
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




                                          SUMMARY OF PERFORMANCE


The Department uses the following measure to gauge the performance of the activities associated with this objective.


 PERFORMANCE MEASURE (DM)                        TARGET                                        ACTUAL                        STATUS
 Improve the management          ●● IT investments have cost/schedule        ●● 75% of major investments have
 of information technology          overruns and performance shortfalls         cost/schedule overruns and
                                    averaging less than 10%                     performance shortfalls averaging
                                 ●● Perform IT security compliance              less than 10%
                                    review of all operating units, and       ●● Completed 29 IT security
                                    10 FISMA systems in CSAM                    assessments. Conducted IT
                                 ●● Increase security training                  security compliance checks of all
                                    completion rate to 80% for                  Department operating units and
                                    privileged users (role-based)               in-depth internal control review
                                 ●● Deploy 80% of the required NCSD             meetings with five selected
                                    3-10 communications capabilities.           operating units as part of the
                                    Expand cyber intelligence                   Department’s IT internal control
                                    communications channel to all               review program.                               Met
                                    operating unit Computer Incident         ●● Trained Authorizing Officials and
                                    Response Teams.                             System Owners throughout
                                                                                the Department with quarterly
                                                                                workshops. Achieved greater than
                                                                                85% of required security training
                                                                                for privileged users (role-based).
                                                                             ●● The Department is currently at
                                                                                50%. Required equipment and
                                                                                systems are installed at the Herbert
                                                                                C. Hoover Building. Deploying
                                                                                classified connectivity to all outside
                                                                                bureau components.




 142                                           F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




                                   THEME 6:             WORKFORCE EXCELLENCE


Strategic Goal: Develop and support a diverse, highly qualified workforce with the right
skills in the right jobs to carry out the Department’s mission




 T      his theme is comprised of three objectives which contribute to the Secretary’s theme of Workforce Excellence. The following
        public benefits, achievements, and performance results are associated with each objective.

The Department continues to refine and develop programs to help train and retain a highly qualified workforce and avoid disruption
in the services it provides. Leadership priorities for improvement are based on employee feedback to surveys, various skills assess-
ments, and comprehensive workforce analyses. While performance management systems are effective in rewarding high performers,
more targeted approaches are necessary to close skill gaps in the entire workforce. Learning and development programs are based
on training needs assessments for mission-critical occupations such as meteorologist, statistician, acquisition, engineer, and chemist.




                                                        OBJECTIVE 25

  Recruit, grow, develop, and retain a high-performing, diverse workforce with the critical skills necessary
             for mission success, including the next generation of scientists and engineers (DM)


                                                      PUBLIC BENEFITS



T    he Department implemented the President’s Government-wide Hiring Reform Initiative that became effective November 1,
     2010. This initiative streamlined the process and increased the number of applicants who apply for positions thus attracting
applicants in mission-critical occupations. The Department’s front-end automated hiring system allows applicants to electronically
submit their resumes (in any format), and cover letters as mandated by the President’s initiative, enabling hiring managers and




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      143
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




human resources practitioners to reduce the processing time. In addition, the front-end system allows applicants to receive status
notifications electronically. The Department updated the Veterans Recruitment and Employment Operational Plan for FY 2011–2012;
maintained the Recruiting, Hiring and Retaining People with Disabilities Operational Plan for FY 2011–2015; and developed the
Diversity and Inclusion Strategic Plan for FY 2012–2016 as models to recruit, develop, and retain veterans, people with disabilities,
and other special emphasis groups. The Department will continue to provide retention incentives to retain skilled employees at all
levels of the organization and to implement its pay for performance systems that have proven to be positive factors in the scientific
and engineering fields, where private sector pay scales for these difficult-to-fill positions are historically much higher than in the
federal sector.



ACHIEVEMENTS

●● Increased disabled veteran new hires from 2.5 percent in FY 2011 to 2.9 percent in FY 2012, in support of Executive Order
   13518, “Employment of Veterans in the Federal Government.” Enhanced employment opportunities for veterans were cultivated
   through the creation of a Veterans/Schedule A Non-Competitive Appointment Resume Database, the incorporation of a Veterans
   Preference e-learning module into the Commerce Learning Center for hiring managers and HR practitioners, participation in the
   2012 VA for VETS Career Fair at the Washington DC Convention Center, and direct delivery of qualified disabled veteran resumes
   to hiring managers. The Department also served on the Office of Personnel Management (OPM) working group on federal best
   practices to create an FY 2013–2015 Veterans Employment and Recruitment Operational Plan that will highlight strategies for
   continued progress.

●● Implemented Executive Order 13583, “Establishing a Coordinated Government-wide Initiative to Promote Diversity and
   Inclusion in the Workforce,” by developing and submitting the FY 2012–2016 Commerce Diversity and Inclusion Strategic Plan.
   Additionally, the formation of a formal Departmental Diversity and Inclusion Program and Diversity and Inclusion Council was
   approved by the Deputy Secretary. A Chief Diversity Officer and Deputy Chief Diversity Officer will be appointed to manage the
   program and oversee the council by the end of FY 2012. The council will consist of both bureau and functional representatives
   participating in three working groups—Recruitment; Development and Retention; and Education, Awareness, and Innovation.
   The program kicked off with the attendance of least 109 local Senior Executive Service (SES) members at a Diversity and Inclusion
   Workshop co-sponsored by OPM during June and July 2012, which received very positive feedback.

●● Developed and launched a high school intern program for students with disabilities through Project Search in September 2012.
   This initiative is a collaborative effort with the Department, Department of Interior, General Services Administration, and OPM.
   Project Search integrates education and work experience in an academic year program for students with disabilities who are in
   their last year of high school or who recently graduated, to prepare the students for competitive employment in the community.
   The federal and local government partners work collaboratively to create school to career transition experiences and employment
   opportunities for the participants, with each student participating in a variety of classroom and work place experiences to acquire
   skills leading to employment in the community and/or within the federal government.




 144                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




                                           SUMMARY OF PERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


           PERFORMANCE MEASURE (DM)                               TARGET                               ACTUAL                   STATUS
 Acquire and maintain diverse and highly             ●● Meet or exceed the 80-day           ●● 84 calendar days
 qualified staff in mission-critical occupations        hiring goals mandated by            ●● 122 Department
                                                        OPM                                    participants in leadership
                                                     ●● Train 100-200 Department               development programs
                                                        participants on leadership          ●● 711 participants in Careers
                                                                                                                                  Met
                                                        development programs via               in Motion
                                                        ALDP, ELDP, APCP, and
                                                        SES CDP
                                                     ●● Train 180-200 participants
                                                        via Careers in Motion



F Y 2 0 1 2 M I S S E D TA R G E T S

   MEASURE        ACQUIRE AND MAINTAIN DIVERSE AND HIGHLY QUALIFIED STAFF IN MISSION-CRITICAL OCCUPATIONS (DM)
 Subpart          Meet or exceed the 80 day hiring goals mandated by OPM
                  The deviation from the target was slight. In fact, the target was met in the first and second quarters. There was
 Explanation
                  no effect on overall program or activity performance.
                  The Department’s Principle Human Resources Managers Council will quarterly review and discuss status and
 Action           progress made towards reaching the 80-day hiring goals and establish action plans for improvement in areas that
                  are not meeting the goals, as part of the HRstat program pilot.



HISTORICAL TRENDS

Over its three years as a measure, the actuals for the 80-day hiring goals exhibited a positive trend from the 2009 baseline to the
FY 2011 results but remained slightly below the target in FY 2012, with the target itself remaining the same. Over its four years as a
measure, the actuals for the leadership development program training met the target during the past two years and exceeded it during
the two years prior, with the target being increased over time to about three times the original goal. Over its three years as a measure,
the actual for Careers in Motion training have consistently met or exceeded the target, with the target itself remaining the same.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        145
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




                                                       OBJECTIVE 26

          Create an optimally-led Department by focusing on leadership development, accountability,
                                        and succession planning (DM)


                                                      PUBLIC BENEFITS



B     y creating, sustaining, and strengthening its development of emerging leaders to assume leadership positions within all levels,
      the Department will ensure effective leadership during the Departmental changes that are sure to come within future decades.
Additionally, by ensuring that the workforce’s composition remains aligned with Departmental strategic and budgetary priorities, the
Department can continue to provide its many services to the public in the most efficient and effective manner. A continuous cycle
of improved performance will become the culture of the Department by putting systems for accountability in place that will drive
individual and Agency performance and excellence.



ACHIEVEMENTS

●● Developed an automated tool to offer management teams a highly practical approach to succession planning. The tool incorpo-
   rates a set of pre-formatted templates, workforce reports, and user-friendly instructions to guide users through a process designed
   to identify high impact positions, assess attrition risk in those positions, and document a specific set of actions that the unit’s
   management team can implement to help plan for and mitigate the impact of attrition in those positions. The tool is currently being
   piloted in select CFO/ASA directorates and is expected to be marketed Department-wide in FY 2013. With over 35 percent of the
   Department’s general workforce and 55 percent of its SES currently eligible for retirement, effective succession planning, including
   data and tools to support actionable workforce planning efforts, will become increasingly vital to the Department’s ability to execute
   its mission.

●● Implemented the Department’s skills management strategy by administering leadership development and other training programs
   and analyzing mission-critical occupations for appropriate action planning. In FY 2012, 22 employees were trained under the
   Aspiring Leaders Development Program for GS-7-12 or equivalent; 27 were trained under the Executive Leadership Development
   Program for GS-13-14 or equivalent; 19 were trained under the SES Candidate Development Program for GS-14-15 or equivalent;
   114 Executives were trained under the Leading EDGE Program; 219 were trained in the Project Management discipline; over
   220 mentors and nearly 250 mentees were supported under the Mentoring Program; and all employees had access to the
   Commerce Learning Center’s over 2,000 online courses. Additionally, the Department participated in the interagency effort to
   identify federal and agency mission-critical occupations and high-risk mission-critical occupations, led by OPM and the Chief Human
   Capital Officers Council. Various data were analyzed on the Department’s 23 mission-critical occupations; appropriate actions plans
   for the federal mission-critical occupations and any high-risk agency mission-critical occupations are expected to be completed by
   the end of FY 2012; and federal competency assessments will be administered during FY 2013.

●● Continued to successfully implement workforce reshaping efforts through the use of Voluntary Early Retirement Authority (VERA)
   and Voluntary Separation Incentive Payment (VSIP) and establishment of a Department Voluntary Resume Bank Program to assist
   in restructuring and streamlining the Department workforce while continuing to meet mission goals. Currently the VERA/VSIP
   authority covers designated positions within certain units of the Bureau of Economic Analysis (BEA), Census Bureau, ITA, Minority
   Business Development Agency (MBDA), NIST, NOAA, NTIA, and Office of the Secretary. The Department received approval for a
   total of 1,796 VSIPs and offered approximately 1,389, of which 582 employees have accepted, for a 41 percent acceptance rate,




 146                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 P E R F O R M A NPCE ER FSO
                                                                                           ECR TMI A
                                                                                                   ONNC •
                                                                                                        E ST EHCETMI EOSN 4 •, 5T,HAE N
                                                                                                                                      MDE 16




   which greatly exceeds the 14.2 percent government-wide rate. Additionally, the Department Voluntary Resume Bank Program
   provided special consideration to employees who occupied competitive service positions that had been identified for potential
   elimination due to proposed budget reductions, lack of work, or reprogramming. All eligible participants were able to submit their
   resume, and vacancies matching the occupational series and grade of Resume Bank participants were not advertised on USAJOBS
   until after well-qualified resume bank participants were interviewed and a selection decision effected. Five Department employees
   were selected for positions through this process and three employees accepted job offers.




                                           SUMMARY OF PERFORMANCE


The Department is in the process of developing measures to evaluate progress toward achieving this objective. Measures will appear
in the FY 2013 PAR.




                                                        OBJECTIVE 27

      Provide an environment that empowers employees and creates a productive and safe workforce (DM)


                                                      PUBLIC BENEFITS



I  n the current economic climate, an effective and efficient workforce will be more critical than ever to the continued success
   of the Department in achieving its diverse missions. This will require work environments that monitor and implement activities
to encourage high levels of employee satisfaction, engagement and productivity, and workplaces free of recognized hazards so
personnel can conduct their work safely in a variety of environments, and the Department can provide its visitors and partners a
safe experience.

The Department focuses on having its executives and managers responsible for safety programs in their bureaus actively participate in
safety activities, such as the Department’s Safety and Health Council meetings and awareness training opportunities. The Department
enhances the role of leadership by making certain that the executives, managers, supervisors, and employees have the knowledge,
skills, resources, and commitment in order to control hazards in the workplace and to strengthen efforts to protect employees,
contractors, visitors, and others who enter Department workplaces. One method of doing this is conducting a gap analysis and
preparing a written strategy to update and continuously improve the Department’s Safety and Health Program Manual so that it is a
comprehensive policy document to guide the bureaus’ occupational safety and health programs to ensure a culture of safety.



ACHIEVEMENTS

●● Exceeded the government-wide average for positive responses on 70 out of 78 eligible items on the 2011 Federal Employee
   Viewpoint Survey (FEVS), which was administered by OPM to gauge employee perceptions on critical work life areas which drive
   employee satisfaction, commitment, and retention. The Department was ranked 5th out of 37 agencies on the Results-Oriented
   Performance Culture Index and exhibited major strengths in work experiences, supervisors/team leaders, the use of alternative




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      147
P E R F O R M A N C E S E C T I O N • T H E M E S1 4 , 5 , A N D 6




   work schedules, and telework implementation. No Department averages for positive responses were “notably” (i.e., 5 percentage
   points or more) below the government-wide averages for any items. The release of OPM’s 2012 FEVS results reports is scheduled
   to be completed by November 30, 2012.

●● Launched a Safety Risk Assessment Program for the smaller bureaus to assist them in identifying risks to employee safety and
   health. This program also provides guidance to the bureaus as they develop their safety program to control the identified risks and
   provide a safe work environment for employees. Currently four bureaus have started the assessment process that looks at their
   safety and health risks based on mission and operational needs.


                                          SUMMARY OF PERFORMANCE


The Department is in the process of developing measures to evaluate progress toward achieving these objectives. Measures will
appear in the FY 2013 PAR.




 148                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
Financial
 S ection
MESSAGE FROM THE CHIEF FINANCIAL OFFICER




Message from the Chief Financial Officer


 T  
        his FY 2012 Performance and Accountability Report provides financial and program performance information to
        enable the Department’s stakeholders to understand and evaluate the Department’s achievements relative to its
        mission and resources. The report highlights the Department’s performance, provides detailed financial information,
and fulfills several statutory requirements, including the Reports Consolidation Act of 2000, the Chief Financial Officers Act,
the Government Performance and Results Act, the Federal Managers’ Financial Integrity Act (FMFIA), and the Government
Management Reform Act.

For FY 2012, the Department achieved an unqualified audit opinion for the fourteenth consecutive year. The Department
received a material weakness relating to the need for improved financial management oversight at the National Oceanic and
Atmospheric Administration (NOAA) in the areas of budgetary controls and accounting for general property and satellites.
We are aggressively strengthening controls and ensuring proper and accurate accounting. Our goal is to eliminate this
material weakness by the close of FY 2013. In addition, the Department received a significant deficiency, citing the need
to improve information technology security, access, and configuration management controls. With the Office of the Chief
Information Officer, we will improve our information security program, with the aim of eliminating this deficiency, as we
did in FY 2011.

The Department is enhancing financial and non-financial controls under FMFIA and Office of Management and Budget
(OMB) Circular A-123. The Department has provided a qualified statement of assurance that its internal controls and
financial management systems meet the objectives of FMFIA, with the exception of one material weakness. This material
weakness is related to the budgetary control issues identified for the unauthorized reprogramming of funds at the National
Weather Service and other potential matters under review by the Department, and accounting for satellites and property
at NOAA. Other than this exception, internal controls operated effectively, and no other material weaknesses were found
in the Department.

The Department is applying a “One-Commerce” vision to engage a broad range of leaders, and other employees, in how
best to meet program goals, and implement the President’s Campaign to Cut Waste and A Government for the 21st
Century management initiatives. This engagement takes place through the Executive Management Team, the Department
Management Council, and various other councils (e.g., chief financial officers, chief information officers, and acquisitions,
human capital, security, facilities managers), in addition to the Labor Management Forum. Employees are also directly
engaged through the Performance Excellence Program, corporate communications, and other channels (e.g., town hall
discussions).

This “One-Commerce” vision has led to a new way to formulate the budget, aligning resources with priorities in an inclusive
manner. The Department is committed to preserving resources for program delivery and stewardship by removing well
over $100 million in administrative expenses, in such areas as acquisition, personnel, facility, travel, and related costs
through its FY 2012 Administrative Savings Plan. For example, the Department launched a Department-wide strategic
sourcing and cost reduction program built around personal computer and other specific commodity purchasing, saving
$15 million in FY 2012.




 150
                                                F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                MESSAGE FROM THE CHIEF FINANCIAL OFFICER




  The Department is focused on stewardship, controls, and transparency, and engaging and training employees in addition to
  reinforcing procedural, supervisory, and system improvements. The implementation of a new Enterprise Risk Management
  framework, which provides an interconnected system of people, processes, and tools, and an enhanced suspension
  and debarment program, are part of these efforts. The Department has implemented a new comprehensive Acquisition
  Improvement Policy, and Department-wide standards and training have been put in place for the Department’s acquisition
  program and project managers.

  Another priority for the Department is human resource management. The Department has cut the time to hire new employees
  by nearly 20 percent since FY 2010. It completed the first implementation phase of a new Human Resource Management
  System, moving 24 disaggregated human resource systems into one, with full implementation expected by the end of
  FY 2014. The Department is also emphasizing training for both leadership and staff as critical for mission success.

  The Department is improving its security, with a focus on enhancing its investigatory and mitigation efforts. It is implementing
  a Department-wide continuous monitoring capability that will enable enterprise-wide, real-time visibility into the Department’s
  security status relating to a number of key cyber security controls.

  The Department is also proud of its efforts in answering the President’s call to make it easier for U.S. businesses to access
  the full range of government programs and services with the launch of BusinessUSA in FY 2012. Co-led by the Department
  of Commerce and the Small Business Administration, BusinessUSA released the first fully-integrated government online
  platform that provides information on hundreds of federal, state, and local resources and events aimed at the business
  community. BusinessUSA initiated a customer service line through 1-800-FED-INFO to field calls and provide program contact
  referrals. These tools are intended to create a “No Wrong Door” approach that uses technology to quickly connect businesses
  to services and information relevant to them. Through the Open Government Initiative, the Department has made over 300
  thousand datasets available to the public, and has implemented an automated Freedom of Information Act (FOIA) system
  for the public (FOIAonline). This and BusinessUSA are part of the Department’s efforts to make government services and
  programs easily accessible for taxpayers.

  Moving forward, the Department will update its strategic plan, which will provide direction for new initiatives and priorities.
  Some critical efforts to help shape the Department of Commerce into a 21st century Department are already underway.
  For example, the Department has launched the “Commerce Way,” a streamlined integrated cycle of planning, risk assessment,
  budgeting, acquisition, performance management and reporting. The goal is to improve decision-making and manage risk
  and performance at the appropriate level of organization structure, eliminating duplication and fragmentation, and critically,
  promoting a more integrated Department. The Department will continue to engage our employees, improve controls, drive
  effective and efficient program delivery, and position the Department for success in the years ahead.




                   Scott Quehl
                   Chief Financial Officer
                   and Assistant Secretary for Administration
                   November 15, 2012




                                                                                                                            151
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
MESSAGE FROM THE CHIEF FINANCIAL OFFICER




 152
                           F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                    Financial
                M anagement
                            and
                    A nalysis
                                                                         F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




                        F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




 U  
         nder the Secretary’s leadership, the Department is continuing to give the highest priority to providing accurate financial
         data to its internal and external customers, and to its accountability for all assets. Ensuring that there are strong
         internal controls throughout the Department remains a priority. The Department has created a financial management
environment that complies with federal laws and regulations and that provides its executives with timely, accurate financial and
performance information. This is evidenced with the Department continuing to receive unqualified audit opinions, maintaining
a single integrated financial system, and continuing its compliance with the Federal Financial Management Improvement Act
(FFMIA).

Highlights of accomplishments for FY 2012 and future initiatives are discussed further below.



                                         FINANCIAL MANAGEMENT SYSTEMS

The Department maintains an FFMIA-compliant financial management system, the Commerce Business Systems (CBS). CBS
provides reliable, timely information within a sophisticated security infrastructure. The system is capable of producing both
financial and budget reports from information generated within the financial management system. CBS consists of a Core
Financial System (CFS), including the Commerce Purchase Card System (CPCS) and the Budget and Execution Data Warehouse.
CBS is interfaced with the Commerce Standard Acquisition and Reporting System (CSTARS), the National Finance Center Payroll
System, and the Automated Standard Application for Payments (ASAP).

The financial information from CBS is integrated in the Corporate Database for consolidated financial reporting, resulting in a
single integrated financial management system. The Corporate Database is a commercial, off-the-shelf software package for
consolidating financial data and producing financial reports. The Corporate Database is an integrated solution that provides
financial statements and Adjusted Trial Balances reported at the Department, bureau, and Treasury Appropriation/Fund Group
level. It also provides the ability to perform data analysis and produce the Department’s footnotes, financial analysis reports, and
other additional information required for the government-wide financial statements.

During FY 2012, the Department accomplished the following initiatives:

   ●●   Continued Operations and Maintenance (O&M) activities for CBS;

   ●●   	 ontinued definition and planning for the Business Application Solutions (BAS) project that will modernize the Department’s
        C
        financial and administrative business systems;

   ●●   	 ompleted the C.Award migration—upgrading the Commerce Standard Acquisition and Reporting System (CSTARS)
        C
        contract writing and management system—for NOAA, Office of the Secretary, NIST and Census;

   ●●   Began design and development of modifications to CBS to accommodate several new federal mandates, including the
        Government-wide Treasury Account Symbol Adjusted Trial Balance System (GTAS), Six-digit Standard General Ledger
        (SGL), and Automated Standard Application for Payments (ASAP), Central Contractor Registration – System for Award
        Management (CCR-SAM), and Accelerated Payments to Small Businesses;




                                                                                                                              155
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




  ●●   Completed several technical CBS upgrades, including Fusion Middleware/WebLogic to 11g, and the CBS development/
       test environment hardware and Operating System. Initiated the Oracle Database Migration to 11g and the upgrade of two
       of the three bureau production environment hardware and Operating Systems;

  ●●   Developed a prototype for the CFO Community Connector, a central location for the Department’s financial and administrative
       management communities to share information about best practices, challenges and solutions, and deadlines;

  ●●   Deployed the beta version of the Process Toolbox that describes processes and provides the tools, templates, and samples
       to support the effective management of initiatives and provide guidance on how to perform project management and
       solution deployment activities;

  ●●   Developed the initial functional and technical design for the redesigned Project Dashboard that will provide project status
       and documentation information for CFO/ASA projects through a standard status reporting mechanism and document
       repository for all projects;

  ●●   Completed an Invoice Processing Platform (IPP) (formerly known as Internet Payment Platform) Pilot Proof of Concept; and

  ●●   Maintained and enhanced the Department’s Executive Dashboard application (the DASHER). The DASHER provides a
       Department-wide, executive-level overview of the Department’s highest priority and highest risk mission and administrative
       initiatives, including High-Priority Performance Goals, Risk Management, Financial Management, Customer Service, Human
       Capital and Administrative Metrics, as well as more Operational Initiatives such as Acquisition Metrics, Sustainability and
       Program Results.

In FY 2013 and beyond, the Department will continue its efforts to enhance its financial systems. The Department plans to
accomplish the following:

  ●●   Continue Operations and Maintenance activities for CBS;

  ●●   Continue stakeholder outreach and incorporate feedback, include additional process guidance, and deploy production
       version of the Process;

  ●●   Deploy the redesigned Project Dashboard to the CFO/ASA;

  ●●   Complete the Oracle Database Migration to 11g and the upgrade of two of the three bureau production environment
       hardware and Operating Systems and initiate the upgrade of the third bureau production environment hardware and
       Operating System;

  ●●   Complete the design, development, and testing of the GTAS, Six-digit SGL, ASAP, and CCR-SAM modifications to CBS
       and deploy into production;

  ●●   Determine approach and next steps for IPP;

  ●●   Maintain and possibly enhance the OFM/CSC Portal that provides for a unified gateway for access to Department
       administrative applications, including self-service administration, as well as hosting the Project Dashboard, Project Toolbox,
       DASHER, and CFO Community Connector;

  ●●   Continue to maintain and enhance the DASHER; and

  ●●   Deploy and maintain the CFO Community Connector.




 156
                                                F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




                                                  FINANCIAL REPORTING

The Department is committed to making financial management a priority, and significant efforts are being made to further improve
the management of its financial resources. The Department has received unqualified opinions on its consolidated financial
statements since 1999 and met the financial statement submission deadlines for FY 2012. These achievements resulted from
the Department’s commitment to strong management controls and accountability for its resources. The Department received
a material weakness relating to the need for improved financial management oversight at National Oceanic and Atmospheric
Administration (NOAA) in the areas of budgetary controls, accounting for general property, and accounting for satellites and
a significant deficiency relating to the Department’s information technology security, access and configuration management
controls. In FY 2012, the Department conducted an assessment of the effectiveness of internal controls over financial reporting
in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix A, including adhering to the
risk-based three-year rotational testing plan. A Senior Management Council (SMC) and a Senior Assessment Team (SAT) worked
together to provide oversight guidance and decision-making for the A-123 implementation process. As a result of the assessment,
the Department is able to provide a qualified statement of assurance that its internal controls and financial management systems
meet the objectives of FMFIA, with the exception of one material weakness. The material weakness is related to the budgetary
control issues identified for the unauthorized reprogramming of funds at the National Weather Service (NWS) and other potential
matters under review by the Department, and accounting for satellites and property at NOAA. Other than this exception, internal
controls were operating effectively and no other material weaknesses were found. In addition, the Department conducted
an improper payments sample testing; the results revealed no significant improper payments or internal control deficiencies.
Overall, the Department’s assessments demonstrate that the Department has strong internal controls over the disbursement
processes, the amounts of improper payments in the Department are immaterial, and the risk of improper payments is low.
See Appendix E for reporting details of the Improper Payments Information Act (IPIA) of 2002, as amended.

The Department accomplished the following initiatives that resulted in meeting the aforementioned goals:

   ●●    Effective 2012, expanded payment recapture audits of bureau-specific contracts/obligations and Department-wide grants/
        cooperative agreements to include items for which the period of performance has expired but for which the contract/
        obligation or grant/cooperative agreement has not yet been closed out. In 2012, the Department completed payment
        recapture audits of contracts/obligations for Census Bureau, Franchise Fund, MBDA, OIG, and USPTO, and of Department-
        wide grants/cooperative agreements;

   ●●   Each of the Department’s bureaus/reporting entities continued to prepare or update improper payment risk assessments
        covering all programs/activities as required by OMB Circular A-123, Appendix C. These improper payment risk assessments
        of the entity’s programs/activities also include assessments of the control, procurement, and grants management
        environments, and are now in the continuous process stage of being updated every three years, unless significant changes
        occur, in which case an assessment will be updated quicker;

   ●●   Submitted a draft and final plan to OMB to implement, in FY 2013, for applicable bureau payment offices, pre-payment
        eligibility reviews in Treasury’s Do Not Pay portal solution;

   ●●   Completed an evaluation of options for data analytics of vendors and payments by bureau payment offices, including
        Treasury’s Do Not Pay Data Analytic Services;

   ●●   I	mplemented, effective FY 2012, Technical Release 14, Implementation Guidance on the Accounting for the Disposal of
         General Property, Plant, and Equipment;

   ●●   Worked with Treasury and the bureaus to implement Administrative Wage Garnishment to further facilitate collection of
        debts owed to Commerce;



                                                                                                                             157
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




  ●●   Facilitated intragovernmental transaction reconciliations using the Department’s Corporate Database application to
       collect, extract, and report on a quarterly basis its intragovernmental account balances, by trading partner, to the Treasury
       Department. The Department took a proactive approach of initiating contact with all trading partner agencies to reconcile
       large differences. Although the Department has seen an improvement in trading partners’ participation, continued
       improvement is needed in order to reconcile all differences;

  ●●   Quarterly financial metrics were compiled, analyzed, and reported to individual bureaus which also included a status report
       comparing bureau results with Departmental goals. The results of bureaus’ metrics and any corrective actions needed
       were discussed at the bureau CFOs’ individual monthly meetings;

  ●●   Published guidance on the preparation and submission of financial statements, including a calendar of milestone dates.
       Each quarter, with the participation of all bureaus, guidance was reviewed and updated to reflect lessons learned and to
       identify best practices among the bureaus. When necessary, task forces were formed to resolve issues that could have
       impeded the Department’s ability to produce timely, accurate financial statements;

  ●●   I	mplemented, effective FY 2012, the Schedule of Spending by Major Budget Account in the Other Accompanying
        Information section of the PAR. The Schedule of Spending (SOS) presents an overview of how and where the Department
        is spending money; and

  ●●   Continued preparation efforts towards the FY 2013 implementation of Technical Bulletin 2006-1, Recognition and
       Measurement of Asbestos-Related Cleanup Costs, and Federal Financial Accounting Technical Release 10, Implementation
       Guidance on Asbestos Cleanup Costs Associated with Facilities and Installed Equipment.

In FY 2013 and beyond, the Department plans to accomplish the following:

  ●●   Continue to monitor and minimize improper payments, including the performance of payment recapture audits, and carry
       out the FY 2013 implementation, for applicable bureau payment offices, of pre-payment eligibility reviews in Treasury’s Do
       Not Pay portal solution;

  ●●   Implement, for applicable bureau payment offices, Treasury’s Do Not Pay Data Analytics Services for data analytics of
       vendors and payments;

  ●●   I	mplement Technical Bulletin 2006-1, Recognition and Measurement of Asbestos-Related Cleanup Costs, and Federal
        Financial Accounting Technical Release 10, Implementation Guidance on Asbestos Cleanup Costs Associated with Facilities
        and Installed Equipment;

  ●●   Continue to work with OMB, Treasury Department, and the government-wide Central Reporting Team to improve the
       intragovernmental transactions reconciliation process; and

  ●●   Continue to work with Treasury Department to implement Government-wide Treasury Account Symbol Adjusted Trial
       Balance System (GTAS) for production in December 2013.



                                                 GRANTS MANAGEMENT

Under the CFO/ASA, the Office of Acquisition Management (OAM) is responsible for the Department’s enterprise-wide grants
management policy, projects, and oversight. The Department’s focus is to standardize policy and procedures for its grant and
cooperative agreement programs in order to strengthen compliance, work toward a single automated grants management
system, and enhance/formalize workforce education. Targeted efforts continue to transform the decentralized Department




 158
                                                F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                           F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




grants management community into an effective and efficient partnership. The sharing of resources and responsibilities to
accomplish enterprise goals is a recurring theme throughout the partnership effort.

An important feature of the Department’s effort to move aggressively into the world of electronic grants is the continued utilization
of the National Oceanic and Atmospheric Administration’s (NOAA) Grants Online system, a back-office solution to the Grants.gov
storefront. NOAA administers almost two-thirds of the Department’s financial assistance programs. Grants OnLine is designed
to facilitate efficiencies through standardized business processes and provide a direct interface to other Departmental systems
and with grant recipients. It continues to demonstrate significant success in reducing paperwork, increasing accountability, and
simplifying the post award process. The system has also been identified as a possible solution to standardizing grants procedures
in the Department. Grants Online is a paperless electronic grants management system that has gained government-wide
recognition for streamlining and accelerating the grants application process. In October 13, 2010, the Department CFO advised
the grant making bureaus at the National Institute of Standards and Technology (NIST), NOAA, and the Economic Development
Administration (EDA) that the Department had committed to OMB to consolidate all the bureau grant management systems
within the Department to NOAA’s Grants Online system if a planned analysis demonstrates that it makes good business sense.
The current stove piped configuration of separate bureau grant management systems is not conducive to maximum efficiency
in resource and time management. The Department secured the services of a contractor to complete a gap analysis between
Grants Online, employed by NOAA, and the grants systems employed by NIST, known as Grants Management Information
System (GMIS), and the system employed by the EDA, known as the Operations Planning and Control System (OPCS).

The gap analysis was completed in January, 2012 and in summary it:

   ●●   Identified and documented almost 100 gaps in functionality between Grants Online and the other two systems

   ●●   Provided potential options to remedy the gaps:

        ●●   Workarounds and modifications to GMIS, OPCS, and Grants OnLine are necessary to make the systems functionally
             compatible.

        ●●   Minimally compatible solution – $1.5M and $0.7M for EDA and NIST, respectively. The minimally compliant solution
             focuses on critical gaps to enable the processing of grants through Grants OnLine. It maximizes the use of process
             changes and work arounds and minimizes additional cost for resources not presently available. It does not address
             EDA/NIST processing efficiency.

        ●●   Fully compatible solution – $3.9M and $1.9M for EDA and NIST, respectively. This comprehensive approach addresses
             closing all gaps to enable the management of a grant through Grants OnLine. It uses changes and workarounds
             wherever appropriate. It further uses systems changes and interface development where best suited to continue fully
             automated functionality typically incorporated into Grants OnLine. This solution does not attempt to minimize resource
             requirements to transition and includes planning, business process engineering, implementation, and operations.

        ●●   Costs of system integration are expressed in rough order of magnitude and subject to change.

Next steps currently under consideration would include the performance of a Business Case analysis which would involve the
following steps:

        ●●   Baseline the current cost of doing business for EDA, NIST, and NOAA systems

        ●●   	Identify alternatives to be evaluated to include other Grants Line of Business systems

        ●●   Price inclusion of possible ARRA-type reporting of base programs as proposed in draft legislation




                                                                                                                               159
F Y   2 0 1 2     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




        ●●   Conduct the business case analysis with contractors or knowledgeable government personnel

   ●●   Make decision on course of action based on the conclusions of the fit gap analysis and business case

   ●●   If in-house consolidation is recommended, begin the planning effort

        ●●   Overall acquisition strategy

        ●●   Project management plan, schedules, cost estimate, and procurement

The conclusions and recommendations of the gap analysis present formidable challenges in terms of potential costs as well as
system changes and business process reengineering in the bureaus. Consequently, Department of Commerce (DOC) bureaus
and collateral support organizations including the Office of Financial Management (OFM) continue to study other potential
solutions to consolidate the Department’s three grants management systems. The objective is to identify the most effective
solution to utilized limited budgetary resources to consolidate the department-wide grants management portfolio into a single
system that can meet all the requirements of the 75 DOC financial assistance programs.

OFM’s actions to consolidate the Department’s grants management systems continued a process already set in motion by the
migration of the grant management functions of the International Trade Administration (ITA), the Minority Business Development
Administration (MBDA), and the Office of the Secretary (OS) from OAM to NOAA Grants Online. OAM coordinates regular
Departmental Grants Council meetings and works closely with the OIG and the Office of General Counsel (OGC) to implement
sound policy and ensure consistency for the Department’s financial assistance programs. The Department is committed to the
goal of strengthening its grant operations and improving its business processes to provide better services to its customers in
the federal grant recipient community.

The Department has incorporated the challenge of consolidating grant management systems into a department-wide review
of business application solutions (BAS) which address the full scope of DOC functions and systems. The BAS approach will
consider commercial off-the shelf (COTS) solutions in addition to Grants OnLine as a department wide grants management
solution.

The Department has revised its Grants and Cooperative Agreements Manual and Standard Grants Terms and Conditions
to recognize the emerging growth of electronic government. During FY 2012, a multi-bureau task force chaired by Grants
Management Division (GMD) reviewed the 21 chapter grants manual and made extensive revisions to ensure that the manual is
consistent with updates in government-wide financial assistance policy directives. Additionally, the Department of Commerce
Financial Assistance Standard Terms and Conditions have been significantly updated to align the document with the rapid growth
and changes in government wide guidance. Continued review and updating of the DOC policy guidance will occur to keep pace
with the new requirements engendered by the transition to Grants.gov as the business process model for federal financial
assistance programs.

In FY 2012, OAM/GMD began a new initiative to strengthen oversight and create a broader understanding of the dynamics
and impact of DOC financial assistance awards. The focus of this Grants Overview is to provide a perspective on the amount
and type of awards made by DOC as well as insight into the extent to which the DOC grants management process functions
efficiently and effectively. The format of the Grants Overview is a PowerPoint presenting breakdowns of various elements of the
award structure in snapshots of activities such as new awards and cost amendments obligated by bureau. Charts were created
to display the rate and status of funds disbursed at various award stages for both Recovery Act and base programs. The study
examined the status of awards by dollars in various phases of the grants management process. Risk factors were identified and
shared with the DOC grants community.




 160
                                                F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




The Grants Overview includes tracking of pre-award and post award requirements such as audit resolution and the negotiation of
indirect cost rates. It charts single audit reports with findings/no findings by bureau during the period FY 2009-2011. The Overview
also analyzes the status of compliance with closeout requirements and deobligation of undisbursed funds. Additionally, GMD
is providing bureaus with monthly reports intended to prompt closer monitoring of the grant audit resolution process and
compliance with negotiated indirect cost rate requirements. These are just some of the examples of key activities of the grants
life cycle addressed by the Grants Overview.

The Grants Overview is regularly updated and serves as a framework for OAM/GMD’s effort to reach out to the DOC grant
making bureaus to energize the oversight relationship. It has served as the basis for meetings and ongoing dialogue with each
DOC bureau to create a path forward for the development of more efficient business practices and tighter internal controls in the
administration of DOC financial assistance awards.

The Department made significant progress in meeting the data-reporting requirements of the Federal Funding Accountability
and Transparency Act of 2006 (PL 109-282). Significant technical requirements were presented by this act. As of FY 2012, the
Department continues to be up to date with its three grant-making bureaus in providing accepted data to the universal Web site,
USAspending.gov, consistent with the goal established in the FY 2008 PAR.

OAM GMD is the point of contact for Catalogue of Federal Domestic Assistance (CFDA) updates and represents the Department
at CFDA User Group meetings. GMD coordinates the response to annual CFDA data calls. OAM GMD continues to hold the
responsibility for coordinating and processing Individual Background Screenings utilizing form CD-346 (Applicant for Funding
Assistance) which passed from the OIG to OAM/GMD in FY 2010. GMD processed approximately 480 Individual Background
screenings in FY 2012, through the Federal Bureau of Investigation database operated by the Census Bureau. OAM continues
to support accuracy in data quality for all Department financial assistance programs. Grants officers and subordinate supervisors
along with program offices are required to verify quarterly that data reported to USASpending.gov is accurate and consistent.
This element will be a performance metric in grants management reviews conducted by GMD.

The three major grant making bureaus—NIST, NOAA, and EDA upload grant award data monthly to USASpending.gov through
the Data System Validation Tool Web site. In addition to their own grant awards, these bureaus serve as grants offices for the
programs of smaller Department grant making bureaus including NTIA, ITA, and OS.

The Department’s bureaus have made progress in reducing the backlog of expired awards and deobligating unexpired balances
of funds from these awards during FY 2012. The following table illustrates the number of awards closed and amount deobligated
by each bureau from October 1, 2011 through July 31, 2012, as well as the expired awards remaining to be closed and funds
pending deobligation. NTIA, ITA and OS are included in the NOAA data below as NOAA is their servicing bureau.


                                        Awards                   Funds               Awards Pending        Funds Pending
                Bureau                  Closed                 Deobligated              Closure             Deobligation
        NOAA                              648                 $	 9,152,528                   131            $	1,153,895
        NIST                              364                 $	6,556,661                    705            $	31,381,764
        EDA                               179                 $	225,639,503                  105            $	 19,081,020


Under OMB circulars, organizations receiving federal awards are assigned to a single federal agency (cognizant agency) which
acts on behalf of all federal agencies in approving indirect cost and other rates for that organization. The Department is responsible
for reviewing indirect cost proposals (IDC) submitted by assigned grantee organizations and, based on those reviews, negotiates
appropriate indirect cost rates. OAM’s responsibility for the management of this program continued throughout the fiscal year.


                                                                                                                                161
F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




New rate review procedures that were implemented during FY 2007 produced greater levels of financial analysis that resulted
in financial savings to the Department through indirect cost rate adjustments from grantees’ proposed rates. Program focus for
the coming year will include continued implementation of stronger internal controls.

OAM will continue to actively seek opportunities to support government-wide goals of transparency and data quality management.



                                                     HUMAN CAPITAL

Both the President and Congress recognize that the federal workforce is central to the delivery of services to the U.S. public.
Acknowledging that people are the key to mission accomplishment, Departmental leadership continues to implement and
evaluate programs to ensure that there is succession planning in the area of financial management. Internship and leadership
development programs are used as vehicles for making progress in the recruitment and retention of a highly-skilled and diverse
workforce. Internship programs are implemented through a variety of sources to provide finance and accounting majors an
opportunity to gain hands-on experience, while introducing potential future employees to the opportunities that exist at the
Department. Ongoing training and development opportunities are offered as a component of continuous learning in the area of
financial management.

The Department continued its recruitment efforts in the area of financial management by maintaining its partnership with the
National Academy Foundation (NAF) Academy of Finance (AOF) and reducing the average time to hire accounting and budgeting
professionals. The NAF AOF students have been hired through the Student Temporary Employment Program to enhance their
individual and collective learning experiences in the finance and accounting fields. At the completion of the eight weeks of the
NAF program, students make presentations to Department leaders to demonstrate newly acquired skills in their respective
areas. Departmental supervisors monitor the performance of the interns throughout their appointment, and after successful
completion, many supervisors have extended the temporary appointment or utilized other programs (i.e., Student Career
Experience Program) to bring in entry-level talent. In FY 2012, the Department recruited seven AOF high school students for
the summer who were placed across finance offices in bureaus and organizational units including, EDA, ITA, NOAA, and OFM.
Additionally, one previous NAF intern was asked to return as a temporary appointment to the Census Bureau. Going forward for
future years, the Student Pathways program will be the primary appointing authority for hiring students under the NAF program.
For selections made through USAJobs, the time to hire employees within the professional and administrative 0500 Accounting
and Budgeting series was reduced from 70 calendar day in second quarter FY 2012 to 47 calendar days in fourth quarter FY 2012.

In addition to the recruitment efforts being implemented to attain a highly-skilled workforce in the area of financial management,
the Department has succession planning and retention strategies in place, including the development of competencies within
the current workforce and use of telework. As one of the Department’s recognized mission-critical occupations, accounting
and budgeting series employees at the GS-7 through GS-15 and equivalent levels are eligible to apply for the following major
leadership development programs: Executive Leadership Development Program, and Senior Executive Service Candidate
Development Program. These program activities include competency assessments, formal classroom training, developmental
assignments, seminars, action learning task team projects, and mentoring sessions. The Commerce Learning Center (CLC),
the Department’s Learning Management System, offers 60 Commerce-wide and bureau-specific online financial management
courses that were completed by 185 employees in the 0500 accounting and budgeting occupational group and by an additional
100 employees in other occupations, during FY12. The CLC also recorded 472 employees in the 0500 occupational group
attending 435 financial management classroom courses. Additionally, approximately 24 percent of accounting and budgeting
employees engaged in telework, which is used by the Department to position itself as an “employer of choice” in attracting
qualified employees, facilitating employee work/life balance, increasing employee satisfaction and engagement, and ultimately
increasing employee productivity.


 162
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




                                                DEBT MANAGEMENT

                                        RECEIVABLES AND DEBT MANAGEMENT




 T  
       he Department has incorporated the principles of the Credit Reform Act of 1990 into the operations of its credit and debt
       programs. Prescreening procedures, account-servicing standards, determined collection of delinquent debt, inventory
       management, and asset disposition standards have helped to diminish significantly the amount of risk inherent in credit
programs. These procedures were established to ensure that credit costs are properly identified and controlled, that borrowers’
needs are met, and that costs to the taxpayers are minimized.


                                                  GROSS RECEIVABLES
                (in Millions)




The Department’s gross receivables decreased 9.0 percent, from $682 million at September 30, 2011 to $620 million at
September 30, 2012, as reported on the Department’s Treasury Report on Receivables (TROR). The TROR is the primary means
for the Department to provide comprehensive information on its gross receivables and delinquent debt due from the public. Debt
over 180 days delinquent decreased from just under
$39 million at September 30, 2011 to $2 million at September      TOTAL DELINQUENCIES AS A PERCENTAGE
                                                                               OF GROSS RECEIVABLES
30, 2012. Total delinquencies as a percentage of gross
receivables decreased from 6.4 percent at September 30,
2011 to 1.0 percent at September 30, 2012. The decreases
resulted from NOAA moving a large portion of its delinquent
debts which are currently in forbearance, litigation, and
                                                                          PERCENTAGE




bankruptcy, to Currently Not Collectible on the TROR.

The Debt Collection Improvement Act of 1996 established the
Treasury Department as the collection agency for eligible federal
agency debts that are more than 180 days delinquent. It also
established Treasury’s Financial Management Service as the
federal government’s debt collection center. Nearly $43 million
in delinquent debt has been referred to Treasury for cross-



                                                                                                                             163
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y            R E P O R T
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




servicing since FY 2002. Currently, over 51 percent of the Department’s overall delinquent debt that is eligible for referral to
Treasury is in litigation with the Department of Justice for enforced collection.

During FY 2001, the issuance of the revised Federal Claims Collection Standards and the revised OMB Circular No. A-129, Policies
for Federal Credit Programs and Non-Tax Receivables, provided agencies greater latitude to maximize the effectiveness of federal
debt collection procedures. Since then, the Department has utilized all the tools available to improve the management of its debt.



                                             PAY M E N T P R AC T I C E S

Prompt Payment




 T  
         he Prompt Payment Act of 1982 generally requires
         agencies to pay their bills to vendors on a timely basis
         (within 30 days of receipt of relevant documents),
and to pay interest penalties when payments are made
late. The Department closely monitors its prompt payment
performance, and the bureaus submit quarterly reports of
prompt payment performance to the Deputy Chief Financial
Officer.

The Department has increased slightly its prompt payment
performance to 99 percent in FY 2012 from 98 percent in
FY 2011. The number of invoices with late-payment interest
penalties decreased significantly to 2,562 in FY 2012 from
5,108 in FY 2011. The Department continues to focus on
improving its prompt payment percentage by working closely
with its bureaus to identify opportunities for new or improved
business processes. For example, the Department completed a pilot proof of concept in May 2012 for the Department of the
Treasury’s Invoice Processing Platform (IPP) and is now working to remove obstacles to possible implementation. IPP is an
internet-based invoice processing system that can efficiently manage vendor invoicing from purchase order through payment
notification.

A July 2012 OMB memorandum, Providing Prompt Payment to Small Business Subcontractors, establishes the Executive Branch
policy, that, to the full extent permitted by law, agencies shall take steps to ensure that prime contractors are able to pay their
small business subcontractors in a prompt fashion. In particular, agencies should, to the full extent permitted by law, temporarily
for one year accelerate payments to all prime contractors, in order to allow them to provide prompt payments to small business
subcontractors. Agencies shall make payments to all prime contractors as soon as practicable, with a goal of paying all prime
contractors within 15 days of receiving proper documentation. The Department implemented, in July 2012, this new payment
policy for all prime contractors, and is monitoring bureaus’ monthly performance. The Department’s acquisition offices are also
taking appropriate actions with prime contractors regarding new and existing contracts to help maximize accelerated payments
to small business subcontractors.




 164
                                                 F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




Bankcards

The Department is committed to the use of bankcards (purchase cards) as a means of streamlining Departmental procurements.
Bankcard usage is closely monitored, and those that are no longer needed are promptly closed. The Department has incorporated
more effective oversight and risk management reviews relative to purchase card accounts that are inactive over an 18-month
period. For inactive accounts, the Department determines if there is a need for the card; if it is determined that there is not a
sufficient need for the card, the account is subsequently closed. Additionally, more stringent training requirements are required for
employees with purchase cards, which has contributed to the decrease over the years in the number of bankcards issued and in
use by the Department.

The Department has incorporated the use of the purchase card for existing Departmental payment vehicles, when possible, to
enhance Departmental efficiency for disbursements and increase purchase card refunds.

The Purchase Card sub-process is normally tested under the OMB Circular A-123, Appendix A process on a three-year rotational
basis; however, was tested in FY 2012 due to the risks and weaknesses associated with findings identified in FY 2010. Due to the
results of FY 2012 testing, with similar findings across all bureaus, the Purchase Card sub-process continued to present a significant
deficiency for the Department. The Department will work towards implementing appropriate corrective actions to address the
FY 2012 findings. The Department will reevaluate the controls around the Purchase Card sub-process at the completion of the
corrective actions.



          A N A LY S I S O F F Y 2 0 1 2 F I N A N C I A L C O N D I T I O N A N D R E S U LT S


Composition of Assets and Assets by Responsibility Segment




 T  
       he composition (by percentage) and distribution (by responsibility segment) of the Department’s assets changed
       somewhat from September 30, 2011 to September 30, 2012. Fund Balance with Treasury decreased from 69 percent
       of total assets at September 30, 2011 to 63 percent of total assets at September 30, 2012. General Property Plant and
Equipment, Net increased from 27 percent of total assets at September 30, 2011 to 33 percent of total assets at September 30,
2012. NOAA’s assets increased from 38 percent of total assets at September 30, 2011 to 44 percent of total assets at September
30, 2012, and NTIA’s assets decreased from 41 percent of total assets at September 30, 2011 to 35 percent of total assets at
September 30, 2012.

The Department’s total assets amounted to $30.42 billion at September 30, 2012. Fund Balance with Treasury of $19.26 billion
is the aggregate amount of funds available to make authorized expenditures and pay liabilities. General Property, Plant, and
Equipment, Net of Accumulated Depreciation (General PP&E) of $10.00 billion includes $7.13 billion of Construction-in-progress,
primarily of satellites and weather measuring and monitoring systems; $1.16 billion of Structures, Facilities, and Leasehold
Improvements; $762 million of Satellites/Weather Systems; and $947 million of other General PP&E. Direct Loans and Loan
Guarantees, Net of $570 million primarily relates to NOAA’s direct loan programs, including Fisheries Finance Traditional Loans
and Crab Buyback Loans. Other Assets of $587 million primarily includes Accounts Receivable, Net of $221 million, Advances
and Prepayments of $208 million; and Inventory, Materials, and Supplies, Net of $105 million.




                                                                                                                                165
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




Trends in Assets

The Department’s total Assets decreased $979 million or 3 percent, from $31.40 billion at September 30, 2011 to $30.42 billion
at September 30, 2012. Fund Balance with Treasury decreased $2.40 billion or 11 percent, from $21.66 billion to $19.26 billion,
primarily due to a $1.68 billion decrease in Fund Balance with Treasury for NTIA’s Broadband Technology Opportunities Program
under the Recovery Act mainly due to a significant decrease in payments to grantees, and also due to a $215 million decrease in
Fund Balance with Treasury for NIST’s Recovery Act Funds for construction of research facilities, and for scientific and technical
research and services. General PP&E, Net increased $1.64 billion or 20 percent, from $8.36 billion to $10.00 billion, mainly due
to an increase in NOAA Construction-in-progress of $1.65 billion, primarily for satellite programs. Other Assets decreased by
$222 million or 27 percent, from $809 million to $587 million, primarily due to a decrease of $109 million in Advances to the
Federal Emergency Management Agency related to the Public Safety Interoperable Communications Program and a $93 million
decrease in Advances for NOAA’s Pacific Region Center construction project.




 166
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




Composition of Liabilities and Liabilities by Responsibility Segment

The composition (by percentage) and distribution (by responsibility segment) of the Department’s liabilities remained consistent
from September 30, 2011 to September 30, 2012. The Department’s total liabilities amounted to $4.70 billion at September
30, 2012. Unearned Revenue of $1.39 billion represents the portion of monies received from customers for which goods and
services have not been provided or rendered by the Department. Federal Employee Benefits Liability of $851 million is composed
of the actuarial present value of projected benefits for the NOAA Corps Retirement System ($578 million) and the NOAA Corps
Post-retirement Health Benefits ($45 million), and Actuarial Federal Employees Compensation Act (FECA) Liability ($228 million),
which represents the actuarial liability for future workers’ compensation benefits. Accrued Grants of $636 million, which relates
to a diverse array of financial assistance programs and projects, includes EDA’s accrued grants of $421 million for its economic
development assistance funding to state and local governments. Accrued Payroll and Annual Leave of $581 million includes
salaries and wages earned by employees, but not disbursed as of September 30, 2012. Debt to Treasury of $554 million consists
of monies borrowed primarily for NOAA’s direct loan programs. Accounts Payable of $453 million consists primarily of amounts
owed for goods, services, or capitalized assets received, progress on contract performance by others, and other expenses due.
Other Liabilities of $242 million primarily includes Environmental and Disposal Liabilities of $60 million, Accrued Benefits of
$53 million, Accrued FECA Liability of $36 million, Resources Payable to Treasury of $13 million, ITA Foreign Service Nationals’
Voluntary Separation Pay Liability of $12 million, and Capital Lease Liabilities of $8 million.




Trends in Liabilities

The Department’s total Liabilities increased $112 million or 2 percent, from $4.59 billion at September 30, 2011 to $4.70 billion at
September 30, 2012. Federal Employee Benefits Liability increased $43 million or 5 percent, from $808 million to $851 million,
primarily due to an increase of $54 million in the NOAA Corps Retirement System Liability. Accrued Grants increased by
$40 million or 7 percent, from $596 million to $636 million, primarily due to an increase for EDA of $36 million for economic
development grants.




                                                                                                                              167
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




Accounts Payable increased by $21 million or 5 percent, from $432 million to $453 million, primarily due to an increase in NOAA’s
Accounts Payable of $40 million mainly related to NOAA’s satellites and weather systems. Debt to Treasury increased by $14 million
or 3 percent, from $540 million to $554 million, mainly due to new borrowings in FY 2012 for NOAA’s direct loan programs.

Composition of and Trends in Financing Sources

The composition by percentage of the Department’s financing
sources remained somewhat consistent from FY 2011 to FY 2012.
The Department’s Financing Sources, shown on the Consolidated
Statement of Changes in Net Position, are traditionally obtained
primarily from Appropriations Received, Net of Reductions.
The dollar amount of Appropriations Received, Net of Reductions,
however, increased significantly by $2.05 billion or 35 percent, from
$5.81 billion for FY 2011 to $7.86 billion for FY 2012, mainly due to
$1.74 billion of rescissions in FY 2011 for Census Bureau’s Periodic
Censuses and Programs fund group as a result of the completion
of the 2010 Decennial Census, with no Census Bureau rescissions
in FY 2012. Other typical Financing Sources include net transfers
to and from other federal agencies without reimbursement, and
imputed financing sources from cost absorbed by other federal
agencies. The Department’s total Financing Sources increased
$2.30 billion or 37 percent, from $6.29 billion for FY 2011 to $8.59 billion for FY 2012, primarily due to the $1.74 billion of
rescissions in FY 2011 for Census Bureau’s Periodic Censuses and Programs fund group, whereas there were no Census Bureau
rescissions in FY 2012.




 168
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




FY 2012 Net Cost of Operations by Theme

In FY 2012, the Department’s Net Cost of Operations amounted to
$9.68 billion, which consists of Gross Costs of $13.02 billion less
Earned Revenue of $3.34 billion.

Theme 1, Economic Growth, with Net Program Costs of $3.90
billion for the Department, is related to enabling economic growth
through innovation and entrepreneurship, market development and
commercialization, and trade promotion and compliance. Theme 1
includes Net Program Costs of $(106) million (Gross Costs of $2.32
billion less Earned Revenue of $2.43 billion) for the U.S. Patent
and Trademark Office’s (USPTO) patents and trademark programs.
The issuance of patents provides incentives to invent and invest in
new technology by allowing innovators the opportunity to benefit
from their discoveries. Registration of trademarks assists businesses
in protecting their investments and safeguards consumers against
confusion and deception in the marketplace by providing notice of
trademarks in use. Through dissemination of patent and trademark
information, the Department promotes a global understanding of intellectual property protection and facilitates the development
and sharing of new technologies worldwide. Theme 1 also includes Net Program Costs of $687 million (Gross Costs of $812 million
less Earned Revenue of $125 million) for NIST’s Measurement and Standards Laboratories major program. These laboratories
are the stewards of the Nation’s measurement infrastructure, and provide measurement methods, reference materials, test
procedures, instrument calibrations, fundamental data, and standards that comprise essential tools for research, production, and
buyer-seller transactions. NTIA’s programs and activities also support Theme 1, with Net Program Costs of $1.99 billion (Gross
Costs of $2.02 billion less Earned Revenue of $26 million). NTIA serves as the principal adviser to the President on domestic and
international communications and information policy-making, promotes access to telecommunications services for all Americans
and competition in domestic and international markets, manages all federal use of the electromagnetic spectrum and generally
promotes efficient use of spectrum, and conducts telecommunications technology research, including standards-setting in
partnership with business and other federal agencies. ITA’s programs and activities also support Theme 1, with Net Program
Costs of $458 million (Gross Costs of $478 million less Earned Revenue of $20 million). ITA assists the export growth of small
and medium-sized businesses, enforces U.S. trade laws and trade agreements, monitors and maintains trading relationships with
established markets, promotes new business in emerging markets, and improves access to overseas markets by identifying and
pressing for the removal of trade barriers. Theme 1 also includes Net Program Costs of $466 million (Gross Costs of $473 million
less Earned Revenue of $7 million) for EDA. EDA helps distressed communities address problems associated with long-term
economic distress, as well as sudden and severe economic dislocations including recovering from the economic impacts of
natural disasters, the closure of military installations and other federal facilities, changing trade patterns, and the depletion of
natural resources.

Theme 2, Science and Information, with Net Program Costs of $3.64 billion for the Department, is related to promoting science
and information by generating and communicating new cutting-edge scientific understanding of technical, economic, social,
and environmental systems. Theme 2 includes Net Program Costs of $2.34 billion (Gross Costs of $2.47 billion less Earned
Revenue of $135 million) for NOAA’s programs and activities related to improving weather, water, and climate reporting and
forecasting, which assist the Nation to prepare and respond to environmental events that affect safety, health, the environment,




                                                                                                                              169
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




the economy, and homeland security. NOAA develops and procures satellite systems, aircraft, and ships to examine oceanic
and atmospheric patterns worldwide and to provide information on weather patterns and forecasts. The Census Bureau also
supports Theme 2, with Net Program Costs of $1.15 billion (Gross Costs of $1.46 billion less Earned Revenue of $311 million).
The Census Bureau carries out the Decennial Census, periodic censuses, and demographic and other surveys, and prepares and
releases targeted data products for economic and other programs.

Theme 3, Environmental Stewardship, with Net Program Costs of $2.14 billion for the Department, is related to promoting
economically-sound environmental stewardship and science. Theme 3 includes Net Program Costs of $2.11 billion (Gross Costs
of $2.31 billion less Earned Revenue of $204 million) related to NOAA’s stewardship of ecosystems, which reflects NOAA’s
mission to conserve, protect, manage, and restore fisheries and coastal and ocean resources. The Department has a responsibility
for stewardship of the marine ecosystem and for setting standards to protect and manage the shared resources and harvests
of the oceans. The Department strives to balance sustainable development and healthy functioning marine ecosystems, and to
conserve, protect, restore, and better manage resources.



                 L I M I TAT I O N S O F T H E F I N A N C I A L S TAT E M E N T S




 T  
        hese financial statements have been prepared to report the overall financial position and results of operations of the
        Department, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared from the
        books and records of the Department in accordance with the form and content prescribed by OMB, the statements
are in addition to the financial reports used to monitor and control budgetary resources that are prepared from the same books
and records.

These financial statements should be read with the realization that they are for a component of the U.S. government, a sovereign
entity. One implication of this is that liabilities cannot be liquidated without legislation that provides the resources to do so.




 170
                                                 F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                 P rincipal
                 Financial
                S tatements
                                                                                  N O TPERSI N
                                                                                             TOC I TP H
                                                                                                      A LE F I N A N C I A L S T A T E M E N T S




United States Department of Commerce Consolidated Balance Sheets
As of September 30, 2012 and 2011 (In Thousands)
                                                                                                               FY 2012                  FY 2011

 ASSETS
        Intragovernmental:
        Fund Balance with Treasury (Notes 2 and 18)                                                   $       19,261,281       $       21,661,030
        Accounts Receivable (Note 3)                                                                             116,009                   98,360
        Advances and Prepayments                                                                                 208,368                  415,683
        Total Intragovernmental                                                                           19,585,658               22,175,073

        Cash (Note 4)                                                                                          4,834                        3,466
        Accounts Receivable, Net (Note 3)                                                                    104,941                      140,846
        Direct Loans and Loan Guarantees, Net (Note 5)                                                       570,348                      566,250
        Inventory, Materials, and Supplies, Net (Note 6)                                                     104,978                       97,823
        General Property, Plant, and Equipment, Net (Note 7)                                              10,000,512                    8,362,263
        Other (Note 8)                                                                                        48,276                       53,320
 TOTAL ASSETS                                                                                         $   30,419,547           $   31,399,041

 Stewardship Property, Plant, and Equipment (Note 23)                                                                              	

 LIABILITIES
        Intragovernmental:
        Accounts Payable                                                                              $         156,032        $          88,455
        Debt to Treasury (Note 10)                                                                              554,281                  540,001
        Other
        	 Resources Payable to Treasury                                                                          12,862                   21,448
        	 Unearned Revenue                                                                                      332,923                  338,657
        	 Other (Note 11)                                                                                       102,412                   93,104
        Total Intragovernmental                                                                                1,158,510                1,081,665

        Accounts Payable                                                                                        296,869                  343,280
        Loan Guarantee Liabilities (Notes 5 and 16)                                                                 518                      563
        Federal Employee Benefits (Note 12)                                                                     851,211                  808,482
        Environmental and Disposal Liabilities (Note 13)                                                         59,945                   63,377
        Other
        	 Accrued Payroll and Annual Leave                                                                       580,715                  578,952
        	 Accrued Grants                                                                                         635,856                  595,721
        	 Capital Lease Liabilities (Note 14)                                                                      8,377                   10,068
        	 Unearned Revenue                                                                                     1,053,580                1,035,867
        	 Other (Note 11)                                                                                         57,732                   73,153
 TOTAL LIABILITIES                                                                                    $        4,703,313       $        4,591,128

 Commitments and Contingencies (Notes 5,14, and 16)                                                       	

 NET POSITION
       Unexpended Appropriations
       	 Unexpended Appropriations - Earmarked Funds (Note 21)                                        $ 	1,660,141             $ 	3,390,451
       	 Unexpended Appropriations - All Other Funds                                                     5,056,293                5,829,206
       Cumulative Results of Operations
       	 Cumulative Results of Operations - Earmarked Funds (Note 21)                                          9,939,669           10,073,516
       	 Cumulative Results of Operations - All Other Funds                                                    9,060,131            7,514,740
 TOTAL NET POSITION                                                                                   $   25,716,234           $   26,807,913
 TOTAL LIABILITIES AND NET POSITION                                                                   $   30,419,547           $   31,399,041

The accompanying notes are an integral part of these financial statements.




                                                                                                                                             173
F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y   R E P O R T
NROI TNECSI P
P           TAOL TFHI EN AF N
                            I NCAI A
                                   N LC ISATLA TS ETM
                                                    A TE ENM
                                                           T ES N T S




United States Department of Commerce Consolidated Statements of Net Cost

For the Years Ended September 30, 2012 and 2011 (Note 17) (In Thousands)

                                                                                                                 FY 2012              FY 2011


Theme 1: Economic Growth
  Gross Costs                                                                                                $    6,531,035     $      5,315,520
  Less: Earned Revenue                                                                                           	(2,628,952)         	(2,450,163)

  Net Program Costs                                                                                              	3,902,083           	2,865,357


Theme 2: Science and Information
  Gross Costs                                                                                                     4,156,232            4,436,424
  Less: Earned Revenue                                                                                           	(520,569)           	(481,062)

  Net Program Costs                                                                                               3,635,663            3,955,362


Theme 3: Environmental Stewardship
  Gross Costs                                                                                                     2,331,038            2,667,910
  Less: Earned Revenue                                                                                           	(186,763)           	(254,829)

  Net Program Costs                                                                                               2,144,275            2,413,081


NET COST OF OPERATIONS                                                                                       $    9,682,021     $      9,233,800



The accompanying notes are an integral part of these financial statements.




  174
                                                        F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                    N O TPERSI N
                                                                                               TOC I TP H
                                                                                                        A LE F I N A N C I A L S T A T E M E N T S




United States Department of Commerce Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2012 and 2011 (In Thousands)

                                                                             FY 2012                                                FY 2011

                                                         Earmarked                                              Earmarked
                                                            Funds            All Other      Consolidated           Funds           All Other      Consolidated
                                                          (Note 21)           Funds            Total             (Note 21)          Funds            Total
Cumulative Results Of Operations:
	 Beginning Balance                                    $ 10,073,516      $    7,514,740     $ 17,588,256       $ 10,189,816    $    6,680,597     $    16,870,413

Budgetary Financing Sources:
	 Appropriations Used                                    	1,638,458          8,631,942        10,270,400        	665,766           8,776,595            9,442,361
	 Non-exchange Revenue                                      222,494          	12,539             235,033          95,804           	15,379                111,183
	 Donations and Forfeitures of Cash and
		Cash Equivalents                                       	-                    5,303                  5,303     	-                    1,651              1,651
	 Transfers In/(Out) Without Reimbursement, Net          	18,390             104,419               122,809      	25,795            	93,378            	119,173
	 Rescissions (Note 18)                                  	(18,198)           	-                     (18,198)    	-                 	(54,800)          	(54,800)
	 Other Budgetary Financing Sources/(Uses), Net          	-                    6,208                  6,208     	-                 	(4,000)           	(4,000)

Other Financing Sources (Non-exchange):
	 Donations and Forfeitures of Property                  	-                  	579            	579               	-                 	458               	458
	 Transfers In/(Out) Without Reimbursement, Net          	-                  	182,220        	182,220           	-                 	(4,062)           	(4,062)
	 Imputed Financing Sources from Cost Absorbed
		by Others                                              	20,415                277,279            297,694      	22,797               325,128          347,925
	 Other Financing Sources/(Uses), Net                    	-                       (8,483)            (8,483)    	-                      (8,246)       	(8,246)

Total Financing Sources                                    1,881,559          9,212,006       11,093,565            810,162         9,141,481           9,951,643

Net Cost of Operations                                     (2,015,406)        (7,666,615)      (9,682,021)         (926,462)       (8,307,338)        	(9,233,800)

Net Change                                                  (133,847)         1,545,391        1,411,544           (116,300)          834,143             717,843

Cumulative Results of Operations – Ending Balance          9,939,669          9,060,131       18,999,800         10,073,516         7,514,740          17,588,256

Unexpended Appropriations:
	 Beginning Balance                                      	3,390,451           5,829,206        9,219,657         	4,099,319         8,782,873          12,882,192

Budgetary Financing Sources:
	 Appropriations Received (Note 18)                      	-                   7,884,258        7,884,258        	-                  7,669,352           7,669,352
	 Appropriations Transferred In/(Out), Net               	-                      23,223      	23,223            	-                 	11,239            	11,239
	 Rescissions of Appropriations (Note 18)                	-                       (5,450)    	(5,450)           	-                  (1,803,198)       	(1,803,198)
	 Other Adjustments                                      	(91,852)               (43,002)       (134,854)       	(43,102)              (54,465)       	(97,567)
	 Appropriations Used                                    (1,638,458)          (8,631,942)    (10,270,400)       	(665,766)          (8,776,595)       	(9,442,361)

Total Budgetary Financing Sources                          (1,730,310)         (772,913)       (2,503,223)      	(708,868)          (2,953,667)       	(3,662,535)

Unexpended Appropriations – Ending Balance                 1,660,141          5,056,293        6,716,434        	3,390,451         	5,829,206         	9,219,657

NET POSITION                                           $ 	11,599,810     $ 14,116,424       $ 25,716,234       $ 	13,463,967   $ 13,343,946       $    26,807,913

The accompanying notes are an integral part of these financial statements.




                                                                                                                                                  175
 F Y   2 0 1 2   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y     R E P O R T
NROI TNECSI P
P           TAOL TFHI EN AF N
                            I NCAI A
                                   N LC ISATLA TS ETM
                                                    A TE ENM
                                                           T ES N T S




United States Department of Commerce Combined Statements of Budgetary Resources
For the Years Ended September 30, 2012 and 2011 (Note 18) (In Thousands)
                                                                                          FY 2012                                        FY 2011
                                                                                             Non-budgetary Credit                           Non-budgetary Credit
                                                                            Budgetary     Program Financing Accounts       Budgetary     Program Financing Accounts

BUDGETARY RESOURCES:
Unobligated Balance, Brought Forward, October 1                         $   9,995,115             $    86              $ 12,155,652              $    873
Adjustments to Unobligated Balance, Brought Forward                         	3                        	(1)                        2                  	(1)
Unobligated Balance Brought Forward, October 1, as Adjusted                  9,995,118                	85                  12,155,654                     872
Actual Recoveries of Prior-years Unpaid Obligations                            298,066                	4,561                  323,886                  98,196
Actual Nonexpenditure Transfers of Unobligated Balance, Net                 	17,329                   	-                       21,056                	-
Borrowing Authority Withdrawn                                               	-                        	(4,561)             	-                        	(97,570)
Other Changes in Unobligated Balance, Net                                     (134,689)               	-                   	(97,678)                 	-
Unobligated Balance From Prior-years Budget Authority, Net                  10,175,824                     85              12,402,918                 1,498
Appropriations                                                               8,035,812                	-                    5,939,022                	-
Borrowing Authority                                                         	2,538                     71,668              	-                        77,597
Spending Authority From Offsetting Collections                               4,270,868                 33,701               3,947,942                30,057
TOTAL BUDGETARY RESOURCES                                               $ 22,485,042              $    105,454         $ 22,289,882              $    109,152

STATUS OF BUDGETARY RESOURCES:
Obligations Incurred                                                    $ 12,132,645              $    105,452         $ 12,294,767              $    109,066
Unobligated Balance, End of Year
	Apportioned                                                                 1,157,028                	-                      581,374                	-
	 Exempt From Apportionment                                                    136,995                	-                      392,735                	-
	Unapportioned                                                               9,058,374                 2                    9,021,006                 86
Total Unobligated Balance, End of Year                                      10,352,397                        2             9,995,115                      86
TOTAL STATUS OF BUDGETARY RESOURCES                                     $ 22,485,042              $    105,454         $ 22,289,882              $    109,152

CHANGE IN UNPAID OBLIGATED BALANCE, NET:
Unpaid Obligations:
Unpaid Obligations, Brought Forward, October 1                          $ 11,152,608              $    145,079         $ 13,171,979              $    229,115
Adjustments to Unpaid Obligations, Brought Forward                                153                 	4                 	-                          	-
Obligations Incurred                                                       12,132,645                  105,452             12,294,767                 109,066
Outlays, Gross                                                            (14,638,956)                (115,838)          	(13,990,252)               	(94,906)
Actual Recoveries of Prior-years Unpaid Obligations                          (298,066)                	(4,561)            	(323,886)                 	(98,196)
UNPAID OBLIGATIONS, END OF YEAR                                         $    8,348,384            $    130,136         $ 11,152,608              $    145,079
Uncollected Customer Payments:
Uncollected Customer Payments, Brought Forward, October 1               $     (646,248)           $    (390)           $ 	(523,383)              $   	(735)
Adjustments to Uncollected Customer Payments, Brought Forward                     (158)               	(1)               	-                          	-
Change in Uncollected Customer Payments                                         38,076                 (103)             	(122,865)                    345
UNCOLLECTED CUSTOMER PAYMENTS, END OF YEAR                              $     (608,330)           $       (494)        $ 	(646,248)              $   	(390)

Unpaid Obligated Balance, Net, Brought Forward, October 1                   10,506,360                 144,689             12,648,596                 228,380
Unpaid Obligated Balance, Net, End of Year                                   7,740,054                 129,642             10,506,360                	144,689

BUDGET AUTHORITY, NET:
Budget Authority, Gross                                                 $ 12,309,218              $    105,369         $ 	9,886,964              $   	107,654
Actual Offsetting Collections                                              (4,304,870)                (104,012)          	(4,026,213)                	(72,048)
Change in Uncollected Customer Payments                                        38,076                     (103)          	(122,865)                  	345
BUDGET AUTHORITY, NET                                                   $ 8,042,424               $      1,254         $ 	5,737,886              $   	35,951

OUTLAYS, NET:
Outlays, Gross                                                          $ 14,638,956              $    115,838         $ 13,990,252              $     94,906
Actual Offsetting Collections                                               (4,304,870)               (104,012)          	(4,026,213)                	(72,048)
Outlays, Net                                                              	10,334,086                   11,826             9,964,039                   22,858
Distributed Offsetting (Receipts)/Outlays, Net                                 (62,667)               	-                 	(33,570)                   	-
AGENCY OUTLAYS, NET                                                     $ 10,271,419              $     11,826         $    9,930,469            $     22,858

The accompanying notes are an integral part of these financial statements.



  176
                                                        F Y   2 0 1 2        P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y          R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Notes to the Financial Statements
(All Tables are Presented in Thousands)


   NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES


A	 Reporting Entity



 T  
         he Department of Commerce (the Department) is a cabinet-level agency of the Executive Branch of the U.S. government.
         Established in 1903 to promote U.S. business and trade, the Department’s broad range of responsibilities includes predicting
         the weather, granting patents and registering trademarks, measuring economic growth, gathering and disseminating
statistical data, expanding U.S. exports, developing innovative technologies, helping local communities improve their economic
development capabilities, promoting minority entrepreneurial activities, and monitoring the stewardship of national assets.
The Department is composed of 12 bureaus, the Emergency Oil and Gas and Steel Loan Guarantee Programs, and Departmental
Management.

For the Consolidating Statements of Net Cost (see Note 17), the Department’s entities have been grouped together as follows:

      ●●   National Oceanic and Atmospheric Administration (NOAA)

      ●●   U.S. Patent and Trademark Office (USPTO)

      ●●   Economics and Statistics Administration (ESA) — based on organizational structure

                ●●   Bureau of Economic Analysis (BEA)

                ●●   Census Bureau

      ●●   National Institute of Standards and Technology (NIST)

      ●●   National Telecommunications and Information Administration (NTIA)

      ●●   Others

                ●●   Bureau of Industry and Security (BIS)

                ●●   Economic Development Administration (EDA)

                ●●   Emergency Oil and Gas and Steel Loan Guarantee Programs (ELGP)

                ●●   International Trade Administration (ITA)

                ●●   Minority Business Development Agency (MBDA)

                ●●   National Technical Information Service (NTIS)




                                                                                                                               177
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




       ●●   Departmental Management (DM)

               ●●   Franchise Fund

               ●●   Gifts and Bequests (G&B)

               ●●   Herbert C. Hoover Building Renovation Project (HCHB)

               ●●   Office of Inspector General (OIG)

               ●●   Salaries and Expenses (S&E)

               ●●   Working Capital Fund (WCF)


B	   Basis of Accounting and Presentation

The Department’s fiscal year ends September 30. These financial statements reflect both accrual and budgetary accounting
transactions. Under the accrual method of accounting, revenues are recognized when earned and expenses are recognized
when incurred, without regard to the receipt or payment of cash. Budgetary accounting is designed to recognize the obligation
of funds according to legal requirements, which in many cases is made prior to the occurrence of an accrual-based transaction.
Budgetary accounting is essential for compliance with legal constraints and controls over the use of federal funds.

These financial statements have been prepared from the accounting records of the Department in conformance with U.S.
generally accepted accounting principles (GAAP) and the form and content for entity financial statements specified by the
Office of Management and Budget (OMB) in Revised Circular No. A-136, Financial Reporting Requirements. GAAP for federal
entities are the standards prescribed by the Federal Accounting Standards Advisory Board, which is the official body for setting
the accounting standards of the U.S. government.

Throughout these financial statements, intragovernmental assets, liabilities, earned revenue, and costs have been classified
according to the type of entity with whom the transactions were made. Intragovernmental assets and liabilities are those from
or to other federal entities. Intragovernmental earned revenue represents collections or accruals of revenue from other federal
entities, and intragovernmental costs are payments or accruals to other federal entities.

The Department has allocation transfer transactions with other federal agencies as both a transferring (parent) entity and
as a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget
authority and outlay funds to another department. A separate fund account (allocation account) is created in the U.S. Treasury
as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances are credited
to this account, and subsequent obligations and outlays incurred by the child entity are charged to this allocation account as
they execute the delegated activity on behalf of the parent entity. Generally, all financial activity related to these allocation
transfers (e.g. budget authority, obligations, and outlays) is reported in the financial statements of the parent entity, from
which the underlying legislative authority, appropriations, and budget apportionments are derived. EDA allocates funds, as the
parent, to the U.S. Department of Agriculture’s Rural Development Administration. Therefore, all financial activity related to
these EDA funds are reported in the Department’s financial statements. NOAA, EDA, Census Bureau, and BEA have received
allocation transfers, as the child, from the General Services Administration (GSA), Environmental Protection Agency, Delta
Regional Authority, Appalachian Regional Commission, and Northern Border Regional Commission. Activity relating to these
child allocation transfers is not reported in the Department’s financial statements, except that the Department has recognized
Imputed Costs and Imputed Financing Sources From Cost Absorbed by Others for expenses, as the child, under GSA’s Federal
Buildings Funds.




 178
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




C	   Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources, which remain
available over time. These specifically identified revenues and other financing sources are required by statute to be used for
designated activities, benefits, or purposes, and must be accounted for separately from the government’s general revenues.
Earmarked funds include general funds, public enterprise revolving funds (not including credit reform financing funds), special
funds, and a trust fund. (See Note 21, Earmarked Funds.)


D	   Elimination of Intra-entity and Intra-Departmental Transactions and Balances

Transactions and balances within a reporting entity (intra-entity) have been eliminated from the financial statements, except
as noted below. Transactions and balances among the Department’s entities (intra-Departmental) have been eliminated from
the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in
Net Position. The Statements of Budgetary Resources are presented on a combined basis; therefore, intra-Departmental and
intra-entity transactions and balances have not been eliminated from these statements.


E	   Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of funds in the Department’s accounts with the U.S. Department of the
Treasury (Treasury). Deposit Funds include amounts held in customer deposit accounts.

Treasury processes cash receipts and disbursements for the Department’s domestic operations. Cash receipts and disbursements
for the Department’s overseas operations are primarily processed by the U.S. Department of State’s financial service centers.


F	   Accounts Receivable, Net

Accounts Receivable are recognized primarily when the Department performs reimbursable services or sells goods. Accounts
Receivable are reduced to net realizable value by an Allowance for Uncollectible Accounts. This allowance is estimated
periodically using methods such as the identification of specific delinquent receivables, and the analysis of aging schedules and
historical trends adjusted for current market conditions.


G	   Advances and Prepayments

Advances are payments the Department has made to cover a part or all of a grant recipient’s anticipated expenses, or are advance
payments for the cost of goods and services to be acquired. For grant awards, the recipient is required to periodically (monthly or
quarterly) report the amount of costs incurred. Prepayments are payments the Department has made to cover certain periodic
expenses before those expenses are incurred, such as subscriptions and rent. Advances and Prepayments are included in
Other Assets.


H	   Direct Loans and Loan Guarantees, Net

A direct loan is recorded as a receivable after the Department disburses funds to a borrower. The Department also makes loan
guarantees with respect to the payment of all or part of the principal or interest on debt obligations of non-federal borrowers to




                                                                                                                              179
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




non-federal lenders. A borrower-defaulted loan guaranteed by the Department is recorded as a receivable from the borrower
after the Department disburses funds to the lender.

Interest Receivable generally represents uncollected interest income earned on loans. For past-due loans, only up to 180 days
of interest income is generally recorded.

Foreclosed Property is acquired primarily through foreclosure and voluntary conveyance, and is recorded at the fair market value
at the time of acquisition. Foreclosed Property is adjusted to the current fair market value each fiscal year-end.

Direct Loans and Loan Guarantees Obligated before October 1, 1991 (pre-FY 1992): Loans Receivable are reduced by an Allowance
for Loan Losses, which is based on an analysis of each loan’s outstanding balance. The value of each receivable, net of any
Allowance for Loan Losses, is supported by the values of pledged collateral and other assets available for liquidation, and by the
Department’s analysis of financial information of parties against whom the Department has recourse for the collection of these
receivables.

The Economic Development Revolving Fund is required to make annual interest payments to Treasury after each fiscal year-end,
based on its outstanding receivables as of September 30.

Direct Loans and Loan Guarantees Obligated after September 30, 1991 (post-FY 1991): Post-FY 1991 obligated direct loans and loan
guarantees and the resulting receivables are governed by the Federal Credit Reform Act of 1990.

For a direct or guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended
to estimate the long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of
estimated cash outflows over the life of the loan, minus the present value of estimated cash inflows, discounted at the applicable
Treasury interest rate. Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from
interest rate differentials, interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows.
The Department calculates its subsidy costs based on a model created and provided by OMB.

A Loan Receivable is recorded at the present value of the estimated cash inflows less cash outflows. The difference between
the outstanding principal of the loan and the present value of its net cash inflows is recorded as the Allowance for Subsidy Cost.
A subsidy reestimate is normally performed annually, as of September 30. The subsidy reestimate takes into account all factors
that may have affected the estimated cash flows. Any adjustment resulting from the reestimate is recognized as a subsidy
expense (or a reduction in subsidy expense). The portion of the Allowance for Subsidy Cost related to subsidy modifications and
reestimates is calculated annually, as of September 30.

The amount of any downward subsidy reestimates as of September 30 must be disbursed to Treasury in the subsequent
fiscal year. Appropriations are normally obtained in the following fiscal year for any upward subsidy reestimates.


I	   Inventory, Materials, and Supplies, Net

Inventory, Materials, and Supplies, Net are stated at the lower of cost or net realizable value primarily under the average,
weighted-average, and first-in, first-out methods, and are adjusted for the results of physical inventories. Inventory, Materials,
and Supplies are expensed when consumed. There are no restrictions on their sale, use, or disposition.




 180
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




J	   General Property, Plant, and Equipment, Net

General Property, Plant, and Equipment, Net (General PP&E) is composed of capital assets used in providing goods or services.
General PP&E is stated at full cost, including all costs related to acquisition, delivery, and installation, less Accumulated
Depreciation. General PP&E also includes assets acquired through capital leases, which are initially recorded at the amount
recognized as a liability for the capital lease at its inception.

Capitalization Threshold: The Department’s general policy is to capitalize General PP&E if the initial acquisition price is $25 thousand
or more and the useful life is two years or more. NOAA, NIST and USPTO are an exception to this policy, based on a cost
vs. benefits and materiality analysis given the size of these bureaus, having a capitalization threshold of $200 thousand and
$50 thousand for NOAA, and NIST and USPTO respectively. General PP&E with an acquisition cost less than the capitalization
threshold is expensed when purchased. All bureaus other than NOAA have a personal property bulk purchase capitalization
threshold of $250 thousand, and NOAA has a personal property bulk purchase capitalization threshold of $1 million.

Depreciation: Depreciation is recognized on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements, which are depreciated over the remaining life of the lease or over the useful life of the improvement,
whichever is shorter. Land and Construction-in-progress are not depreciated.

Real Property: GSA provides most of the facilities in which the Department operates, and generally charges rent based on
comparable commercial rental rates. Accordingly, GSA-owned properties are not included in the Department’s General PP&E.
The Department’s real property primarily consists of facilities for NIST and NOAA. Land Improvements consist of a retaining wall
to protect against shoreline erosion.

Construction-in-progress: Costs for the construction, modification, or modernization of General PP&E are initially recorded as
Construction-in-progress. The Department’s construction-in-progress consists primarily of satellites under development for
NOAA, and major laboratory renovations and construction projects under development for NIST. Upon completion of the work,
the costs are transferred to the appropriate General PP&E account.


K	   Notes Receivable

Notes Receivable, included in Other Assets, arise through the NOAA sale of foreclosed property to non-federal parties.
The property is used as collateral, and an Allowance for Uncollectible Amounts is established if the net realizable value of
the collateral is less than the outstanding balance of the Notes Receivable. An analysis of the collectability of receivables
is performed periodically. Any gains realized through the sale of foreclosed property are initially deferred and recognized in
proportion to the percentage of principal repaid.


L	   Non-entity Assets

Non-entity assets are assets held by the Department that are not available for use in its operations. Non-entity Fund Balance
with Treasury includes customer deposits held by the Department until customer orders are received, and monies payable to the
Treasury General Fund for custodial activity and for loan programs. Non-entity Direct Loans and Loan Guarantees, Net includes
EDA’s Drought Loan Portfolio. The Portfolio collections are submitted to Treasury monthly.




                                                                                                                                  181
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




M	   Liabilities

A liability for federal accounting purposes is a probable and measurable future outflow or other sacrifice of resources as a result
of past transactions or events.

Accounts Payable: Accounts Payable are amounts primarily owed for goods, services, or capitalized assets received, progress on
contract performance by others, and other expenses due.

Debt to Treasury: The Department has borrowed funds from Treasury through the Fisheries Finance Financing Account for
various NOAA direct loan programs, through the Fishing Vessel Obligation Guarantee (FVOG) loan guarantee program, and
through NTIA’s Public Safety Trust Fund, and State and Local Implementation Fund. To simplify interest calculations, the
Fisheries Finance Financing Account and FVOG borrowings are dated October 1. Interest rates are based on a weighted
average of rates during the term of the borrowed funds. The weighted average rate for each cohort’s borrowing is recalculated
at the end of each fiscal year during which disbursements are made. Annual interest payments on unpaid principal balances
as of September 30 are required. Principal repayments are required only at maturity, but are permitted at any time during the
term of the loan. The Department’s primary financing source for repayments of Debt to Treasury is the collection of principal
on the associated Loans Receivable, and deposits from public safety communications and electromagnetic spectrum auction
proceeds. Balances of any borrowed but undisbursed Fisheries Finance Financing Account and FVOG funds will earn interest
at the same rate used in calculating interest expense. The amount borrowed by NTIA are interest-free. The amount, reported
for Debt to Treasury includes accrued interest payable.

Resources Payable to Treasury: Resources Payable to Treasury includes liquidating fund assets in excess of liabilities that are being
held as working capital for the Economic Development Revolving Fund loan programs and the FVOG loan guarantee program.
EDA’s Drought Loan Portfolio is a non-entity asset; therefore, the amount of the Portfolio is also recorded as a liability to the
Treasury General Fund. The Portfolio collections are returned to the Treasury General Fund annually, and the liability is reduced
accordingly.

Unearned Revenue: Unearned Revenue is the portion of monies received for which goods and services have not yet been provided
or rendered by the Department. Revenue is recognized as reimbursable costs are incurred, and the Unearned Revenue balance
is reduced accordingly. Unearned Revenue also includes the balances of customer deposit accounts held by the Department.
The intragovernmental Unearned Revenue primarily relates to monies collected in advance under reimbursable agreements.
The majority of the Unearned Revenue with the public represents patent and trademark application and user fees that are
pending action.

Accrued FECA Liability: The Federal Employees Compensation Act (FECA) provides income and medical cost protection to
covered federal civilian employees injured on the job, to employees who have incurred work-related occupational diseases, and
to beneficiaries of employees whose deaths are attributable to job-related injuries or occupational diseases. The FECA program
is administered by the U.S. Department of Labor (DOL), which pays valid claims against the Department and subsequently
seeks reimbursement from the Department for these paid claims. Accrued FECA Liability, included in Intragovernmental Other
Liabilities, represents amounts due to DOL for claims paid on behalf of the Department.

Loan Guarantee Liabilities: Post-FY 1991 obligated loan guarantees are governed by the Federal Credit Reform Act of 1990. For a
guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended to estimate the
long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of estimated cash outflows
over the lives of the loans, minus the present value of estimated cash inflows, discounted at the applicable Treasury interest rate.




 182
                                                F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from interest rate differentials,
interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows. The Department calculates
its subsidy costs based on a model created and provided by OMB.

For a non-acquired guaranteed loan outstanding, the present value of the estimated cash inflows less cash outflows of the loan
guarantee is recognized as a Loan Guarantee Liability. The Loan Guarantee Liability is normally reestimated annually each year,
as of September 30. The subsidy reestimate takes into account all factors that may have affected the estimated cash flows.
Any adjustment resulting from the reestimate is recognized as a subsidy expense (or a reduction in subsidy expense).

Federal Employee Benefits:

Actuarial FECA Liability: Actuarial FECA Liability represents the liability for future workers’ compensation (FWC) benefits, which
includes the expected liability for death, disability, medical, and miscellaneous costs for approved cases. The liability is determined
by DOL annually, as of September 30, using a method that utilizes historical benefits payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. The projected annual benefit payments are discounted to
present value using OMB’s economic assumptions for ten-year Treasury notes and bonds. To provide more specifically for the
effects of inflation on the liability for FWC benefits, wage inflation factors (Cost of Living Allowance) and medical inflation factors
(Consumer Price Index - Medical) are applied to the calculation of projected future benefits. These factors are also used to adjust
historical payments of benefits by the Department to current-year constant dollars.

The model’s resulting projections are analyzed by DOL to ensure that the amounts are reliable. The analysis is based on two
tests: (1) a comparison of the percentage change in the liability amount by agency to the percentage change in the actual
payments; and (2) a comparison of the ratio of the estimated liability to the actual payment of the beginning year calculated for
the current projection to the liability-payment ratio calculated for the prior projection.

NOAA Corps Retirement System Liability and NOAA Corps Post-retirement Health Benefits Liability: These liabilities are recorded at
the actuarial present value of projected benefits, calculated annually, as of September 30. The actuarial cost method used to
determine these liabilities is the aggregate entry age normal method. Under this method, the actuarial present value of projected
benefits is allocated on a level basis over the earnings or the service of the group between entry age and assumed exit ages.
The portion of this actuarial present value allocated to the valuation year is called the normal cost. For purposes of calculating
the normal cost, certain actuarial assumptions utilized for the actual valuation of U.S. Military Retirement System are used.
Actuarial gains and losses, and prior and past service costs, if any, are recognized immediately in the year they occur, without
amortization. The medical claim rates used for the NOAA Corps Post-retirement Health Benefits Liability actuarial calculations
are based on the claim rates used for the U.S. Department of Defense Medicare-Eligible Retiree Health Care Fund actuarial
valuations. Demographic assumptions appropriate to covered personnel are also used. For background information about these
plans, see Note 1.Q, Employee Retirement Benefits.

Environmental and Disposal Liabilities: NIST operates a nuclear reactor licensed by the U.S. Nuclear Regulatory Commission, in
accordance with NIST’s mission of setting standards and examining new technologies. The Department currently estimates the
cost of decommissioning this facility to be $75.3 million. The NIST decommissioning estimate includes an assumption that an
offsite waste disposal facility will become available, when needed, estimated in 2029. Currently, an offsite disposal location has
not been identified, and the NIST environmental liability cost estimate includes an amount approved by the Nuclear Regulatory
Commission for offsite waste disposal. The total estimated decommissioning cost is being accrued on a straight-line basis over
the expected life of the facility. Under current legislation, funds to cover the expense of decommissioning the facility’s nuclear
reactor should be requested in a separate appropriation when the decommissioning date becomes relatively certain.




                                                                                                                                 183
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




The Department has incurred cleanup costs related to the costs of removing, containing, and/or disposing of hazardous waste
from facilities used by NOAA. The Department has estimated its liabilities for environmental cleanup costs at all NOAA-used
facilities, including the decommissioning of ships. The largest of NOAA’s environmental liabilities relates to the clean-up of the
Pribilof Islands in Alaska, which contains waste from the U.S. Department of Defense’s use during World War II. The Department
does not recognize a liability for environmental cleanup costs for NOAA-used facilities that are less than $25 thousand per project.
When an estimate of cleanup costs includes a range of possible costs, the most likely cost is reported. When no cost is more
likely than another, the lowest estimated cost in the range is reported. The liability is reduced as progress payments are made.

The Department may have liabilities associated with asbestos-containing materials (ACM) and lead-based paints (LBP) at certain
NOAA facilities. The Department has scheduled surveys to assess the potential for liabilities for ACM and LBP contamination.
All known issues, however, are contained, and NOAA facilities meet current environmental standards. No cost estimates are
presently available for facilities that have not yet been assessed for ACM or LBP issues.

Accrued Payroll and Annual Leave: These categories include salaries, wages, and other compensation earned by employees, but
not disbursed as of September 30. Annually, as of September 30, the balances of Accrued Annual Leave are adjusted to reflect
current pay rates. Sick leave and other types of non-vested leave are expensed as taken.

Accrued Grants: The Department administers a diverse array of financial assistance programs and projects concerned with the entire
spectrum of business and economic development efforts that promote activities such as expanding U.S. exports, creating jobs,
contributing to economic growth, developing innovative technologies, promoting minority entrepreneurship, protecting coastal
oceans, providing weather services, managing worldwide environmental data, and using telecommunications and information
technologies to better provide public services. Disbursements of funds under the Department’s grant programs are generally
made when requested by grantees. These drawdown requests may be received and fulfilled before grantees make the program
expenditures. When the Department has disbursed funds but the grant recipient has not yet reported expenditures, these
disbursements are recorded as advances. If a recipient, however, reports program expenditures that have not been advanced
by the Department by September 30, such amounts are recorded as grant expenses and grants payable as of September 30.

Capital Lease Liabilities: Capital leases are leases for property, plant, and equipment that transfer substantially all the benefits and
risks of ownership to the Department.

ITA Foreign Service Nationals’ Voluntary Separation Pay: This liability, included in Other Liabilities, is based on the salaries and benefit
statuses of employees in countries where governing laws require a provision for separation pay.

Contingent Liabilities and Contingencies: A contingency is an existing condition, situation, or set of circumstances involving
uncertainty as to possible gain or loss. The uncertainty will ultimately be resolved when one or more future events occur or fail
to occur. A contingent liability (included in Other Liabilities) and an expense are recognized when a past event has occurred, and
a future outflow or other sacrifice of resources is measurable and probable. A contingency is considered probable when the
future confirming event or events are more likely than not to occur, with the exception of pending or threatened litigation and
unasserted claims. For pending or threatened litigation and unasserted claims, the future confirming event or events are likely
to occur. A contingency is disclosed in the Notes to the Financial Statements if any of the conditions for liability recognition are
not met and there is at least a reasonable possibility that a loss or an additional loss may have been incurred. A contingency is
considered reasonably possible when the chance of the future confirming event or events occurring is more than remote but less
than probable. A contingency is not recognized as a contingent liability and an expense nor disclosed in the Notes to the Financial
Statements when the chance of the future event or events occurring is remote. A contingency is considered remote when the
chance of the future event or events occurring is slight.




  184
                                                  F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Liabilities Not Covered by Budgetary Resources: These are liabilities for which congressional actions are needed before budgetary
resources can be provided. The Department anticipates that liabilities not covered by budgetary resources will be funded from
future budgetary resources when required. These amounts are detailed in Note 15.

Under accrual accounting, the expense for annual leave is recognized when the leave is earned. However, for most of the
Department’s fund groups, appropriations are provided to pay for the leave when it is taken. As a result, budgetary resources do
not cover a large portion of Accrued Annual Leave.

The Department generally receives budgetary resources for Federal Employee Benefits when they are needed for
disbursements.


N	   Commitments

Commitments are preliminary actions that will ultimately result in an obligation to the U.S. government if carried through, such
as purchase requisitions, estimated travel orders, or unsigned contracts/grants. Major long-term commitments are disclosed in
Note 16, Commitments and Contingencies.


O	   Net Position

Net Position is the residual difference between assets and liabilities, and is composed of Unexpended Appropriations and
Cumulative Results of Operations.

Unexpended Appropriations represent the total amount of unexpended budget authority that is classified as appropriations, both
obligated and unobligated. Unexpended Appropriations is increased for Appropriations Received, is reduced for Appropriations
Used, and is adjusted for other changes in appropriations, such as transfers and rescissions. Cumulative Results of Operations
is the net result of the Department’s operations since inception.


P	   Revenues and Other Financing Sources

Appropriations Used: Most of the Department’s operating funds are provided by congressional appropriations of budget authority.
The Department receives appropriations on annual, multiple-year, and no-year bases. Upon expiration of an annual or multiple-
year appropriation, the obligated and unobligated balances retain their fiscal year identity, and are maintained separately within
an expired account. The unobligated balances can be used to make legitimate obligation adjustments, but are otherwise not
available for expenditures. Annual and multiple-year appropriations are canceled at the end of the fifth year after expiration.
No-year appropriations do not expire. Appropriations of budget authority are recognized as used when costs are incurred, for
example, when goods and services are received or benefits and grants are provided.

Exchange and Non-exchange Revenue: The Department classifies revenue as either exchange revenue or non-exchange revenue.
Exchange revenue is derived from transactions in which both the government and the other party receive value, including
processing patents and registering trademarks, the sale of weather data, nautical charts, and navigation information, and other
sales of goods and services. This revenue is presented on the Department’s Consolidated Statements of Net Cost, and serves
to reduce the reported cost of operations borne by the taxpayer. Non-exchange revenue is derived from the government’s
sovereign right to demand payment, including fines for violations of fisheries and marine protection laws. Non-exchange revenue
is recognized when a specifically identifiable, legally enforceable claim to resources arises, and to the extent that collection is




                                                                                                                              185
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




probable and the amount is reasonably estimable. This revenue is not considered to reduce the cost of the Department’s
operations and is therefore reported on the Consolidated Statements of Changes in Net Position.

In certain cases, law or regulation sets the prices charged by the Department, and, for program and other reasons, the Department
may not receive full cost (e.g., the processing of patents and registering of trademarks, and the sale of weather data, nautical
charts, and navigation information). Prices set for products and services offered through the Department’s working capital funds
are intended to recover the full costs incurred by these activities.

Imputed Financing Sources from Cost Absorbed by Others (and Related Imputed Costs): In certain cases, operating costs of the
Department are paid for in full or in part by funds appropriated to other federal entities. For example, Civil Service Retirement
System pension benefits for applicable Departmental employees are paid for in part by the U.S. Office of Personnel Management
(OPM), and certain legal judgments against the Department are paid for in full from the Judgment Fund maintained by Treasury.
The Department includes applicable Imputed Costs on the Consolidated Statements of Net Cost. In addition, an Imputed
Financing Source from Cost Absorbed by Others is recognized on the Consolidated Statements of Changes in Net Position.

Transfers In/(Out): Intragovernmental transfers of budget authority (i.e., appropriated funds) or of assets without reimbursement
are recorded at book value.


Q	   Employee Retirement Benefits

Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS): Most employees of the Department participate
in either the CSRS or FERS defined-benefit pension plans. FERS went into effect on January 1, 1987. FERS and Social Security
automatically cover most employees hired after December 31, 1983. Employees hired prior to January 1, 1984 could elect to
either join FERS and Social Security, or remain in CSRS.

The Department is not responsible for and does not report CSRS or FERS assets, accumulated plan benefits, or liabilities
applicable to its employees. OPM, which administers the plans, is responsible for and reports these amounts.

For CSRS-covered regular employees, the Department was required to make contributions to the plan equal to 7 percent of an
employee’s basic pay. Employees contributed 7 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s
service cost for covered employees, which is an estimate of the amount of funds, that, if accumulated annually and invested over
an employee’s career, would be enough to pay that employee’s future benefits. Since the U.S. government’s estimated service
cost exceeds contributions made by employer agencies and covered employees, this plan is not fully funded by the Department
and its employees. The Department has recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by
Others for the difference between the estimated service cost and the contributions made by the Department and its covered
employees.

For FERS-covered regular employees, the Department was required to make contributions of 11.9 percent and 11.7 percent
of basic pay for FY 2012 and FY 2011, respectively. Employees contributed 0.8 percent of basic pay. For each fiscal year, OPM
calculates the U.S. government’s service cost for covered employees. Since the U.S. government’s estimated service cost
exceeds contributions made by employer agencies and covered employees, this plan was not fully funded by the Department
and its employees. The Department has recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by
Others for the difference between the estimated service cost and the contributions made by the Department and its covered
employees.




 186
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Employees participating in FERS are covered under the Federal Insurance Contributions Act (FICA), for which the Department
contributes a matching amount to the Social Security Administration.

NOAA Corps Retirement System: Active-duty officers of the NOAA Corps are covered by the NOAA Corps Retirement System,
an unfunded, pay-as-you-go, defined-benefit plan administered by the Department. Participants do not contribute to this plan.
Plan benefits are based primarily on years of service and compensation. Participants, as of September 30, 2012, included 311 active
duty officers, 364 nondisability retiree annuitants, 17 disability retiree annuitants, and 50 surviving families. Key provisions include
voluntary nondisability retirement after 20 years of active service, disability retirement, optional survivor benefits, Consumer Price
Index (CPI) optional survivor benefits, and CPI adjustments for benefits.

Foreign Service Retirement and Disability System, and the Foreign Service Pension System: Foreign Commercial Officers are
covered by the Foreign Service Retirement and Disability System and the Foreign Service Pension System. ITA makes
contributions to the systems based on a percentage of an employee’s pay. Both systems are multi-employer plans
administered by the U.S. Department of State. The Department is not responsible for and does not report plan assets,
accumulated plan benefits, or liabilities applicable to its employees. The U.S. Department of State, which administers the
plan, is responsible for and reports these amounts.

Thrift Savings Plan (TSP): Employees covered by CSRS and FERS are eligible to contribute to the U.S. government’s TSP,
administered by the Federal Retirement Thrift Investment Board. A TSP account is automatically established for FERS-
covered employees, and the Department makes a mandatory contribution of one percent of basic pay. The Department also
makes matching contributions of up to four percent of basic pay for FERS-covered employees. FERS and CSRS-covered
employees have no limit on the percentage of pay contributed to their TSP account. However, the total contribution for
2012 may not exceed the IRS limit of $17 thousand. The Department makes no matching contributions for CSRS-covered
employees. TSP participants age 50 or older who are already contributing the maximum amount of contributions for which
they are eligible may also make catch-up contributions, subject to the IRS dollar limit for catch-up contributions.

Federal Employees Health Benefit (FEHB) Program: Most Departmental employees are enrolled in the FEHB Program, which provides
post-retirement health benefits. OPM administers this program and is responsible for the reporting of liabilities. Employer agencies
and covered employees are not required to make any contributions for post-retirement health benefits. OPM calculates the U.S.
government’s service cost for covered employees each fiscal year. The Department has recognized the entire service cost of
these post-retirement health benefits for covered employees as an Imputed Cost and an Imputed Financing Source From Cost
Absorbed by Others.

NOAA Corps Post-retirement Health Benefits: Active-duty officers of the NOAA Corps are covered by the health benefits program for
the NOAA Corps, which provides post-retirement health benefits. This is a pay-as-you-go plan administered by the Department.
Participants do not make any contributions to this plan.

Federal Employees Group Life Insurance (FEGLI) Program: Most Department employees are entitled to participate in the FEGLI
Program. Participating employees can obtain basic term life insurance, with the employee paying two-thirds of the cost and the
Department paying one-third. Additional coverage is optional, to be paid fully by the employee. The basic life coverage may be
continued into retirement if certain requirements are met. OPM administers this program and is responsible for the reporting of
liabilities. For each fiscal year, OPM calculates the U.S. government’s service cost for the post-retirement portion of basic life
coverage. Because the Department’s contributions to the basic life coverage are fully allocated by OPM to the pre-retirement
portion of coverage, the Department has recognized the entire service cost of the post-retirement portion of basic life coverage
as an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others.




                                                                                                                                  187
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




R	   Use of Estimates

The preparation of financial statements requires the Department to make estimates and assumptions that affect these financial
statements. Actual results may differ from those estimates.


S	   Tax Status

The Department is not subject to federal, state, or local income taxes. Accordingly, no provision for income taxes is recorded.


T	   Fiduciary Activities

Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposition by the U.S. government
of cash or other assets in which non-federal individuals or entities have an ownership interest that the U.S. government must
uphold. Fiduciary cash and other assets are not assets of the U.S. government, and, accordingly, are not recognized in the
accompanying consolidated financial statements.

The Department’s fiduciary activities consist of the following:

The Patent Cooperation Treaty authorizes USPTO to collect patent filing and search fees on behalf of the World Intellectual
Property Organization (WIPO), European Patent Office, Korean Intellectual Property Office, and the Australian Patent Office,
from U.S. citizens requesting an international patent. The Madrid Protocol Implementation Act authorizes USPTO to collect
trademark application fees on behalf of the International Bureau of WIPO from U.S. citizens requesting an international trademark.
These fiduciary activities are reported in Note 20.




 188
                                                F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 2. FUND BALANCE WITH TREASURY

Fund Balance with Treasury, by type, is as follows:
                                                                                        FY 2012                FY 2011
           General Funds                                                            $    8,987,526         $   11,214,030
           Revolving Funds                                                                 970,075                957,367
           Special Funds
           	    Digital Television Transition and Public Safety Fund                     8,842,490              9,062,212
           	 Patent and Trademark Surcharge Fund                                         233,529                233,529
           	Others                                                                      	83,948                	76,244
           Deposit Funds                                                                	138,405                126,983
           Trust Funds                                                                     4,611                  1,407
           Other Fund Types                                                                  697                (10,742)
           Total                                                                    $   19,261,281         $   21,661,030



Status of Fund Balance with Treasury is as follows:
                                                                                        FY 2012                FY 2011
           Temporarily Precluded From Obligation                                    $        796,526       $      810,049
           Unobligated Balance
             Available                                                                  1,293,699                 973,765
             Unavailable                                                                9,058,369               9,021,092
           Obligated Balance Not Yet Disbursed                                          7,740,057              10,506,354
           Non-budgetary                                                                	372,630               	349,770
           Total                                                                    $   19,261,281         $   21,661,030

See Note 18, Combined Statements of Budgetary Resources, for legal arrangements affecting the Department’s
use of Fund Balance with Treasury for FY 2012 and FY 2011.




                                                                                                                               189
F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 3. ACCOUNTS RECEIVABLE, NET

                                                              FY 2012
                                                    Accounts              Allowance for                   Accounts
                                                   Receivable,            Uncollectible                  Receivable,
                                                     Gross                  Accounts                        Net
                  Intragovernmental            $       116,009           $ 	-                        $          116,009

                  With the Public              $       116,327           $         (11,386)          $          104,941


                                                              FY 2011
                                                    Accounts              Allowance for                   Accounts
                                                   Receivable,            Uncollectible                  Receivable,
                                                     Gross                  Accounts                        Net
                  Intragovernmental            $        98,360           $ 	-                        $           98,360

                  With the Public              $       152,642           $         (11,796)          $          140,846


As a major partner in the federal response to the 2010 Deepwater Horizon oil spill, NOAA has incurred certain costs for providing
coordinated scientific weather and biological response services to that region, for which it expects to be reimbursed. NOAA has
receivables from the Coast Guard (Intragovernmental) totaling $11.5 million and $33.5 million for response and removal activities
as of September 30, 2012 and 2011, respectively. NOAA also has receivables from an oil company (With the Public) for
restoration activities totaling $66.0 million and $94.8 million as of September 30, 2012 and 2011, respectively. NOAA believes
these receivables are fully collectible, based on costs submitted to date, and reimbursements received. Therefore, no allowance
for uncollectible accounts has been established for these receivables.



   NOTE 4. CASH

                                                                                      FY 2012                    FY 2011
          Cash Not Yet Deposited with Treasury                                 $     4,463                  $     3,120
          Imprest Funds                                                             	371                         	346
          Total                                                                $          4,834             $          3,466


Cash Not Yet Deposited with Treasury primarily represents patent and trademark fees that were not processed as of September 30,
due to the lag time between receipt and initial review. Certain bureaus maintain imprest funds for operational necessity, such as
law enforcement activities, and for environments that do not permit the use of electronic payments.




 190
                                              F Y   2 0 1 2   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                               N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 5. DIRECT LOANS AND LOAN GUARANTEES, NET

The Department operates the following direct loan and loan guarantee programs:

           Direct Loan Programs:
           EDA                                    Drought Loan Portfolio
           EDA                                    Economic Development Revolving Fund
           NOAA                                   Alaska Purse Seine Fishery Buyback Loans
           NOAA                                   Bering Sea and Aleutian Islands Non-Pollock Buyback Loans
           NOAA                                   Bering Sea Pollock Fishery Buyback
           NOAA                                   Coastal Energy Impact Program (CEIP)
           NOAA                                   Crab Buyback Loans
           NOAA                                   Federal Gulf of Mexico Reef Fish Buyback Loans1
           NOAA                                   Fisheries Finance Individual Fishing Quota (IFQ) Loans
           NOAA                                   Fisheries Finance Traditional Loans
           NOAA                                   Fisheries Finance Tuna Fleet Loans
           NOAA                                   Fisheries Loan Fund
           NOAA                                   New England Groundfish Buyback Loans1
           NOAA                                   New England Lobster Buyback Loans1
           NOAA                                   Pacific Groundfish Buyback Loans
           1   No loans have been issued under these programs as of September 30, 2012.

           Loan Guarantee Programs:
           EDA                                    Economic Development Revolving Fund
           ELGP-Steel                             Emergency Steel Loan Guarantee Program
           NOAA                                   Fishing Vessel Obligation Guarantee Program (FVOG Program)



The net assets for the Department’s loan programs consist of:

                                                                                        FY 2012               FY 2011
           Direct Loans Obligated Prior to FY 1992                                  $    17,062           $    20,910
           Direct Loans Obligated After FY 1991                                         552,764               544,773
           Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees                       	4                    	4
           Defaulted Guaranteed Loans from Post-FY 1991 Guarantees                          518                   563
           Total                                                                    $        570,348      $      566,250




                                                                                                                               191
F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Direct Loans Obligated Prior to FY 1992 consist of:

                                                           FY 2012
                                                                                                                Value of Assets
                                                     Loans                                                        Related to
                  Direct                           Receivable,            Interest          Allowance for        Direct Loans,
               Loan Program                          Gross               Receivable         Loan Losses               Net
CEIP                                           $        20,124       $      5,065           $   (19,404)        $ 	5,785
Drought Loan Portfolio                                   7,207                 95               	(73)              7,229
Fisheries Loan Fund                                        148                 16               	(164)            	-
Economic Development Revolving Fund                      4,066                 22               	(40)              4,048

Total                                          $        31,545       $      5,198           $   (19,681)        $         17,062


                                                           FY 2011
                                                                                                                Value of Assets
                                                     Loans                                                        Related to
                  Direct                           Receivable,            Interest          Allowance for        Direct Loans,
               Loan Program                          Gross               Receivable         Loan Losses               Net
CEIP                                           $        20,223       $      4,965           $   (18,974)       $     6,214
Drought Loan Portfolio                                   9,926                141                  (104)            	9,963
Fisheries Loan Fund                                        244                 39               	(283)              	-
Economic Development Revolving Fund                      4,756                 25               	(48)                4,733

Total                                          $        35,149       $      5,170           $   (19,409)       $          20,910




 192
                                           F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Direct Loans Obligated After FY 1991 consist of:

                                                                   FY 2012
                                                           Loans                                    Allowance for     Value of Assets
                                                         Receivable,           Interest             Subsidy Cost        Related to
                  Direct Loan Program                      Gross              Receivable           (Present Value)   Direct Loans, Net
      Bering Sea and Aleutian Islands Non-
         Pollock Buyback Loans                          $     32,122          $           72       $    6,425        $    38,619
      Bering Sea Pollock Fishery Buyback                      42,695                  	75               2,817             45,587
      Crab Buyback Loans                                      89,533                   2,786           24,424            116,743
      Fisheries Finance IFQ Loans                             24,803                     240            4,054             29,097
      Fisheries Finance Traditional Loans                   	240,004                  	1,964           29,876            271,844
      Pacific Groundfish Buyback Loans                        30,040                  	989              7,724             38,753
      Alaska Purse Seine Fishery Buyback Loans                11,861                  	13                 247             12,121
      Total                                             $   471,058           $        6,139       $   75,567        $   552,764


                                                                   FY 2011
                                                           Loans                                    Allowance for     Value of Assets
                                                         Receivable,           Interest             Subsidy Cost        Related to
                  Direct Loan Program                      Gross              Receivable           (Present Value)   Direct Loans, Net
      Bering Sea and Aleutian Islands Non-
         Pollock Buyback Loans                          $     33,458          $          274       $    7,304        $     41,036
      Bering Sea Pollock Fishery Buyback                      46,499                  	63               4,190              50,752
      Crab Buyback Loans                                      91,609                   2,798           22,098             116,505
      Fisheries Finance IFQ Loans                             24,362                     214            4,561              29,137
      Fisheries Finance Traditional Loans                   	229,847                  	2,129           33,189             265,165
      Pacific Groundfish Buyback Loans                        31,662                  	1,021            9,495              42,178

      Total                                             $   457,437           $        6,499       $   80,837        $    544,773


New Disbursements of Direct Loans (Post-FY 1991):

                  Direct Loan Program                       FY 2012                    FY 2011
      Fisheries Finance IFQ Loans                       $        5,595            $     5,132
      Fisheries Finance Traditional Loans                       56,734                 50,811
      Alaska Purse Seine Fishery Buyback Loans                  13,133                 	-
      Total                                             $       75,462            $       55,943




                                                                                                                                    193
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Subsidy Expense for Direct Loans by Program and Component:
Subsidy Expense for New Disbursements of Direct Loans:
                                                           FY 2012
                                                                              Fees and
                                       Interest Rate                           Other
        Direct Loan Program             Differential           Defaults      Collections              Other               Total
Fisheries Finance IFQ Loans            $ 	(1,205)          $ 	11            $ 	(35)              $ 	472             $ 	(757)
Fisheries Finance Traditional Loans      	(8,017)            	60              	(194)               	2,763             	(5,388)
Total                                  $     (9,222)       $         71     $ 	(229)             $      3,235       $      (6,145)

                                                           FY 2011
                                                                              Fees and
                                       Interest Rate                           Other
        Direct Loan Program             Differential           Defaults      Collections             Other                Total
Fisheries Finance IFQ Loans            $ 	(1,064)          $ 	19            $ 	(29)             $ 	444              $ 	(630)
Fisheries Finance Traditional Loans      	(8,018)            	158             	(236)              	3,805              	(4,291)
Total                                  $    (9,082)        $        177     $ 	(265)            $       4,249       $      (4,921)

Modifications and Reestimates:
                       FY 2012                                                                       FY 2012
                                          Total                             Interest Rate         Technical            Total
        Direct Loan Program            Modifications                        Reestimates          Reestimates        Reestimates
Bering Sea and Aleutian Islands
   Non-Pollock Buyback Loans           $   	-                               $ 	-                $ 	523              $ 	523
Bering Sea Pollock Fishery Buyback         	-                                 	-                  	911                	911
Crab Buyback Loans                         	-                                 	-                  	(7,434)            	(7,434)
Fisheries Finance IFQ Loans                	-                                 	-                  	1,045              	1,045
Fisheries Finance Traditional Loans        	-                                 	-                  	7,481              	7,481
Pacific Groundfish Buyback Loans           	-                                 	-                  	552                	552
Total                                  $   	-                               $ 	-                $ 	3,078            $ 	3,078


                       FY 2011                                                                       FY 2011
                                          Total                             Interest Rate         Technical            Total
        Direct Loan Program            Modifications                        Reestimates          Reestimates        Reestimates
Bering Sea and Aleutian Islands
   Non-Pollock Buyback Loans           $   	-                               $ 	-                $ 	187              $ 	187
Bering Sea Pollock Fishery Buyback         	-                                 	-                  	1,605              	1,605
Crab Buyback Loans                         	-                                 	-                  	(3,823)            	(3,823)
Fisheries Finance IFQ Loans                	-                                 	-                  	(781)              	(781)
Fisheries Finance Traditional Loans        	-                                 	-                  	(2,008)            	(2,008)
Fisheries Finance Tuna Fleet Loans         	-                                 	-                  	(3)                	(3)
Pacific Groundfish Buyback Loans           	-                                 	-                  	(196)              	(196)
Total                                  $   	-                               $ 	-                $ 	(5,019)          $ 	(5,019)




 194
                                           F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Total Direct Loan Subsidy Expense:

                     Direct Loan Program                         FY 2012                       FY 2011
          Bering Sea and Aleutian Islands Non-
            Pollock Buyback Loans                            $ 	523                      $ 	187
          Bering Sea Pollock Fishery Buyback                    	911                       	1,605
          Crab Buyback Loans                                    	(7,434)                   	(3,823)
          Fisheries Finance IFQ Loans                                    288                       (1,411)
          Fisheries Finance Traditional Loans                   	2,093                     	(6,299)
          Fisheries Finance Tuna Fleet Loans                    	-                         	(3)
          Pacific Groundfish Buyback Loans                      	552                       	(196)

          Total                                              $ 	(3,067)                  $ 	(9,940)


Subsidy Rates for Direct Loans by Program and Component:

Budget Subsidy Rates for Direct Loans for the Current Fiscal-year’s Cohorts:

                                                                  FY 2012
                                                                                                Fees and
                                                      Interest Rate                              Other
                Direct Loan Program                    Differential        Defaults            Collections    Other        Total
 Fisheries Finance IFQ Loans                            (23.54) %               0.19 %     	(0.79) %         	11.34 %   	(12.80) %
 Fisheries Finance Traditional Loans                    (18.46) %               0.06 %     	(0.53) %         	5.16 %    	(13.77) %
 Alaska Purse Seine Fishery Buyback Loans                 (3.24) %              4.24 %     	0.00 %           	0.00 %       1.00    %


                                                                  FY 2011
                                                                                                Fees and
                                                      Interest Rate                              Other
                Direct Loan Program                    Differential        Defaults            Collections    Other        Total
 Fisheries Finance IFQ Loans                            (18.51) %               0.14 %     	(0.38) %         	3.50 %    	(15.25) %
 Fisheries Finance Traditional Loans                    (13.28) %               0.06 %     	(0.17) %         	2.93 %    	(10.46) %

The budget subsidy rates disclosed pertain only to the reporting period’s cohorts. These rates cannot be applied to the
new disbursements of direct loans during the reporting period to yield the subsidy expense. The subsidy expense for new
disbursements of direct loans for the reporting period could result from disbursements of loans from both the reporting period’s
cohorts and prior fiscal-year(s) cohorts. The subsidy expense for the reporting period may also include modifications and
reestimates.




                                                                                                                                  195
F Y   2 0 1 2     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Schedule for Reconciling Allowance for Subsidy Cost (Post-FY 1991 Direct Loans):
                                                                                               FY 2012                  FY 2011

   Beginning Balance of the Allowance for Subsidy Cost                                    $ 	80,837                 $ 	76,655

   Add Subsidy Expense for Direct Loans Disbursed During the
     Reporting Years by Component:
   		    Interest Rate Differential Costs                                                            9,222                     9,082
   		    Default Costs (Net of Recoveries)                                                     	(71)                    	(177)
   		    Fees and Other Collections                                                                    229                       265
   		    Other Subsidy Costs                                                                        (3,235)                   (4,249)

   Total of the above Subsidy Expense Components                                                     6,145                     4,921

   Adjustments:
   		Loan Modifications                                                                               (131)             	-
   		Fees Received                                                                                    (305)                     (378)
   		    Subsidy Allowance Amortization                                                        	(7,901)                 	(5,380)
   Total of Adjustments                                                                             (8,337)                   (5,758)

   Ending Balance of the Allowance for Subsidy Cost Before Reestimates                         	78,645                  	75,818

   Add or Subtract Subsidy Reestimates by Component:
   		Technical/Default Reestimates                                                             	(3,078)                 	5,019

   Ending Balance of the Allowance for Subsidy Cost                                       $        75,567           $        80,837


Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees:

                                                        FY 2012
                                                                                                           Value of Assets
                                         Defaulted                                                       Related to Defaulted
        Loan Guarantee                Guaranteed Loans         Interest              Allowance for        Guaranteed Loans
           Program                    Receivable, Gross       Receivable             Loan Losses           Receivable, Net
FVOG Program                          $       7,318          $ 	1                $ 	(7,315)              $ 	4


                                                        FY 2011
                                                                                                           Value of Assets
                                         Defaulted                                                       Related to Defaulted
        Loan Guarantee                Guaranteed Loans         Interest              Allowance for        Guaranteed Loans
           Program                    Receivable, Gross       Receivable             Loan Losses           Receivable, Net
FVOG Program                          $       7,785          $ 	2                $ 	(7,783)              $ 	4




 196
                                             F Y   2 0 1 2   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Defaulted Guaranteed Loans from Post-FY 1991 Guarantees:

                                                                FY 2012
                                                                                                                   Value of Assets
                                             Defaulted                                        Allowance for      Related to Defaulted
         Loan Guarantee                   Guaranteed Loans              Interest              Subsidy Cost        Guaranteed Loans
            Program                       Receivable, Gross            Receivable            (Present Value)       Receivable, Net
FVOG Program 	                           $       14,128              $ 	      1,254          $ 	   (14,864)      $            518


                                                                FY 2011
                                                                                                                   Value of Assets
                                             Defaulted                                        Allowance for      Related to Defaulted
         Loan Guarantee                   Guaranteed Loans              Interest              Subsidy Cost        Guaranteed Loans
            Program                       Receivable, Gross            Receivable            (Present Value)       Receivable, Net
FVOG Program 	                           $       14,128              $ 	      1,254          $ 	   (14,819)      $            563


Loan Guarantees:

Guaranteed Loans Outstanding:

Outstanding non-acquired guaranteed loans as of September 30, 2012 and 2011, which are not reflected in the financial
statements, are as follows:


                                                           FY 2012                                             FY 2011
                                           Outstanding                 Amount of                Outstanding               Amount of
                                            Principal of              Outstanding                Principal of            Outstanding
         Loan Guarantee                  Guaranteed Loans,              Principal             Guaranteed Loans,            Principal
            Program                         Face Value                Guaranteed                 Face Value              Guaranteed
FVOG Program                             $ 	1,613                    $ 	1,613                $ 	2,467                    $ 	2,467




                                                                                                                                 197
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




New Guaranteed Loans Disbursed:
        There were no new guaranteed loans disbursed during FY 2012 and FY 2011.

Loan Guarantee Liabilities:
                                                                                FY 2012                             FY 2011
                                                                            Loan Guarantee                      Loan Guarantee
                                                                           Liabilities for Post-               Liabilities for Post-
                                                                          FY 1991 Guarantees,                 FY 1991 Guarantees,
                      Loan Guarantee Program                                  Present Value                       Present Value
        FVOG Program                                                  $                518                $                  563


Subsidy Expense for Loan Guarantees by Program and Component:

Subsidy Expense for New Loan Guarantees Disbursed:
        As there were no new loan guarantees disbursed during FY 2012 and FY 2011, there is not any related subsidy
        expense.


Modifications and Reestimates:
                         FY 2012                                                                      FY 2012
           Loan Guarantee                Total                                 Interest Rate         Technical             Total
              Program                 Modifications                            Reestimates          Reestimates         Reestimates
       FVOG Program                  $ 	-                                     $ 	-                 $ 	(1)              $ 	(1)


                         FY 2011                                                                      FY 2011
           Loan Guarantee                Total                                 Interest Rate         Technical             Total
              Program                 Modifications                            Reestimates          Reestimates         Reestimates
       FVOG Program                  $ 	-                                     $ 	-                 $ 	614              $ 	614


Total Loan Guarantee Subsidy Expense:

                      Loan Guarantee Program                                 FY 2012                    FY 2011
        FVOG Program                                                  $ 	(1)                       $ 	614




 198
                                            F Y   2 0 1 2   P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                               N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Subsidy Rates for Loan Guarantees by Program and Component:

Budget Subsidy Rates for Loan Guarantees for the Current Fiscal-year’s Cohorts:
        There were no new cohorts of guaranteed loans during FY 2012 and FY 2011.


Schedule for Reconciling Loan Guarantee Liabilities (Post-FY 1991 Loan Guarantees):

                                                                                                   FY 2012             FY 2011

          Beginning Balance of Loan Guarantee Liabilities                                     $ 	563               $ 	      565
          Adjustments:
          	     Fees Received                                                                      	-                         1
          	     Interest Accumulation on the Liabilities Balance                                   	(45)               	(3)
          Ending Balance of Loan Guarantee Liabilities                                        $        518         $        563


Administrative Expenses:

Administrative expenses in support of the Department’s direct loan and loan guarantee programs consist of:


                          Direct Loan Program                                  FY 2012              FY 2011
         Drought Loan Portfolio and
            Economic Development Revolving Fund                         $             696      $         1,206
         NOAA Direct Loan Programs                                                  2,780                3,368

         Total                                                          $           3,476      $         4,574


                       Loan Guarantee Program                                  FY 2012              FY 2011
         FVOG Program                                                   $ 	141                 $ 	189

         Total                                                          $             141      $             189




                                                                                                                                 199
F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




     NOTE 6. INVENTORY, MATERIALS, AND SUPPLIES, NET

                     Category                             Cost Flow Assumption                FY 2012                FY 2011
Inventory
Items Held for Current Sale
	     NIST Standard Reference Materials                   Average                         $       21,612         $      22,414
	Other                                                    Various                                    923                   449
Allowance for Excess, Obsolete, and
   Unserviceable Items                                                                               (93)                   (97)

Total Inventory, Net                                                                              22,442                22,766


Materials and Supplies
Items Held for Use
	     NOAA’s National Logistics Support Center            Weighted-average                        46,700                44,279
	Other                                                    Various                                  4,902                 4,971
Items Held for Repair
	     NOAA’s National Reconditioning Center               Weighted-average                        41,576                42,607
Allowance for Excess, Obsolete, and
   Unserviceable Items                                                                           (10,642)              (16,800)

Total Materials and Supplies, Net                                                                 82,536                75,057

Total                                                                                     $      104,978         $      97,823


NIST’s Standard Reference Materials Program provides reference materials for quality assurance of measurements, while NOAA’s
Materials and Supplies are primarily repair parts for weather forecasting equipment.




    200
                                                 F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 7. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET

                                                             FY 2012
                                             Useful Life                                 Accumulated
                Category                      (Years)                Cost                Depreciation       Net Book Value
Land                                             N/A          $ 	        16,733       $ 	-                  $        16,733
Land Improvements                              30-40                      2,996                   (1,471)             1,525
Structures, Facilities, and
   Leasehold Improvements                       2-50                 1,778,876                 (616,975)          1,161,901
Satellites/Weather Systems
   Personal Property                            3-20                 4,734,829                (3,973,204)           761,625
Other Personal Property                         2-30                 2,697,484                (1,772,375)       	925,109
Assets Under Capital Lease                      3-40             	23,182                 	(19,203)              	3,979
Construction-in-progress                         N/A             	7,129,640              	-                     	7,129,640

Total                                    	                    $ 	16,383,740           $ 	(6,383,228)        $ 	10,000,512


                                                             FY 2011
                                             Useful Life                                 Accumulated
                Category                      (Years)                Cost                Depreciation       Net Book Value
Land                                             N/A          $ 	16,749               $ 	-                  $ 	16,749
Land Improvements                              30-40                      2,996                   (1,378)             1,618
Structures, Facilities, and
   Leasehold Improvements                       2-50                 1,543,671                 (571,303)            972,368
Satellites/Weather Systems
   Personal Property                            3-20                 5,137,980                (4,091,908)         1,046,072
Other Personal Property                         2-30                 2,499,056                (1,656,622)           842,434
Assets Under Capital Lease                      3-40             	23,067                 	(18,274)              	4,793
Construction-in-progress                         N/A             	5,478,229              	-                     	5,478,229

Total                                    	                    $ 	14,701,748           $ 	(6,339,485)        $ 	8,362,263




                                                                                                                                201
F Y   2 0 1 2    P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 8. OTHER ASSETS

                                                                   FY 2012                 FY 2011
         With the Public                                           	                       	
         Advances and Prepayments                              $        40,220         $        45,448
         Note Receivable                                                 1,567                   1,601
         Bibliographic Database, Net                                     6,114                   6,267
         Other                                                     	375                    	4
         Total                                                 $        48,276         $        53,320


As of September 30, 2012 and 2011, there is one Note Receivable with a maturity date of July 2024 and an interest rate of
7.0 percent. The balance includes accrued interest.

The bibliographic database relates to NTIS’s scientific and technical information used to prepare products and services for sale.
The database is stated at capitalized costs of $67.8 million and $65.3 million, less accumulated amortization of $61.7 million and
$59.0 million, at September 30, 2012 and 2011, respectively.



   NOTE 9. NON-ENTITY ASSETS

The assets that are not available for use in the Department’s operations are summarized below:

                                                                   FY 2012                 FY 2011
         Intragovernmental                                         	                       	
         Fund Balance with Treasury                            $ 	124,296              $ 	121,036
         Accounts Receivable                                            10,496             	-
         Total Intragovernmental                                       134,792                 121,036

         With the Public
         Cash                                                      	1,133                  	756
         Accounts Receivable, Net                                         490                    2,187
         Direct Loans and Loan
            Guarantees, Net                                        	7,229                  	13,693
         Other                                                     	-                            1,604
         Total                                                 $       143,644         $       139,276




 202
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 10. DEBT TO TREASURY

                                                                     FY 2012
                                                                      Beginning              Net Borrowings        Ending
                           Loan Program                                Balance                (Repayments)         Balance
         Direct Loan Program
         Fisheries Finance, Financing Account                    $        539,302        $          12,440     $      551,742

         Loan Guarantee Program
         FVOG Program                                                           699                   (698)                  1
         NTIA’s Public Safety Trust Fund, and State
           and Local Implementation Fund                             	-                              2,538              2,538
         Total                                                   $ 	540,001              $          14,280     $      554,281


For the Direct Loan and Loan Guarantee programs, maturity dates range from September 2012 to September 2052, and interest
rates range from 2.59 to 6.81 percent.


                                                                     FY 2011
                                                                      Beginning              Net Borrowings        Ending
                           Loan Program                                Balance                (Repayments)         Balance
         Direct Loan Program
         Fisheries Finance, Financing Account                    $        514,841        $          24,461     $      539,302

         Loan Guarantee Program
         FVOG Program                                                	3,089                          (2,390)             699
         Total                                                   $ 	517,930              $          22,071     $      540,001




                                                                                                                                 203
F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 11. OTHER LIABILITIES

                                                                        FY 2012                                       FY 2011
                                                                       Non-current
                                             Current Portion             Portion                 Total                     Total
        Intragovernmental
        Accrued FECA Liability              $        27,480        $         8,717       $         36,197        $         30,405
        Accrued Benefits                             53,117            	-                          53,117                  47,907
        Custodial Activity                               490           	-                                490                 1,769
        Downward Subsidy Reestimates
          Payable to Treasury                        10,496            	-                          10,496                    9,135
        Other                                          2,112           	-                            2,112                   3,888
        Total                               $        93,695        $         8,717       $        102,412        $         93,104


        With the Public
        ITA Foreign Service Nationals’
           Voluntary Separation Pay         $          2,674       $         9,071       $         11,745        $         12,393
        Contingent Liabilities (Note 16)                 502           	-                                502                 3,402
        Employment-related                             4,295           	-                            4,295                   8,000
        Other                                        41,190            	-                          41,190                  49,358
        Total                               $        48,661        $         9,071       $         57,732        $         73,153



The Current Portion represents liabilities expected to be paid by September 30, 2013, while the Non-current Portion represents
liabilities expected to be paid after September 30, 2013.




 204
                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 12. FEDERAL EMPLOYEE BENEFITS

These liabilities consist of:

                                                                                              FY 2012           FY 2011
          Actuarial FECA Liability                                                    $ 	228,211           $ 	235,982
          NOAA Corps Retirement System Liability                                          	577,900            	524,100
          NOAA Corps Post-retirement Health Benefits Liability                            	45,100             	48,400

          Total                                                                       $ 	851,211           $ 	808,482


Actuarial FECA Liability:

Actuarial FECA liability is calculated annually, as of September 30. For discounting projected annual future benefit payments to
present value, the interest rate assumptions used by DOL were as follows:

                                                                                              FY 2012           FY 2011
          Year 1                                                                          	2.29%              	3.54%
          Year 2 and Thereafter                                                           	3.14%              	4.03%


The wage inflation factors (Cost of Living Allowance) and medical inflation factors (Consumer Price Index - Medical) applied to the
calculation of projected future benefits, and also used to adjust the methodology’s historical payments to current year constant
dollars, were as follows:

                                                     FY 2012
                                                              Cost of Living           Consumer Price
                          Fiscal Year                          Allowance               Index - Medical
                   2013                                            2.83 %                      3.65 %
                   2014                                            2.03 %                      3.66 %
                   2015                                            1.93 %                      3.72 %
                   2016                                            2.00 %                      3.73 %
                   2017                                            2.03 %                      3.80 %


                                                     FY 2011
                                                              Cost of Living           Consumer Price
                          Fiscal Year                          Allowance               Index - Medical
                   2012                                            2.10 %                      3.07 %
                   2013                                            2.53 %                      3.62 %
                   2014                                            1.83 %                      3.66 %
                   2015                                            1.93 %                      3.73 %
                   2016                                            2.00 %                      3.73 %




                                                                                                                                205
F Y   2 0 1 2     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




NOAA Corps Retirement System Liability:

This liability represents the unfunded actuarial present value of projected plan benefits. The actuarial calculation is performed
annually, as of September 30. The September 30, 2012 and 2011 actuarial calculations used the following economic
assumptions:
                                                                              FY 2012                   FY 2011
         Discount Rate                                                         4.43%                       4.73%
         Annual Basic Pay Scale Increases                                      2.96%                       3.15%
         Annual Inflation                                                      2.46%                       2.40%

Schedule for Reconciling NOAA Corps Retirement System Liability:

A reconciliation of the NOAA Corps Retirement System Liability from the beginning balance to the ending balance, including the
components of the related pension costs included in the Consolidated Statements of Net Costs, follows:
                                                                                                 FY 2012                  FY 2011
         Beginning Balance - NOAA Corps Retirement System Liability                        $       524,100            $        502,800
         Add Pension Costs:
            Normal Cost                                                                              10,600                      9,800
            Interest on the Unfunded Liability                                                       24,300                     24,100
            Actuarial (Gains)/Losses, Net
               From Experience                                                                        3,700                     (6,500)
               From Discount Rate Assumption Change                                                  24,100                     11,000
               From Long-term Assumption Changes
                  Annual Inflation                                                               	4,600                          1,500
                  Annual Basic Pay Scale Increases                                               	(800)                            600
                  Demographic                                                                    	9,800                          1,800
            Total Pension Costs                                                                      76,300                     42,300
         Subtract Benefit Payments                                                                  (22,500)                   (21,000)

         Ending Balance - NOAA Corps Retirement System Liability                           $       577,900            $        524,100


NOAA Corps Post-retirement Health Benefits Liability:

This liability represents the unfunded actuarial present value of projected post-retirement plan benefits. The actuarial calculation
is performed annually, as of September 30. The actuarial calculations used the following economic assumptions:
                                                                              FY 2012                   FY 2011
         Discount Rate                                                         4.42%                       4.74%
         Ultimate Medical Trend Rate                                           5.25%                       5.65%




 206
                                                 F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Schedule for Reconciling NOAA Corps Post-retirement Health Benefits Liability:

A reconciliation of the NOAA Corps Post-retirement Health Benefits Liability from the beginning balance to the ending balance,
including the components of the related post-retirement health benefits costs included in the Consolidated Statements of Net
Costs, follows:
                                                                                                     FY 2012                     FY 2011
          Beginning Balance - NOAA Corps Post-retirement Health
            Benefits Liability                                                                   $         48,400            $      56,000
          Add Health Benefits Costs:
                Normal Cost                                                                                 1,400                    1,500
                Interest on the Unfunded Liability                                                          2,000                    2,600
                Actuarial (Gains)/Losses, Net
                   From Experience                                                                           700                      (100)
                   From Discount Rate Assumption Change                                                     1,200                      100
                   From Long-term Assumption Changes
                      Medical Claims Costs                                                                 (6,300)                   (9,200)
                      Other                                                                                  200                       100
                Total Health Benefits Costs                                                                  (800)                   (5,000)
          Subtract Benefit Payments                                                                        (2,500)                   (2,600)

          Ending Balance - NOAA Corps Post-retirement Health Benefits
            Liability                                                                            $         45,100            $      48,400




    NOTE 13. ENVIRONMENTAL AND DISPOSAL LIABILITIES

                                                                                     FY 2012                 FY 2011
          Nuclear Reactor                                                   $ 	55,036                  $ 	          57,362
          Pribilof Islands Cleanup                                               	       2,352              	2,569
          Other                                                                  	2,557                     	3,446

          Total                                                             $           59,945         $            63,377




                                                                                                                                           207
F Y   2 0 1 2     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 14. LEASES

Capital Leases:

Assets under capital leases are as follows:

                                                                             FY 2012                   FY 2011
         Structures, Facilities, and Leasehold Improvements              $ 	22,902                $ 	23,043
         Equipment                                                           	280                      	24
         Less: Accumulated Depreciation                                      	(19,203)                 	(18,274)

         Net Assets Under Capital Leases                                 $         3,979          $          4,793


Capital Lease Liabilities are primarily related to NOAA. NOAA has real property capital leases covering both land and buildings.
The majority of these leases are for weather forecasting offices, but the leases are also for radar system sites, river forecasting
centers, and National Weather Service enforcement centers. NOAA’s real property capital leases range from 10 to 40 years.

Capital Lease Liabilities:

Future payments due under capital leases are as follows:


                                                                   FY 2012
                                                               General PP&E Category

                   Fiscal Year                     Real Property                Personal Property                       Total
               2013                                $            3,674              $ 	95                          $            3,769
               2014                                             2,985                   	-                                     2,985
               2015                                             1,870                   	-                                     1,870
               2016                                              874                    	-                                      874
               2017                                              809                    	-                                      809
               Thereafter                                       9,141                   	-                                     9,141

         Total Future Lease Payments                           19,353                            95                           19,448
         Less: Imputed Interest                                (7,932)                           (6)                          (7,938)
         Less: Executory Costs                                 (3,127)                           (6)                          (3,133)

         Net Capital Lease Liabilities             $            8,294              $             83               $            8,377




 208
                                               F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                 N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




                                          FY 2011
                                                       General PP&E Category

                      Fiscal Year                            Real Property
                  2012                                   $         3,877
                  2013                                             3,723
                  2014                                             3,041
                  2015                                             1,903
                  2016                                                 873
                  Thereafter                                       9,929

          Total Future Lease Payments                             23,346
          Less: Imputed Interest                                  (9,303)
          Less: Executory Costs                                   (3,975)

          Net Capital Lease Liabilities                  $        10,068

Operating Leases:

Most of the Department’s facilities are rented from GSA, which generally charges rent that is intended to approximate commercial
rental rates. For federally owned property rented from GSA, the Department generally does not execute an agreement with
GSA; the Department, however, is normally required to give 120 to 180 days notice to vacate. For non-federally owned property
rented from GSA, an occupancy agreement is generally executed, and the Department may normally cancel these agreements
with 120 days notice.

The Department’s (1) estimated real property rent payments to GSA for FY 2013 through FY 2017; and (2) future payments due
under noncancellable operating leases (non-GSA real property) are as follows:


                                                  FY 2012
                                                             General PP&E Category

                                                           GSA                     Non-GSA
                      Fiscal Year                      Real Property             Real Property
                  2013                             $         236,732         $         17,923
                  2014                                       236,798                   13,616
                  2015                                       235,142                   11,849
                  2016                                       230,824                   11,192
                  2017                                       231,078                   11,193
                  Thereafter                                        1                  97,969

          Total Future Lease Payments                                        $        163,742


          1	   Not estimated.




                                                                                                                                 209
F Y   2 0 1 2    P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y     R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 15. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

                                                                              FY 2012                  FY 2011
         Intragovernmental
         Accrued FECA Liability                                          $        36,097          $        30,307
         Total Intragovernmental                                                  36,097                   30,307

         Accrued Payroll                                                     	39,450                  	41,003
         Accrued Annual Leave                                                    270,955                  270,561
         Federal Employee Benefits                                           	851,211                     808,482
         Environmental and Disposal Liabilities                                   59,945                   63,377
         Contingent Liabilities                                                       502                    3,402
         Unearned Revenue                                                        592,829                  667,775
         ITA Foreign Service Nationals’ Voluntary Separation Pay                  11,745                   12,393
         Other                                                                          3                       89

         Total                                                           $     1,862,737          $     1,897,389


Due to USPTO’s funding structure, budgetary resources do not cover a portion of its Unearned Revenue. The Unearned
Revenue reported above is the portion of USPTO’s Unearned Revenue that is considered not covered by budgetary resources.
USPTO’s Unearned Revenue is a liability for revenue received before the patent or trademark work has been completed.
Budgetary resources derived from the current reporting period’s revenue have been partially used to cover the current reporting
period’s costs associated with unearned revenue from a prior reporting period. In addition, the current patent fee structure sets
low initial application fees that are followed by income from maintenance fees as a supplement in later years to cover the full
cost of the patent examination and issuance processes. The combination of these funding circumstances requires USPTO to
obtain additional budgetary resources to cover its liability for unearned revenue.




 210
                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 16. COMMITMENTS AND CONTINGENCIES

Commitments:

The Department has entered into long-term contracts for the purchase, construction, and modernization of environmental
satellites and weather measuring and monitoring systems. A summary of major long-term commitments as of September 30,
2012 is shown below.

Major Long-term Commitments:
                                                                 FY 2012
Description                       FY 2013         FY 2014        FY 2015         FY 2016       FY 2017    Thereafter       Total
Geostationary Operational
  Environmental Satellites $ 831,900 $              977,700 $      874,600 $       810,700 $    731,300 $ 3,432,400 $ 7,658,600
Convergence Satellites             916,400          916,000        958,600         943,600      921,100     3,889,900     8,545,600
Polar Operational
   Environmental Satellites             32,200       29,400          32,200         28,100        5,700    	-               127,600
Ocean Surface Topography                30,000       37,000           9,000          6,000        6,000        11,300        99,300
Deep Space Climate
  Observatory                           22,900       19,300           3,200          3,200        2,400         2,300        53,300
Weather Service                   	96,538         	122,067       	106,405        	106,877      	76,369     	88,830       	597,086
Total                           $ 1,929,938 $ 2,101,467 $ 1,984,005 $ 1,898,477 $ 1,742,869 $ 7,424,730 $ 17,081,486


Legal Contingencies:

The Department is subject to potential liabilities in various administrative proceedings, legal actions, environmental suits, and
claims brought against it. In the opinion of the Department’s management and legal counsel, the ultimate resolution of these
proceedings, actions, suits, and claims will not materially affect the financial position or net costs of the Department.

Probable Likelihood of an Adverse Outcome:

The Department is subject to potential liabilities where adverse outcomes are probable, and claims are approximately
$502 thousand and $3.4 million as of September 30, 2012 and 2011, respectively. Accordingly, these contingent liabilities were
included in Other Liabilities on the Consolidated Balance Sheets as of September 30, 2012 and 2011, respectively. For a majority
of these claims, any amounts ultimately due will be paid out of Treasury’s Judgment Fund. For the claims to be paid by Treasury’s
Judgment Fund, once the claims are settled or court judgments are assessed relative to the Department, the liability will be
removed and an Imputed Financing Source From Cost Absorbed by Others will be recognized.




                                                                                                                               211
F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Reasonably Possible Likelihood of an Adverse Outcome:

The Department and other federal agencies are subject to potential liabilities for a variety of environmental cleanup costs,
many of which are associated with the Second World War, at various sites within the U.S. Since some of the potential
liabilities represent claims with no stated amount, the exact amount of total potential liabilities is unknown, but may
exceed $234.5 million as of September 30, 2012. For these potential liabilities, it is reasonably possible that an adverse
outcome will result. It is not possible, however, to speculate as to a range of loss. In the absence of a settlement
agreement, decree, or judgment, there is neither an allocation of response costs between the U.S. government and other
potentially responsible parties, nor is there an attribution of such costs to or among the federal agencies implicated in the
claims. Although the Department has been implicated as a responsible party, the U.S. Department of Justice was unable
to provide an amount for these potential liabilities that is attributable to the Department. Of these potential liabilities, all
will be funded by Treasury’s Judgment Fund, if any amounts are ultimately due.

The Department and other federal agencies are subject to other potential liabilities. Since some of the potential liabilities
represent claims with no stated amount, the exact amount of total potential liabilities is unknown, but may exceed $450.6 million
as of September 30, 2012. For these potential liabilities, it is reasonably possible that an adverse outcome will result. It is not
possible, however, to speculate as to a range of loss. Of these potential liabilities, most will be funded by Treasury’s Judgment
Fund, if any amounts are ultimately due.

Guaranteed Loan Contingencies

Fishing Vessels Obligation Guarantee Program: This loan guarantee program has outstanding non-acquired guaranteed loans (fully
guaranteed by the Department) as of September 30, 2012 and 2011, with outstanding principal balances totaling $1.6 million
and $2.5 million, respectively. A loan guarantee liability of $518 thousand and $563 thousand is recorded for the outstanding
guarantees at September 30, 2012 and 2011, respectively.

Restructuring the National Polar-orbiting Operational Environmental Satellite System (NPOESS) to the Joint Polar
Satellite System (JPSS)

In 2010, the Executive Office of the President (EOP) directed the restructure of the government’s approach to meeting its
polar-orbiting environmental data collection needs, to put the critical program on a more sustainable path towards success and
announced NOAA and the Air Force will cease the joint procurement of NPOESS.

NOAA, with the National Aeronautics and Space Administration (NASA) as its acquisition agent, is responsible for JPSS, which
will fly in the afternoon orbit. DoD is responsible for the early morning orbit, and will continue to provide observations in the mid-
morning. The agencies will continue to partner in those areas that have been successful in the past, such as sharing a common
ground system NOAA and NASA will continue to partner to ensure a successful way forward for the respective programs, while
utilizing international partnerships to sustain and enhance weather and climate observation from space.




 212
                                                F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




The restructuring effort primarily occured in FY 2011. During this time, NOAA and the Air Force continued to work together to
decide which program components will transfer to NOAA to become part of JPSS. During FY 2011, the following equipment and
instruments were transferred to NOAA under the NASA/NOAA Memorandum of Understanding and NASA contracts: 1) Ground
Systems equipment; 2) Ozone Mapping and Profiler Suite (OMPS-Nadir); 3) Cross-track Infrared Sounder (CrIS); and 4) Visible
Infrared Imaging Radiometer Suite (VIIRS) Flight Model 2 (F2) for JPSS-1. Advanced Technology Microwave Sounder (ATMS)
was transferred to NOAA. The material for VIIRS F3 and the Charlie 1 (C1) bus remained under the Air Force contract.

NOAA/NASA will develop the JPSS-1 spacecraft based on the design used for the NPOESS Preparatory Project (NPP) satellite,
and NOAA is planning a request for proposal to compete contract construction for the spacecraft for JPSS-2 in 2014. The
NPP satellite was successfully launched on October 28, 2011, and was renamed Suomi National Polar-orbiting Partnership, or
Suomi NPP.

Since the Air Force terminated the original development contract under the NPOESS program, administrative and termination
activities have continued. As a result of additional analysis into the detailed NPOESS costs incurred by NOAA, including
per-instrument analysis, NOAA recorded additional impairment costs totaling $98.3 million in FY 2012.




                                                                                                                              213
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
         N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




    NOTE 17. CONSOLIDATED STATEMENTS OF NET COST (NOTE 1)

FY 2012 Consolidating Statement of Net Cost:

                                                                                                                                                     Intra-
                                                                                                                   Departmental    Combining      Departmental   Consolidating
                                       NOAA         USPTO          ESA          NIST        NTIA        Others     Management        Total        Eliminations      Total

Theme 1: Economic Growth
    Intragovernmental Gross Costs   $ 	- $          483,396      $ 	- $        125,745 $    345,827 $ 272,589 $ 79,800            $ 1,307,357 $ 	(95,034)        $ 1,212,323
    Gross Costs With the Public      	-           1,837,551      	-            972,610     1,674,127    807,458       26,966        5,318,712      	-              5,318,712
       Total Gross Costs             	-           2,320,947      	-           1,098,355    2,019,954   1,080,047     106,766        6,626,069      	(95,034)       6,531,035
    Intragovernmental Earned
         Revenue                     	-           	(7,823)       	-           	(118,029)   	(26,001)   	(18,635)    	(71,877)      $	(242,365)        95,034      	(147,331)
    Earned Revenue From the
        Public                       	-           	(2,419,259)   	-           	(51,128)    	(11)       	(11,217)    	(6)           	(2,481,621)    	-             	(2,481,621)
       Total Earned Revenue          	-           	(2,427,082)   	-           	(169,157)   	(26,012)   	(29,852)    	(71,883)      	(2,723,986)       95,034      	(2,628,952)
    Net Program Costs                	-           	(106,135)     	-            929,198     1,993,942   1,050,195      34,883        3,902,083      	-              3,902,083
Theme 2: Science and Information
    Intragovernmental Gross Costs      503,442    	-               430,834    	-              9,267       7,549       79,800        1,030,892      	(87,433)         943,459
    Gross Costs With the Public      1,971,193    	-             1,142,989    	-             13,120      58,505       26,966        3,212,773      	-              3,212,773
       Total Gross Costs             2,474,635    	-             1,573,823    	-             22,387      66,054      106,766        4,243,665      	(87,433)       4,156,232
    Intragovernmental Earned
         Revenue                     	(121,911)   	-             	(311,753)   	-           	(15,641)   	(57,841)    	(71,877)      	(579,023)         87,433      	(491,590)
    Earned Revenue From the
        Public                       	(13,415)    	-             	(4,863)     	-           	(215)      	(10,480)    	(6)           	(28,979)       	-             	(28,979)
       Total Earned Revenue          	(135,326)   	-             	(316,616)   	-           	(15,856)   	(68,321)    	(71,883)      	(608,002)         87,433      	(520,569)
    Net Program Costs                2,339,309    	-             1,257,207    	-              6,531    	(2,267)       34,883        3,635,663      	-              3,635,663
Theme 3: Environmental
Stewardship
    Intragovernmental Gross Costs      336,681    	-             	-           	-           	-          	-             79,823          416,504      	(89,071)         327,433
    Gross Costs With the Public      1,976,631    	-             	-           	-           	-          	-             26,974        2,003,605      	-              2,003,605
       Total Gross Costs             2,313,312    	-             	-           	-           	-          	-            106,797        2,420,109      	(89,071)       2,331,038
    Intragovernmental Earned
         Revenue                     	(106,167)   	-             	-           	-           	-          	-           	(71,898)      	(178,065)         89,071      	(88,994)
    Earned Revenue From the
        Public                       	(97,763)    	-             	-           	-           	-          	-           	(6)           	(97,769)       	-             	(97,769)
       Total Earned Revenue          	(203,930)   	-             	-           	-           	-          	-           	(71,904)      	(275,834)         89,071      	(186,763)
	   Net Program Costs                2,109,382    	-             	-           	-           	-          	-             34,893        2,144,275      	-              2,144,275
NET COST OF OPERATIONS              $ 4,448,691 $ 	(106,135) $ 1,257,207 $     929,198 $ 2,000,473 $ 1,047,928 $ 104,659          $ 9,682,021 $ 	-               $ 9,682,021




           214
                                                                   F Y   2 0 1 2   P E R F O R M A N C E         A N D    A C C O U N T A B I L I T Y            R E P O R T
                                                                                           N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




FY 2011 Consolidating Statement of Net Cost:

                                                                                                                                                       Intra-
                                                                                                                     Departmental    Combining      Departmental    Consolidating
                                       NOAA           USPTO        ESA          NIST          NTIA        Others     Management        Total        Eliminations       Total

Theme 1: Economic Growth
    Intragovernmental Gross Costs   $ 	- $            456,141    $ 	- $        143,462 $      312,972 $ 271,871      $ 82,225       $ 1,266,671 $ 	(101,299)       $ 1,165,372
    Gross Costs With the Public      	-           1,691,956      	-            994,864        713,608    718,578        31,142        4,150,148      	-               4,150,148
       Total Gross Costs             	-           2,148,097      	-           1,138,326      1,026,580   990,449       113,367        5,416,819      	(101,299)       5,315,520
    Intragovernmental Earned
         Revenue                     	-           	(8,060)       	-           	(122,955)     	(24,757)   	(21,177)    	(77,851)      	(254,800)       101,299       	(153,501)
    Earned Revenue From the
        Public                       	-           	(2,228,314)   	-           	(53,618)      	(7)        	(14,720)    	(3)           	(2,296,662)    	-             	(2,296,662)
       Total Earned Revenue          	-           	(2,236,374)   	-           	(176,573)     	(24,764)   	(35,897)    	(77,854)      	(2,551,462)     101,299       	(2,450,163)
    Net Program Costs                	-           	(88,277)      	-            961,753       1,001,816   954,552        35,513        2,865,357      	-               2,865,357
Theme 2: Science and Information
    Intragovernmental Gross Costs      523,874    	-               466,185    	-                8,067       7,811       82,224        1,088,161      	(96,834)          991,327
    Gross Costs With the Public      1,876,549    	-             1,477,867    	-               15,376      44,163       31,142        3,445,097      	-               3,445,097
       Total Gross Costs             2,400,423    	-             1,944,052    	-               23,443      51,974      113,366        4,533,258      	(96,834)        4,436,424
    Intragovernmental Earned
         Revenue                     	(121,539)   	-             	(287,288)   	-             	(17,480)   	(41,846)    	(77,851)      	(546,004)         96,834      	(449,170)
    Earned Revenue From the
        Public                       	(10,396)    	-             	(10,855)    	-             	(137)      	(10,501)    	(3)           	(31,892)       	-             	(31,892)
       Total Earned Revenue          	(131,935)   	-             	(298,143)   	-             	(17,617)   	(52,347)    	(77,854)      	(577,896)         96,834      	(481,062)
    Net Program Costs                2,268,488    	-             1,645,909    	-                5,826    	(373)         35,512        3,955,362      	-               3,955,362
Theme 3: Environmental
Stewardship
    Intragovernmental Gross Costs      311,824    	-             	-           	-             	-          	-             82,249          394,073      	(100,998)         293,075
    Gross Costs With the Public      2,343,684    	-             	-           	-             	-          	-             31,151        2,374,835      	-               2,374,835
       Total Gross Costs             2,655,508    	-             	-           	-             	-          	-            113,400        2,768,908      	(100,998)       2,667,910
    Intragovernmental Earned
         Revenue                     	(95,827)    	-             	-           	-             	-          	-           	(77,874)      	(173,701)       100,998       	(72,703)
    Earned Revenue From the
        Public                       	(182,123)   	-             	-           	-             	-          	-           	(3)           	(182,126)      	-             	(182,126)
       Total Earned Revenue          	(277,950)   	-             	-           	-             	-          	-           	(77,877)      	(355,827)       100,998       	(254,829)
	   Net Program Costs                2,377,558    	-             	-           	-             	-          	-             35,523        2,413,081      	-               2,413,081
NET COST OF OPERATIONS              $ 4,646,046 $ 	(88,277) $ 1,645,909 $      961,753 $ 1,007,642 $ 954,179         $ 106,548      $ 9,233,800 $ 	-               $ 9,233,800




                                                                                                                                                              215
F Y   2 0 1 2     P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y        R E P O R T
   N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Major Programs: The following tables illustrate major programs of the Department. “Other Programs” refers to the other programs
within each theme. The “Others” column refers to the Department’s reporting entities that are not listed. The Others column data
and the Other Programs data are presented solely to reconcile these tables to the Combining Total columns on the Consolidating
Statements of Net Cost.

FY 2012 Statement of Net Cost by Major Program (Combining Basis):
                                                                Census                                                           Combining
            PROGRAM COSTS                      NOAA             Bureau           NIST           USPTO           Others             Total
Theme 1: Economic Growth
Measurements and Standards Laboratories
	 Gross Costs                                $	-           $ 	-              $     811,695 $ 	-               $ 	-           $     811,695
	 Less: Earned Revenue                        	-             	-                  	(125,094)  	-                 	-               	(125,094)
	 Net Program Costs                           	-             	-                    686,601   	-                 	-                 686,601
Patents
	 Gross Costs                                 	-                	-               	-              2,079,357      	-                 2,079,357
	 Less: Earned Revenue                        	-                	-               	-            	(2,180,532)     	-               	(2,180,532)
	 Net Program Costs                           	-                	-               	-            	(101,175)       	-               	(101,175)
Trademarks
	 Gross Costs                                 	-                	-               	-              201,307        	-                 201,307
	 Less: Earned Revenue                        	-                	-               	-            	(246,550)       	-               	(246,550)
	 Net Program Costs                           	-                	-               	-            	(45,243)        	-               	(45,243)
Other Programs
	 Gross Costs                                 	-                	-                286,660         40,283        3,206,767         3,533,710
	 Less: Earned Revenue                        	-                	-               	(44,063)     	-               	(127,747)       	(171,810)
	 Net Program Costs                           	-                	-                242,597         40,283        3,079,020         3,361,900
Net Program Costs for Theme 1                 	-                	-                929,198      	(106,135)       3,079,020         3,902,083

Theme 2: Science and Information
Decennial and Periodic Censuses
	 Gross Costs                                 	-                325,354          	-            	-               	-               325,354
	 Less: Earned Revenue                        	-                	-               	-            	-               	-               	-
	 Net Program Costs                           	-                325,354          	-            	-               	-               325,354
Weather, Water, and Climate
	 Gross Costs                                 1,186,688         	-               	-            	-               	-                1,186,688
	 Less: Earned Revenue                        	(67,816)         	-               	-            	-               	-               	(67,816)
	 Net Program Costs                           1,118,872         	-               	-            	-               	-                1,118,872
Other Programs
	 Gross Costs                                 1,287,947         1,134,931        	-            	-                 308,745         2,731,623
	 Less: Earned Revenue                        	(67,510)         	(311,497)       	-            	-               	(161,179)       	(540,186)
	 Net Program Costs                           1,220,437           823,434        	-            	-                 147,566         2,191,437
Net Program Costs for Theme 2                 2,339,309         1,148,788        	-            	-                 147,566         3,635,663

Theme 3: Environmental Stewardship
Sustainable Fisheries
	 Gross Costs                                  1,262,385        	-               	-            	-               	-                1,262,385
	 Less: Earned Revenue                        	(126,357)        	-               	-            	-               	-               	(126,357)
	 Net Program Costs                            1,136,028        	-               	-            	-               	-                1,136,028
Other Programs
	 Gross Costs                                 1,050,927         	-               	-            	-                106,797          1,157,724
	 Less: Earned Revenue                        	(77,573)         	-               	-            	-               	(71,904)        	(149,477)
	 Net Program Costs                             973,354         	-               	-            	-                 34,893          1,008,247
Net Program Costs for Theme 3                  2,109,382        	-               	-            	-                  34,893           2,144,275
NET COST OF OPERATIONS                       $ 4,448,691   $ 1,148,788       $    929,198    $ 	(106,135) $ 3,261,479        $      9,682,021


     216
                                                F Y   2 0 1 2    P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




FY 2011 Statement of Net Cost by Major Program (Combining Basis):
                                                                   Census                                                        Combining
                PROGRAM COSTS                       NOAA           Bureau           NIST          USPTO         Others             Total
Theme 1: Economic Growth
Measurements and Standards Laboratories
	 Gross Costs                                    $	-            $ 	-            $     845,241 $ 	-              $ 	-         $     845,241
	 Less: Earned Revenue                            	-              	-                	(131,317)  	-                	-             	(131,317)
	 Net Program Costs                               	-              	-                  713,924   	-                	-               713,924
Patents
	 Gross Costs                                     	-               	-               	-             1,913,354    	-                 1,913,354
	 Less: Earned Revenue                            	-               	-               	-           	(2,005,269)   	-               	(2,005,269)
	 Net Program Costs                               	-               	-               	-           	(91,915)      	-               	(91,915)
Trademarks
	 Gross Costs                                     	-               	-               	-             191,760      	-                 191,760
	 Less: Earned Revenue                            	-               	-               	-           	(231,105)                      	(231,105)
	 Net Program Costs                               	-               	-               	-           	(39,345)      	-               	(39,345)
Other Programs
	 Gross Costs                                     	-               	-                293,085       42,983       2,130,396           2,466,464
	 Less: Earned Revenue                            	-               	-               	(45,256)    	-             	(138,515)           (183,771)
	 Net Program Costs                               	-               	-                247,829       42,983       1,991,881           2,282,693
Net Program Costs for Theme 1                     	-               	-                961,753     	(88,277)      1,991,881           2,865,357

Theme 2: Science and Information
Decennial and Periodic Censuses
	 Gross Costs                                     	-               656,684          	-           	-             	-               656,684
	 Less: Earned Revenue                            	-               	-               	-           	-             	-               	-
	 Net Program Costs                               	-               656,684          	-           	-             	-               656,684
Weather, Water, and Climate
	 Gross Costs                                     1,457,847        	-               	-           	-             	-                1,457,847
	 Less: Earned Revenue                            	(76,349)        	-               	-           	-             	-               	(76,349)
	 Net Program Costs                               1,381,498        	-               	-           	-             	-                1,381,498
Other Programs
	 Gross Costs                                       942,576        1,177,607        	-           	-               298,544         2,418,727
	 Less: Earned Revenue                            	(55,586)        	(292,298)       	-           	-             	(153,663)       	(501,547)
	 Net Program Costs                                 886,990          885,309        	-           	-               144,881         1,917,180
Net Program Costs for Theme 2                     2,268,488        1,541,993        	-           	-               144,881         3,955,362

Theme 3: Environmental Stewardship
Sustainable Fisheries
	 Gross Costs                                     1,410,297        	-               	-           	-             	-                1,410,297
	 Less: Earned Revenue                            	(87,112)        	-               	-           	-             	-               	(87,112)
	 Net Program Costs                               1,323,185        	-               	-           	-             	-                1,323,185
Other Programs
	 Gross Costs                                      1,245,211       	-               	-           	-              113,400          1,358,611
	 Less: Earned Revenue                            	(190,838)       	-               	-           	-             	(77,877)        	(268,715)
	 Net Program Costs                                1,054,373       	-               	-           	-               35,523          1,089,896
Net Program Costs for Theme 3                       2,377,558      	-               	-           	-                35,523           2,413,081
NET COST OF OPERATIONS                           $ 4,646,046    $ 1,541,993     $    961,753    $ 	(88,277) $ 2,172,285      $      9,233,800




                                                                                                                                     217
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 18. COMBINED STATEMENTS OF BUDGETARY RESOURCES

The Combined Statement of Budgetary Resources (SBR) for FY 2012 is presented in a new format required by OMB’s Revised
Circular No. A-136, Financial Reporting Requirements. The FY 2011 SBR presentation has been restated to conform to the
FY 2012 SBR presentation.

The amount of Budget Authority, Appropriations, on the SBR reconciles to the amount of Budgetary Financing Sources, Appropriations
Received, reported on the Consolidated Statements of Changes in Net Position (SCNP), as follows:

                                                                                                 FY 2012                  FY 2011
            Budget Authority, Appropriations (SBR)                                         $      8,035,812          $     5,939,022
            Negative Appropriations for Temporarily Precluded From Obligation on
              SBR; $0 on SCNP                                                                          4,302             	2
            Negative Appropriations for Permanent Reductions on SBR;
              $0 on SCNP as Classified as Rescissions                                                  5,450             	1,857,998
            Appropriations Transfers In/Out, Net on SBR;
              $0 on SCNP as Classified as Transfers                                              	(124,628)              	(103,046)
            Appropriated Receipts for NOAA and DM/G&B on SBR;
              $0 on SCNP as Classified as Exchange Revenue                                       	(36,678)               	(24,624)
            Budgetary Financing Sources, Appropriations Received (SCNP)                    $      7,884,258          $     7,669,352


Total borrowing authority available for NOAA’s loan programs amounted to $129.6 million and $144.7 million at September 30,
2012 and 2011, respectively. The Borrowing Authority amounts reported in the SBR Budgetary Resources section represent
only borrowing authority realized during the fiscal year being reported. See Note 1M, Debt to Treasury, for debt repayment
requirements, financing sources for repayments, and other terms of borrowing authority used.

Ninety five percent of the Department’s reporting entities have one or more permanent no-year appropriations to finance
operations.

Reductions to the Department’s budgetary resources under Public Law 112-55 amounted to $23.6 million for FY 2012, while
reductions for FY 2011 under Public Laws 112-6 and 112-10 amounted to $1.86 billion. These reductions are included in the SBR
Budgetary Resources section. These reductions are also reported on the Rescissions lines of the SCNP.

Legal arrangements affecting the Department’s use of Unobligated Balances of Budget Authority and/or Fund Balance with
Treasury during FY 2012 and FY 2011 include the following:

       ●●   The Department’s Deposit Funds, reported in Note 2, Fund Balance with Treasury, are not available to finance operating
            activities. These funds are also included in Note 2 on the line Non-budgetary (breakdown by status).

       ●●   The Department’s Fund Balance with Treasury as of September 30, 2012 and 2011 includes $790.1 million of USPTO
            offsetting collections exceeding the current year and prior years’ appropriations. USPTO may use these funds only
            as authorized by the U.S. Congress, and only as made available by the issuance of a Treasury warrant. These funds
            are included in Note 2 on the lines General Funds (breakdown by type), and Temporarily Precluded From Obligation
            (breakdown by status).




 218
                                                 F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




      ●●   The Omnibus Budget Reconciliation Act of 1990 established surcharges on certain statutory patent fees collected
           by USPTO. Subsequent legislation extended the surcharges through the end of FY 1998. These surcharges were
           deposited into the Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury. USPTO may
           use monies from this account only as authorized by Congress and made available by the issuance of a Treasury warrant.
           At September 30, 2012 and 2011, $233.5 million is held in the Patent and Trademark Surcharge Fund. These funds are
           included in Note 2 on the lines Patent and Trademark Surcharge Fund - Special Funds section (breakdown by type), and
           Non-budgetary (breakdown by status).

      ●●   The Department’s Fund Balance with Treasury as of September 30, 2012 and 2011 includes funds temporarily precluded
           from obligation for the Digital Television and Transition Public Safety Fund of $8.74 billion. These funds are included in
           Note 2 on the lines Digital Television and Transition Public Safety Fund - Special Funds section (breakdown by type), and
           Unobligated Balance - Unavailable (breakdown by status).

      ●●   The Department’s Fund Balance with Treasury as of September 30, 2012 and 2011 includes $17.8 million of funds
           temporarily not available for the Coastal Zone Management Fund, which accounts for the Coastal Energy Impact
           Program direct loans. These funds are included in Note 2 on the lines Revolving Funds (breakdown by type), and
           Temporarily Precluded From Obligation (breakdown by status).

      ●●   For loan programs prior to the Federal Credit Reform Act of 1990 (pre-FY 1992 loans), most or all liquidating fund
           unobligated balances in excess of working capital needs are required to be transferred to Treasury as soon as practicable
           during the following fiscal year.

      ●●   For direct loan programs under the Federal Credit Reform Act of 1990 (post-FY 1991 loans) that have outstanding debt
           to Treasury, regulations require that most unobligated balances be returned to Treasury on September 30, or require that
           the borrowing authority be cancelled on September 30.

      ●●   For loan guarantee programs under the Federal Credit Reform Act of 1990 that have outstanding debt to Treasury,
           regulations require that unobligated balances in excess of the outstanding guaranteed loans’ principal and interest be
           returned to Treasury on September 30.

There are no material differences between the amounts reported in the FY 2011 and FY 2010 Combined Statements
of Budgetary Resources and the actual FY 2011 and FY 2010 amounts reported in the FY 2013 and FY 2012 budgets of
the U.S. government, respectively. The President’s Budget that will report actual amounts for FY 2012 has not yet been
published.




                                                                                                                               219
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Apportionment Categories of Obligations Incurred:

The amounts of direct and reimbursable obligations incurred against amounts apportioned under Category A, Category B, and
Exempt from Apportionment are as follows:

                                                                                         FY 2012
                                                               Direct                  Reimbursable                    Total
         Category A                                   $ 	2,878,116               $        2,818,764           $       5,696,880
         Category B                                       	5,397,788                        968,668                   6,366,456
         Exempt from Apportionment                        	174,761                     	-                               174,761
         Total                                        $        8,450,665         $        3,787,432           $      12,238,097

                                                                                         FY 2011
                                                               Direct                  Reimbursable                    Total
         Category A                                   $ 	3,146,550               $         2,837,935          $       5,984,485
         Category B                                       	5,195,930                              965                 5,196,895
         Exempt from Apportionment                        	169,083                         1,053,370                  1,222,453
         Total                                        $        8,511,563         $         3,892,270          $      12,403,833

Category A apportionments distribute budgetary resources by fiscal quarters, whereas Category B apportionments typically
distribute budgetary resources by activities, projects, objects, or a combination of these categories.

Undelivered Orders:

Undelivered orders were $7.35 billion and $10.44 billion at September 30, 2012 and 2011, respectively.

Digital Television Transition and Public Safety Fund:

The Digital Television Transition and Public Safety Fund (Fund) was created by the Digital Television Transition and Public Safety
Act of 2005. This NTIA fund received proceeds from the auction of licenses for recovered analog spectrum from discontinued
analog television signals, and provides funding for several programs from these receipts.

The Federal Communications Commission (FCC) completed the auction of licenses for recovered analog spectrum in March
2008. The auction resulted in proceeds of $18.96 billion, which were deposited to the Fund by FCC on June 30, 2008.

As of September 30, 2012, payments for the programs under the Fund may not exceed $2.81 billion. In September 2009, the
Fund transferred $7.36 billion to the General Fund of the Treasury. The Department understands that Congress’ intent is for the
Fund to further transfer funds beyond the needs of its programs to the General Fund of the Treasury. At September 30, 2012,
the Fund has a Net Position, Cumulative Results of Operations balance of $8.91 billion.

Below is a brief summary of the two largest active programs under this Fund, and significant financial activity recorded for the
FY 2012 and FY 2011 SBR under this Fund for each program:

Public Safety Interoperable Communications (PSIC): This is a grant program to assist public safety agencies in the
acquisition of, deployment of, or training for the use of interoperable communications systems that can utilize reallocated
public safety spectrum for radio communication. The Fund may make payments not to exceed $998.0 million for this




 220
                                               F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




program. The Department has in place a Memorandum of Understanding with the Federal Emergency Management
Agency (FEMA), in which FEMA administers the PSIC grant program. NTIA provides FEMA with funds for the grants
under the program, and for the charges for FEMA’s management and administrative services. NTIA records budgetary
obligations with FEMA, while FEMA records the grants activity under the program. Budgetary obligations for FY 2012 and
FY 2011 under the PSIC program amounted to $495 thousand and $2.6 million, respectively. Budgetary obligations through
September 30, 2010 under the PSIC program amounted to $995.8 million.

National Alert and Tsunami Warning Program: This program is to implement a unified national alert system capable of alerting
the public, on a national, regional, or local basis to emergency situations by using a variety of communications technologies.
The Fund may make payments not exceeding $151.7 million for this program. The Department shall use $50.0 million of such
amounts to implement a tsunami warning and coastal vulnerability program. Budgetary obligations for FY 2012 and FY 2011
amounted to $237 thousand and $47.6 million, respectively.



   NOTE 19. CUSTODIAL NONEXCHANGE ACTIVITY

NOAA receives interest, penalties, and fines primarily related to its past due Accounts Receivable, while BIS receives civil
monetary penalties from private entities that violate the Export Administration Act. These collections are required to be transferred
to Treasury. For FY 2012, the Department had custodial nonexchange revenue of $8.8 million; custodial nonexchange revenue
of $490 thousand was payable to Treasury at September 30, 2012. For FY 2011, the Department had custodial nonexchange
revenue of $6.7 million; custodial nonexchange revenue of $1.8 million was payable to Treasury at September 30, 2011.



   NOTE 20. FIDUCIARY ACTIVITIES

Schedule of Fiduciary Activities for the Year Ended September 30, 2012
                                                                                                 FY 2012
                                                                           Patent
                                                                         Cooperation             Madrid
                                                                           Treaty                Protocol                 Total
        Fiduciary Net Assets, Beginning Balance                      $ 	12,864               $   	     338        $   	     13,202
        Contributions                                                     	153,716               	14,361              	168,077
        Disbursements to and on Behalf of Beneficiaries                   	(153,960)             	(14,299)            	(168,259)
        Increase/(Decrease) in Fiduciary Net Assets                       	(244)                 	62                  	(182)
        Fiduciary Net Assets, Ending Balance                         $    	    12,620        $   	     400        $   	     13,020


Fiduciary Net Assets as of September 30, 2012
                                                                                                 FY 2012
                                                                           Patent
                                                                         Cooperation             Madrid
                                                                           Treaty                Protocol                 Total
        Fund Balance with Treasury                                   $    	    12,620        $ 	400               $   	     13,020




                                                                                                                                  221
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Schedule of Fiduciary Activities for the Year Ended September 30, 2011
                                                                                              FY 2011
                                                                        Patent
                                                                      Cooperation             Madrid
                                                                        Treaty                Protocol                      Total
       Fiduciary Net Assets, Beginning Balance                    $ 	9,452                $   	       576          $   	      10,028
       Contributions                                                   	131,755               	14,551                  	146,306
       Disbursements to and on Behalf of Beneficiaries                 	(128,343)             	(14,789)                	(143,132)
       Increase/(Decrease) in Fiduciary Net Assets                     	3,412                 	(238)                   	3,174
       Fiduciary Net Assets, Ending Balance                       $    	   12,864         $   	       338          $   	      13,202


Fiduciary Net Assets as of September 30, 2011
                                                                                              FY 2011
                                                                        Patent
                                                                      Cooperation             Madrid
                                                                        Treaty                Protocol                      Total
       Fund Balance with Treasury                                 $    	   12,864         $ 	338                   $   	      13,202




 222
                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                     N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




  NOTE 21. EARMARKED FUNDS

The following tables depict major earmarked funds separately chosen based on their significant financial activity and importance to
taxpayers. All other earmarked funds not shown are aggregated as “Other Earmarked Funds.”
United States Department of Commerce Consolidated Balance Sheet
As of September 30, 2012

                                                                            Damage
                                              NTIA Digital   Broadband Assessment Environmental
                                               Television    Technology       and     Improvement
                                  USPTO      Transition and Opportunities Restoration      and       NTIS          Coastal Zone     Other            Total
                                Earmarked    Public Safety    Program -    Revolving   Restoration Revolving       Management     Earmarked       Earmarked
                                  Funds           Fund      Recovery Act     Fund         Fund       Fund             Fund          Funds           Funds

ASSETS
	 Fund Balance with
  	Treasury                   $ 1,606,244 $ 8,842,490        $ 1,712,621    $ 229,485     $   36,197    $ 27,262 $  250           $   40,769 $ 12,495,318
	Cash                               3,330  	-                  	-             	-              	-          	-       	-                 	-            3,330
	 Accounts Receivable, Net            751  	-                  	-               1,468         	-           6,024   	-                    182        8,425
	 Direct Loans and Loan	
  	 Guarantees, Net             	-         	-                    	-             	-            	-         	-             5,784         	-                5,784
	 Inventory, Materials, and 	
  	 Supplies, Net               	-         	-                    	-             	-            	-            120      	-               	-                 120
	 General Property, Plant, 	
  	 and Equipment, Net            236,979  	-                    	-             	-            	-           1,899     	-               	-              238,878
	Other                             13,106      74,523             2,658         	1             42          6,701     	-                43              97,074
	 TOTAL ASSETS              $ 1,860,410 $ 8,917,013          $ 1,715,279    $ 230,954     $    36,239   $ 42,006 $      6,034     $    40,994 $ 12,848,929

LIABILITIES
	 Accounts Payable          $   75,186 $  1,346              $ 	-           $   17,278    $ 	-          $ 11,244 $ 	-             $      200 $        105,254
	 Debt to Treasury              	-       	-                    	-               	-          	-            	-       	-                 	2,538            2,538
	 Federal Employee 		
   	Benefits                         8,209    	-                 	-             	-            	-            844      	-               	-                9,053
	Other
    	 Accrued Payroll and
   		     Annual Leave          200,395           10             	-              379          	-         1,492       	-                243            202,519
    	 Accrued Grants            	-             7,093             61,449          586          1,172      	-          	-               	864             71,164
    	 Unearned Revenue          830,954       	-                 	-             	-            	-         8,071       	-               	-              839,025
    	 Other                      18,792       	-                 	1              115          	-           236       	-                422             19,566
	 TOTAL LIABILITIES         $ 1,133,536 $            8,449   $     61,450   $    18,358   $     1,172   $ 21,887 $ 	-             $     4,267 $    1,249,119

 NET POSITION
	 Unexpended 		
  	Appropriations           $ 	- $ 	-                        $ 1,653,829    $ 	-          $ 	-          $ 	- $ 	-                 $     6,312 $    1,660,141
	 Cumulative Results of 	
  	Operations                     726,874      8,908,564         	-             212,596        35,067     20,119        6,034          30,415      9,939,669
	 TOTAL NET POSITION        $     726,874 $ 8,908,564        $ 1,653,829    $ 212,596     $    35,067   $ 20,119 $      6,034     $    36,727 $ 11,599,810
	 TOTAL LIABILITIES AND
  NET POSITION          $ 1,860,410 $ 8,917,013              $ 1,715,279    $ 230,954     $    36,239   $ 42,006 $      6,034     $    40,994 $ 12,848,929




                                                                                                                                                223
   F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
           N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidated Balance Sheet
As of September 30, 2011

                                                                                Damage
                                                  NTIA Digital   Broadband    Assessment Environmental
                                                   Television    Technology       and     Improvement
                                      USPTO      Transition and Opportunities Restoration      and       NTIS           Coastal Zone Other               Total
                                    Earmarked    Public Safety    Program -    Revolving   Restoration Revolving        Management Earmarked          Earmarked
                                      Funds           Fund      Recovery Act     Fund         Fund       Fund              Fund      Funds              Funds

ASSETS
	 Fund Balance with
  	Treasury                     $ 1,526,349 $ 9,062,212        $ 3,389,425 $ 124,660         $   36,350     $ 27,231 $ 17,848         $   43,979 $ 14,228,054
	Cash                                 2,364  	-                  	-          	-                  	-           	-      	-                  	-            2,364
	 Accounts Receivable, Net              433  	-                  	-              164             	-            3,180  	-                     193        3,970
	 Direct Loans and Loan	
  	 Guarantees, Net                 	-            	-               	-              	-            	-          	-              6,213        	-                   6,213
	 Inventory, Materials, and 	
  	 Supplies, Net                   	-            	-               	-              	-            	-              48       	-              	-                      48
	 General Property, Plant, 	
  	 and Equipment, Net                206,628     	-               	-              	-            	-            1,882      	-              	-                208,510
	Other                                 12,137     175,620          18,767          	-             53           6,736      	-               56               213,369
	 TOTAL ASSETS                  $ 1,747,911 $ 9,237,832        $ 3,408,192 $ 124,824         $    36,403    $ 39,077 $      24,061    $    44,228 $ 14,662,528

LIABILITIES                                                                                                                                           	
	 Accounts Payable              $      85,554 $        1,557   $ 	- $                 693    $ 	-           $ 10,839 $ 	-             $      127 $            98,770
	 Federal Employee 		
   	Benefits                             8,406    	-               	-              	-            	-            1,176      	-              	-                   9,582
	Other                                                                                                                                                	
    	 Accrued Payroll and
   		     Annual Leave              188,709         11             	-               460          	-          1,644        	-                198             191,022
    	 Accrued Grants                	-             301             24,183          	-            1,327       	-           	-              1,677              27,488
    	 Unearned Revenue              845,782       	-               	-              	-            	-          8,277        	-              	-                854,059
    	 Other                          17,200       	-               	-               149          	-            225        	-                 66              17,640
	 TOTAL LIABILITIES             $ 1,145,651 $          1,869   $     24,183 $        1,302   $     1,327    $ 22,161 $ 	-             $     2,068 $        1,198,561

 NET POSITION
	 Unexpended 		
  	Appropriations               $ 	- $ 	-                      $ 3,384,009 $ 	-              $ 	-           $ 	- $ 	-                 $     6,442 $        3,390,451
	 Cumulative Results of 	
  	Operations                         602,260      9,235,963       	-              123,522        35,076      16,916        24,061         35,718         10,073,516
	 TOTAL NET POSITION            $     602,260 $ 9,235,963      $ 3,384,009 $ 123,522         $    35,076    $ 16,916 $      24,061    $    42,160 $ 13,463,967
	 TOTAL LIABILITIES AND
  NET POSITION                  $ 1,747,911 $ 9,237,832        $ 3,408,192 $ 124,824         $    36,403    $ 39,077 $      24,061    $    44,228 $ 14,662,528




             224
                                                                   F Y   2 0 1 2    P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y        R E P O R T
                                                                                  N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidated Statement of Net Cost
For the Year Ended September 30, 2012

                                                                             Damage
                                             NTIA Digital   Broadband      Assessment Environmental
                                              Television    Technology         and     Improvement
                                 USPTO      Transition and Opportunities   Restoration      and       NTIS    Coastal Zone Other                    Total
                               Earmarked    Public Safety    Program -      Revolving   Restoration Revolving Management Earmarked               Earmarked
                                 Funds           Fund      Recovery Act       Fund         Fund       Fund       Fund      Funds                   Funds

Theme 1: Economic Growth
   Gross Costs                $ 2,320,947 $ 327,399         $ 1,638,553 $ 	-             $ 	-         $ 	-           $ 	-         $   5,478     $ 4,292,377
   Less: Earned Revenue        	(2,427,082) 	-                	-          	-               	-           	-             	-             	-         	(2,427,082)
    Net Program Costs          	(106,135)        327,399      1,638,553        	-            	-        	-                	-            5,478         1,865,295

Theme 2: Science and Information
   Gross Costs                 	-               	-            	-               	-            	-          66,056          	-           	-              66,056
   Less: Earned Revenue        	-               	-            	-               	-            	-        	(68,324)         	-           	-            	(68,324)
    Net Program Costs          	-               	-            	-               	-            	-            (2,268)       	-           	-                (2,268)

Theme 3: Environmental Stewardship
   Gross Costs               	-                 	-            	-               127,756       9,746     	-                  430        14,698        152,630
   Less: Earned Revenue      	-                 	-            	-               	-            	-        	-                	(251)       	-            	(251)
    Net Program Costs          	-               	-            	-               127,756        9,746    	-                	179         14,698          152,379
NET COST OF OPERATIONS        $ 	(106,135) $ 327,399        $ 1,638,553 $ 127,756        $    9,746   $ (2,268)      $ 	179       $ 20,176      $ 2,015,406



United States Department of Commerce Consolidated Statement of Net Cost
For the Year Ended September 30, 2011

                                                                             Damage
                                             NTIA Digital   Broadband      Assessment Environmental
                                              Television    Technology         and     Improvement
                                 USPTO      Transition and Opportunities   Restoration     and        NTIS    Coastal Zone Other                    Total
                               Earmarked    Public Safety    Program -      Revolving   Restoration Revolving Management Earmarked               Earmarked
                                 Funds           Fund      Recovery Act       Fund         Fund       Fund       Fund      Funds                   Funds

Theme 1: Economic Growth
   Gross Costs                $ 	2,148,097 $ 	297,884       $ 	665,937     $ 	-          $ 	-         $ 	-           $ 	-         $   5,050     $ 3,116,968
   Less: Earned Revenue         	(2,236,374) 	-                	-            	-            	-           	-             	-             	-         	(2,236,374)
    Net Program Costs          	(88,277)        	297,884      	665,937         	-            	-        	-                	-            5,050          880,594

Theme 2: Science and Information
   Gross Costs                 	-               	-            	-               	-            	-          51,976          	-           	-                51,976
   Less: Earned Revenue        	-               	-            	-               	-            	-        	 (52,349)        	-           	-               (52,349)
    Net Program Costs          	-               	-            	-               	-            	-        	    (373)        	-           	-                 (373)

Theme 3: Environmental Stewardship
   Gross Costs               	-                 	-            	-               16,207        8,823     	-                  338        21,117           46,485
   Less: Earned Revenue      	-                 	-            	-               	-            	-        	-                	(244)       	-                 (244)
    Net Program Costs          	-               	-            	-                16,207        8,823    	-                   94        21,117           46,241
NET COST OF OPERATIONS        $ 	(88,277) $ 297,884         $ 665,937      $    16,207   $    8,823   $ 	(373)       $      94    $ 26,167      $     926,462




                                                                                                                                               225
F Y   2 0 1 2   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y      R E P O R T
        N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidated Statement of Changes in Net Position
For the Year Ended September 30, 2012

                                                                              Damage
                                            NTIA Digital     Broadband      Assessment Environmental
                                             Television      Technology         and     Improvement
                                 USPTO     Transition and   Opportunities   Restoration     and        NTIS    Coastal Zone Other                  Total
                               Earmarked   Public Safety      Program -      Revolving   Restoration Revolving Management Earmarked             Earmarked
                                 Funds          Fund        Recovery Act       Fund         Fund       Fund       Fund      Funds                 Funds

Cumulative Results of
Operations:
	 Beginning Balance            $ 602,260   $ 9,235,963      $ 	-            $ 123,522     $ 35,076    $ 16,916    $ 24,061         $ 35,718 $ 10,073,516

Budgetary Financing Sources:
	 Appropriations Used           	-          	-               1,638,553       	-            	-           	-            	-            	(95)           1,638,458
	 Non-exchange Revenue          	-          	-               	-              202,772       	9,736       	-            	-            9,986             222,494
	 Transfers In/(Out) Without
   	 Reimbursement, Net         	(1,000)    	-               	-              14,058        	-           	-            	-            	5,332        18,390
	Rescissions                    	-          	-               	-              	-            	-           	-            	 (17,848)    	(350)      	(18,198)

Other Financing Sources
(Non-exchange):                                                                                                                                 	
	 Imputed Financing Sources
   	 from Cost Absorbed by
   	Others                        19,479    	-               	-              	-            	1              935        	-            	-               20,415
 Total Financing Sources          18,479    	-                 1,638,553       216,830     	9,737          935        	(17,848)       14,873      1,881,559
 Net Cost of Operations          106,135    	(327,399)       	(1,638,553)    	(127,756)    	(9,746)     	2,268            (179)     	(20,176)   	(2,015,406)
Net Change                       124,614    	(327,399)       	-                89,074      	(9)           3,203       	(18,027)     	(5,303)    	(133,847)
Cumulative Results of
Operations - Ending Balance      726,874      8,908,564      	-               212,596      35,067        20,119         6,034        30,415         9,939,669

Unexpended Appropriations:
	 Beginning Balance             	-          	-                3,384,009      	-            	-           	-            	-              6,442         3,390,451

Budgetary Financing Sources:                                                                                                                    	
	 Other Adjustments             	-          	-               	(91,627)       	-            	-           	-            	-            	(225)      	(91,852)
	 Appropriations Used           	-          	-               	(1,638,553)    	-            	-           	-            	-               95       	(1,638,458)
Total Budgetary Financing
Sources                         	-          	-               	(1,730,180)    	-            	-           	-            	-            	(130)      	(1,730,310)
Unexpended Appropriations
  - Ending Balance              	-          	-                1,653,829      	-            	-           	-            	-              6,312         1,660,141
NET POSITION                   $ 726,874   $ 8,908,564      $ 1,653,829     $ 212,596     $ 35,067    $ 20,119    $     6,034      $ 36,727 $ 11,599,810




          226
                                                            F Y   2 0 1 2   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y       R E P O R T
                                                                                    N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidated Statement of Changes in Net Position
For the Year Ended September 30, 2011

                                                                               Damage
                                             NTIA Digital     Broadband      Assessment Environmental
                                              Television      Technology         and     Improvement
                                  USPTO     Transition and   Opportunities   Restoration     and        NTIS    Coastal Zone Other                  Total
                                Earmarked   Public Safety      Program -      Revolving   Restoration Revolving Management Earmarked             Earmarked
                                  Funds          Fund        Recovery Act       Fund         Fund       Fund       Fund      Funds                 Funds

Cumulative Results of
Operations:
	 Beginning Balance             $ 492,305   $ 9,533,847      $ 	49           $     41,930    $ 34,004      $ 15,424   $ 27,156    $ 45,101      $ 10,189,816

Budgetary Financing Sources:
	 Appropriations Used            	-          	-               665,888            	-            	-           	-         	-          	(122)             665,766
	 Non-exchange Revenue           	-          	-               	-                 73,783        9,895        	-         	-          12,126              95,804
   Transfers In/(Out) Without
       Reimbursement, Net        	-          	-               	-                   24,016      	-           	-         	(3,001)      4,780             25,795

Other Financing Sources
(Non-exchange):
   Imputed Financing Sources
        from Cost Absorbed by
        Others                   	21,678     	-               	-                 	-            	-             1,119    	-          	-               22,797
 Total Financing Sources         	21,678     	-                 665,888            97,799        9,895        1,119    	(3,001)      16,784        810,162
 Net Cost of Operations          	88,277     	(297,884)       	(665,937)         	(16,207)     	(8,823)         373    	(94)       	(26,167)     	(926,462)
Net Change                       	109,955    	(297,884)       	(49)                81,592          1,072      1,492    	(3,095)    	(9,383)      	(116,300)
Cumulative Results of
Operations - Ending Balance      602,260        9,235,963     	-                 123,522       35,076        16,916     24,061      35,718       10,073,516

Unexpended Appropriations:                                                                                                                       	
	 Beginning Balance              	-          	-               	4,092,999         	-            	-           	-         	-            6,320           4,099,319

Budgetary Financing Sources:                                                                                                                     	
	 Appropriations Received        	-          	 -              	        -         	-            	-           	 -        	 -         	-            	-
	 Other Adjustments              	-          	-               	(43,102)          	-            	-           	-         	-          	-            	(43,102)
	 Appropriations Used            	-          	-               	(665,888)         	-            	-           	-         	-           122          	(665,766)
Total Budgetary Financing
Sources                          	-          	-               	(708,990)         	-            	-           	-         	-              122       	(708,868)
Unexpended Appropriations
  - Ending Balance               	-          	-                3,384,009         	-            	-           	-         	-            6,442           3,390,451
NET POSITION                    $ 602,260   $ 9,235,963      $ 3,384,009     $ 123,522       $ 35,076      $ 16,916   $ 24,061    $ 42,160      $ 13,463,967


Below is a description of major earmarked funds shown in the above tables.

The USPTO Earmarked Funds consist of its Salaries and Expenses Fund, and the Patent and Trademark Surcharge Fund.

The Salaries and Expenses Fund contains monies used for the administering of the laws relevant to patents and trademarks
and advising the Secretary of Commerce, the President of the United States, and the Administration on patent, trademark,
and copyright protection, and trade-related aspects of intellectual property. This fund is used for USPTO’s three core business
activities – granting patents; registering trademarks; and intellectual property policy, protection, and enforcement – that promote
the use of intellectual property rights as a means of achieving economic prosperity. These activities give innovators, businesses,
and entrepreneurs the protection and encouragement they need to turn their creative ideas into tangible products, and also
provide protection for their inventions and trademarks. USPTO may use monies from this account only as authorized by Congress
via appropriations.



                                                                                                                                               227
F Y   2 0 1 2   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y        R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




The Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury, is discussed in Note 18, Combined
Statements of Budgetary Resources. USPTO may use monies from this account only as authorized by Congress and made
available by the issuance of a Treasury warrant. As of September 30, 2012 and 2011, $233.5 million is held in this fund.

The NTIA Digital Television Transition and Public Safety Fund makes digital television available to every home in America, improves
communications between local, state, and federal agencies, allows smaller television stations to broadcast digital television,
and improves how warnings are received when disasters occur. NTIA received funding from borrowings from the Bureau
of Public Debt, and repaid the Bureau of Public Debt from the proceeds of the auction of recovered analog spectrum which
was completed in March 2008. The proceeds from the auction provide funding for several programs, and has been and is
expected to be further used to reduce the National Deficit. The law establishing this program can be found in the Deficit
Reduction Act of 2005, P.L. 109-171 Sections 3001-3014.

The Broadband Technology Opportunities Program - Recovery Act includes funds from the American Recovery and Reinvestment
Act of 2009 (Recovery Act) that provides awards to eligible entities to develop and expand broadband services to rural
and underserved areas and improve access to broadband by public safety agencies. Specifically, funds are used for
innovative programs that encourage sustainable adoption of broadband services, to upgrade technology and capacity at
public computing centers, including community colleges and public libraries, and for the development and maintenance of
statewide broadband inventory maps.

The Damage Assessment and Restoration Revolving Fund receives monies for the reimbursement of expenses related to oil or
hazardous substance spill response activities, or natural resource damages assessment, restoration, rehabilitation, replacement,
or acquisition activities conducted by NOAA. The recovered sums by a federal, state, indian, or foreign trustee for natural
resource damages is retained by the trustee and is only used to reimburse or pay costs incurred by the trustee for the damaged
natural resources. The law establishing the Damage Assessment and Restoration Revolving Fund can be found in 33 USC
Section 2706.

The Environmental Improvement and Restoration Fund makes available interest that was earned in the Fund in the previous fiscal
year. 80 percent of such amounts shall be made available to be equally divided among the Directors of the National Park
Service, the United States Fish and Wildlife Service, the Bureau of Land Management, and the Chief of the Forest Service
for high-priority deferred maintenance and repairs and modernization of facilities that directly enhance the experience
of visitors, including natural, cultural, recreational, and historic resources protection projects in National Parks, National
Wildlife Refuges, and the public lands, and for payment to the State of Louisiana and its lessees for oil and gas drainage in
the West Delta field. 20 percent of such amounts shall be made available to the Secretary of Commerce for the purpose
of carrying out marine research activities in the North Pacific. The law establishing the Environmental Improvement and
Restoration Fund can be found at 43 USC Section 147d.

The NTIS Revolving Fund is used to collect, process, market, and disseminate government-sponsored and foreign scientific,
technical, and business information, and to assist other agencies with their information programs. Activities funded by the NTIS
Revolving Fund allow customers, both public and private, access to scientific and technical information produced by and for the
federal government. All receipts from the sale of products and services are deposited in this fund, and all expenses, including
capital expenditures, are paid from it.

The Coastal Zone Management Fund, operated by NOAA, is primarily used for interstate projects, demonstration projects
for improving coastal zone management, and emergency grants to state coastal zone management agencies to address
unforeseen or disaster-related circumstances. The law establishing the Coastal Zone Management Fund can be found in
16 USC Section 1456a.



 228
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 22. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

The Reconciliation of Net Cost of Operations to Budget reconciles the Department’s Resources Used to Finance Activities
(first section), which consists of the budgetary basis of accounting Net Obligations plus the proprietary basis of accounting Other
Resources, to the proprietary basis of accounting Net Cost of Operations. The second section, Resources Used to Finance
Items Not Part of Net Cost of Operations, reverses out items included in the first section that are not included in Net Cost
of Operations. The third section, Components of Net Cost of Operations that Will Not Require or Generate Resources in the
Current Period, adds items included in Net Cost of Operations that are not included in the first section.

The third section’s subsection, Components Requiring or Generating Resources in Future Periods, includes costs reported in
the current period that are included in the Liabilities Not Covered by Budgetary Resources reported in Note 15. This subsection
does not include costs reported in prior fiscal years that are also included in Liabilities Not Covered by Budgetary Resources.

The reconciliations of Net Cost of Operations to Budget for FY 2012 and FY 2011 are as follows:

                                                                                                                   FY 2012           FY 2011
Resources Used to Finance Activities:
Budgetary Resources Obligated
Obligations Incurred                                                                                           $ 12,238,097     $ 12,403,833
Less: Spending Authority From Offsetting Collections and Actual Recoveries of Prior-years UnPaid Obligations     	(4,607,196)     	(4,400,081)
Obligations Net of Offsetting Collections and Actual Recoveries                                                   7,630,901        8,003,752
Less: Distributed Offsetting (Receipts)/Outlays, Net                                                             	(62,667)        	(33,570)
Net Obligations                                                                                                   7,568,234        7,970,182

Other Resources
Donations and Forfeitures of Property                                                                                   579              458
Transfers In/(Out) Without Reimbursement, Net                                                                       182,220            (4,062)
Imputed Financing Sources From Cost Absorbed by Others                                                           	297,694         	347,925
Other Financing Sources/(Uses), Net                                                                                   (8,483)          (8,246)
Net Other Resources Used to Finance Activities                                                                      472,010          336,075
Total Resources Used to Finance Activities                                                                        8,040,244        8,306,257
                                                                                                                       (continued on next page)




                                                                                                                                          229
F Y   2 0 1 2     P E R F O R M A N C E     A N D      A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




(continued from previous page)
                                                                                                                               FY 2012            FY 2011

Resources Used to Finance Items Not Part of Net Cost of Operations:
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but Not Yet Provided                        3,088,147          1,920,989
Resources that Fund Expenses Recognized in Prior Periods                                                                     	(5,718)           	(12,253)
Budgetary Obligations for Downward Subsidy Reestimates Payable to Treasury                                                   	(6,375)           	(8,087)
Budgetary Offsetting Collections and Receipts that Do Not Affect Net Cost of Operations:
	 Distributed Offsetting (Receipts)/Outlays, Net (excludes Clearing Accounts’ Gross Costs)                                       62,667             33,570
  Credit Program Collections which Increase Loan Guarantee Liabilities or Allowance for Subsidy Cost                             68,138             40,204
  Budgetary Financing Sources/(Uses), Net                                                                                       137,002            (138,801)
Resources that Finance the Acquisition of Assets                                                                             	(2,231,293)       	(1,743,564)
Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations:
  Change in Unfilled Customer Orders                                                                                         	(15,472)          	82,970
  Donations and Forfeitures of Property                                                                                            (579)               (458)
  Transfers In/(Out) Without Reimbursement, Net                                                                              	(182,220)         	4,062
  Other Financing Sources/(Uses), Net                                                                                        	8,483             	8,246
	Other                                                                                                                       	(3,409)           	(4,643)
Total Resources Used to Finance Items Not Part of Net Cost of Operations                                                        919,371            182,235
Total Resources Used to Finance Net Cost of Operations                                                                        8,959,615          8,488,492

Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods
Increase in Accrued Annual Leave Liability                                                                                   	394               	5,841
Increase in Federal Employee Benefits                                                                                            42,729             39,447
Increase (Decrease) in Contingent Liabilities                                                                                	(2,900)           	(8,753)
Reestimates of Credit Subsidy Expense                                                                                             3,440              (4,921)
Other                                                                                                                             5,545               7,391
Total Components of Net Cost of Operations that Will Require or Generate Resources in Future Periods                             49,208             39,005

Components Not Requiring or Generating Resources
Depreciation and Amortization                                                                                                   551,210            687,009
NOAA Impairment of Construction-in-progress (Note 16)                                                                            98,260         	-
NOAA Issuances of Materials and Supplies                                                                                         21,581             30,247
Revaluation of Assets or Liabilities                                                                                         	20,728            	(101)
Other                                                                                                                        	(18,581)          	(10,852)
Total Components of Net Cost of Operations that Will Not Require or Generate Resources                                          673,198            706,303
Total Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period                    722,406            745,308
NET COST OF OPERATIONS                                                                                                   $    9,682,021     $    9,233,800




  230
                                                           F Y   2 0 1 2    P E R F O R M A N C E         A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




   NOTE 23. STEWARDSHIP PROPERTY, PLANT, AND EQUIPMENT

This note provides information on certain resources entrusted to the Department and certain stewardship responsibilities
assumed by the Department. The physical properties of Stewardship Property, Plant, and Equipment (Stewardship PP&E)
resemble those of the General PP&E that is capitalized traditionally in the financial statements of federal entities. Due to the
nature of these assets, however, valuation would be difficult and matching costs with specific periods would not be meaningful.
Therefore, federal accounting standards require the disclosure of the nature and quantity of these assets. NOAA, NIST, and the
Census Bureau are the only entities within the Department that have Stewardship PP&E. Additional information on Stewardship
PP&E is presented in the Required Supplementary Information section.

Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation Area:

NOAA maintains the following Stewardship PP&E, which are similar in nature to stewardship land:

National Marine Sanctuaries: In 1972, Congress passed the Marine Protection, Research, and Sanctuaries Act (Act) in response
to a growing awareness of the intrinsic environmental and cultural value of coastal waters. The Act authorized the Secretary
of Commerce to designate special nationally-significant areas of the marine environment as national marine sanctuaries.
These protected waters provide a secure habitat for species close to extinction, and also protect historically significant shipwrecks
and prehistoric artifacts. National marine sanctuaries are also used for recreation (e.g, boating, diving, and sport fishing), and
support valuable commercial industries such as fishing and kelp harvesting. As of September 30, 2012, 13 National Marine
Sanctuaries, which include both coastal and offshore areas, have been designated, covering a total area of nearly 19,000 square
miles. Each individual sanctuary site (Monterey Bay, the Florida Keys, the Olympic Coast, and Channel Island are the largest four)
conducts research and monitoring activities to characterize existing resources and document changes.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround the
Northwestern Hawaiian Islands (NWHI). Papahãnaumokuãkea Marine National Monument was designated by Presidential
Proclamation in 2006 and overlays several previously designated protected areas and forges a co-management regime for the
entire area. The overlayed protected areas comprising the monument are the NWHI Coral Reef Ecosystem Reserve (from 3 to
50 miles in federal waters from the corridor of islands of the NWHI); the National Wildlife Refuges (the islands, atolls and some
federal waters; and the State of Hawaii Refuge and lands and waters. The Monument is co-managed by the Department of
Commerce-NOAA with the Department of the Interior, and the state of Hawaii.

Rose Atoll Marine National Monument: On January 6, 2009, President Bush designated the Rose Atoll Marine National Monument
in American Samoa. The monument includes the Rose Atoll National Wildlife Refuge. It also includes about 20 acres of land
and 1,600 acres of lagoon and is one of the most pristine atolls in the world. The areas around the atoll support a dynamic reef
ecosystem that is home to many land and marine species, many of which are threatened or endangered. The Department of the
Interior has primary management responsibility of the atoll while NOAA has primary management responsibility for the marine
areas of the monument seaward of mean low water, with respect to fishery-related activities regulated pursuant to the Magnuson-
Stevens Fishery Conservation and Management Act (16 U.S.C. 1801 et seq. ) and any other applicable authorities. An inter-
governmental committee comprised of NOAA, Department of the Interior, and the American Samoa Government has been
established to develop and coordinate management strategies. NOAA is progressing with fisheries management strategies, and
has begun the process to consider incorporation of the area into the Fagatele Bay National Marine Sanctuary.




                                                                                                                               231
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Marianas Trench Marine National Monument: On January 6, 2009, President Bush designated the Marianas Trench Marine National
Monument. The Monument consists of approximately 96,000 square miles of submerged lands and waters of the Mariana
Archipelago. It includes three units: the Islands Unit, the waters and submerged lands of the three northernmost Mariana
Islands; the Volcanic Unit, the submerged lands within 1 nautical mile of 21 designated volcanic sites; and the Trench Unit, the
submerged lands extending from the northern limit of the Exclusive Economic Zone of the United States in the Commonwealth
of the Northern Mariana Islands (CNMI) to the southern limit of the Exclusive Economic Zone of the United States in the
Territory of Guam. No waters are included in the Volcanic and Trench Units, and CNMI maintains all authority for managing
the three islands within the Islands Unit (Farallon de Pajaros or Uracas, Maug, and Asuncion) above the mean low water line.
The Department of the Interior, in consultation with NOAA, has management responsibility for the monument. With respect
to fishery-regulated activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and Management Act and any
other applicable authorities, however, NOAA has primary management responsibility, and, when necessary, consults with the
Department of the Interior. The inaugural Marianas Trench Monument Advisory Council (MTMAC) meeting took place on June 5
and 6, 2012, in Garapan, Saipan. NOAA is progressing with fisheries management strategies, and is scoping for management
plan development, in cooperation with the Department of the Interior.

Pacific Remote Islands Marine National Monument: On January 6, 2009, President Bush designated the Pacific Remote Islands
Marine National Monument. The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis Islands, Johnston
Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the exception of Wake Island, these
islands are administered as National Wildlife Refuges by the Department of the Interior. They sustain many endemic species,
including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds, insects, and vegetation not found elsewhere.

The Department of the Interior has responsibility for management of the Monument in consultation with NOAA, including out
to 12 nautical miles from the mean low water lines of Wake, Baker, Howland, and Jarvis Islands, Johnston Atoll, Kingman Reef
and Palmyra Atoll, pursuant to applicable legal authorities. NOAA is progressing with fisheries management strategies, and is
scoping to develop a Monument Management Plan in cooperation with the Department of the Interior.

Aleutian Islands Habitat Conservation Area: On July 28, 2006, NOAA formally established the Aleutian Islands Habitat Conservation
Area in Alaska, which covers nearly 370,000 square miles and may harbor among the highest diversity of deep-water corals
in the world. The conservation area established a network of fishing closures in the Aleutian Islands and Gulf of Alaska, and
protects habitat for deep water corals and other sensitive features that are slow to recover once disturbed by fishing gear or
other activities. Six small areas that include fragile coral gardens discovered by NOAA Fisheries Service scientists are closed
to all bottom-contact fishing gear. This effort is part of a network of new marine protected areas in Alaskan waters designed to
protect essential fish habitat and prevent any further damage of the area.

Written policy statements or permit guidelines for the National Marine Sanctuaries and Monuments have been developed for
the areas of acoustic impacts, artificial reefs, climate change, invasive species, and marine debris. Submarine cable policy
was finalized in 2011. NOAA’s Office of Marine National Sanctuaries may be updating artificial reefs policy to reflect recent
information about the effects of artificial reefs on natural habitats. The Office of Marine National Sanctuaries answers the most
frequently asked questions related to alternative energy and oil and gas policy decisions for national marine sanctuaries.

Heritage Assets:

Heritage assets are unique for their historical or natural significance, for their cultural, educational, or artistic importance, or for
their significant architectural characteristics. The Department generally expects that these assets will be preserved indefinitely.




 232
                                                 F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




In cases where a heritage asset also has a practical and predominant use for general government operations, the asset is
considered a multi-use heritage asset. The cost of a multi-use heritage asset is capitalized as General PP&E and is depreciated
over the useful life of the asset.

NOAA has established policies for heritage assets to ensure the proper care and handling of these assets under its control
or jurisdiction. The Deputy Under Secretary of NOAA established the Heritage Assets Working Committee to administer
NOAA’s stewardship policies and procedures. In carrying out these policies and procedures, the Working Committee:

   ●●   Maintains a nationwide inventory of heritage assets, ensuring that they are identified and recorded in the Personal
        Property Heritage Asset Accountability System;

   ●●   	Establishes nationwide NOAA policies, procedures, and standards for the preservation, security, handling, storage, and
         display of NOAA heritage assets;

   ●●   Tracks and updates each loan of NOAA heritage assets, including assigning current values and inventory numbers, and
        reporting the current conditions of heritage assets;

   ●●   Determines the feasibility of new asset loans, such as meters, standard tide gauges, portraits, and books for exhibit
        loans; and

   ●●   Collects heritage assets and properties of historic, cultural, artistic, or educational significance to NOAA.

NOAA maintains the following Heritage Assets:

Galveston Laboratory: Galveston Laboratory is comprised of seven buildings that were originally part of Fort Crockett, Texas,
an army coastal defense facility built shortly after 1900. These buildings are eligible for placement on the National Register.
Due to their historic significance, exterior architectural features, and predominant use in government operations, the Galveston
Laboratory is considered a multi-use heritage asset.

National Marine Fisheries Service (NMFS) St. George Sealing Plant: On St. George Island, in the Pribilof Islands group, Alaska, is the
only remaining northern fur seal pelt processing building in the world. In 1986, the building was listed on the National Register
of Historic Properties, within the Seal Islands National Historic Landmark. The Pribilof Islands commercial fur seal harvest was
an extremely profitable business for the U.S. government, and, by the early 1900s, had covered the purchase price of Alaska.
The building is the largest on the island, and is comprised of four distinct work areas from the seal pelt processing area. In 1950,
the original wood-framed pelt processing plant was destroyed in a fire and rebuilt in 1951 with concrete walls on remnants of the
original foundation. Harsh weather and a lack of maintenance funding after the expiration of the Northern Fur Seal Convention in
1985 resulted in significant deterioration of the building by the early 1990s.

In November 1999, after numerous site surveys and assessments, the building’s crumbling foundation was stabilized and the
building’s exterior was painted. This effort allowed for NOAA’s continued, but limited, use of the building by the NMFS Alaska
Region and Alaska Fisheries Science Center to achieve NOAA’s mission on St. George Island. In addition, the U.S. Fish and
Wildlife Service (USFWS) Alaska Maritime National Wildlife Refuge used the building as a bunkhouse until 2006, when NOAA’s
Safety Officer and the USFWS Safety Officer both determined the bunkhouse portion of the building lacked sufficient means
of egress in the event of fire and deemed it to be unsafe for habitation. It was determined by USFWS that the cost of making
the necessary modifications to the space was not fiscally justifiable. NOAA’s Preserve America program funded an interpretive
display project in the Seal Plant to promote public outreach and education for the modest tourism program on St. George.




                                                                                                                                233
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




NMFS Cottage M, St. George: The last remnants of the U.S. commercial harvest of northern fur seals can be found on St. George
Island, in the Pribilof Islands group, Alaska. In 1986, Cottage M (locally known as Cottage C), was listed on the National Register
of Historic Places within the Seal Islands National Historic Landmark. This building was constructed in the 1930s and was the
residence of the island doctor and hospital through 1955, when the current clinic/hospital was built. Later, the construction of
a health clinic on St. George Cottage M provided housing for government scientists and managers. In recent years, USFWS
Alaska Maritime National Wildlife Refuge staff have also used the building. NMFS Cottage M is considered a multi-use heritage
asset because of the critical housing for NOAA’s research and management staff, along with USFWS staff.

NMFS St. Paul Old Clinic/Hospital: On St. Paul Island, in the Pribilof Islands group, Alaska, fewer historic structures remain than
on St. George Island. In 1986, the clinic/hospital was listed on the National Register of Historic Places within the Seal Islands
National Historic Landmark. The old clinic/hospital is the combination of three historic buildings (physician’s house, 1929;
dispensary, 1929; and hospital, 1934) connected in 1974 with an addition. The building was used as a clinic/hospital through
2006 under a Memorandum of Agreement between NMFS and the Department of Health, Education and Welfare, and later,
the Indian Health Service/Bureau of Indian Affairs. Since August 2007, NMFS has maintained the facility. The facility is vacant
and in significant need for repair before it can be utilized. During the winter of 2010, there was a freeze resulting in broken
plumbing pipes and substantial flooding and icing throughout the building. All surface finishes on walls and most floors and
most wall insulation have been removed. The electrical, heating, plumbing supply, waste drain, and fire sprinkling systems
are non-functional. An engineering assessment has been completed which indicates that the north and south sections of the
structure (built in 1929 and 1934) are in poor condition. The assessment recommended demolition vice repair of these sections
due to the extensive amount of work required to bring these oldest portions of the structure to meet modern code compliance.
The report recommended temporary shoring of the north and south sections to reduce the possibility of collapse until a decision
is made with respect to the future renovation of the facility. NMFS will evaluate the cost-benefit of renovation of the facility to
accommodate future needs on St. Paul Island.

NMFS Aquarium: In Woods Hole, Massachusetts, this aquarium was established in 1875 by Spencer Baird, the originator of
NMFS. In addition to being part of the first laboratory of today’s NMFS, this aquarium is the oldest marine research display
aquarium in the world. It is used to educate the public, raise public awareness of NMFS activities, and accommodate in-house
research for the Northeast Fisheries Science Center. The aquarium houses 16 permanent exhibition tanks and approximately
12 freestanding aquaria and touch tanks holding more than 140 species of fish and invertebrates and, on occasion, sea turtles.
The facility also has an exterior seal habitat that currently exhibits non-releasable harbor seals obtained through the NOAA marine
mammal stranding network. The tanks range in size from 75 to 2,800 gallons. NMFS Aquarium is considered a multi-use heritage
asset because it is also used for NOAA’s scientific research, which is part of its mission.

Office of Atmospheric Research (OAR) Great Lakes Environmental Research Laboratory (GLERL), Lake Michigan Field Station (LMFS): In
Muskegon, Michigan, the GLERL main building, constructed in 1904 by the U.S. Life Saving Service, is eligible for National
Register designation and has been recognized by state and local historical societies for its maritime significance. With the
creation of the U.S. Coast Guard in 1915, the facility was transferred and served as a base for search and rescue operations
for 75 years. In 2004, a renovation project was completed that restored the exterior to its original architecture and color
scheme – a style that is considered rare. Today, GLERL carries out research and provides scientific products, expertise,
and services required for effective management and protection of Great Lakes and coastal ecosystems. GLERL/LMFS
includes three buildings and a research vessel dockage. The function of the field station is to provide a base of operations
for GLERL’s primary research vessel, which is presently the Research Vessel Laurentian, and to provide a focal point for
GLERL’s research on Lake Michigan. Due to its historic significance, exterior architectural features, and predominant use
in government operations, GLERL/LMFS is considered a multi-use heritage asset.




 234
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




Collection-type Heritage Assets: NOAA’s collection-type heritage assets are comprised primarily of books, journals, publications,
photographs and motion pictures, manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are
maintained by the NOAA Central Library (Library). As evidenced by a search of international catalogs, 35 to 50 percent of the
Library’s collection is unique. Historically, 40 percent of the items catalogued are not found anywhere else. Many older books
cannot be replaced. The works include 17th century works of Francis Bacon and Robert Boyle, 18th century works of Daniel
Bernouilli, Daniel Defoe, and Pierre Bougher, and 19th and 20th century works of Benjamin Franklin and George Washington
Carver. The Library has an extensive collection of historical Coast and Geodetic Survey materials (from 1807) and Weather Bureau
materials (from the 1830s), including foreign and historical meteorological data, information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection (Collection). In 2004, the
Thunder Bay National Marine Sanctuary (jointly managed by NOAA and the State of Michigan to protect and interpret a nationally
significant collection of shipwrecks and other maritime heritage resources) established an agreement with the Alpena County
George N. Fletcher Public Library to jointly manage this Collection. Amassed over a period of more than 40 years by historian
C. Patrick Labadie, the Collection includes information about such diverse subjects as Great Lakes ports and waterways, docks,
cargoes, ships, shipbuilders, owners and fleets, machinery and rigging, notable maritime personalities, and shipwrecks. Special
features of the Collection are extensive collections of a) data cards listing most of the ships on the Great Lakes before year 1900,
a roster of some 15,000 vessels complete with descriptive data and highlights of the ships’ careers and their ultimate losses;
and b) ship photograph negatives of 19th and 20th century Great Lakes ships. Heritage assets also include copies of vessel
ownership documents, contemporary ship photographs, books, and other items documenting the Great Lakes history.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include
a) books, manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment.

Historical artifacts are designated collection-type heritage assets if they help illustrate the social, educational, and cultural heritage
of NOAA and its predecessor agencies (Coast and Geodetic Survey, U.S. Fish Commission, the Weather Bureau, the Institutes
for Environmental Research, the Environmental Science Services Administration, etc.). These include, but are not limited to,
bells, gyrocompasses, brass citations, flags, pennants, chronometers, ship seals, clocks, compasses, fittings, miscellaneous
ship fragments, lithographic plates, barometers, rain gauges, and any items that represent the uniqueness of the mission of
NOAA and its predecessor agencies.

The NOAA Logistics Office continually conducts inventories of its collection-type heritage assets. Many items that were once
classified as an individual collection are now included in existing collections. Other items are now deemed as not meeting the
heritage asset criteria.

NIST currently maintains collection-type heritage assets under its Museum and History Program, which collects, conserves,
and exhibits artifacts, such as scientiﬁc instruments, equipment, objects, and records of signiﬁcance to NIST and predecessor
agencies. This program provides institutional memory and demonstrates the contributions of NIST to the development of
standards measurement, technology, and science. The Information Services Office (ISO) maintains the historical archives, rare
book collection, and oversees the oral history program. The historical archives and rare book collection contain titles that are
considered “classics” of historical scientiﬁc interest, books by prominent contemporary scientists, and books by NIST authors
or about NIST work. Titles are recommended for inclusion by ISO staff and customers. Materials are not speciﬁcally purchased
for the collection nor are funds speciﬁcally allocated for the collection. Photos and manuscripts include images of NIST staff,
facilities, and artifacts that demonstrate NIST accomplishments.




                                                                                                                                    235
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




NIST’s Museum and History Program has policies in place for acquisitions and loans. Objects are either on display or in storage
and are not used by visitors. Archives, including the historical book collection, are used according to established research library
policies and procedures. When considering artifacts for accession, the following criteria are considered:

   ●●   Direct connection to NIST program activity

   ●●   Direct connection to a NIST prominent person

   ●●   Physical size

   ●●   Safety considerations

Archive material is not loaned. Artifacts are rarely loaned, but can be loaned within established policies and procedures for
educational purposes, scholarly research, and limited public exhibition to qualiﬁed institutions. The loan policy packet for these
artifacts includes an introduction to the NIST Loan Program, Borrower Checklist, Artifact Loan Request, NIST Loan Policy,
Insurance Requirements, Facilities Report, Outgoing Loan Agreement, Condition Report Form, and Outgoing Loan Process.

ISO preserves and promotes the history of NIST through a program that collects, organizes, and preserves records of enduring
value and encourages and supports their use by researchers. The policies and procedures cover such topics as submitting
reference inquiries, regulations for use of the archives collection, scope of archives collection, criteria for accepting archival
material, providing physical and bibliographic access, preservation, and reviewing the collection.

Collection-type heritage assets maintained by Census Bureau are items considered unique for their historical, cultural, educational,
technological, methodological, or artistic importance. They help illustrate the social, educational, and cultural heritage of Census
Bureau. Some items because of their age or obvious historical significance are inherently historical artifacts. Some examples
of these historical artifacts include:

1900 Hollerith Key Punch: Census Bureau clerks used the key punch during the 1900s to punch round holes into cards for tabulation
by electric tabulating machines housed at the Census Bureau. The key punch increased the speed with which clerks could
transfer data entered on census schedules to the punch cards used to tabulate census results.

Hollerith Tabulator (Dial): The Hollerith Tabulator dial was manufactured by the Tabulating Machine Company for the Census Bureau.
The Hollerith Tabulator dial mechanically illustrated the data being read from punched paper cards entered into the tabulator.
The holes punched in cards were sensed by pins or pointers making contact through the holes to a drum. The completion of an
electric circuit through a hole advanced the counter on this dial representing data tabulated for a specific population, economic,
or agriculture inquiry on the census schedule.

Gang Punch: The Gang punch was manufactured by the Tabulating Machine Company for the Census Bureau. The gang punch
was used for recording facts common to a number of punch cards, such as the month, day, year, etc. It is equipped with a
number of moveable punches, which can easily be changed and set for any desired combination. Using the gang punch, clerks
could punch a number of cards at once, thus speeding the transcription of data.

Pantograph: This item was manufactured by the Tabulating Machine Company for the Census Bureau. Census Bureau clerks used
the pantograph, or keyboard punch, to transfer information on the census schedule to punch cards. To operate the pantograph,
the clerk guided one end of the lever over a board showing the categories of information from the census (age, sex, place of
birth, etc.) and depressed the lever at the appropriate position, punching a hole in the punch card. With the information found




 236
                                               F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




on the schedule translated into punch holes on cards, the data could then be read and the results tallied by tabulators designed
to read the punch cards.

Census Bureau Enumerators Badge: The Census Bureau provided enumerators with badges during the 1900s and later censuses,
and recipients were instructed to wear them when on duty. The 1900s instructions to enumerators noted that the badge offered
additional evidence of the bearer’s authority to ask the question required by law. Furthermore, enumerators were instructed
to wear the badge attached to the vest under the coat, and to exhibit it only when it would aid the enumerator in obtaining the
information. Upon completion of the census, the Census Bureau permitted enumerators to keep the badge as a souvenir of
their service.

Data Stewardship Button: The data stewardship button served as a visible reminder to employees that the Census Bureau complies
with all federal legal requirements affecting the collection, handling, and dissemination of personal and business information.
In addition, the Census Bureau believes that individuals and businesses have fundamental rights to be treated fairly and ethically
when asked to provide their personal information to the government for statistical purposes.

Steel Hand Bander: The steel hand bander is used to secure paper, boxes, and other goods to pallets, via ribbons of steel,
for shipment. The Census Bureau has used similar banders since the early 20th century to secure boxes of questionnaires,
publications, etc., for shipment to census offices throughout the United States, Puerto Rico, and the Island Areas.

Unisys Tape and Reel: It is assumed that Unisys Corporation manufactured this tape and reel in the 1980s. This tape technology,
released in 1964, introduced what is now generally known as 9-track tape. The magnetic tape is ½ inch wide, with eight data
tracks and one parity track for a total of nine parallel tracks. Data is stored as 8-bit characters, spanning the full width of the tape
(including the parity bit). Various recording methods are used to place the data on tape, depending on the tape speed and data
density, including PE (phase encoding), GCR (group code recording), and NRZI (non-return-to-zero, inverted).

Film Optical Sensing Device for Input to Computers (FOSDIC): This 1980s file cabinet-sized version of FOSDIC was manufactured by
the Census Bureau for the 1990 census. During the 1950s, the Census Bureau and the National Bureau of Standards developed
a system called Film Optical Sensing Device for Input to Computers (FOSDIC), which took census and survey questionnaires
that had been photographed onto microfilm, read blackened dots opposite the appropriate answers, and transferred that data to
magnetic tape. These tapes constituted the input for the Census Bureau’s computers. One important result of this process was
the elimination of most discrepancies in data records sent for processing. First used to process 1960 census results, FOSDIC
played an integral part in the Census Bureau’s data processing system into the mid-1990s.

Artwork and Gifts: Census Bureau’s artwork and gifts include items bequeathed to, given to, or commissioned by the agency,
such as posters, paintings, sculptures, postage stamps, photographs, antiques, memorial plaques, cultural artifacts from other
statistical agencies and countries, awards, time capsules, buttons and badges, and more.

Census Bureau has developed a Project Charter for heritage assets which has developed policies and procedures for the acquisition
and removal of Census Bureau heritage assets. If a Census Bureau employee receives a gift from a foreign government’s statistical
agency or any other agency while on official government travel, the Census Bureau employee will deliver the item to a member
of Census Bureau’s Heritage Assets Committee for review upon his or her return to Census Bureau, if the item is valued at more
than $25 dollars. The Committee will decide if the item meets the criteria for a heritage asset based on the uniqueness, historical
age, and/or if the item helps to illustrate Census Bureau’s historic contributions to the nation’s growth. If the item is deemed a
heritage asset, the applicable property management office will ensure the heritage asset is catalogued and stored in a safe, secure
environment, allowing for appropriate preservation and conservation. All necessary actions will be taken to reduce deterioration




                                                                                                                                  237
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N OT E S TO T H E F I N A N C I A L S TAT E M E N T S




of heritage assets due to environmental conditions, and to limit damage, loss, and misuse of heritage assets. The Committee
meets on a regular basis to determine if any heritage assets should be removed from the approved list, or if a newly arrived item
should be classified as a heritage asset. Once a determination has been made to no longer classify an item as a heritage asset,
Census Bureau will follow any applicable established policies and procedures for surplus property.

(In Actual Quantities)

                                      Collection-type Heritage Assets
                                                                          Quantity of                                   Quantity of
                                                                          Items Held                                    Items Held
                                                                         September 30,       FY 2012         FY 2012   September 30,
 Category                       Description of Assets                        2011           Additions      Withdrawals     2012
 NOAA Central Library:
    Circulating Collection      Books, journals, and other
                                publications                                        1       	N/A           	N/A                        1
    Rare Book Room
    Collection                  Books and publications                              1       	N/A           	N/A                        1
    Collection of
    Photographs and Motion
    Pictures               Photographs and motion pictures                          1       	N/A           	N/A                        1
    Other                       Artifacts, documents, and other                                            	
                                items                                              56       	-             	-                        56
 National Ocean Service–        Data cards, photograph negatives,
 Thunder Bay Sanctuary          document copies, photographs,
 Research Collection            books, and other items                       106,254        	-             	-                  106,254
 National Climatic Data         Artifacts, books, documents, and
 Center Library                 other items                                      325        	-             	-                       325
 NOAA Others                    Artifacts, artwork, books, films,
                                instruments, maps, and records                 3,422        	11                     2              3,431
 NIST Artifacts and             National Bureau of Standards
 Scientific Measures            (NBS)/NIST scientific instruments,
                                equipment, and objects                           990        	25            	-                      1,015
 NIST Historical Books          Books of historical scientific
 and Manuscripts                interest, books by prominent
                                contemporary scientists, and
                                books by NBS/NIST authors and
                                manuscripts of NBS/NIST staff,
                                facilities, and artifacts                          61       	-             	-                        61
 Census Bureau Artwork          Artifacts, artwork, books, films,
 and Gifts                      instruments, and records                         132        	-             	-                       132
 Census Bureau                  Publications, books, manuscripts,
 Collectable Assets             photographs, and maps                              30       	-             	-                        30
 Total                                                                       111,273                36              2          111,307
 N/A - Not applicable; this category is reported as one collection.


Additional information on the condition of the above Heritage Assets is presented in the Required Supplementary Information
section.




 238
                                                  F Y   2 0 1 2     P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




            Consolidating
              Bal ance
               S heet
                              United States Department of Commerce Consolidating Balance Sheet
                              As of September 30, 2012 (In Thousands)
                                                                                                         Intra-
                                                                                       Consolidating Departmental                     Census                                                                                Franchise




F Y   2 0 1 2
                                                                                          Total      Eliminations       BIS           Bureau        DM/G&B DM/S&E        DM/WCF           EDA           ELGP    ESA/BEA       Fund       HCHB             ITA             MBDA          NIST        NOAA          NTIA         NTIS     OIG            USPTO

                              ASSETS

                              Intragovernmental:
                              Fund Balance with Treasury                               $ 19,261,281     $	-           $ 34,717    $    797,111 $ 2,587       $ 19,009    $ 61,003    $1,310,264     $     291   $ 20,302    $ 2,909     $30,191      $ 123,301       $     15,372   $ 841,418 $ 3,600,209 $ 10,630,668 $ 27,935 $       17,038     $ 1,726,956
                              Accounts Receivable                                            116,009     	(20,212)        679           11,877       	-        13,955        242             135    	-           	-         	-           	-                3,293     	-                   5,378       93,304          1,072     5,748     502                36
                              Advances and Prepayments                                       208,368     	(81,987)      2,503           30,680       	-         6,815        642            1,796   	-              713          164     	-               10,592             893          7,886      135,276        88,398       332     1,215            2,450
                              Total Intragovernmental                                      19,585,658    	(102,199)    37,899          839,668       2,587     39,779      61,887     1,312,195           291     21,015        3,073       30,191       137,186           16,265       854,682     3,828,789    10,720,138    34,015   18,755         1,729,442

                              Cash                                                             4,834     	-            	-             	-             	-       	-          	-          	-            	-           	-         	-           	-           	-             	-              	-                  370    	-               133    	-                4,331
                              Accounts Receivable, Net                                       104,941     	-             3,896            2,630       	-             2          18               6   	-                 3    	-           	-                  202             121          5,694       91,377              1      276    	-                  715




P E R F O R M A N C E
                              Direct Loans and Loan Guarantees, Net                          570,348     	-            	-             	-             	-       	-          	-               11,278   	-           	-         	-           	-           	-             	-              	-              559,070    	-             	-       	-          	-
                              Inventory, Materials, and Supplies, Net                        104,978     	-            	-                  113       	-       	-                3            464    	-           	-         	-           	-           	-             	-                  26,395       77,883    	-               120    	-          	-
                              General Property, Plant, and Equipment, Net                  10,000,512    	-                14          146,380       7,335      1,959        379             697    	-              549     	-              16,701         3,553     	-                 943,399     8,623,801       16,867      1,899   	-              236,979
                              Other                                                           48,276     	-             1,186                  83       3     	-          	-          	-            	-           	-         	-           	-                  957     	-                    584        28,437              1     6,369   	-               10,656




A N D
                              TOTAL ASSETS                                             $ 30,419,547     $	(102,199)   $ 42,995    $    988,874 $ 9,925       $ 41,740    $ 62,287    $1,324,640     $     291   $ 21,567    $ 3,073     $46,892      $ 141,898       $     16,386   $ 1,830,754 $ 13,209,727 $ 10,737,007 $ 42,812 $    18,755     $ 1,982,123



                              LIABILITIES

                              Intragovernmental:
                              Accounts Payable                                         $     156,032    $	(19,914)    $ 1,210     $     21,757 $	-           $ 5,058     $ 1,504     $       340    $	-         $ 4,804     $	-         $       1    $     2,123     $       332    $     2,096 $    120,360 $        1,840 $ 8,575 $         80   $      5,866
                              Debt to Treasury                                               554,281     	-            	-             	-             	-       	-          	-             	-             	-       	-             	-          	-        	-                 	-          	-              551,743          2,538    	-       	-             	-

                              Other
                              	   Resources Payable to Treasury                               12,862     	-            	-             	-             	-       	-          	-               11,292       	-       	-             	-          	-        	-                 	-          	-                1,570     	-            	-       	-             	-
                              	   Unearned Revenue                                           332,923     	(81,987)        173          176,154       	-         4,020      43,076          47,834       	-       	-              164        	-               842              34         66,120       28,038        35,399      4,292    2,787            5,977
                              	Other                                                         102,412     	(298)         1,630           24,750       	-         2,661       1,636            741        	-          832         	-              6          3,942             556          5,302       40,554             816     236      256            18,792




A C C O U N T A B I L I T Y
                              Total Intragovernmental                                       1,158,510    	(102,199)     3,013          222,661       	-        11,739      46,216          60,207       	-         5,636         164            7          6,907             922         73,518      742,265        40,593     13,103    3,123           30,635

                              Accounts Payable                                               296,869     	-             1,787           46,723          3       1,215       4,746            324        	-         2,136        	-             48          4,331             129         15,616      140,553          4,599     2,669    2,670           69,320
                              Loan Guarantee Liabilities                                         518     	-            	-             	-             	-       	-          	-          	-                	-       	-         	-              	-        	-                 	-          	-                  518    	-             	-       	-          	-
                              Federal Employee Benefits                                      851,211     	-             2,926          130,887       	-         1,904       4,536           1,193       	-          430     	-                 38          7,524            2,165         9,104      679,612          1,768      844          71          8,209
                              Environmental and Disposal Liabilities                          59,945     	-            	-             	-             	-       	-          	-          	-                	-       	-         	-           	-           	-             	-                  55,036        4,909    	-             	-       	-          	-

                              Other




R E P O R T
                                                                                                                                                                                                                                                                                                                                                               N O T E SC O




                              	   Accrued Payroll and Annual Leave                           580,715     	-             6,454           78,863        159       4,597       9,477           3,053   	-             7,523    	-                 77         28,355             941         47,872      183,688         4,802      1,492    2,967          200,395
                                                                                                                                                                                                                                                                                                                                                                          TO




                              	   Accrued Grants                                             635,856     	-            	-             	-             	-       	-          	-              420,910   	-           	-         	-           	-                1,909            1,484        80,396       59,664        71,493     	-       	-          	-
                              	   Capital Lease Liabilities                                    8,377     	-            	-             	-             	-       	-          	-          	-            	-           	-         	-           	-           	-             	-              	-                8,377    	-             	-       	-          	-
                                                                                                                                                                                                                                                                                                                                                                            N STO




                              	   Unearned Revenue                                          1,053,580    	-             4,747            2,487       	-       	-          	-                 471    	-           	-         	-           	-               14,149     	-                  49,747       30,409             295    4,585   	-              946,690
                              	Other                                                          57,732     	-                94            2,032       	-       	-          	-          	-            	-           	-         	-           	-               11,745     	-                        33     43,828    	-             	-       	-          	-
                                                                                                                                                                                                                                                                                                                                                                                HLEI D




                              TOTAL LIABILITIES                                        $ 4,703,313      $	(102,199)   $ 19,021    $    483,653 $      162    $ 19,455    $ 64,975    $ 486,158      $	-         $ 15,725    $    164    $     170    $ 74,920        $      5,641   $ 331,322 $ 1,893,823 $        123,550 $ 22,693 $    8,831     $ 1,255,249
                                                                                                                                                                                                                                                                                                                                                                                     F IANT A




                              NET POSITION
                                                                                                                                                                                                                                                                                                                                                                                            INNG




                              Unexpended Appropriations
                              	   Unexpended Appropriations - Earmarked Funds          $ 1,660,141      $	-           $	-         $	- $	-                    $	-         $	-         $	-            $	-         $	-         $	-         $	-          $	-             $	-            $	- $	- $ 1,660,141 $	- $	-                                    $	-
                              	   Unexpended Appropriations - All Other Funds               5,056,293    	-            30,544          295,203       	-        23,760     	-              842,226         291      9,909        	-          30,106        94,222           13,981       539,823     3,134,777       33,019     	-        8,432         	-

                              Cumulative Results of Operations
                              	   Cumulative Results of Operations - Earmarked Funds       9,939,669     	-            	-             	-             	-       	-          	-             	-             	-       	-             	-          	-             4,468         	-             	-           280,034      8,908,174    20,119   	-              726,874
                              	   Cumulative Results of Operations - All Other Funds        9,060,131    	-            	(6,570)        210,018       9,763    	(1,475)    	(2,688)       	(3,744)       	-       	(4,067)       2,909       16,616       	(31,712)       	(3,236)       959,609     7,901,093       12,123     	-        1,492         	-

                              TOTAL NET POSITION                                       $ 25,716,234     $	-           $ 23,974    $    505,221 $ 9,763       $ 22,285    $	(2,688)   $ 838,482      $     291   $ 5,842     $ 2,909     $46,722      $ 66,978        $     10,745   $ 1,499,432 $ 11,315,904 $ 10,613,457 $ 20,119 $     9,924     $ 726,874
                                                                                                                                                                                                                                                                                                                                                                                               C I BAAL L SATNACT EE M




                              TOTAL LIABILITIES AND NET POSITION                       $ 30,419,547     $	(102,199)   $ 42,995    $    988,874 $ 9,925       $ 41,740    $ 62,287    $1,324,640     $     291   $ 21,567    $ 3,073     $46,892      $ 141,898       $     16,386   $ 1,830,754 $ 13,209,727 $ 10,737,007 $ 42,812 $    18,755     $ 1,982,123
                                                                                                                                                                                                                                                                                                                                                                                                                     SHEN




             241
                              See accompanying independent auditors’ report.
                                                                                                                                                                                                                                                                                                                                                                                                                        E ET TS
N
COON
   T ES SO TL O
              I D TAH
                    T IENFGI NBAAN
                                 LACN
                                    I ACLE SSTH
                                              A ET EE TM E N T S




  242
                                                    F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I     A    L         S    E   C   T   I   O   N




                    R equired
            S upplementary
              I nformation
                            (u n a u d i t e d)
                                                 R E Q U I R E D S U P P L EN
                                                                            MO T ETSA RT Y
                                                                              EN         O ITNHFEO FRIM
                                                                                                      NAATNI C
                                                                                                             OINA L( US N
                                                                                                                        T AATUED
                                                                                                                               MI ETN
                                                                                                                                    EDT S)




Required Supplementary Information (unaudited)
A	 Deferred Maintenance and Repairs
Deferred maintenance and repairs are maintenance and repairs that were not performed when they should have been, that
were scheduled and not performed, or that were delayed for a future period. Maintenance and repairs are activities directed
towards keeping Property, Plant, and Equipment (PP&E) in acceptable operating condition. These activities include preventive
maintenance, normal repairs, replacement of parts and structural components, and other activities needed to preserve the asset
so that it can deliver acceptable performance and achieve its expected life. Maintenance and repairs exclude activities aimed
at expanding the capacity of an asset or otherwise upgrading it to serve needs different from or significantly greater than those
originally intended. Critical maintenance is defined as those projects where the required maintenance and repairs will have a
critical impact on the public access, functionality and mission support, health and safety, and life cycle cost of a facility if the
maintenance or repairs is not performed. The significant portions of Departmental deferred maintenance and repairs relate to
PP&E of both NOAA and NIST (see below for abbreviations). These two entities represent 96 percent of the Department’s
General PP&E, Net balance as of September 30, 2012.

National Oceanic and Atmospheric Administration (NOAA):

NOAA uses the Condition Assessment Survey (CAS) method to identify and quantify deferred maintenance and repairs for
assets meeting NOAA’s $200 thousand capitalization threshold. The CAS method employs a periodic inspection of real property,
heritage assets, ships, and other applicable assets to determine its current condition and to estimate costs to correct any
deficiencies. Estimated costs reflect potential costs variance of +/- 10 percent.

The following shows NOAA’s deferred maintenance and repairs for projects with estimated costs greater than $50 thousand
(Buildings and Structures; Heritage Assets) and $25 thousand (Ships; Other), as of September 30, 2012:

                    (In Thousands)

                                                                                   Estimated Cost to Return
                              PP&E Category              Asset Condition
                                                                                   to Acceptable Condition

                      Buildings and Structures                   3                $ 62,960     to   $ 76,951
                      Heritage Assets                          4, 3                  11,756    to     14,369
                      Ships                                      2                   31,191    to     38,122
                      Other                                      3                      153    to         187
                      Total                                                       $ 106,060 to      $ 129,629


The CAS method for all PP&E categories is based on a five-point scale, with 1 representing excellent condition;
2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very poor condition. NOAA has established a “facility
condition code” to classify the conditions of Buildings and Structures. Each building or structure is assessed an individual
“facility condition code.” The average of the individual “facility condition codes” determines the CAS Asset Condition.
The deferred maintenance and repairs amounts reported represent non-critical maintenance and repairs to bring the
Buildings and Structures to good condition. Buildings and Structures deferred maintenance and repairs are comprised




                                                                                                                                    245
F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TI A
                                                 NTFEOMREMNATTSI O N ( U N A U D I T E D )




of projects submitted to the Capital Improvements Program. There is an annual call each year to the NOAA elements
requesting their submission of new projects and updates to existing unfunded projects to reflect changes in requirements
or costs. During FY 2012, NOAA implemented a new automated desktop survey to identify, quantify, and prioritize
real property maintenance and repair projects. Buildings and Structures estimated cost increased as a result of the
survey implementation. For Heritage Assets, the deferred maintenance and repairs amounts reported represent non-
critical maintenance to bring each class of Heritage Assets to an acceptable condition through cleaning, restoration,
and preservation. NOAA has established a “range of current asset condition code” to classify the conditions of Ships.
The average of the individual “range of current asset condition codes” determines the CAS Asset Condition.

National Institute of Standards and Technology (NIST):

NIST also uses the CAS method to estimate deferred maintenance and repairs. NIST values the condition of assets using a five-point
scale, with 1 representing excellent condition; 2 – good condition; 3 – acceptable condition; 4 – poor condition; and 5 – very poor
condition. Assets that are assessed at 4 or 5 require repairs and maintenance to increase their value to 3, or acceptable condition.
The following shows NIST’s deferred maintenance and repairs as of September 30, 2012:

                 (In Thousands)

                                                                                        Estimated Cost to Return
                              PP&E Category                   Asset Condition
                                                                                        to Acceptable Condition
                  Mechanical and Electrical Devices                   5               $ 330,269 to       $ 445,766
                  Buildings (Internal Structures)                     4                     22,093 to         29,888
                  Buildings (External Structures)                     4                     36,258 to         47,829

                  Total                                                               $ 388,620 to $ 523,483


B	 Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation Area
NOAA maintains the following sanctuaries, marine national monuments, and conservation area, which are similar in nature to
stewardship land and which are more fully described in Note 23, Stewardship Property, Plant, and Equipment, of the Notes to
the Financial Statements.

National Marine Sanctuaries: Marine sanctuaries provide protection for nationally significant natural areas, including species close
to extinction, and protect historically significant shipwrecks and prehistoric artifacts. Each of the 13 sanctuaries, which may
include habitats as diverse as near-shore coral reefs and open ocean, conducts research and monitoring activities to characterize
existing resources and document changes. Resource status in the marine sanctuaries varies from good to poor, depending on
resource type. Where conditions are compromised, they appear to reflect historical levels of use and development, and in some
cases recent disturbances (e.g. diseases that have caused mass mortality of critically important species). The effects of recent
disturbance may have been exacerbated by impaired environmental conditions in some areas. Human activities related to each
of these threats are the focus of current management efforts, and favorable trends in resource quality appear to be the result of
active management.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround the
Northwestern Hawaiian Islands (NWHI). The Papahãnaumokuãkea Marine National Monument, located off the coast of the
NWHI, encompasses nearly 140,000 square miles of U.S. waters, including approximately 5,200 square miles of relatively
undisturbed coral reef habitat that is home to more than 7,000 species. The condition of the Papahãnaumokuãkea Marine



 246
                                                    F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                R E Q U I R E D S U P P L EN
                                                                           MO T ETSA RT Y
                                                                             EN         O ITNHFEO FRIM
                                                                                                     NAATNI C
                                                                                                            OINA L( US N
                                                                                                                       T AATUED
                                                                                                                              MI ETN
                                                                                                                                   EDT S)




National Monument is good, but resources in the Monument are affected by an abundance of marine debris, and face emerging
threats related to climate change (e.g. increasing temperature, acidification, and sea level).

Rose Atoll Marine National Monument: The atoll includes the Rose Atoll National Wildlife Refuge. It also includes about 20 acres of
land and 1,600 acres of lagoon and is one of the most pristine atolls in the world. The areas around the atoll support a dynamic
reef ecosystem that is home to many land and marine species, many of which are threatened or endangered. The condition of
the Rose Atoll Marine National Monument is good, though it has apparently not recovered completely from the effects of a 1993
shipwreck and spill that altered community structure on a large portion of the reef.

Marianas Trench Marine National Monument: The Marianas Trench Marine National Monument consists of approximately 96,000
square miles of submerged lands and waters of the Mariana Archipelago. It includes three units: the Islands Unit, the waters
and submerged lands of the three northernmost Mariana Islands; the Volcanic Unit, the submerged lands within 1 nautical mile
of 21 designated volcanic sites; and the Trench Unit, the submerged lands extending from the northern limit of the Exclusive
Economic Zone of the United States in the Commonwealth of the Northern Mariana Islands (CNMI) to the southern limit of the
Exclusive Economic Zone of the United States in the Territory of Guam. The condition of the Marianas Trench Marine National
Monument is good.

Pacific Remote Islands Marine National Monument: The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis
Islands, Johnston Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the exception of Wake
Island, these islands are administered as National Wildlife Refuges by the U.S. Fish and Wildlife Service of the Department of the
Interior. They sustain many endemic species including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds,
insects, and vegetation not found elsewhere. The condition of the Pacific Remote Islands Marine National Monument is good.

Aleutian Islands Habitat Conservation Area: This conservation area in Alaska, which covers nearly 370,000 square miles, may harbor
among the highest diversity of deep-water corals in the world, and protects habitat for deep water corals and other sensitive
features that are slow to recover once disturbed by fishing gear or other activities. The condition of the Aleutian Islands Habitat
Conservation Area is generally good, although some specific resources are threatened. For example, the conservation area
contains six small areas of fragile coral gardens.


C	   Collection-type Heritage Assets

NOAA’s collection-type heritage assets are comprised primarily of books, journals, publications, photographs and motion
pictures, manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA
Central Library (Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique.
Historically, 40 percent of the items catalogued are not found anywhere else. The Library has an extensive collection of historical
Coast and Geodetic Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including foreign and historical
meteorological data, information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection, composed primarily of
a) data cards listing most of the ships on the Great Lakes before 1900, a roster of some 15,000 vessels complete with descriptive
data and highlights of the ships’ careers and their ultimate losses; and b) ship photograph negatives of 19th and 20th century
Great Lakes ships.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include
a) books, manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment.




                                                                                                                                   247
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TI A
                                                 NTFEOMREMNATTSI O N ( U N A U D I T E D )




NOAA uses the Condition Assessment Survey (CAS) method to describe the condition of its assets. The CAS method is based
on a five-point scale with 1 representing excellent condition; 2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very
poor condition. Assets with the condition assessment level between 1 through 3 are defined as being suitable for public display.
The books, journals, and other publications that make up the majority of the NOAA Central Library collection-type heritage assets
are in 4 – poor condition, and 5 – very poor condition. The heritage assets of the Thunder Bay Sanctuary Research Collection
are in 2 – good condition, and the heritage assets of the National Climatic Data Center Library are generally in 3 – fair condition.

NIST currently maintains the Museum and History Program, which collects, conserves, and exhibits artifacts such as scientific
instruments, equipment, objects and records of significance to NIST and the National Bureau of Standards (NBS). This program
provides institutional memory and demonstrates the contributions of NIST to the development of standards, measurement,
technology, and science. Conditions of these artifacts are listed in the Registrar’s database and are generally fair.

NIST Information Services Office (ISO) maintains the historical archives, a historical book collection, and oversees the oral history
program. The book collection contains titles that are of historical scientific interest, rare titles, and books by NIST authors or
about NIST work. Materials are not specifically purchased for the collection nor are funds specifically allocated for the collection.
Conditions of the books are generally fair. The archives maintain photos of NIST staff, facilities, and artifacts that demonstrate
NIST accomplishments. These images are in good condition.

Heritage assets at the Census Bureau are items considered unique for their historical, cultural, educational, technological,
methodological, or artistic importance. These assets help illustrate the social, educational, and cultural heritage of the Census
Bureau. Some items, because of their age or obvious historical significance, are inherently historical artifacts. These historical
artifacts include but are not limited to: Hollerith Key Punch, Hollerith Tabulator, Gang Punch, Pantograph, Census Bureau
Enumerators Badge, Unisys Tape and Reel, Film Optical Sensing Device, Artwork and Gifts, and any items which represent the
uniqueness of the mission of the Census Bureau. The heritage assets at the Census Bureau are classified as generally being in
good condition.


D	   Schedule of Budgetary Resources by Major Budget Account

The following table illustrates the Department’s FY 2012 budgetary resources by major budget account. The “Other Programs”
column refers to the Department’s reporting entities and their budget accounts that are not listed.




 248
                                                  F Y   2 0 1 2   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              R E Q U I R E D S U P P L EN
                                                                                                         MO T ETSA RT Y
                                                                                                           EN         O ITNHFEO FRIM
                                                                                                                                   NAATNI C
                                                                                                                                          OINA L( US N
                                                                                                                                                     T AATUED
                                                                                                                                                            MI ETN
                                                                                                                                                                 EDT S)




United States Department of Commerce Schedule of Budgetary Resources by Major Budget Account
For the Year Ended September 30, 2012 (In Thousands)
                                                                                                                                                                                                                       NTIA
                                                                                                                          NOAA           NTIA Digital                    Census                                    Broadboand
                                                                                    NOAA                USPTO          Procurement,       Television       ITA           Bureau                                     Technology
                                                                                  Operations,           Salaries       Acquisition,     Transition and  Operations      Periodic                       EDA         Opportunities
                                                                  Combining      Research, and            and              and          Public Safety      and        Censuses and                     Grant         Program -           Other
                                                                    Total          Facilities          Expenses        Construction          Fund      Administration   Programs                       Fund        Recovery Act        Programs

BUDGETARY RESOURCES:
Unobligated Balance, Brought Forward, October 1               $   9,995,201      $   188,297       $   177,705         $   24,357       $ 8,786,581         $   21,831       $   100,735 $              30,602 $  3,507            $   661,586
Adjustments to Unobligated Balance, Brought Forward               	2                 	-                	-                  	-            	(1)                   	-               	(1)                        2   	-                    	2
Unobligated Balance Brought Forward, October 1, as Adjusted        9,995,203          188,297          177,705              24,357          8,786,580            21,831          100,734           30,604               3,507           661,588
Actual Recoveries of Prior-years Unpaid Obligations                  302,627           30,506           23,027               9,756                368            13,559           37,831           33,659              87,520            66,401
Actual Nonexpenditure Transfers of Unobligated Balance, Net           17,329         	(4,154)          	-                  	-               	-                   10,528          	-                	-                	-                  10,955
Borrowing Authority Withdrawn                                     	(4,561)           	-                	-                  	-               	-                  	-               	-                	-                	-                	(4,561)
Other Changes in Unobligated Balance, Net                         	(134,689)         	(23,046)         	-                  	(4,325)         	-                  	(5,961)         	(946)            	-                	(91,628)         	(8,783)
Unobligated Balance From Prior-years Budget Authority, Net        10,175,909           191,603             200,732            29,788        8,786,948            39,957          137,619            64,263           	(601)              725,600
Appropriations                                                     8,035,812         3,177,533                             1,798,225        	(4,300)            455,561          689,000           416,710           	-                1,503,083
Borrowing Authority                                                   74,206         	-                	-                  	-               	-                  	-               	-                	-                	-                   74,206
Spending Authority From Offsetting Collections                     4,304,569           270,452         2,411,896               2,272               47            21,110            4,028               372            3,577            1,590,815
TOTAL BUDGETARY RESOURCES                                     $ 22,590,496       $ 3,639,588       $ 2,612,628         $ 1,830,285      $ 8,782,695         $ 516,628        $       830,647   $       481,345 $          2,976    $ 3,893,704


STATUS OF BUDGETARY RESOURCES:
Obligations Incurred                                          $ 12,238,097       $ 3,396,441       $ 2,374,755         $ 1,788,053      $         18,461    $ 486,996        $       698,623   $       297,033 $ 	-                $ 3,177,735
Unobligated Balance, End of Year
   Apportioned                                                     1,157,028         176,593           237,873             23,226              19,038           19,888            13,456           178,237           	-                  488,717
   Exempt From Apportionment                                         136,995         	-                	-                  	-               	-                  	-               	-                	-                	-                  136,995
   Unapportioned                                                   9,058,376          66,554           	-                  19,006           8,745,196            9,744           118,568             6,075            2,976               90,257
Total Unobligated Balance, End of Year                            10,352,399             243,147           237,873             42,232           8,764,234           29,632           132,024           184,312            2,976          715,969
TOTAL STATUS OF BUDGETARY RESOURCES                           $ 22,590,496       $ 3,639,588       $ 2,612,628         $ 1,830,285      $ 8,782,695         $ 516,628        $       830,647   $       481,345 $          2,976    $ 3,893,704


CHANGE IN UNPAID OBLIGATED BALANCE, NET:
Unpaid Obligations:
Unpaid Obligations, Brought Forward, October 1                $ 11,297,687       $ 2,224,426       $       325,325     $ 1,171,443      $     275,632       $      86,651    $     323,283 $ 1,206,871 $ 3,385,918 $ 2,298,138
Adjustments to Unpaid Obligations, Brought Forward              	157               	1                  	1                	3                 	-                  	1               	2          	(1)        	-           	150
Obligations Incurred                                              12,238,097         3,396,441           2,374,755         1,788,053           18,461             486,996          698,623     297,033   	-             3,177,735
Outlays, Gross                                                  	(14,754,794)      	(3,642,457)        	(2,332,262)      	(1,740,833)       	(219,769)          	(468,737)       	(768,683)  	(370,247)  	(1,588,754) 	(3,623,052)
Actual Recoveries of Prior-years Unpaid Obligations              	(302,627)        	(30,506)           	(23,027)         	(9,756)           	(368)              	(13,559)        	(37,831)   	(33,659)   	(87,520)    	(66,401)
UNPAID OBLIGATIONS, END OF YEAR                               $    8,478,520     $ 1,947,905       $       344,792     $ 1,208,910      $         73,956    $       91,352   $       215,394   $ 1,099,997 $ 1,709,644             $ 1,786,570

Uncollected Customer Payments:
Uncollected Customer Payments, Brought Forward, October 1     $ 	(646,638)       $ 	(504,020)      $ 	(298)            $ 	-             $ 	-                $ 	(16,431)      $ 	-              $ 	- $ 	-                           $ 	(125,889)
Adjustments to Uncollected Customer Payments, Brought
   Forward                                                        	(159)             	(1)                       2          	-               	-                  	(1)             	-                	-                	-                	(159)
Change in Uncollected Customer Payments                            37,973            50,177                   261          	-               	-                  	(693)           	-                	-                	-                	(11,772)
UNCOLLECTED CUSTOMER PAYMENTS, END OF YEAR                    $ 	(608,824) $ 	(453,844) $ 	(35) $ 	-                                    $ 	-                $ 	(17,125)      $ 	-              $ 	- $ 	-                           $ 	(137,820)


Unpaid Obligated Balance, Net, Brought Forward, October 1     $ 10,651,049       $ 1,720,406       $       325,027     $ 1,171,443      $        275,632    $       70,220   $       323,283   $ 1,206,871 $ 3,385,918             $ 2,172,249

Unpaid Obligated Balance, Net, End of Year                    $    7,869,696     $ 1,494,061       $       344,757     $ 1,208,910      $         73,956    $       74,227   $       215,394   $ 1,099,997 $ 1,709,644             $ 1,648,750


BUDGET AUTHORITY, NET:
Budget Authority, Gross                                       $ 12,414,587       $ 3,447,985       $ 2,411,896         $ 1,800,497      $ 	(4,253)          $ 476,671        $    693,028 $ 417,082 $   3,577 $ 3,168,104
Actual Offsetting Collections                                   	(4,408,882)       	(320,630)        	(2,413,157)        	(2,272)         	(47)               	(20,417)          	(4,028)  	(372)     	(3,577)  	(1,644,382)
Change in Uncollected Customer Payments                              37,973           50,177                 261         	-               	-                  	(693)             	-        	-         	-        	(11,772)
BUDGET AUTHORITY, NET                                         $    8,043,678     $ 3,177,532       $ 	(1,000) $ 1,798,225               $ 	(4,300) $ 455,561                 $       689,000   $       416,710 $ 	-                $ 1,511,950


OUTLAYS, NET:
Outlays, Gross                                                $ 14,754,794       $ 3,642,457       $ 2,332,262         $ 1,740,833      $   219,769         $ 468,737        $    768,683 $ 370,247 $ 1,588,754 $ 3,623,052
Actual Offsetting Collections                                   	(4,408,882)       	(320,630)        	(2,413,157)        	(2,272)           	(47)             	(20,417)          	(4,028)  	(372)     	(3,577)    	(1,644,382)
Outlays, Net                                                      	10,345,912        	3,321,827        	(80,895)           	1,738,561       	219,722            	448,320         	764,655          	369,875          	1,585,177        	1,978,670
Distributed Offsetting (Receipts)/Outlays, Net                        (62,667)       	         -       	           -       	        -       	           -       	        -       	         -       	           -     	         -         (62,667)
AGENCY OUTLAYS, NET                                           $ 	10,283,245      $ 	3,321,827      $ 	(80,895) $ 	1,738,561             $ 	219,722          $ 	448,320       $ 	764,655        $ 	369,875 $ 	1,585,177             $ 	1,916,003




                                                                                                                                                                                                                          249
         F Y   2 0 1 2          P E R F O R M A N C E         A N D           A C C O U N T A B I L I T Y                      R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TI A
                                                 NTFEOMREMNATTSI O N ( U N A U D I T E D )




 250
                                                  F Y   2 0 1 2   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I     A    L         S    E   C   T   I   O   N




                    R equired
            S upplementary
             S tewardship
              I nformation
                            (u n a u d i t e d)
                         R E Q U I R E D S U P P L E M E N T A R Y S T E WNAO
                                                                            R TDESSH TI P
                                                                                        O ITNHFEO FRIM
                                                                                                     NAATNI C
                                                                                                            OINA L( US N
                                                                                                                       T AATUED
                                                                                                                              MI ETN
                                                                                                                                   EDT S)




Required Supplementary Stewardship
Information (unaudited)
Stewardship Investments

Stewardship investments are substantial investments made by the federal government for the benefit of the nation, but are not
physical assets owned by the federal government. Though treated as expenses when incurred to determine the Department’s
Net Cost of Operations, these items merit special treatment so that users of federal financial reports know the extent of
investments that are made for the long-term benefit of the nation.

Investments in Non-federal Physical Property:

Non-federal physical property investments are expenses included in the Department’s Net Cost of Operations for the purchase,
construction, or major renovation of physical property owned by state and local governments. Based on a review of the
Department’s programs, NOAA and EDA have significant investments in non-federal physical property.

NOAA:

     National Estuarine Research Reserves (NERR): The NERR system consists of 28 estuarine reserves protected by federal, state,
     and local partnerships that work to preserve and protect the nation’s estuaries. The NERR system helps to fulfill NOAA’s
     stewardship mission to sustain healthy coasts by improving the nation’s understanding and stewardship of estuaries.
     Estuarine reserves are the areas where freshwater from rivers meet the ocean. These areas are known as bays, swamps,
     sloughs, and sounds. These important coastal habitats are used as spawning grounds and nurseries for the nation’s
     commercial fish and shellfish. Estuaries filter much of the polluted runoff from rivers and streams that would otherwise
     contaminate oceans. The reserves were created with the passage of the Coastal Zone Management Act of 1972, and,
     as of September 30, 2012, encompassed approximately 1.4 million acres of estuarine waters, wetlands, and uplands.
     The most recent reserve, Lake Superior, WI, was designated on October 26, 2010. NERRs are state-operated and managed
     in cooperation with NOAA. NOAA’s investments in non-federal physical property are for the acquisition of lands and
     development or construction of facilities, auxiliary structures, and public access routes for any NERR site.

     Coastal and Estuarine Land Conservation Program: This program was established under the Commerce, Justice, and State
     Appropriations Act of 2002, “for the purpose of protecting important coastal and estuarine areas that have significant
     conservation, recreation, ecological, historical, or aesthetic values, or that are threatened by conversion from their natural
     or recreational state to other uses.” The investments in non-federal physical property include matching grants awarded to
     state and local governments for land acquisition in coastal and estuarine areas. Since FY 2002, matching grants have been
     directed to 210 such projects.

     Coastal Zone Management Fund: The Coastal Zone Management Program is authorized by the Coastal Zone Management
     Act of 1972, and administered at the federal level by NOAA’s Office of Ocean and Coastal Resource Management.
     The investments in non-federal physical property include incidental expenses of land acquisition, and low-cost construction
     on behalf of various state and local governments, for the purpose of preservation or restoration of coastal resources and
     habitats. NOAA’s financing supports various coastal states in their redevelopment of deteriorating and urbanized waterfronts
     and ports, as well as providing for public access to beaches and coastal areas. The state and local governments receive
     funding for these investments through NOAA grant expenditures, and these grant expenditures also include funding for




                                                                                                                                   253
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TSATTE EWMAERNDTSSH I P I N F O R M A T I O N ( U N A U D I T E D )




     purposes other than the investments in non-federal physical property. There is currently not in place a mechanism for the
     state and local governments to determine and report to NOAA the amount of monies they expend for the investments
     in non-federal physical property. The Department, accordingly, cannot report the amount of investments in non-federal
     physical property for the Coastal Zone Management Fund.

     NOAA’s investments in non-federal physical property for FY 2008 through FY 2012 were as follows:
     (In Millions)

                           Program                           FY 2008      FY 2009      FY 2010      FY 2011      FY 2012             Total
       National Estuarine Research Reserves                  $    11.8    $   11.7     $    14.7    $     5.5    $     3.9       $     47.6
       Coastal and Estuarine Land Conservation Program            28.1        21.6          32.4          6.9          8.8             97.8
       Total                                                 $    39.9    $   33.3     $    47.1    $    12.4    $    12.7       $ 145.4


EDA:
     Public Works: The Public Works program promotes long-range economic development in distressed areas by providing
     investments for vital public infrastructure and development facilities. These critical investments enable communities to
     attract new, or support existing, businesses that will generate new jobs and income for unemployed and underemployed
     residents. Among the types of projects funded are water, sewer, fiber optics, access roads, and facilities such as industrial
     and business parks, business incubator and skill training facilities, and port improvements.

     Economic and Defense Adjustments: The Economic and Defense Adjustments program provides flexible investments for
     communities facing sudden or severe economic distress to diversify and stabilize its economy. Factors that seriously
     threaten the economic survival of local communities include essential plant closures, military base closures or realignments,
     defense laboratory or contractor downsizings, natural resource depletion, out-migration, under-employment, and destructive
     impacts of foreign trade.

     Global Climate Change Mitigation Incentive Fund (GCCMIF): The GCCMIF program was established to strengthen the linkage
     between economic development and environmental quality. The purpose and mission of the GCCMIF program is to finance
     projects that foster economic development by advancing the green economy in distressed communities. The GCCMIF
     program is the development and use of products and services that contribute to economic growth and alleviate economic
     distress by respecting and revitalizing the environment. The GCCMIF program supports projects that create jobs through,
     and increase private capital investment in, efforts to limit the nation’s dependence on fossil fuels, enhance energy efficiency,
     curb greenhouse gas emissions, and protect natural systems.

     Disaster Recovery: The Disaster Recovery program awards grants for the repair of infrastructure and economic development-
     related facilities damaged by floods and other natural disasters. Funding for the Disaster Recovery program is generally
     through supplemental funding from Congress for recovery efforts to save, sustain, and preserve private enterprise and job
     creation in economically distressed communities.




 254
                                                  F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y       R E P O R T
                           R E Q U I R E D S U P P L E M E N T A R Y S T E WNAO
                                                                              R TDESSH TI P
                                                                                          O ITNHFEO FRIM
                                                                                                       NAATNI C
                                                                                                              OINA L( US N
                                                                                                                         T AATUED
                                                                                                                                MI ETN
                                                                                                                                     EDT S)




     EDA’s investments in non-federal physical property for FY 2008 through FY 2012 were as follows:
     (In Millions)

                             Program                          FY 2008       FY 2009     FY 2010       FY 2011     FY 2012         Total
       Public Works                                           $   133.5     $   139.9   $     175.8   $   224.4   $   160.7   $      834.3
       Economic and Defense Adjustments                            60.0          68.6          61.4        47.6        49.5          287.1
       Global Climate Change Mitigation Incentive Fund                  -         0.2           5.5         6.8        12.8           25.3
       Disaster Recovery                                            1.8           6.3          32.4        85.1       111.0          236.6
       Total                                                  $   195.3     $   215.0   $     275.1   $   363.9   $   334.0   $    1,383.3

     The above investments require matching funds by state and local governments of 20 to 50 percent.

Investments in Human Capital:

Human capital investments are expenses, included in the Department’s Net Cost of Operations, for education and training
programs that are intended to increase or maintain national economic productive capacity and produce outputs and outcomes that
provide evidence of the constant or increasing national productive capacity. These investments exclude education and training
expenses for federal civilian and military personnel. Based on a review of the Department’s programs, the most significant dollar
investments in human capital are by NOAA.

NOAA:

     National Sea Grant College Program: Sea Grant is a nationwide network, administered through NOAA, of 32 university-based
     programs that work with coastal communities. With the adoption in 1966 of the National Sea Grant College Act, Congress
     established an academic/industry/government partnership that would enhance the nation’s education, economy, and
     environment into the 21st century. The program supports activities designed to increase public awareness of coastal, ocean,
     and Great Lakes issues, to provide information to improve management decisions in coastal, ocean, and Great Lakes policy,
     and to train graduate students in marine and Great Lakes science. The Knauss Fellowship Program offers qualified masters
     and doctoral students the opportunity to spend a year working on marine and Great Lakes policy issues with the Executive
     and Legislative branches of the federal government. The program currently has 43 fellowships awarded: 12 fellowships
     funded by the National Sea Grant College Program, and 31 fellowships funded by other NOAA offices and other federal
     agencies. There is also a Graduate Fellowship Program for Ph.D. candidates in the specialized areas of population dynamics
     and marine resource economics. The Graduate Fellowship Program currently has 17 fellowships awarded. Participants in
     this program can receive up to three years of funding.

     National Estuarine Research Reserve Program: This program supports activities designed to increase public awareness of
     estuary issues, provide information to improve management decisions in estuarine areas, and train graduate students
     in estuarine science. The National Estuarine Research Reserve System’s Graduate Research Fellowship (GRF) Program
     offers qualified masters and doctoral students the opportunity to address scientific questions of local, regional, and national
     significance. The result is high-quality research focused on improving coastal management issues. All GRF projects must be
     conducted in a National Estuarine Research Reserve and enhance the scientific understanding of the reserve’s ecosystem.
     In FY 2012, 32 fellowships were awarded.

     Educational Partnership Program: The NOAA Educational Partnership Program (EPP) with Minority Serving Institutions (MSI)
     provides financial assistance through competitive processes to minority serving institutions that support research and




                                                                                                                                      255
F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TSATTE EWMAERNDTSSH I P I N F O R M A T I O N ( U N A U D I T E D )




     training of students in NOAA-related sciences. The program’s goal is to increase the number of trained and graduated
     students from underrepresented communities in science and technology directly related to NOAA’s mission. The EPP/
     MSI also seeks to increase collaborative research efforts between NOAA scientists and researchers at minority serving
     academic institutions. Financial assistance is provided through four competitive program components: the Cooperative
     Science Centers, the Environmental Entrepreneurship Program, the Graduate Sciences Program, and the Undergraduate
     Scholars Program.

     NOAA provides funding to eligible MSIs on a competitive basis to educate, train, and graduate students in NOAA sciences,
     particularly atmospheric, oceanic, environmental, living marine resources, remote sensing, and scientific environmental
     technology. NOAA EPP Cooperative Science Centers’ goals are to:

       ●●   Train and graduate students, particularly from underrepresented communities, in NOAA mission sciences;

       ●●   Develop expertise in a NOAA scientific area;

            •	 Strengthen and build capacity in a NOAA scientific and management area

            •	 Build research experience in a NOAA scientific and management area

       ●●   Increase graduation rates of students from underrepresented communities in NOAA mission sciences;

       ●●   Impact NOAA workforce statistics by increasing representation from underrepresented communities in NOAA
            mission sciences; and

       ●●   Leverage NOAA funds to build the education and research capacity at MSIs.

     In FY 2012, the Cooperative Science Centers awarded 66 degrees to students, and continued to support 265 students in
     post-secondary NOAA mission-relevant science, technology, resource management, and policy degree programs.

     The EPP/MSI Environmental Entrepreneurship Program (EEP) provides funding to eligible minority serving institutions on
     a competitive basis to engage students to pursue advanced academic study and entrepreneurship opportunities in the
     NOAA-related sciences. NOAA’s EEP supports student training and experiential learning opportunities for the purpose of
     stimulating job creation and business development, and revitalizing local communities. EEP’s objective is to increase the
     number of students at MSIs proficient in environmental business enterprises.

     The Graduate Sciences Program (GSP) is aimed primarily at increasing opportunities for students in NOAA mission fields
     to pursue research and educational training in atmospheric, environmental, remote sensing, and oceanic sciences at MSIs
     when possible. GSP offers between two years (master’s candidates) to four years (doctoral students) of NOAA-related
     research and training opportunities. GSP provides college graduates entry-level employment and hands-on research and
     work experience at NOAA. In FY 2012, 2 awards were made.

     The Undergraduate Scholarship Program is designed to increase the number of students who undertake course work and
     graduate with degrees in the targeted areas integral to NOAA’s mission. Appointments are for two years, and are made
     to students who have recently declared or are about to declare a major in atmospheric, oceanic, or environmental science.
     The students participate in research, training, and development activities at NOAA offices and facilities during two summer
     internships. In FY 2012, 11 students were selected for the program.

     Ernest F. Hollings Undergraduate Scholarship Program: This program was established in 2005 to (1) increase undergraduate
     training in oceanic and atmospheric science, research, technology, and education, and foster multidisciplinary training




 256
                                                  F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         R E Q U I R E D S U P P L E M E N T A R Y S T E WNAO
                                                                            R TDESSH TI P
                                                                                        O ITNHFEO FRIM
                                                                                                     NAATNI C
                                                                                                            OINA L( US N
                                                                                                                       T AATUED
                                                                                                                              MI ETN
                                                                                                                                   EDT S)




     opportunities; (2) increase public understanding and support for stewardship of the ocean and atmosphere and improve
     environmental literacy; (3) recruit and prepare students for public service careers with NOAA and other agencies at
     the federal, state, and local levels of government; and (4) recruit and prepare students for careers as teachers and
     educators in oceanic and atmospheric science and to improve scientific and environmental education in the U.S.
     In FY 2012, the program added 115 students.

     Students live and attend universities across the U.S. They are majoring in the following science, technology, engineering,
     and mathematics fields: Mathematics; Meteorology; Engineering; Biology; Chemistry; Climatology; Computer Science;
     Earth Sciences; Economics; Science Teachers; Physical Sciences; and Science Policy.

     Southeast Fisheries Science Center’s Recruiting Training Research Program: This is a joint program between NMFS and the
     University of Florida. The program had resided at Virginia Tech before moving to the University of Florida in December
     2011. The objectives of the program are the following: (1) to recruit top undergraduate and graduate students into the
     field of fisheries population dynamics and careers with NMFS; (2) to train graduate students; and (3) to conduct population
     dynamics and stock assessment research in support of the NMFS mission. The program also offers graduate courses and
     workshops in computer programming, simulation modeling, and fish population dynamics. In FY 2012, 15 outstanding
     undergraduate students from across the country participated in a week-long undergraduate workshop and the program
     supported three M.S. students. In the spring of 2012, two new graduate students (one M.S. and one Ph.D.) were recruited
     to begin their workshop in July 2012. In September 2012, an open house took place in Miami to enable the University of
     Florida community to meet the faculty, staff, students, and collaborators to visit the facility and learn about the work that the
     center does. Plans are moving forward for another undergraduate workshop in March 2013, and a newly designed summer
     program for Masters-level students from around the country is scheduled to take place in June 2013.

     Northeast Fisheries Science Center (NEFSC) Partnership Education Program (PEP): The NEFSC of NOAA’s National Marine
     Fisheries Service leads a consortium of six science institutions in Woods Hole, MA., offering a ten-week summer program
     that combines undergraduate course work with research in marine and environmental science. Launched in 2009, PEP
     is an ongoing diversity program designed to recruit talent from minority groups that are under-represented in marine and
     environmental sciences. PEP recruitment targets college students with priority given to entering juniors and seniors majoring
     in the natural sciences who have had some course work in marine and/or environmental science. The program includes a
     credit course taught in Woods Hole by research scientists from Woods Hole science institutions, student research projects,
     and presentation of research results in a one-day seminar. Participants receive financial support for tuition, travel, and room
     and board, as well as a stipend. In FY 2012, 16 students participated in the ten-week summer program.

     Northeast Fisheries Science Center Bradford E. Brown Student Internship Program: The NEFSC has named its student intern
     program after Dr. Bradford Brown, a retired NOAA Fisheries Service scientist who was a leader in recruiting young people
     into fishery science. The program is open to active undergraduate and graduate students. Research topics include population
     biology and dynamics, resource assessment and environmental surveys, taxonomy, physical and biological oceanography,
     social sciences, data management, larval fish/plankton ecology, large marine ecosystems, aquaculture, biotechnology,
     remote sensing, protected species, and apex predators. Summer positions are offered throughout NEFSC laboratories,
     which are located in Woods Hole, MA; Narragansett, RI; Milford, CT; Highlands, NJ; Washington, DC; and Orono, ME.
     In FY 2012, 16 students participated in the student intern program.

     Woods Hole Science Aquarium (WHSA) High School Intern Program: WHSA offers three summer programs for students who
     have completed grades 10, 11, or 12. The programs are run by WHSA staff, and are projects of the NEFSC of NOAA’s
     National Marine Fisheries Service and the Marine Biological Laboratory. Interns selected for the five-week program work




                                                                                                                                   257
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TSATTE EWMAERNDTSSH I P I N F O R M A T I O N ( U N A U D I T E D )




     in the aquarium, help lead public collecting walks, and participate in the Careers in Marine Science seminars. The one and
     two-week Careers in Marine Science seminars consist of short presentations by marine scientists, activities, and field trips
     that introduce students to marine-related careers. All students learn basic animal husbandry and aquarist skills, visit the local
     Woods Hole research institutions, meet with working scientists in a variety of fields, and visit area aquariums, zoos, and
     waterfronts. In FY 2012, 16 students will participate in one of the three summer programs.

     Pacific Islands Fisheries Science Center (PIFSC) Student Intern Program (PSIP): PSIP offers qualified college students professional
     work experience and formal training opportunities tailored to meet their educational and professional goals and interests. PSIP
     is a paid, summer-long (8-12 weeks) program that combines on-the-job training, formal training, one-to-one mentoring, and
     developmental assignments at PIFSC. Internship opportunities are established in specific PIFSC projects. Program components
     include:

       ●●   Performance Plans to establish goals and timelines for the intern’s work assignments (established in meetings between
            intern and mentor)

       ●●   Periodic meetings between intern and mentor to check on progress (includes a mid-point review and final review)

       ●●   Inclusion of intern in PIFSC staff activities (division meetings, all-hands meetings, training, and other activities)

       ●●   Program wrap up: Interns and mentors hold a final meeting to review final products and discuss the internship
            experience

       ●●   Evaluations: Interns and mentors complete a program evaluation to provide feedback that will help PIFSC improve the
            structure of the internship program

     In addition to the individual and group mentoring by PIFSC staff, PSIP interns are encouraged to synergize with each other
     and with other undergraduate and graduate interns at PIFSC. In FY 2012, PIFSC scientists hosted 3 undergraduate summer
     interns: 2 in PIFSC’s Protected Species Division, and 1 in the Fisheries Research and Monitoring Division.

     The following table summarizes NOAA’s investments in human capital for FY 2008 through FY 2012:

     (In Millions)

                                 Program                             FY 2008    FY 2009         FY 2010       FY 2011     FY 2012          Total
       National Sea Grant College Program                            $    0.5   $    0.7        $       0.9   $    0.8   $     0.7     $      3.6
       National Estuarine Research Reserve Program                        0.8        1.0                1.3        1.5         1.5            6.1
       Educational Partnership Program                                   12.8       15.0               14.3       14.3       12.5            68.9
       Ernest F. Hollings Undergraduate Scholarship Program               3.6        3.6                4.6        4.5         4.9           21.2
       Southeast Fisheries Science Center’s Recruiting Training
       Research Program                                                   N/A        0.4                0.5        0.5         0.5            1.9
       Northeast Fisheries Science Center Partnership Education
       Program                                                            N/A              -              -        0.2         0.2            0.4
       Northeast Fisheries Science Center Bradford E. Brown
       Student Internship Program                                         N/A        N/A               N/A         0.2         0.2            0.4
       Total                                                         $   17.7   $   20.7        $      21.6   $   22.0   $   20.5      $    102.5
       N/A = Not Applicable




 258
                                                   F Y   2 0 1 2   P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y   R E P O R T
                           R E Q U I R E D S U P P L E M E N T A R Y S T E WNAO
                                                                              R TDESSH TI P
                                                                                          O ITNHFEO FRIM
                                                                                                       NAATNI C
                                                                                                              OINA L( US N
                                                                                                                         T AATUED
                                                                                                                                MI ETN
                                                                                                                                     EDT S)




     The following table further summarizes NOAA’s human capital investments for FY 2008 to FY 2012 by performance
     outcome:

     (In Millions)

                        Performance Outcome                           FY 2008           FY 2009         FY 2010     FY 2011        FY 2012
        Protect, Restore, and Manage the Use of Coastal and            	                 	               	              	              	
        Ocean Resources                                           $        17.7     $        20.7   $        21.6           N/A            N/A
        Increase Scientific Knowledge and Provide Information
        to Stakeholders to Support Economic Growth and to              	                 	               	              	              	
        Improve Innovation, Technology, and Public Safety                  N/A               N/A             N/A    $       22.0   $       20.5
        N/A = Not Applicable


Investments in Research and Development (R&D):

Investments in R&D are expenses that are included in the Department’s Net Cost of Operations. The investments
are divided into three categories: (1) basic research, the systematic study to gain knowledge or understanding of the
fundamental aspects of phenomena and of observable facts without specific applications toward processes or products in
mind; (2) applied research, the systematic study to gain knowledge or understanding necessary for determining the means
by which a recognized and specific need may be met; and (3) development, the systematic use of the knowledge and
understanding gained from research for the production of useful materials, devices, systems, or methods, including the
design and development of prototypes and processes. The investments are made with the expectation of maintaining or
increasing national economic productive capacity, or yielding other future economic or societal benefits. Based on a review
of the Department’s programs, the only significant investments in R&D are by NIST and NOAA.

NIST:

     NIST Laboratories Program:

     The NIST Laboratories work at the frontiers of measurement science to ensure that the U.S. system of measurements is
     firmly grounded on sound scientific and technical principles. Today, the NIST Laboratories address increasingly complex
     measurement challenges, ranging from the very small (e.g., nanoscale devices) to the very large (e.g., vehicles and
     buildings), and from the physical (e.g., renewable energy sources) to the virtual (e.g., cybersecurity and cloud computing).
     As new technologies develop and evolve, NIST’s measurement research and services remain central to innovation,
     productivity, trade, and public safety.

     The NIST Laboratories provide industry, academia, and other federal agencies with:

        ●●   Scientific underpinnings for basic and derived measurement units in the international standards community, measure-
             ment and calibration services, and certified reference materials;

        ●●   Impartial expertise and leadership in basic and applied research to enable development of test methods and verified
             data to support the efficient commercialization and exchange of goods and services in industry and commerce;

        ●●   Support for the development of open, consensus-based standards and specifications that define technical and
             performance requirements for goods and services, with associated measurements and test methods for conformity; and




                                                                                                                                           259
F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
 N
 R EOQTU
       E SI RTEO
               D TSH
                   UEP PF LI N
                             EMAN
                                ENC TI A
                                       A LR YS TSATTE EWMAERNDTSSH I P I N F O R M A T I O N ( U N A U D I T E D )




         ●●   Unique cutting-edge user facilities that support innovation in materials science, nanotechnology discovery and fabrication,
              and other emerging technology areas through the NIST Center for Neutron Research, which provides world class neutron
              measurement capabilities to the U.S. research community, and through the NIST Center for Nanoscale Science and
              Technology, which supports nanotechnology development from discovery to production.

        Technology Innovation Program (TIP):

        NIST’s FY 2012 appropriations did not provide funding for TIP and the program is currently implementing a closeout,
        expected to be completed by the end of FY 2014. Prior to its closeout, TIP awarded 38 projects advancing research in the
        areas of civil infrastructure (17 projects) and advanced manufacturing (21 projects). These awards leverage $136 million in
        TIP funding with an additional $144 million in industry cost-share. Two projects have successfully completed research and
        development (R&D) and the remaining projects will continue research using previously obligated funds. NIST technical
        experts will continue to monitor the technical progress and ensure the fidelity of the research during this time.

        The following table summarizes NIST’s R&D investments for FY 2008 through FY 2012 by R&D Category:

        (In Millions)

                             NIST Laboratories                  Technology Innovation Program                                                     Total

                     FY      FY       FY       FY      FY      FY        FY         FY         FY             FY           FY      FY              FY      FY          FY
R&D Category        2008    2009     2010     2011    2012    2008      2009       2010       2011           2012         2008    2009            2010    2011        2012

Basic Research     $ 132.8 $ 144.9 $ 162.0 $ 185.3 $ 198.9 $          - $      - $        - $        - $            - $ 132.8 $ 144.9 $ 162.0 $ 185.3 $ 198.9

Applied Research    381.0   378.5     395.9   377.8   379.1    23.2         25.0     26.2         22.1        19.7        404.2   403.5           422.1   399.9        398.8

Development          14.4    15.4      15.3    19.4    12.7    23.2         25.1     26.2         22.1        19.7         37.6        40.5        41.5    41.5            32.4

Total              $ 528.2 $ 538.8 $ 573.2 $ 582.5 $ 590.7 $ 46.4 $ 50.1 $ 52.4 $ 44.2 $ 39.4 $ 574.6 $ 588.9 $ 625.6 $ 626.7 $ 630.1



        The following tables further summarize NIST’s R&D investments for FY 2008 through FY 2012 by performance outcome.

        (In Millions)

                                                                            FY 2012
                                                                                           Basic                   Applied
                                   Performance Outcome                                                                             Development                     Total
                                                                                          Research                Research
         NIST Laboratories: Provide Measurement Tools and Standards to        	   	                           	       	            	          	            	
         Strengthen Manufacturing, Enable Innovation, and Increase Efficiency   $ 198.9                           $       379.1          $         12.7        $     590.7
         Technology Innovation Program: Stimulate High-growth Business
         Formation and Entrepreneurship through Investing in High-risk, High-
         reward Technologies and by Removing Impediments to Accelerate                	                       	                    	                       	
         Technology Commercialization                                                                    -                 19.7                    19.7               39.4
                                                                                              	                       	                       	
         Total                                                                            $       198.9           $       398.8          $         32.4        $     630.1




   260
                                                      F Y   2 0 1 2     P E R F O R M A N C E                A N D        A C C O U N T A B I L I T Y              R E P O R T
                          R E Q U I R E D S U P P L E M E N T A R Y S T E WNAO
                                                                             R TDESSH TI P
                                                                                         O ITNHFEO FRIM
                                                                                                      NAATNI C
                                                                                                             OINA L( US N
                                                                                                                        T AATUED
                                                                                                                               MI ETN
                                                                                                                                    EDT S)




     In Millions)

                                                                     FY 2011
                                                                                    Basic         Applied
                             Performance Outcome                                                             Development         Total
                                                                                   Research      Research
       NIST Laboratories: Provide Measurement Tools and Standards to        	
       Strengthen Manufacturing, Enable Innovation, and Increase Efficiency   $        185.3     $   377.8     $   19.4      $    582.5
       Technology Innovation Program: Stimulate High-growth Business
       Formation and Entrepreneurship through Investing in High-risk, High-
       reward Technologies and by Removing Impediments to Accelerate           	
       Technology Commercialization                                                         -         22.1         22.1             44.2
       Total                                                                       $   185.3     $   399.9     $   41.5      $    626.7


     (In Millions)

                                                                     FY 2010
                                                                                    Basic         Applied
                             Performance Outcome                                                             Development         Total
                                                                                   Research      Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s         	
       Measurements and Standards Infrastructure                                   $   162.0     $   395.9     $   15.3      $    573.2
       Technology Innovation Program: Promote U.S. Competitiveness by
       Directing Federal Investment and R&D into Areas of Critical National
       Need that Support, Promote and Accelerate High-risk, High-reward        	
       Research in the United States                                                        -         26.2         26.2             52.4
       Total                                                                       $   162.0     $   422.1     $   41.5      $    625.6


     (In Millions)

                                                                     FY 2009
                                                                                    Basic         Applied
                             Performance Outcome                                                             Development         Total
                                                                                   Research      Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s         	
       Measurements and Standards Infrastructure                                   $   144.9     $   378.5     $   15.4      $    538.8
       Technology Innovation Program: Promote U.S. Competitiveness by
       Directing Federal Investment and R&D into Areas of Critical National
       Need that Support, Promote, and Accelerate High-risk, High-reward       	
       Research in the United States                                                        -         25.0         25.1             50.1
       Total                                                                       $   144.9     $   403.5     $   40.5      $    588.9




                                                                                                                                     261
F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y       R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TSATTE EWMAERNDTSSH I P I N F O R M A T I O N ( U N A U D I T E D )




     (In Millions)

                                                                    FY 2008
                                                                                   Basic          Applied
                             Performance Outcome                                                               Development              Total
                                                                                  Research       Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s        	
       Measurements and Standards Infrastructure                                  $   132.8      $    381.0       $    14.4         $     528.2
       Advanced Technology Program: Accelerate Private Investment in and      	
       Development of High-risk, Broad-impact Technologies                                -            23.2            23.2                46.4
       Total                                                                      $   132.8      $    404.2       $    37.6         $     574.6




NOAA:

     NOAA conducts a substantial program of environmental R&D in support of its mission, much of which is performed to
     improve the United States’ understanding of and ability to predict environmental phenomena. The scope of research
     includes:

       ●●   Improving predictions and warnings associated with the weather, on timescales ranging from minutes to weeks;

       ●●   Improving predictions of climate, on timescales ranging from months to centuries; and

       ●●   Improving understanding of natural relationships to better predict and manage renewable marine resources and coastal
            and ocean ecosystems.

     NOAA also conducts research that is intended to provide a solid scientific basis for environmental policy-making in
     government. Examples of this research include determining the stratospheric ozone-depleting potential of proposed
     substitutes for chlorofluorocarbons (CFCs), and identifying the causes of the episodic high rural ozone levels that significantly
     damage crops and forests.

     NOAA conducts most R&D in-house; however, contractors to NOAA undertake most systems R&D. External R&D work
     supported by NOAA includes that undertaken through federal-academic partnerships such as the National Sea Grant College
     Program, the Cooperative Institutes of the Environmental Research Laboratories, the Climate and Global Change Program,
     and the Coastal Ocean Program.

     Here is a brief description of the major R&D programs of NOAA:

     Environmental and Climate: The Office of Oceanic and Atmospheric Research is NOAA’s primary research and development
     office. This office conducts research in three major areas: climate research; weather and air quality research; and ocean,
     coastal, and Great Lakes research. NOAA’s research laboratories, Climate Program Office, and research partners conduct
     a wide range of research into complex climate systems, including the exploration and investigation of ocean habitats and
     resources. NOAA’s research organizations conduct applied research on the upper and lower atmosphere as well as the
     space environment.




 262
                                                  F Y   2 0 1 2   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y       R E P O R T
                         R E Q U I R E D S U P P L E M E N T A R Y S T E WNAO
                                                                            R TDESSH TI P
                                                                                        O ITNHFEO FRIM
                                                                                                     NAATNI C
                                                                                                            OINA L( US N
                                                                                                                       T AATUED
                                                                                                                              MI ETN
                                                                                                                                   EDT S)




     Fisheries: NOAA’s National Marine Fisheries Service (NMFS) is responsible for the conservation and management of living
     marine resources and their habitat within the Nation’s Exclusive Economic Zone. NMFS manages these resources through
     science-based conservation and management to ensure their continuation as functioning components of productive
     ecosystems, while also affording economic opportunities and enhancing the quality of life for the American public.
     Fishery stocks and protected species are surveyed; catch, bycatch, incidental take, economic and social data are collected,
     and research is conducted to better understand the variables affecting the abundance and variety of marine fishes and
     protected species, their habitat, and the benefits they provide to society. Protection of endangered species, restoration of
     coastal and estuarine fishery habitats, and enforcement of fishery regulations are primary NOAA activities. The research
     and management of living marine resources is conducted in partnership with states, tribes, universities, other countries,
     international organizations, and a broad range of stakeholders who benefit from the use and existence of living marine
     resources and their habitat.

     Marine Operations and Maintenance and Aircraft Services: These efforts support NOAA’s programs requiring operating days and
     flight hours to collect data at sea and in the air. NOAA’s Marine and Aviation Operations manage a wide variety of specialized
     aircraft and ships to complete NOAA’s environmental and scientific missions. The aircraft collect the environmental and
     geographic data essential to NOAA hurricane and other weather and atmospheric research, conduct aerial surveys for
     hydrologic research to help predict flooding potential from snowmelt, and provide support to NOAA’s fishery research and
     marine mammal assessment programs. NOAA’s ship fleet provides oceanographic and atmospheric research and fisheries
     research vessels to support NOAA’s strategic plan elements and mission.

     Weather Service: The National Weather Service conducts applied research and development, building upon research
     conducted by NOAA laboratories and the academic community. Applied meteorological and hydrological research is integral
     to providing more timely and accurate weather, water, and climate services to the public.

     Other Programs: As a national lead for coastal stewardship, National Ocean Service promotes a wide range of research
     activities to create the strong science foundation required to advance the sustainable use of precious coastal systems.
     Understanding of the coastal environment is enhanced through coastal ocean activities that support science and resource
     management programs. The National Environmental Satellite Data and Information Service, through its Office of Research
     and Applications, conducts atmospheric, climatological, and oceanic research into the use of satellite data for monitoring
     environmental characteristics and their changes. It also provides guidance for the development and evolution of spacecraft
     and sensors to meet future needs.

     NOAA’s R&D investments by program for FY 2008 through FY 2012 were as follows:

     (In Millions)

                        Program                        FY 2008        FY 2009           FY 2010        FY 2011        FY 2012        Total
      Environmental and Climate                    $      331.2   $      337.0      $      344.1   $      395.3   $      392.8   $   1,800.4
      Fisheries                                            53.6           55.7              59.9           65.7           64.9         299.8
      Marine Operations and Maintenance and
      Aircraft Services                                    51.5           38.4              34.3           34.3           33.3         191.8
      Weather Service                                      56.7           58.4              53.9           54.7           36.4         260.1
      Others                                              111.1          103.8             102.0           98.0           90.6         505.5
      Total                                        $      604.1   $      593.3      $      594.2   $      648.0   $      618.0   $   3,057.6




                                                                                                                                         263
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TSATTE EWMAERNDTSSH I P I N F O R M A T I O N ( U N A U D I T E D )




     The following table summarizes NOAA’s R&D investments for FY 2008 through FY 2012 by R&D category:

     (In Millions)

                     R&D Category                        FY 2008         FY 2009        FY 2010            FY 2011          FY 2012          Total
       Applied Research                              $      517.6    $      491.3   $      452.4       $      439.6     $      426.5     $    2,327.4
       Development                                           86.5           102.0          141.8              208.4            191.5            730.2
       Total                                         $      604.1    $      593.3   $      594.2       $      648.0     $      618.0     $    3,057.6



     The following tables further summarize NOAA’s R&D investments from FY 2012 back to FY 2008 by performance outcome:

     (In Millions)

                                                                         FY 2012
                                                                                                    Applied
                                     Performance Outcome                                                              Development            Total
                                                                                                   Research
       Increase Scientific Knowledge and Provide Information to Stakeholders to Support
       Economic Growth and to Improve Innovation, Technology, and Public Safety                    $       148.1        $      9.9       $    158.0
       Enable Informed Decision-making through an Expanded Understanding of the U.S.
       Economy, Society, and Environment by Providing Timely, Relevant, Trusted, and
       Accurate Data, Standards, and Services                                                               45.2              12.6              57.8
       Improve Weather, Water, and Climate Reporting and Forecasting                                         8.9              27.5              36.4
       Support Climate Adaptation and Mitigation                                                           104.4             127.5            231.9
       Develop Sustainable and Resilient Fisheries, Habitats, and Species                                   56.1               8.8              64.9
       Support Coastal Communities that are Environmentally and Economically Sustainable                    63.8               5.2              69.0
       Total                                                                                       $       426.5        $    191.5       $    618.0


     (In Millions)

                                                                         FY 2011
                                                                                                    Applied
                                     Performance Outcome                                                              Development            Total
                                                                                                   Research
       Increase Scientific Knowledge and Provide Information to Stakeholders to Support
       Economic Growth and to Improve Innovation, Technology, and Public Safety                    $       149.5        $      9.3       $     158.8
       Enable Informed Decision-making through an Expanded Understanding of the U.S.
       Economy, Society, and Environment by Providing Timely, Relevant, Trusted, and
       Accurate Data, Standards, and Services                                                               48.0              12.6              60.6
       Improve Weather, Water, and Climate Reporting and Forecasting                                        17.8              36.9              54.7
       Support Climate Adaptation and Mitigation                                                           101.2             141.4             242.6
       Develop Sustainable and Resilient Fisheries, Habitats, and Species                                   59.1               6.7              65.8
       Support Coastal Communities that are Environmentally and Economically Sustainable                    64.0               1.5              65.5
       Total                                                                                       $       439.6       $ 208.4           $ 648.0




 264
                                                   F Y   2 0 1 2    P E R F O R M A N C E    A N D         A C C O U N T A B I L I T Y       R E P O R T
                         R E Q U I R E D S U P P L E M E N T A R Y S T E WNAO
                                                                            R TDESSH TI P
                                                                                        O ITNHFEO FRIM
                                                                                                     NAATNI C
                                                                                                            OINA L( US N
                                                                                                                       T AATUED
                                                                                                                              MI ETN
                                                                                                                                   EDT S)




     (In Millions)

                                                                   FY 2010
                                                                                             Applied
                                    Performance Outcome                                                   Development           Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                  $   218.4       $     6.8       $    225.2
       Advance Understanding of Climate Variability and Change                                  125.1            84.0            209.1
       Provide Accurate and Timely Weather and Water Information                                108.0            48.4            156.4
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                   0.9             2.6              3.5
       Total                                                                                $   452.4       $   141.8       $    594.2


     (In Millions)

                                                                   FY 2009
                                                                                             Applied
                                    Performance Outcome                                                   Development           Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                  $   211.5       $     8.1       $    219.6
       Advance Understanding of Climate Variability and Change                                  140.4            60.5            200.9
       Provide Accurate and Timely Weather and Water Information                                138.9            32.7            171.6
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                   0.5             0.7              1.2
       Total                                                                                $   491.3       $   102.0       $    593.3


     (In Millions)

                                                                   FY 2008
                                                                                             Applied
                                    Performance Outcome                                                   Development           Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                  $   229.8       $    11.4       $    241.2
       Advance Understanding of Climate Variability and Change                                  145.9            35.7            181.6
       Provide Accurate and Timely Weather and Water Information                                140.3            39.2            179.5
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                   1.6             0.2              1.8
       Total                                                                                $   517.6       $    86.5       $    604.1




                                                                                                                                    265
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
N
R EOQTU
      E SI RTEO
              D TSH
                  UEP PF LI N
                            EMAN
                               ENC TI A
                                      A LR YS TSATTE EWMAERNDTSSH I P I N F O R M A T I O N ( U N A U D I T E D )




 266
                                                  F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I     A    L         S    E   C   T   I   O   N




                        O ther
            Accompanying
             I nformation
                            (u n a u d i t e d)
                                                                                                                   N
                                                                                                                   OO T EE SR TAO
                                                                                                                     TH         C CTO
                                                                                                                                    HME PFAI N
                                                                                                                                             NAYN
                                                                                                                                                I NCG
                                                                                                                                                    I AILN SF TOARTM
                                                                                                                                                                   EMA TE INOTNS




The Schedule of Spending by Major Budget Account presents amounts agreed to be spent for the current year, how the money was spent,
and who received the money. The Total Amounts Agreed to be Spent line represents obligations incurred during the current year.

United States Department of Commerce Schedule of Spending by Major Budget Account
For the Year Ended September 30, 2012 (In Thousands)
                                                                                                                                                                                        NTIA
                                                                                                      NOAA           NTIA Digital                    Census                          Broadband
                                                                     NOAA               USPTO      Procurement,       Television       ITA           Bureau                          Technology
                                                                   Operations,          Salaries   Acquisition,     Transition and  Operations      Periodic             EDA        Opportunities
                                                   Combining      Research, and           and          and          Public Safety      and        Censuses and           Grant        Program -        Other
                                                     Total          Facilities         Expenses    Construction          Fund      Administration   Programs             Fund       Recovery Act     Programs

WHAT MONEY IS AVAILABLE TO SPEND?
Total Resources                                    $ 22,590,496 $ 3,639,588        $ 2,612,628     $ 1,830,285      $ 8,782,695      $ 516,628     $     830,647 $   481,345 $   2,976              $ 3,893,704
Less: Amounts Available but Not Agreed to be Spent  	(1,294,023)  	(176,593)         	(237,873)      	(23,226)       	(19,038)         	(19,888)       	(13,456)   	(178,237)  	-                     	(625,712)
Less: Amounts Not Available to be Spent             	(9,058,376)  	(66,554)          	-              	(19,006)       	(8,745,196)      	(9,744)        	(118,568)  	(6,075)    	(2,976)               	(90,257)
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,238,097    $ 3,396,441      $ 2,374,755     $ 1,788,053      $      18,461    $ 486,996     $     698,623   $      297,033   $ 	-            $ 3,177,735

HOW WAS THE MONEY SPENT?
Payroll                                        $     4,735,747    $ 1,556,546      $ 1,598,013     $      50,122    $       322      $ 264,441     $   227,698     $ 	-             $ 	-            $ 1,038,605
Rent, Communications, and Utilities                    548,590        212,849          119,925             9,240             41         19,763          19,337       	-               	-                167,435
Travel                                                 138,287         51,217            3,209             2,266             15         18,152          17,436       	-               	-                 45,992
Supplies                                               217,413        117,599           38,406            11,646        	-               2,456           1,361       	-               	-                 45,945
Equipment                                              474,568         38,041          105,069           252,151        	-               6,050           9,681       	-               	-                 63,576
Land, Buildings, and Structures                         31,059          4,419            2,038               681        	-             	-              	-            	-               	-                 23,921
Contracts                                            4,674,706        909,632          362,229         1,358,562        200,826         78,625         143,857       	-               	(44)           1,621,019
Grants                                               3,033,356        731,628        	-                   54,314         17,355          1,662         	-            370,247          1,588,798         269,352
Loans                                                  103,273      	-               	-                	-               	-             	-              	-            	-               	-                103,273
Other                                                  797,795         20,526          103,373             1,851          1,210         77,588         349,313       	-               	-                243,934
Total Spending                                      14,754,794        3,642,457        2,332,262       1,740,833          219,769        468,737         768,683          370,247    1,588,754        3,623,052
Amounts Remaining to be Spent/(Amounts Spent
   Related to Prior Years’ Resources), Net         	(2,516,697)       	(246,016)          42,493          47,220        	(201,308)        18,259       	(70,060)       	(73,214)     	(1,588,754)    	(445,317)
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,238,097    $ 3,396,441      $ 2,374,755     $ 1,788,053      $      18,461    $ 486,996     $     698,623   $      297,033   $ 	-            $ 3,177,735

WHO DID THE MONEY GO TO?
Federal Government                             $     3,791,625    $     613,745    $     198,850   $ 1,260,248      $         728    $    79,377   $     360,304   $ 	-             $ 	-            $ 1,278,373
Non-federal                                          8,446,472        2,782,696        2,175,905       527,805             17,733        407,619         338,319     297,033          	-              1,899,362
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,238,097    $ 3,396,441      $ 2,374,755     $ 1,788,053      $      18,461    $ 486,996     $     698,623   $      297,033   $ 	-            $ 3,177,735

HOW WAS THE MONEY ISSUED?
Contracts                                      $     5,458,134    $ 1,203,642      $     760,431   $ 1,693,842      $      570       $ 116,795     $   131,250     $ 	-             $ 	-            $ 1,551,604
Grants                                               1,187,218        591,328          	-               42,075          16,346           2,556         	-            297,033          	-                237,880
Loans and Guarantees                                    65,497      	-                 	-            	-                 	-             	-              	-            	-               	-                 65,497
Non-financial Assistance Direct Payments             4,919,799      1,603,805          1,613,088        52,021             337         287,263         241,915       	-               	-              1,121,370
Other                                                  607,449      	(2,334)               1,236           115           1,208          80,382         325,458       	-               	-                201,384
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,238,097    $ 3,396,441      $ 2,374,755     $ 1,788,053      $      18,461    $ 486,996     $     698,623   $      297,033   $ 	-            $ 3,177,735




                                                                                                                                                                                               269
      F Y   2 0 1 2        P E R F O R M A N C E         A N D         A C C O U N T A B I L I T Y                 R E P O R T
N
OO T EE SR TAO
  TH         C CTO
                 HME PFAI N
                          NAYN
                             I NCG
                                 I AILN SF TOARTM
                                                EMA TE INOTNS




 270
                                                  F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                I ndependent
                   Auditors’
                    R eport
                                                                                     INDEPENDENT AUDITORS’ REPORT




            November 15, 2012

            MEMORANDUM FOR:                     The Honorable Dr. Rebecca Blank
                                                Acting Secretary of Commerce


            FROM:                               Todd J. Zinser

            SUBJECT:                            FY 2012 Consolidated Financial Statements
                                                Final Report No. OIG-13-006-A

            I am pleased to provide you with the attached audit report, which presents an unqualified
            opinion on the Department’s fiscal year 2012 consolidated financial statements. KPMG LLP, an
            independent public accounting firm, performed the audit in accordance with U.S. generally
            accepted government auditing standards and Office of Management and Budget Bulletin 07-04,
            Audit Requirements for Federal Financial Statements, as amended.

            In its audit of the Department, KPMG found:

                    the financial statements were fairly presented in all material respects and in conformity
                     with U.S. generally accepted accounting principles;

                    one material weakness in internal control over financial reporting related to NOAA’s
                     financial management oversight of budgetary controls and accounting for general
                     property and satellites;

                    one significant deficiency related to controls over general information technology, which
                     was not considered to be a material weakness;

                    a reportable noncompliance with the Antideficiency Act; and

                    no instances in which the Department’s financial management systems did not
                     substantially comply with the requirements of the Federal Financial Management
                     Improvement Act of 1996.




                                                                                                                 273
F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
INDEPENDENT AUDITORS’ REPORT




       My office oversaw the audit performance. We reviewed KPMG’s report and related
       documentation and made inquiries of its representatives. Our review disclosed no instances
       where KPMG did not comply, in all material respects, with U.S. generally accepted government
       auditing standards. However, our review cannot be construed as an audit in accordance with
       these standards; it was not intended to enable us to express—nor do we express—any opinion
       on the Department’s consolidated financial statements, conclusions about the effectiveness of
       internal controls, or conclusions on compliance with laws, regulations, contracts, and grant
       agreements. KPMG is solely responsible for the attached audit report, dated November 13,
       2012, and the conclusions expressed in it.

       In accordance with Department Administrative Order 213-5, please provide an action plan
       within 60 calendar days of the date of this memorandum addressing the material weakness in
       NOAA’s financial management oversight. The plan should outline the actions that NOAA plans
       to take to address each recommendation.

       If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Ann C.
       Eilers, Principal Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.

       We appreciate the cooperation and courtesies the Department extended to both KPMG and
       my staff during the audit.

       Attachment

       cc:    Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration




                                                         2

 274
                                         F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                          INDEPENDENT AUDITORS’ REPORT




                                                 KPMG LLP
                                                 Suite 12000
                                                 1801 K Street, NW
                                                 Washington, DC 20006


                                                     Independent Auditors’ Report


                  Inspector General, U.S. Department of Commerce and
                  Secretary, U.S. Department of Commerce:

                  We have audited the accompanying consolidated balance sheets of the U.S. Department of
                  Commerce (Department) as of September 30, 2012 and 2011, and the related consolidated
                  statements of net cost and changes in net position, and combined statements of budgetary
                  resources (hereinafter referred to as consolidated financial statements) for the years then
                  ended. The objective of our audits was to express an opinion on the fair presentation of these
                  consolidated financial statements. In connection with our fiscal year 2012 audit, we also
                  considered the Department’s internal control over financial reporting and tested the
                  Department’s compliance with certain provisions of applicable laws, regulations, contracts,
                  and grant agreements that could have a direct and material effect on these consolidated
                  financial statements.
                  Summary
                  As stated in our opinion on the consolidated financial statements, we concluded that the
                  Department’s consolidated financial statements as of and for the years ended September 30,
                  2012 and 2011, are presented fairly, in all material respects, in conformity with U.S. generally
                  accepted accounting principles.
                  As discussed in Note 18 to the consolidated financial statements, the Department changed its
                  presentation for reporting the combined statement of budgetary resources in fiscal year 2012,
                  in compliance with Office of Management and Budget (OMB) Circular No. A-136, Financial
                  Reporting Requirements.
                  Our consideration of internal control over financial reporting resulted in identifying one
                  deficiency, related to weaknesses in financial management oversight at the National Oceanic
                  and Atmospheric Administration (NOAA) that we consider to be a material weakness, and one
                  deficiency, relating to the Department’s information technology security, access and
                  configuration management controls, that we consider to be a significant deficiency, as defined
                  in the Internal Control Over Financial Reporting section of this report.
                  The results of our tests of compliance with certain provisions of laws, regulations, contracts,
                  and grant agreements disclosed one matter of noncompliance, relating to the Antideficiency
                  Act, that is required to be reported under Government Auditing Standards, issued by the
                  Comptroller General of the United States, and OMB Bulletin No. 07-04, Audit Requirements
                  for Federal Financial Statements, as amended.
                  The following sections discuss our opinion on the Department’s consolidated financial
                  statements; our consideration of the Department’s internal control over financial reporting; our



                                                 KPMG LLP is a Delaware limited liability partnership,
                                                 the U.S. member firm of KPMG International Cooperative
                                                 (“KPMG International”), a Swiss entity.




                                                                                                                                   275
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y                  R E P O R T
INDEPENDENT AUDITORS’ REPORT




       tests of the Department’s compliance with certain provisions of applicable laws, regulations,
       contracts, and grant agreements; and management’s and our responsibilities.

       Opinion on the Financial Statements
       We have audited the accompanying consolidated balance sheets of the U.S. Department of
       Commerce as of September 30, 2012 and 2011, and the related consolidated statements of net
       cost and changes in net position, and the combined statements of budgetary resources for the
       years then ended.
       In our opinion, the consolidated financial statements referred to above present fairly, in all
       material respects, the financial position of the U.S. Department of Commerce as of
       September 30, 2012 and 2011, and its net costs, changes in net position, and budgetary
       resources for the years then ended, in conformity with U.S. generally accepted accounting
       principles.
       As discussed in Note 18 to the consolidated financial statements, the Department changed its
       presentation for reporting the combined statement of budgetary resources in fiscal year 2012,
       based on new reporting requirements under OMB Circular No. A-136. As a result, the
       Department’s combined statement of budgetary resources for fiscal year 2011 has been
       adjusted to conform to the current year presentation.
       U.S. generally accepted accounting principles require that the information in the
       Management’s Discussion and Analysis (including the Financial Management Analysis on
       pages 157 - 172), Required Supplementary Information, and Required Supplementary
       Stewardship Information sections be presented to supplement the basic financial statements.
       Such information, although not a part of the basic financial statements, is required by the
       Federal Accounting Standards Advisory Board who considers it to be an essential part of
       financial reporting for placing the basic financial statements in an appropriate operational,
       economic, or historical context. We have applied certain limited procedures to the required
       supplementary information in accordance with auditing standards generally accepted in the
       United States of America, which consisted of inquiries of management about the methods of
       preparing the information and comparing the information for consistency with management’s
       responses to our inquiries, the basic financial statements, and other knowledge we obtained
       during our audits of the basic financial statements. We do not express an opinion or provide
       any assurance on the information because the limited procedures do not provide us with
       sufficient evidence to express an opinion or provide any assurance.
       Our audits were conducted for the purpose of forming an opinion on the basic financial
       statements as a whole. The September 30, 2012 consolidating balance sheet on page 243 is
       presented for purposes of additional analysis and is not a required part of the basic financial
       statements. Such information is the responsibility of management and was derived from and
       relates directly to the underlying accounting and other records used to prepare the basic
       financial statements. The September 30, 2012 consolidating balance sheet on page 243 has
       been subjected to the auditing procedures applied in the audit of the basic financial statements
       and certain additional procedures, including comparing and reconciling such information
       directly to the underlying accounting and other records used to prepare the basic financial
       statements or to the basic financial statements themselves, and other additional procedures in




 276
                                       F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    INDEPENDENT AUDITORS’ REPORT




                  accordance with auditing standards generally accepted in the United States of America. In our
                  opinion, the September 30, 2012 consolidating balance sheet on page 243 is fairly stated in all
                  material respects in relation to the basic financial statements as a whole. The information in
                  the FY 2012 Performance Section, Appendices, and the information on pages VI through XII
                  are presented for the purposes of additional analysis and are not a required part of the basic
                  financial statements. Such information has not been subjected to the auditing procedures
                  applied in the audits of the basic financial statements, and accordingly, we do not express an
                  opinion or provide any assurance on them.
                  Internal Control Over Financial Reporting
                  Our consideration of internal control over financial reporting was for the limited purpose
                  described in the Responsibilities section of this report and was not designed to identify all
                  deficiencies in internal control over financial reporting that might be significant deficiencies
                  or material weaknesses and therefore, there can be no assurance that all deficiencies,
                  significant deficiencies, or material weaknesses have been identified. However, in our fiscal
                  year 2012 audit, we identified one deficiency, that we consider to be a material weakness and
                  one other deficiency that we consider to be a significant deficiency.
                  A deficiency in internal control exists when the design or operation of a control does not allow
                  management or employees, in the normal course of performing their assigned functions, to
                  prevent, or detect and correct misstatements on a timely basis. A material weakness is a
                  deficiency, or combination of deficiencies, in internal control such that there is a reasonable
                  possibility that a material misstatement of the entity’s financial statements will not be
                  prevented, detected and corrected on a timely basis. We consider the following deficiency,
                  described in more detail in Exhibit I, to be a material weakness.

                  •   NOAA’s financial management oversight needs improvement. During fiscal year 2012,
                      we noted several control weaknesses at NOAA, in the areas of budgetary controls,
                      accounting for general property, and accounting for satellites. The budgetary control
                      issues relate to moving expenses between accounts to prevent exceeding budget authority,
                      and using appropriations for program activities that may not meet the intended purpose.
                      The property issues, including satellites, relate to proper and timely accounting for
                      acquisitions, transfers, construction work-in-process, asset retirements, and impairment
                      assessments. As a result of these matters, NOAA needs to make significant improvements
                      in its financial management oversight of its budget execution processes, as well as the
                      effective accounting for its property, including satellites.
                  A significant deficiency is a deficiency, or a combination of deficiencies, in internal control
                  that is less severe than a material weakness, yet important enough to merit attention by those
                  charged with governance. We consider the following deficiency, described in more detail in
                  Exhibit II, to be a significant deficiency:

                  •   Information technology security, access, and configuration management controls
                      need improvement. We identified new deficiencies in fiscal year 2012 relating to control
                      weaknesses in IT security, access, and configuration management that require
                      management’s attention. Despite the positive efforts made by the Department, the
                      Department needs to make continued improvements in its IT controls to fully ensure that




                                                                                                                     277
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
INDEPENDENT AUDITORS’ REPORT




           financial data processed on the Department’s systems has integrity, is securely maintained,
           and is available only to authorized users.
       Exhibit III presents the status of the prior year significant deficiency.
       We noted certain additional matters that we have reported to management of the Department
       in a separate letter dated November 13, 2012.
       Compliance and Other Matters
       The results of our tests of compliance described in the Responsibilities section of this report,
       exclusive of those referred to in the Federal Financial Management Improvement Act of 1996
       (FFMIA), disclosed the following matter of noncompliance that is required to be reported
       herein under Government Auditing Standards or OMB Bulletin No. 07-04.

       •   Antideficiency Act – During fiscal year 2012, the Department determined that the National
           Weather Service, a component of NOAA, circumvented budgetary controls by moving
           expenses between accounts to prevent exceeding budget authority. Accordingly, the
           Department is in the process of reporting this violation of the Antideficiency Act, as
           required by Sections 1351 and 1517(b) of Title 31, of the United States Code. This matter
           relates to the discussion in Exhibit I, which includes our related recommendations.
       The results of our other tests of compliance, as described in the Responsibilities section of this
       report, exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or
       other matters that are required to be reported herein under Government Auditing Standards or
       OMB Bulletin No. 07-04.
       The results of our tests of FFMIA disclosed no instances where the Department’s financial
       management systems did not substantially comply with (1) Federal financial management
       systems requirements, (2) applicable Federal accounting standards, and (3) the United States
       Government Standard General Ledger at the transaction level.
       Other Matters: In fiscal year 2012, the Department informed us of potential Antideficiency
       Act compliance matters that are currently being reviewed for the following: NOAA - relating
       to adjusting expenses for reprogramming purposes without providing advanced notice to
       Congress, and the potential incorrect use of budgetary funding sources to support its programs
       (see related discussion in Exhibit I); U.S. Census Bureau - relating to the timing of potential
       obligations for an interagency agreement in advance of receiving appropriations; and the
       Department level – relating to accepting terms of agreement on purchases made through the
       internet. Because these reviews are not complete, the ultimate outcome of these matters is not
       presently known.
                                                  *******
       Responsibilities
       Management’s Responsibilities. Management is responsible for the consolidated financial
       statements; establishing and maintaining effective internal control over financial reporting;
       and complying with laws, regulations, contracts, and grant agreements applicable to the
       Department.




 278
                                        F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    INDEPENDENT AUDITORS’ REPORT




                  Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012
                  and 2011 consolidated financial statements of the Department based on our audits. We
                  conducted our audits in accordance with auditing standards generally accepted in the United
                  States of America; the standards applicable to financial audits contained in Government
                  Auditing Standards, issued by the Comptroller General of the United States; and OMB
                  Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and
                  perform the audits to obtain reasonable assurance about whether the consolidated financial
                  statements are free of material misstatement. An audit includes consideration of internal
                  control over financial reporting as a basis for designing audit procedures that are appropriate
                  in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
                  the Department’s internal control over financial reporting. Accordingly, we express no such
                  opinion.
                  An audit also includes:
                  •     Examining, on a test basis, evidence supporting the amounts and disclosures in the
                        consolidated financial statements;
                  •     Assessing the accounting principles used and significant estimates made by
                        management; and
                  •     Evaluating the overall consolidated financial statement presentation.

                  We believe that our audits provide a reasonable basis for our opinion.

                  In planning and performing our fiscal year 2012 audit, we considered the Department’s
                  internal control over financial reporting by obtaining an understanding of the Department’s
                  internal control, determining whether internal controls had been placed in operation, assessing
                  control risk, and performing tests of controls as a basis for designing our auditing procedures
                  for the purpose of expressing our opinion on the consolidated financial statements, but not for
                  the purpose of expressing an opinion on the effectiveness of the Department’s internal control
                  over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
                  Department’s internal control over financial reporting. We did not test all controls relevant to
                  operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
                  1982.
                  As part of obtaining reasonable assurance about whether the Department’s fiscal year 2012
                  consolidated financial statements are free of material misstatement, we performed tests of the
                  Department’s compliance with certain provisions of laws, regulations, contracts, and grant
                  agreements, noncompliance with which could have a direct and material effect on the
                  determination of the consolidated financial statement amounts, and certain provisions of other
                  laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred
                  to in Section 803(a) of FFMIA. We limited our tests of compliance to the provisions
                  described in the preceding sentence, and we did not test compliance with all laws, regulations,
                  contracts, and grant agreements applicable to the Department. However, providing an opinion
                  on compliance with laws, regulations, contracts, and grant agreements was not an objective of
                  our audit and, accordingly, we do not express such an opinion.
                                                 ______________________________




                                                                                                                     279
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
INDEPENDENT AUDITORS’ REPORT




       The Department’s written responses to the findings identified in our audit and presented in
       Exhibits I and II were not subjected to the auditing procedures applied in the audit of the
       Department’s consolidated financial statements and, accordingly, we express no opinion on
       those responses.
       This report is intended solely for the information and use of the Department’s management,
       the Department’s Office of Inspector General, OMB, the U.S. Government Accountability
       Office, and the U.S. Congress and is not intended to be and should not be used by anyone
       other than these specified parties.



       November 13, 2012




 280
                                     F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    INDEPENDENT AUDITORS’ REPORT




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit I – Material Weakness

                The National Oceanic and Atmospheric Administration (NOAA)’s Financial Management
                Oversight Needs Improvement

                NOAA is the Department’s largest bureau, comprising 43 percent of the Department’s total
                assets, and 46 percent of the Department’s total net cost of operations. During fiscal year 2012,
                we noted several matters that highlighted the need for improved financial management oversight
                at NOAA, in the areas of budgetary controls, accounting for general property, and accounting for
                satellites, discussed below. Collectively, these matters are considered to be a material weakness
                in internal control.

                Budgetary Controls. During fiscal year 2012, the Department conducted an internal inquiry
                into allegations that the National Weather Service (NWS), a component of NOAA, circumvented
                budgetary controls by moving expenses between accounts to prevent exceeding budget authority.
                As a result of the internal review, the Under Secretary of NOAA issued a Decision Memorandum
                dated May 24, 2012, to act on the NOAA-specific recommendations resulting from the internal
                review. The Deputy Secretary of Commerce also issued a Decision Memorandum on May 24,
                2012, that expanded on the planned corrective actions at NOAA, to review budget formulation
                and execution processes throughout the Department to ensure transparency and accountability.
                The Department determined that the circumvention of budgetary controls resulted in an
                Antideficiency Act violation (see Compliance Section of our Independent Auditors’ Report).

                The internal review identified that the NWS was misusing Summary Level Transfers (SLTs), a
                type of journal entry that makes it difficult to detect the movement of funds between accounts
                and prevented the transactions from being flagged during program reviews and audits. We
                selected a sample of SLTs for audit test work at NOAA, and found that many of these journal
                entries lacked adequate supporting documentation to describe the purpose of the entries, and
                lacked evidence of adequate supervisory review. Our findings are consistent with the
                Department’s Office of Management and Budget (OMB) Circular A-123, Management’s
                Responsibility for Internal Controls, Appendix A, Internal Control Over Financial Reporting
                testing results relating to SLTs and other adjusting entries, that also indicated that there was a
                lack of Budget Analysts’ knowledge with respect to appropriation laws. We also found one
                SLT dated June 14, 2012 (subsequent to the Decision Memorandums noted above), which was
                described as moving expenses between accounts to ensure that budget levels were not exceeded.
                Furthermore, we identified three transactions in which we questioned whether the appropriation
                used was proper. As a result of our audit, these additional matters are being reviewed by NOAA
                to determine if they violated the Antideficiency Act.

                These findings indicate inadequate supervision of financial staff within the NWS, as well as a
                lack of oversight from the NOAA financial management personnel. We also note that as of
                September 30, 2012, the following important positions were vacant: NOAA Chief Financial
                Officer (CFO), and the NWS CFO. Although personnel have been assigned in “acting” positions
                for the NOAA CFO and NWS CFO for most of fiscal year 2012, a permanent appointment for




                                                                                                                     281
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       Exhibit I – Material Weakness, Continued

       the NWS CFO position has not been made and the NOAA CFO position was not filled until
       November 2012, which could hinder the ability to provide the necessary financial management
       oversight and implement corrective actions. Permanent positions should be filled by persons
       who meet the qualifications for agency CFOs as described in the Chief Financial Officers’ Act of
       1990, specifically, “(3) be appointed or designated, as applicable, from among individuals who
       possess demonstrated ability in general management of, and knowledge of and extensive
       practical experience in financial management practices in large governmental or business
       entities.”

       Accounting for Property Other Than Satellites. The Department has a substantial investment
       in general property, plant, and equipment (PP&E). NOAA accounts for 86 percent of the
       Department’s net property PP&E of $10 billion. During our fiscal year 2012 audit, we identified
       issues relating to (1) untimely recording of capital assets, which were procured as far back as
       fiscal year 2010, (2) untimely transfers of completed projects from construction work-in-progress
       (CWIP) to completed personal property, for projects ready for their intended use as far back as
       fiscal year 2009, (3) property that was removed from service, but not properly adjusted in the
       accounting records, (4) failure to complete personal property inventories at certain locations, (5)
       property remaining in the Unreconciled Property Report for over a year that should have been
       capitalized, (6) a CWIP project with a negative account balance (indicating that the
       capitalization amount was incorrect), and (7) policies relating to CWIP that need clarification
       regarding whether certain costs should be capitalized.

       Many of the accounting activities for real and personal property are decentralized at the line
       office level, and NOAA’s Finance Office is reliant on those line offices to provide it with
       information regarding property acquisitions and disposals. NOAA has recognized the difficulties
       in accounting for its property and has implemented certain corrective actions in prior years.
       However, more improvements and additional oversight and training are needed to strengthen
       controls over the Department’s significant property investment.

       Accounting for Satellites. At September 30, 2012, NOAA has CWIP related to satellites of
       $6.1 billion and completed satellites and ground systems with a net book value of $0.6 billion.
       Accounting for satellites is highly complex; each satellite series/program is accounted for
       separately; and the construction spans many years, and involves significant contracts and
       arrangements with contractors and other Government agencies. We noted that proposed
       accounting for satellite transactions originate within NOAA’s National Environmental Satellite,
       Data, and Information Service (NESDIS). Although NESDIS has a CFO and Deputy CFO, their
       office is not staffed with personnel that have significant financial accounting training and
       experience, and NOAA’s Finance Office does not have sufficient oversight of the accounting for
       satellites. As a result, accounting issues related to satellites continue to surface. During our
       fiscal year 2012 audit, we identified the following issues relating to the accounting for satellites:




 282
                                          F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    INDEPENDENT AUDITORS’ REPORT




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit I – Material Weakness, Continued

                •   Incorrect Classification of a Satellite Ground System. The National Polar-orbiting
                    Operational Environmental Satellite System (NPOESS) Preparatory Project (NPP) serves as
                    a bridge between NOAA’s current polar-orbiting operational environmental system of
                    satellites and the planned Joint Polar Satellite System (JPSS). Although the underlying NPP
                    satellite is owned by the National Aeronautics and Space Administration (NASA), NOAA
                    owns certain sensors/instruments, and is also responsible for the ground system that will be
                    used by both agencies for communications with the satellite, that was launched on October
                    28, 2011. The NPP satellite and NOAA’s sensors/instruments are currently undergoing
                    testing, and have not yet been declared fully “operational”. However, NOAA classified the
                    ground system as completed PP&E and began recording depreciation as of the launch date,
                    rather than waiting until the satellite is declared operational. NOAA’s NPP
                    sensors/instruments remain in CWIP, and are not expected to be declared operational until
                    fiscal year 2013. As a result, this $616 million ground system should also remain in CWIP as
                    of September 30, 2012. We recommended, and NOAA posted, an audit adjustment to correct
                    the $616 million property classification, and to reverse $115 million in depreciation expense
                    that had been recorded in fiscal year 2012.

                    Although NOAA ultimately reversed the proposed ground system transfer to completed
                    PP&E, we noted that the $616 million amount did not agree to the CWIP records. Further,
                    NOAA has not assessed the amount of costs incurred for this ground system that may no
                    longer have future value, given the restructure of the JPSS program, nor the amount of costs
                    incurred that may benefit the ground system that will ultimately be used with future JPSS
                    satellites. These assessments, and a closer supervisory review of supporting documentation,
                    must be made in order to determine the appropriate amount to transfer to completed PP&E,
                    once the NPP satellite and NOAA’s sensors/instruments are declared operational.

                •   Unrecorded Transfer-In of Satellite. In September 2011, NOAA received a transfer of the
                    Deep Space Climate Observatory (DSCOVR) satellite from NASA, with an estimated
                    original cost of $183 million. NOAA is in the process of refurbishing the DSCOVR satellite
                    to provide solar wind data continuity for geomagnetic storm forecasting, and expects to
                    complete the satellite in fiscal year 2014. However, NOAA did not recognize that this
                    transfer should be recorded in the Department’s financial statements or disclosed in the
                    financial statement footnotes, until prompted to do so, as a result of our audit. Further, this
                    transaction should have been recorded in September 2011, but NOAA’s Finance Office did
                    not recognize that this transaction had taken place, until late in fiscal year 2012. An audit
                    adjustment for $183 million was recorded at September 30, 2012, to record this satellite and
                    the related transfer-in.

                •   Corrections to the JPSS Impairment Analysis. The transition of the NPOESS program,
                    which had been a joint effort primarily between NOAA and the U.S. Air Force, to the JPSS
                    program, without US Air Force participation, necessitated significant changes in the scope




                                                                                                                      283
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       Exhibit I – Material Weakness, Continued

           and design of this satellite program, and resulted in the need to expense (or impair) certain
           NPOESS satellite components that would not be part of the ultimate JPSS design.

           NOAA initially recorded impairment charges related to these components in fiscal year 2010.
           However, due to the complexity of the procurement arrangement between NOAA and U.S.
           Air Force, and as recommended in our prior year audit, a more detailed analysis of costs
           incurred for the satellite components was necessary to ensure that an accurate impairment
           charge was recorded, particularly focused on determining accurate component costs and
           ensuring that a proportional share of overhead/program costs incurred were allocated to all
           components. NOAA undertook this analysis in fiscal year 2012, engaging several
           contractors. Because this effort was started late in the year, a thorough supervisory review
           was not performed. Further, in reviewing the analysis in process, we noted additional
           program costs that should have been allocated to the satellite components, certain costs that
           were considered overhead costs that should have been assigned to specific components, and
           certain spreadsheet adjustments that were needed.

           NOAA updated its analysis for some of our observations, and recorded $99 million in
           impairment costs in fiscal year 2012, related to the satellite components that were
           discontinued. We estimate that additional refinements to the calculation, that may be
           subsequently completed, will not result in a material change to the impairment amount.

       •   Review and Approval of Intra-governmental Payments. NOAA works with other
           Government agencies, primarily NASA, in procurements related to its satellites. During our
           internal control testing, NOAA could not provide us with sufficient documentation to
           evidence NOAA’s Line Office’s review and approval of 17 out of the 61 Intra-governmental
           Payment and Collection (IPAC) payments to other federal agencies. We identified this
           control issue in the prior year, and NOAA developed a formal procedure for documenting the
           review and approval of IPAC payments for one of its line office that was implemented in
           fiscal year 2012. However, 10 of the 17 IPAC payments we identified without sufficient
           documentation occurred after the implementation of the corrective actions. For example, we
           found that the IPAC documentation did not identify details of the nature of the charges or the
           period of performance. Inaccurate IPAC payments to NASA could result in misstatements to
           NOAA’s satellite CWIP balances.

       •   Uncapitalizable Costs in CWIP. We noted that after NOAA’s two most recently launched
           satellites (GOES-15 and NOAA-19) were declared operational, NOAA capitalized an
           additional $73 million of costs related to those satellites, in prior years. We understand that
           additional costs are often identified long after a satellite is launched, due to delays in billings
           by NASA and other contractors. In the prior year, NOAA developed an accrual at year-end
           to record expected additional costs incurred for completed satellites, based on the remaining
           amount of undelivered orders, to account for the time delay in receiving final billings.
           However, in early October 2012, as a part of working with NASA to try to understand the




 284
                                           F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    INDEPENDENT AUDITORS’ REPORT




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit I – Material Weakness, Continued

                    details behind the IPAC payments (see prior bullet), NOAA was informed that some of the
                    IPAC billings from NASA were for non-capitalizable costs.

                    Because of the lack of necessary supporting documentation for many IPAC billings, as
                    described above, NOAA is unable to determine whether certain costs (including accruals)
                    recorded as additions to its satellites should have been capitalized or expensed. NOAA
                    indicated that it would begin working with NASA to determine the details needed to resolve
                    the accounting for the IPACS, but that this could not be completed before issuance of the
                    September 30, 2012 financial statements.

                    While the ultimate effect of this matter is not yet known, we do not believe that there is a
                    significant misstatement of the net book value of satellites at September 30, 2012, as a result
                    of this matter, because depreciation expense would have offset the majority of any
                    overstatement.

                Recommendations

                We recommend that NOAA:
                Relating to Budgetary Controls:
                •   Implement the recommendations arising from the Internal Inquiry into Alleged
                    Mismanagement of Funds within the National Weather Service, dated May 11, 2012.
                •   Implement the actions described in the Deputy Secretarial Decision Memorandum, dated
                    May 24, 2012.
                •   Implement the recommendations resulting from the Department’s OMB Circular A-123
                    review of SLTs and Other Adjusting Entries, described in a management report dated August
                    28, 2012.
                •   Complete the review of other transactions, such as those where expenses were moved
                    between accounts, or where appropriations may not have been used for intended purposes,
                    identified at the National Weather Services, to determine if additional Antideficiency Act
                    violations have occurred, and make appropriate reports, if necessary.
                •   Fill the vacant NWS CFO position with personnel candidate experienced in both federal
                    accounting and budgeting.

                Relating to Accounting for Property Other Than Satellites:

                •   Complete a comprehensive review of all property accounting policies, to ensure clarity of
                    procedures and compliance with generally accepted accounting principles.




                                                                                                                      285
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       Exhibit I – Material Weakness, Continued

       •   Develop training on property policies and procedures for NOAA’s Finance Office, as well as
           line office personnel.
       •   Evaluate staffing at line offices to ensure that personnel with appropriate accounting
           experience are responsible for property accounting.
       •   Implement greater Finance Office oversight for property accounting transactions.

       Relating to Accounting for Satellites:

       •   Evaluate staffing at NESDIS to ensure that personnel with appropriate financial accounting
           training and experience are responsible for satellite accounting.
       •   Establish stronger CFO oversight of accounting for satellites and related areas.
       •   Ensure that the classification between CWIP and completed PP&E for satellites and satellites
           ground systems is based on generally accepted accounting principles.
       •   Analyze the components of the ground system costs, to segregate costs that are applicable to
           the future JPSS satellite ground system, and determine if any impairment exists with
           remaining ground system costs that may not benefit the NPP program.
       •   Improve the process to identify and determine the financial statement impact of significant
           events or transactions, particularly those related to satellite programs, and ensure that
           accounting positions are based on standards.
       •   Continue to review the JPSS component cost analysis, and the overall JPSS program, to
           ensure that the impairment analysis is accurate, and reviewed annually until the program’s
           completion.
       •   Establish and implement stronger NOAA-wide policies and procedures for review and
           approval of IPAC payments, and work with NASA to ensure that sufficient documentation is
           received for all charges, to enable a determination of the nature of the charge and the period
           of performance.
       •   Work with NASA to analyze costs incurred subsequent to recent satellite additions, to
           determine if such costs should have been capitalized, rather than expensed.

       Management’s Response

       The Department concurs. We will develop corrective action plans and ensure timely
       implementation to address KPMG’s recommendations.




 286
                                          F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    INDEPENDENT AUDITORS’ REPORT




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit II – Significant Deficiency

                Information Technology Security, Access, and Configuration Management Controls Need
                Improvement

                Information security is recognized as a top management challenge for the U.S. Department of
                Commerce. For several years, the Department’s Office of Inspector General (OIG), and
                departmental self-assessments have identified weaknesses in the Department’s information
                technology (IT) and financial systems controls. We noted that over the past two years, the
                bureaus and the Department took steps to implement management, operational, and technical
                controls to help establish sound information security practices and address known weaknesses.

                While we saw significant improvements in IT controls the prior year, new deficiencies were
                identified during fiscal year 2012 that require management’s attention.

                Our fiscal year 2012 IT assessment was focused on the IT general controls over the
                Department’s major financial management systems and supporting network infrastructure, using
                the Government Accountability Office’s (GAO’s) Federal Information System Controls Audit
                Manual (FISCAM). The IT general controls that we consider to be, collectively, a significant
                deficiency under standards issued by the American Institute of Certified Public Accountants and
                Government Auditing Standards, and our related findings, are as follows:

                •   Security management controls. An information security management program is the
                    foundation of a security control structure and a reflection of senior management’s
                    commitment to addressing security risks. The security management program should
                    establish a framework and continuous cycle of activity for assessing risk, developing and
                    implementing effective security policies and procedures, establishing and monitoring security
                    controls over activities performed by external third parties, remediating security weaknesses,
                    and monitoring the effectiveness of the overall security management program.

                    A cyber security incident affecting one bureau’s systems was identified in December 2011
                    and confirmed in January 2012. The security incident, while ultimately determined to be
                    isolated to that one bureau, nonetheless posed a security risk to the Department as a whole.
                    Further, the deficiency caused all of the affected bureau’s systems to be disconnected from
                    the Department’s network and required various accounting and mission activities to be
                    performed manually for several months. We determined that the impact to financial systems
                    was not substantial, because the affected bureau uses other Commerce bureaus to process the
                    majority of its accounting transactions. Nevertheless, this matter was an interruption of
                    service that will requires assessment to ensure that this matter is resolved and that similar
                    issues do not occur at other Commerce bureaus.

                    Additionally, during fiscal year 2012, we noted areas where security management controls
                    should be improved at one of the bureaus tested, primarily in the areas of: (1) improving




                                                                                                                     287
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       Exhibit II – Significant Deficiency, Continued

           certification and accreditation as well as security plan documentation, and (2) ensuring
           compliance with annual role-based training.

       •   Access controls. In close concert with an organization’s security management, access
           controls for general support systems and applications should provide reasonable assurance
           that computer resources such as data files, application programs, and computer-related
           facilities and equipment are protected against unauthorized modification, disclosure, loss, or
           impairment. Access controls are facilitated by an organization’s entity-wide security
           program. Such controls include physical controls and logical controls, such as keeping
           computers in locked rooms to limit physical access, and logical controls, such as security
           software programs designed to prevent or detect unauthorized access to sensitive files.
           Inadequate access controls diminish the reliability of computerized data and increase the risk
           of destruction or inappropriate disclosure of information.

           The objectives of limiting access are to ensure that users have only the access needed to
           perform their duties; that access to very sensitive resources, such as security software
           programs, is limited to few individuals; and that employees are restricted from performing
           incompatible functions or functions beyond their responsibility. This is reiterated by Federal
           guidelines. For example, OMB Circular A-130 and supporting the National Institute of
           Standards and Technology (NIST) Special Publications provide guidance related to the
           maintenance of technical access controls. In addition, the Department of Commerce IT
           Security Program Policy contains many requirements for operating Department IT devices in
           a secure manner.

           During fiscal year 2012, we noted that access controls should be improved at all of the
           bureaus tested, primarily in the areas of: (1) managing user accounts to appropriately disable
           and recertify network, financial system, database and operating system accounts, (2)
           improving logical controls over financial application, database, and operating system access,
           (3) strengthening password controls, (4) improving data center recertification procedures, (5)
           ensuring compliance with audit log review requirements, (6) enforcing multi-factor
           authentication, and (7) preventing the use of shared database and operating system accounts
           and passwords. We recognize that the Department and its bureaus have certain compensating
           controls in place to help reduce the risk of the identified weaknesses, and we considered
           those compensating controls as part of our overall consolidated financial statement audit.

       •   Configuration management. Configuration management involves the identification and
           management of security features for all hardware, software, and firmware components of an
           information system at a given point and systematically controls configuration changes
           throughout the system’s life cycle. Establishing controls over modifications to information
           system components and related documentation helps to ensure that only authorized systems
           and related program modifications are implemented. This is accomplished by instituting
           policies, procedures, and techniques to help ensure that hardware, software and firmware




 288
                                         F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    INDEPENDENT AUDITORS’ REPORT




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit II – Significant Deficiency, Continued

                   programs and program modifications are properly authorized, tested, and approved, and that
                   access to and distribution of programs is carefully controlled. Without proper controls, there
                   is a risk that security features could be inadvertently or deliberately omitted or turned off, or
                   that processing irregularities or malicious code could be introduced into the IT environment.

                   During fiscal year 2012, we noted that configuration management controls should be
                   improved at all of the bureaus tested, primarily in the areas of: (1) addressing patch and
                   configuration management vulnerabilities, (2) use of a non-vendor supported system, (3)
                   improving configuration and change management procedures and approval documentation,
                   (4) ensuring vulnerability scans are performed in accordance with Department policy, and (5)
                   system baseline configurations are documented. We recognize that the Department and its
                   bureaus have certain compensating controls in place to help reduce the risk of the identified
                   weaknesses, and we considered those compensating controls as part of our overall
                   consolidated financial statement audit.

                Recommendations

                Specific recommendations are included in a separate limited distribution IT general controls
                report, issued as part of the fiscal year 2012 consolidated financial statement audit. The
                Department should monitor bureau actions to ensure effective implementation of our
                recommendations and to ensure continued compliance with the Federal Financial Management
                Improvement Act of 1996.

                Management’s Response

                The Department concurs. We will develop corrective action plans and ensure timely
                implementation of the recommendations presented in the separate limited distribution IT general
                controls report.




                                                                                                                       289
F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       Exhibit III – Status of Prior Year Significant Deficiency


                Reported                                      Prior Year                         Fiscal Year
                 Issue                                     Recommendation                        2012 Status
       Accounting for NOAA Satellites Construction Costs Needs Improvement
       Internal control deficiencies   •   Clarify the CWIP guidance and procedures             Open – see
       over the accounting for             regarding the accrual of estimated costs for         Material
       NOAA satellites construction        satellites declared operational, and ensure that     Weakness in
       costs.                              completed CWIP projects are transferred into         Exhibit I.
                                           PP&E timely.
                                       •   Ensure that CWIP activity managers receive
                                           appropriate training regarding NOAA’s CWIP
                                           capitalization policies, to ensure that non-
                                           capitalizable costs, such as concept studies,
                                           designs, and other pre-acquisition costs, are not
                                           included in CWIP.
                                       •   Ensure that a thorough review of CWIP
                                           reconciliations is performed.
                                       •   Implement the planned procedures to ensure
                                           that the manager’s review and approval of
                                           IPAC payments to NASA are documented
                                           properly.
                                       •   Improve procedures for conducting a detailed
                                           review of recorded satellite CWIP balances,
                                           including analysis of components/costs, to
                                           determine if any costs incurred should be
                                           written off as impairment charges when
                                           components are not used in the final satellite
                                           configuration.
                                       •   Improve the process to identify and determine
                                           the financial statement impact of significant
                                           events or transactions related to the satellite
                                           program.




 290
                                           F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A ppendices
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                 P E R F O R M A N C E A N D R E S O U R C E TA B L E S




 T 
        o make the report more useful, this FY 2012 Performance and Accountability Report (PAR) reports on targets and
        measures from the FY 2012 Annual Performance Plan (APP)—exhibit 3A of each bureau’s budget. Measures have
        been modified to incorporate any changes made to the FY 2012 budget that appear in the FY 2013 budget. Individual
bureau-specific APPs can be found on the Department Web site at http://www.osec.doc.gov/bmi/budget/budgetsub_perf_
strategicplans.htm. The resource tables with the performance tables are also combined to make the information easier
to follow.

The following tables provide an array of financial and FTE information from FY 2007 to FY 2012, covering a period of five fiscal
years where the information is available. It also covers performance information as far back as FY 2000 where the information
is available. The information should help the reader clearly understand the resources expended for each Theme, Strategic Goal,
and Performance Objective.

The system of reporting does not currently allow the Department to report on resources at the performance measure level but
it is the Department’s hope to develop this capability in the future. For a given year, it is important to note that if a performance
measure has been exceeded (more than 125 percent of target), the status box for that year will be shaded blue. If a performance
measure has been met (100 to 125 percent of target), the box is shaded green. The status box for a measure that was slightly
below target (95 to 99 percent of the target) is shaded yellow, while the box for a measure that was definitely not met is shaded
red. In addition, for FY 2008 OMB introduced a new category, “Improved but not met.” In those cases, the box is shaded
orange. No targets that were in the form of text (e.g., a series of milestones met) would ever be considered exceeded since
they can’t be quantified.

The information in the tables will follow the following format:

●● Strategic Theme and Resources
●● Strategic Goal and Resources
●● Objective and Resources
●● Performance Measure


Note: Unless otherwise indicated, measures that do not have FY 2012 targets are not included in any count in this document.
FY 2012 resources for each performance objective may be estimates and may be updated in the budget for FY 2014. FY 2011
resources may have been updated since the FY 2011 PAR.

Target and performance data are tracked back to FY 2000 where available. If a measure was developed after FY 2003, actual
performance data is shown back to the year that the measure first appeared. In FY 2012, there are a few rare cases where
measures are new for FY 2012 (i.e., this is the first time they appear in the PAR), and thus targets for only FY 2012 data; however,
the bureau may have actual data for prior years. In these cases, the status for these measures for the prior years is listed as
“N/A”—Not applicable.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 293
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Below the table of data for each measure is a note concerning the historical trend for that measure from when it first appeared
to FY 2012. Historical trends are noted only for those measures which have at least three years of actual data. Trends are
given scores on a scale of +2 (positive) to -2 (negative). A score of zero reflects a stable trend and is often an indicator of a
standard/maintenance measure, i.e., a measure that has an annual target/standard that the bureau seeks to achieve each year
that doesn’t change. Since a zero usually reflects a maintain standards measure, a zero score for a trend should be considered
a good score, i.e., the dividing line between good and bad in determining trends is between zero and -1.

These trends come with some caveats:

First, for the EDA measures, Jobs created/retained, and Investment leveraged, the targets are dependent on the financing
for that particular year which can vary widely. If the funding went down from one year to the next, the target went down to
reflect the decrease in funding. While results or targets may appear to reflect trends (either positive or negative), because they
are dependent on the funding of a given year, any perceived trends are not reliable and not an indicator or either increased or
decreased performance. Furthermore, because investments are provided to different projects, the results of these investments
may vary considerably from year to year. Therefore, these measures are designated as those that have no trend due to volatility
of funding.

Second, while an actual may exceed a target for a given year, that improvement might not be reflected in the following year’s
target. Through the course of the budget process, once a bureau knows the result of a given year, the next fiscal year has
already started with (hopefully), the enacted amount for that year already established. Since the Department has a policy not
to allow bureaus to change targets once a given year has started (unless the enacted level is significantly different from the
President’s budget level), the target for the subsequent year (e.g., 2010 – 2011) might not reflect any improvement in the prior
year. Any changes in targets resulting from improved performance would be reflected in the subsequent year (i.e., actual = 2010,
change in target reflected in 2012). The Department implemented this so as to prevent a bureau from changing any targets
during the current year if it discovered during the year it wasn’t going to meet a given target.

FTE = Full-time equivalent employment. All dollar amounts shown are in millions, unless otherwise indicated.




  294                                           F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 1: ECONOMIC GROWTH
                                                    ECONOMIC GROWTH TOTAL RESOURCES
                                                           (Dollars in Millions)
                         FY 2007               FY 2008               FY 2009              FY 2010           FY 2011             FY 2012
                         Actual                Actual                Actual               Actual            Actual              Actual
 Funding                 $4,581.5             $4,607.2               $4,973.0             $8,295.6          $4,159.0           $4,271.5
 FTE                      14,002               14,390                 15,044               14,959            15,700             16,010



STRATEGIC GOAL – INNOVATION AND ENTREPRENEURSHIP: Develop the tools, systems, policies,
and technologies critical to transforming our economy, fostering U.S. competitiveness, and driving the
development of new businesses

                                          INNOVATION AND ENTREPRENEURSHIP TOTAL RESOURCES
                                                          (Dollars in Millions)
                         FY 2007               FY 2008               FY 2009              FY 2010           FY 2011            FY 2012
                         Actual                Actual                Actual               Actual            Actual             Actual
 Funding                 $3,766.3             $3,799.7               $4,055.3             $7,388.1          $3,249.8          $3,283.8
 FTE                      11,398               11,925                 12,610               12,517            13,180            13,531



OBJECTIVE 1: Improve intellectual property protection by reducing patent pendency, maintaining trademark pendency, and
increasing the quality of issued patents and trademarks (USPTO)

                                                         OBJECTIVE 1 TOTAL RESOURCES
                                                              (Dollars in Millions)
                         FY 2007               FY 2008               FY 2009              FY 2010           FY 2011            FY 2012
                         Actual                Actual                Actual               Actual            Actual             Actual
 Funding                 $1,698.0             $1,806.8               $1,813.2             $1,890.3          $2,111.7          $2,329.6
 FTE                      7,970                8,821                  9,455                9,286             9,869             10,342


                                                         USPTO PERFORMANCE MEASURE
                                                    MEASURE: Patent quality composite rate
    Year           Status                                 Actual                                                Target
   FY 2012        Exceeded                                 72.4                                                 48-56
 Trend: This is a new measure and there is not enough data to establish a trend.




F Y   2 0 1 2   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                          295
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        USPTO PERFORMANCE MEASURE
                                                MEASURE: Patent first action pendency (months)
    Year            Status                               Actual                                                    Target
   FY 2012           Met                                   21.9                                                     22.6
   FY 2011      Slightly Below                             28.0                                                     26.3
   FY 2010      Slightly Below                             25.7                                                     25.4
   FY 2009           Met                                   25.8                                                     27.5
   FY 2008           Met                                   25.6                                                     26.9
   FY 2007         Not Met                                 25.3                                                     23.7
   FY 2006      Slightly Below                             22.6                                                     22.0
   FY 2005           Met                                   21.1                                                     21.3
   FY 2004           Met                                   20.2                                                     20.2
   FY 2003           Met                                   18.3                                                     18.4
   FY 2002         Not Met                                 16.7                                                     14.7
   FY 2001         Not Met                                 14.4                                                     13.9
   FY 2002           Met                                   13.6                                                     14.2
 Trend: -2. Trends for targets and actuals are negative from FY 2000 to FY 2012. Patent pendency has increased over time in large part because of
 the increasing complexity and volume of patent applications that required more time to review. Note that in a most recent five-year analysis, the
 pendency trend line is becoming significantly more shallow.


                                                        USPTO PERFORMANCE MEASURE
                                                   MEASURE: Patent total pendency (months)
    Year            Status                               Actual                                                    Target
   FY 2012           Met                                   32.4                                                     34.7
   FY 2011           Met                                   33.7                                                     34.8
   FY 2010      Slightly Below                             35.3                                                     34.8
   FY 2009           Met                                   34.6                                                     37.9
   FY 2008           Met                                   32.2                                                     34.7
   FY 2007           Met                                   31.9                                                     33.0
   FY 2006           Met                                   31.1                                                     31.3
   FY 2005           Met                                   29.1                                                     31.0
   FY 2004           Met                                   27.6                                                     29.8
   FY 2003           Met                                   26.7                                                     27.7
   FY 2002           Met                                   24.0                                                     26.5
   FY 2001           Met                                   24.7                                                     26.2
   FY 2000           Met                                   25.0                                                     26.2
 Trend: -2. Trends for targets and actuals are negative from FY 2000 to FY 2012. Patent pendency has increased over time in large part because of
 the increasing complexity and volume of patent applications that required more time to review. Note that in a most recent five-year analysis, the
 pendency trend line is becoming significantly more shallow.




  296                                                F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         USPTO PERFORMANCE MEASURE
                                                 MEASURE: Patent applications filed electronically
    Year            Status                                 Actual                                                  Target
   FY 2012            Met                                  97.1%                                                   96.0%
   FY 2011            Met                                  93.1%                                                   92.0%
   FY 2010       Slightly Below                            89.5%                                                   90.0%
   FY 2009            Met                                  82.4%                                                   80.0%
   FY 2008            Met                                  71.7%                                                   69.0%
   FY 2007            Met                                  49.3%                                                   40.0%
   FY 2006         Exceeded                                14.2%                                                   10.0%
                 Improved but
   FY 2005         Not Met                                  2.2%                                                   4.0%

                 Improved but
   FY 2004         Not Met                                  1.5%                                                   2.0%

   FY 2003          Not Met                                 1.3%                                                   2.0%
 Trend: +2. Target and actual trends are significantly positive from FY 2003 to FY 2012.


                                                         USPTO PERFORMANCE MEASURE
                                                 MEASURE: Trademark first action compliance rate
    Year            Status                                 Actual                                                  Target
   FY 2012            Met                                  96.2%                                                   95.5%
   FY 2011            Met                                  96.5%                                                   95.5%
   FY 2010            Met                                  96.6%                                                   95.5%
   FY 2009            Met                                  96.4%                                                   95.5%
   FY 2008            Met                                  95.8%                                                   95.5%
   FY 2007            Met                                  95.9%                                                   95.5%
   FY 2006            Met                                  95.7%                                                   93.5%
   FY 2005            Met                                  95.3%                                                   92.5%
   FY 2004            Met                                  92.1%                                                   91.7%
 Trend: +2. Target and actual trends are positive from FY 2004 to FY 2012.


                                                         USPTO PERFORMANCE MEASURE
                                                    MEASURE: Trademark final compliance rate
    Year            Status                                 Actual                                                  Target
   FY 2012            Met                                  97.1%                                                   97.0%
   FY 2011            Met                                  97.0%                                                   97.0%
   FY 2010       Slightly Below                            96.8%                                                   97.0%
   FY 2009            Met                                  97.6%                                                   97.0%
 Trend: 0. The target trend has remained stable. The actual trend has a slight variance. Limited amount of data.




F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                        297
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         USPTO PERFORMANCE MEASURE
                                               MEASURE: Trademark first action pendency (months)
    Year            Status                                Actual                                                Target
   FY 2012           Met                                    3.2                                                 2.5-3.5
   FY 2011           Met                                    3.1                                                 2.5-3.5
   FY 2010           Met                                    3.0                                                 2.5-3.5
   FY 2009           Met                                    2.7                                                 2.5-3.5
   FY 2008           Met                                    3.0                                                 2.5-3.5
   FY 2007           Met                                    2.9                                                   3.7
   FY 2006           Met                                    4.8                                                   5.3
   FY 2005           Met                                    6.3                                                   6.4
   FY 2004         Not Met                                  6.6                                                   5.4
   FY 2003         Not Met                                  5.4                                                   3.0
   FY 2002         Not Met                                  4.3                                                   3.0
   FY 2001         Exceeded                                 2.7                                                   6.6
   FY 2000         Not Met                                  5.7                                                   4.5
 Trend: +2. Target and actual trends are positive from FY 2000 to FY 2012.


                                                         USPTO PERFORMANCE MEASURE
                   MEASURE: Trademark average total pendency (months), excluding suspended and inter partes proceedings
    Year            Status                                Actual                                                Target
   FY 2012           Met                                   10.2                                                  12.0
   FY 2011           Met                                   10.5                                                  12.5
   FY 2010           Met                                   10.5                                                  13.0
   FY 2009           Met                                   11.2                                                  13.0
 Trend: +1. Target and actual trends are slightly positive. Limited amount of data.


                                                         USPTO PERFORMANCE MEASURE
                                           MEASURE: Trademark applications processed electronically
    Year            Status                                Actual                                                Target
   FY 2012           Met                                  77.0%                                                 74.0%
   FY 2011           Met                                  73.0%                                                 68.0%
   FY 2010           Met                                  68.1%                                                 65.0%
   FY 2009           Met                                  62.0%                                                 62.0%
 Trend: +2. Target and actual trends are positive from FY 2009 to FY 2012.




  298                                                F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




OBJECTIVE 2: Expand international markets for U.S. firms and inventors by improving the protection and enforcement if
intellectual property rights (USPTO)

                                                                OBJECTIVE 2 TOTAL RESOURCES
                                                                     (Dollars in Millions)
                           FY 2007                   FY 2008                FY 2009             FY 2010              FY 2011          FY 2012
                           Actual                    Actual                 Actual              Actual               Actual           Actual
 Funding                    $68.4                       $45.7                $43.2               $48.7                $49.2            $45.1
 FTE                         321                         141                  138                 145                  122              127


                                                                USPTO PERFORMANCE MEASURE
                    MEASURE: Percentage of prioritized countries that have implemented at least 75% of action steps in the
                    country-specific action plans toward progress along following dimensions:
                                    1.	   Institutional improvements of IP office administration for advancing IPR
                                    2.	   Institutional improvements of IP enforcement entities
                                    3.	   Improvements in IP laws and regulations
                                    4.	   Establishment of government-to-government cooperative mechanisms
    Year           Status                                        Actual                                                 Target
   FY 2012           Met                                          75%                                                    75%
   FY 2011        Exceeded                                       100%                                                    75%
   FY 2010        Exceeded                                        75%                                                    50%
 Trend: Not enough data to establish a trend.



OBJECTIVES 3, 6, and 7

The following 10 measures associated with EDA overlap among the following three different objectives. A crosswalk of these
measures appears after this list followed by the histories of each. While Objective 6 has no other measures other than the ones
noted in this list, Objective 7 has separate measures that don’t overlap with the other objectives.

●● OBJECTIVE 3: Stimulate high-growth business formation and entrepreneurship through investing in high-risk, high-reward
   technologies and by removing impediments to accelerate technology commercialization (EDA)

●● OBJECTIVE 6: Promote the advancement of sustainable technologies, industries, and infrastructure (EDA)

●● OBJECTIVE 7: Promote the vitality and competitiveness of our communities and businesses, particularly those that are
   disadvantaged or in distressed areas (EDA, MBDA)




F Y   2 0 1 2   P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                                299
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                              EDA PERFORMANCE MEASURE
                                       Performance Measure                                             Objective 3       Objective 6       Objective 7
 Private investment leveraged – 9 year totals (in millions)                                                 3                    3             3
 Private investment leveraged – 6 year totals (in millions)                                                 3                    3             3
 Private investment leveraged – 3 year totals (in millions)                                                 3                    3             3
 Jobs created/retained – 9 year totals                                                                      3                    3             3
 Jobs created/retained – 6 year totals                                                                      3                    3             3
 Jobs created/retained – 3 year totals                                                                      3                    3             3
 Percentage of Economic Development Districts (EDD) and Indian tribes implementing projects
 from the Comprehensive Economic Development Strategy (CEDS) that lead to private investment                3                                  3
 and jobs
 Percentage of sub-state jurisdiction members actively participating in the Economic
                                                                                                            3                                  3
 Development District program
 Percentage of University Center clients taking action as a result of University Center assistance          3                                  3
 Percentage of those actions taken by University Center clients that achieve the expected results           3                                  3



OBJECTIVE 3: Stimulate high-growth business formation and entrepreneurship through investing in high-risk, high-reward
technologies and by removing impediments to accelerate technology commercialization (EDA)

                                                              OBJECTIVE 3 TOTAL RESOURCES
                                                                   (Dollars in Millions)
                             FY 2007             FY 2008                FY 2009              FY 2010               FY 2011               FY 2012
                             Actual1             Actual                 Actual               Actual                Actual                Actual
 Funding                     $215.5               $198.2                $248.6               $202.5                  $198.6                $57.1
 FTE                          404                  151                   152                  173                     171                   53
 1	ForFY 2007, NIST data is associated with the NIST Advanced Technology Program (ATP) which was discontinued in FY 2007. However, since the
  funding amounts factor into the total for this objective, strategic goal, and theme, this PAR shows these amounts for informational purposes. FY 2008
  – FY 2012 reflects amounts for the NIST Technology Innovation Program (TIP). The final FY 2012 enacted appropriations did not provide funding for TIP
  and the program is currently implementing a closeout using TIP carryover balances, a transfer of $600 thousand from NIST’s Scientific and Technical
  Research and Services account approved by Congress, and deobligations. A complete closeout of the program using these funds is expected by the
  end of FY 2014. TIP’s measures have been discontinued; however, the measures and targets for previous years appear in the FY 2011 PAR.


For the following six measures, nine year totals reflect the results of FY 2003 investments, six year totals equal results of FY 2006
investments, and three year totals equal results of FY 2009 investments.

                                                              EDA PERFORMANCE MEASURE
                                         MEASURE: Private investment leveraged – 9 year totals (in millions)
     Year             Status                                  Actual                                                    Target
   FY 2012           Not Met                                  $1,6201                                                   $1,810
   FY 2011           Exceeded                                 $3,960                                                    $1,940
   FY 2010             Met                                    $2,758                                                    $2,410
   FY 2009             Met                                    $2,210                                                    $2,040
   FY 2008           Exceeded                                 $4,173                                                    $2,080
   FY 2007           Exceeded                                 $1,937                                                    $1,350
   FY 2006           Exceeded                                 $2,331                                                    $1,162
 Trend: Annual targets are funding based which varies from year to year. Trends cannot be established based on data.
 1	Estimates   as of November 15, 2012. EDA expects to meet or be slightly below the targets with the release of final performance data.


  300                                                  F Y   2 0 1 2    P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y       R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           EDA PERFORMANCE MEASURE
                                         MEASURE: Private investment leveraged – 6 year totals (in millions)
    Year              Status                               Actual                                                    Target
   FY 2012             Met                                  $6621                                                    $662
   FY 2011           Exceeded                               $1,617                                                   $674
   FY 2010           Exceeded                               $2,281                                                   $824
   FY 2009             Met                                  $855                                                     $810
   FY 2008           Exceeded                               $1,393                                                   $970
   FY 2007           Exceeded                               $2,118                                                   $1,200
   FY 2006             Met                                  $1,059                                                   $1,020
   FY 2005           Exceeded                               $1,781                                                   $1,040
   FY 2004           Exceeded                               $1,740                                                   $650
   FY 2003           Exceeded                               $2,475                                                   $581
 Trend: Annual targets are funding based which varies from year to year. Trends cannot be established based on data.
 1	Estimates   as of November 15, 2012. EDA expects to meet the target with the release of final performance data.


                                                           EDA PERFORMANCE MEASURE
                                         MEASURE: Private investment leveraged – 3 year totals (in millions)
    Year              Status                               Actual                                                    Target
   FY 2012           Not Met                                $4371                                                    $490
   FY 2011           Exceeded                               $1,475                                                   $245
   FY 2010           Exceeded                               $1,544                                                   $259
   FY 2009           Exceeded                               $484                                                     $265
   FY 2008           Exceeded                               $1,013                                                   $270
   FY 2007           Exceeded                               $810                                                     $330
   FY 2006           Exceeded                               $1,669                                                   $320
   FY 2005           Exceeded                               $1,791                                                   $390
   FY 2004           Exceeded                               $947                                                     $480
   FY 2003           Exceeded                               $1,251                                                   $400
   FY 2002           Exceeded                               $640                                                     $420
   FY 2001           Exceeded                               $971                                                     $130
   FY 2000           Exceeded                               $199                                                     $116
 Trend: Annual targets are funding based which varies from year to year. Trends cannot be established based on data.
 1	Estimates   as of November 15, 2012. EDA expects to meet the target with the release of final performance data.




F Y   2 0 1 2     P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                         301
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           EDA PERFORMANCE MEASURE
                                                   MEASURE: Jobs created/retained – 9 year totals
    Year              Status                               Actual                                                    Target
   FY 2012            Not Met                              45,8001                                                   52,700
   FY 2011         Slightly Below                           56,058                                                   57,800
   FY 2010            Not Met                               66,527                                                   72,000
   FY 2009            Not Met                               45,866                                                   56,500
   FY 2008              Met                                 57,701                                                   56,900
   FY 2007           Exceeded                               73,559                                                   54,000
   FY 2006              Met                                 50,546                                                   50,400
 Trend: Annual targets are funding based which varies from year to year. Trends cannot be established based on data.
 1	Estimates   as of November 15, 2012. EDA expects to meet the target with the release of final performance data.


                                                           EDA PERFORMANCE MEASURE
                                                   MEASURE: Jobs created/retained – 6 year totals
    Year              Status                               Actual                                                    Target
   FY 2012         Slightly Below                          17,4581                                                   17,548
   FY 2011           Exceeded                               26,416                                                   18,193
   FY 2010              Met                                 26,695                                                   22,497
   FY 2009              Met                                 24,533                                                   22,900
   FY 2008              Met                                 30,719                                                   28,900
   FY 2007           Exceeded                               49,806                                                   36,000
   FY 2006           Exceeded                               42,958                                                   28,200
   FY 2005           Exceeded                               47,374                                                   28,400
   FY 2004           Exceeded                               68,109                                                   27,000
   FY 2003           Exceeded                               47,607                                                   25,200
 Trend: Annual targets are funding based which varies from year to year. Trends cannot be established based on data.
 1	Estimates   as of November 15, 2012. EDA expects to meet the target with the release of final performance data.




  302                                                  F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            EDA PERFORMANCE MEASURE
                                                    MEASURE: Jobs created/retained – 3 year totals
    Year              Status                                Actual                                                   Target
   FY 2012         Slightly Below                           11,1831                                                  11,269
   FY 2011           Exceeded                               14,842                                                   6,256
   FY 2010           Exceeded                                9,159                                                   6,628
   FY 2009           Exceeded                                9,137                                                   7,019
   FY 2008           Exceeded                               14,819                                                   7,227
   FY 2007           Exceeded                               16,274                                                   8,999
   FY 2006           Exceeded                               11,833                                                   9,170
   FY 2005           Exceeded                               19,672                                                   11,500
   FY 2004           Exceeded                               21,901                                                   14,400
   FY 2003           Exceeded                               39,841                                                   11,300
   FY 2002           Exceeded                               29,912                                                   11,300
   FY 2001           Exceeded                               12,898                                                   5,400
   FY 2000           Exceeded                               12,056                                                   5,040
 Trend: Annual targets are funding based which varies from year to year. Trends cannot be established based on data.
 1	Estimates   as of November 15, 2012. EDA expects to meet the target with the release of final performance data.

The following four measures apply to Objectives 3 and 7, but not Objective 6.


                                                            EDA PERFORMANCE MEASURE
                  MEASURE: Percentage of Economic Development Districts (EDD) and Indian tribes implementing projects from the
                        Comprehensive Economic Development Strategy (CEDS) that lead to private investment and jobs
    Year              Status                                Actual                                                   Target
   FY 2012            Not Met                                90%                                                      95%
   FY 2011            Not Met                                86%                                                      95%
   FY 2010            Not Met                                89%                                                      95%
   FY 2009         Slightly Below                            93%                                                      95%
   FY 2008         Slightly Below                            92%                                                      95%
   FY 2007              Met                                  95%                                                      95%
   FY 2006              Met                                  96%                                                      95%
   FY 2005              Met                                  97%                                                      95%
   FY 2004              Met                                  97%                                                      95%
   FY 2003              Met                                  99%                                                      95%
 Trend: -1. The actual trend varies slightly while the target trend is stable.




F Y   2 0 1 2     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                          303
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           EDA PERFORMANCE MEASURE
           MEASURE: Percentage of sub-state jurisdiction members actively participating in the Economic Development District program
    Year             Status                                Actual                                                       Target
   FY 2012       Slightly Below                             87%                                                          89%
   FY 2011       Slightly Below                             85%                                                          89%
   FY 2010       Slightly Below                             87%                                                     89-93%
   FY 2009            Met                                   92%                                                     89-93%
   FY 2008            Met                                   90%                                                     89-93%
   FY 2007            Met                                   92%                                                     89-93%
   FY 2006            Met                                   90%                                                     89-93%
   FY 2005            Met                                   91%                                                     89-93%
   FY 2004            Met                                   90%                                                     89-93%
   FY 2003            Met                                   97%                                                     89-93%
   FY 2002            Met                                   95%                                                          93%
   FY 2001            Met                                   92%                                                          85%
   FY 2000            Met                                   91%                                                          75%
 Trend: 0. The actual and target trends are stable, with a slight dip in actuals from 2010-2012.


                                                           EDA PERFORMANCE MEASURE
                    MEASURE: Percentage of University Center clients taking action as a result of University Center assistance
    Year             Status                                Actual                                                       Target
   FY 2012          Not Met                                 70%                                                          75%
   FY 2011          Not Met                                 68%                                                          75%
   FY 2010            Met                                   76%                                                          75%
   FY 2009          Not Met                                 70%                                                          75%
   FY 2008            Met                                   80%                                                          75%
   FY 2007            Met                                   84%                                                          75%
   FY 2006            Met                                   76%                                                          75%
   FY 2005            Met                                   79%                                                          75%
   FY 2004            Met                                   78%                                                          75%
   FY 2003            Met                                   78%                                                          75%
 Trend: -1. The target trend is stable. The actual trend was stable from 2003 to 2008 and negative from 2008 to 2012.




  304                                                 F Y   2 0 1 2    P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             EDA PERFORMANCE MEASURE
                  MEASURE: Percentage of those actions taken by University Center clients that achieve the expected results
    Year            Status                                   Actual                                                 Target
   FY 2012           Met                                      82%                                                    80%
   FY 2011           Met                                      83%                                                    80%
   FY 2010           Met                                      90%                                                    80%
   FY 2009           Met                                      92%                                                    80%
   FY 2008           Met                                      84%                                                    80%
   FY 2007           Met                                      89%                                                    80%
   FY 2006           Met                                      82%                                                    80%
   FY 2005           Met                                      87%                                                    80%
   FY 2004           Met                                      88%                                                    80%
   FY 2003           Met                                      86%                                                    80%
 Trend: 0. Actual and target trends are stable.



OBJECTIVE 4: Drive innovation by supporting an open global Internet and through communications and broadband policies
that enable robust infrastructure, ensure integrity of the system, and support e-commerce (NTIA)

                                                            OBJECTIVE 4 TOTAL RESOURCES
                                                                 (Dollars in Millions)
                           FY 2007                FY 2008               FY 2009             FY 2010             FY 2011              FY 2012
                           Actual                 Actual                Actual              Actual              Actual               Actual
 Funding                   $1,122.0               $989.7                $1,137.9           $4,396.3             $118.7                $77.3
 FTE                         137                   141                    144                179                 168                   160


All of the measures for this objective had only two years of data, so no trends could be detected.


                                                             NTIA PERFORMANCE MEASURE
                                      MEASURE: Update the spectrum inventory first established in FY 2010
    Year            Status                                   Actual                                                 Target
   FY 2012           Met                                    Completed                                    Spectrum inventory update
   FY 2011           Met                                    Completed                                    Spectrum inventory update


                                                             NTIA PERFORMANCE MEASURE
                      MEASURE: Identify up to 500 MHz of spectrum to support commercial broadband services or products
    Year            Status                                   Actual                                                 Target
                                                                                            Meet 66% of milestones regarding the identification
   FY 2012        Exceeded                                    85%
                                                                                            of 500 MHz for wireless broadband
   FY 2011           Met                                    Completed                                      Complete identification




F Y   2 0 1 2   P E R F O R M A N C E     A N D      A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                               305
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NTIA PERFORMANCE MEASURE
                                       MEASURE: Miles of broadband networks deployed (infrastructure projects)
    Year              Status                                Actual                                                  Target
   FY 2012           Exceeded                               72,1521                                                 50,000
   FY 2011           Exceeded                               29,191                                                  10,000
 1	As   of June 30, 2012. NTIA anticipates exceeding the targets with fourth quarter data.


                                                            NTIA PERFORMANCE MEASURE
                                      MEASURE: Community anchor institutions connected (infrastructure projects)
    Year              Status                                Actual                                                  Target
   FY 2012           Exceeded                               10,0451                                                 10,000
   FY 2011           Exceeded                                4,163                                                   3,000
 1	As   of June 30, 2012. NTIA anticipates exceeding the targets with fourth quarter data.


                                                            NTIA PERFORMANCE MEASURE
                                MEASURE: New and upgraded computer workstations (public computer centers projects)
    Year              Status                                Actual                                                  Target
   FY 2012           Exceeded                               36,3471                                                 35,000
   FY 2011           Exceeded                               24,512                                                  10,000
 1	As   of June 30, 2012. NTIA anticipates exceeding the targets with fourth quarter data.


                                                            NTIA PERFORMANCE MEASURE
                    MEASURE: New household and business subscribers to broadband (sustainable broadband adoption projects)
    Year              Status                                Actual                                                  Target
   FY 2012           Exceeded                               388,6791                                                350,000
   FY 2011           Exceeded                               230,755                                                 25,000
 1	As   of June 30, 2012. NTIA anticipates exceeding the targets with fourth quarter data.



OBJECTIVE 5: Provide measurement tools and standards to strengthen manufacturing, enable innovation, and increase
efficiency (NIST)

                                                            OBJECTIVE 5 TOTAL RESOURCES
                                                                 (Dollars in Millions)
                            FY 2007               FY 2008               FY 2009              FY 2010             FY 2011                FY 2012
                            Actual                Actual                Actual               Actual              Actual1                Actual1
 Funding                    $662.4                $759.3                $812.4               $850.3              $771.6                 $774.7
 FTE                        2,566                 2,671                  2,721                2,734               2,850                 2,849
 1	Funding and FTE exclude no-year Health and Human Services (HHS) transfer for Health IT under the American Recovery and Reinvestment Act for

  FY 2011 and FY 2012.




  306                                                   F Y   2 0 1 2   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                       A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NIST PERFORMANCE MEASURE
                             MEASURE: Qualitative assessment and review of technical quality and merit using peer review
    Year              Status                               Actual                                                  Target
   FY 2012             Met                               Completed                                       Complete annual peer review
   FY 2011             Met                               Completed                                       Complete annual peer review
   FY 2010             Met                               Completed                                       Complete annual peer review
   FY 2009             Met                               Completed                                       Complete annual peer review
   FY 2008             Met                               Completed                                       Complete annual peer review
   FY 2007             Met                               Completed                                       Complete annual peer review
   FY 2006             Met                               Completed                                       Complete annual peer review
   FY 2005             Met                               Completed                                       Complete annual peer review
   FY 2004             Met                               Completed                                       Complete annual peer review
   FY 2003             Met                               Completed                                       Complete annual peer review
   FY 2002             Met                               Completed                                       Complete annual peer review
   FY 2001             Met                               Completed                                       Complete annual peer review
   FY 2000             Met                               Completed                                       Complete annual peer review
 Trend: 0. This is a maintain standards measure. Actual and target trends are stable.


                                                           NIST PERFORMANCE MEASURE
                                               MEASURE: Citation impact of NIST-authored publications
    Year              Status                               Actual                                                  Target
   FY 2012             Met                                  >   1.11                                                > 1.1
   FY 2011             Met                                  > 1.1                                                   > 1.1
   FY 2010             Met                                  > 1.1                                                   > 1.1
   FY 2009             Met                                  > 1.1                                                   > 1.1
   FY 2008             Met                                  > 1.1                                                   > 1.1
   FY 2007             Met                                  > 1.1                                                   > 1.1
 Trend: 0. This is a maintain standards measure. Actual and target trends are stable.
 1	Actual   for this measure lags nine months. The actual shown here is based on FY 2011 data.




F Y   2 0 1 2     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                           307
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          NIST PERFORMANCE MEASURE
                                            MEASURE: Peer-reviewed technical publications produced
    Year            Status                                Actual                                                     Target
   FY 2012           Met                                   1,335                                                     1,210
   FY 2011         Not Met                                 1,210                                                     1,350
   FY 2010      Slightly Below                             1,243                                                     1,300
   FY 2009           Met                                   1,463                                                     1,275
   FY 2008           Met                                   1,271                                                     1,100
   FY 2007           Met                                   1,272                                                     1,100
   FY 2006           Met                                   1,163                                                     1,100
   FY 2005           Met                                   1,148                                                     1,100
   FY 2004         Not Met                                 1,070                                                     1,300
 Trend: +1. The actual trend is slightly positive since 2004, while the target trend has remained somewhat stable.


                                                          NIST PERFORMANCE MEASURE
                                               MEASURE: Standard Reference Materials (SRM) sold
    Year            Status                                Actual                                                     Target
   FY 2012           Met                                  33,441                                                     31,000
   FY 2011           Met                                  32,864                                                     31,000
   FY 2010           Met                                  31,667                                                     31,000
   FY 2009      Slightly Below                            29,769                                                     31,000
   FY 2008           Met                                  33,373                                                     31,000
   FY 2007           Met                                  32,614                                                     30,000
   FY 2006           Met                                  31,195                                                     30,000
   FY 2005           Met                                  32,163                                                     29,500
   FY 2004           Met                                  30,490                                                     29,500
 Trend: +2. Both the target and actual trends are positive from FY 2004 to FY 2011.




  308                                                 F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          NIST PERFORMANCE MEASURE
                                                  MEASURE: NIST-maintained datasets downloaded
    Year            Status                                Actual                                                     Target
   FY 2012         Exceeded                              22,567,416                                               18,000,0001
   FY 2011         Not Met                               19,100,000                                                24,500,000
   FY 2010           Met                                24,956,0001                                               24,500,0001
   FY 2009           Met                                226,000,000                                               200,000,000
   FY 2008         Exceeded                             195,500,000                                               130,000,000
   FY 2007         Exceeded                             130,000,000                                                80,000,000
   FY 2006           Met                                 94,371,001                                                80,000,000
   FY 2005           Met                                 93,305,136                                                80,000,000
   FY 2004         Exceeded                              73,601,352                                                56,000,000
 Trend: +2. From FY 2004 to FY 2009 there was clear positive trends for both actuals and targets. While the target declined from FY 2011 to FY 2012,
 the aforementioned explanation states why. There is no reason not to expect a positive trend.
 1	Beginningin FY 2010, NIST has revised the methodology for this measure by excluding the hundreds of millions of annual downloads associated
  with Web-based, time-related services which dominated the total number of downloads in previous years. This adjusted measure will more
  clearly demonstrate the use of NIST’s other online datasets covering scientific and technical databases throughout the NIST laboratories.
  The lower FY 2012 target reflected that beginning in FY 2011, NIST filtered out Web robot index searches from the count to more accurately reflect
  customer interest.


                                                          NIST PERFORMANCE MEASURE
                                                  MEASURE: Number of calibration tests performed
    Year            Status                                Actual                                                     Target
   FY 2012           Met                                   17,206                                                    14,000
   FY 2011         Exceeded                                18,195                                                    9,700
   FY 2010           Met                                   17,697                                                    15,000
   FY 2009           Met                                   18,609                                                    15,000
   FY 2008         Exceeded                                25,944                                                    12,000
   FY 2007         Exceeded                                27,489                                                    12,000
 Trend: -1. While actuals declined from FY 2007 to FY 2011, the target trend remained relatively stable.




F Y   2 0 1 2   P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                               309
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




STRATEGIC GOAL – MARKET DEVELOPMENT AND COMMERCIALIZATION: Foster market
opportunities that equip businesses and communities with the tools they need to expand, creating
quality jobs with special emphasis on unserved and underserved groups

                                 MARKET DEVELOPMENT AND COMMERCIALIZATION TOTAL RESOURCES
                                                     (Dollars in Millions)
                       FY 2007            FY 2008                  FY 2009           FY 2010             FY 2011                 FY 2012
                       Actual             Actual                   Actual            Actual              Actual                  Actual
 Funding               $356.9              $334.1                  $424.0            $382.5               $370.7                 $446.4
 FTE                    486                 457                     449               502                  483                    526



OBJECTIVE 6: Promote the advancement of sustainable technologies, industries, and infrastructure (EDA)

                                                      OBJECTIVE 6 TOTAL RESOURCES
                                                           (Dollars in Millions)
                       FY 2007            FY 2008                  FY 2009           FY 2010             FY 2011                 FY 2012
                       Actual             Actual                   Actual            Actual              Actual                  Actual
 Funding                N/A                $10.4                    $16.0             $28.9               $19.0                  $26.7
 FTE                    N/A                  6                        6                15                  14                     12


The measures associated with this objective also apply to Objectives 3 and 7. The histories of these measures appear under
Objective 3.


OBJECTIVE 7: Promote the vitality and competitiveness of our communities and businesses, particularly those that are
disadvantaged or in distressed areas (EDA, MBDA)

                                                      OBJECTIVE 7 TOTAL RESOURCES
                                                           (Dollars in Millions)
                       FY 2007            FY 2008                  FY 2009           FY 2010             FY 2011                 FY 2012
                       Actual             Actual                   Actual            Actual              Actual                  Actual
 Funding               $189.9              $186.5                  $242.4            $172.3               $170.8                 $234.4
 FTE                    176                 154                     160               181                  195                    229


Several of the EDA measures associated with this objective also apply to Objectives 3 and 6. The histories of these measures
appear under Objective 3. The following measures are unique to Objective 7 and are associated with EDA and MBDA.




  310                                              F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                  A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         EDA PERFORMANCE MEASURE
 MEASURE: Percentage of Trade Adjustment Assistance Center (TAAC) clients taking action as a result of the assistance facilitated by the TAACs
    Year            Status                               Actual                                                    Target
   FY 2012         Not Met                                 85%                                                      90%
   FY 2011         Not Met                                 73%                                                      90%
   FY 2010         Not Met                                 82%                                                      90%
   FY 2009      Slightly Below                             88%                                                      90%
   FY 2008           Met                                   92%                                                      90%
   FY 2007           Met                                   99%                                                      90%
   FY 2006           Met                                   90%                                                      90%
   FY 2005           Met                                   99%                                                      90%
   FY 2004           Met                                   90%                                                      90%
   FY 2003           Met                                   92%                                                      90%
 Trend: -1. This is a maintain standards measure. The target trend has been stable. However, the recent actual trend has been negative leading
 to a -1 rating.


                                                         EDA PERFORMANCE MEASURE
         MEASURE: Percentage of those actions taken by Trade Adjustment Assistance Center clients that achieved the expected results
    Year            Status                               Actual                                                    Target
   FY 2012           Met                                  100%                                                      95%
   FY 2011           Met                                  100%                                                      95%
   FY 2010           Met                                  100%                                                      95%
   FY 2009      Slightly Below                             93%                                                      95%
   FY 2008           Met                                   95%                                                      95%
   FY 2007           Met                                   99%                                                      95%
   FY 2006           Met                                   96%                                                      95%
   FY 2005           Met                                   97%                                                      95%
   FY 2004           Met                                   98%                                                      95%
   FY 2003           Met                                   98%                                                      95%
 Trend: 0. This is a maintain standards measure. The target trend has remained stable while the actual trend has been slightly positive.




F Y   2 0 1 2   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                           311
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        MBDA PERFORMANCE MEASURE
                                          MEASURE: Dollar value of contract awards obtained (billions)
    Year            Status                                Actual                                                   Target
   FY 2012           Met                                  $1.16                                                     $1.10
   FY 2011        Exceeded                                $2.14                                                     $1.10
   FY 2010        Exceeded                                $1.69                                                     $1.00
   FY 2009        Exceeded                                $2.12                                                     $0.90
   FY 2008           Met                                  $0.91                                                     $0.90
   FY 2007        Exceeded                                $1.20                                                     $0.85
   FY 2006        Exceeded                                $1.17                                                     $0.85
   FY 2005        Exceeded                                $1.10                                                     $0.80
   FY 2004           Met                                  $0.95                                                     $0.80
   FY 2003         Not Met                                $0.70                                                     $1.00
   FY 2002        Exceeded                                $1.30                                                     $1.00
   FY 2001        Exceeded                                $1.60                                                     $0.70
   FY 2000        Exceeded                                $1.20                                                     $0.60
 Trend: +2. Both the target and actual trends have increased.


                                                        MBDA PERFORMANCE MEASURE
                                          MEASURE: Dollar value of financial awards obtained (billions)
    Year            Status                                Actual                                                   Target
   FY 2012        Exceeded                                $1.56                                                     $0.90
   FY 2011        Exceeded                                $1.82                                                     $0.90
   FY 2010        Exceeded                                $2.26                                                     $0.60
   FY 2009        Exceeded                                $0.91                                                     $0.50
   FY 2008        Exceeded                                $1.09                                                     $0.50
   FY 2007           Met                                  $0.55                                                     $0.45
   FY 2006         Not Met                                $0.41                                                     $0.45
   FY 2005           Met                                  $0.50                                                     $0.45
   FY 2004        Exceeded                                $0.60                                                     $0.40
   FY 2003           Met                                  $0.40                                                     $0.40
   FY 2002           Met                                  $0.40                                                     $0.40
   FY 2001         Not Met                                $0.60                                                     $1.00
   FY 2000         Not Met                                $0.20                                                     $0.90
 Trend: +2. Target trend has remained relatively stable, while the actual trend has increased.




  312                                                F Y   2 0 1 2   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            MBDA PERFORMANCE MEASURE
                                                  MEASURE: Number of new job opportunities created
     Year             Status                                Actual                                                   Target
   FY 2012              Met                                   5,331                                                   5,000
   FY 2011           Exceeded                                 5,787                                                   4,300
   FY 2010           Exceeded                                 6,397                                                   4,000
   FY 2009           Exceeded                                 4,134                                                   3,000
   FY 2008           Exceeded                                 4,603                                                   3,000
   FY 2007           Exceeded                                 3,506                                                   2,050
   FY 2006           Exceeded                                 4,254                                                   1,800
   FY 2005           Exceeded                                 2,270                                                   1,800
 Trend: +2. Both the target and actual trends are positive.



OBJECTIVE 8: Improve the competitiveness of small and medium-sized firms in manufacturing and service industries (ITA, NIST)

                                                            OBJECTIVE 8 TOTAL RESOURCES1
                                                                 (Dollars in Millions)
                              FY 2007             FY 2008               FY 2009              FY 2010             FY 2011               FY 2012
                              Actual              Actual                Actual               Actual              Actual                Actual
 Funding                      $167.0              $137.2                 $165.6               $181.3              $180.9               $185.3
 FTE                           310                 297                    283                  306                 274                  285
 1	NIST’sperformance actuals for the following three measures lag at least six months: Increased Sales, Capital Investment, and Cost Savings.
  Therefore, beginning with the FY 2005 PAR, NIST shifted to a format in which NIST reports actuals for these measures one year later. This date lag,
  coupled with the time line for producing the PAR, precludes the reporting of actual FY 2012 data for these three measures. With the exception of
  the number of clients, the NIST data reported in the current year PAR are an estimate based on three-quarters of actual client reported impacts
  and one-quarter estimated client impacts.


                                                             ITA PERFORMANCE MEASURE
                                        MEASURE: Exports generated annually from public/private partnerships
     Year             Status                                Actual                                                   Target
   FY 2012              Met                                  $1.7B1                                                   $1.9B
   FY 2011           Exceeded                                 $2.4B                                                   $86M
   FY 2010              N/A                                   $86M                                                    N/A
   FY 2009              N/A                                   $74M                                                    N/A
   FY 2008              N/A                                  $132M                                                    N/A
   FY 2007              N/A                                  $208M                                                    N/A
 Trend: 0. This is a relatively new measure, however actuals are available to FY 2007. Actuals tended to decline in the first four years then rose
 substantially in the last two years.
 1	Results   as of June 30, 2012. Once final numbers are in, ITA expects to meet or exceed the target.




F Y   2 0 1 2     P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                 313
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          ITA PERFORMANCE MEASURE
           MEASURE: Annual cost savings resulting from the adoption of MAS recommendations contained in MAS studies and analysis
    Year            Status                                Actual                                                    Target
   FY 2012          Not Met                                   $0M                                                   $250M
   FY 2011         Exceeded                               $1.8B                                                     $350M
   FY 2010         Exceeded                               $647M                                                     $350M
   FY 2009         Exceeded                               $552M                                                     $350M
   FY 2008         Exceeded                               $455M                                                     $350M
   FY 2007         Exceeded                               $413M                                                     $168M
   FY 2006          Not Met                               $287M                                                     $350M
 Trend: +2. The target trend has been stable while the actual trend is positive. FY 2012 is an anomaly with an explanation provided in the
 performance section.


                                                         NIST PERFORMANCE MEASURE
                              MEASURE: Number of clients served by Hollings MEP centers receiving federal funding
    Year            Status                                Actual                                                    Target
   FY 2012       Slightly Below                           32,123                                                    32,500
   FY 2011            Met                                 33,838                                                    30,000
   FY 2010            Met                                 34,299                                                    29,000
   FY 2009         Exceeded                               32,926                                                    25,500
   FY 2008         Exceeded                               31,961                                                    14,500
   FY 2007         Exceeded                               28,004                                                    21,237
   FY 2006         Exceeded                               24,722                                                    16,440
   FY 2005       Slightly Below                           16,448                                                    16,640
   FY 2004         Exceeded                               16,090                                                     6,517
   FY 2003            Met                                 18,422                                                    16,684
 Trend: +2. The target and actual trends are both positive.




  314                                                F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NIST PERFORMANCE MEASURE
                                 MEASURE: Increased sales attributed to Hollings MEP centers receiving federal funding
    Year              Status                                Actual                                                  Target
   FY 2012           Exceeded                    $2,700M from FY 2011   funding1                         $2,000M from FY 2011 funding
   FY 2011           Exceeded                     $3,600M from FY 2010 funding                           $2,500M from FY 2010 funding
   FY 2010           Exceeded                     $3,500M from FY 2009 funding                           $2,000M from FY 2009 funding
   FY 2009           Exceeded                     $3,610M from FY 2008 funding                           $630M from FY 2008 funding
   FY 2008           Exceeded                     $5,600M from FY 2007 funding                           $630M from FY 2007 funding
   FY 2007           Exceeded                     $3,100M from FY 2006 funding                           $591M from FY 2006 funding
   FY 2006           Exceeded                     $2,842M from FY 2005 funding                           $591M from FY 2005 funding
   FY 2005           Exceeded                     $1,889M from FY 2004 funding                           $228M from FY 2004 funding
   FY 2004           Exceeded                     $1,483M from FY 2003 funding                           $522M from FY 2003 funding
   FY 2003           Exceeded                     $953M from FY 2002 funding                             $728M from FY 2002 funding
   FY 2002            Not Met                     $636M from FY 2001 funding                             $708M from FY 2001 funding
   FY 2001              Met                       $698M from FY 2000 funding                             $670M from FY 2000 funding
   FY 2000         Slightly Below                 $425M from FY 1999 funding                             $443M from FY 1999 funding
 Trend: +2. The FY 2012 estimate was lower than in the previous years, but it remained above the target. Overall, the target and actual trends are
 both positive.
 1	Estimate   as of June 30, 2012.


                                                            NIST PERFORMANCE MEASURE
                                MEASURE: Capital investment attributed to Hollings MEP centers receiving federal funding
    Year              Status                                Actual                                                  Target
   FY 2012           Exceeded                    $2,600M from FY 2011 funding1                           $1,100M from FY 2011 funding
   FY 2011           Exceeded                     $1,900M from FY 2010 funding                           $1,000M from FY 2010 funding
   FY 2010           Exceeded                     $1,900M from FY 2009 funding                           $1,000M from FY 2009 funding
   FY 2009           Exceeded                     $1,710M from FY 2008 funding                           $485M from FY 2008 funding
   FY 2008           Exceeded                     $2,190M from FY 2007 funding                           $955M from FY 2007 funding
   FY 2007           Exceeded                     $1,650M from FY 2006 funding                           $740M from FY 2006 funding
   FY 2006           Exceeded                     $2,248M from FY 2005 funding                           $740M from FY 2005 funding
   FY 2005           Exceeded                     $941M from FY 2004 funding                             $285M from FY 2004 funding
   FY 2004           Exceeded                     $912M from FY 2003 funding                             $559M from FY 2003 funding
   FY 2003              Met                       $940M from FY 2002 funding                             $910M from FY 2002 funding
   FY 2002            Not Met                     $680M from FY 2001 funding                             $913M from FY 2001 funding
   FY 2001              Met                       $873M from FY 2000 funding                             $864M from FY 2000 funding
   FY 2000           Exceeded                     $576M from FY 1999 funding                             $359M from FY 1999 funding
 Trend: +2. The target and actual trends are both positive.
 1	Estimate   as of June 30, 2012.




F Y   2 0 1 2     P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                              315
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NIST PERFORMANCE MEASURE
                                   MEASURE: Cost savings attributed to Hollings MEP centers receiving federal funding
    Year              Status                                Actual                                                  Target
   FY 2012            Not Met                     $966M from FY 2011    funding1                          $1,100M from FY 2011 funding
   FY 2011              Met                       $1,300M from FY 2010 funding                            $1,200M from FY 2010 funding
   FY 2010           Exceeded                     $1,300M from FY 2009 funding                            $1,000M from FY 2009 funding
   FY 2009           Exceeded                     $1,410M from FY 2008 funding                            $330M from FY 2008 funding
   FY 2008           Exceeded                     $1,440M from FY 2007 funding                            $521M from FY 2007 funding
   FY 2007           Exceeded                     $1,100M from FY 2006 funding                            $405M from FY 2006 funding
   FY 2006           Exceeded                     $1,304M from FY 2005 funding                            $405M from FY 2005 funding
   FY 2005           Exceeded                     $721M from FY 2004 funding                              $156M from FY 2004 funding
   FY 2004           Exceeded                     $586M from FY 2003 funding                              $353M from FY 2003 funding
   FY 2003           Exceeded                     $681M from FY 2002 funding                              $497M from FY 2002 funding
   FY 2002            Not Met                     $442M from FY 2001 funding                              $576M from FY 2001 funding
   FY 2001            Not Met                     $482M from FY 2000 funding                              $545M from FY 2001 funding
 Trend: +2. The FY 2012 estimate was lower than in previous years, and below the target. Overall, targets and actuals varied, but increased
 significantly from FY 2001.
 1	Estimate   as of June 30, 2012.



STRATEGIC GOAL – TRADE PROMOTION AND COMPLIANCE: Improve our global competitiveness
and foster domestic job growth while protecting American security

                                               TRADE PROMOTION AND COMPLIANCE TOTAL RESOURCES
                                                              (Dollars in Millions)
                              FY 2007             FY 2008                FY 2009            FY 2010              FY 2011                FY 2012
                              Actual              Actual                 Actual             Actual               Actual                 Actual
 Funding                      $458.3               $473.4                 $493.7            $525.0               $535.5                 $541.3
 FTE                          2,118                2,008                   1,985             1,940                2,035                 1,953



OBJECTIVE 9: Increase U.S. export value through trade promotion, market access, compliance, and interagency
collaboration (including support for small and medium enterprises) (ITA)

                                                            OBJECTIVE 9 TOTAL RESOURCES
                                                                 (Dollars in Millions)
                              FY 2007             FY 2008                FY 2009            FY 2010              FY 2011                FY 2012
                              Actual              Actual                 Actual             Actual               Actual                 Actual
 Funding                      $263.0               $273.4                 $283.1            $296.3               $331.2                 $350.2
 FTE                          1,202                1,151                   1,120             1,051                1,176                 1,198




  316                                                   F Y   2 0 1 2     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           ITA PERFORMANCE MEASURE
                                           MEASURE: Commercial diplomacy success (cases) (annual)
    Year            Status                                 Actual                                                 Target
   FY 2012        Exceeded                                    215                                                   152
   FY 2011        Exceeded                                    243                                                   172
   FY 2010         Not Met                                    112                                                   166
   FY 2009           Met                                      196                                                   162
   FY 2008           Met                                      181                                                   160
 Trend: +2. The target and actual trends are both positive.


                                                           ITA PERFORMANCE MEASURE
                                            MEASURE: Ratio of US&FCS export value to US&FCS costs
    Year            Status                                 Actual                                                 Target
   FY 2012        Exceeded                                    $387                                                 $140


                                                           ITA PERFORMANCE MEASURE
                                                MEASURE: Number of clients assisted by US&FCS
    Year            Status                                 Actual                                                 Target
   FY 2012         Not Met                                 18,945                                                  20,709
   FY 2011           Met                                   20,143                                                  19,723
   FY 2010           N/A                                   18,784                                                   N/A


                                                           ITA PERFORMANCE MEASURE
                                      MEASURE: Dollar value of U.S. export content in advocacy cases won
    Year            Status                                 Actual                                                 Target
   FY 2012        Exceeded                                    $74B                                                 $19B


                                                           ITA PERFORMANCE MEASURE
                         MEASURE: Annual number of SMEs US&FCS assists exporting to a second or additional country
    Year            Status                                 Actual                                                 Target
   FY 2012           Met                                      3,444                                                3,307



OBJECTIVE 10: Implement an effective export control reform program to advance national security and economic
competitiveness (BIS)

                                                          OBJECTIVE 10 TOTAL RESOURCES
                                                               (Dollars in Millions)
                           FY 2007             FY 2008                  FY 2009             FY 2010            FY 2011            FY 2012
                           Actual              Actual                   Actual              Actual             Actual             Actual
 Funding                     $75.4                $74.9                  $83.7              $100.3             $102.9             $101.0
 FTE                          364                  353                    329                322                349                366




F Y   2 0 1 2   P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                            317
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          BIS PERFORMANCE MEASURE
                                 MEASURE: Percent of licenses requiring interagency referral referred within 9 days
    Year           Status                                 Actual                                                  Target
   FY 2012      Slightly Below                             97%                                                        98%
   FY 2011         Not Met                                 88%                                                        98%
   FY 2010      Slightly Below                             90%                                                        95%
   FY 2009           Met                                   99%                                                        95%
   FY 2008           Met                                   98%                                                        95%
   FY 2007           Met                                   98%                                                        95%
   FY 2006           Met                                   98%                                                        95%
 Trend: -1. This is a maintain standards measure. The target trend has remained stable while the actual trend was stable from 2000 to 2009 and
 then negative from 2009 to 2011, and then upward in FY 2012.


                                                          BIS PERFORMANCE MEASURE
                                      MEASURE: Median processing time for new regime regulations (months)
    Year           Status                                 Actual                                                  Target
   FY 2012           Met                                    2.0                                                       2.0
   FY 2011           Met                                    2.0                                                       2.0
   FY 2010           Met                                    3.0                                                       3.0
   FY 2009        Exceeded                                  2.0                                                       3.0
   FY 2008        Exceeded                                  2.0                                                       3.0
   FY 2007        Exceeded                                  2.0                                                       3.0
   FY 2006           Met                                    2.5                                                       3.0
   FY 2005        Exceeded                                  1.0                                                       3.0
   FY 2004        Exceeded                                  2.0                                                       3.0
   FY 2003         Not Met                                  7.0                                                       3.0
 Trend: 0. This is a maintain standards measure. Both the target and actual trends have remained stable.


                                                          BIS PERFORMANCE MEASURE
                                               MEASURE: Percent of attendees rating seminars highly
    Year           Status                                 Actual                                                  Target
   FY 2012           Met                                   93%                                                        93%
   FY 2011           Met                                   94%                                                        93%
   FY 2010           Met                                   94%                                                        85%
   FY 2009           Met                                   93%                                                        85%
   FY 2008           Met                                   93%                                                        85%
   FY 2007           Met                                   90%                                                        85%
   FY 2006           Met                                   90%                                                        85%
 Trend: +2. This appeared to be initially a maintain standards measure because the target trend remained stable from 2006 to 2010. However, the
 actual trend is positive leading to an increase in the target in 2011.




  318                                                 F Y   2 0 1 2   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          BIS PERFORMANCE MEASURE
  MEASURE: Percent of declarations received from U.S. industry in accordance with CWC regulations (time lines) that are processed, certified,
                     and submitted to the State Department in time so the United States can meet its treaty obligations
    Year            Status                                Actual                                                  Target
   FY 2012           Met                                      100%                                                 100%
   FY 2011           Met                                      100%                                                 100%
   FY 2010           Met                                      100%                                                 100%
   FY 2009           Met                                      100%                                                 100%
   FY 2008           Met                                      100%                                                 100%
   FY 2007           Met                                      100%                                                 100%
   FY 2006           Met                                      100%                                                 100%
 Trend: 0. This is a maintain standards measure. The target and actual trends have remained stable.


                                                          BIS PERFORMANCE MEASURE
                 MEASURE: Number of actions that result in a deterrence or prevention of a violation and cases which result in a
                                                   criminal and/or administrative charge
    Year            Status                                Actual                                                  Target
   FY 2012         Exceeded                                   1,162                                                 850
   FY 2011         Exceeded                                   1,073                                                 850
   FY 2010      Slightly Below                                806                                                   850
   FY 2009           Met                                      876                                                   850
   FY 2008         Exceeded                                   881                                                   675
   FY 2007         Exceeded                                   930                                                   450
   FY 2006         Exceeded                                   872                                                   350
   FY 2005         Exceeded                                   583                                                   275
   FY 2004           Met                                      310                                                   250
   FY 2003         Exceeded                                   250                                                   85
   FY 2002           Met                                       82                                                   75
   FY 2001           Met                                       81                                                   70
   FY 2000           Met                                       93                                                   80
 Trend: +2. Both the target and actual trends are positive.


                                                          BIS PERFORMANCE MEASURE
    MEASURE: Percent of shipped transactions in compliance with the licensing requirements of the Export Administration Regulations (EAR)
    Year            Status                                Actual                                                  Target
   FY 2012           Met                                      99%                                                  99%
   FY 2011           Met                                      99%                                                  99%
   FY 2010           Met                                      98%                                                  97%
   FY 2009           Met                                      96%                                                  95%
   FY 2008           Met                                      87%                                                  87%
 Trend: +2. Both the target and actual trends are positive.




F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                          319
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            BIS PERFORMANCE MEASURE
             MEASURE: Percentage of post-shipment verifications completed and categorized above the “unfavorable” classification
    Year            Status                                  Actual                                                     Target
   FY 2012       Slightly Below                         343 PSVs/87%                                               315 PSVs/90%
   FY 2011            Met                               382 PSVs/92%                                               315 PSVs/90%
   FY 2010            Met                               256 PSVs/93%                                               260 PSVs/85%
   FY 2009            Met                               314 PSVs/88%                                               260 PSVs/85%
   FY 2008            Met                               136 PSVs/93%                                               215 PSVs/80%
 Trend: 0. This is a maintain standards measure. The target and actual trends have remained stable with the actuals consistently meeting the targets.


                                                            BIS PERFORMANCE MEASURE
                                                  MEASURE: Number of end-use checks completed
    Year            Status                                  Actual                                                     Target
   FY 2012            Met                                     983                                                       850
   FY 2011            Met                                     891                                                       850
   FY 2010          Not Met                                   708                                                       850
   FY 2009          Not Met                                   737                                                       850
   FY 2008          Not Met                                   490                                                       850
   FY 2007            Met                                     854                                                       850
   FY 2006         Exceeded                                   942                                                       700
 Trend: 0. The target trend remained stable with the actual not having a trend, varying from year to year.


                                                            BIS PERFORMANCE MEASURE
                  MEASURE: Percent of industry assessments resulting in BIS determination, within three months of completion,
                                                    on whether to revise export controls
    Year            Status                                  Actual                                                     Target
   FY 2011            Met                                    100%                                                      100%
   FY 2011            Met                                    100%                                                      100%
   FY 2010            Met                                    100%                                                      100%
   FY 2009            Met                                    100%                                                      100%
   FY 2008            Met                                    100%                                                      100%
   FY 2007            Met                                    100%                                                      100%
   FY 2006            N/A                                    N/A1                                                      100%
 Trend: 0. This is a maintain standards measure. Both the target and actual trends have remained stable.
 1	No assessments fell within the metric timeframe in FY 2006.
                                                            BIS completed two industry assessments late in the fourth quarter of FY 2006, thus not
  meeting the three month window (before the end of the fiscal year) to make a final determination on revising export controls. This was the first
  year this measure was in place. Industry assessment data will be available in subsequent fiscal years.




  320                                                  F Y   2 0 1 2    P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




OBJECTIVE 11: Develop and influence international standards and policies to support the full and fair competitiveness of the
U.S. information and communications technology sector (NTIA)

                                                           OBJECTIVE 11 TOTAL RESOURCES
                                                                (Dollars in Millions)
                            FY 2007              FY 2008                 FY 2009           FY 2010              FY 2011              FY 2012
                            Actual               Actual                  Actual            Actual               Actual               Actual
 Funding                      $1.7                  $1.6                  $1.7              $1.9                  $2.3                $2.2
 FTE                           8                     8                     8                 8                     9                   8


                                                            NTIA PERFORMANCE MEASURE
                        MEASURE: Percent of NTIA positions substantially adopted or successful at international meetings
    Year             Status                                 Actual                                                  Target
   FY 2012            Met                                    >80%                                          75% adoption or success
   FY 2011         Exceeded                         95% adoption or success                                75% adoption or success



OBJECTIVE 12: Vigorously enforce U.S. fair trade laws through impartial investigation of complaints, improved access for
U.S. firms and workers, and fuller compliance with antidumping/countervailing duty remedies (ITA)

                                                           OBJECTIVE 12 TOTAL RESOURCES
                                                                (Dollars in Millions)
                            FY 2007              FY 2008                 FY 2009           FY 2010              FY 2011              FY 2012
                            Actual               Actual                  Actual            Actual               Actual               Actual
 Funding                    $118.2                $123.5                 $125.2            $126.5                $99.1               $87.9
 FTE                         544                   496                    528               559                   501                 381


                                                             ITA PERFORMANCE MEASURE
                            MEASURE: Percent of identified unfair trade practices affecting U.S. parties addressed through
                                                informal/formal intervention of dispute settlement
    Year             Status                                 Actual                                                  Target
   FY 2012            Met                                     27%                                                    20%
   FY 2011            Met                                     20%                                                    20%
   FY 2010            N/A                                     27%                                                    N/A
   FY 2009            N/A                                     20%                                                    N/A
   FY 2008            N/A                                     27%                                                    N/A
   FY 2007            N/A                                     60%                                                    N/A
 Trend: 0. Actuals have tended to be stable other than the first year.




F Y   2 0 1 2   P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                               321
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                              ITA PERFORMANCE MEASURE
                                  MEASURE: Number of new antidumping/countervailing duty petitioners counseled
    Year             Status                                   Actual                                                      Target
   FY 2012          Exceeded                                    77                                                          50
   FY 2011             N/A                                      153                                                        N/A
   FY 2010             N/A                                      44                                                         N/A
   FY 2009             N/A                                      71                                                         N/A
   FY 2008             N/A                                      52                                                         N/A
   FY 2007             N/A                                      78                                                         N/A
 Trend: 0. Since ITA did not include this as a PAR measure until FY 2012, ITA did not have targets prior to FY 2012. However, ITA did track actuals
 back to FY 2007. Actuals have varied widely with an average of 79, close to both the first and last years of data.


                                                              ITA PERFORMANCE MEASURE
                          MEASURE: Percent of industry-specific trade barriers addressed that were removed or prevented
    Year             Status                                   Actual                                                      Target
   FY 2012          Exceeded                                   37%                                                         20%
   FY 2011             Met                                     35%                                                         30%
   FY 2010             Met                                     35%                                                         30%
   FY 2009          Exceeded                                   30%                                                         20%
   FY 2008          Exceeded                                   29%                                                         15%
 Trend: +1. The target trend is stable. The actual trend is slightly positive.


                                                              ITA PERFORMANCE MEASURE
                                      MEASURE: Percent of industry-specific trade barrier milestones completed
    Year             Status                                   Actual                                                      Target
   FY 2012          Exceeded                                   72%                                                         55%
   FY 2011             Met                                     75%                                                         70%
   FY 2010          Exceeded                                   75%                                                         55%
   FY 2009          Exceeded                                   72%                                                         55%
   FY 2008          Exceeded                                   73%                                                         55%
   FY 2007           Not Met                                   54%                                                         85%
   FY 2006       Slightly Below                                81%                                                         85%
 Trend: 0. Difficult to determine a trend for both actuals and targets since variance occurs. Actual average is 72%, fairly close to most of the actuals,
 and the same as FY 2012. Target average is 66%.




  322                                                    F Y   2 0 1 2     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           ITA PERFORMANCE MEASURE
                                           MEASURE: Number of compliance and market cases initiated
     Year           Status                                 Actual                                                    Target
   FY 2012           Met                                    227                                                        210
   FY 2011           N/A                                    246                                                       N/A
   FY 2010           N/A                                    221                                                       N/A
   FY 2009           N/A                                    215                                                       N/A
   FY 2008           N/A                                    227                                                       N/A
   FY 2007           N/A                                    187                                                       N/A
 Trend: 0. Since ITA did not include this as a PAR measure until FY 2012, ITA did not have targets prior to FY 2012. However, ITA did track actuals
 back to FY 2007. Actuals tended to be stable with an average of 221.


                                                           ITA PERFORMANCE MEASURE
                                MEASURE: Number of compliance and market access cases resolved successfully1
     Year           Status                                 Actual                                                    Target
   FY 2012           Met                                     89                                                        80
   FY 2011           Met                                  51% (91)                                                    50%
   FY 2010           Met                                  58% (98)                                                    50%
   FY 2009         Exceeded                              61% (112)                                                    35%
   FY 2008           Met                                  39% (38)                                                    35%
   FY 2007         Exceeded                               54% (82)                                                    25%
 Trend: +1. The target trend is positive. The actual trend is somewhat stable–an average of 51%.
 1	Prior
       to FY 2012, ITA showed this measure as a percentage while tracking the number of cases. For comparative purposes to the FY 2012 target
  and actual, those numbers are included in parenthesis for the years prior to FY 2012.




F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                323
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 2: SCIENCE AND INFORMATION
STRATEGIC GOAL: Generate and communicate new, cutting-edge scientific understanding of technical,
economic, social, and environmental systems

                                                  SCIENCE AND INFORMATION TOTAL RESOURCES
                                                              (Dollars in Millions)
                            FY 2007             FY 2008                 FY 2009            FY 2010             FY 2011                 FY 2012
                            Actual              Actual                  Actual             Actual              Actual                  Actual
 Funding                    $3,775.0            $4,081.4                $6,420.4           $9,683.0            $4,670.4            $4,635.2
 FTE                         14,264              14,924                  33,962            101,419              18,787              17,056

This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.


OBJECTIVE 13: Increase scientific knowledge and provide information to stakeholders to support economic growth and to
improve innovation, technology, and public safety (NTIS, NTIA)

                                                           OBJECTIVE 13 TOTAL RESOURCES
                                                                (Dollars in Millions)
                            FY 2007             FY 2008                 FY 2009            FY 2010             FY 2011                 FY 2012
                            Actual              Actual                  Actual             Actual              Actual                  Actual
 Funding                    $419.2               $288.2                 $316.0             $364.3               $313.0                 $89.3
 FTE                         238                  235                    642                636                  666                    205


                                                              NTIS PERFORMANCE MEASURE
                                               MEASURE: Number of updated items available (annual)
    Year            Status                                    Actual                                               Target
   FY 2012            Met                                     978,871                                             875,000
   FY 2011            Met                                     836,579                                             825,000
   FY 2010         Exceeded                                   969,473                                             765,000
   FY 2009            Met                                     893,138                                             745,000
   FY 2008            Met                                     813,775                                             725,000
   FY 2007            Met                                     744,322                                             665,000
   FY 2006            Met                                     673,087                                             660,000
   FY 2005            Met                                     658,138                                             530,000
   FY 2004            Met                                     553,235                                             525,000
   FY 2003            Met                                     530,910                                             520,000
   FY 2002            Met                                     514,129                                             510,000
 Trend: +2. The target and actual trends are both positive.




  324                                                  F Y   2 0 1 2     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                       A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                              NTIS PERFORMANCE MEASURE
                                         MEASURE: Number of information products disseminated (annual)
    Year            Status                                    Actual                                                Target
   FY 2012            Met                                 54,592,481                                              49,878,000
   FY 2011            Met                                 48,958,993                                              47,800,000
   FY 2010         Exceeded                               50,333,206                                              33,000,000
   FY 2009         Exceeded                               49,430,840                                              32,850,000
   FY 2008            Met                                 32,267,167                                              32,100,000
   FY 2007            Met                                 32,027,113                                              27,100,000
   FY 2006            Met                                 30,616,338                                              27,000,000
   FY 2005            Met                                 26,772,015                                              25,800,000
   FY 2004         Exceeded                               25,476,424                                              18,000,000
   FY 2003         Exceeded                               29,134,050                                              17,000,000
   FY 2002            Met                                 16,074,862                                              16,000,000
 Trend: +2. The target and actual trends are both positive.


                                                              NTIS PERFORMANCE MEASURE
                                                          MEASURE: Customer satisfaction
    Year            Status                                    Actual                                                Target
   FY 2012            Met                                     98.4%                                                95-98%
   FY 2011            Met                                     99.5%                                                95-98%
   FY 2010            Met                                      98%                                                 95-98%
   FY 2009            Met                                      98%                                                 95-98%
   FY 2008            Met                                      96%                                                 95-98%
   FY 2007            Met                                      98%                                                 95-98%
   FY 2006            Met                                      98%                                                 95-98%
   FY 2005            Met                                      98%                                                   98%
   FY 2004       Slightly Below                                96%                                                   98%
   FY 2003       Slightly Below                                97%                                                   98%
   FY 2002            Met                                      98%                                                   97%
 Trend: 0. This is a maintain standards measure. The target and actual trends are both stable.


                                                              NTIA PERFORMANCE MEASURE
                                             MEASURE: Annual progress report on the Test-Bed program
    Year            Status                                    Actual                                                Target
   FY 2012            Met                             Published report                                       Publish annual report
   FY 2011            Met                             Published report                                       Publish annual report




F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                           325
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




OBJECTIVE 14: Enable informed decision-making through an expanded understanding of the U.S. economy, society, and
environment by providing timely, relevant, trusted, and accurate data, standards, and services (ESA/CENSUS, ESA/BEA, NOAA)

                                                               OBJECTIVE 14 TOTAL RESOURCES1
                                                                    (Dollars in Millions)
                             FY 2007                FY 2008                FY 2009             FY 2010               FY 2011               FY 2012
                             Actual                 Actual                 Actual              Actual                Actual                Actual
 Funding                   $2,380.9                 $2,800.8               $5,053.9            $8,225.5             $3,272.2             $3,447.6
 FTE                        8,954                    9,575                  28,282              95,689               13,050               11,797
 1	NOAA    had funding for this objective beginning in FY 2007 and FTE beginning in FY 2009.


                                                           ESA/CENSUS PERFORMANCE MEASURE
                     MEASURE: Produce timely, relevant, and accurate measures showing the dynamics of local job markets and
                                  identifying the changing structure of the U.S. economy and its effect on jobs
    Year              Status                                    Actual                                                  Target
                                       For states that provide wage records on schedule,        For states that provide wage records on schedule,
                                       Census Bureau produced Quarterly Workforce               Census Bureau will produce Quarterly Workforce
   FY 2012             Met
                                       Indicators for at least 90% of those states on time      Indicators for at least 90% of those states on time
                                       every quarter                                            every quarter


                                                           ESA/CENSUS PERFORMANCE MEASURE
                                                  MEASURE: Release monthly export statistics on schedule
    Year              Status                                    Actual                                                  Target
   FY 2012             Met                                       100%                                                    100%




  326                                                      F Y   2 0 1 2    P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                   A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                     ESA/CENSUS PERFORMANCE MEASURE
      MEASURE: Achieve pre-determined collection rates for Census Bureau censuses and surveys in order to provide statistically reliable
                          data to support effective decision-making of policymakers, businesses, and the public
    Year            Status                                Actual                                                    Target
                                 At least 80% of key censuses and surveys                   At least 90% of key censuses and surveys meet/exceed
   FY 2012         Not Met
                                 met/exceeded collection rates/levels of reliability        collection rates/levels of reliability
                                                                                            At least 90% of key censuses and surveys meet/exceed
   FY 2011           Met                             Met percentages
                                                                                            collection rates/levels of reliability
                                                                                            At least 90% of key censuses and surveys meet/exceed
   FY 2010           Met                             Met percentages
                                                                                            collection rates/levels of reliability
                                                                                            At least 90% of key censuses and surveys meet/exceed
   FY 2009           Met                             Met percentages
                                                                                            collection rates/levels of reliability
                                                                                            At least 90% of key censuses and surveys meet/exceed
   FY 2008           Met                             Met percentages
                                                                                            collection rates/levels of reliability.
                                                                                            At least 90% of key censuses and surveys meet/exceed
   FY 2007           Met                             Met percentages
                                                                                            collection rates/levels of reliability
                                                                                            At least 90% of key censuses and surveys meet/exceed
   FY 2006           Met                             Met percentages
                                                                                            collection rates/levels of reliability
   FY 2005           Met                             Met percentages                                      Various %s - see FY 2006 APP
   FY 2004           Met                             Met percentages                                      Various %s - see FY 2005 APP
   FY 2003           Met                             Met percentages                                      Various %s - see FY 2004 APP
   FY 2002           Met                                   100%                                                      100%
   FY 2001           Met                                   100%                                                      100%
   FY 2000           Met                                   100%                                                      100%
 Trend: 0. This is a maintain standards measure. The target and the actual trends have remained stable.




F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                           327
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                       ESA/CENSUS PERFORMANCE MEASURE
               MEASURE: Release data products for key Census Bureau programs on time to support effective decision-making of
                                                policymakers, businesses, and the public
    Year            Status                                 Actual                                                        Target
                                 ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2012           Met
                                 ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                 ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2011           Met
                                 ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                 ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2010           Met
                                 ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                 ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2009           Met
                                 ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                 ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2008           Met
                                 ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                 ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2007           Met         ●●   At least 90% of other key censuses and surveys data     ●●   At least 90% of other key censuses and surveys data
                                      released on time                                             released on time
                                 ●●   100% of Economic Indicators                             ●●   100% of Economic Indicators released on time
   FY 2006           Met         ●●   100% of other products                                  ●●   At least 90% of other key censuses and surveys data
                                                                                                   released on time
   FY 2005           Met                                 22 products                                                  22 products
   FY 2004         Exceeded                              10 products                                                  7 products
   FY 2003         Not Met                               2 products                                                   3 products
   FY 2002           Met                           Maintained FY 1999 time                                       Maintain FY 1999 time
   FY 2001           Met                           Maintained FY 1999 time                                       Maintain FY 1999 time
   FY 2000           Met                           Maintained FY 1999 time                                       Maintain FY 1999 time
 Trend: 0. This is a maintain standards measure. The target and the actual trends have remained stable.


                                                       ESA/CENSUS PERFORMANCE MEASURE
         MEASURE: Complete key activities for cyclical census programs on time to support effective decision-making by policymakers,
                               businesses, and the public and meet constitutional and legislative mandates
    Year            Status                                 Actual                                                        Target
   FY 2012           Met           At least 90% of key prep activities completed on time       At least 90% of key prep activities completed on time
   FY 2011           Met           At least 90% of key prep activities completed on time       At least 90% of key prep activities completed on time
   FY 2010           Met           At least 90% of key prep activities completed on time       At least 90% of key prep activities completed on time
   FY 2009           Met           At least 90% of key prep activities completed on time       At least 90% of key prep activities completed on time
                                       Some of the planned dress rehearsal activities
   FY 2008         Not Met                                                                     At least 90% of key prep activities completed on time
                                                      were cancelled
   FY 2007           Met               > 90% of key prep activities completed on time          At least 90% of key prep activities completed on time
   FY 2006           Met                    100% of activities completed on time               At least 90% of key prep activities completed on time
   FY 2005           Met                        Activities completed on time                             Various activities with different dates
 Trend: 0. This is a maintain standards measure. The target and the actual trends have remained stable.




  328                                                  F Y   2 0 1 2   P E R F O R M A N C E         A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                       ESA/CENSUS PERFORMANCE MEASURE
           MEASURE: Correct street features in TIGER (geographic) database (number of counties completed) to more effectively support
          Census Bureau censuses and surveys, facilitate the geographic partnerships between federal, state, local and tribal governments,
                                and support the E-Government initiative in the President’s Management Agenda1
        Year          Status                               Actual                                                    Target
   FY 2012             N/A                                   N/A                                                      N/A
   FY 2011             N/A                                   N/A                                                      N/A
                                            Increased TIGER update submissions                        Increase TIGER update submissions
   FY 2010          Exceeded
                                                   electronically by 51%                                     electronically by 10%
                                                                                               Complete updates to eligible counties in the United
   FY 2009             Met                                Complete
                                                                                                    States, Puerto Rico, and Island Areas
   FY 2008             Met                                   320                                                      320
   FY 2007             Met                                   737                                                      690
   FY 2006             Met                                   700                                                      700
   FY 2005             Met                                   623                                                      610
   FY 2004             Met                                   602                                                      600
   FY 2003             Met                                   250                                                      250
 1	This measure is associated with the 2010 Decennial Census so there are no targets for FY 2011 onward.   However, this measure will be updated in
  the future to reflect activities associated with the 2020 Decennial Census.


                                                         ESA/BEA PERFORMANCE MEASURE
               MEASURE: Timeliness: Reliability of delivery of economic data statistics (number of scheduled releases issued on time)
        Year          Status                               Actual                                                    Target
   FY 2012             Met                                    62                                                       62
   FY 2011             Met                                    62                                                       62
   FY 2010          Exceeded                                  61                                                       55
   FY 2009        Slightly Below                              56                                                       57
   FY 2008             Met                                   571                                                       58
   FY 2007             Met                                    54                                                       54
   FY 2006             Met                                    54                                                       54
   FY 2005             Met                                    54                                                       54
   FY 2004             Met                                    54                                                       54
   FY 2003             Met                                    48                                                       48
   FY 2002             Met                                    50                                                       50
 Trend: +1. Trends were largely stable with slight increases beginning in FY 2008.
 1	In
    FY 2008, the Annual Industry Accounts statistical release was rescheduled from December 13, 2007 to January 29, 2008, in order to include
  important information from the Census 2006 Annual Survey of Manufacturers (ASM). By delaying this release, BEA was able to provide a better
  product for BEA’s data users, so this measure was considered “Met.”




F Y   2 0 1 2    P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                               329
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         ESA/BEA PERFORMANCE MEASURE
                                    MEASURE: Relevance: Customer satisfaction (mean rating on a 5-point scale)
    Year              Status                                Actual                                                  Target
   FY 2012             Met                                   4.3                                                     > 4.0
   FY 2011             Met                                   4.1                                                     > 4.0
   FY 2010             Met                                   4.4                                                     > 4.0
   FY 2009             Met                                   4.2                                                     > 4.0
   FY 2008             Met                                   4.2                                                     > 4.0
   FY 2007             Met                                   4.3                                                     > 4.0
   FY 2006             Met                                   4.2                                                     > 4.0
   FY 2005             Met                                   4.4                                                     > 4.0
   FY 2004             Met                                   4.3                                                     > 4.0
   FY 2003             Met                                   4.4                                                     > 4.0
   FY 2002             Met                                   4.3                                                     > 4.0
   FY 2001             N/A                                   N/A1                                                    > 4.0
   FY 2000             Met                                   4.3                                                     > 4.0
 Trend: 0. This is a maintain standards measure. The target and the actual trends have remained stable.
 1	Due   to budget constraints, the FY 2001 survey was postponed until FY 2002.


                                                         ESA/BEA PERFORMANCE MEASURE
                                               MEASURE: Accuracy: Percent of GDP estimates correct
    Year              Status                                Actual                                                  Target
   FY 2012             Met                                   87%                                                    > 85%
   FY 2011             Met                                   89%                                                    > 85%
   FY 2010             Met                                   88%                                                    > 85%
   FY 2009             Met                                   88%                                                    > 85%
   FY 2008             Met                                   94%                                                    > 85%
   FY 2007             Met                                   93%                                                    > 85%
   FY 2006             Met                                   96%                                                    > 85%
   FY 2005             Met                                   96%                                                    > 85%
   FY 2004             Met                                   88%                                                    > 85%
   FY 2003             Met                                   88%                                                    > 85%
 Trend: 0. This is a maintain standards measure. The target and the actual trends have remained stable.




  330                                                  F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                   A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         ESA/BEA PERFORMANCE MEASURE
                       MEASURE: Complete all major strategic plan milestones related to improving the economic accounts1
    Year             Status                               Actual                                                      Target
   FY 2012             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2011             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2010             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2009             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2008             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2007             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2006             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2005             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2004             Met                    Completed all major milestones                          Completion of strategic plan milestones
   FY 2003             Met                    Completed all major milestones                          Completion of strategic plan milestones
 Trend: 0. This is a maintain standards measure. The target and the actual trends have remained stable.
 1	The   BEA Strategic Plan and a report card of completed milestones are available in “About BEA” on www.bea.gov.



OBJECTIVE 15: Improve weather, water, and climate reporting and forecasting (NOAA)

                                                         OBJECTIVE 15 TOTAL RESOURCES
                                                              (Dollars in Millions)
                             FY 2007           FY 2008               FY 2009               FY 2010                FY 2011              FY 2012
                             Actual            Actual                Actual                Actual                 Actual               Actual
 Funding                     $974.9             $992.4               $1,050.5              $1,093.2               $1,085.2            $1,098.3
 FTE                         5,072              5,114                 5,038                 5,094                  5,071               5,054


Beginning in FY 2008, NOAA shifted to a storm-based method of forecast as opposed to a county-based method. The reason
for this change was to reduce the area warned to provide more specific information to emergency responders and the public.
By reducing the area coverage of tornado and flash flood warnings, the emergency management community can more effectively
target mitigation and response efforts. This new storm-based verification methodology is more stringent and results in lower
metric scores for lead time and accuracy for flash floods and slightly lower scores for tornadoes. Performance data using this
new verification methodology was computed beginning in FY 2008 with tornado actuals and targets being reported from FY 2008
onward and flash flood actuals and targets being reported from FY 2010 onward.




F Y   2 0 1 2    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                 331
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NOAA PERFORMANCE MEASURE
                              MEASURE: Severe weather warnings for tornadoes (storm-based) – Lead time (minutes)1
     Year            Status                                  Actual                                                      Target
   FY 2012       Slightly Below                                122                                                         13
   FY 2011         Exceeded                                    15                                                          12
   FY 2010            Met                                      14                                                          12
   FY 2009       Slightly Below                                11                                                          12
   FY 2008         Exceeded                                    14                                                          11
   FY 2007            Met                                      14                                                          13
   FY 2006            Met                                      13                                                          13
   FY 2005            Met                                      13                                                          13
   FY 2004            Met                                      13                                                          12
   FY 2003            Met                                      13                                                          12
   FY 2002            Met                                      12                                                          11
   FY 2001          Not Met                                    10                                                          13
   FY 2000          Not Met                                    10                                                          12
 Trend: +1. The target trend has tended to be stable, while the actual trend varies, tending to be positive.
 1	Prior to FY 2008, these warnings were county-based rather than storm-based. Under the county-based system, targets and actuals tended to be
   slightly higher.
 2	Estimate




                                                            NOAA PERFORMANCE MEASURE
                                  MEASURE: Severe weather warnings for tornadoes (storm-based) – Accuracy (%)1
     Year            Status                                  Actual                                                      Target
   FY 2012       Slightly Below                               71%2                                                        72%
   FY 2011            Met                                     75%                                                         70%
   FY 2010            Met                                     71%                                                         70%
   FY 2009       Slightly Below                               65%                                                         69%
   FY 2008            Met                                     72%                                                         67%
   FY 2007            Met                                     80%                                                         75%
   FY 2006       Slightly Below                               75%                                                         76%
   FY 2005            Met                                     76%                                                         73%
   FY 2004            Met                                     75%                                                         72%
   FY 2003            Met                                     80%                                                         70%
   FY 2002            Met                                     76%                                                         69%
   FY 2001       Slightly Below                               67%                                                         68%
   FY 2000          Not Met                                   63%                                                         70%
 Trend: +2. The target trend has been stable, while the actual trend is positive.
 1	Prior to FY 2008, these warnings were county-based rather than storm-based. Under the county-based system, targets and actuals tended to be
   slightly higher.
 2	Estimate




  332                                                   F Y   2 0 1 2    P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NOAA PERFORMANCE MEASURE
                              MEASURE: Severe weather warnings for tornadoes (storm-based) – False alarm rate (%)1
     Year           Status                                  Actual                                                      Target
   FY 2012            Met                                    70%2                                                         72%
   FY 2011       Slightly Below                              73%                                                          72%
   FY 2010       Slightly Below                              74%                                                          72%
   FY 2009          Not Met                                  77%                                                          72%
   FY 2008            Met                                    74%                                                          74%
   FY 2007          Not Met                                  75%                                                          68%
   FY 2006          Not Met                                  79%                                                          69%
   FY 2005          Not Met                                  77%                                                          69%
                  Improved but
   FY 2004          Not Met                                  74%                                                          70%

   FY 2003          Not Met                                  76%                                                          70%
   FY 2002       Slightly Below                              73%                                                          71%
   FY 2001            Met                                    73%                                                          73%
   FY 2000          Not Met                                  76%                                                          65%
 Trend: +1. The target trend has been stable, while the actual trend is positive (for this measure, declining numbers reflect an upward trend).
 1	Prior to FY 2008, these warnings were county-based rather than storm-based. Under the county-based system, targets and actuals tended to be
   slightly higher.
 2	Estimate




                                                           NOAA PERFORMANCE MEASURE
                              MEASURE: Severe weather warnings for flash floods (storm-based) – Lead time (minutes)1
     Year           Status                                  Actual                                                      Target
   FY 2012         Exceeded                                   572                                                          42
   FY 2011         Exceeded                                   73                                                           38
   FY 2010         Exceeded                                   71                                                           38
   FY 2009         Exceeded                                   66                                                           49
   FY 2008         Exceeded                                   77                                                           49
   FY 2007         Exceeded                                   60                                                           48
   FY 2006            Met                                     49                                                           48
   FY 2005            Met                                     54                                                           48
                  Improved but
   FY 2004          Not Met                                   48                                                           50

   FY 2003          Not Met                                   41                                                           46
   FY 2002            Met                                     53                                                           45
   FY 2001            Met                                     46                                                           45
   FY 2000          Not Met                                   43                                                           55
 Trend: +2. Target trend tends to be stable, while the actual trend has been upward (for this measure), though dipping in FY 2012.
 1	Prior to FY 2010, these warnings were county-based rather than storm-based.    Under the county-based system, targets tended to be slightly higher.
 2	Estimate




F Y   2 0 1 2   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                  333
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NOAA PERFORMANCE MEASURE
                                 MEASURE: Severe weather warnings for flash floods (storm-based) – Accuracy (%)1
    Year              Status                                Actual                                                       Target
   FY 2012             Met                                    77%                                                         74%
   FY 2011             Met                                    79%                                                         72%
   FY 2010             Met                                    79%                                                         72%
   FY 2009             Met                                    91%                                                         90%
   FY 2008             Met                                    92%                                                         90%
   FY 2007             Met                                    90%                                                         89%
   FY 2006             Met                                    89%                                                         89%
   FY 2005             Met                                    89%                                                         89%
   FY 2004             Met                                    89%                                                         89%
   FY 2003             Met                                    89%                                                         87%
   FY 2002             Met                                    89%                                                         86%
   FY 2001             Met                                    86%                                                         86%
   FY 2000             Met                                    86%                                                         86%
 Trend: +2. While it appears that trends are negative, this is due to the change in methodology. In fact, the target trend has been stable, while the
 actual trend has been positive.
 1	Prior to FY 2010, these warnings were county-based rather than storm-based.     Under the county-based system, targets tended to be slightly higher.


                                                           NOAA PERFORMANCE MEASURE
                                         MEASURE: Hurricane forecast track error (48 hours) (nautical miles)1
    Year              Status                                Actual                                                       Target
   FY 2012           Exceeded                                 701                                                          84
   FY 2011           Exceeded                                  71                                                          106
   FY 2010           Exceeded                                  89                                                          107
   FY 2009           Exceeded                                  70                                                          108
   FY 2008           Exceeded                                  89                                                          110
   FY 2007           Exceeded                                  86                                                          110
   FY 2006             Met                                     97                                                          111
   FY 2005             Met                                    101                                                          128
   FY 2004           Exceeded                                  94                                                          129
   FY 2003             Met                                    107                                                          130
   FY 2002             Met                                    122                                                          142
 Trend: +2. Both the target and actual trends have been positive (for this measure, declining numbers reflect improved performance).
 1	Beginning   in FY 2007, NOAA reported the previous year’s results because data isn’t available until February.




  334                                                   F Y   2 0 1 2   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y       R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NOAA PERFORMANCE MEASURE
                                    MEASURE: Hurricane forecast intensity error (48 hours) (difference in knots)
    Year            Status                                  Actual                                                 Target
   FY 2012          Not Met                                  14.4                                                   13
   FY 2011          Not Met                                   14                                                    13
   FY 2010          Not Met                                   15                                                    13
   FY 2009          Not Met                                   18                                                    13
   FY 2008            Met                                     14                                                    14
 Trend: 0. Both the target and actual trends have been stable (even if the target hasn’t been met).


                                                           NOAA PERFORMANCE MEASURE
                                       MEASURE: Accuracy (%) (threat score) of day 1 precipitation forecasts
    Year            Status                                  Actual                                                 Target
   FY 2012            Met                                    32%                                                    31%
   FY 2011            Met                                    34%                                                    30%
   FY 2010            Met                                    35%                                                    30%
   FY 2009            Met                                    29%                                                    29%
   FY 2008            Met                                    33%                                                    29%
   FY 2007            Met                                    31%                                                    29%
   FY 2006            Met                                    30%                                                    28%
   FY 2005            Met                                    29%                                                    27%
   FY 2004            Met                                    29%                                                    25%
   FY 2003            Met                                    29%                                                    25%
   FY 2002         Exceeded                                  26%                                                    17%
  FY 2001           Not Met                                  19%                                                    22%
  FY 2000           Not Met                                  16%                                                    20%
 Trend: +2. Both target and actual trends are positive.




F Y   2 0 1 2   P E R F O R M A N C E      A N D     A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                         335
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             NOAA PERFORMANCE MEASURE
                                                MEASURE: Winter storm warnings – Lead time (hours)
    Year            Status                                    Actual                                                Target
   FY 2012          Not Met                                     18                                                    19
   FY 2011         Exceeded                                     20                                                    15
   FY 2010         Exceeded                                     21                                                    15
   FY 2009            Met                                       18                                                    16
   FY 2008            Met                                       17                                                    15
   FY 2007         Exceeded                                     18                                                    15
   FY 2006            Met                                       17                                                    15
   FY 2005            Met                                       17                                                    15
   FY 2004            Met                                       16                                                    14
   FY 2003            Met                                       14                                                    14
   FY 2002            Met                                       13                                                    13
  FY 2001             Met                                       13                                                    13
  FY 2000           Not Met                                      9                                                    12
 Trend: +2. Both target and actual trends are positive.


                                                             NOAA PERFORMANCE MEASURE
                                                  MEASURE: Winter storm warnings – Accuracy (%)
    Year            Status                                    Actual                                                Target
   FY 2012          Not Met                                    83%                                                   90%
   FY 2011       Slightly Below                                88%                                                   90%
   FY 2010            Met                                      90%                                                   90%
   FY 2009       Slightly Below                                90%                                                   91%
   FY 2008       Slightly Below                                89%                                                   90%
   FY 2007            Met                                      92%                                                   90%
   FY 2006       Slightly Below                                89%                                                   90%
   FY 2005            Met                                      91%                                                   90%
   FY 2004            Met                                      90%                                                   89%
   FY 2003            Met                                      90%                                                   88%
   FY 2002            Met                                      89%                                                   86%
  FY 2001             Met                                      90%                                                   86%
  FY 2000             Met                                      85%                                                   85%
 Trend: 0. Target trend has been positive while the actuals have varied.




  336                                                     F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                       A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                              NOAA PERFORMANCE MEASURE
                                                     MEASURE: Marine wind speed accuracy (%)
    Year            Status                                    Actual                                               Target
   FY 2012         Exceeded                                    76%1                                                 71%
   FY 2011            Met                                      75%                                                  69%
   FY 2010            Met                                      74%                                                  69%
   FY 2009            Met                                      74%                                                  69%
   FY 2008            Met                                      72%                                                  68%
   FY 2007            Met                                      73%                                                  68%
   FY 2006          Not Met                                    55%                                                  58%
   FY 2005            Met                                      57%                                                  56%
   FY 2004            Met                                      57%                                                  55%
   FY 2003            Met                                      57%                                                  54%
   FY 2002            Met                                      53%                                                  53%
  FY 2001        Slightly Below                                52%                                                  53%
  FY 2000             Met                                      51%                                                  51%
 Trend: +2. Both the target and actual trends are positive.
 1	Estimate




                                                              NOAA PERFORMANCE MEASURE
                                                    MEASURE: Marine wave height accuracy (%)
    Year            Status                                    Actual                                               Target
   FY 2012            Met                                      77%1                                                 75%
   FY 2011            Met                                      77%                                                  74%
   FY 2010            Met                                      76%                                                  74%
   FY 2009            Met                                      79%                                                  74%
   FY 2008            Met                                      77%                                                  73%
   FY 2007            Met                                      78%                                                  73%
   FY 2006            Met                                      70%                                                  68%
   FY 2005            Met                                      78%                                                  67%
   FY 2004            Met                                      70%                                                  69%
   FY 2003            Met                                      67%                                                  66%
 Trend: +2. Both the target and actual trends are positive.
 1	Estimate




F Y   2 0 1 2   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                           337
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NOAA PERFORMANCE MEASURE
                               MEASURE: Aviation forecast accuracy for ceiling/visibility (3 mile/1,000 feet or less) (%)
    Year             Status                                  Actual                                                       Target
   FY 2012          Not Met                                   61%1                                                         65%
   FY 2011       Slightly Below                               63%                                                          65%
   FY 2010            Met                                     65%                                                          65%
   FY 2009       Slightly Below                               63%                                                          64%
   FY 2008       Slightly Below                               62%                                                          63%
   FY 2007       Slightly Below                               61%                                                          62%
 Trend: +1. Both target and actual trends are slightly positive (even if the target hasn’t been met).
 1	Estimate




                                                            NOAA PERFORMANCE MEASURE
                                  MEASURE: Aviation forecast FAR for ceiling/visibility (3 mile/1,000 feet or less) (%)
    Year             Status                                  Actual                                                       Target
   FY 2012            Met                                     39%                                                          40%
   FY 2011            Met                                     39%                                                          41%
   FY 2010            Met                                     36%                                                          42%
   FY 2009            Met                                     38%                                                          43%
   FY 2008            Met                                     39%                                                          44%
   FY 2007            Met                                     40%                                                          45%
 Trend: 0. The target trend is positive while the actual trend has been stable (for this measure, declining numbers reflect a positive trend).




  338                                                   F Y   2 0 1 2    P E R F O R M A N C E          A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 3: ENVIRONMENTAL STEWARDSHIP
STRATEGIC GOAL: Promote economically-sound environmental stewardship and science

                                               ENVIRONMENTAL STEWARDSHIP TOTAL RESOURCES
                                                           (Dollars in Millions)
                             FY 2007           FY 2008                FY 2009              FY 2010               FY 2011               FY 2012
                             Actual            Actual                 Actual               Actual                Actual                Actual
 Funding                     $1,761.0          $1,880.4               $2,479.4             $2,249.3              $1,962.4             $1,788.5
 FTE                          4,924             4,920                  5,169                5,260                 5,209                5,167

This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.


OBJECTIVE 16: Support climate adaption and mitigation (NOAA)

                                                          OBJECTIVE 16 TOTAL RESOURCES
                                                               (Dollars in Millions)
                             FY 2007           FY 2008                FY 2009              FY 2010               FY 2011               FY 2012
                             Actual            Actual                 Actual               Actual                Actual                Actual
 Funding                     $160.2             $297.7                 $395.6               $436.6                $324.1               $281.4
 FTE                          650                580                    744                  796                   672                  693


                                                          NOAA PERFORMANCE MEASURE
                MEASURE: U.S. temperature forecasts (cumulative skill score computed over the regions where predictions are made)
    Year             Status                                Actual                                                    Target
   FY 2012          Exceeded                                281                                                        21
   FY 2011             Met                                   22                                                        21
   FY 2010           Not Met                                 18                                                        24
   FY 2009          Exceeded                                27.5                                                       20
   FY 2008          Exceeded                                 26                                                        19
   FY 2007          Exceeded                                 29                                                        19
   FY 2006          Exceeded                                 25                                                        18
   FY 2005             Met                                   19                                                        18
   FY 2004           Not Met                                 17                                                        21
   FY 2003           Not Met                                 17                                                        20
   FY 2002           Not Met                                 18                                                        20
   FY 2001             Met                                   20                                                        20
   FY 2000          Exceeded                                 25                                                        20
 Trend: 0. The target trend has been stable. Because of the influence of climate patterns, actuals tend to vary from year to year, not indicating
 a trend.
 1	Estimate




F Y   2 0 1 2    P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                 339
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NOAA PERFORMANCE MEASURE
                                 MEASURE: Uncertainty in the magnitude of the North American (NA) carbon uptake
    Year            Status                                  Actual                                                     Target
   FY 2012           Met                                 0.40   GtC/year1                                           0.40 GtC/year
   FY 2011           Met                                 0.40 GtC/year                                              0.40 GtC/year
   FY 2010           Met                                 0.40 GtC/year                                              0.40 GtC/year
   FY 2009           Met                                 0.40 GtC/year                                              0.40 GtC/year
   FY 2008           Met                                 0.40 GtC/year                                              0.40 GtC/year
   FY 2007           Met                                 0.40 GtC/year                                              0.40 GtC/year
   FY 2006           Met                                 0.40 GtC/year                                              0.40 GtC/year
   FY 2005         Not Met                               0.40 GtC/year                                              0.48 GtC/year
   FY 2004           Met                                 0.50 GtC/year                                              0.70 GtC/year
 Trend: 0. This is a maintain standards measure. The target and the actual trends have remained stable.
 1	Estimate




                                                           NOAA PERFORMANCE MEASURE
                                        MEASURE: Error in global measurement of sea surface temperature
    Year            Status                                  Actual                                                     Target
   FY 2012         Not Met                                      0.56ºC                                                 0.50ºC
   FY 2011      Slightly Below                                  0.51ºC                                                 0.50ºC
   FY 2010           Met                                        0.50ºC                                                 0.53ºC
   FY 2009           Met                                        0.50ºC                                                 0.50ºC
   FY 2008           Met                                        0.50ºC                                                 0.50ºC
   FY 2007         Not Met                                      0.53ºC                                                 0.50ºC
   FY 2006         Not Met                                      0.53ºC                                                 0.50ºC
 Trend: 0. The target trend has been stable, the actual has varied.


                                                           NOAA PERFORMANCE MEASURE
                       MEASURE: Annual percentage of U.S. states and territories that use NOAA climate information and
                                  services to improve decision-making in the face of a changing climate
    Year            Status                                  Actual                                                     Target
   FY 2012           Met                                        22%                                                     22%



OBJECTIVE 17: Develop sustainable and resilient fisheries, habitats, and species (NOAA)

                                                           OBJECTIVE 17 TOTAL RESOURCES
                                                                (Dollars in Millions)
                           FY 2007             FY 2008                      FY 2009            FY 2010             FY 2011                 FY 2012
                           Actual              Actual                       Actual             Actual              Actual                  Actual
 Funding                   $986.0               $973.6                      $1,245.4           $1,125.8            $1,043.1                $976.1
 FTE                       2,983                2,994                        3,058              3,105               3,164                  3,122




  340                                                F Y   2 0 1 2           P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NOAA PERFORMANCE MEASURE
                                                  MEASURE: Fish stock sustainability index (FSSI)
    Year            Status                                 Actual                                                 Target
   FY 2012           Met                                      606                                                  603.5
   FY 2011           Met                                      587                                                   586
   FY 2010           Met                                      582.5                                                 580
   FY 2009           Met                                      565.5                                                548.5
   FY 2008           Met                                      535                                                  530.5
   FY 2007           Met                                      524                                                   505
 Trend: +2. Both the target and actual trends are positive.


                                                           NOAA PERFORMANCE MEASURE
                             MEASURE: Percentage of fish stocks with adequate population assessments and forecasts
    Year            Status                                 Actual                                                 Target
   FY 2012      Slightly Below                        56.1% (129/230)                                         57.4% (132/230)
   FY 2011         Not Met                            57.4% (132/230)                                         60.4% (139/230)
   FY 2010           Met                              57.4% (132/230)                                         57.4% (132/230)
   FY 2009           Met                              59.1% (136/230)                                         57.4% (132/230)
   FY 2008           Met                              56.1% (129/230)                                         55.7% (128/230)
   FY 2007           Met                              55.7% (128/230)                                         53.9% (124/230)
   FY 2006         Not Met                            52.2% (120/230)                                         57.8% (133/230)
 Trend: 0. Both the target and actual trends are stable.


                                                           NOAA PERFORMANCE MEASURE
                           MEASURE: Number of protected species with adequate population assessments and forecasts
    Year            Status                                 Actual                                                 Target
   FY 2012           Met                              20.9% (79/378)                                           20.6% (78/378)
   FY 2011         Not Met                            17.6% (69/392)                                           18.6% (73/392)
   FY 2010           Met                              20.1% (75/373)                                           20.1% (75/373)
   FY 2009           Met                              29.8% (74/248)                                           27.8% (69/248)
   FY 2008         Not Met                            25.2% (61/242)                                           27.3% (66/242)
   FY 2007           Met                              26.6% (64/241)                                           26.6% (63/237)
   FY 2006           Met                              26.1% (61/234)                                           25.2% (59/464)
 Trend: 0. Both the target and actual percentage trends are negative, whereas the number (as opposed to percentage) of species with
 assessments trend is positive.




F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                          341
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          NOAA PERFORMANCE MEASURE
        MEASURE: Number of protected species designated as threatened, endangered, or depleted with stable or increasing population levels
        Year          Status                               Actual                                                Target
   FY 2012             Met                                     29                                                  28
   FY 2011             Met                                     29                                                  28
   FY 2010             Met                                     29                                                  25
   FY 2009             Met                                     25                                                  22
   FY 2008             Met                                     24                                                  22
   FY 2007             Met                                     26                                                  26
   FY 2006             Met                                     26                                                  24
 Trend: +1. Both the target and actual trends are slightly positive.


                                                          NOAA PERFORMANCE MEASURE
                                               MEASURE: Number of habitat acres restored (annual)1
        Year          Status                               Actual                                                Target
   FY 2012           Exceeded                               8,2422                                               80,007
   FY 2011           Exceeded                              15,420                                                 8,888
   FY 2010           Not Met                                  6,907                                               8,875
   FY 2009             Met                                    9,232                                               9,000
   FY 2008           Exceeded                              11,254                                                 9,000
   FY 2007             Met                                    5,974                                               5,000
   FY 2006           Exceeded                                 7,598                                               4,500
   FY 2005           Exceeded                                 8,333                                               4,500
   FY 2004           Exceeded                                 5,563                                               3,700
   FY 2003           Exceeded                                 5,200                                               2,829
 Trend: +2. Both the target and actual trends are positive.
 1	In
    FY 2012, NOAA began including the Pacific Coast Salmon Recovery Fund, hence the large increase in the target between FY 2011 and FY 2012.
 2	Acresrestored with funding from the Pacific Coastal Salmon Recovery Fund were not available at the time of publication. The acres shown were
  restored from Habitat Program funding, which exceeded the target of 6,007.



OBJECTIVE 18: Support coastal communities that are environmentally and economically sustainable (NOAA)

                                                          OBJECTIVE 18 TOTAL RESOURCES
                                                               (Dollars in Millions)
                             FY 2007            FY 2008                FY 2009           FY 2010             FY 2011                 FY 2012
                             Actual             Actual                 Actual            Actual              Actual                  Actual
 Funding                     $614.8              $609.1                $838.4            $686.9               $595.2                 $531.0
 FTE                         1,291               1,346                  1,367             1,359                1,373                 1,352




  342                                                 F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                   A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NOAA PERFORMANCE MEASURE
             MEASURE: Annual number of coastal, marine, and Great Lakes ecological characterizations that meet management needs
    Year            Status                                Actual                                                 Target
   FY 2012            Met                                   51                                                     51
   FY 2011            Met                                   50                                                     50
   FY 2010       Slightly Below                             48                                                     50
   FY 2009            Met                                   50                                                     50
   FY 2008            Met                                   45                                                     45
   FY 2007            Met                                   27                                                     27
   FY 2006            Met                                   62                                                     53
 Trend: 0. With the exception of FY 2007, both the target and actual trends tended to be stable.


                                                         NOAA PERFORMANCE MEASURE
  MEASURE: Cumulative number of coastal, marine, and Great Lakes issue-based forecasting capabilities developed and used for management
    Year            Status                                Actual                                                 Target
   FY 2012            Met                                   58                                                     55
   FY 2011            Met                                   55                                                     45
   FY 2010            Met                                   42                                                     42
   FY 2009            Met                                   41                                                     41
   FY 2008            Met                                   38                                                     38
   FY 2007            Met                                   35                                                     35
   FY 2006            Met                                   31                                                     31
 Trend: 0. While it appears that the trends are positive, these numbers are cumulative. The differences between each year tend to be the same
 from year to year.


                                                         NOAA PERFORMANCE MEASURE
                MEASURE: Percentage of tools, technologies, and information services that are used by NOAA partners/customers
                                                  to improve ecosystem-based management
    Year            Status                                Actual                                                 Target
   FY 2012            Met                                  88%                                                    88%
   FY 2011            Met                                  88%                                                    87%
   FY 2010            Met                                  88%                                                    86%
   FY 2009            Met                                  86%                                                    86%
   FY 2008            Met                                  86%                                                    86%
   FY 2007            Met                                  85%                                                    85%
 Trend: 0. This is a maintain standards measure. The target and the actual trends have remained stable.




F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                           343
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NOAA PERFORMANCE MEASURE
           MEASURE: Annual number of coastal, marine, and Great Lakes habitat acres acquired or designated for long-term protection
    Year            Status                                   Actual                                                    Target
   FY 2012         Exceeded                                 8,694,0701                                                 69,550
   FY 2011          Not Met                                  17,274                                                    19,219
   FY 2010         Exceeded                                  21,341                                                     2,000
   FY 2009            Met                                     2,247                                                     2,000
   FY 2008         Exceeded                                   6,219                                                     2,000
   FY 2007            Met                                     2,000                                                     2,000
   FY 2006         Exceeded                             >   86,000,0001                                                200,137
 Trend: 0. No trends appear to exist for this measure since the numbers vary largely from year to year.
 1	The large FY 2006 actual reflects the new Northwest Hawaiian Islands Marine National Monument. The large FY 2012 actual reflects the expansion

  of the Fagatele Bay National Marine Sanctuary in American Samoa.


                                                            NOAA PERFORMANCE MEASURE
             MEASURE: Percentage of U.S. coastal states and territories demonstrating 20% or more annual improvement in resilience
                                              capacity to weather and climate hazards (%/year)
    Year            Status                                   Actual                                                    Target
   FY 2012         Exceeded                                   46%                                                       34%
   FY 2011         Exceeded                                   43%                                                       36%


                                                            NOAA PERFORMANCE MEASURE
             MEASURE: Hydrographic survey backlog within navigationally significant areas (square nautical miles surveyed per year)
    Year            Status                                   Actual                                                    Target
   FY 2012            Met                                     2,947                                                     2,200
   FY 2011          Not Met                                   2,278                                                     2,400
   FY 2010          Not Met                                   4,395                                                     5,160
   FY 2009            Met                                     3,219                                                     3,000
   FY 2008          Not Met                                   2,127                                                     2,500
   FY 2007         Exceeded                                   3,198                                                     1,350
   FY 2006            Met                                     2,851                                                     2,500
   FY 2005            Met                                     3,079                                                     2,700
                  Improved but
   FY 2004          Not Met                                   2,070                                                     2,290

   FY 2003          Not Met                                   1,762                                                     2,100
 Trend: 0. With the exception of one year (FY 2010), it appears that the trends for both the actuals and targets are relatively stable.




  344                                                  F Y   2 0 1 2      P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                   A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NOAA PERFORMANCE MEASURE
                             MEASURE: Percent of U.S. and territories enabled to benefit from a new national vertical
                                          reference system for improved inundation management1
    Year            Status                                Actual                                                      Target
   FY 2012           Met                                   23.9%                                                       20%
   FY 2011            N/A                                  14.7%                                                       N/A
   FY 2010            N/A                                  7.83%                                                       N/A
 1	This measure replaced “Percentage of U.S. counties rated as fully enabled or substantially enabled with accurate positioning capacity.”   NOAA has
  actuals for FY 2010-2011, but did not have targets.




F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                 345
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




While the themes of Customer Service, Organizational Excellence, and Workforce Excellence apply to a certain degree to all the
Departmental bureaus, for performance, FTE and funding presentation purposes, only the administrative bureaus—Departmental
Management (DM) and the Office of Inspector General (OIG)—are reflected in these themes. Furthermore, the FTE has been
consolidated and appear only in the Organizational Excellence theme.


THEME 4: CUSTOMER SERVICE
STRATEGIC GOAL: Create a culture of outstanding communication and services to our internal and
external customers

                                                   CUSTOMER SERVICE TOTAL RESOURCES
                                                          (Dollars in Millions)
                       FY 2007            FY 2008                  FY 2009           FY 2010               FY 2011                 FY 2012
                       Actual             Actual                   Actual            Actual                Actual                  Actual
 Funding                    $8.6            $6.1                    $7.7              $7.0                   $9.3                   $9.2
 FTE                        N/A             N/A                     N/A               N/A                    N/A                    N/A

This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.
The following three objectives apply to this theme with only Objectives 19 and 21 receiving funding. The three measures that
follow the funding tables apply to all three objectives.

●● OBJECTIVE 19: Provide streamlined services and a single point of contact assistance to customers, improving interaction and
   communication through CommerceConnect, partnerships, and other means of stakeholder involvement (DM)

●● OBJECTIVE 20: Promote information access and transparency through the use of technology, fuller understanding of customer
   requirements, and new data products and services that add value for customers (DM)

●● OBJECTIVE 21: Provide a high level of customer service to our internal and external customers through effective and efficient
   functions implemented by empowered employees (DM)

                                                      OBJECTIVE 19 TOTAL RESOURCES
                                                           (Dollars in Millions)
                       FY 2007            FY 2008                  FY 2009           FY 2010               FY 2011                 FY 2012
                       Actual             Actual                   Actual            Actual                Actual                  Actual
 Funding                    N/A             N/A                     N/A               N/A                    $0.9                   $2.4
 FTE                        N/A             N/A                     N/A               N/A                    N/A                    N/A


                                                      OBJECTIVE 21 TOTAL RESOURCES
                                                           (Dollars in Millions)
                       FY 2007            FY 2008                  FY 2009           FY 2010               FY 2011                 FY 2012
                       Actual             Actual                   Actual            Actual                Actual                  Actual
 Funding                    $8.6            $6.1                    $7.7              $7.0                   $8.4                   $6.8
 FTE                        N/A             N/A                     N/A               N/A                    N/A                    N/A


                                                       DM PERFORMANCE MEASURE
                                                    MEASURE: Number of referrals made
    Year          Status                               Actual                                                  Target
   FY 2012        Not Met                                703                                                    1,100




  346                                              F Y   2 0 1 2   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                      DM PERFORMANCE MEASURE
                                        MEASURE: Number of companies engaged – field operations
     Year           Status                            Actual                                                Target
   FY 2012           Met                                401                                                  400


                                                      DM PERFORMANCE MEASURE
                                          MEASURE: Number of existing Commerce field locations
     Year           Status                            Actual                                                Target
   FY 2012         Not Met                              19                                                   30




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   347
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 5: ORGANIZATIONAL EXCELLENCE
STRATEGIC GOAL: Create a high-performing organization with integrated, efficient, and effective
service delivery

                                                    ORGANIZATIONAL EXCELLENCE TOTAL RESOURCES
                                                                (Dollars in Millions)
                          FY 2007                   FY 2008                  FY 2009           FY 2010                 FY 2011                FY 2012
                          Actual                    Actual                   Actual            Actual                  Actual                 Actual
 Funding                   $58.5                     $56.6                    $67.2             $81.7                   $76.4                 $73.2
 FTE                        302                       286                      278               349                     333                   297

This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.
All the FTE appear in Objective 22.


OBJECTIVE 22: Strengthen financial and non-financial internal controls to maximize program efficiency, ensure compliance
with statutes and regulations, and prevent waste, fraud, and abuse of government resources (DM, OIG)

                                                                OBJECTIVE 22 TOTAL RESOURCES
                                                                     (Dollars in Millions)
                          FY 2007                   FY 2008                  FY 2009           FY 2010                 FY 2011                FY 2012
                          Actual                    Actual                   Actual            Actual                  Actual                 Actual
 Funding                   $49.1                     $48.4                    $53.9             $66.2                   $58.8                 $55.7
 FTE                        302                       286                      278               349                     333                   297


                                                                 DM PERFORMANCE MEASURE
             MEASURE: Provide accurate and timely financial information and conform to federal standards, laws, and regulations
                                            governing accounting and financial management
    Year          Status                                         Actual                                                    Target
                                    ●●   Did not eliminate significant deficiency               ●●   Eliminate any significant deficiency within 1 year of
                                    ●●   Completed A-123 assessment                                  determination that there is a significant deficiency
   FY 2012        Not Met
                                                                                                ●●   Complete FY 2012 A-123 assessment of internal
                                                                                                     controls
                                    ●●   Eliminated significant deficiency                      ●●   Eliminate any significant deficiency within 1 year of
                                    ●●   Completed A-123 assessment                                  determination that there is a significant deficiency
   FY 2011          Met
                                                                                                ●●   Complete FY 2011 A-123 assessment of internal
                                                                                                     controls
                                    ●●   One significant deficiency was not eliminated          ●●   Eliminate any significant deficiency within 1 year of
                                    ●●   Completed FY 2010 A-123 assessment of internal              determination that there is a significant deficiency
   FY 2010        Not Met
                                         controls for financial reporting                       ●●   Complete FY 2010 A-123 assessment of internal
                                                                                                     controls
                                    ●●   One significant deficiency was not eliminated          ●●   Eliminate any significant deficiency within 1 year of
                                    ●●   Completed FY 2009 A-123 assessment of internal              determination that there is a significant deficiency
   FY 2009        Not Met
                                         controls for financial reporting                       ●●   Complete FY 2009 A-123 assessment of internal
                                                                                                     controls
                                    ●●   The Department closed 70% of prior year financial      ●●   Eliminate any significant deficiency within 1 year of
                                         systems audit findings                                      determination
   FY 2008        Not Met           ●●   Completed FY 2008 A-123 assessment of internal         ●●   Complete FY 2008 A-123 assessment of internal
                                         controls for financial reporting                            controls
                                    ●●   Significant deficiency was not eliminated
                                                                                                                                               (continued)




  348                                                        F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                       A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        DM PERFORMANCE MEASURE (continued)
                MEASURE: Provide accurate and timely financial information and conform to federal standards, laws, and regulations
                                         governing accounting and financial management (continued)
    Year             Status                                   Actual                                                       Target
                                   ●●   Completed migration of Commerce Business System        ●●   Eliminate any significant deficiency within 1 year of
                                   ●●   Completed assessment of internal controls                   determination
                                   ●●   Significant deficiency was not eliminated              ●●   Complete internal control and document review
   FY 2007           Not Met                                                                   ●●   Complete FY 2007 A-123 assessment of internal
                                                                                                    controls
                                                                                               ●●   Migrate Commerce Business System to an all
                                                                                                    Web-base architecture
                                   ●●   Reportable condition not eliminated                    ●●   Eliminate any reportable condition within 1year of
                                                                                                    determination
   FY 2006           Not Met
                                                                                               ●●   95% of management with access to the CRS have
                                                                                                    financial data/reports by the 15th of month
                                   ●●   Corrective action plan (CAP) met                       ●●   Eliminate any reportable condition within 1 year
                                   ●●   Reportable condition not eliminated                         of the determination that there is a reportable
                                                                                                    condition
   FY 2005           Not Met
                                                                                               ●●   90% of management with access to the Consolidated
                                                                                                    Reporting System (CRS) have financial data/reports
                                                                                                    by the 15th of month
 Trend: +2. From FY 2010 to FY 2011 and FY 2012, DM made a significant accomplishment/change in eliminating the significant deficiency.
 This reflects a positive trend.


                                                              DM PERFORMANCE MEASURE
                                              MEASURE: Effectively use commercial services management1
    Year             Status                                   Actual                                                       Target
                                   ●●   1% increase                                            ●●   Increase use of competition by 2% measured by
                                   ●●   16% decrease                                                procurement dollars awarded
   FY 2012        Slightly Below                                                               ●●   Decrease procurement dollars awarded on cost-
                                                                                                    reimbursement, time and materials, and labor hour
                                                                                                    contracts by 10%
                                   ●●   9.3% increase (from 75% in FY 2010 to 82% in           ●●   Increase use of competition by 2% measured by
                                        FY 2011)                                                    procurement dollars awarded
   FY 2011          Exceeded       ●●   22.8% decrease (from $175M in FY 2010 to $135M         ●●   Decrease procurement dollars awarded on cost-
                                        in FY 2011)                                                 reimbursement, time and materials, and labor hours
                                                                                                    contracts by 10%
                                   ●●   Maintained and monitored existing activities,          ●●   Increase use of competition by 2%, measured by
                                        however, no new cost comparisons were permitted             procurement dollars awarded
   FY 2010             N/A              under this year’s appropriation language, therefore    ●●   Decrease procurement dollars awarded on a cost-
                                        the result is considered not applicable                     reimbursement, time and materials, and labor hours
                                                                                                    contracts by 10%
                                   ●●   Due to change in Administration, all new competitive   ●●   Use business process re-engineering, feasibility
                                        sourcing comparisons have been placed on hold.              studies, and/or similar initiatives to identify opera-
   FY 2009             Met
                                        The same is true for the Green Plan.                        tional efficiency and effectiveness opportunities
                                   ●●   2009 FAIR Act Inventory filed timely with OMB
                                   ●●   Completed several feasibility studies in FY 2008 and   ●●   Use business process re-engineering, feasibility
   FY 2008             Met              planned several more for FY 2009                            studies, and/or similar initiatives to identify opera-
                                                                                                    tional efficiency and effectiveness opportunities
                                   ●●   Bureaus identified FY 2008 feasibility studies which   ●●   Update and/or continue to implement FY 2006 plan to
                                        were submitted as part of the Green Plan                    conduct feasibility studies of Department commer-
   FY 2007             Met
                                                                                                    cial functions to determine potential new competi-
                                                                                                    tions/studies in the outyears
                                                                                                                                                (continued)


F Y   2 0 1 2    P E R F O R M A N C E        A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                        349
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         DM PERFORMANCE MEASURE (continued)
                                         MEASURE: Effectively use commercial services management1 (continued)
                                    ●●   Green Plan submitted to OMB on 9/28/2006             ●●   Finalize new green competition plan based on
   FY 2006              Met
                                                                                                   08/2005 CFO council outcome
                                    ●●   Feasibility studies nominated for 168 FTE            ●●   Complete feasibility studies for 168 FTE to determine
   FY 2005              Met
                                                                                                   2005-2006 studies
   FY 2004              Met         ●●   New FAIR inventory guidance developed                ●●   Multi-year plan under development
   FY 2003            Not Met       ●●   Completed competition on 6.6%                        ●●   Complete competitions on 10%
   FY 2002            Not Met       ●●   Completed competition on 1%                          ●●   Complete competition on 5%
  FY 2001               Met         ●●   Commercial inventory – submitted 6/30/2001           ●●   Commercial inventory – complete by 6/30/2001
  FY 2000               Met         ●●   Commercial inventory – submitted 6/30/2000           ●●   Commercial inventory – complete by 6/30/2000
 Trend: 0. Target and actual trends are stable.
 1	Prior   to FY 2005, this was stated as “Expand A-76 competitions and more accurate FAIR Act inventories.”


                                                               OIG PERFORMANCE MEASURE
                           MEASURE: Percent of OIG recommendations accepted by Departmental and bureau management
     Year              Status                                  Actual                                                    Target
   FY 2012         Slightly Below                               90%1                                                      95%
   FY 2011              Met                                    100%                                                       95%
   FY 2010              Met                                     99%                                                       95%
   FY 2009              Met                                     97%                                                       95%
   FY 2008              Met                                     99%                                                       95%
   FY 2007              Met                                     96%                                                       95%
   FY 2006              Met                                     96%                                                       95%
   FY 2005              Met                                     99%                                                       90%
   FY 2004              Met                                     98%                                                       90%
   FY 2003              Met                                     97%                                                       90%
 Trend: +1. The target trend has been stable though it increased in 2006 in response to better performance. The actual trend was slightly positive from
 FY 2003 - FY 2011.
 1	Estimate.




  350                                                     F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             OIG PERFORMANCE MEASURE
                                            MEASURE: Dollar value of financial benefits identified by the OIG
    Year            Status                                   Actual                                                    Target
   FY 2012        Exceeded                                  $175.8M                                                    $39.0M
   FY 2011         Not Met                                   $33.6M                                                    $39.0M
   FY 2010        Exceeded                                   $47.8M                                                    $38.0M
   FY 2009        Exceeded                                  $126.9M                                                    $32.0M
   FY 2008        Exceeded                                  $113.9M                                                    $28.0M
   FY 2007        Exceeded                                   $51.7M                                                    $29.6M
   FY 2006           Met                                     $34.2M                                                    $30.0M
   FY 2005        Exceeded                                   $32.0M                                                    $23.0M
   FY 2004        Exceeded                                   $26.0M                                                    $20.0M
   FY 2003        Exceeded                                   $43.3M                                                    $20.0M
 Trend: +1. The target trend has been positive while the actual trend has varied.


                                                             OIG PERFORMANCE MEASURE
                                    MEASURE: Percent of criminal and civil matters that are accepted for prosecution
    Year            Status                                   Actual                                                    Target
   FY 2012         Not Met                                    40%                                                       75%
   FY 2011      Slightly Below                                73%                                                       75%
   FY 2010         Not Met                                    38%                                                       75%
   FY 2009           Met                                      78%                                                       63%
   FY 2008           Met                                      73%                                                       63%
   FY 2007           Met                                      73%                                                       63%
   FY 2006        Exceeded                                    91%                                                       63%
   FY 2005        Exceeded                                    81%                                                       62%
   FY 2004        Exceeded                                    67%                                                       50%
   FY 2003           Met                                      50%                                                       50%
 Trend: 0. With the exception of FY 2010 and FY 2012, the trend for actuals has been positive from FY 2003 onward. The targets trend has been
 positive from FY 2003 onward, while the actual trend has varied widely.



OBJECTIVE 23: Re-engineer key business processes to increase efficiencies, manage risk, and strengthen effectiveness (DM)

                                                            OBJECTIVE 23 TOTAL RESOURCES
                                                                 (Dollars in Millions)
                           FY 2007                FY 2008               FY 2009              FY 2010            FY 2011             FY 2012
                           Actual                 Actual                Actual               Actual             Actual              Actual
 Funding                     $3.2                    $3.0                 $4.0                $3.6                $3.9               $3.8
 FTE                         N/A                     N/A                  N/A                 N/A                 N/A                N/A




F Y   2 0 1 2   P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                                351
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                  DM PERFORMANCE MEASURE
                     MEASURE: Obligate funds through performance-based contracting (% of eligible service contracting $)
    Year            Status                                        Actual                                                     Target
   FY 2012         Not Met                                         45%                                                        50%
   FY 2011         Not Met                                         39%                                                        50%
   FY 2010         Not Met                                         37%                                                        50%
                 Improved but
   FY 2009         Not Met                                         45%                                                        50%

   FY 2008         Not Met                                         28%                                                        50%
   FY 2007         Not Met                                         28%                                                        40%
   FY 2006         Not Met                                         30%                                                        50%
   FY 2005         Not Met                                        < 50%                                                       50%
   FY 2004           Met                                           42%                                                        40%
   FY 2003         Not Met                                         24%                                                        30%
   FY 2002           Met                                           31%                                                        25%
   FY 2001           Met                                           25%                                                        10%
 Trend: +2. Both the target and actual trends have been slightly positive even if the targets were rarely met.



OBJECTIVE 24: Create an IT enterprise architecture that supports mission-critical business and programmatic requirements,
including effective management of cyber security threats (DM)

                                                                 OBJECTIVE 24 TOTAL RESOURCES
                                                                      (Dollars in Millions)
                           FY 2007                   FY 2008                  FY 2009              FY 2010               FY 2011                FY 2012
                           Actual                    Actual                   Actual               Actual                Actual                 Actual
 Funding                     $6.2                      $5.2                    $9.3                 $11.9                  $13.7                $13.7
 FTE                         N/A                       N/A                     N/A                  N/A                    N/A                  N/A


                                                                  DM PERFORMANCE MEASURE
                                               MEASURE: Improve the management of information technology
    Year            Status                                        Actual                                                     Target
                                     ●●   75% of major IT investments have cost/schedule           ●●   IT investments have cost/schedule overruns and
                                          overruns and performance shortfalls averaging less            performance shortfalls averaging less than 10%
                                          than 10%                                                 ●●   Perform IT security compliance review of all
                                     ●●   Completed 29 IT security assessments. Conducted               operating units, and 10 FISMA systems in CSAM
                                          IT security compliance checks of all Department          ●●   Increase security training completion rate to 80%
                                          operating units and in-depth internal control review          for privileged users (role-based)
                                          meetings with five selected operating units as part of   ●●   Deploy 80% of the required NCSD 3-10 communi-
                                          the Department’s IT internal control review program.          cations capabilities. Expand cyber intelligence
   FY 2012           Met
                                     ●●   Trained Authorizing Officials and System Owners               communications channel to all operating unit
                                          throughout the Department with quarterly work-                Computer Incident Response Teams.
                                          shops. Achieved greater than 85% of required
                                          security training for privileged users (role-based).
                                     ●●   The Department is currently at 50%. Required equip-
                                          ment and systems are installed at the Herbert C.
                                          Hoover Building. Deploying classified connectivity to
                                          all outside bureau components.
                                                                                                                                                 (continued)




  352                                                         F Y   2 0 1 2   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                      DM PERFORMANCE MEASURE (continued)
                                      MEASURE: Improve the management of information technology (continued)
                                 ●●   All IT investments within 10% of cost and schedule      ●●   IT investments have cost/schedule overruns and
                                 ●●   Reviews completed                                            performance shortfalls averaging less than 10%
                                 ●●   89% completion rate                                     ●●   Perform IT security compliance review of all
                                 ●●   NCSD 3-10 did not receive funding                            operating units, and 10 FISMA systems in CSAM
                                                                                              ●●   Increase security training completion rate to 80%
   FY 2011           Met
                                                                                                   for privileged users (role-based)
                                                                                              ●●   Deploy 80% of the required NCSD 3-10 communi-
                                                                                                   cations capabilities. Expand cyber intelligence
                                                                                                   communications channel to all operating unit
                                                                                                   Computer Incident Response Teams
                                 ●●   IT investments had cost/schedule overruns and           ●●   IT investments have cost/schedule overruns and
                                      performance shortfalls averaging less than 10%               performance shortfalls averaging less than 10%
                                 ●●   Completed security and vulnerability assessments        ●●   Perform IT security compliance review of all
                                      for all operating units. Submitted findings and              operating units, and 10 FISMA systems in CSAM
                                      recommendations to operating units and OCIO for         ●●   Deploy an enterprise-wide role-based cybersecurity
                                      review.                                                      training program
                                 ●●   Implemented cybersecurity development program           ●●   Deploy national security and emergency initial
                                      and graduated 20 candidates from the Department’s            operating capability
   FY 2010           Met
                                      first class. Enrolled candidates in the program’s
                                      second class. More than eight candidates have
                                      obtained or are planning to obtain security-related
                                      certifications.
                                 ●●   Deployed national security and emergency network
                                      in the development environment. Received official
                                      approval to connect from Defense Intelligence
                                      Agency.
                                 ●●   Cost/schedule overruns/performance shortfalls           ●●   Cost/schedule overruns/performance shortfalls less
                                      averaged under 10%                                           than 10%
   FY 2009           Met         ●●   CSAM C&A enhancements were deployed                     ●●   All national-critical and mission-critical systems
                                 ●●   IT security compliance in all operating unites and           certified and accredited with acceptable, quality
                                      five FISMA systems in CSAM were reviewed                     documentation in place
                                 ●●   Cost/schedule overruns/performance shortfalls less      ●●   Cost/schedule overruns/performance shortfalls less
                                      than 10%                                                     than 10%
   FY 2008           Met         ●●   All national-critical and mission-critical systems      ●●   All national-critical and mission-critical systems
                                      certified and accredited with acceptable, quality            certified and accredited with acceptable, quality
                                      documentation in place                                       documentation in place
                                 ●●   Cost/schedule overruns/performance shortfalls less      ●●   Cost/schedule overruns/performance shortfalls less
                                      than 10%                                                     than 10%
   FY 2007           Met
                                 ●●   All national-critical and mission-critical systems      ●●   All national-critical and mission-critical systems
                                      certified and accredited                                     certified and accredited
                                 ●●   Cost overruns and performance shortfalls less           ●●   Cost/schedule overruns/performance shortfalls less
                                      than 10%                                                     than 10%
   FY 2006           Met
                                 ●●   All national-critical and mission-critical systems      ●●   All national-critical and mission-critical systems
                                      certified and accredited                                     certified and accredited
                                 ●●   Cost overruns and performance shortfalls less           ●●   Cost overruns and performance shortfalls less
   FY 2005           Met
                                      than 10%                                                     than 10%
 Trend: 0. Both the target and actual trends tended to be stable from year to year.




F Y   2 0 1 2   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                   353
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 6: WORKFORCE EXCELLENCE
STRATEGIC GOAL: Develop and support a diverse, highly qualified workforce with the right skills in the
right jobs to carry out the Department’s mission

                                                       WORKFORCE EXCELLENCE TOTAL RESOURCES
                                                                (Dollars in Millions)
                          FY 2007                   FY 2008                 FY 2009              FY 2010                FY 2011                FY 2012
                          Actual                    Actual                  Actual               Actual                 Actual                 Actual
 Funding                    $5.1                     $4.9                    $6.0                 $5.4                   $5.4                   $4.9
 FTE                        N/A                      N/A                     N/A                  N/A                    N/A                    N/A

This theme has only one goal with the following three objectives.

●● OBJECTIVE 25: Recruit, grow, develop, and retain a high-performing, diverse workforce with the critical skills necessary for
   mission success, including the next generation of scientists and engineers (DM)

●● OBJECTIVE 26: Create an optimally-led Department by focusing on leadership development, accountability, and succession
   planning (DM)

●● OBJECTIVE 27: Provide an environment that empowers employees and creates a productive and safe workplace (DM)

Since only Objective 25 has funding, separate funding tables for Objectives 26 and 27 do not appear. In addition, only Objective
25 has performance measures with targets in FY 2012. That measure appears below.


                                                                DM PERFORMANCE MEASURE
                      MEASURE: Acquire and maintain diverse and highly qualified staff in mission-critical occupations
    Year           Status                                       Actual                                                      Target
                                    ●●   84 calendar days                                        ●●   Meet or exceed the 80-day hiring goals mandated
                                    ●●   122 Department participants in leadership                    by OPM
                                         development programs                                    ●●   Train 100-200 Department participants on leadership
   FY 2012          Met
                                    ●●   711 participants in Careers in Motion                        development programs via ALDP, ELDP, APCP, and
                                                                                                      SES CDP
                                                                                                 ●●   Train 180-200 participants via Careers in Motion
                                    ●●   Four mission-critical occupations                       ●●   Have new competency models in place for three
                                    ●●   83 calendar days                                             mission-critical occupations for use in workforce
                                    ●●   103 participants in leadership development                   recruitment, training, and development activities
                                    ●●   382 participants in Careers in Motion                   ●●   Meet or exceed the 80-day hiring goals mandated
   FY 2011       Exceeded
                                                                                                      by OPM
                                                                                                 ●●   Train 100-200 participants on leadership develop-
                                                                                                      ment programs via ALDP, ELDP, and APCP
                                                                                                 ●●   Train 180-200 participants via Careers in Motion
                                    ●●   Produced competency models for four mission-            ●●   Have new competency models in place for three
                                         critical occupations                                         mission-critical occupations for use in workforce
                                    ●●   Established a hiring process baseline at 133 days for        recruitment, training, and development activities
                                         2009. Then 105 calendar day average in FY 2010.         ●●   Meet or exceed the 80-day hiring goals mandated
                                    ●●   Trained 98 ALDP, ELDP, and APCP participants via             by OPM
   FY 2010          Met                  leadership programs and 181 employees via the           ●●   Train up to 50-70 participants on leadership develop-
                                         Careers in Motion Program                                    ment programs via ALDP, ELDP, and APCP, and
                                    ●●   Integrated Commerce Learning Center in program               180-200 participants via Careers in Motion
                                         administration to enhance measurement of results        ●●   Integrate Commerce Learning Center in program
                                                                                                      administration to enhance tracking and progress
                                                                                                      monitoring
                                                                                                                                                (continued)


  354                                                       F Y   2 0 1 2   P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                     DM PERFORMANCE MEASURES (continued)
                  MEASURE: Acquire and maintain diverse and highly qualified staff in mission-critical occupations (continued)
    Year            Status                                  Actual                                                     Target
                                 ●●   Competency models in place for four series            ●●   Have new competency models in place for three
                                      including budget analyst, meteorologist,                   mission-critical occupations for use in workforce
                                      oceanographer, and hydrologist                             recruitment, training, and development activities
                                 ●●   Average time to fill of 31 days for non-SES           ●●   Meet or exceed the 45-day hiring goals mandated
   FY 2009         Exceeded
                                      candidates                                                 by OPM
                                 ●●   100 trainees graduated from leadership development    ●●   Train up to 50-60 participants on leadership develop-
                                      programs                                                   ment programs via ALDP, ELDP, and APCP
                                 ●●   Department employees nationwide applied to ALDP       ●●   Open ALDP to Department employees nationwide
                                 ●●   Delivered a total of four competency models for the   ●●   Have new competency models in place for three
                                      economist, acquisition, mathematical statistician,         mission-critical occupations for use in applicant
                                      and chemist series                                         selections and training and development decisions
   FY 2008         Exceeded
                                 ●●   Exceeded the OPM 45-day-time-to-hire standard         ●●   Meet or exceed the 45-day hiring goals mandated
                                      with an average fill time of 31 days for non-SES           by OPM
                                      vacancies
                                 ●●   Trained post-secondary internship program             ●●   Improve recruitment strategies via targeted
                                      applicants to increase applicant pools                     activities
   FY 2007           Met         ●●   Trained managers to make better hiring decisions      ●●   Assist managers in making better selections
                                 ●●   Trained employees in project management to close      ●●   Close skill gaps
                                      skill gaps
                                 ●●   Marketed job vacancies to organizations via           ●●   Improve recruitment strategies via targeted
                                      automated hiring system                                    activities
   FY 2006           Met
                                 ●●   Participated in career fairs and special programs     ●●   Assist managers in making better selections
                                 ●●   Conducted training of managers and employees          ●●   Close skill gaps
                                 ●●   Improved from 28% to 29%                              ●●   Improve representation in underrepresented groups
   FY 2005           Met
                                 ●●   Maintained 30 day fill-time                           ●●   Maintain 30 day fill-time
 Trend: +1. Both the target and actual trends tend to be positive.




F Y   2 0 1 2   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                                 355
A P P E N D I X B : S TA K E H O L D E R S A N D C R O S S C U T T I N G P R O G R A M S




                          S TA K E H O L D E R S A N D C R O S S C U T T I N G P R O G R A M S




T 
       he Department has numerous crosscutting programs involving multiple bureaus: other federal, state, and local agencies;

 
       foreign government; and private enterprise. Federal programs dealing with economic and technological development,
       the natural environment, international trade, and demographic and economic statistics play a major role in advancing
the welfare of all Americans. The Department continues to work with other government agencies in furthering efforts in these
areas for the American public. Examples of crosscutting programs external to the Department’s bureaus include the following
federal, state, local, and international agencies:


DEPARTMENT OF COMMERCE BUREAU ACTIVITIES

Advanced manufacturing                                               Market access improvements
Chemical Weapons Convention compliance                               Measurements and standards
Defense industrial base activities                                   Minority-owned business development
Economic development                                                 Patents, trademarks and intellectual property
Economic distress and recovery efforts                               Research
Environmental programs                                               Smart Grid (or energy)
Export controls                                                      Telecommunications
Homeland security                                                    Technology transfer
Improve the environment                                              Tracking the U.S. economy through GDP and other statistics
Information Technology                                               Trade policies


OTHER FEDERAL AGENCIES AND ORGANIZATIONS

Agency for Health Care Research and Quality                          Department of Transportation
Agency for International Development                                 Department of the Treasury
Appalachian Regional Commission                                      Environmental Protection Agency
Bureau of Justice Statistics                                         European Patent Office
Bureau of Transportation Statistics                                  Federal Aviation Administration
Central Intelligence Agency                                          Federal Bureau of Investigation
Customs/Border and Transportation Security                           Federal Communications Commission
Delta Regional Authority                                             Food and Drug Administration
Department of Agriculture                                            Indian tribes
Department of Defense                                                National Aeronautics and Space Administration
Department of Education                                              National Institutes of Health
Department of Energy                                                 National Science Foundation
Department of Homeland Security                                      Small Business Administration
Department of Housing and Urban Development                          U.S. Coast Guard
Department of Justice                                                U.S. Postal Service
Department of Labor                                                  U.S. States
Department of State                                                  Other Countries and Organizations




    356                                         F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




                   F Y 2 0 1 2 M A N AG E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




                             Top Management Challenges Facing the Department
            The Reports Consolidation Act of 2000 requires inspectors general to identify the top management
            challenges facing their departments. In October 2011, the Department of Commerce OIG identified five
            challenges that require significant departmental attention in FY 2012 and beyond.
            1. Effectively Promote Exports, Stimulate Economic Growth, and Create Jobs
            The Department is at the center of the federal government’s efforts to promote exports and stimulate
            economic development while regulating imports and exports, marine fisheries, and patents and
            trademarks. Effective implementation of these initiatives requires the Secretary to work closely with
            interagency partners and integrate Department resources in order to:
            Implement Administration Initiatives with Effective Interagency Partnerships. More than 20 federal
            agencies perform trade-related functions. The Department plays a critical role in working with these
            partners to implement the administration’s three government-wide initiatives: promote U.S. exports,
            reform the export control system, and reorganize the federal government’s trade promotion
            responsibilities. The Department reported that, as of August 2011, the joint efforts by Export Promotion
            Cabinet agencies have resulted in a 17 percent increase in exports since 2009. However, ongoing
            management attention will be necessary to promote continued progress in these areas.
            Enhance Commerce Unit Operations to Help Promote Trade and Job Creation. Various bureaus
            within the Department engage in trade-related functions. The Department began improving coordination
            among these units by launching “CommerceConnect” in 2009—a website providing a portfolio of
            government assistance to businesses. The Department continues facing challenges:
            •    repatriating manufacturing jobs in America;
            •    allocating resources to support the President’s National Export Initiative;
            •    reducing patent backlog, improving processing times, and implementing patent reform;
            •    improving technical and financial assistance to promote domestic job growth; and
            •    ensuring the elimination of social and economic surveys does not adversely affect vital national
                 indicators.
            Correct Unfair Trade Practices and Protect Our National Security Through Enforcement Activities.
            While trade promotion is an essential part of its mission, the Department must also maintain strong trade
            enforcement programs, so that the United States can thrive in the global marketplace. Among the
            bureaus, BIS faces the greatest challenge as it helps to implement the long-term goals of the Export
            Control Reform initiatives.
            Improve Regulatory Reviews to Protect and Promote Public Interests. In addition to imports and
            exports, the Department is also responsible for regulating marine fisheries (to protect ocean resources)
            and patents and trademarks (to protect intellectual property). The Department should conduct adequate
            cost–benefit analyses and identify meaningful performance measures for regulatory activities to avoid
            overburdening affected industries. This is especially important for balancing NOAA’s goals of protecting
            the environment and supporting the fishing industry.




                                                                   -­‐1-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                357
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          Bureau Responses:


          Implement Administration Initiatives with Effective Interagency Partnerships.


          ITA


          The Department plays an important leadership function among the more than 20 agencies performing
          trade-related functions as (1) the statutory Chair of the Trade Promotion Coordinating Committee (TPCC);
          (2) the home of interagency coordinating bodies such as the Advocacy Center, the Trade Compliance
          Center, and Export.Gov; and (3) the primary backbone of the U.S. Government’s (USG) domestic and
          overseas export promotion field operations.

          The Department’s TPCC Secretariat provides critical support to the Export Promotion Cabinet’s (EPC)
          National Export Initiative (NEI). TPCC working groups developed the NEI’s baseline 70
          recommendations, and the TPCC Secretariat drafted the EPC’s NEI Report to the President in
          September 2010. The TPCC has since dedicated the annual National Export Strategy Report to reporting
          on the progress of the NEI and on new government-wide performance metrics. TPCC working groups
          (e.g. The TPCC Renewable Energy/Energy Efficiency Working Group) remain actively engaged in
          implementing NEI recommendations. In 2012, the White House National Security Staff (NSS) called for a
          renewed NEI effort to increase the national base of small business exporters. Along with the Commerce
          Department hosting and chairing joint TPCC Principals/EPC meetings, new NSS working groups and the
          TPCC Small Business Working Group met weekly to develop aggressive new recommendations,
          timeframes, and metrics. Consecutive increases of U.S. goods and services exports of 17 percent in
          2010 and 14 percent in 2011 (the last year of available data) supported 1.2 million more jobs than in
          2009, and resulted in exports surpassing $2 trillion for the first time (to $2.1 trillion). In 2012, U.S. exports
          have grown less rapidly due to economic downturns in markets like Europe and China – factors adding to
          the Administration’s emphasis on the renewed export push described above toward the NEI’s five year
          goal of doubling exports and supporting 2 million jobs.

          In 2012, Commerce and the TPCC Secretariat played a major role in developing new initiatives, including:
          a coordinated national marketing campaign, outreach to large and small U.S. banks to support exports, a
          national training program for federal trade counselors and partners, clarification of interagency client
          intake and referral procedures domestically, and a new interagency consultations process to address
          resource alignment and alternative service delivery models in overseas markets. Many of these new
          initiatives will now be implemented in the next six months, with timeframes, milestones, and metrics in
          place to track progress.


          Enhance Commerce Unit Operations to Help Promote Trade and Job Creation.


          Repatriating manufacturing jobs in America


          ITA


          SelectUSA: Established by Executive Order on June 15, 2011, SelectUSA is the first coordinated federal
          effort to pursue and win business investment in the United States. It was created to showcase the United
          States as the world’s premier business location and to make accessible federal government programs
          and services related to business investment. SelectUSA is designed to complement the activities of
          states—the primary drivers of economic development—and spur economic growth, job creation and




                                                                 -­‐2-­‐	  

 358                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




           repatriation. As competitor nations develop aggressive inward investment programs, SelectUSA is
           designed to be a key component to strengthening the U.S. image and competitiveness in this area.

           Foreign direct investment contributes significantly to U.S. economic growth and prosperity. Output from
           U.S. affiliates accounted for almost 6 percent of total U.S. private sector output in 2008, 42 percent of
           which was in the manufacturing sector. FDI plays a vital role in supporting U.S. jobs and helping to bolster
           U.S. export competitiveness. For example, U.S. subsidiaries of foreign-owned firms accounted for 19
           percent of all U.S. goods exports in 2007. In addition, U.S. subsidiaries of foreign-owned firms employed
           approximately 5.7 million U.S. workers in 2008, which accounted for 5 percent of the private workforce
           employment.

           SelectUSA has used its 2012 pilot year to develop a robust outreach strategy focused on leveraging the
           Department of Commerce’s foreign and domestic fields. Internationally, SelectUSA identified 25 target
           markets for focused outreach and engagement. Those markets - which include Belgium, Brazil, Canada,
           China & Hong Kong, Finland, France, Germany, India, Ireland, Israel, Italy, Japan, Mexico, Netherlands,
           Russia, Saudi Arabia, Singapore, South Korea, Spain, Sweden, Switzerland, Taiwan, United Arab
           Emirates, and United Kingdom – comprise 90 percent of current foreign direct investment (FDI) in the
           United States. SelectUSA provided training to commercial officers in 23 of these 25 target markets.
           Domestically, SelectUSA is increasing awareness of its services among U.S. economic development
           organizations and other key stakeholders by leveraging intra-agency partners, including the National
           Institute of Science and Technology’s Manufacturing Extension Partnership (NIST-MEP), the Economic
           Development Administration (EDA), the Minority Business Development Agency (MBDA), and the U.S.
           Patent and Trademark Office (USPTO).


           Allocating Resources to Support the President’s National Export Initiative


           ITA


           The US&FCS (United States and Foreign Commercial Service) is the USG’s front facing exporter support
           unit, focusing on “export generating trade promotion” activities in an increasingly global marketplace, all
           priories of the President’s National Export Initiative. US&FCS is presently in 72 markets comprising 94
           percent of the global market for American exports. US&FCS will continue to align its resources to help
           U.S. firms to become more globally competitive, including increased staff support to Export.Gov,
           continuing with the regionalization of US&FCS posts overseas, and repositioning staff based on a
           regularly updated resource allocation model. These initiatives will focus on increasing our expertise and
           involvement in priority markets and sectors that offer the greatest opportunity for U.S. companies. The
           Export 2.0 program delivers customized export content to U.S. companies, particularly SMEs, through a
           personalized web experience. The program consists of a knowledge center staffed by content and web
           experts that assess web content needs and develop content tailored for the web; a modern technology
           platform with cutting edge features; and a Customer Relationship Management (CRM) system. In
           addition, the program integrates all export-related content and contacts across the Federal Government’s
           Trade Promotion Coordinating Committee (TPCC) agencies into a single web platform. The Export.gov
           2.0 web portal and its content are seamlessly integrated to the larger BusinessUSA.gov platform. The
           US&FCS is also working to leverage partnerships and technology via the Export.Gov web-based platform
           to assist U.S. companies entering more markets. The US&FCS core competencies of export promotion,
           advocacy and commercial diplomacy will continue to be sustained.




                                                                   -­‐3-­‐	  

F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                 359
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          Reducing patent backlog, improving processing times, and implementing patent reform


          USPTO


          The following initiatives will be implemented to meet the OIG management challenges to reform the
          patent application process, update the IT systems, and reduce pendency time:
          •   The USPTO has adopted significant revisions to the patent examiner production (count) system. The
              revised count system places emphasis on complete and thorough initial examination, decreases
              redundancy, and encourages quicker resolution of issues in the patent application process. This
              fundamental redesign is aimed at improving quality and efficiency, thereby resulting in a decrease in
              the application backlog and pendency. It provides more time for examination and more credit for first
              actions, which emphasize high quality examination and place a focus on quality up-front early in the
              examination process. In addition, a new Docket Management element was implemented at the
              beginning of FY 2012.

          •   The USPTO is moving from a patent examination process to a multi-track process by adopting
              procedures and initiatives that incentivize abandoning applications that are not important to
              applicants; accelerating critical technologies; permitting an applicant to accelerate important
              applications; and exploring other incentive and accelerated examination options.

          •   The Three-Track Program is a new patent examination initiative that moves from a single patent
              examination process to a multi-track process which would provide applicants greater control over the
              speed with which their applications are examined, promote greater efficiency in the patent
              examination process, and allow the USPTO to deploy its resources to better meet the needs of
              innovators.

          •   The USPTO has implemented patent processes to increase efficiencies and strengthen the
              effectiveness of examination workflow in the overall patent prosecution process.

          •   The USPTO has begun an effort to reengineer the entire patent examination process from the time an
              application is filed all the way through to the granting of a patent. This effort is paramount in order to
              upgrade and redesign its IT infrastructure, and to allow innovative redesign of the examination
              process supported by state-of-the-art automated work flow capabilities. The USPTO will maximize
              the usage of automation in all processes and link project due dates to those of the end-to-end IT
              initiative such that the IT system is built to utilize the functionality of the reengineered process.

          •   The USPTO plans to hire, train and retain highly skilled and diverse examiners. While continuing to
              draw candidates from our traditional sources, it is expected that including Intellectual Property (IP)
              experienced hires will assist in developing a balanced workforce, contribute to a lower attrition rate,
              and a provide a faster transition to productivity for new hires. Recruiting candidates having significant
              IP experience will lead to a reduced training burden as well as an increased ability to examine
              applications much sooner than an inexperienced new hire, thereby increasing production output.

          The USPTO faced management challenges obtaining a reliable and sustainable source of funding to
          finance operations on a multi-year basis. The agency does not have much flexibility adjusting its fees or
          spending levels if filings and revenues change unexpectedly. To accomplish its strategic goals, the
          USPTO must have the authority to set the fees necessary to recover the cost of operations, spend fees
          collected on requirements-based operations, and to adapt and manage its funding requirements as
          changes occur in internal and external conditions.
          As the agency requires sufficient resources to reduce the patent application backlog and achieve its
          stated pendency goals, the USPTO seeks fee setting authority through the America Invents Act (AIA).
          This Act will allow the USPTO to proactively adjust its fees in response to changes in demand for




                                                                -­‐4-­‐	  

 360                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




           services, processing costs, or other factors. With fee setting authority, and with routine evaluation of the
           fee structure, the Agency can compare the cost of activities with fees to ensure the rates are set at
           appropriate levels and the fee structure is achieving rational results.
           USPTO also faces the potential existence of financial uncertainty as a result of the agency’s unique
           financial structure. Subsequent downturns in the U.S. and global economies showed the structure’s
           vulnerabilities. Multiple factors contribute to the differences, including a reduction in the number of patent
           applications filed and declines in maintenance fees collected for existing patents. In December 2010, the
           DOC IG found that the USPTO does not have clear guidance or a disciplined, documented process for
           forecasting patent fee collections. The IG recommended the establishment and implementation of written
           policies and procedures for developing fee-collection forecasts and annual reports on variances between
           projected and actual fee collections. The USPTO has completed several of these IG recommendations,
           having documented the CFO process for developing fee-collection forecasts and submitting the annual
           variance report.
           The provisions in the AIA can be categorized into three areas: (i) promulgating new rules to implement
           statutory provisions; (ii) conducting studies into congressionally-mandated areas of intellectual property
           law; and (iii) establishing new programs to facilitate the public’s access to the patent system. The agency
           is progressing well and on-time for each of these categories.


           Improving technical and financial assistance to promote domestic job growth


           NIST


           NIST promotes U.S. innovation and industrial competitiveness by advancing measurement science,
           standards, and technology in a range of strategic areas and Administration initiatives critical to the
           nation’s economy. As a non-regulatory agency in the Department, an experienced partner of industry,
           and the federal research agency specifically focused on promoting U.S. economic competitiveness, NIST
           is well-positioned to improve technical and financial assistance to promote trade and job growth through
           its Laboratory Programs and its Innovation and Industry Services Programs.
           In FY 2012, NIST Laboratories have addressed increasingly complex measurement challenges, ranging
           from the very small (nanoscale devices) to the very large (vehicles and buildings), and from the physical
           (renewable energy sources) to the virtual (cybersecurity and cloud computing). Solving these
           measurement challenges builds an infrastructure that U.S. companies will leverage to create more
           efficient and effective manufacturing processes increasing global competitiveness. Highlights for FY
           2012 include:
                •   Development of new measurement methods, protocols, and standards to facilitate improved
                    manufacturing and regulatory approval of biologic drug products.

                •   Working on the revision of the International System of Units (SI), which includes research and
                    development to support international efforts for a redefinition of the unit of mass – the kilogram.

                •   Development of single photon technologies for quantum information science and technology and
                    quantum-based communication which is pushing the boundaries of advanced, cutting-edge
                    metrologies that can be applied to problems of national significance in such areas as
                    communications, defense, electronics, energy, health, lighting, and manufacturing.

                •   Conducted the research, development and outreach necessary to provide standards and
                    guidelines, tools, metrics and practices in the information technology areas of Smart Grid, Cloud
                    Computing, Cybersecurity and Next-generation Robotics and Automation.




                                                                  -­‐5-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                361
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




              •   Supporting the Food and Drug Administration’s regulatory reform through development of
                  standards to assess the measurement validity of data from new technologies, such as ultra high
                  throughput DNA sequencing as used for whole genome sequencing.
          NIST ensures the efficient commercialization and exchange of goods and services and enables a fair
          global marketplace by providing the scientific underpinnings for basic and derived measurement units in
          the international standards community, calibration services, and certified reference materials; impartial
          expertise and leadership in basic and applied research to enable development of test methods and
          verified data; and support for the development of and conformity to open, consensus-based standards
          and specifications that define technical and performance requirements for goods and services.
          In support of the Administration’s emphasis on serving industry through outreach services, NIST provided
          two externally-focused services through FY 2012: The Hollings Manufacturing Extension Partnership
          (MEP) and the Baldrige Performance Excellence Program (BPEP). Highlights of the MEP program
          include:
              •   Accelerating technology transfer by assisting manufacturers in adopting technology and
                  inventions from federal laboratories and by scouting for technical solutions to current needs.

              •   Developing the National Innovation Marketplace, in partnership with other organizations, which
                  facilitates connections between original equipment manufacturers and potential suppliers.

              •   Deploying ExporTech nationally as collaboration between MEP, U.S. Export Assistance
                  Centers, and other partners including District Export Councils, State Trade Offices, Export-Import
                  Bank and the Small Business Administration. ExporTech leads companies through a facilitated
                  process that prepares them for profitable growth in global markets.

              •   Supporting the Economy, Energy, and Environment (E3), a coordinated federal and local
                  technical assistance initiative that is helping manufacturers across the nation adapt and thrive in a
                  new business era focused on sustainability, leveraging the resources of the Department of
                  Commerce, the Department of Labor, the Department of Energy and the Environmental
                  Protection Agency.

              •   Focusing on the “Make It In America” agenda. The national MEP system scouts for U.S.
                  manufacturing capabilities and capacities in an effort to solve difficult supply chain and
                  procurement issues by connecting potential suppliers with federal procurement sources, assisting
                  manufacturers with product expansion and/or alteration for additional uses, and securing the
                  engineering necessary to produce technical data needed for manufacturing.
          In the future, NIST will align its programs with the following strategic priorities to ensure that targeted
          program investments meet its mission of advancing U.S. innovation and industrial competitiveness.
          In order to strengthening U.S. advanced manufacturing capabilities, NIST will continue to develop and
          deliver the measurement science tools that will support advanced manufacturing technologies; support
          technologies and practices that increase the competitiveness and resiliency of our nation’s small and
          medium manufacturing base, through the MEP; host the interagency Advanced Manufacturing National
          Program Office; and launch the Advanced Manufacturing Technology Consortia (AMTech) initiative.
          In order to enable strong and reliable trade programs, NIST will advance the state of the art in
          cybersecurity solutions by encouraging the rapid adoption of advanced security technology through the
          National Cybersecurity Center of Excellence that will bridge the gap between the public and private
          sectors and provide U.S. companies with technical resources for developing, evaluating, and transferring
          the technology needed to secure their intellectual property and data; and support the Administration’s
          National Strategy for Trusted Identities in Cyberspace (NSTIC) initiative by facilitating the creation of an
          Identity Ecosystem that gives participants access to secure credentials and increases the opportunities
          for trusted on-line transactions.




                                                                 -­‐6-­‐	  

 362                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




           To accelerate technology transfer and commercialization in support of the October 2011 Presidential
           Memorandum, “Accelerating Technology Transfer and Commercialization of Federal Research in Support
           of High-Growth Businesses,” NIST efforts will include:
                 •   Establishing and implementing a plan to increase technology transfer activities with external
                     partners;

                 •   Developing a comprehensive definition of the full range of NIST’s technology transfer
                     mechanisms and executing a coordinated effort to track the outcomes and impacts of such
                     activities; and

                 •   Establishing new competitive Centers of Excellence in measurement science areas defined by
                     NIST, which will provide an interdisciplinary environment for NIST, academia and industry to
                     enable innovation and technology transfer.


           Ensuring the elimination of social and economic surveys does not adversely affect vital national
           indicators


           ESA / BEA


           BEA strives to provide the most timely, relevant, and accurate measures of economic activity possible in
           order to inform the decisions of policymakers, business leaders, and every American household. BEA’s
           national, industry, regional, and international economic accounts present statistics—including GDP (for
           the nation, by state, by metropolitan area, and by industry), personal income and outlays, corporate
           profits, and the balance of payments—that are critical indicators of overall economic growth, growth in
           U.S. jobs, and growth in exports of U.S. goods and services.

           In FY2012, BEA achieved several milestones that advanced efforts to improve its statistics and to keep its
           statistics in pace with the rapidly changing economy. For example, BEA developed prototype quarterly
           GDP by industry statistics that provide a more detailed and precise view of how U.S. industries—including
           the U.S. manufacturing sector—contribute to overall economic growth. The recent recession and
           recovery highlighted the need for data on a quarter-by-quarter basis to track industry performance and to
           gauge industry response to various stimulus programs and other key factors. In addition, BEA developed
           a new linked dataset that combines data on cross-border trade in services with data on operations of
           multinational companies to answer key questions such as: What are the characteristics of firms that
           engage in international services trade? What are the patterns of international trade in research and
           development? BEA also developed an alternate approach to detailing household expenditures on health
           care by classifying spending on a disease-by-disease basis. This new classification facilitates cost-
           benefit assessments and provides a better understanding of the factors that drive growth in health care
           spending. Finally, BEA made progress on developing new statistics on the distribution of household
           income and consumption that provide decision-makers with a better understanding of how changes in the
           economic environment can have very different impacts across households, industries, and regions.


           Correct Unfair Trade Practices and Protect Our National Security


           ITA


           When Commerce and the U.S. International Trade Commission make affirmative final determinations in
           an antidumping (AD) or countervailing duty (CVD) investigation, Commerce issues an “Order” which
           specifies the estimated duty liability importers will incur when importing merchandise subject to a trade




                                                                   -­‐7-­‐	  

F Y   2 0 1 2    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                 363
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          remedy proceeding. Increasingly, Commerce has observed numerous schemes on the part of exporters
          and importers to evade the payment of AD and/or CVD duties. These include, for example, the
          circumvention of our orders through the minor alteration of subject merchandise in a third country.
          Further, under the statutory provisions allowing for “new shipper reviews,” certain exporters may be able
          to receive a very low, or no, AD duty rate on its exports. Subsequently, these companies may increase
          their dumping activity significantly but when efforts are made to assess the proper amount of duty, the
          importer of record may have disappeared resulting in the revenue going uncollected. Issues of duty
          evasion and transshipment also exist. While many of these issues properly fall within the jurisdiction of
          Customs and Border Protection, IA often works with CBP as it sorts through these issues. The activities
          identified above, when combined with an already extremely heavy AD/CVD caseload and limited
          resources, present significant challenges for IA as it attempts to enforce the trade laws and provide relief
          to domestic industries that suffer material injury as a result of dumped and subsidized imports.



          Improve Regulatory Reviews to Protect and Promote Public Interests


          NOAA


          The Department continues to prepare a Regulatory Impact Review (RIR) to assess regulatory impact and
          select the regulatory alternative that maximizes net benefits to the Nation. This review is based on the
          best available science and accounts for potential economic, environmental, public health and safety, and
          other effects. It also includes distributional impacts and equity considerations, unless a statute requires
          another regulatory approach. This is consistent with E.O. 12866, which includes an analysis of the
          regulatory alternatives’ expected costs and benefits. Further, the Department also prepares a
          Regulatory Flexibility Act Analysis (RFAA), which is necessary to satisfy the requirements of the
          Regulatory Flexibility Act (RFA). The RFAA assesses the impacts of rules on small entities and describes
          the steps taken by the Department to minimize any significant economic impact on small entities while
          achieving regulatory goals. The general intent of the RIR and RFAA is to make the regulatory process
          open and transparent so that everyone can understand the decision-making process and agree that the
          required steps of that process were followed. The Department uses performance measures to track the
          effectiveness of fisheries regulations in achieving outcomes associated with sustainable fisheries. We will
          continue to work on developing new performance measures based on improved data and analytical
          methods.




          2. Reduce Costs and Improve Operations to Optimize Resources for a Decade of
          Constrained Budgets
          As the government prepares for an extended period of tighter budgets and decreased spending, it is most
          important to target waste, reduce inefficiency, and ensure that taxpayers’ dollars are spent wisely. It will
          be difficult, but possible, to leverage savings to support investments in economic growth. Agencies
          should:
          Implement and Expand Initiatives to Improve Operational Efficiency and Economy. The Department
          has an initiative in place to save $143 million in administrative costs in FYs 2011 and 2012. About 60
          percent of the target savings would derive from reduction in facilities, information technology (IT), and
          workforce. The remaining 40 percent would derive from more strategic sourcing and reducing the use of
          high-risk acquisition contracts. Relentless management attention and oversight of reported savings are
          critical to achieving the Department’s goal.
          Strengthen Oversight of Improper Payments for Additional Recoveries. The Department can
          increase efforts to implement the Improper Payments Elimination and Recovery Act of 2010—and




                                                                 -­‐8-­‐	  

 364                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




            maximize the dollars it recovers from improper payments. Adjusting payment testing practices and
            focusing on highest risk programs are key.
            Reduce the Risk of Misuse, Abuse, or Waste of Federal Funds Awarded to Grantees. In June 2011,
            the Department reported about $10 billion accumulative outstanding obligations, more than half of which
            were for grants. The diversity and duration of the Department’s grant programs further highlight the need
            to examine ways to standardize and streamline its management processes, such as consolidation of the
            Department’s three separate grants management systems and better use of OIG and single audit reports
            to detect emerging issues.
            With $4 billion in funding, the Broadband Technology Opportunities Program (BTOP) represents a
            significant investment of Recovery Act funds to develop and deploy broadband services nationwide. The
            success of BTOP depends on the coordinated efforts of NTIA and its grant management partners, NOAA
            and NIST. However, the uncertain funding for BTOP oversight in FY 2013 and beyond (i.e., to oversee
            the closeout of projects and the completion of projects that receive extensions) raises concerns about
            NTIA’s ability to adequately oversee the program’s future.
            Apply Lessons Learned from 2010 Decennial to Planning for the 2020 Census to Avoid Cost
            Overruns. Given projections of increasing life-cycle cost estimates to $22–30 billion, Census has to
            fundamentally change the design, implementation, and management of the 2020 decennial census. The
            decade’s early years are critical for deciding on a design and implementing changes to decennial
            operations. With funding constraints likely, the bureau needs to prioritize its research and testing to
            determine the feasibility, cost, and data-quality impacts of proposed census design changes.


            Bureau Responses:


            Implement and Expand Initiatives to Improve Operational Efficiency and Economy.


            DM


            For FY 2012, the Department sought to save $143 million in administrative costs. By the end of FY 2012
            (currently projected), the Department saved $177 million in administrative costs, or 24 percent above the
            FY 2012 target. In particular, the areas of Logistics and General Administration had significant savings.
            DM will continue to seek administrative savings in FY 2013. See the table below for a breakout of
            specific areas:



                                                             Target                Actual*       Difference   % Difference

            Acquisition Reform                               46,283                36,852        -9,431       -20

            Human Capital                                    61,159                55,892        -5,267       -9

            Logistics                                        18,538                47,545        29,007       156

            General Administrative                           7,042                 29,497        22,455       319

            Information Technology                           3,351                 2,365         -986         -29

            Working Capital Fund Efficiencies                6,357                 6,042         -315         -5




                                                                     -­‐9-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                365
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




           Total                                             142,730             178,193       35,463         25



           * Actual reflects reported data through July 2012 and projected amounts for August and
           September, 2012.



           ITA


           Administrative Savings

           ITA is contributing to the administrative savings efforts through the reutilization of surplus IT equipment
           received from Census, and by renegotiating overseas contracts for telecommunications services to
           achieve cost savings and improve bandwidth at selected foreign posts. We also continue to benefit from
           the savings achieved by moving from a commercial data center to Census’ Bowie Computer Center
           (BCC) in FY 11.

           Strategic Sourcing

           ITA is has taken maximum advantage of the new DOC PC and Accessories contract, by withholding
           major computer purchasing until this contract was in place, midway through the fiscal year. Because the
           award of the contract coincided with our equipment refresh point for the majority of ITA end-user
           computers, ITA expects to achieve savings in the range of $280 thousand. ITA is also planning to renew
           annual maintenance for Adobe software products using the recently awarded DOC BPA, and expects to
           save 30-40% (or approximately $15-$20 thousand) in comparison to last year’s purchase.

           Although the DOC PC and Accessories contract offers advantageous pricing, there was a significant
           negative business impact as a result of an almost six-month delay due to administrative issues
           associated with procurement procedures and product configurations. The administrative complexity
           associated with getting large shared-use contracts up and running smoothly should not be
           underestimated. Hopefully, lessons learned with this contract can be applied to additional DOC-wide
           contract vehicles that are in the process of being implemented.



           NIST


           As of May 31, 2012, NIST has contributed approximately $16 million towards the overall Commerce
           Department goal of $143 million in administrative cost savings, to include:
                 •   Approximately $11 million in human capital and position control initiatives.
                 •   Approximately $5 million in acquisition reforms and strategic sourcing initiatives.
           In addition, NIST has identified another $3.2 million in savings expected to be realized by the end of FY
           2012, to include:
                 •   $1.5 million in human capital and position control initiatives.
                 •   $1.3 million in logistics related initiatives.
                 •   $0.4 million in acquisition reforms and strategic sourcing initiatives.




                                                                  -­‐10-­‐	  

 366                                              F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                     A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




            In FY 2013, the Commerce Department plans to save another $33 million in administrative costs. NIST’s
            share of these administrative cost savings are anticipated to be approximately $2.7 million and are
            expected to be realized through additional acquisition, human capital, and logistical reforms.




            Strengthen Oversight of Improper Payments for Additional Recoveries.
            DM

            The Department has in place a cost-effective program of internal control to prevent, detect, and recover
            overpayments. The Department’s program of internal control includes activities such as reviews of
            disbursements cycles, prepayment reviews, improper payment risk assessments, improper payments
            reporting and monitoring, and payment recapture audits. Results of Departmental improper payments
            risk assessments as well as reviews of internal controls over disbursement processes have not revealed
            a program or activity susceptible to significant improper payments. The risk assessments have indicated
            current internal controls over disbursement processes are sound, the amount of improper payments is
            immaterial, and the risk of significant improper payments is low. Along with its recapture audit of
            contracts, as a result of the Improper Payments Elimination and Recovery Act (IPERA) of 2010, the
            Department also implemented payment recapture audits of grants and other cooperative agreements.
            The FY 2011 Department-wide payment recapture audit of grants and other cooperative agreements as
            well as the FY 2011 payment recapture audit of NTIA closed contracts/obligations, did not identify any
            improper payments. The Department is continuing in FY 2012 with new payment recapture audits of
            Department-wide grants and other cooperative agreements and closed contracts/obligations for selected
            bureaus. Effective FY 2012, the scope of payment recapture audits of contracts/obligations has been
            expanded to additionally include contracts/obligations for which the period of performance ended and last
            payment was made, but for which the closeout process has not yet been completed.




            Reduce the Risk of Misuse, Abuse, or Waste of Federal Funds Awarded to Grantees.

            DM

            The Office of Acquisition Management (OAM) has worked to improve the oversight, compliance and
            policies for grants management in DOC. OAM has pursued a plan of action to provide better insight into
            the Bureau grants information systems; track various audit findings (Single Audit Act, OIG, GAO and
            Internal Controls) and resolution; and ensure that policies are updated to deal with recurring audit
            findings.

            In addition, the Department has initiated an analysis of the Grants functional area to assess the
            effectiveness of internal controls. The purpose of the analysis is to assess the level of risk associated
            with each Financial Assistance Program, identify existing internal controls, and evaluate the effectiveness
            of the existing internal controls with the level of inherent risk. The recommendations provided in the
            results of the study will be considered and appropriate risk mitigation measures implemented.

            OAM has collaborated with the Office of Inspector General to more closely track the audit resolution
            process to insure that audit findings are successfully resolved. Additionally, OAM is now on the
            distribution list for Government Accounting Office reports pertaining to grants processes including waste,
            fraud and abuse.
            	  




                                                                     -­‐11-­‐	  

F Y   2 0 1 2      P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                   367
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          NTIA
          	  
          NTIA’s FY 2013 Congressional Budget Request includes a proposed increase of $996,000 to the
          Broadband Programs’ FY 2013 base budget. Additional funding will enable NTIA to avoid a gap in
          oversight necessary to mitigate the risk of waste, fraud, and abuse of public funds. NTIA will be able to
          continue to work with recipients to close their grants and ensure that recipients properly account for the
          Federal funds spent under the grants. The additional $996,000 will enable NTIA to continue contract
          services through the end of FY 2013 to ensure that NTIA conducts adequate grants oversight and
          technical assistance to recipients as their projects near completion. The contract support also will help fill
          resource gaps, as NTIA expects Federal staff attrition under the limited remaining term of these
          Broadband programs.


          Apply Lessons Learned from 2010 Decennial Census to Planning for the 2020 Census to
          Avoid Cost Overruns
          	  
          CENSUS
          	  
          The Bureau has completed the Decision Making Roadmap for FY12-14 including identification of key
          program and project deliverables, and linked projects to budgets. We also completed analysis of FY12-
          14 coverage of decennial census functions along with recommendations for disposition of functions not
          covered in the first planning phase. Future work includes integrating roadmap and key products into the
          integrated schedule, ensuring decisions, projects, and budgets are integrated so that the full breadth of
          change can be understood. We are expanding on the initial 2020 Decision Making Roadmap and
          developing a governance strategy, laying out roles and responsibilities, decision-making processes, and
          aligning program controls.
          Census has created interdivisional teams that have begun research. Some of this research includes
          exploring alternative approaches to responding to the 2020 census such as Internet and web-based
          response options, and utilizing administrative records. They have constructed their initial Concept of
          Operations (CONOPS). The purpose of the CONOPS is to break operations down into manageable
          projects, and articulate goals, dependencies, and timing for each of the FY12 projects. CONOPS are
          now being developed for each of the tests, and a detailed schedule of all research and testing operations
          will be finalized in August 2012. The Lifecycle Budget Planning team will use this schedule to develop the
          key decision points for the research program to ensure evidence is in place to inform conclusions about
          the operational design for the census. This work also is critical to help census management, oversight,
          and stakeholders understand when and how those decisions will be made.
          In June 2012, senior management continued their discussions of exploring the options and opportunities
          of using the American Community Survey (ACS), such as the ACS Content Test in FY 2015, for the 2020
          Census. By September 2012, we will document which of the planned research and testing field tests can
          be conducted by leveraging the ACS.




          3. Strengthen Department-Wide Information Security to Protect Critical
          Information Systems and Data
          In recent years, the federal government—and the Department in particular—have increasingly taken
          advantage of Internet-based technologies to interconnect IT systems and conduct business with the
          public. As this trend continues, cyberattacks on Internet commerce, vital business sectors, and
          government agencies have grown exponentially. To address such threats, the Department plays a




                                                                -­‐12-­‐	  

 368                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




           leading role in developing public policies and private-sector standards and practices. But the
           Department’s own IT systems are constantly exposed to increasingly numerous and sophisticated
           cyberattacks. We have recommended that the Department:
           Continue Working to Improve IT Security by Addressing Ongoing Security Weaknesses.
           For our FY 2010 Federal Information Security Management Act of 2002 report to the Department, we
           evaluated 18 Department IT systems and concluded that the Department’s information security program
           and practices have not adequately secured Department systems. In response to our recommendations,
           the Department developed an action plan to address the security weaknesses we identified—and, in the
           past year, the Department has taken several steps toward improving IT security. However, until the
           Department successfully implements the items in its action plan, we can expect to find recurring security
           weaknesses. Our FY 2012 work continues to find significant security weaknesses in Department and
           contractor systems that put the systems at risk of cyberattack.
           Implement Security Policy Effectively Through Consistent, Proactive Management. Our
           audits reaffirm the need for increased senior management attention to ensure security policy and
           practices are applied consistently and effectively across the Department. For example, we reviewed a
           sample of FY 2010 and FY 2011 performance plans for individuals holding critical IT security roles—and
           found that requirements for these roles are not consistently incorporated in some of the performance
           plans. Additional cyberinfrastructure challenges the Department faces include securing hundreds of
           Internet connection points on Departmental networks and establishing enterprise monitoring capability
           and a cybersecurity center.


           Bureau Responses

           Continue Working to Improve IT Security by Addressing Ongoing Security Weaknesses

           DM


           The Department continues its ongoing efforts to improve and elevate IT security programs for Commerce
           information systems. The Department’s accomplishments in FY 2012 include addressing the
           recommendations outlined by the OIG in the FY 2010 and FY 2011 Federal Information Security
           Management Act Audits and in the OIG’s FY 2011 Web Security Management Audit report.
           The Department implemented several new policies to address deficiencies within IT security programs
           across the Department including vulnerability scanning and patch management; secure configuration
           checklist program; plans of action and milestones (POA&M) management; risk management framework
           (RMF); password management, and safeguarding information while on foreign travel. The Department
           also issued Commerce-wide guidance on secure implementation, use, and management of mobile
           technology.
           The Department is pursuing Enterprise initiatives to promote best practices for IT security. Commerce
           implemented Managed Trust Internet Protocol Service to support operating units (OUs) within the HCHB
           campus to comply with OMB’s Trusted Internet Connection (TIC) initiative. The Department has awarded
           a contract for Enterprise Cybersecurity Monitoring and Operations (ECMO), which will allow continuous
           monitoring of security related information across Commerce systems. The Department also launched a
           Security Shared Services effort and working group to leverage common controls and services throughout
           the HCHB campus.
           Despite its progress on remediation of deficiencies, one of the Department’s smaller bureaus experienced
           an IT security incident in FY 2012. As a result, the Department engaged two independent assessments
           of the Office of Secretary performed by the Department of Homeland Security (DHS) and National
           Security Agency (NSA). The preliminary results of the assessments cited while IT security improvements
           could be made, there were no impacts from the security incident on Office of the Secretary critical
           information systems.




                                                                  -­‐13-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                369
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          ITA


          ITA has addressed security weaknesses identified in audits and reviews by (a) increasing our contractor-
          based operational IT security staff to ramp up our monitoring and response capabilities, (b) implementing
          a new highly sophisticated security tool that has dramatically improved our ability to resist, detect and
          contain intrusions, and (c) focusing our improvement efforts in key areas, such as those addressed in the
          Top-5 Security Controls monitoring as part of the DOC Balanced Scorecard.

          Implement Security Policy Effectively Through Consistent Proactive Management

          DM


          The Department has developed several IT security metrics tracked monthly and quarterly including
          system authorization status; POA&M management and delays; progress on implementation of critical
          configuration management and vulnerability management controls; and progress on remediation of
          FISMA and FISCAM IT audit findings. Several of these are being tracked through the Department’s
          Balanced Scorecard process, providing visibility of cybersecurity metrics at senior levels of Department
          leadership. The Department also performed more than 25 IT security assessments throughout FY 2012
          including IT Compliance checks of all of the Commerce operating units.
          Strengthening the Cybersecurity workforce within Commerce continues to be a top priority. The
          Department implemented a role-based training policy for employees with significant IT security roles and
          responsibilities and tracks progress on completion of annual requirements on a quarterly basis. The
          Department also re-issued a joint memorandum, incorporating IT security critical elements into
          performance plans of personnel with significant IT security roles and responsibilities, from the Chief
          Information Officer and the Deputy Chief Human Capital Officer and Director of Human Resources
          Management in June 2012. The Department continues to be proactive in the area of IT training by
          offering workshops, vendor expos and webinars for IT information systems owners and authorizing
          officials throughout Commerce quarterly.

          ITA

          During the past year, ITA has strengthened the IT security workforce by recruiting additional government
          staff with professional security certifications to serve in key roles such as Information System Security
          Officers (ISSO), and who are now making significant contributions to security policy oversight and
          implementation.

          To focus senior management attention on IT security, the CIO routinely briefs ITA senior executives who
          are members of ITA’s Management Council, meets frequently with ITA’s Deputy Under Secretary to
          apprise her of key security events and issues, and chairs a weekly meeting led by ITA’s Chief Information
          Security Officer (CISO). The CIO also organized special security briefings this year for ITA senior staff
          engaged sensitive work, to apprise them of emerging security threats and appropriate defensive
          measures.

          ITA also achieved compliance in June of this year with OMB’s Trusted Internet Connection (TIC)
          mandate, which significantly reduces ITA’s exposure to Internet threats by minimizing the number of
          Internet access points and implementing monitoring services provided by US-CERT/DHS.




                                                                -­‐14-­‐	  

  370                                           F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




            4. Manage Acquisition and Contract Operations More Effectively to Obtain Quality
            Goods and Services in a Manner Most Beneficial to Taxpayers
            In FY 2010, the Department obligated nearly $4 billion through more than 26,000 contract actions to
            acquire a wide range of goods and services to support mission-critical programs. While the Department
            has made some progress in this important area, it should continue to:
            Develop and Retain a Qualified Acquisition Workforce. Recruitment, training, and retention pose risks to
            the Department’s ability to meet its increasing acquisition workload. In FY 2010, the Department
            experienced a 15 percent attrition rate among contracting officers. Further, between FYs 2009 and 2019,
            54 percent of the senior-level acquisition employees in the Department will be eligible to retire. The
            Department lacks a sufficient pipeline of entry- to mid-level professionals to sustain operations during the
            projected retirement wave.
            Ensure High Ethical Standards in the Acquisition Workforce and in Procurement Practices. Government
            contracting is risky by nature. Department employees in contract-related positions represent the front line
            of defense by promptly recognizing and reporting ethics violations and fraud indicators. The Department
            needs to take actions to prevent recurrence of OIG investigative findings—questionable sole sourcing
            practices against advice of counsel, steering contracts to acquaintances, splitting purchase card
            transactions to circumvent spending limits, and improper communications with unsuccessful contract
            bidders. The Department also needs to strengthen its suspension and debarment program, which would
            help to ensure it awards contracts and grants only to responsible parties. The Department’s current
            suspending and debarring official has begun to develop the processes and policies that form the
            foundation of a successful suspension and debarment program. Despite this recent progress, creating an
            efficient and durable program remains a challenge.
            Strengthen Processes to Govern the Appropriate Use of High-Risk Contracts and to Maximize
            Competition. High-risk contracts—including contracts awarded noncompetitively or in which only one bid
            was received, cost-reimbursement contracts, and time-and-materials and labor-hour contracts—
            comprised almost 40 percent of the total value of new contract awards in FY 2010. The Department
            needs to reduce high-risk contract awards and exercise strong oversight of performance-based contracts
            such as cost-plus-award-fee. Although designed to motivate excellence in contractor performance,
            without strong oversight, performance-based contracts can represent an additional risk to the
            Department.
            Achieve Efficiency and Savings in Acquiring Goods and Services, and Improve Oversight and Tracking of
            Contract Savings. The Office of Management and Budget (OMB) requires agencies to focus on cutting
            contract costs by using smarter buying practices. The Department has taken steps to improve its
            monitoring and verification of the cost savings reported by the bureaus’ procurement offices. While these
            efforts to improve reporting represent real progress, continued attention will be needed to meet the level
            of accountability called for by OMB.
            Deliver Cost Savings and Efficiency on Major IT Investments. The Department spends about 25 percent
            of its annual budget on IT investments—one of the highest percentages among federal agencies.
            Accordingly, the Department must watch for any opportunity to save money, improve efficiency, and
            prevent setbacks to these important investments. For instance, the Department reported serious cost and
            schedule problems concerning four NOAA IT investment projects, totaling $265 million. In addition, we
            have identified challenges and offered recommendations to improve USPTO’s Patent End-to-End
            acquisition initiative with an estimated cost of $130 million.




                                                                  -­‐15-­‐	  


F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                371
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          Bureau Responses


          DM / OAM

          The Office of Acquisition Management, in conjunction with its partners in oversight and management of
          acquisition programs, is implementing a comprehensive Scalable Acquisition Project Management
          Framework within which systematic program management control, oversight and skills development can
          be accomplished within the Department.

          The Office of the CFO/ASA, in conjunction with the Office of the Chief Information Officer, facilities,
          program management, the CFO community, and the bureaus have collaboratively developed a unified,
          centralized approach to program and project management within the Department. The acquisition
          milestone Framework guidance and policy comprehensively defines the processes and requirements for
          high-profiles programs/projects. Using the Framework model, senior level Departmental management
          has assisted in initial reviews of high-profile programs, to include the satellite programs. The draft interim
          policy is in the Commerce Secretary’s office awaiting final signature to transition from a year long
          development process to implementation.

          Develop and Retain a Qualified Acquisition Workforce

          OAM continues to work with the Office of Human Resource Management (OHRM) to maximize incentives
          and recruitment strategies. The acquisition-specific marketing campaign has succeeded in yielding a
          larger pool of applicants from academic institutions and associations.

          The Department has taken several steps to ensure the capacity and capability of the acquisition
          workforce to effectively manage the Department’s resources. Using the Direct Hire authority, the
          Department successfully hired eight contracting professionals and the number of entry-level contracting
          staff was increased by 14% to help ensure an adequate entry-level pipeline to address the projected
          retirement wave. To ensure the development of a capable and competent acquisition workforce, the
          Department has ensured that all Program/Project Managers assigned to projects considered major
          investments, Contracting Officers, and Contracting Officer Representatives have the requisite education,
          training and experience for Federal Acquisition Certification (FAC) and provided targeted training to close
          identified competency gaps. In addition, the Department’s FAC-COR program was enhanced to include
          experience requirements and training in small business programs and green procurement.

          Additional steps taken to develop and retain a qualified acquisition workforce include:

          •   The Department reduced the average time to hire 1102s from 105 calendar days in FY12 Q1 to 68
              days in FY12 Q3, for a cumulative FY12 average of 76 days, which is below the 80-day target. By
              reducing the average number of days in the recruitment process, any lost productivity due to
              vacancies and its impact on the acquisition workload is also reduced.
          •   Approximately 26% of 1102s engage in telework. Telework is widely used by the Department to
              position itself as an “employer of choice” in attracting qualified employees, facilitating employee
              work/life balance, increasing employee satisfaction and engagement, and ultimately increasing
              employee productivity.
          •   The Commerce Learning Center (CLC), the Department’s Learning Management System, provides all
              Commerce employees with access to basic online acquisition courses such as: lT Acquisition
              Development, and Implementation; Fundamentals of Purchasing and Vendor Management;
              Government Contracting Essentials; Proper Use of Government Charge Cards; and Finding Sources
              of Supply.
          •   Employees throughout the Department completed several classroom training courses including:
              Performance-Based Acquisition; Green Procurement; Contracting Overview; Commercial Item
              Pricing; Contract Source Selection; Contract Terminations; COR with a Mission Focus; Cost




                                                                -­‐16-­‐	  

 372                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




                Estimating; Ethics Training for Acquisitions; Improved Statement of Work; Market Research; Past
                Performance Information; Acquisition Planning; and Purchase Card Training.
           •    Throughout the Department, 219 employees were trained in the Project Management (PM) discipline
                through Commerce’s formal PM Master’s Certificate Program and IT PM Master’s Certificate
                Program, which are administered in conjunction with The George Washington University. Employees
                have two years to complete the 7 required core courses, by successfully passing each course’s final
                examination, to earn their certificates.

           Ensure High Ethical Standards in the Acquisition Workforce and in Procurement Practices

           High ethical standards are critical to the acquisition process and maintaining public trust. The
           Department’s acquisition leadership routinely demonstrates and emphasizes high ethical standards to the
           acquisition workforce through policies, procedures, and training. Awareness and training of ethical
           practices is integrated into the training curriculum for all members of the acquisition workforce and is
           reinforced at the Department’s annual acquisition conference. Additionally, the acquisition community
           works closely with the Office of General Counsel to provide guidance and assistance throughout the
           acquisition process to ensure integrity of the acquisition process.

           The Department has taken steps to protect the Government’s interest by ensuring that awards are made
           to responsible sources by strengthening its Suspension and Debarment Program. The Department
           consulted with other agency officials, collaborated with the Office of Inspector General (OIG) and Office of
           General Counsel (OGC) in the development of a strong program that effectively leverages DOC’s
           resources. These advances include the implementation of a case referral process in addition to the
           creation of the Suspension and Debarment Coordinator function to ensure that processes and procedures
           are followed in a timely manner. As a result, the Department has taken prompt action on all
           suspension/debarment referrals and increased the number of actions by 314%. The Department will
           continue to enhance the Suspension and Debarment Program through the issuance of policies,
           procedures and internal controls.

           Strengthen Processes to Govern the Appropriate Use of High-Risk contracts and to Maximize
           Competition

           The Office of Acquisition Management has implemented policies and processes to govern the appropriate
           use and strengthen the management and oversight of high-risk contracts and to maximize competition.
           OAM in conjunction with acquisition managers in the operating units, developed comprehensive
           acquisition measures with specific targets. The measures include reduction in high-risk contracting and
           increasing competition. The Senior Procurement Executive conducts monthly reviews of acquisition
           measures to allow for adjustments during the course of the year to ensure progress is being made toward
           achieving targets and to leverage best practices among the contracting offices. Monthly reports on high-
           risk and competitive acquisition achievement are provided to members of the Department’s Acquisition
           Council.

           In addition, the department has increased the focus on acquisition planning which provides the
           opportunity to identify requirements early in the acquisition phase in order to allow for adequate market
           research that will help maximize competition and create more effective, less risky acquisition strategies.

           Achieve Efficiency and Savings in Acquiring Goods and Services, and Improve Oversight and
           Tracking of Contract Savings

           Commerce has launched a Department-wide Strategic Sourcing/Cost Reduction program, built upon a
           strong foundation of rigorous tracking, managing and reporting of savings. The project was built upon a
           strong body of data and measures gathered during an “opportunity analysis” phase. The opportunity
           assessment was conducted across over $4 billion spent on goods and services in late 2010 to identify
           cost reduction opportunities, and a range of initiatives were uncovered. The initiatives spanned a number
           of categories (Cellular Services, Office Supplies, PCs & Accessories, Print Management & Energy, and
           Small Package Delivery) and included both demand management and acquisition related strategies. The




                                                                 -­‐17-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                373
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          successful implementation of these strategies resulted in $5.4M in cost savings in FY11 – surpassing
          original targets by more than double. The project has captured $9.6M in savings as of August 2012 and is
          expected to achieve $14.9M in savings by the end of the fiscal year. In addition, a second wave with two
          new initiatives was launched in September, 2011: Onsite Professional & Technical Support Services and
          Software & Maintenance. The project team continues to analyze the Department’s spending and patterns
          for new initiatives to ensure there is a healthy pipeline of savings opportunities.

          As each of the initiatives is launched, additional detailed data is gathered across the Department to
          ensure an accurate baseline with actual historical data, by Bureau and by initiative, from which to
          measure future savings. OAM has implemented a robust and formal process to validate and document
          savings that includes multiple levels of review and control with emphasis on appropriate visibility at all
          organizational levels.

          To institutionalize the knowledge gained and sustain the results in the long-term, a Procurement
          Performance Excellence Office was established under the Office of Acquisition Management. The
          organization currently has a Director and is looking to expand with additional resources to monitor and
          track savings from implemented initiatives and build upon the momentum with new cost reduction
          strategies.

          Deliver Cost Savings and Efficiency on Major IT Investments

          The Department has instituted a systemic approach to enhancing collaboration on major investments.
          Communication of and coordinated responses to major IT investments is routinely practiced between all
          Departmental stakeholders including the acquisition, information technology, budget, financial
          management, and risk management communities. This collaboration has resulted in a more effective
          environment for integrating cost savings and efficiencies on major IT investments.

          In addition, the Department conducted a comprehensive study of its acquisition function to examine the
          full spectrum of DOC’s acquisition operations and processes. The study recognized that there exist a
          prevailing need for a more systematic approach to overseeing and managing acquisitions, particularly
          with regard to requirements definition/development and managing project requirements. Toward that
          end, a Department-wide team worked collaboratively on the development of a Scalable Acquisition
          Project Management Framework (Framework) to serve as the infrastructure to an integrated acquisition
          project management system. The Framework is designed to provide a life-cycle approach to managing
          acquisition projects from concept initiation to project delivery, and retirement that is scalable dependent
          on the project’s size, complexity, and level of risk with a special focus on high-profile and/or highly-
          complex acquisitions such as high-risk IT projects.

          The Framework encompasses three distinctly defined early phases of the acquisition life-cycle (the
          conceptual phase; the project definition phase; and the project development phase), each requiring
          assessment of the project readiness and risk prior to formal authorization to proceed to the subsequent
          phase.


          NOAA
          NOAA TechStat Reviews

          NOAA has conducted numerous TechStats since FY2010. A TechStat is a face-to-face, evidence-based
          review of an IT investment. A TechStat is triggered when the NOAA CIO determines that a project is
          underperforming or at risk, using data from the Federal IT Dashboard and other sources. During the
          session, the investment’s Project Manager briefs the NOAA CIO, NOAA Risk Management Officer, and
          NOAA Acquisitions and Grants Office Director. The review highlights the management of the investment,
          examines program performance data, and explores opportunities for corrective action. TechStat sessions
          conclude with clear next steps formalized in a memo and tracked to completion. The following represent
          the TechStat reviews performed on NOAA investments:




                                                                -­‐18-­‐	  

 374                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




           •    NWS, National Air Quality Forecast Capability (NAQFC), 02-19-2010
           •    NESDIS, Environmental Satellite Processing Center (ESPC), 03-01-2010
           •    NWS, Next Generation Weather Radar System Product Improvement (NEXRAD PI), 03-22-2010 and
                03-25-2011
           •    NWS, Weather Radio Improvement Project (WRIP), 06-08-2011, 02-10-2012, 06-22-2012
           •    NWS, National Weather Service Telecommunications Gateway (NWSTG), 07-08-2011
           •    NMFS, Office of Law Enforcement (OLE) Wide-Area Network (WAN), 12-16-2011

           NOAA IT Oversight Structure for IT Acquisitions and Contracts
           The NOAA CIO is Chair of the NOAA CIO Council (with 51% vote) and the Senior IT member of the
           NOAA Executive Panel (NEP). The NOAA CIO Council is empowered to make corporate decisions
           involving IT policy, resources, and acquisitions, and uses specialized committees and working groups as
           advisory bodies to its deliberations. CIO Council Committees include:
                o   Infrastructure Operations Coordination Committee
                o   IT Security Committee
                o   Enterprise Messaging Committee
                o   Network Committee
                o   Enterprise Architecture Committee
                o   Geospatial Information Systems (GIS) Committee
                o   Web Committee

           Cost Savings and Efficiency Opportunities
           NOAA has identified a number of opportunities to save money, improve efficiency, and prevent setbacks
           to these important investments in FY12 and beyond.
           FY12 Focus Areas:
                o   Consolidated requirements from existing IT HelpDesk and IT Infrastructure Support
                    expiring contracts under one NOAALink Task Order
                o   Consolidated requirements for IT Security System Assessment & Accreditation (A&A) testing
                    under one NOAALink Task Order and develop standards for use across NOAA
                o   Developed and implemented a more efficient enterprise approach to acquiring desktop and
                    laptop computers
                o   Implemented a NOAA-wide Unified Messaging Service (UMS)
                o   Developed NOAA-wide data center consolidation targets and execution plan
           FY13-18 Planning Areas:
                o   Develop and implement executable plans for cost-reduction initiatives to include impact on
                    NOAA's workforce and facilities
                o   Develop long-term solutions for high performance computing and data storage
                o   Sustain and advance NOAA’s IT infrastructure by implementing cost-effective enterprise IT
                    solutions
           NOAA Implementation of DOC IT Portfolio Management Policy

           NOAA will implement the DOC IT Portfolio Management to realize cost savings and improve customer




                                                                  -­‐19-­‐	  


F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                375
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          service by removing barriers to improving efficiency, eliminating redundancy, promoting standardization,
          creating common services, and improving NOAA’s security posture to meet increasing threats. NOAA’s
          objectives include:
          •   Improve IT Services – Develop and leverage enterprise-wide performance-based IT processes and
              services
          •   IT Cost Reductions – Plan and execute enterprise-wide cost savings initiatives
          •   Strategic Sourcing – Consolidate contracts and purchasing to more strategically and effectively
              achieve economies of scale
          •   Infrastructure Consolidation – Standardize and consolidate NOAA’s IT infrastructure
          •   Shared Services and Cloud Computing – Advance migration toward shared services and cloud
              computing
          •   Enhance Cyber Security – Employ enterprise-wide approaches to improve NOAA’s security posture
              to meet increasing threats


          USPTO
          USTPO has created a schedule of Patents End-to-End (PE2E) releases based on prioritized, high-level
          requirements, as well as the documented design and architecture necessary to support the
          implementation of these requirements and meet or exceed best practices.
          To facilitate USPTO’s execution of PE2E according to its schedule, USPTO has identified its procurement
          needs, matched them to appropriate procurement vehicles, and identified procurement lead-times to
          ensure that projects are able to obtain procured resources according to a well-known and predictable
          schedule.
          USPTO has continued to conduct its regular key milestone reviews of PE2E with its ITIRB and CRB
          bodies to allow ongoing assessment of PE2E’s viability, risk, feasibility, and ability to meet strategic goals.
          Based on these regular reviews, the ITIRB and CRB recommend continuing the PE2E investment.
          In 2012 USPTO retained an industry leading expert on legacy systems migration and operational
          integration to provide independent oversight through four reports delivered quarterly.




          5. Manage the Development and Acquisition of NOAA’s Environmental Satellite
          Systems to Avoid Launch Delays and Coverage Gaps
          NOAA’s environmental satellite operations and weather forecasting are designated primary mission-
          essential functions of the Department of Commerce. But NOAA’s current constellation of polar and
          geostationary operational environmental satellites is aging, and its capabilities will degrade over time. As
          a result, the risk of gaps in critical satellite data is increasing. In February 2010, the White House directed
          NOAA, in partnership with NASA, to establish the Joint Polar Satellite System (JPSS) program—after
          experiencing significant cost overruns and schedule delays with an earlier joint development effort among
          NOAA, NASA, and the Department of Defense. Given their histories, these critical satellite programs
          require strong management and close oversight to:
          Prevent a Near-Term Polar Satellite Coverage Gap Between NOAA-19 and NPP. Since the
          first JPSS satellite (JPSS-1) is not scheduled for launch until 2017, NOAA will use an interim satellite—
          the Suomi National Polar-orbiting Partnership (NPP), launched in October 2011, to bridge the gap
          between JPSS-1 and its current polar-orbiting operational environmental satellite (NOAA-19). NOAA
          projects NPP will reach operational readiness 18 to 24 months after launch because of delays in
          completing activities to provide data for operational use. This extension could lead to a coverage gap in




                                                                -­‐20-­‐	  

 376                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




           some data if NOAA-19 (or other satellite data sources) stops functioning at the end of its design life—
           approximately March 2013. NOAA needs to take effective steps to reduce the risk of such a data gap.


           Ensure Solid Program Management and Systems Engineering Principles Are Applied to Mitigate
           the Coverage Gap Between NPP and JPSS-1. Due to program and funding issues, NOAA expects a
           gap in weather and climate observations between NPP and JPSS-1. We project the gap could range from
           9 to 21 months, or even longer, if NPP experiences a shorter-than-expected life. NOAA studies have
           found that its weather forecasting at 5, 4, and 3 days before an event could be significantly degraded
           during the coverage gap period. NOAA—in coordination with its line officers and in concert with
           Departmental and congressional decision-makers—must minimize the potential impact of this gap.

           Maintain Robust Program Management and Systems Engineering Disciplines to Prevent
           Geostationary Coverage Gaps. NOAA relies on another satellite system—the Geostationary
           Operational Environmental Satellite-R Series (GOES-R)—for uninterrupted short-range severe weather
           warning. This development program also experienced problems of cost changes and reduced
           capabilities. According to March 2012 program documentation, the GOES-R program’s overall schedule
           and technical development remain on track; however, the ground project’s development is being modified
           to control costs. The program is also revising the ground segment’s schedule to allow more flexibility. In
           light of these developments, NOAA needs to control costs, keep schedules on track, and maintain
           required technical performance.


           NOAA RESPONSE

           Prevent a Near-Term Polar Satellite Coverage Gap Between NOAA-19 and NPP.

           Minimizing the risk of a gap in the afternoon orbit between NOAA-19 and NPP is one of NOAA’s top
           priorities. NPP was successfully launched in October 2011 and commissioned in March 2012. NOAA
           plans to continue to rely on the Polar-orbiting Operational Environmental Satellite (POES) series of
           satellites (i.e., NOAA-19, NOAA-18, NOAA-16 ) and NASA’s Earth Observing System (EOS) data to meet
           operational requirements for as long as possible. While the POES satellites are operating beyond their
           design life, the key instruments providing input to Numerical Weather Prediction and imagery are
           performing well. The other risk to a gap between NOAA-19 and NPP is a delay in completing the
           validation of the NPP data products – in this regard, validation activities are on schedule and data from
           the ATMS (used for Numerical Weather Predication) is already being used operationally by the National
           Weather Service. In order to address deficiencies in the ground system which could lead to a gap in
           coverage, JPSS is in the process of upgrading the ground system, which should be operational in July
           2012. The upgrade will improve the reliability of the system. JPSS is planning on deploying a stop-gap
           Mission Management Center by Q4 of CY2012 based at the Raytheon Ground Systems facility in Aurora
           CO, and has selected a site to host a permanent Alternate Mission Management Center in Fairmont, WV.
           To ensure flow of mission data JPSS has already implemented a backup downlink site in Fairbanks, AK
           to mitigate the risk of a failure of the primary Svalbard site or a break in communications from Svalbard to
           the NOAA Satellite Operations Facility. The Center for Satellite Applications and Research (STAR) has
           been fully engaged as part of the JPSS team in calibration and validation activities and the transition to
           operations has not been affected by science transition activities. JPSS has implemented a Coordination
           Group to facilitate information exchange with the Center for Satellite Applications and Research (STAR)
           and has implemented routine meetings to develop plans to transition science related activities to STAR.
           These activities will clarify roles and responsibilities and ensure that there is no impact to the calibration
           and validation activities necessary to use the NPP data operationally. The coordination challenges have
           not impacted JPSS’ ability to upgrade the system - as noted above, a major upgrade is currently
           underway.




                                                                 -­‐21-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                377
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




          Ensure Solid Program Management and Systems Engineering Principles Are
          Applied to Mitigate the Coverage Gap Between NPP and JPSS-1.
          NOAA is employing sound systems engineering principles in managing the risk associated with a gap in
          polar observations between NPP and JPSS-1. NOAA’s first priority is to maintain NPP operations and
          ensure data products are successfully processed and distributed. This includes resolving anomalies and
          implementing upgrades necessary to ensure successful flight operations and continued evolution of the
          ground system to reach a robust, operational state. NOAA’s second priority is to ready JPSS-1 for launch
          as soon as possible by employing a robust risk and schedule mitigation approach.

          Program cost, schedule and requirements have been established and briefed within NOAA, the
          Department of Commerce, the Office of Management and Budget and to the appropriations and
          authorization Congressional committees. JPSS reports progress against the plan to senior agency
          leadership on a monthly basis. Congressional baselines required by law (Section 112 of P.L. 110-161 as
          amended by section 105 of P.L. 112-55) will be submitted after JPSS completes the rigorous systems
          engineering, program planning, and independent review processes against well-established best
          practices and comprehensive decision milestone criteria for Key Decision Point-1.
          JPSS is approaching the risk of a potential gap between NPP and JPSS-1 in two ways: i) taking steps to
          reduce the likelihood of a gap; and ii) taking steps to reduce the consequence of a gap JPSS has
          initiated a study to identify further actions that would reduce the likelihood of a gap in critical data
          products while meeting the Administration’s budget profile and life-cycle cost constraints. JPSS expects
          to complete the first version of this study, which will include a plan to reduce the consequences of a gap,
          by August 31, 2012. This plan, developed in coordination with the National Weather Service, and in
          response to GAO’s “Polar-Orbiting Environmental Satellites: Changing Requirements, Technical Issues,
          and Looming Data Gaps Require Focused Attention” report will look at alternate domestic and foreign
          data sources. Supporting both these activities is an effort by NOAA to prioritize all its requirements (both
          the requirements for environmental observations as well as functional and performance requirements). A
          tiered approach to prioritizing the requirements has been developed and the draft priorities are currently
          under review by the Low-Earth Observing Requirements Working Group and the NOAA Observing
          Systems Council. These will be incorporated into the planned updates to the Level-1 Requirements
          Document to be submitted for approval in the fall of 2012.
          NOAA’s National Weather Service is exploring ways to use DMSP data as input into its operational
          numerical weather models. Preliminary work is underway, but a final product is not expected until mid-
          2013. However, these data are available in the early morning and mid-morning orbit, not the afternoon
          orbit and will not be a replacement for Suomi NPP. This may help during the gap, but there will still be
          forecast degradation. An Observing System Experiment (OSE) is currently underway to evaluate the
          extent to which this type of data will be helpful to the models.

          Maintain Robust Program Management and Systems Engineering Disciplines to Prevent
          Geostationary Coverage Gaps.
          The GOES-R Program has taken prudent measures to control costs and keep its schedule on track.
          Impacts to the Program’s costs have largely been driven by reductions in funding to the GOES-R
          Program. In particular, a $70M reduction in FY11 by Congress necessitated GOES-R having to postpone
          the implementation of a number of products. Nevertheless, because GOES-R had already developed the
          algorithms to produce these products it is working with the National Weather Service to define alternative
          means for implementation.

          GOES-R has also taken the tact to re-plan the development schedule for the Ground Segment to allow
          more flexibility and less risk to the program than the original waterfall schedule approach. GOES-R
          chose a replan path that achieved better alignment between deliveries from the Flight Project (from both
          instrument and spacecraft contractors) and Ground software design and development while providing
          increased flexibility through an improved software implementation approach. This approach was
          independently reviewed by the program’s Standing Review Board, who also concluded that the approach
          was robust.




                                                                -­‐22-­‐	  

 378                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




                    Additional Detail Regarding USPTO’s responses to the OIG Management
                                                  Challenges


           Challenge 1: 1. Effectively Promote Exports, Stimulate Economic Growth, and
           Create Jobs

           Subchallenge: Enhance Commerce Unit Operations to Help Promote Trade and Job Creation.


           USPTO Issue: Reduce the Patent Backlog, Improve Processing Times, and Effectively Implement
           Patent Reform


           Patent Pendency. The Priority Goal (PG) of the USPTO is to optimize patent quality and timeliness while
           simultaneously reducing the backlog of unexamined patent applications. By the end of FY 2012, the
           USPTO anticipates reducing the average time to first action and final action on patent applications to 22.5
           months and 34.7 months respectively. More importantly, the USPTO expects to reduce the backlog of
           unexamined patents to approximately 621,800 by the end of FY 2012. However, there are a number of
           complex factors that must be carefully executed and monitored in order to achieve this goal. Some of
           these factors include application filings which may be largely driven by the economy; improvements in
           process efficiencies, the ability to outsource applications filed under the Patent Cooperation Treaty (PCT)
           and hiring new examiners.
           In the short term, first action pendency may increase slightly and overall pendency is expected to
           maintain at around 34 months. Two major factors contribute to this result: first, inability to gain access to
           our fees earlier in FY 2011 to allow for full examiner hiring and full overtime; and second, the recalibration
           of workflow process, including re-engineering the examiner count system and moving toward a more first-
           in, first-out (FIFO) inventory process. In order to achieve its goal to reduce pendency, the USPTO must
           first clean up the older cases in the pending backlog, and more strictly manage its inventory in a FIFO
           environment, which may result in a temporary rise in pendency in the near-term. Clearing the oldest
           patent applications is imperative to the USPTO’s long-term success in reducing pendency and the
           backlog of unexamined patent applications.


           The following initiatives will be implemented to meet the management challenges identified by the OIG to
           reform the patent application process, update the IT systems, and reduce pendency time:
           •    The USPTO has adopted significant revisions to the patent examiner production (count) system. The
                revised count system places emphasis on complete and thorough initial examination, decreases
                redundancy, and encourages quicker resolution of issues in the patent application process. This
                fundamental redesign is aimed at improving quality and efficiency, thereby resulting in a decrease in
                the application backlog and pendency. It provides more time for examination and more credit for first
                actions, which emphasize high quality examination and place a focus on quality up-front early in the
                examination process. In addition, a new Docket Management element was implemented at the
                beginning of FY 2012. The changes have resulted in the following:

                o    As of May 2012, the number of actions per disposal was approximately 2.5. This is down from
                     over 2.9 in FY 2008-2009, which represents a significant increase in efficiency.
                o    The new system changed the examiner docket management policy to provide a more “first-in,
                     first-out” (FIFO) inventory management system that aligns with applicants expectations that
                     examination should be done in the order applications are received.
                o    Changes were also made to incentivize resolution of oldest cases in the backlog.
                o    Further changes were made to incentivize interviews, which are strongly correlated with early
                     identification and closure of issues. The Office has increased the number and time spent on




                                                                  -­‐23-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                379
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




                   interviews. Interview time in FY 2011 was up 341.7% over FY 2009. Examiners are more
                   proactive in working with applicants to advance prosecution and identify allowable subject matter
                   earlier, and through May of 2012, FY 2012 interview time is up 18.7% over FY 2011.
               o   Average first action pendency on May 31, 2012 was 22.6 months, down significantly from 25.8
                   months at the end of FY 2009.
               o   Average total pendency on May 31, 2012 was 33.8 months, down from 34.6 months at the end of
                   FY 2009.
               o   As of June 18, 2012, the UPR backlog had been reduced to 627,770. This is down from the end
                   of the FY 2009 total of 718,835.
               o   The growth rate of RCE filings has slowed from 29.1% in FY 2008 to 23.1% in FY 2009. This
                   decline in RCE filings continued in FY 2010 which saw a 10.7% growth rate and for FY 2011 RCE
                   filings actually declined by 0.4%. Through May 2012, FY 2012 RCE filings are projected to
                   increase only 3.4% over FY 2011.
               o   As of May 2012, the patent application allowance rate was 50.2%, up from 41.3% in FY 2009.


           •   The USPTO is moving from a patent examination process to a multi-track process by adopting
               procedures and initiatives that incentivize abandoning applications that are not important to
               applicants; accelerating critical technologies; permitting an applicant to accelerate important
               applications; and exploring other incentive and accelerated examination options. Specific initiatives
               include:
               o   Project Exchange - Project Exchange is an application acceleration pilot initiative that empowers
                   qualifying applicants having two or more pending patent applications to accelerate the review
                   status of one of the applications by abandoning a second unexamined application. This initiative,
                   which gives applicants greater control over the processing speed of their applications, helps the
                   USPTO to prioritize its workload while reducing the backlog of unexamined patent applications.
                   After first testing the pilot by permitting its use only by qualifying independent inventors and small
                   entities, the pilot was expanded to permit use by all patent applicants in May 2010. This program
                   was started on November 27, 2009 and was terminated on December 31, 2011.
                   §   In total, 209 requests were received under the Project Exchange Pilot.
                   §   174 requests have been granted and 35 have been dismissed.
                   §   The time from the filing of the petition to the petition being granted was 20 days.
                   §   As of June 21, 2012, 79 applications examined under this program have been issued.
               o   Green Technology Pilot Program - The Green Technology Pilot Program provides accelerated
                   examination of inventions involving green technology, thereby promoting innovation in green
                   technologies and reducing the pendency of patent applications critical to climate change
                   mitigation. In response to feedback from applicants, the USPTO revised the Green Technology
                   Pilot Program to allow more categories of technology to be eligible for expedited processing
                   under the program. As a result, the Green Technology Pilot Program has increased the
                   development and deployment of green technology, created green jobs, and contributed to
                   promoting U.S. competitiveness in this vital sector.
                                          th                                                               th
                   In June 2011, the 350 patent issued through the pilot and in October 2011 the 500 patent
                   under the pilot issued. The program started December 8, 2009 and the pilot closed on February
                   21, 2012. The Agency is still processing pending petitions, but is no longer accepting new ones
                   for this program.
                   •    The Agency received 5,523 Green Technology petitions. As of June 2012, 3,524 petitions
                        were granted.
                   •    1479 petitions were dismissed; the large majority of these dismissals occurred before the
                        program expansion described above.
                   •    507 petitions were denied (defect was not correctable).
                   •    1224 applications received in the Green Technology program have issued as patents.




                                                                -­‐24-­‐	  

 380                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




                    •    The average time from filing of the Green Technology petition to the petition being granted
                         was 33.5 days.
           •    Three-Track Program – The Three-Track Program is a new patent examination initiative that moves
                from a single patent examination process to a multi-track process which would provide applicants
                greater control over the speed with which their applications are examined, promote greater efficiency
                in the patent examination process, and allow the USPTO to deploy its resources to better meet the
                needs of innovators. This new program has targeted application processing within 12 months for
                those applications deemed to be most important to applicants. Under the proposed “Three-Track”
                initiative, an applicant may request one of the following: Track I: a prioritized examination with a 12
                month pendency goal, Track II: a traditional examination under the current procedures, or Track III:
                an applicant-controlled delay for up to 30 months prior to docketing for examination. The “Three-
                Track” patent examination program, first published for public comment in June 2010.
                The USPTO published a final rule to implement Track I of the "Three-Track" initiative on April 4, 2011,
                and began accepting applications under Track I on September 26, 2011.A total of 4,127 Track 1
                applications have been filed through June 18, 2012
                o   97% of Track I requests are granted.
                o   As of June 18, 2012, Track I applications received a first action in an average of 3.0 months after
                    filing, and averaged 6.28 months of total pendency.
                o   522 Track I applications have been allowed.
          •     The USPTO has implemented patent processes to increase efficiencies and strengthen the
                effectiveness of examination workflow in the overall patent prosecution process. Specific initiatives
                include:


                o   First Action Interview Program - The First Action Interview program encourages examiners to
                    hold interviews with applicants early in the prosecution process in order to facilitate resolution of
                    issues for a timely disposal. This program has been expanded to include all utility applications in
                    all technology areas, enhance efficiency, and provide more options to participants. The benefits
                    of the program include the ability to advance prosecution of an application, enhanced interaction
                    between applicant and the examiner, the opportunity to resolve patentability issues one-on-one
                    with the examiner at the beginning of the prosecution process, and the opportunity to facilitate
                    possible early allowance. The First Action Interview program has not only provided applicants
                    with more options in regard to procedures needed for examination, but it has also has contributed
                    dramatically to improving patent application quality.
                    The USPTO launched the Full First Action Interview Pilot Program on May 16, 2011. This
                    program expands on the First Action Interview Pilot Program by including all utility applications in
                    all technology areas and filing dates. As with the previous First Action Interview pilot programs,
                    the applicant is entitled to a first action interview, upon request, prior to the first Office action on
                    the merits. This pilot has been extended to run through August 16, 2012.
                    §   A total of 3353 applicants have joined the programs since April 2008.
                    §   868 interviews have been conducted, and 1033 of the applications have been allowed.
                    §   The program has an overall first action allowance rate of 27.5% as compared with 17.7% for
                         all original non-continuing applications so far in FY 2012.
                o   Clearing the Oldest Patent Applications (“COPA”): In February 2011, the USPTO launched a
                    new initiative known as “Clearing the Oldest Patent Applications” (or “COPA”) in an effort to
                    eliminate the “tail” of backlog applications that were more than 16 months old at the beginning of
                    the fiscal year and had not yet received a first office action. This initiative is a critical first step in
                    reaching the USPTO’s strategic goal of providing first office actions on all new applications in an
                    average of 10 months from their date of filing by 2014. The goal for FY 2011 is to have a first
                    office action completed on nearly all of the 313,000 oldest backlog applications. Reaching this




                                                                   -­‐25-­‐	  


F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                  381
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




                  goal, however, is highly dependent on the passage of a FY 2011 budget that would provide
                  sufficient resources for hiring and examiner overtime.
                  In FY 2011, the COPA initiative was a great success that allowed us, not only, to reach our
                  original target of COPA first actions but exceed both stretch goals by completing an additional
                  22,642 COPA applications.
                  COPA 2.0 is a continuation of the FY 2011 program. For COPA 2.0, the tail is considered to be
                  applications that are 13 months and older, as of October 1, 2011, and have not received a first
                  office action. The goal for FY 2012 is to complete a first office action on 260,000 applications. As
                  of June 18, 2012, we have completed 209,111 COPA 2.0 applications, or 80% of the goal.
         •    The USPTO has begun an effort to reengineer the entire patent examination process from the time an
              application is filed all the way through to the granting of a patent. This effort is paramount in order to
              upgrade and redesign its IT infrastructure, and to allow innovative redesign of the examination
              process supported by state-of-the-art automated work flow capabilities. The USPTO will maximize
              the usage of automation in all processes and link project due dates to those of the end-to-end IT
              initiative such that the IT system is built to utilize the functionality of the reengineered process.
              o   The Patent Process Reengineering (PPR) team was organized in June 2010 to focus on aspects
                  of pre-examination, examination, and post-examination processes to supply redesigned and
                  streamlined processes and improvements to Bureau senior leadership and the Patents End-To-
                  End (PE2E) Team. These improved processes would be incorporated into the Patents End-To-
                  End (PE2E) project to support development of new system architecture. The PPR effort also
                  serves to meet the United States Patent Office (USPTO) 2010-2015 strategic goal to optimize
                  patent quality and timeliness to facilitate achieving organizational excellence. The PPR team
                  organized internal stakeholder outreach focus groups by leveraging affinity groups and open
                  space technology facilitation. The outreach initiatives continued throughout the summer of 2010.
                  Based on this input, the team organized working groups tasked to investigate specific areas. The
                  working groups followed a process improvement methodology based on LEAN Six Sigma that
                  included documenting the current processes, identifying issues at both the process and step
                  levels, assessing the impact of those issues, identifying the root cause of each issue, identifying
                  solutions to address the root causes, prioritizing those solutions, and reporting and validating their
                  results. These working groups worked in 6-10 week time frames staggered over the Fall of
                  2010, and the winter and spring of 2011. Phase I ended June 30, 2011, Phase II ended
                  September 30, 2011, and Phase III continue to date in a similar staggered fashion as Phases I
                  and II.

              o   Phases I and II working groups produced more than 200 individual process improvement
                  recommendations. If all of the recommendations are implemented, results will include:
                  §   Increased electronic filing, revenue collection, processing efficiency, standardization, ability to
                       accurately and easily measure core metrics and progress toward goals, examination quality;
                       and

                  §   Reductions in pendency measures, examiner search time for related applications and prior
                       art, applicant filing time, Office and applicant errors and management time for quality reviews
                       and administrative tasks, grievances


         •    The USPTO plans to hire, train and retain highly skilled and diverse examiners. While continuing to
              draw candidates from our traditional sources, it is expected that including Intellectual Property (IP)
              experienced hires will assist in developing a balanced workforce, contribute to a lower attrition rate,
              and a provide a faster transition to productivity for new hires. Recruiting candidates having significant
              IP experience will lead to a reduced training burden as well as an increased ability to examine
              applications much sooner than an inexperienced new hire, thereby increasing production output.


              o   A total of 836 patent examiners were hired in FY 2011, including 57 IP experienced hires.




                                                                 -­‐26-­‐	  

 382                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




                o   A total of 1500 hires including 200 IP experienced hires are planned for FY 2012.
                o   A total of 873 new examiners are already on-board as of June 18, 2012, with another 224 offers
                    having been accepted.
                In addition, in response to the President’s call to hire veterans, the USPTO launched an intensive
                recruitment effort to increase veteran hiring in its patent examiner corps. The program features broad
                outreach and support to attract veterans interested in pursuing careers in patent examination. To
                achieve this goal, USPTO is implementing a comprehensive recruitment plan aimed at attracting
                veterans and their family members to job opportunities through sources including job postings,
                resource sites, career centers, and career fairs. The USPTO has engaged military career placement
                offices on the local and national level and the agency will hold special information sessions at veteran
                career centers and veteran career fairs to attract veterans. Job announcements have to be posted on
                websites specializing in veterans, and USPTO will partner with veteran organizations to market the
                agency.
                o   By outsourcing searching on Patent Cooperation Treaty (PCT) international applications,
                    examiners will have more time to conduct the examination process on U.S. National applications.
                    In continuing to outsource this function, contractors, instead of patent examiners, would provide
                    an international search report and a written opinion of the International Searching Authority under
                    the provisions of the PCT, thus allowing examiners to examine the approximately 17,000 utility,
                    plant and reissue (UPR) applications, which will reduce the backlog by an estimated 9,000
                    applications.
                o   In FY 2012 the USPTO will outsource approximately 20,000 PCT applications which equates to
                    an estimated 10,000 application reduction in the backlog. In total, over 100,000 PCT applications
                    have been outsourced for an estimated 50,000 application backlog reduction.




          Challenge 2: Reduce Costs and Improve Operations to Optimize Resources for a Decade of
          Constrained Budgets


           The USPTO faced management challenges obtaining a reliable and sustainable source of funding to
           finance operations on a multi-year basis. The agency does not have much flexibility adjusting its fees or
           spending levels if filings and revenues change unexpectedly. To accomplish its strategic goals, the
           USPTO must have the authority to set the fees necessary to recover the cost of operations, spend fees
           collected on requirements-based operations, and to adapt and manage its funding requirements as
           changes occur in internal and external conditions.


           As the agency requires sufficient resources to reduce the patent application backlog and achieve its
           stated pendency goals, the USPTO seeks fee setting authority through the America Invents Act. This Act
           will allow the USPTO to proactively adjust its fees in response to changes in demand for services,
           processing costs, or other factors. With fee setting authority, and with routine evaluation of the fee
           structure, the Agency can compare the cost of activities with fees to ensure the rates are set at
           appropriate levels and the fee structure is achieving rational results.


           Another management challenge faced by the USPTO is the potential existence of financial uncertainty as
           a result of the agency’s unique financial structure. Subsequent downturns in the U.S. and global
           economies showed the structure’s vulnerabilities. Multiple factors contribute to the differences, including
           a reduction in the number of patent applications filed and declines in maintenance fees collected for
           existing patents. In December 2010, the DOC IG found that the USPTO does not have clear guidance or
           a disciplined, documented process for forecasting patent fee collections. The IG recommended the
           establishment and implementation of written policies and procedures for developing fee-collection
           forecasts and annual reports on variances between projected and actual fee collections. The USPTO has




                                                                 -­‐27-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                383
A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




         completed several of these IG recommendations, having documented the CFO process for developing
         fee-collection forecasts and submitting the annual variance report.


         AIA Implementation. The provisions in the America Invents Act can be categorized into three areas: (i)
         promulgating new rules to implement statutory provisions; (ii) conducting studies into congressionally-
         mandated areas of intellectual property law; and (iii) establishing new programs to facilitate the public’s
         access to the patent system. The agency is progressing well and on-time for each of these categories.
         Rulemaking: The USPTO is required to implement 20 new provisions of law under the AIA. The agency
         already has timely implemented seven provisions that were required to be effective within 60 days of
         enactment of the AIA (i.e., by November 16, 2011), including prioritized examination, 15% surcharge, and
         the electronic filing incentive. The agency either issued a guidance document or new rules to accomplish
         this implementation.
         Presently, the USPTO is in the process of implementing nine additional provisions with effective dates of
         one year after AIA enactment (i.e., by September 16, 2012). These provisions include inventor’s oath or
         declaration, supplemental examination, preissuance submissions, citation of patent owner statements,
         and the new administrative trials of inter partes review, post grant review, and covered business method
         review. For these 9 provisions, the agency published proposed rules, collected public input, prepared
         final rules, and submitted those final rules for Federal Register publication. These final rules will publish
                                                     th
         several weeks before their September 16 effective date.
         Finally, the agency has four remaining provisions to implement by March 16, 2013, such as fee setting,
         micro-entity, first-inventor-to-file, and derivation. The agency has already prepared proposed rules for
         these provisions, published some, and submitted the remaining ones to the Federal Register for
         publication soon. The agency is on track to complete its rulemaking for these four remaining provisions
         on time, just as it has done for all other AIA provisions.
         Studies: The USPTO is charged with completing three studies within one year after AIA enactment—Prior
         User Rights, International Patent Protection for Small Businesses, and Genetic Testing. The agency has
         completed the Prior User Rights and International Patent Protection Studies and timely delivered its
         reports to Congress. For those two studies, the agency collaborated with other government agencies as
         specified in the AIA, published requests for information, and conducted public hearings where members
         of the public provided testimony about the study topics. The agency compiled all of the collected
         information, made findings of fact, and offered recommendations to Congress as required by the AIA.
         For the Genetic Testing Study, the agency followed the same study protocol as for the two previous
         studies and circulated a report containing findings of fact and recommendations for inter-agency
         clearance. Because the report is currently still undergoing inter-agency clearance, the agency missed its
         statutory due date for delivery of the report to Congress. The agency currently is continuing the inter-
         agency clearance process to release the report as soon as possible.
         Programs: The USPTO must establish 4 programs by the one-year anniversary of the AIA and has
         already completed this work.
         First, the agency has worked with intellectual property law organizations to help set up pro bono
         programs for under-resourced independent inventors and small businesses. There are currently two such
         programs running in Minneapolis and Denver and discussions are under way to expand the programs to
         California, Texas, and the DC metro area by the end of the calendar year 2012.
         Second, the USPTO opened the first satellite office in Detroit on July 13, 2012, and announced the
         locations for three additional offices in Denver, Dallas, and San Jose on July 2, 2012. The agency now is
         planning for the opening of these additional offices.
         Third, the USPTO established a methodology to collect diversity information for patent applicants and
         published its methodology in a white paper. The USPTO is in the process of affecting its methodology to
         collect that diversity information. As one component, the agency has established a Memorandum of
         Understanding with the Census Bureau to collect diversity information for past U.S. patent applicants
         based on Census records. As a second component, the agency is preparing a Request for Information to




                                                                -­‐28-­‐	  

 384                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                  A P P E N D I X C : F Y 2 0 1 2 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




           inquire with the public about ways to collect diversity information for foreign applications as well as future
           patent applicants.
           Finally, to fulfill the Patent Ombudsman Program, the USPTO offers several services to help small
           businesses and independent inventors with their patent filings, including the Inventors Assistance Center
           and an Ombudsman Program. The Inventors Assistance Center helps to guide independent inventors
           and small business in filing patent applications with the USPTO. The Ombudsman Program assists
           applicants and their representatives with concerns about their patent applications and issues that arise
           during prosecution. Currently, the USPTO is preparing a white paper to alert the public to services.




                                                                 -­‐29-­‐	  

F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                385
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                     FY 2013 MANAGEMENT CHALLENGES




 386                        F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                  APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                       387
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                                                                        OFFICE OF INSPECTOR GENERAL


          Contents

          Challenge 1: Stimulate Economic Growth in Key Industries, Increase Exports, and Enhance

                       Stewardship of Marine Fisheries ............................................................................................................ 1

              Stimulate Economic Growth in Manufacturing, Intellectual Property, and Wireless Industries................ 1

              Promote and Regulate Exports.................................................................................................................................. 4

              Protect and Promote Marine Fisheries.................................................................................................................... 6

          Challenge 2: Increase Oversight of Resources Entrusted by the Public and Invest for Long-Term

                       Benefits......................................................................................................................................................... 8

              Increase Internal Controls and Oversight of Departmental Operations Under a Constrained Budget . 8

              Invest for Efficiencies and Long-Term Benefits....................................................................................................11

              Implement Bold Design Changes to Contain 2020 Decennial Costs While Maintaining Enumeration

              Quality ........................................................................................................................................................................... 12

          Challenge 3: Strengthen Security and Investments in Information Technology ...............................................15

              Continue Improving Commerce’s IT Security Posture by Addressing Persistent Security

              Weaknesses.................................................................................................................................................................. 15

              Develop Resilient Incident Response and Recovery Capabilities with Increased Monitoring of

              Internet Traffic............................................................................................................................................................. 17

              Manage Commerce’s IT Portfolio with Enhanced Governance Structure....................................................17

              Strengthen Oversight of IT Investments ...............................................................................................................18

          Challenge 4: Implement Framework for Acquisition Project Management and Improve Contracts

                      Oversight ....................................................................................................................................................20

              Implement the Planned Framework for Acquisition Project Management ...................................................21

              Oversee High-Risk Contracts..................................................................................................................................22

              Maintain an Acquisition Workforce That Holds Bureau Officials Accountable ..........................................23

              Implement an Effective Suspension and Debarment Program..........................................................................24

          Challenge 5: Reduce Risks of Cost Overruns, Schedule Delays, and Coverage Gaps for NOAA’s

                       Satellite Programs....................................................................................................................................25

              Communicate with Stakeholders to Define JPSS Capabilities, Schedule, and Cost Baselines ..................25

              Ensure Adequate Leadership and Governance Structure over JPSS Development....................................27

              Develop a Plan to Support NOAA Weather Forecasting Capabilities During Coverage Gaps ..............28

              Reduce Program Risks Associated with GOES-R Development.....................................................................29

          Acronym List .................................................................................................................................................................... 31

          Appendix A: Related OIG Publications ......................................................................................................................33

          Appendix B: Comparison Between FY 2012 and FY 2013 Challenges...............................................................36

          Appendix C: Management Response to OIG Draft Report..................................................................................37





          FINAL REPORT NO. OIG-13-003





 388                                                                 F Y   2 0 1 2               P E R F O R M A N C E                          A N D          A C C O U N T A B I L I T Y              R E P O R T
                                                                      APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                     U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL



                 Challenge 1:
                 Stimulate Economic Growth in Key Industries, Increase Exports, and Enhance
                 Stewardship of Marine Fisheries
                 The Department is at the center of the federal government’s efforts to stimulate economic and
                 job growth in key industries and promote exports, while at the same time regulating exports
                 and maintaining the delicate balance between promoting and regulating the commercial use of
                 marine fisheries. These efforts require the Department to work effectively with interagency
                 partners and the private sector as well as to marshal and integrate Commerce resources. We
                 have identified three areas for management attention:

                 •    Stimulate economic growth in manufacturing, intellectual property, and wireless industries

                 •    Promote and regulate exports

                 •    Protect and promote marine fisheries

                 Stimulate Economic Growth in Manufacturing, Intellectual Property, and Wireless
                 Industries

                 In early FY 2011, the Department laid out its vision to support manufacturing jobs in America
                 by implementing the President’s Advanced Manufacturing Partnership—a nationwide effort that
                 brings together industry, universities, and the federal government to invest in the emerging
                 technologies and strengthen intellectual property protection. Further, to support the explosive
                 growth in wireless industries and foster job creation, the President has tasked the Department
                 to make more spectrum available for commercial use. Successful implementation of these
                 initiatives could have a profound impact on the nation’s economy; however, it will require
                 focused attention by senior management, close coordination with the private sector and other
                 federal agencies, and sustained congressional support.

                 Support Job Insourcing and Manufacturing Initiatives

                 Recent reports 2 emphasize the role of manufacturing in creating high‐paying jobs, providing U.S.
                 exports, and spurring innovation. The President’s Council of Advisors on Science and
                 Technology’s July 2012 report cites three keys to strengthening U.S. manufacturing: innovation,
                 a skilled workforce, and a business climate that “spurs investment and fosters partnerships
                 between government, academia, and industry” through the development of policies in the areas
                 of tax, regulation, trade, and energy. Many offices, task forces, and councils are involved with


                 2
                  U.S. Department of Commerce, in consultation with the National Economic Council, January 2012. The
                 Competitiveness and Innovative Capacity of the United States.
                 http://www.commerce.gov/sites/default/files/documents/2012/january/competes_010511_0.pdf; President’s
                 Council of Advisors on Science and Technology, July 2012. Report to the President on Capturing Domestic
                 Competitive Advantage in Advanced Manufacturing. Washington, D.C.: Executive Office of the President.


                 FINAL REPORT NO. OIG-13-003                                                                               1




F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                               389
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL

           Figure 1. Sample of Groups Focused on 	                            studying and establishing manufacturing
           Manufacturing                                                      initiatives. A sample of these groups is
                                                                              presented in figure 1.

                                                                              The two dark circles represent recent
                                  White House                                 initiatives led by the Department of
                                    Office of
                                  Manufacturing                               Commerce. Last year, in response to a
                                  Policy (2011)
                                                                              requirement in its FY 2012 appropriation,
                 Advanced
                                                           National
                                                         Science and          the Department established the Repatriation
               Manufacturing                             Technology
                Technology                              Council (1993)        Task Force—chaired by a representative of
                 Consortia                              Committee on
                 (FY 2013)                               Technology           the Secretary’s Office of Policy and Strategic
                                                            (2011)
                                                                              Planning and including officials from the
                                Groups Focusing
                                      on                                      International Trade Administration, the
                                 Manufacturing                                Economic Development Administration, the
                                                          President's         Minority Business Development Agency, and
                                                          Council of
                Repatriation
                 Task Force
                                                         Advisors on          the National Institute of Standards and
                                                         Science and
                  (FY 2012)                              Technology           Technology—and issued a report that
                                                            (2009)
                                       The
                                                                              identified incentives to repatriate jobs that
                                  Manufacturing
                                     Council                                  had moved abroad back to America (job
                                    Advisory
                                   Committee                                  insourcing).
                                     (2004)

                                                            A second departmental program, the

            Source: OIG analysis of departmental data
      Advanced Manufacturing Technology
                                                            Consortia (AMTech) program, is supported
          in NIST’s FY 2013 budget. AMTech will provide cost-shared funding to consortia focused on
          developing advanced technologies to spur manufacturing in the United States. In addition, the
          President’s FY 2013 budget proposed $1 billion of mandatory spending to establish a National
          Network for Manufacturing Innovation grants program—which requires collaboration among
          the Department of Commerce, Defense, Energy, and the National Science Foundation. Since
          this program requires congressional authorization, the administration needs to work with
          Congress to develop a legislative solution.

          In conclusion, while the goal is clear—support job creation by bringing manufacturing jobs back
          to the United States—the departmental challenge is to implement new initiatives with
          coordinated policy guidance while avoiding duplicative efforts with its partners.
          Reduce the Patent Backlog, Improve Processing Times, and Effectively Implement Patent Reform

          The U.S. Patent and Trademark Office (USPTO) fosters innovation and protects inventors’
          intellectual property rights by registering trademarks and granting patents, which support
          $5 trillion of the U.S. economy. Long waits for application decisions could adversely affect
          innovation, economic development, and job growth, inhibiting U.S. companies from exporting
          until they procure the appropriate patents for their products.

          •	 Over the past decade, the patent backlog has almost doubled, and the completion of patent
             reviews takes almost 3 years. While USPTO has reduced the backlog from more than



          FINAL REPORT NO. OIG-13-003                                                                                       2




 390                                              F Y   2 0 1 2          P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

                       700,000 in FY 2010, it remains above 600,000 at the end of FY 2012. 3 Initially, the Under
                       Secretary of Commerce for Intellectual Property set forth the goals of reducing the backlog
                       of applications awaiting examiner action to a 10-month inventory (approximately 350,000
                       applications 4) through decreasing the total processing time for patent applications to 10
                       months for the first office action by FY 2014 and 20 months total by FY 2015. USPTO later
                       postponed these target dates to FY 2015 and FY 2016, and again to FY 2016 and FY 2017. 5
                       To reduce the long waits for patent application decisions, it is imperative that USPTO
                       maintain its focus and increase its efforts to address these challenges.

                   •	 USPTO also has the challenge of reducing a second backlog: ex parte appeals for rejected
                      patent applications. As the number of patent examiners has grown, the number of new ex
                      parte appeals has grown significantly. Although it is difficult to estimate the exact increase in
                      the number of new appeals before FY 2010 because of inaccuracies in the appeal data, new
                      ex parte appeals have averaged nearly 12,800 between FY 2010 and FY 2012. The time it
                      takes an appellant to receive a decision on an ex parte appeal has doubled in the past 2
                      years. Although USPTO hired additional judges in FY 2012 and enhanced their performance
                      benchmarks, continued management attention will be needed. 6

                   In addition, USPTO faces new administrative
                   and operational challenges in implementing the              The James Madison Building at USPTO
                   Leahy-Smith America Invents Act (Pub. L. No.                Headquarters
                   112-29). This act, signed into law in September
                   2011, contains many fundamental changes to
                   patent laws and USPTO practices, such as
                   moving the United States to a “first inventor-to-
                   file” system from a “first-to-invent” system.
                   These significant changes will require USPTO to
                   issue new regulations. USPTO has successfully
                   implemented new rules scheduled for
                   September 2012 implementation and is
                   addressing public rulemaking requirements to                 Source: OIG
                   implement provisions scheduled to take effect
                   next March. Significant planning, outreach, and
                   communication with stakeholders will be
                                                                               Source: OIG
                   needed to implement these fundamental
                   changes.


                   3
                     Current indicators on patent pendency and quality are available on USPTO’s Patent Dashboard:

                   http://www.uspto.gov/dashboards/patents/main.dashxml.

                   4
                     The exact number of applications that would comprise a 10 month inventory will vary based on the size of the

                   patent examiner corps.

                   5
                     Sources for USPTO target dates for decreasing patent application processing time: USPTO FYs 2010–2015 

                   strategic plan (FYs 2014 and 2015), FY 2013 President’s budget request (FYs 2015 and 2016), and USPTO’s October

                   2012 proposal (FYs 2016 and 2017).

                   6
                     U.S. Department of Commerce Office of Inspector General, August 2012. USPTO’s Other Backlog: Past Problems

                   and Risks Ahead for the Board of Patent Appeals, OIG-12-032-A. Washington, D.C.: Department of Commerce OIG.



                   FINAL REPORT NO. OIG-13-003                                                                                    3




F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                      391
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

          Strengthen Spectrum Management and Public Safety

          Radio frequency spectrum provides an array of wireless communications services critical to the
          US economy and supports a variety of government functions. 7 In June 2010, the President
          requested that 500 MHz of spectrum be freed up for commercial sale. The National
          Telecommunications and Information Administration (NTIA) announced in March 2012, that
          the federal government intends to repurpose 95 MHz of prime spectrum for commercial use, if
          certain challenges are met. However, the $18 billion price tag to relocate existing federal users
          could make this cost prohibitive. A July 2012 report by the President’s Council of Advisors on
          Science and Technology recommended that up to 1000 MHz of federal spectrum be made
          available for a “shared use spectrum superhighway,” 8 between federal agencies and commercial
          providers. Recent technology advances make the shared-use architecture feasible in the near
          future; however, many challenges such as lack of incentive for commercial providers to bid for
          shared spectrum, revenue generation, and rights of use issues must be addressed to make this
          effort a possibility. A strong partnership between the federal government (NTIA and FCC) and
          commercial providers will be needed to make this program a reality.

          On February 22, 2012, the President signed the Middle Class Tax Relief and Job Creation Act of
          2012, which assigned the D-Block spectrum and provided $7 billion to NTIA to establish an
          interoperable nationwide Public Safety Broadband Network (PSBN). NTIA is required to
          establish an independent authority called First Responder Network Authority (FirstNet) to be
          the holder of the existing public safety spectrum and be responsible for the establishment and
          deployment of the PSBN. It is important for NTIA to take into consideration the lessons
          learned from earlier public safety network efforts when establishing FirstNet, such as
          establishing local/state governance structures in compressed timeframes.

          Promote and Regulate Exports

          The Department plays a critical role in the success of government-wide initiatives to promote
          U.S. exports and ensure an effective export control system—approximately 12 percent
          ($990 million) of its FY 2013 budget request is dedicated to funding international programs and
          activities.

          Appropriately Allocate Resources and Increase Collaboration to Support the National Export Initiative

          The Department’s International Trade Administration (ITA) plays a leading role in supporting
          the National Export Initiative (NEI), which was formalized by executive order in March 2010.
          To support NEI, the Department proposed in its FY 2013 budget a reorganization of ITA to
          eliminate overlapping functions and streamline operations to enhance foreign market access and
          U.S. industry competitiveness. Also, in FY 2012, its U.S. and Foreign Commercial Service unit
          began shifting resources away from lower-priority markets to higher-priority markets, in
          accordance with a congressionally approved plan. According to ITA, 14 offices have been

          7
           U.S. Government Accountability Office, April 2011. Spectrum Management, Washington, D.C.: GAO, 1
          8
           President’s Council of Advisors on Science and Technology, July 2012. Realizing the Full Potential of Government-
          Held Spectrum to Spur Economic Growth. Washington, D.C.: President’s Council of Advisors on Science and
          Technology, 11.


          FINAL REPORT NO. OIG-13-003                                                                                      4




 392                                         F Y   2 0 1 2     P E R F O R M A N C E        A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                       APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

                   closed, and 2 more will remain open only
                   through FY 2014, pending State
                   Department reviews to close them. To
                   make this successful, the Department must
                   continue to strategically reorganize its
                   personnel and resources while providing
                   seamless assistance to the public.

                   A secretarial-level body called the Export Promotion Cabinet is charged with implementing
                   trade-related activities in coordination with the Trade Promotion Coordinating Committee, 9
                   chaired by the Secretary. The Department plays an instrumental role in carrying out these
                   activities with external partners. As of December 2011, the value of exports had increased 33
                   percent in the 2 years since 2009, appearing to be on track to meet the NEI’s target of doubling
                   U.S. exports by 2014. However, U.S. export growth for the first 6 months of 2012 was only
                   6 percent rather than the 15 percent a year necessary to reach the doubling target. The
                   Department reports it has responded to these economic conditions by ramping up its trade
                   advocacy and export promotion efforts, as well as aggressively investigating unfair trade
                   practices affecting U.S. exports or imports into the U.S. market. In addition, we have identified
                   opportunities for ITA to improve training for trade specialists on enhancing collaboration and
                   improving sharing with partner agencies. 10

                   Combat Unfair Trade Practices and Continue Implementing the Export Control Reform Initiative

                   While trade promotion is an essential part of its mission, the Department must also maintain
                   strong trade enforcement and export control programs, so that U.S. companies can thrive in
                   the global marketplace. These key functions are carried out by both ITA and the Bureau of
                   Industry and Security (BIS). Long-term, sustainable U.S. economic growth depends on the
                   effective enforcement of trade agreements and export controls. Recently, for example, the
                   Import Administration, another ITA business unit, issued a final determination that Chinese
                   manufacturers sold at less than fair value (i.e., “dumped”) solar panels in the United States and
                   that the manufacturers received trade-distorting government subsidies. The Import
                   Administration also issued a preliminary determination this summer that Chinese manufacturers
                   dumped wind turbines in the U.S. market as well. These kinds of decisions are necessary to
                   level the playing field for U.S. companies. In February 2012, the President signed Executive
                   Order13601, creating a new Interagency Trade Enforcement Center within the Office of the
                   U.S. Trade Representative, co-led by the Department of Commerce. This center seeks to
                   efficiently leverage existing federal government resources, including those within ITA, in
                   challenging unfair trade practices and foreign trade barriers by trade partners. ITA reports it
                   has been dedicating staff and resources to the new enforcement center since its inception in
                   February 2012. ITA’s FY 2013 budget request also contains dedicated staff and resources to
                   support this center.

                   9
                     The TPCC was established in 1993 by Executive Order 12870 under the authority of the Export Enhancement Act

                   of 1992 to coordinate governmental efforts to promote U.S. exports.

                   10
                      U.S. Department of Commerce Office of Inspector General, September 2012. U.S. Export Assistance Centers

                   Could Improve Their Delivery of Client Services and Cost Recovery Efforts [Draft report]. Washington, D.C.:

                   Department of Commerce OIG.



                   FINAL REPORT NO. OIG-13-003                                                                                  5




F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                    393
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

          The task of administering and enforcing dual-use export controls presently falls on BIS. In April
          2010, the Administration proposed the Export Control Reform Initiative to streamline the
          country’s export control system and facilitate U.S. export of high-tech goods while protecting
          U.S. national security interests. Over the past year, BIS has worked with its interagency
          partners to review the munitions and dual-use lists to assess whether changes to controls on
          certain products are warranted. Also in response to Executive Order 13558, BIS, along with
          other federal agencies, shall provide resources for a new export enforcement coordination
          center to collect and share information to help prosecute and deter export control violations.
          Commerce must ensure that it continues to support these important programs and initiatives
          as the effort to reorganize the Department’s and the federal government’s trade promotion and
          enforcement functions continues.

          Protect and Promote Marine Fisheries

          For several years, we have reported about NOAA’s challenge in balancing two competing
          interests: promoting commercial and recreational fishing as vital elements of our national
          economy and preserving populations of fish and other marine life. 11 In recent years, members of
          the fishing industry and elected officials from the New England region have repeatedly
          questioned certain fishery regulations and whether NOAA has abandoned a core mission to
          develop the commercial fishing industry and increase industry participation.

          An April 2011 independent review of the New England fishery management process 12 suggested
          many ways to strengthen fishery management rulemaking processes and specifically
          recommended increased “collection and use of socioeconomic data in fishery management
          plans in order to make socioeconomic analysis a more visible and meaningful part of the
          process.” This type of analysis includes understanding the impact that fisheries management has
          on local economies.

          As we noted last year, the Department submitted its Plan for Retrospective Analysis of Existing
          Rules in August 2011, 13 in response to Executive Order 13563, Improving Regulation and
          Regulatory Review. 14 In August 2012, the Department’s General Counsel informed us that the
          Department had convened a “regulatory cost–benefit working group” with representatives
          from USPTO, BIS, and NOAA, since these bureaus engage in most of the Department’s
          rulemaking activity. As a result of these working group meetings, the General Counsel reported
          that economists and social scientists from the National Marine Fisheries Service have engaged in
          long-term research to assess the U.S. public’s willingness to pay the costs associated with
          conservation of protected species and marine protected areas. In its rulemaking, the


          11
             The Marine Mammal Protection Act of 1972 and the Endangered Species Act of 1973 gave NOAA fisheries

          responsibility for preventing the extinction of marine fish and other species. The Magnuson-Stevens Fishery

          Conservation and Management Act of 1976 made the NOAA fisheries the primary federal agency for managing 

          marine fisheries and established a regional fishery management system to help the agency carry out its mission.

          12
             Preston Pate and SRA-Touchstone Consulting Group, April 2011. A Review of the New England Fishery

          Management Process. Washington, D.C.: Touchstone Consulting Group.

          13
             U.S. Department of Commerce, August 2011. Plan for Retrospective Analysis of Existing Rules. Washington, D.C.:

          Department of Commerce.

          14
             Exec. Order No. 13563, 76 Fed. Reg. 3821 (Jan. 21, 2011).



          FINAL REPORT NO. OIG-13-003                                                                                      6




 394                                          F Y   2 0 1 2    P E R F O R M A N C E        A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                  APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL

                   Department and NOAA will continue to be challenged in balancing the competing interests of
                   promoting fishing and preserving populations of fish and other marine life.

                   We are currently reviewing NOAA’s controls and processes surrounding fisheries rulemaking
                   as the first phase of our assessment of transparency and the role of fishery management
                   councils in rulemaking. An effective regulatory environment requires a fair and transparent
                   rulemaking process. Our review will consider the interactions among federal officials, fishing
                   industry members, and nongovernment organizations in the development of fishing regulations.




                   FINAL REPORT NO. OIG-13-003                                                                      7




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                          395
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


          Challenge 2:
          Increase Oversight of Resources Entrusted by the Public and Invest for Long-
          Term Benefits
          The Joint Select Committee on Deficit Reduction was tasked with seeking $1.5 trillion in
          government-wide savings over the next 10 years. The Committee did not agree on spending
          reductions, resulting in a potential sequestration that will trigger across-the-board budget cuts
          beginning in January 2013. Commerce programs will be deeply affected. As the Department
          prepares for this extended period of tighter budgets and decreased spending, it is more
          important than ever to understand the risks associated with making trade-offs in allocating
          resources between the implementation of programs and the oversight of those programs.

          Also, after experiencing significant cost increases in the last decennial (from $8.2 billion to
          $12.8 billion between 2000 and 2010 decennials), the Census Bureau—a departmental
          component—has vowed to contain cost of the 2020 decennial by making critical design
          decisions by the end of FY 2014. However, it has already encountered significant challenges in
          achieving this goal. While the nation is facing significant financial hardship, the Department and
          Census Bureau simply cannot afford to repeat the cost growth experienced over prior
          decennials. We have identified three areas for management attention during a period of funding
          uncertainty:

          •	 Increase internal controls and oversight of departmental operations under a constrained
             budget

          •	 Invest for efficiencies and long-term benefits

          •	 Implement bold design changes to contain 2020 decennial costs while maintaining
             enumeration quality

          Increase Internal Controls and Oversight of Departmental Operations Under a
          Constrained Budget

          Since FY 1999, the Department has received unqualified audit opinions on its financial
          statements. While this is a testimony of the health of departmental financial reporting systems,
          it is not an adequate benchmark for internal controls and management oversight of day-to-day
          operations, especially in today’s constrained budget environment. In an era of constrained
          budgets, there is a greater risk that management will take shortcuts, loosen internal controls,
          and deemphasize oversight, in order to devote resources to other requirements.




          FINAL REPORT NO. OIG-13-003                                                                         8




 396                                    F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

                                                                  While management has increased departmental-level
                                                                  oversight in recent years, such as reviewing high-risk IT
                                                                  investments (challenge 3) and reducing use of high-risk
                                                                  contracts (challenge 4), more needs to be done. Recent
                                                                  concerns over conference spending and unauthorized
                                                                  reprogramming of funds have highlighted the importance
                                                                  of strong internal controls and the continued need for
                                                                  effective oversight.

                                                                  National Weather Service Reprogramming

                                                                  In June 2012, the Appropriations Subcommittee
                                                                  approved the Department’s $35.6 million
                                                                  reprogramming request to support NOAA National
                                                                  Weather Service (NWS) operations. An internal inquiry
                                                                  report prepared by the Department highlighted
                                                           mismanagement of budgetary resources and manipulation of
                        Source: Office of Management
                        and Budget
                        accounting records deeply embedded in NWS. This highlights
                                                           the need for increased oversight and transparency.


                   To its credit, the Department has issued directives requiring immediate and across-the-board
                   corrective actions and expanded management’s review of internal controls (per OMB Circular
                   A-123 15) in response to this incident. However, the 6-month-long investigation of this incident
                   and subsequent development/implementation of corrective actions have diverted management
                   attention/resources away from other critical functions. To get ahead of the curve, departmental
                   management needs to instill an accountability culture enriched with increased transparency,
                   readily available support, and independent validation.

                   Ethical Violations and Concerns of Mismanagement

                   Loosened internal controls and relaxed oversight can increase the misuse of federal funds and
                   lessen public confidence in the government. The following investigative case examples
                   underscore the need for stronger controls and more vigilant oversight to prevent fraud, waste,
                   and abuse within the Department and among its grant recipients and contractors:

                   •	 Former executive directors of a commission that received a NOAA grant misused $575,000
                      in grant funds and were indicted—and plead guilty—to charges of theft, bribery, and wire
                      fraud.

                   •	 A NIST grantee diverted more than $100,000 from a $2 million NIST grant to a related
                      company for non-grant-related expenses.

                   •	 Several recipients of Commerce funds committed price fixing, used defective merchandise,
                      conducted money laundering, and made false statements.

                   15
                     Office of Management and Budget, December 21, 2004. Management’s Responsibility for Internal Control, OMB
                   Circular A-123. Washington, D.C.: OMB.


                   FINAL REPORT NO. OIG-13-003                                                                               9




F Y   2 0 1 2   P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 397
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

          Over the past several quarters, complaints made to the OIG Hotline have consistently
          increased, driven largely by growth in complaints related to NOAA (see figure 2). While some
          complaints may have been caused by misunderstanding or miscommunication, they all need to
          be reviewed individually. OIG provides complaints related to mismanagement and minor
          misconduct to the responsible bureaus for proper handling. However, many cases referred to
          bureaus for inquiries and actions have not been reviewed sufficiently or in a timely manner. To
          provide effective oversight, the Department must address complaints referred by OIG
          promptly and work to provide effective internal controls to help prevent issues before they
          occur. We will continue working with the Department to enhance handling of these complaints.

           Figure 2. Complaints Received by Quarter for Agencies with Highest Complaint Volume,
           from Third Quarter, FY 2011, Through Third Quarter, FY 2012


             160


                                                                                  136
             140
                                                                  127

             120


             100
                                                    89
                        90           84
                                                                                                  Total
              80
                                                                                                  NOAA
                                                                                                  Census
              60                                                                                  USPTO



              40


              20


               0
                    Q3, FY 2011   Q4, FY 2011    Q1, FY 2012    Q2, FY 2012   Q3, FY 2012

          Source: OIG

          Oversight of Use of Federal Funds Awarded to Grantees

          The Department has more than 70 programs authorized to award grants. Between FYs 2009
          and 2011, these programs issued almost $10 billion in American Recovery and Reinvestment
          Act of 2009 (ARRA) and non-ARRA awards. Ensuring timely resolution of grant audit findings
          and corrective actions is an essential aspect of grant oversight. In June 2012, we reported to the
          Department that there were 25 unresolved audits, including 14 that were past due. More than


          FINAL REPORT NO. OIG-13-003                                                                        10




 398                                      F Y   2 0 1 2   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                  APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL

                   half of those that were past due were at NIST, which was experiencing a staffing shortage in its
                   Grants and Agreements Management Division. While we are aware that NIST has begun
                   addressing the backlog, timely grant audit resolutions need to be a priority.

                   With approximately $3.8 billion in grant awards, the Broadband Technology Opportunities
                   Program (BTOP), funded by ARRA, represents the most significant investment of federal funds
                   in the Department. As of June 30, 2012, about 50 percent of BTOP funds remain to be
                   disbursed. As these projects near their required 3-year completion dates (between November
                   2012 and September 30, 2013), the potential for fraud, waste, and abuse associated with such
                   large-dollar-amount awards will increase as recipient spending increases. However, the
                   uncertain funding for BTOP oversight in FY 2013 and beyond raises significant concerns about
                   the Department’s ability to adequately oversee the program in the future (e.g., closeout of
                   projects and oversight of projects that received extensions). Management needs to remain
                   committed to monitoring BTOP recipient compliance with grant award terms and achievement
                   of intended benefits.

                   Invest for Efficiencies and Long-Term Benefits

                   Smart investment for long-term benefits, when combined with responsible spending, is key to
                   success in today’s constrained budget environment. The Department has endorsed several
                   efforts to modernize its mission-support functions; for example, it has made good progress in
                   modernizing/standardizing Human Resources–related operations by adopting a government-
                   wide system solution offered by the Treasury Department. We have identified the following
                   modernization efforts as requiring management attention.

                   Modernization of Financial Management Systems

                   The Department and its bureaus use multiple legacy financial management systems to support
                   day-to-day operations, including a core accounting system developed with aging technology and
                   augmented with in-house software that is increasingly more difficult to maintain. The multiple
                   legacy financial systems cannot provide timely and accurate data for management decision
                   making. In addition, interfaces, reports, and data warehouses are duplicated, leading to high
                   maintenance costs. These limitations impede the Department’s ability to oversee Department-
                   wide financial activities.

                   The Department plans to replace all legacy financial systems—core financial accounting, financial
                   management, grants management, acquisition management, and property management—with
                   commercially available software between FYs 2014 and 2018. While modernizing legacy financial
                   systems has to be a priority for the Department, the planned implementation represents
                   significant challenges to the Department.

                   •	 The proposed implementation timetable is very aggressive for modernization projects of
                      such size. However, as pointed out by the project team, this aggressive timetable is in
                      compliance with OMB requirements of not exceeding 24 months when developing/
                      implementing financial systems. To meet this aggressive schedule, the project team plans to
                      significantly limit the amount of software customization. Bureaus are expected to adjust
                      their financial/accounting/business operations based on the functionalities established in


                   FINAL REPORT NO. OIG-13-003                                                                     11




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                          399
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

             selected vendor software. With the diverse cultures in the Department, synchronizing
             bureau financial operations requires strong departmental governance.

          •	 The Census Bureau is scheduled to be converted first by FY 2016. This timely conversion is
             critical to Census’s 2020 decennial readiness. Any schedule slippage could complicate
             decennial planning and cost-containment efforts. Management needs to keep close oversight
             of this modernization effort.

          Renovation of the Herbert C. Hoover Building

          For the first time in its 79-year history, the Herbert C. Hoover Building (HCHB) was scheduled
          to undergo a comprehensive renovation between FYs 2008 and 2021. This project is led by the
          U.S. General Services Administration (GSA) with a projected cost of more than $900 million,
          and is to be completed in eight phases. However, this project is now at risk of not being funded
          beyond phase 3. As a result, the building will remain noncompliant with current fire and safety
          codes and regulations. If renovation is interrupted at phase 3, 62 percent of the building will still
          contain hazardous material, 75 percent of HCHB will not have permanent fire suppression
          systems, 55 percent of HCHB will lack blast window protection, and the majority of HCHB will
          not meet the American with Disabilities Act requirements. This places building occupants at
          risk. The Department needs to work with GSA and Congress to secure funding for continued
          safety improvement in the building.

          Implement Bold Design Changes to Contain 2020 Decennial Costs While
          Maintaining Enumeration Quality

          The Census Bureau has vowed to contain the costs of the 2020 decennial to an amount close
          to final costs of the 2010 census. To achieve cost savings, the bureau is exploring new and
          innovative design alternatives. While it seems that the 2010 decennial has just completed, the
          Bureau is in the initial stages of 2020 census research and testing and is already encountering
          challenges. In addition, the recent resignation of the director raises concerns. Because the
          Bureau operates on long planning cycles for the decennial
          census, it is difficult to maintain leadership with a              U.S. Population Estimate from
          consistent vision—and much easier to fall back on old              U.S. Census Bureau
          ways and institutional habits. We identified the following
          issues requiring senior management attention.

          Planning Within Constrained Budgets

          Like the rest of the federal government, the Census
          Bureau is operating in a constrained budget environment.
          As a result of a reduction in its budget request for FY
          2012, the Bureau canceled 20 of 109 studies to measure
          its performance in the 2010 decennial. Another 25
          studies, to be completed in FY 2013, are contingent on
          funding. Canceling these studies may jeopardize the
          identification of lessons learned, which is critical to
          planning the next decennial. The Bureau must be strategic
                                                                            Source: OIG
          FINAL REPORT NO. OIG-13-003                                                                        12




 400                                     F Y   2 0 1 2   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

                   in how it spends its available funding. Also, it must provide the Secretary and Congress reliable
                   and transparent budget requests.

                   Leadership Continuity and Departmental Oversight

                   Leadership continuity is essential to maintain momentum as planning progresses for the 2020
                   decennial. Absent stable, committed leadership, any organization tends to revert to its
                   embedded culture. A leadership void on the top adds risk to the Bureau’s management of
                   critical issues (e.g., budget, operational design, and questionnaire content). Reverting to
                   historical practices and limited design changes experienced in recent decennial censuses will
                   result in unsupportable cost growth for the next census. To coordinate ongoing activities
                   leading to a cost-effective design decision, which must be made by the end of FY 2014, the
                   appointment of a new director must be a priority.

                   Departmental oversight should play a key role: early in the decennial development process, it
                   can reveal whether the Census Bureau has considered all reasonable project alternatives or if it
                   is assuming too much risk. In this way, the Department can work with the Bureau to address
                   problems before unnecessary costs accumulate. For example, the Department Information
                   Technology Review Board recently examined decennial IT planning efforts. It is critical that
                   departmental management continues close oversight to help ensure decennial cost containment
                   and quality.

                   Uncertainty Surrounding Funding for the American Community Survey

                   The American Community Survey (ACS) infrastructure allows for the creation and testing of
                   enterprise-wide solutions to obstacles that face all survey and decennial operations. In our final
                   2010 Census report to Congress, 16 we suggested that the Census Bureau use ACS to explore
                   areas such as questionnaire content and design, response options (such as the Internet), use of
                   administrative records, and targeted field data collection procedures and methodologies.
                   Census’s preliminary 2020 decennial cost estimates were based on the assumption that the
                   ACS program would continue. With Congress debating the elimination of funding for this
                   survey, management needs to factor into 2020 decennial planning efforts the significant
                   uncertainty this would create.

                   Ability to Use Administrative Records

                   Currently, one of the focal points of the 2020 Census research and testing agenda is to use
                   administrative records to improve the address list and reduce the number of visits to housing
                   units that do not return the questionnaire. The use of these records could potentially save
                   billions of dollars over the life cycle of the next census. However, obtaining access to these
                   records can be difficult because relevant statutes governing other federal agencies do not
                   compel them to provide their records to the Bureau. In addition, as we recently reported, 17

                   16
                     U.S. Department of Commerce Office of Inspector General, June 27, 2011. Census 2010: Final Report to Congress,

                   OIG-11-030-I. Washington, D.C.: Department of Commerce OIG.

                   17
                     U.S. Department of Commerce Office of Inspector General, May 10, 2012. High-Quality Maps and Accurate 

                   Addresses Are Needed to Achieve Census 2020 Cost-Saving Goals, OIG-12-024-I. Washington, D.C.: Department of 

                   Commerce OIG.



                   FINAL REPORT NO. OIG-13-003                                                                                   13




F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                       401
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

          although tribal, state, county, and local governments share address information with Census,
          Title 13 forbids Census from reciprocating with those partners and federal agencies—with a
          few, very narrow, exceptions, such as the once-a-decade address-updating program. According
          to the Bureau, it is trying to identify opportunities that will provide detailed feedback to local
          governments throughout the decade for address list improvements. However, to facilitate a
          wide-ranging use of administrative records—key to containing 2020 decennial costs—
          management needs to seek congressional guidance.




          FINAL REPORT NO. OIG-13-003                                                                     14




 402                                     F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                           APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL


                   Challenge 3:
                   Strengthen Security and Investments in Information Technology
                   In FY 2012, the Department planned to invest $2.4 billion in IT. This is about 25 percent of its
                   annual budget and one of the highest percentages devoted to IT among all civilian agencies. The
                   Department and its constituent bureaus rely on IT to support major mission activities, such as
                   producing the constitutionally mandated decennial census; releasing vital economic statistics
                   (e.g., the gross domestic product and consumer spending); granting patents and trademarks;
                   issuing severe weather alerts; and operating weather satellites. However, we have identified
                   major concerns in the Department’s IT security posture and fragmented IT governance. While
                   the Department’s Chief Information Officer (CIO) has taken steps to strengthen IT governance,
                   we continue to find significant security vulnerabilities in bureau systems, which could lead, and
                   already have led, to service disruptions and loss of sensitive information. We have identified
                   four areas for management attention:

                   •	 Continue improving Commerce’s IT security posture by addressing persistent security
                      weaknesses

                   •    Develop resilient incident response and recovery capabilities with increased monitoring of
                        Internet traffic

                   •    Manage Commerce’s IT portfolio with enhanced governance structure

                   •	 Strengthen oversight of IT investments

                   Continue Improving Commerce’s IT Security Posture by Addressing Persistent
                   Security Weaknesses

                   Government agencies, Internet commerce, and vital business sectors are all affected by the
                   rapid increase in the number of cyberattacks. The Department is under constant threat because
                   of its reliance on Internet-based technologies, which interconnect its IT systems and facilitate
                   business with the public. In fact, several of the Department’s bureaus fell victim to significant
                   cyber intrusions in recent years. For example, in January 2012, as a result of a malware
                   infection, the Economic Development Administration (EDA) disconnected its systems from the
                   Internet, greatly affecting its ability to maintain normal business operations. Also, hackers
                   successfully penetrated two other bureaus’ networks during FY 2012, resulting in exfiltration 18
                   of user account information. Hackers could have gained unauthorized access to the bureaus’
                   sensitive information. These incidents resulted from a persistent lack of basic security controls.

                   We conducted security assessments on a targeted selection of 18 systems from six bureaus in
                   FY 2010 and 10 systems from three bureaus in FY 2011. We also assessed the security posture

                   18
                     Exfiltration, in the context of this report, refers to the unauthorized transfer of information from an organization
                   to external entities.


                   FINAL REPORT NO. OIG-13-003                                                                                        15




F Y   2 0 1 2   P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                            403
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL

                                      of 15 Web application systems from eight bureaus. In FY 2012, we
                                      assessed the effectiveness of four bureaus’ information security
                                      programs by evaluating key security measures in place to protect
                                      mission-critical information that is processed, stored, or transmitted
                                      by 17 information systems within these bureaus.

                                     Over the years, we have repeatedly identified significant flaws in basic
                                     security measures protecting IT systems and information. We have
          continually called for greater attention and stronger commitment from the Department’s senior
          management to the basic security practices, which, if properly implemented, can effectively
          minimize or stop cyberattacks before a serious compromise occurs. In response to our
          FYs 2010 and 2011 recommendations, the Department has updated its IT security policy for
          vulnerability scanning, secure configurations, and management of plans of action and milestones.
          However, the Department needs to enforce these polices because we continue to find similar
          security weaknesses in department-wide and bureau systems. For example, we reported the
          following persistent security weaknesses in FYs 2010, 2011, and 2012: 19

          •    High-risk vulnerabilities

          •    Deficient patch management

          •    Inadequate secure configuration settings

          •    Ineffective vulnerability scanning

          •    Security weaknesses not tracked or remediated expeditiously

          Last year, we reported that the Department had taken the significant step of including
          information security measures in the Deputy Secretary’s quarterly balanced scorecard review
          with bureau heads, to help institutionalize good security practices. However, we found that
          those measures were inconsistently reported across the Department. For example, bureaus
          chose different security controls as their reporting measures. Such reporting makes it harder to
          assess overall performance of the Department’s IT security program. To correct this
          inconsistency, the Office of the Chief Information Officer, after collaborating with the bureaus,
          issued guidance in July 2012 to help bureaus consistently and accurately report their IT security
          performance in future balanced scorecards. With this renewed focus on using consistent and
          accurate security measures for balanced scorecard review, the Department should require
          bureaus to demonstrate progress in correcting persistent security weaknesses.




          19
            U.S. Department of Commerce Office of Inspector General, November 2010. Federal Information Security
          Management Audit Identified Significant Issues Requiring Management Attention, OIG-11-012-A. Washington,
          D.C.: Department of Commerce OIG; U.S. Department of Commerce Office of Inspector General, November 2011.
          FY 2011 Federal Information Security Management Act Audit: More Work Needed to Strengthen IT Security
          Department-Wide, OIG-12-007-A. Washington, D.C.: Department of Commerce OIG.


          FINAL REPORT NO. OIG-13-003                                                                             16




 404                                       F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                         APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

                   Develop Resilient Incident Response and Recovery Capabilities with Increased
                   Monitoring of Internet Traffic

                   EDA (at the time of the cyber incident) and several other bureaus located in the main
                   Commerce building rely on the Department’s Computer Incident Response Team (DOC CIRT)
                   to provide forensic analysis when a cyber event occurs. However, while investigating EDA’s
                   cyber incident, DOC CIRT faced technical challenges and had to depend heavily on several
                   internal and external groups, such as NIST, the Department of Energy, and other federal
                   agencies for assistance. The Department needs to strengthen its incident response capabilities
                   to effectively deal with ever-increasing cyber events.

                   In addition, this cyber incident exposed a weakness in EDA’s continuity of operations planning.
                   For example, due to malware infection on its systems, which may have existed on the systems
                   for several years, EDA could not assure that information stored on its electronic backup media
                   was not contaminated. As a result, EDA had to “clean” the information before using it to
                   reconstitute its systems, which significantly extended the reconstitution time. As a lesson
                   learned from the EDA incident, the Department should ensure that bureaus consider the
                   potential effects of corrupted information from cyberattacks when planning continuity of
                                                                          operations.
                        The Department should ensure that
                                                                         The Department has made a concerted 

                        bureaus consider the potential effects of        effort to implement OMB’s Trusted 

                        corrupted information from cyberattacks	         Internet Connection (TIC) initiative, 

                                                                         which should better monitor cyber

                        when planning continuity of operations.
                                                                         threats from the Internet. All bureaus,
                                                                         except the Census Bureau and NOAA,
                   will acquire TIC service by December 2012. NOAA is planning to be its own TIC access
                   provider by 2014. However, the Census Bureau raised concern over TIC’s inspection process,
                   which could allow third parties, such as the Department of Homeland Security, to access
                   sensitive information that must be protected against disclosure by Title 13 of the United States
                   Code. 20 As a result, the Census Bureau has no definite timeline for TIC implementation but
                   continues to work with the Department of Homeland Security to achieve a mutually acceptable
                   solution. The Department needs to assign a high priority to helping Census resolve the concern
                   about potential violation of Title 13 requirements.

                   Manage Commerce’s IT Portfolio with Enhanced Governance Structure

                   We previously attributed the Department’s long-standing information security weaknesses to
                   its fragmented CIO governance. In addition to the Department’s CIO, there have been 18 CIOs
                   in Commerce’s bureaus, including 7 within NOAA. The Department’s CIO had little oversight
                   of bureau budget submission and performance evaluation of key bureau IT management. This
                   weak central governance resulted in stovepipes in IT investments and difficulties in fixing
                   persistent security weaknesses.


                   20
                     Title 13 is the law under which the Census Bureau operates. The law guarantees the confidentiality of census
                   information and establishes penalties for disclosing this information.


                   FINAL REPORT NO. OIG-13-003                                                                                      17




F Y   2 0 1 2   P E R F O R M A N C E      A N D     A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                         405
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

          In June 2012, the Acting Secretary issued the “Department IT Portfolio Management
          Strategy,” 21 which expanded the role of the Commerce CIO. Previously limited to policymaking
          and infrastructure maintenance, the Commerce CIO now implements Department-wide IT
          shared commodity services, approves bureaus’ IT investments, and provides at least 25 percent
          of performance appraisals of individuals responsible for IT commodity services. Under the new
          strategy, there will be only one CIO per bureau for better accountability.

          This new strategy is an important step. However, it is too early to judge its effectiveness for
          two reasons. First, historically, bureaus have functioned independently on IT matters with little
          departmental direction. Second, the new strategy focused on increasing the Department CIO’s
          influence on “IT shared commodity services,” such as networks, data centers, and e-mails,
          which account for only about 25 percent of the Department’s total IT investments. Senior
          management should consider further enhancing the IT governance structure to help ensure the
          Department’s success with several major IT investments on the horizon—supporting 2020
          Decennial operations, implementing patent reform, modernizing weather-related information in
          Next Generation Air Traffic Control Systems, and replacing all departmental legacy financial
          systems. Further, to meet OMB’s directive to reduce FY 2014 IT spending by 10 percent (a
          reduction of $226 million for the Department), the CIO needs to leverage newly enhanced
          authority to turn around at-risk projects and to eliminate duplicative IT assets, contracts, and
          services.

          Strengthen Oversight of IT Investments

          The Department’s IT review board, led by the CIO and Chief Financial Officer (CFO), reviews
          major IT investments for status updates and requests for additional spending authority 22 and
          conducts TechStat reviews, which focus on putting troubled investments back on track. In
          calendar years 2011 and 2012, the IT review board has held 20 major IT investment reviews,
          seven TechStat reviews, and two special risk reviews on NOAA’s satellite programs and the
          Bureau of Industry and Security’s USXPORTS Exporter Support System. Also, as part of the
          budget process, agencies are required to submit IT capital asset summaries, which specify the
          cost, schedule, and performance baselines for major IT investments. The Office of the CIO
          collects this information, as well as monthly updates; evaluates investment risk; and submits this
          information to the OMB Federal IT dashboard.

          The Department’s CIO has taken steps to improve the IT investment review process, such as
          having bureaus submit project information to the CIO’s subject matter experts for analysis
          before the review meeting. Such improvements, in conjunction with TechStat reviews and the
          increased visibility provided by the federal IT dashboard, have contributed to improving the
          likelihood of investment success. However, three of six troubled IT investments have remained
          at high risk for more than 12 months (see table 1), and according to information on the OMB
          Federal IT dashboard, about 25 percent of Commerce’s major IT investments are 30 percent or
          more behind schedule.

          21
             U.S. Department of Commerce, Acting Secretary. June 21, 2012. Department IT Portfolio Management Strategy.

          Washington, D.C.: Department of Commerce.

          22
             Departmental officials also conduct reviews of non-IT acquisition projects. See challenge 4: Implement

          Framework for Acquisition Project Management and Improve Contract Oversight.



          FINAL REPORT NO. OIG-13-003                                                                                 18




 406                                        F Y   2 0 1 2    P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                   APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

                   Table 1. High-Risk Commerce IT Investments
                                                                               Total FY 2012
                                                                               Spending        Months at High
                     Bureau                     Investment                     ($ Million)     Risk 2010 2012
                     Census    American Community Survey                               39              2
                               Decennial 2010 systems design, integration,
                               and evaluation                                        24                9
                               IT infrastructure                                    130                1
                     NOAA       Joint Polar Satellite System ground system          154               15
                               National Weather Service
                               telecommunication gateway                             21               20
                               Weather Radio Improvement Project                      5               18

                   The CIO and CFO, in conjunction with bureau heads, need to ensure that program
                   management is more aggressively addressing investments with a history of high risk. For
                   example, bureaus should be required to bring in outside experts to quickly assess root causes
                   and provide remedies for failing investments, as was done for the National Telecommunications
                   and Information Administration’s Federal Spectrum Management System. The CIO should
                   terminate IT investments that cannot be turned around and find alternative approaches for
                   acquiring needed services.




                   FINAL REPORT NO. OIG-13-003                                                                   19




F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                        407
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL


          Challenge 4:
          Implement Framework for Acquisition Project Management and Improve
          Contracts Oversight
          In FY 2011, the Department obligated approximately $2.4 billion on contracts for goods and
          services, including satellite acquisitions, intellectual property protection, broadband technology
          opportunities, management of coastal and ocean resources, information technology, and
          construction and facilities management. Table 2 illustrates the dollar amounts that Commerce’s
          operating units have obligated through contracts in recent years.

          To maximize these funds, the Department needs to strengthen its acquisition and contract
          management practices. While it has made some progress—such as reorganizing the Office of
          Acquisition Management to more directly address major acquisition initiatives and implementing
          an Acquisition Center of Excellence, which will consolidate acquisition support for the
          Department’s smaller bureaus, our audits continue to find weaknesses in how the Department
          plans, administers, and oversees its contracts and acquisition programs. We have identified four
          areas for management attention:

          •      Implement the planned framework for acquisition project management

          •      Oversee high-risk contracts

          •      Maintain an acquisition workforce that holds bureau officials accountable

          •      Implement an effective suspension and debarment program

           Table 2. Dollar Amounts Obligated by Commerce’s Operating Units
                                        FY 2009                        FY 2010                        FY 2011
               Commerce         Contract         Dollars       Contract          Dollars      Contract        Dollars
               Acquisition      Actions 23    (in millions)    Actions        (in millions)    actions     (in millions)
               Office
               NOAA                 16,831         $1,159          16,087           $1,624      14,159           $1,160
               Census                3,332          1,308           3,187            1,312       1,849              522
               USPTO                 1,776            384           1,619              431       2,134              388
               NIST                  4,768            286           4,992              505       5,224              253
               Office of the
               Secretary               768             63             870               53       1,161               44
               Total                27,475         $3,200          26,755           $3,925      24,527           $2,367
               Source: Department of Commerce Office of Acquisition Management




          23
               Contract actions include contracts, delivery orders, task orders, and contract modifications.


          FINAL REPORT NO. OIG-13-003                                                                                       20




 408                                              F Y   2 0 1 2     P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                           APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL

                   Implement the Planned                           The Office of Acquisition Management
                   Framework for Acquisition
                   Project Management                              developed a framework, which described the
                                                                   minimum standard of processes required of
                   Because of challenges the                       high-profile projects, including capital
                   Department encountered in earlier
                   acquisitions, in June 2010, the                 investments such as satellites, information
                   former secretary mandated a study               technology, facilities, and ships and aircraft.
                   be conducted on ways to improve
                   the acquisition process. The resulting study identified several problems with the system—
                   including requirements, cost analysis, and oversight of major projects. To address these
                   concerns, the Office of Acquisition Management developed an Acquisition Project Management
                   Framework/Guidebook (see figure 3), which described the minimum standard of processes and
                   major milestone reviews required of high-profile projects—including capital investments such as
                   satellites, information technology, 24 facilities, and ships and aircraft—throughout multiple
                   acquisition phases: conceptual development, project definition, and project development
                   (including procurement/contracting). 25 The framework also highlights the importance of
                   independent reviews and reliable cost estimation, among other things. This is a significant
                   improvement when compared with the previous departmental framework, which focused
                   largely on procurement/contracting–related activities.
                    Figure 3. The Acquisition Project Management Framework




                    Note: MS = milestone.
                    Source: Department of Commerce Office of Acquisition Management.


                   The new framework, if implemented consistently, should increase the transparency of bureau
                   acquisition programs and help mitigate risks of cost overruns, schedule delays, and performance
                   shortfalls commonly experienced by major acquisitions. Based on dollar thresholds, risks, and
                   specific designation, Departmental management has selected a group of current bureau
                   acquisition programs for review, in accordance with the new framework. Through programs
                   such as NOAA’s acquisition of new and improved satellites and Census’s preparations for the
                   2020 decennial census, the Department will have many opportunities to practice the
                   framework.

                   However, incorporating the framework into the Department’s acquisition policy will require
                   management attention. The Department has not used such a detailed process to program, plan,

                   24
                        See also challenge 3: Strengthen Security and Investments in Information Technology.
                   25
                        The Department also drafted an interim policy for applying the framework pending for signature.


                   FINAL REPORT NO. OIG-13-003                                                                               21




F Y   2 0 1 2   P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                    409
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

          and budget for new acquisitions. In addition, bureaus such as NOAA question its need because
          they use their own detailed acquisition policies. The Department needs to ensure that the
          departmental policy requiring the use of the acquisition framework is issued and followed by all
          bureau officials to timely achieve its mission requirements.

          Implementing the Acquisition Project Management Framework (when expanded to cover the
          asset disposal process) could also help the Department ensure timely replacement of aging
          equipment. For example, aircraft used to conduct hurricane surveillance are all nearing the end
          of their useful life, and more modern versions are needed. However, planning efforts to replace
          aged aircraft have not yet started despite the bureau’s knowledge of the need.

          Oversee High-Risk Contracts

          In FY 2011, the Department reported progress in reducing dollar amounts of high-risk contract
          awards. Despite this progress, overseeing existing high-risk contracts remains a challenge to
          management. We continue to find weaknesses in the use of cost-plus-award-fee (CPAF) and
          cost-plus-award-term (CPAT) contracts, which put the Department’s contract dollars at risk.
          CPAF and CPAT contracts can encourage excellence by providing financial incentives based on
          performance, but they require effective monitoring to ensure contract dollars are spent wisely
          and award fees and terms are justified. In May 2012, we reported that NOAA did not use
                                                        measurable evaluation criteria or payment
            More than $40 million was paid in structures to motivate exceptional performance.
            award fees or approved for                  Ultimately, NOAA consistently gave contractors
                                                        high ratings and substantial award fees and
            contract extensions without proper contract extensions, despite lacking adequate
            justification.                              support for their actual performance, as measured
                                                        by evaluation criteria and required by the Office of
          Management and Budget. Based on our audit, we found that more than $40 million was paid in
          award fees or approved for contract extensions without proper justification. Effective
          implementation of NOAA measures will be critical to ensuring it does not pay improper award
          fees and extend contract terms.
          Poor data systems could also undermine the Department’s efforts in managing its high-risk
          contracts. Our audits have found that Commerce acquisition information reported in the
          Federal Procurement Data System–Next Generation (FPDS-NG) is incomplete and inaccurate.
          For example, in May 2012, we reported that the complete picture of NOAA’s use of CPAF and
          CPAT contracts was unclear. Data reported in FPDS-NG and records maintained by NOAA on
          the use of CPAF and CPAT contracts were also inaccurate and incomplete. NOAA is the
          largest of all of the Department’s procurement offices, obligating approximately 49 percent of
          the funding in FY 2011.




          FINAL REPORT NO. OIG-13-003                                                                    22




 410                                    F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

                   Management needs to focus on developing reliable information, and data management systems
                   will position the Department to conduct more strategic acquisitions. This focus should begin
                   with the Department implementing our May 2012 recommendation to adhere to Commerce
                   policy to validate data to more accurately reflect the contract types. 26

                   Maintain an Acquisition Workforce That Holds Bureau Officials Accountable

                   In a March 2009 memorandum, the President acknowledged that the government needs to
                   ensure that it has the workforce needed to carry out robust and thorough oversight of
                   contracts to help program management achieve goals, avoid significant overcharges, and curb
                   wasteful spending. 27 However, the capacity and the capability of Commerce’s acquisition
                   workforce to oversee and manage contracts face major challenges due to high turnover and
                   employee retirement, coupled with a significantly reduced budget, gaps in key competency
                   areas, and expanded workload. Like many federal agencies, the Department is faced with the
                   major challenge of replacing existing talent because of a large number of retirements expected
                   over the next several years. Of the approximately 200 contracting officers and specialists that
                   Commerce employs, more than half can retire within 10 years. In addition, 14 percent of them
                   are already eligible for immediate retirement. Replacing these employees represents a significant
                   challenge since many possess unique skills and institutional knowledge that will be difficult to
                   replace.

                   Additionally, 36 contracting officers and specialists left the Department in FY 2011—an attrition
                   rate of 18 percent compared with the Department’s overall attrition rate of 3 percent. 28 While
                   the DOC has taken some actions to improve its ability to recruit qualified candidates, such as
                   increasing the number of entry-level contracting job series from 24 in FY 2010 to 28 in
                   FY 2011, improving recruiting activities will require a long-term commitment and focus. The
                   Department needs to continue its recruitment efforts at the entry levels and focus on retention
                   of that staff to maintain corporate knowledge about the respective bureau processes within the
                   Department. This knowledge will provide a long-term assurance that the Department’s future
                   missions can be accomplished.

                   Also, our investigations have continuously identified the need for more vigilant oversight and
                   stronger process controls to detect and prevent procurement fraud, waste, and abuse within
                   the Department and among its fund recipients and contractors. The following examples of OIG
                   investigative findings illustrate the need for Commerce's continued attention to procurement
                   integrity issues:




                   26
                      U.S. Department of Commerce Office of Inspector General, May 2012. NOAA’s Cost-Plus-Award-Fee and Award-
                   Term Processes Need to Support Fees and Extensions, OIG-12-027-A. Washington, D.C.: Department of Commerce
                   OIG.
                   27
                      President’s Memorandum, March 4, 2009. Government Contracting.
                   28
                      According to Commerce Office of Acquisition Management, the attrition rate of 18 percent was calculated based
                   on 36 positions, NOAA: 16, NIST: 9, OS: 6, Census: 4, USPTO: 1, divided by 200 positions onboard at the end of FY
                   2011. The 3 percent was calculated based on the total of employees in any series that separated from Commerce
                   in FY 2011 (1,536) divided by the number on board at the end of FY 2011 (47,626).


                   FINAL REPORT NO. OIG-13-003                                                                                   23




F Y   2 0 1 2   P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                       411
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL

          •	 Misuse of government credit cards, including falsification of purchase card records

          •	 Conflicts of interest due to personal relationships between grant awarding officials and grant
             recipients, to include familial, marital (in-law) and former employer/employee relationships

          •	 Misuse of public position for private gain—for instance, Commerce employees acquiring
             property or services through the Department’s funds under the premise of fulfilling a
             bureau function but then diverting the property or service for their personal use

          •	 Misuse of items purchased with Commerce funds, such as a NOAA boat that was used
             recreationally by NOAA officials

          Finally, in the light of the known issues concerning GSA’s misuse of resources for agency
          conferences, we have seen an increase in attention related to spending on conferences. The
          Department has implemented new procedures to review conference spending. Bureau heads
          should now be more sensitive to the public perception of conference spending and inclined to
          make better spending decisions related to conferences.

          Implement an Effective Suspension and Debarment Program

          We previously reported on the challenges facing the Department in ensuring that it contracts
          with and provides funding assistance only to responsible parties. 29 Since finalizing its first
          suspension or debarment action in over 15 years, in April 2011, the Department has made
          progress toward establishing an efficient and durable suspension and debarment program. OIG
          has referred nine matters, including five since September 2011, to the Department’s Suspending
          and Debarring Official (SDO). Based on these referrals, the SDO has taken 37 total actions and
          declined one referral.
          The SDO continues efforts toward establishing a strong program, including regular attendance
          at monthly meetings of the Interagency Suspension and Debarment Committee; designation of a
          Suspension and Debarment Coordinator, who serves as a focal point for the program;
          preliminary planning for routine intradepartmental training on suspension and debarment; and
          establishment of regular meetings with the Office of General Counsel and OIG’s Office of
          Counsel. However, certain issues present ongoing challenges. Although the SDO’s office has
          begun drafting policy documents to institutionalize processes and procedures regarding the
          referral, review, and issuance of suspension and debarment matters, the adoption process
          needs to be finalized. Also, even though the SDO’s processing efficiency has increased over the
          past year, there is room for improvement regarding the prompt review of referrals; and the
          program lacks a clear delineation of roles and responsibilities in such important areas as revising
          and adapting draft documents prepared by OIG for possible use in suspension and debarment
          actions and appropriately following up on actions once taken.




          29
            U.S. Department of Commerce Office of Inspector General, October 2011. Top Management Challenges Facing
          the Department of Commerce, OIG-12-003. Washington, D.C.: Department of Commerce OIG.


          FINAL REPORT NO. OIG-13-003                                                                             24




 412                                       F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                          APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


                  Challenge 5:
                  Reduce Risks of Cost Overruns, Schedule Delays, and Coverage Gaps for
                  NOAA’s Satellite Programs
                  Managing risks in the acquisition and development of the next generation of environmental
                  satellites is a continuing challenge for the Department. The two most prominent programs, 30
                  the Joint Polar Satellite System (JPSS) and the Geostationary Operational Environmental
                  Satellite-R series (GOES-R), together account for one-third of NOAA’s FY 2013 budget
                  request. They are also the largest investments in the Department, comprising nearly 20 percent
                  of the Commerce budget. The satellites will provide data and imagery for weather
                  forecasting—including severe-storm tracking and alerting—and the study of climate change.
                  Operating environmental satellites and weather forecasting are designated as primary mission-
                  essential functions of the Department because they help lead and sustain the nation in the event
                  of a catastrophe. Yet, because of cost overruns, schedule delays, and the aging of NOAA’s
                  current constellation of satellites, NOAA is confronting coverage gaps for these critical assets.

                  Strong program management and close oversight of these programs are needed, to manage
                  risks that inevitably lead to cost overruns, schedule delays, and coverage gaps for the critical
                  capabilities these programs will provide. Based on our work with these programs, we have
                  identified four areas for management attention:

                  •    Communicate with stakeholders to define JPSS capabilities, schedule, and cost baselines

                  •    Ensure adequate leadership and governance structure over JPSS development

                  •    Develop a plan to support NOAA weather forecasting capabilities during coverage gaps

                  •    Reduce program risks associated with GOES-R development

                  Communicate with Stakeholders to Define JPSS Capabilities, Schedule, and Cost
                  Baselines

                  In our September 2011 audit report, 31 we recommended that NOAA develop a mechanism to
                  provide executive and legislative decision makers, on a recurring basis, with complete,
                  objective, and understandable information that illustrates the consequences of limiting satellite
                  observational capabilities. This was driven, in part, from congressional concerns regarding
                  NOAA’s limited communication of plans for its satellite programs. Recently, the Senate
                  Committee on Appropriations expressed frustration with NOAA’s “inability to control


                  30
                     Other satellite acquisitions include Jason-3, which will measure sea surface height, and Deep Space Climate 

                  Observatory, which will provide advance warnings of solar storms affecting earth.

                  31
                     U.S. Department of Commerce, Office of Inspector General, September 30, 2011. Audit of the Joint Polar Satellite 

                  System: Challenges Must Be Met to Minimize Gaps in Polar Environmental Satellite Data (OIG-11-034-A).

                  Washington, D.C.: Department of Commerce OIG.



                  FINAL REPORT NO. OIG-13-003                                                                                      25




F Y   2 0 1 2   P E R F O R M A N C E      A N D     A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                          413
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

          procurement costs or articulate reliable funding profiles.” 32 This resulted in the Senate
          Committee losing confidence in NOAA’s ability to manage its portfolio of satellite acquisitions.
          The Committee’s appropriations bill, if enacted, would transition NOAA’s satellite acquisitions
          entirely to NASA. As such, it’s clear that NOAA must do more to improve communication
          with stakeholders.

          NOAA’s JPSS program uses NASA as its acquisition agent, leveraging that agency’s
          procurement and system engineering expertise—an arrangement based on previous
          partnerships between the two agencies. In its FY 2011 budget submission, NOAA reported that
          the two-satellite JPSS program, running through 2024, would cost $11.9 billion. Requirements
          changes and an extended life cycle through 2028 resulted in a revised cost estimate of
          $14.7 billion. In its FY 2013 budget submission, however, NOAA committed to capping the cost
          of the program at $12.9 billion and submitted a nearly flat-line annual budget estimate of
          $900 million, plus the cost of climate sensors previously budgeted under a different NOAA
          program, from FY 2013 to FY 2017. Although the program has since constructed a cost
          estimate to support the $12.9 billion cost cap, its high-level requirements were recently
          finalized in October 2012. Pending decisions on lower-level requirements, acquisition
          strategies, and system design—particularly for the ground system and “free-flyer” satellites
          (which will host search-and-rescue and data collection instruments, separate from the
          program’s primary satellites)—could have ramifications for launch schedules and cost:

               •	 The ground segment project recently completed its requirements review in August; it
                  was originally scheduled to precede the program-level review in May. Program officials
                  have told us that there is a need to rethink legacy requirements 33 in the light of current
                  needs and technology options.

               •	 There is a significant amount of uncertainty in requirements for free-flyer satellites. For
                  the free flyers, information security requirements had to be analyzed and ground
                  support options determined. This uncertainty in requirements translates to uncertainty
                  in the program’s life-cycle cost estimate.

          During FY 2012, NOAA has made progress in prioritizing JPSS requirements to support its
          commitment to capping the life-cycle costs at $12.9 billion. While this approach shows serious
          management commitment, fitting requirements into a previously authorized budget increases
          the risk that requirements will be dropped or launches delayed in order to remain within the
          budget. NOAA needs to revisit the life-cycle cost estimates after finalizing JPSS requirements
          and work with the Department and congressional representatives in adjusting its budget
          estimates.




          32
             Senate Report 112-158 (discussing Committee rationale for transfer to NASA); Commerce, Justice, Science, and
                                                                 th
          Related Agencies Appropriations Act, 2013, S. 2323, 112 Cong. (2012).
          33
             Requirements were transferred from JPSS’ predecessor system, the tri-agency National Polar-orbiting
          Operational Environmental Satellite System, which undertook development of next-generation polar satellites
          from 1995 until early 2010, when the White House Office of Science and Technology Policy restructured it into
          separate military and civilian (JPSS) programs.


          FINAL REPORT NO. OIG-13-003                                                                                   26




 414                                          F Y   2 0 1 2    P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                  APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL

                   Ensure Adequate Leadership and Governance Structure over JPSS Development

                   More progress defining JPSS capabilities, schedule, and cost may have been possible if not for
                   delays defining the program’s governance structure and staffing key program and NOAA
                   positions. NOAA and NASA finally agreed to a management control plan for JPSS in February
                   2012, nearly 2 years after the program was started. Further, NOAA and its JPSS program have
                   had key staff in acting, rather than permanently filled, capacities for extended periods of time
                   (see table 3). Only the Under Secretary of Commerce for Oceans and Atmosphere and the
                   Assistant Administrator, National Environmental Satellite, Data, and Information Service
                   (NESDIS), positions have been permanently filled since the program’s inception.

                     Table 3. NOAA JPSS Program Authorities
                                                          Status at
                                                       Program Start
                                  Position               (Feb 2010)                         Current Status
                       Under Secretary of Commerce
                        for Oceans and Atmosphere/
                            NOAA Administrator              Filled                              Filled
                           Assistant Secretary for
                       Environmental Observation and
                      Prediction/Deputy Administrator     Vacant                        Filled (May 2011)
                         Deputy Under Secretary for                                Acting (January–June 2012)
                                 Operations                 Filled                      Filled (July 2012)
                      Assistant Administrator, NESDIS       Filled                             Filled
                          NESDIS Deputy Assistant                              Acting (February 2010–May 2012)
                          Administrator for Systems              Filled              Currently vacant
                                JPSS Director                   Acting               Filled (September 2011)
                    Source: OIG analysis of NOAA information


                   Qualified officials, who can make timely decisions and take management action, are essential to
                   the success of JPSS development. For example, NOAA’s Deputy Under Secretary for
                   Operations is deemed the final authority for the program’s high-level requirements, schedule,
                   and budget submissions. The former official retired in January 2012 and was not permanently
                   replaced until July 2012, even though the interim period included the FY 2013 President’s
                   Budget submission and other decisions on high-level requirements. Currently, the NESDIS
                   Deputy Assistant Administrator for Systems position, which serves as NOAA’s single source of
                   programmatic direction and guidance to NASA for NOAA programs, is vacant. Previously, this
                   position was staffed in an acting capacity. Detailed employees, in acting capacities, occupy
                   several other key positions within NESDIS and the program. NOAA needs to fill open positions
                   overseeing JPSS development and govern the program according to the management plan
                   accepted by NASA.




                   FINAL REPORT NO. OIG-13-003                                                                     27




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                          415
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL

          Develop a Plan to Support NOAA Weather Forecasting Capabilities During
          Coverage Gaps

          Over the course of the program to date, we have analyzed Suomi National Polar-orbiting
          Partnership (Suomi NPP, a recently launched, risk-reduction satellite that is flying the first
          versions of JPSS sensors) and JPSS schedules to assess expected gaps in weather forecast data.
          Currently, we project a 10–16-month gap between Suomi NPP’s end of design life and when
          JPSS-1 data become available for operational use—a refinement from last year’s estimate of 9–
          21 months (see figure 4). NOAA’s medium-range weather forecasting (3–7 days) could still be
          significantly degraded during the period of time JPSS data are unavailable.

          Figure 4. Potential Continuity Gaps for Polar-Satellite Operational Forecast Data




          Source: OIG analysis of JPSS program data

          In our September 2011 report, we reported on activities within NOAA to use other sources of
          data to mitigate gaps and recommended NOAA coordinate efforts from across its line offices
          to minimize the degradation of weather and climate forecasting. In response, NOAA indicated
          that it was looking at both foreign and commercial sources of data. However, NOAA has not
          fully developed a strategy for evaluating and selecting foreign data sources. Nor has it
          completed a comprehensive mitigation plan for polar satellite coverage gaps. Obtaining support
          from other reliable sources could be time consuming. NOAA needs to develop a timetable to
          measure its progress towards having a mitigation plan in place before Suomi NPP’s end of
          design life: November 2016.


          FINAL REPORT NO. OIG-13-003                                                                         28




 416                                         F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                                             OFFICE OF INSPECTOR GENERAL

                   The risk of a near-term gap between NOAA-19 (NOAA’s primary operational polar-orbiting
                   satellite) and Suomi NPP has been largely mitigated. Suomi NPP launched October 28, 2011,
                   and within 7 months, NOAA supercomputers began assimilating data from the Advanced
                   Technology Microwave Sounder (ATMS) in numerical weather prediction models. Other issues
                   will result in delaying the use of data from the Cross-track Infrared Sounder (CrIS), which
                   complements those from ATMS, until December 2013—after NOAA-19’s end of design life.
                   However, NOAA forecast models currently use data from NASA’s Aqua satellite, which are
                   similar to CrIS data. 34

                   Reduce Program Risks Associated with GOES-R Development

                   GOES-R (see figure 5) is also a NOAA/NASA partnership, with NOAA having overall program
                   responsibility. Unlike JPSS, however, NOAA is solely managing the acquisition and development
                   of the GOES-R ground system while NASA is primarily directing the flight segment (spacecraft,
                   instruments, launch vehicle and services). The GOES-R series of satellites will provide
                   uninterrupted short-range severe weather warning and “now-
                   casting” capabilities through 2036. With four satellites (the      Figure 5. GOES-R Satellite
                   GOES-R, -S, -T, and -U), the program is estimated to cost
                   $10.9 billion over the course of its life cycle.

                   The GOES-R program recently held a key technical milestone
                   review (critical design) in August 2012. Subsequently, the
                   program downgraded, from green to yellow, its assessment of
                   schedule and technical development because of various issues
                   with the spacecraft and instruments and the need to aggressively
                   manage dependencies with the ground project’s development.
                   The ground segment’s schedule has become more incremental—
                   which will increase schedule flexibility, as well as better align the
                   delivery schedule for GOES-R spacecraft, instruments, and
                   documentation. Despite progress made, there is less than a 50         Source: NOAA
                   percent chance the GOES-R satellite will be launched on
                   schedule, in October 2015, based on the program’s own models used to assess GOES-R
                   development. NOAA must implement solid program management and system engineering
                   principles to control costs, keep schedules on track, and maintain required technical
                   performance.

                   The program’s standing review board has also warned that should the program’s request in the
                   President’s FY 2013 budget submission (an increase of nearly $200 million, or 30 percent, from
                   FY 2012) not be realized, a launch delay is nearly certain, which could significantly limit NOAA’s
                   capability of providing short-range severe weather warning. NOAA’s policy for its geostationary
                   satellites is to have three satellites in orbit—two operational satellites with overlapping
                   coverage and one spare for backup (see figure 6). As we reported last year, NOAA may not be
                   able to meet its policy of having an on-orbit spare even without a GOES-R launch delay,
                   because of retirement of current GOES series satellites. A launch delay beyond October 2015
                   increases the risk that just one geostationary imager will be on orbit, a scenario in which

                   34
                        Aqua is an aging satellite. Launched in 2002, its original mission life was 6 years.


                   FINAL REPORT NO. OIG-13-003                                                                                    29




F Y   2 0 1 2   P E R F O R M A N C E          A N D     A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                         417
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL

          NOAA’s capability to visualize and track severe weather events would be severely limited.
          NOAA needs to adequately communicate to decision makers its justification for the significant
          funding increase for FY 2013, citing such reasons as to order items that require long
          manufacturing lead times or to hire qualified engineers, technicians, and so on.

             Figure 6. Continuity of Geostationary Operational Satellites




          Source: OIG adapted from NOAA geostationary satellite schedules




          FINAL REPORT NO. OIG-13-003                                                                        30




 418                                        F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL


                   Acronym List

                   ACS                           American Community Survey
                   AMTech                        Advanced Manufacturing Technology Consortia
                   ARRA                          American Recovery and Reinvestment Act of 2009
                   ATMS                          Advanced Technology Microwave Sounder
                   BIS                           Bureau of Industry and Security
                   BTOP                          Broadband Technology Opportunities Program
                   CFO                           Chief Financial Officer
                   CIO                           Chief Information Officer
                   CPAF                          cost-plus-award-fee
                   CPAT                          cost-plus-award-term
                   CrIS                          Cross-track Infrared Sounder
                   DOC CIRT                      Department’s Computer Incident Response Team
                   EDA                           Economic Development Administration
                   FirstNet                      First Responder Network Authority
                   FPDS-NG                       Federal Procurement Data System–Next Generation
                   FY                            fiscal year
                   GAO                           U.S. Government Accountability Office
                   GOES-R                        Geostationary Operational Environmental Satellite-R series
                   GSA                           U.S. General Services Administration
                   HCHB                          Herbert C. Hoover Building
                   IT                            information technology
                   ITA                           International Trade Administration
                   JPSS                          Joint Polar Satellite System
                   NEI                           National Export Initiative
                   NESDIS                        National Environmental Satellite, Data and Information Service
                   NIST                          National Institute of Standards and Technology
                   NOAA                          National Oceanic and Atmospheric Administration
                   NPP                           National Polar-orbiting Partnership
                   NTIA                          National Telecommunications and Information Administration


                   FINAL REPORT NO. OIG-13-003                                                                    31




F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                        419
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

          NWS                           National Weather Service
          OIG                           Office of Inspector General
          OMB                           Office of Management and Budget
          PSBN                          Public Safety Broadband Network
          SDO                           Suspending and Debarring Official
          TIC                           Trusted Internet Connection
          USPTO                         U.S. Patent and Trademark Office




          FINAL REPORT NO. OIG-13-003                                                                    32




 420                                    F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                  APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL


                   Appendix A: Related OIG Publications

                   This list presents OIG’s past and current work related to FY 2013’s top management
                   challenges. These products can be viewed at www.oig.doc.gov. If the product contains
                   information that cannot be released publicly, a redacted version or an abstract will be available
                   on the website.

                   Challenge 1: Trade and Export Promotion

                       •	 USPTO’s Other Backlog: Past Problems and Risks Ahead for the Board of Patent Appeals (OIG-
                          12-032-A, August 10, 2012)

                       •	 More Action Needed to Improve Controls in Asset Forfeiture Fund (OIG-12-019-I, February 8,
                          2012)

                       •	 The Patent Hoteling Program Is Succeeding as a Business Strategy (OIG-12-018-A, February 1,
                          2012)

                       •	 Follow-up Review of NOAA Fisheries Enforcement Programs and Operations (OIG-12-017-I,
                          January 31, 2012)

                       •	 Letters to Congress re: Status of NOAA's Implementation of OIG's Asset Forfeiture Fund
                          Recommendations (OIG-11-012-M, December 12, 2011)

                       •	 Patent End-to-End Planning and Oversight Need to Be Strengthened to Reduce Development
                          Risk (OIG-11-033-A, September 29, 2011)

                       •	 Status of USPTO Initiatives to Improve Patent Timeliness and Quality (OIG-11-032-I, September
                          29, 2011)

                   Challenge 2: Oversight of Resources and Investment for Long-Term Benefits

                       •	 IG’s Testimony on Mismanagement of Funds at the National Weather Service and the Impact on
                          the Future of Weather Forecasting (OIG-12-036-T, September 12, 2012)

                       •	 Review of NTIA's Oversight of the Booz Allen Hamilton Contract Supporting the Broadband
                          Technology Opportunities Program (OIG-12-031-M, August 9, 2012)

                       •	 IG’s Testimony on Planning for the 2020 Census: Senate Homeland Security and Governmental
                          Affairs Committee (OIG-12-030-T, July 18, 2012)

                       •	 NTIA Needs Stronger Monitoring of BTOP Grant Recipients’ Match (OIG-12-029-A, June 18,
                          2012)

                       •	 IG’s Testimony on Broadband Loans and Grants: House Energy and Commerce Committee
                          (OIG-12-026-T, May 16, 2012)




                   FINAL REPORT NO. OIG-13-003                                                                      33




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                          421
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

             •	 High-Quality Maps and Accurate Addresses Are Needed to Achieve Census 2020 Cost-Savings
                Goals (OIG-12-024-I, May 10, 2012)

             •	 2020 Census Planning: Delays with 2010 Census Research Studies May Adversely Impact the
                2020 Decennial Census (OIG-12-023-I, April 5, 2012)

             •	 OIG-Census Letter to Law Enforcement Professionals Regarding Assaults on Census Workers
                (March 30, 2012)

             •	 FY 2011 Compliance with Improper Payment Requirements (OIG-12-022-1, March 15, 2012)

             •	 Oversight Activities of NIST’s Recovery Act Construction Grant Awards Are Generally 

                Effective but Need Improvements (OIG-12-020-A, February 14, 2012)


             •	 Single Audit Results for the 12-Month Period Ending December 31, 2011 (OIG-12-021-M,
                February 13, 2012)

             •	 Misrepresentations Regarding Project Readiness, Governance Structure Put at Risk the Success
                of the San Francisco Bay Area Wireless Enhanced Broadband (BayWEB) Project
                (OIG-12-016-M, January 10, 2012)

             •	 IG’s Testimony on Stimulus Oversight: House Committee on Science, Space, and Technology
                (OIG-12-012-T, November 30, 2011)

             •	 NTIA Has an Established Foundation to Oversee BTOP Awards, but Better Execution Is
                Needed (OIG-12-013-A, November 17, 2011)

          Challenge 3: IT Security

             •   Improvements Are Needed to Strengthen ITA’s Information Technology Security Program
                  (OIG-12-037-A, September27, 2012)

             •	 Significant IT Security Program Improvements Are Needed to Adequately Security NTIA’s
                Systems (OIG-12-035-A, September 7, 2012)

             •	 FY 2011 Federal Information Security Management Act Audit: More Work Needed to

                Strengthen IT Security Department-Wide (OIG-12-007-A, November 10, 2011)


             •	 Improvements Are Needed For Effective Web Security Management (OIG-12-002-A, 

                October 21, 2011)


             •	 Patent End-to-End Planning and Oversight Need to Be Strengthened to Reduce Development
                Risk (OIG-11-033-A, September 29, 2011)

             •	 Federal Information Management Act Audit Identified Significant Issues Requiring Management
                Attention (OIG-11-012, November 15, 2010)

             •	 Respondent Data Safeguards in the Decennial Response Integration System (DRIS) (OAE-19888,
                September 24, 2010)


          FINAL REPORT NO. OIG-13-003                                                                         34




 422                                    F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                   APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL

                       •	 FY 2009 FISMA Assessment of the Environmental Satellite Processing Center (OAE-19730,
                          January 11, 2010)

                       •	 FY 2009 FISMA Assessment of the Enterprise UNIX Services System (OAE-19729, 

                          November 20, 2009)


                       •	 FY 2009 FISMA Assessment of the Field Data Collection Automation System (OAE-19728,
                          November 20, 2009)

                       •	 FY 2009 FISMA Assessment of the Patent Cooperation Treaty Search Recordation System
                          (OAE-19731, November 20, 2009)

                   Challenge 4: Contracts and Acquisitions

                       •	 Quarterly Conference Reporting Processes Need Improvement (OIG-13-001-1, October 17,
                          2012)

                       •	 Oversight Activities of NIST’s Recovery Act Construction Contracts Need Improvement
                          (OIG-12-28-A, June 1, 2012)

                       •	 NOAA’s Cost-Plus-Award-Fee and Award-Term Processes Need to Support Fees and

                          Extensions (OIG-12-027-A, May 18, 2012)


                       •	 Further Actions Needed to Enhance Commerce’s Acquisition Human Capital Plan 

                          (OIG-12-15-A, December 21, 2011)


                       •	 Commerce’s Office of Acquisition Management Must Continue to Improve Its Ongoing
                          Oversight of Acquisition Savings Initiatives (OIG-12-001-A, October 6, 2011)

                   Challenge 5: Satellites

                       •	 Audit of the Joint Polar Satellite System: Continuing Progress in Establishing Capabilities,
                          Schedules, and Costs Is Needed to Mitigate Data Gaps (OIG-12-038-A, September 27, 2012)

                       •	 IG’s Testimony on Need for Continued Innovation in Weather Forecasting and Prediction:
                          Senate Committee on Commerce, Science, and Transportation (OIG-12-011-T, November 16,
                          2011)

                       •	 Audit of the Joint Polar Satellite System: Challenges Must Be Met to Minimize Gaps in Polar
                          Environmental Satellite Data (OIG-11-034-A, September 30, 2011)

                       •	 Memorandum to the Under Secretary of Commerce for Oceans and Atmosphere and NOAA
                          Administrator: NOAA’s Joint Polar Satellite System Audit Observations (OIG-11-029-M, June
                          10, 2011)




                   FINAL REPORT NO. OIG-13-003                                                                           35




F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              423
APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




          U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


          Appendix B: Comparison Between FY 2012 and
          FY 2013 Challenges
                                 FY 2013                                                   FY 2012
          Stimulate economic growth in key industries,               Effectively promote exports, stimulate economic
          increase exports, and enhance stewardship of               growth, and create jobs:
          marine fisheries:                                          • Effective interagency partnerships
          • Growth in manufacturing, intellectual property, and      • Enhancement of Commerce unit operations
            wireless industries                                      • Trade enforcement
          • Export promotion and regulation                          • Regulatory review improvement
          • Protection and promotion of marine fisheries
          Increase oversight of resources entrusted by the           Reduce costs and improve operations to optimize
          public and invest for long-term benefits:                  resources for a decade of constrained budgets:
          • Internal controls and oversight                          • Operational efficiency
          • Investment for long-term benefits                        • Oversight of improper payments
          • Design changes to contain 2020 decennial costs           • Reduction of risks of misuse, abuse, or waste of
                                                                        federal grant funds awarded to grantees
                                                                     • Oversight of the Broadband Technology
                                                                        Opportunities Program
                                                                     • Application of lessons learned from 2010 decennial
                                                                     • Headquarters renovation costs and schedule
          Strengthen security and investments in information         Strengthen department-wide information security
          technology (IT):                                           to protect critical information systems and data:
          • Addressing persistent IT security weaknesses             • Reduce ongoing security weaknesses
          • Incident response and recovery capabilities              • Implement security policy
          • IT governance for portfolio management
          • Oversight of IT investments
          Implement framework for acquisition project                Manage acquisition and contract operations more
          management and improve contract oversight:                 effectively to obtain quality goods and services in a
          • Planned framework for acquisition management             manner most beneficial to taxpayers
          • Oversight of high-risk contracts                         • Qualified acquisition workforce
          • Acquisition workforce maintenance                        • Ethical standards in procurement practices
          • Implementation of suspension and debarment               • Use of high-risk contracts and maximizing
            program                                                     competition
                                                                     • Tracking of contract savings
                                                                     • Delivery of major IT investments
          Reduce risks of cost overruns, schedule delays,            Manage the development and acquisition of
          and coverage gaps for NOAA’s satellite programs:           NOAA’s environmental satellite systems to avoid
          • JPSS capabilities, schedule, and costs                   launch delays and coverage gaps:
          • Leadership and governance structure over JPSS            • Avoid near-term polar satellite coverage gaps
          • Weather forecasting during JPSS coverage gaps            • Manage polar satellites
          • Risks associated with GOES-R development                 • Manage geostationary satellites




          FINAL REPORT NO. OIG-13-003                                                                                   36




 424                                          F Y   2 0 1 2       P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                   APPENDIX D: FY 2013 MANAGEMENT CHALLENGES




                   U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


                   Appendix C: Management Response to OIG
                   Draft Report




                   FINAL REPORT NO. OIG-13-003                                                                  37




F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                       425
A P P E N D I X E : I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) , A S A M E N D E D , R E P O R T I N G D E TA I L S




                    I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 ,

                                        A S A M E N D E D , R E P O R T I N G D E TA I L S




 I 
    PIA of 2002, as amended by the Improper Payments Elimination and Recovery Act (IPERA) of 2010, requires agencies
    to periodically review all programs and activities and identify programs and activities that may be susceptible to
    significant improper payments, take multiple actions when programs and activities are identified as susceptible to
significant improper payments, and annually report information on their improper payments monitoring and minimization
efforts. Office of Management and Budget (OMB) Circular A-123, Appendix C, Requirements for Effective Measurement
and Remediation of Improper Payments, provides guidance to agencies to comply with IPIA, as amended, and for agency
improper payments efforts. The Department has not identified any programs or activities susceptible to significant
improper payments nor any significant problems with improper payments; however, the Department recognizes the
importance of maintaining adequate internal controls to ensure proper payments, and the Department’s commitment
to continuous improvement in the overall disbursement management process remains very strong. Each of the
Department’s payment offices has implemented procedures to detect and prevent improper payments. For FY 2013 and
beyond, the Department will continue its efforts to ensure the integrity of its disbursements.

I. Risk Assessment. Briefly describe the risk assessment(s) performed (including the risk factors examined, if appropriate)
subsequent to completing a full program inventory. List the risk-susceptible programs (i.e., programs that have a significant
risk of improper payments based on OMB guidance thresholds) identified by the agency risk assessments. Include any
programs previously identified in the former Section 57 of OMB Circular A-11, Preparation, Submission, and Execution of
the Budget (now located in OMB Circular A-123, Appendix C. Highlight any changes to the risk assessment methodology or
results that occurred since the last report.

The Department annually conducts an assessment of the effectiveness of internal control over financial reporting, in
compliance with OMB Circular A-123, Management’s Responsibility for Internal Control. Furthermore, every three years,
the assessment includes a review of internal controls over disbursement processes. The most recent review performed
indicated that internal controls over disbursement processes were sound.

Each of the Department’s bureaus/reporting entities periodically completes or updates, over a one to three-year period
(depending on the size of the entity), improper payments risk assessments covering all of its programs/activities as required
by OMB Circular A-123, Appendix C. These improper payments risk assessments of the entity’s programs/activities also
include assessments of the control, procurement, and grants management environments. The improper payments program/
activity risk assessments performed thus far revealed no program or activity susceptible to significant improper payments.

The results of Departmental assessments revealed no risk-susceptible programs/activities, and demonstrated that, overall,
the Department has strong internal controls over disbursement processes, the amount of improper payments by the
Department is immaterial, and the risk of significant improper payments is low.




  426                                                  F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
          A P P E N D I X E : I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) , A S A M E N D E D , R E P O R T I N G D E TA I L S




       II. Statistical Sampling. Any agency that has programs or activities that are susceptible to significant improper payments
       shall briefly describe the statistical sampling process conducted to estimate the improper payment rate for each program
       identified with a significant risk of improper payments. Please highlight any changes to the statistical sampling process that
       have occurred since the last report.

       Not applicable, as the Department does not have any risk-susceptible programs/activities.



       III. Corrective Actions. Any agency that has programs or activities that are susceptible to significant improper payments
       shall describe the corrective action plans for:

       a.	      Reducing the estimated improper payment rate and amount for each type of root cause identified. Agencies shall
                report root cause information (including error rate and error amount) based on the following three categories:
                Administrative and Documentation errors; Authentication and Medical Necessity errors; and Verification errors.
                This discussion must include the corrective action(s), planned or taken, most likely to significantly reduce future
                improper payments due to each type of error an agency identifies, the planned or actual completion date of these
                actions, and the results of the actions taken to address these root causes. If efforts are ongoing, it is appropriate to
                include that information in this section, and to highlight current efforts, including key milestones. Agencies may also
                report root cause information based on additional categories, or sub-categories of the three categories listed above,
                if available.

       b.	      Grant-making agencies with risk-susceptible grant programs shall briefly discuss what the agency has accomplished
                in the area of funds stewardship past the primary recipient. Discussion shall include the status of projects and results
                of any reviews.

       Not applicable, as the Department does not have any risk-susceptible programs/activities. While the Department does not
       have a need for corrective actions for improper payments, the Department has, nevertheless, further enhanced its processes
       and is actively working with each of the Department’s payment offices to identify and implement additional procedures
       to prevent and detect improper payments. In FY 2012, the Department continued with the bureaus’ quarterly reporting of
       any improper payments to the Deputy Chief Financial Officer (CFO), along with identifying the nature and magnitude of
       any improper payments and identifying any necessary control enhancements. The Department has additionally reviewed
       all financial statement audit findings/comments, and results of any other payment reviews, for indications of breaches of
       disbursement controls. None of these audit findings/comments or reviews have uncovered any significant problems with
       improper payments or the internal controls that surround disbursements.

       In FY 2012, the Department conducted a sampling process to draw and review random samples of disbursements from
       a Department-wide universe of disbursements. Grants and other cooperative agreements, travel payments, bankcards/
       purchase cards, all procurement vehicles with other federal agencies, government bills of lading, and gifts and bequests
       were excluded from review. Each selected sample item was then subjected to a review of invoices and supporting
       documentation to determine that the disbursement was accurate, made only once, and that the correct vendor was
       compensated. The results of the Department’s review did not reveal any improper payments. The same results were
       achieved following a similar review in FY 2011.




F Y   2 0 1 2    P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                427
A P P E N D I X E : I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) , A S A M E N D E D , R E P O R T I N G D E TA I L S




IV. Recapture of Improper Payments Reporting.

   a.	 An agency shall discuss payment recapture audit efforts, if applicable. The discussion should describe: the agency’s
       payment recapture audit program; the actions and methods used by the agency to recoup overpayments; a justification
       of any overpayments that have been determined not to be collectable; and any conditions giving rise to improper
       payments and how those conditions are being resolved (e.g., the business process changes and internal controls
       instituted and/or strengthened to prevent further occurrences). If the agency has excluded any programs or activities
       from review under its payment recapture auditing program (including any programs or activities where the agency
       has determined a payment recapture audit program is not cost-effective), the agency should list those programs and
       activities excluded from the review, as well as and the justification for doing so (i.e., a discussion of the analysis
       conducted to determine that a payment recapture audit program would not be cost-effective). Include in your
       discussion the dollar amount of cumulative payment recaptures collected beginning with FY 2004.

In conformity with IPIA of 2002, the Department has been performing, since 2005, payment recapture audits of closed
contracts/obligations for many of the Department’s bureaus/reporting entities, on a rotational basis. The payment recapture
audits were performed by a contractor or by the Department’s Office of Financial Management. Payment recapture audits
of contracts/obligations on a rotational basis will continue to be performed. Since 2005, cumulative recapture of improper
payments is $96 thousand. Effective FY 2012, the scope of payment recapture audits of contracts/obligations has been
expanded to additionally include contracts/obligations for which the period of performance ended and last payment was
made, but for which the closeout process has not yet been completed.

As a result of the Department’s implementation of additional requirements under IPERA of 2010, payment recapture
auditing is additionally performed, effective FY 2011, for the Department’s grants and other cooperative agreements
(i.e. financial assistance). Per OMB’s IPERA implementation guidance, intragovernmental transactions, and payments to
employees, are not required to be reviewed. With regard to loan disbursements, the National Oceanic and Atmospheric
Administration (NOAA) is currently the only bureau with loan disbursements. As part of NOAA’s internally-conducted
reviews and testing processes, NOAA loan disbursements are significantly tested every three years for both internal
controls and improper payments, and the disbursements testing for improper payments is considered to be essentially
equivalent to a payment recapture audit. With regard to the NOAA Corps Retirement System and the NOAA Corps Health
Benefits benefit programs, these programs are cross-serviced for disbursements by the Department of Defense, and
therefore are not subject to payment recapture auditing by the Department.

For payment recapture audits of contracts/obligations, and of grants and other cooperative agreements, the auditor
analyzes the reasons why any payment errors occurred, and develops, presents, and documents any recommendations
for cost-effective controls to prevent improper payments in the future; and, for enhancing the applicable bureau processes.




  428                                                  F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
          A P P E N D I X E : I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) , A S A M E N D E D , R E P O R T I N G D E TA I L S




       In November 2012, payment recapture audits of contracts/obligations were completed by an independent contractor for
       the Minority Business Development Agency (MBDA), Office of Inspector General (OIG), and U.S. Patent and Trademark
       Office (USPTO). Contracts/obligations greater than $100 thousand which were closed out, or for which the period of
       performance ended and last payment was made but for which the closeout process has not yet been completed, after
       September 30, 2009 and through April 30, 2012, were reviewed. Intragovernmental transactions, and payments to
       employees, were excluded from review in conformity with OMB’s IPERA implementation guidance. Travel payments,
       bankcards/purchase cards, government bills of lading, and gifts and bequests were also excluded from review.
       The Department determined that, for these categories of transactions, the Department’s costs for the payment recapture
       audit activities would likely exceed the benefits of a payment recapture audit. As part of the payment recapture audit,
       vendor inquiries were performed for a sample of vendors to determine if the reporting entities had any open credits or
       debts with those vendors. Of the $27.7 million reviewed, no amounts were identified for payment recapture.

       Payment recapture audits of contracts/obligations by an independent contractor for the Census Bureau and the Franchise
       Fund were still in progress as of November 15, 2012.

       In November 2012, a payment recapture audit of Department-wide grants and other cooperative agreements was
       completed by an independent contractor. The applicable bureaus/entities are: Departmental Management, Economic
       Development Administration (EDA), International Trade Administration (ITA), MBDA, National Institute of Standards and
       Technology (NIST), NOAA, and National Telecommunications and Information Administration (NTIA). The audit consisted
       of two different populations: a) sustained disallowed costs of $10 thousand or more for grants and other cooperative
       agreements per Single Audit Act audit reports, grant/cooperative agreement-specific audits, and OIG audits or reviews,
       issued after May 1, 2011 and through April 30, 2012; and b) grants and other cooperative agreements for which the period
       of performance expired during the timeframe of May 1, 2011 through January 31, 2012, and greater than $100 thousand,
       and which were not subjected to any of the types of audits or reviews indicated in item a) above. Of the $321.2 million
       reviewed, no amounts were identified for payment recapture.


           b.	 Payment Recapture Audits Reporting Data.

       The following table presents a summary of the results of the Department’s current fiscal year (CY) and prior fiscal years
       (PYs) payment recapture audits.




F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                429
A P P E N D I X E : I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) , A S A M E N D E D , R E P O R T I N G D E TA I L S




(In Thousands)

                                                                                                                   Cumulative
                                                       Amounts                       Amounts                         Amounts
                         Amount         Actual        Identified                    Identified                      Identified Cumulative
                        Subject to      Amount       for Payment        Amounts         for         Amounts            for      Amounts
                        Review for     Reviewed       Recapture        Recaptured   Recapture      Recaptured      Recapture Recaptured
                           CY            for CY         for CY           for CY       in PYs         in PYs       (CY and PYs (CY and PYs
 Reporting Entity(s)    Reporting      Reporting      Reporting         Reporting   Reporting       Reporting      Reporting)  Reporting)
 Payment Recapture Audits of Department-wide Grants and Other Cooperative Agreements:
 Department-wide         $	1,821,557   $	321,249       $	      –        $	   N/A     	N/A           	N/A            	N/A           	N/A
 2012 Audit
 Department-wide            N/A            N/A              N/A         	N/A         $	      –      	N/A            $	      –      	N/A
 2011 Audit
 Payment Recapture Audits of Contracts/Obligations:
 USPTO                   $	578,153     $	27,327        $	      –        	N/A         	N/A           	N/A            	N/A           	N/A
 MBDA, and OIG           $	868         $	323           $	      –        	N/A         	N/A           	N/A            	N/A           	N/A
 NTIA                     	N/A          	N/A           	N/A             	N/A         $	–            	N/A            $	–            	N/A
 BIS, and NTIS            	N/A          	N/A           	N/A             	N/A         $	6            $	–             $	6            $	–
 EDA/S&E, and ITA         	N/A          	N/A           	N/A             	N/A         $	–            	N/A            $	–            	N/A
 DM/S&E, DM/WCF,         	N/A           	N/A           	N/A             	N/A         $	–            	N/A            $	–            	N/A
 and ESA/BEA
 Census Bureau,          	N/A           	N/A           	N/A             	N/A         $	96           $	96            $	96           $	96
 NIST, NOAA, and
 USPTO



   c.	 Payment Recapture Audit Targets. If an agency has a payment recapture audit program in place, then the agency is required
       to establish annual targets to drive their annual performance. The targets shall be based on the rate of recapture.

The Department’s target recapture rate is 100 percent of amounts identified for recapture. Since 2005, the Department
has recaptured $96 thousand of the $102 thousand identified for recapture, and continues to pursue overpayments not yet
recaptured.


   d.	 Aging of Outstanding Overpayments. In addition, agencies shall report the following information on their payment recapture
       audit programs, if applicable: An aging schedule of the amount of overpayments identified through the payment recapture
       audit program that are outstanding (i.e., overpayments that have been identified but not recaptured).

The Department currently has $6 thousand of identified overpayments that have not yet been recaptured, resulting from the
NTIS payment recapture audit of contracts/obligations completed in October 2010.




  430                                                  F Y   2 0 1 2     P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y     R E P O R T
          A P P E N D I X E : I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) , A S A M E N D E D , R E P O R T I N G D E TA I L S




   e.	 Disposition of Recaptured Funds. A summary of how recaptured amounts have been disposed of.

There has not yet been any recapture of overpayments that fall under the new IPERA requirements for disposition of recaptured
funds.


   f.	 Overpayments Recaptured Outside of Payment Recapture Audits. As applicable, agencies should also report on improper
       payments identified and recaptured through sources other than payment recapture audits. For example, agencies could report
       on improper payments identified through: statistical samples conducted under IPIA; agency post-payment reviews or audits;
       OIG reviews; Single Audit reports; self-reported overpayments; or reports from the public. Specific information on additional
       required reporting for contracts is included in Section 7 of OMB Memorandum M-11-04, issued in November 2010.

The Department has extensive improper payments monitoring and minimization efforts in place beyond payment recapture
audits, including the identification of improper payments through bureau post-payment reviews, OIG audits or reviews, Single
Audit Act audits of grants/cooperative agreements, other grants/cooperative agreements audits, contract closeout reviews,
grants/cooperative agreements closeout reviews, other audits or reviews, and Departmental annual sampling of disbursements.

The following table summarizes the Department’s overpayments identified and overpayments recaptured through sources other
than payment recapture audits for the current fiscal year (CY) and prior fiscal years (PYs). PYs amounts represent amounts
reported for FY 2011, the first fiscal year for this reporting requirement. The Department is also currently researching possible
improper payments totalling 7.4 million under a vendor contract.

(In Thousands)

                                                                                                                  Cumulative           Cumulative
                                                                                                                   Amounts              Amounts
                              Amounts              Amounts              Amounts             Amounts                Identified         Recaptured
 Source of                 Identified for CY    Recaptured for       Identified in PYs    Recaptured in          (CY and PYs          (CY and PYs
 Overpayments                 Reporting          CY Reporting           Reporting         PYs Reporting           Reporting)           Reporting)
 Post-payment                      	 $ 332              	 $ 172              $	2,184              $	2,079              	$ 2,516             	$ 2,251
 Reviews
 Contract Closeout                 	102                 	102                 	–                   	–                   	102                 	102
 Reviews
 Grant Closeout                    	–                   	–                        509                  509             	509                 	509
 Reviews
 Audits and Other                  	–                   	–                        141                  141             	141                 	141
 Reviews
 Reported by Vendor                	742                 	742                 	–                   	–                   	742                 	742
 Settlement with                   	–                   	–                        600                  600             	600                 	600
 Contractor
 Other                             	–                   	–                        100                  100             	100                 	100
 Total                             	$ 1,176             	$ 1,016             $	3,534              $	3,429              	 $ 4,710            	$ 4,445




F Y   2 0 1 2     P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                431
A P P E N D I X E : I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) , A S A M E N D E D , R E P O R T I N G D E TA I L S




V. Accountability. Any agency that has programs or activities that are susceptible to significant improper payments shall describe the
steps the agency has taken and plans to take (including timeline) to ensure that agency managers, accountable officers (including
the agency head), programs, and States and localities (where appropriate), are held accountable for reducing and recapturing
improper payments. Specifically, they should be held accountable for meeting applicable improper payments reduction targets and
establishing and maintaining sufficient internal controls (including an appropriate control environment) that effectively prevents
improper payments from being made and promptly detects and recaptures any improper payments that are made.

The Department has not identified any significant problems with improper payments; however, the Department recognizes the
importance of maintaining adequate internal controls to ensure proper payments, and its commitment to continuous improvement
in disbursement management processes remains very strong. The Department’s CFO has responsibility for establishing policies
and procedures for assessing Departmental and program risks of improper payments, taking actions to reduce those payments,
and reporting the results of the actions to Departmental management for oversight and other actions as deemed appropriate.
The CFO has designated the Deputy CFO to oversee initiatives related to reducing improper payments within the Department,
and to work closely with the bureau CFOs in this area.

In FY 2012, the Department continued its reporting procedures that required quarterly reporting to the Department by its bureaus
on any improper payments, identifying the nature and magnitude of any improper payments along with any necessary control
enhancements to prevent further occurrences of the types of improper payments identified. The Department’s analysis of the
data collected from the bureaus shows that Department-wide improper payments were below one-tenth of one percent in
FY 2012 and FY 2011. The bureau CFOs are accountable for internal controls over improper payments, and for monitoring and
minimizing improper payments.

For FY 2013 and beyond, the Department will continue its efforts to ensure the integrity of its disbursements.



VI. Agency Information Systems and Other Infrastructure.

a.	     Describe whether the agency has the internal controls, human capital, and information systems and other infrastructure it
        needs to reduce improper payments to the levels the agency has targeted.

b.	     If the agency does not have such internal controls, human capital, and information systems and other infrastructure,
        describe the resources the agency requested in its most recent budget submission to Congress to establish and maintain the
        necessary internal controls, human capital, and information systems and other infrastructure.

The Department has ensured that internal controls, manual, as well as financial system, relating to payments are in place
throughout the Department, and has reviewed all financial statement audit findings/comments and results of any other payment
reviews for indications of breaches of disbursement controls. None of these audit findings/comments or reviews have uncovered
any significant problems with improper payments or the internal controls that surround disbursements.



VII. Barriers. Describe any statutory or regulatory barriers which may limit agency corrective actions in reducing improper
payments and actions taken by the agency to mitigate the barriers’ effects.

The Department has not identified any significant barriers to-date, but will notify OMB and Congress of any barriers that inhibit
actions to reduce improper payments if they occur.




  432                                                  F Y   2 0 1 2   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
          A P P E N D I X E : I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) , A S A M E N D E D , R E P O R T I N G D E TA I L S




VIII. Additional Comments. Discuss any additional comments on overall agency efforts, specific programs, best practices, or
common challenges identified, as a result of IPIA implementation

The Department’s Disbursement Best Practices. The following are some examples of internal control procedures used by the
Department’s payment offices:

●● Limited/controlled access to vendor files—access to basic vendor information (e.g., name, address, business size, etc.) is
   available to financial system users; access to banking information, however, is strictly limited by system security to certain
   Office of Finance staff.

●● Controlled access to financial system accounts payable screens—authority to create, edit, approve, process, and amend
   payment records is limited to certain Office of Finance financial system users. Also, authority to add or revise records in the
   vendor database is limited to separate Office of Finance system users.

●● Segregation of duties for financial system data entry and review prior to transmitting disbursement files to Treasury—data
   entry duties are assigned to technicians in the Office of Finance who do not have authority to review and process payments.
   Authority to approve and process payments is assigned to accountants in the Office of Finance. Both data entry and approval/
   processing of payments are separate functions from transmitting disbursement files to Treasury.

●● Financial system edit reports highlight potential items that may result in improper payments (e.g., invoice amount and accrual
   amount are not the same). There is a daily Invoice Workload Report that displays open amounts (not closed by a payment)
   on all invoices. This report is reviewed and action is taken to resolve partially open invoices. Furthermore, system settings
   prevent a payment in excess of the amount of the invoice.

●● Daily pre-payment audit of invoices for accuracy, and corrective actions prior to disbursement, thereby preventing improper
   payments from occurring.

●● Financial system edit checks if the vendor’s name on the payment does not agree with that on the obligation, or if the payment
   amount is greater than the obligation or accrual amount.

●● The monthly vendor statement for purchase cards is interfaced into the financial system, thereby reducing data entry error.

●● An accountant or supervisor reviews individual payments before releasing for payment, to help ensure that the correct
   banking information or payment addresses are used, and that the correct amount will be paid.

●● Monthly post-payment random sample audits are performed for detection purposes.

●● Contracts include a clause requiring the contractor to notify the contracting officer if the government overpays when making
   an invoice payment or a contract financing payment.




F Y   2 0 1 2   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                433
A P P E N D I X F : S U M M A R Y O F F I N A N C I A L S TAT E M E N T A U D I T A N D M A N A G E M E N T A S S U R A N C E S




                           S U M M A RY O F F I N A N C I A L S TAT E M E N T AU D I T

                                  AND MANAGEMENT ASSURANCES




 P 
        resented below is a summary of financial statement audit and management assurances for FY 2012. Table 1
        relates to the Department’s FY 2012 financial statement audit, which resulted in an unqualified opinion with
        one material weakness. Table 2 presents the number of material weaknesses reported by the Department
under Section 2 of the Federal Managers’ Financial Integrity Act (FMFIA)—either with regard to internal controls over
operations or financial reporting—and Section 4, which relates to internal controls over financial management systems;
as well as the Department’s compliance with the Federal Financial Management Improvement Act (FFMIA).



Table 1. Summary of Financial Statement Audit
 ●●   Audit Opinion:              ●●   Unqualified
 ●●   Restatement:                ●●   No
         Material Weaknesses       Beginning Balance                 New              Resolved             Consolidated      Ending Balance
 NOAA Financial Management                    0                       1                     0                   0                   1
 Oversight
 Total Material Weaknesses                    0                       1                     0                   0                   1


Table 2. Summary of Management Assurances

 EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING (FMFIA § 2)
 Statement of Assurance:          Qualified
 Material Weaknesses               Beginning Balance           New         Resolved         Consolidated      Reassessed     Ending Balance
 NOAA Financial Management                    0                 1             0                  0                  0               1
 Oversight
 Total Material Weaknesses                    0                 1             0                  0                  0               1
 EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)
 Statement of Assurance:          Unqualified
 Material Weaknesses               Beginning Balance           New         Resolved         Consolidated      Reassessed     Ending Balance
 No Material Weaknesses                       0                 0             0                  0                  0               0
 Total Material Weaknesses                    0                 0             0                  0                  0               0
 CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEM REQUIREMENTS (FMFIA § 4)
 Statement of Assurance:          Systems conform with financial management system requirements
 Non-Conformances                  Beginning Balance           New         Resolved         Consolidated      Reassessed     Ending Balance
 No Non-Conformance Issues                    0                 0             0                  0                  0               0
 Total Non-Conformances                       0                 0             0                  0                  0               0
 COMPLIANCE WITH FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
                                                       Agency                                                    Auditor
 Overall Substantial Compliance                          Yes                                                        Yes
 1. System Requirements                                                               Yes
 2. Accounting Standards                                                              Yes
 3. USSGL at Transaction Level                                                        Yes




  434                                                F Y   2 0 1 2    P E R F O R M A N C E          A N D    A C C O U N T A B I L I T Y   R E P O R T
                                   APPENDIX G: UNDISBURSED BALANCES IN EXPIRED GRANT ACCOUNTS




                 UNDISBURSED BALANCES IN EXPIRED GRANT ACCOUNTS




 U 
        ndisbursed balances in expired grant accounts include budget authority that is no longer available for new obligations
        but is still available for disbursement. The period of disbursement lasts for five years after the last unexpired year
        unless the expiration period has been lengthened by legislation. Specifically, one may not incur new obligations against
expired budget authority, but one may liquidate existing obligations by making disbursements.(Section 20.4(c) of the Office
of Management and Budget (OMB) Circular A-11, Preparation, Submission and Execution of the Budget) For FY 2012, the
following information is required to be reported in this FY 2012 Performance and Accountability Report as well as the annual
performance plans/budgets:

1.	 Details on future action the Department/bureau will take to resolve the undisbursed balances in expired grant accounts;
2.	 The method the Department/bureau uses to track undisbursed balances in expired grant accounts;
3.	 Identification of undisbursed balances in expired grant accounts that may be returned to the Treasury of the United States;
    and
4.	 In the preceding three fiscal years, details on the total number of expired grant accounts with undisbursed balances
    (on the first day of each fiscal year) for the Department/bureau and the total finances that have not been obligated to a specific
    project remaining in the accounts.

Six bureaus report information under this guidance: the Economic Development Administration (EDA), the International Trade
Administration (ITA), the Minority Business Development Agency (MBDA), the National Oceanic and Atmospheric Administration
(NOAA), the National Institute of Standards and Technology (NIST), and the National Telecommunications Administration (NTIA).

The EDA Budget and Finance Division will send a monthly report identifying undisbursed balances to EDA’s regional offices, and
request the status of these grants on a quarterly basis. The Assistant Secretary has, and will continue, to discuss the importance
of monitoring and closing these grants in a timely manner in various EDA meetings.

The EDA Budget and Finance Division prepares a monthly Open Grants report using data in the NOAA Commerce Financial
System Data Warehouse and distributes it to appropriate staff on a monthly basis. The report will be monitored slightly to more
easily identify grants in expired grant accounts.

The NOAA Grants Management Division (GMD) has an Oversight and Compliance team that is responsible for reviewing, closing
out, and deobligation of un-disbursed balances identified. On a monthly basis, the expired awards report will be reviewed for
unobligated balances of funds based on data downloads from the Commerce Business System (CBS). GMD will initiate contact
(email, phone calls, etc.) with those indentified recipients to inform them that based on either their final financial status report
submission or the CBS data warehouse information, that there are funds to be returned to NOAA or deobligated from CBS by
NOAA Finance. If the recipient does not request an extension to the closeout period within 14 days of notification, GMD will take
action to request deobligation of the remaining funds.

On a monthly basis, the Grants Online Production Unit provides a report which identities the recipient, award number, and the
amount of unobligated balances.

The NIST Grants and Agreements Management Division had created an in-house report that combines the data from its Grants
Management system with the Core Financial System so they will have the most accurate information on the undisbursed funds
under these grants. In order to tackle the deobligations of these funds, NIST will be running this report on a monthly basis and
deobligate the largest balances first in order to have the largest effect on the total undisbursed NIST grant funds. These same
actions apply to NTIA as well.




F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                435
APPENDIX G: UNDISBURSED BALANCES IN EXPIRED GRANT ACCOUNTS




Below is a table summarizing the Department’s bureaus, accounts, appropriate fiscal year, undisbursed balances, and amounts
available to the Treasury.

                                                                                                    Undisbursed        Amount Available
       Bureau                              Account                            Fiscal Year
                                                                                                     Balance             to Treasury
                                             ARRA                                2009               $37,497,333                    $0
        EDA
                       Trade Adjustment Assistance for Communities (CTAA)        2010               $29,996,220                    $0
                                                                                 2007                    $4,145                    $0
       MBDA                      Minority Business Development                   2008                   $69,156                    $0
                                                                                 2010                   $65,671                    $0
                                                                                 2012                   $74,109               $74,109
                                                                                 2011                 $241,252              $241,252
                                                                                 2010                 $144,341              $144,341
                         Scientific and Technical Research and Services          2009                $1,101,022            $1,101,022
                                                                                 2008                   $24,373               $24,373
                                                                                 2007                 $992,977              $992,977
                                                                                 2006                   $36,610               $36,610
        NIST
                                                                                 2011                $843,653               $843,653
                                                                                 2010                $3,173,904            $3,173,904
                                                                                 2009                   $81,851               $81,851
                                 Industrial Technology Services
                                                                                 2008                 $211,159              $211,159
                                                                                 2007                $1,911,241            $1,911,241
                                                                                 2006                    $8,073                $8,073
                                            ARRA                                 2010                   $77,972               $77,972
                                         LPTV Upgrade                            2012                   $32,003               $32,003
                                                                                 2011                 $738,480              $738,480
        NTIA                  Public Telecommunications Facilities,
                                                                                 2010                 $198,841              $198,841
                                   Planning and Construction
                                                                                 2009                   $94,081               $94,081
                                                                                 2012                  $551,369              $551,369
                                                                                 2011                  $299,676              $299,676
                                                                                 2010                  $299,267              $299,267
                               Operations, Research and Facilities
                                                                                 2009                $1,561,574            $1,561,574
                                                                                 2008                $1,220,736            $1,220,736
                                                                                 2007                  $647,688              $647,688
                                                                                 2012                    $4,507                $4,507
                           Procurement, Acquisition and Construction             2009                $2,975,150            $2,975,150
                                                                                 2008                $1,987,800            $1,987,800
                                                                                 2008                    $2,761                $2,761
                              Pacific Coastal Salmon Recovery Fund
                                                                                 2007                   $12,523               $12,523
                                                                                 2012                  $199,528              $199,528
        NOAA
                                                                                 2011                        $1                    $1
                                                                                 2010                        $1                    $1
                             Promote and Develop Fishery Products
                                                                                 2009                  $124,728              $124,728
                                                                                 2008                  $124,728              $124,728
                                                                                 2007                    $2,275                $2,275
                                                                                 2009                  $579,902              $579,902
                                 Coastal Impact Assistance Fund                  2008                  $669,357              $669,357
                                                                                 2007                      $186                  $186
                                                                                 2008                   $25,910               $25,910
                                Coastal Zone Management Fund
                                                                                 2007                    $6,296                $6,296
                                                                                 2008                   $18,278               $18,278
                           Limited Access System Administration Fund
                                                                                 2007                   $18,278               $18,278




 436                                            F Y   2 0 1 2     P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                           APPENDIX H: GLOSSARY OF KEY ACRONYMS




                                           GLOSSARY OF KEY ACRONYMS


 Abbreviation       Title                                                Abbreviation        Title


A	    ACS	          American Community Survey                           C	     CAMS	         Commerce Administrative Management
                                                                                             System
      ACSI	         American Customer Satisfaction Index
                                                                               CBP	          U.S. Customs and Border Protection
      AD	           Antidumping
                                                                               CCSPS	        Climate Change Science Program
      ADP	          Automated Data Processing
                                                                                             Strategic Plan
      AHS	          American Housing Survey
                                                                               CEDS	         Comprehensive Economic Development
      AIA	          Leahy-Smith America Invents Act (PL 112-29)                              Strategies

      AML	          Advanced Measurement Laboratory (NIST)                     CEIP	         Coastal Energy Impact Program (NOAA)

      APP	          Annual Performance Plan                                    CFO 	         Chief Financial Officer

      ARRA	         American Recovery and Reinvestment Act                     CFO/ASA	 Chief Financial Officer and Assistant
                    of 2009                                                                  Secretary for Administration (OS)

      ASAP	         Automated Standard Application for                         CIO	          Chief Information Officer
                    Payments
                                                                               CIRT	         Computer Incident Response Team
      ATP	          Advanced Technology Program (NIST)
                                                                               CNST	         Center for Nanoscale Science and
      ATS	          Annual Trade Survey                                                      Technology (NIST)

      AWIPS	        Advanced Weather Interactive Processing                    COOL	         Commerce Opportunities Online
                    System
                                                                               COOP	         Continuity of Operations Plan

                                                                               COTR	         Contracting Officer Technical Representative
B	    BAS	          Boundary and Annexation Survey
                                                                               CPD	          Coastal Programs Division
      BDC	          Business Development Center (MBDA)
                                                                               CPI	          Consumer Price Index
      BEA	          Bureau of Economic Analysis
                                                                               CPS	          Current Population Survey
      BEES	         Building for Environmental and Economic
                    Sustainability                                             CRADA	        Cooperative Research and Development
                                                                                             Agreements
      BIS	          Bureau of Industry and Security
                                                                               CSRS	         Civil Service Retirement System
      BLS	          Bureau of Labor Statistics
                                                                               CSTL	         Chemical Science and Technology
      BNQP	         Baldrige National Quality Program
                                                                                             Laboratory (NIST)
      BRL	          Biometrics Research Lab
                                                                               CVD	          Countervailing Duty
      BTOP	         Broadband Technology Opportunities
                                                                               CWC	          Chemical Weapons Convention
                    Program




F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     437
APPENDIX H: GLOSSARY OF KEY ACRONYMS




Abbreviation     Title                                                 Abbreviation      Title

       CWCIA	    CWC Implementation Act                                     ESA	         Economics and Statistics Administration

       CZM	      Coastal Zone Management (NOAA)                             ESA	         Endangered Species Act

       CZMA	     CZM Act                                                    E3	          Economy, Energy, and Environment

       CZMP	     CZM Program
                                                                      F	    FAIR	        Federal Activities Inventory Reform

D	     DFI	      Digital Freedom Initiative                                 FAR	         False Alarm Rate

       DHS	      U.S. Department of Homeland Security                       FCC	         Federal Communications Commission

       DM	       Departmental Management                                    FECA	        Federal Employees Compensation Act

       DOI	      U.S. Department of Interior                                FEGLI	       Federal Employees Group Life
                                                                                         Insurance Program
       DOJ	      U.S. Department of Justice
                                                                            FEHB	        Federal Employees Health Benefit Program
       DOL	      U.S. Department of Labor
                                                                            FEMA	        Federal Emergency Management Agency
       DOL/OLMS	 DOL Online Labor Management System
                                                                            FERS	        Federal Employees Retirement System
       DPAS	     Defense Priorities and Allocations System
                                                                            FFMIA	       Federal Financial Management Improvement
       DSSR 	    Demographic Surveys Sample Redesign
                                                                                         Act of 1996

                                                                            FICA	        Federal Insurance Contributions Act
E	     EAA	      Export Administration Act
                                                                            FISMA	       Federal Information Security
       EAR	      Export Administration Regulations
                                                                                         Management Act
       ECASS	    Export Control Automated Support System
                                                                            FMFIA	       Federal Managers’ Financial Integrity Act
       EDA	      Economic Development Administration                                     of 1982

       EDD	      Economic Development District                              FMP	         Fishery Management Plan

       EEEL	     Electronics and Electrical Engineering                     FR	          Field Representative
                 Laboratory (NIST)
                                                                            FTA	         Free Trade Agreement
       EFT	      Electronic Funds Transfer
                                                                            FTAA	        Free Trade Area of the Americas
       ELGP	     Emergency Oil and Gas and Steel Loan
                                                                            FTE	         Full-Time Equivalent
                 Guarantee Program
                                                                            FVOG	        Fishing Vessel Obligation Guarantee Program
       ENC	      Electronic Navigational Chart
                                                                                         (NOAA)
       ENSO	     El Niño/Southern Oscillation
                                                                            FWC	         Future Workers’ Compensation
       EPO	      European Patent Office
                                                                            FY	          Fiscal Year




 438                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                            APPENDIX H: GLOSSARY OF KEY ACRONYMS




 Abbreviation       Title                                                 Abbreviation        Title


G	    G&B	          Gifts and Bequests                                          IP	           Intellectual Property
                    (a fund that is part of DM)                                 IP	           Internet Protocol
      GAAP	         Generally Accepted Accounting Principles                    IRAC	         Interdepartmental Radio Advisory Committee
      GAO	          U.S. Government Accountability Office                       IRC	          Investment Review Committees
      GDP	          Gross Domestic Product                                      IRS	          Internal Revenue Service
      GFDL	         Geophysical Fluid Dynamics Laboratory                       ISI	          Institute for Scientific Information
                    (NOAA)
                                                                                IT	           Information Technology
      GLERL	        Great Lakes Environmental Research
                    Laboratory                                                  ITA	          International Trade Administration

      GPRA	         Government Performance and Results Act                      ITL	          Information Technology Laboratory (NIST)
                    of 1993                                                     ITS	          Institute for Telecommunication Sciences

      GPS	          Global Positioning System                                                 (NTIA)

      GSA	          U.S. General Services Administration                        ITU	          International Telecommunication Union

      GSN	          Green Suppliers Network
                                                                         K	     KSA	          Knowledge, Skills, and Abilities
      GSP	          Gross State Product

      GSS	          Geographic Support System
                                                                         L	     LEED	         Leadership in Energy and Environmental
                                                                                              Design
H	    HHS	          U.S. Department of Health and
                                                                                LMS	          Learning Management System
                    Human Services

      HR	           Human Resources
                                                                         M	     MAC	          Market Access and Compliance
      HSS	          Heidke Skill Scores
                                                                                MAF	          Master Address File

                                                                                MAMTC	        Mod-America Manufacturing Technology
I	    IA	           Import Administration (ITA)                                               Center
      ICANN	        Internet Corporation for Assigned Names                     MAS	          Manufacturing and Services
                    and Numbers
                                                                                MBDA	         Minority Business Development Agency
      ICEP	         International Catalog Exhibition Program (ITA)
                                                                                MBEC	         Minority Business Enterprise Center (MBDA)
      ICT	          Information and Communication Technology
                                                                                MBE	          Minority Business Enterprise
      IDS	          Intrusion Detection Software
                                                                                MBOC	         Minority Business Opportunity Center
      IFQ	          Individual Fishing Quota Direct Loans (NOAA)                              (MBDA)

      IFW	          Image File Wrapper




F Y   2 0 1 2   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       439
APPENDIX H: GLOSSARY OF KEY ACRONYMS




Abbreviation    Title                                                  Abbreviation      Title


       MDCP	    Market Development Cooperator Program                       NOAA	        National Oceanic and Atmospheric
                (ITA)                                                                    Administration

       MED	     Minority Enterprise Development                             NOS 	        National Ocean Service (NOAA)

       MEP	     Manufacturing Extension Partnership (NIST)                  NPV	         Net Present Value

       MMPA	    Marine Mammal Protection Act                                NRC	         National Research Council

       MOU	     Memorandum of Understanding                                 NSRS	        National Spatial Reference System

       MSA	     Magnuson-Stevens Act                                        NTIA	        National Telecommunications and Information
                                                                                         Administration
       MTS	     U.S. Marine Transportation System
                                                                            NTIS	        National Technical Information Service

N	     NABEC	   Native American Business Enterprise                         NTTAA	       National Technology Transfer
                Center (MBDA)                                                            Advancement Act

       NAICS	   North American Industry Classification                      NWLON	       National Water Level Observation Network
                System
                                                                            NWS	         National Weather Service
       NAO	     North Atlantic Oscillation

       NAPA	    National Academy of Public Administration             O	    OA	          Office of Audits (OIG)

       NASA	    National Aeronautics and Space                              OAM	         Office of Acquisition Management (OS)
                Administration
                                                                            OCAD	        Office of Compliance and Administration
       NBS	     National Bureau of Standards                                             (OIG)
                (former name of NIST)
                                                                            OCS	         Office of Computer Services (Franchise Fund)
       NCDC	    National Climatic Data Center (NOAA)
                                                                            OECD	        Organization for Economic Cooperation and
       NCNR	    NIST Center for Neutron Research (NIST)                                  Development

       NERR	    National Estuarine Research Reserve                         OFM	         Office of Financial Management (OS)

       NIH	     National Institutes for Health                              OFPP	        Office of Federal Procurement Policy

       NIPA	    National Income and Product Accounts                        OHRM	        Office of Human Resources Management
                                                                                         (OS)
       NIPC	    National Intellectual Property Law
                Enforcement Coordination Council                            OI	          Office of Investigations (OIG)

       NIST	    National Institute of Standards and                         OIG	         Office of Inspector General (DM)
                Technology
                                                                            OIPE	        Office of Inspections and Program
       NM	      Nautical Miles                                                           Evaluations (OIG)

       NMFS 	   National Marine Fisheries Service (NOAA)                    OMB	         Office of Management and Budget




 440                                             F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                           APPENDIX H: GLOSSARY OF KEY ACRONYMS




 Abbreviation       Title                                                Abbreviation        Title


      OPEM	         Office of Planning, Evaluation and                  Q	     QFR	          Quarterly Financial Report
                    Management (BIS)
                                                                               QPF	          Quantitative Precipitation Forecasts
      OPM	          U.S. Office of Personnel Management
                                                                               QSS	          Quarterly Services Survey
      OS	           Office of the Secretary (DM)

      OSDBU	        Office of Small and Disadvantaged Business
                                                                        R	     R&D	          Research and Development
                    Utilization (OS)
                                                                               RLF	          Revolving Loan Fund (EDA)
      OSE	          Office of Systems Evaluation (OIG)
                                                                               ROP	          Reserve’s Operations Plan (NOAA)
      OSM	          Office of Spectrum Management (NTIA)

      OSY	          Office of Security (OS)
                                                                        S	     S&E	          Salaries and Expenses
      OTE	          Office of Technology Evaluation
                                                                               S&T	          Science and Technology

                                                                               SAS	          Services Annual Survey
P	    PALM	         Patent Application Location and
                    Monitoring System                                          SAV	          Site Assistance Visits

      PAR	          Performance and Accountability Report                      SBA	          U.S. Small Business Administration

      PART	         Program Assessment Rating Tool                             SBR	          Combined Statement of Budgetary
                                                                                             Resources
      PBSA	         Performance-based Service Acquisitions
                                                                               SCNP	         Consolidated Statement of Changes in
      PBSC	         Performance-based Service Contracting
                                                                                             Net Position
      PBViews	      Panorama Business Views
                                                                               SDDS	         Special Data Dissemination Standards
      PKI	          Public Key Infrastructure
                                                                               SES	          Senior Executive Service
      PMA	          President’s Management Agenda
                                                                               SIPP	         Survey of Income and Program Participation
      PNA	          Pacific North America
                                                                               SME	          Small and Medium-sized Enterprise
      PORTS®	       Physical Oceanographic Real-time System
                                                                               SNM	          Square Nautical Miles
      PP&E	         Property, Plant, and Equipment, Net
                                                                               SPD	          Survey of Program Dynamics
      PRT	          Program Review Team (NOAA)
                                                                               SRD	          Standard Reference Data
      PSV	          Post-shipment Verification
                                                                               SRM	          Standard Reference Materials
      PTFP	         Public Telecommunications Facilities Program
                                                                               STEP	         Standard for the Exchange of Product
                    (NTIA)
                                                                                             Model Data

                                                                               STRS	         Scientific and Technical Research
                                                                                             and Services




F Y   2 0 1 2   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    441
APPENDIX H: GLOSSARY OF KEY ACRONYMS




Abbreviation       Title                                              Abbreviation      Title


T	     3G	         Third Generation                                  U	    UAE	         United Arab Emirates

       TAA	        Trade Adjustment Assistance Program (EDA)               UC	          University Center

       TAAC	       Trade Adjustment Assistance Center                      US&FCS	      U.S. and Foreign Commercial Service

       TABD	       Trans-Atlantic Business Dialogue                        USCRN	       U.S. Climate Reference Network

       TCC	        Trade Compliance Center (ITA)                           USDA	        U.S. Department of Agriculture

       TECI	       Transshipment Country Export Control                    USPTO	       U.S. Patent and Trademark Office
                   Initiative
                                                                           USTR	        Office of the U.S. Trade Representative
       TIC	        Trade Information Center (ITA)
                                                                           USWRP	       U.S. Weather Research Program
       TIGER	      Topologically Integrated Geographic Encoding
                                                                           UWB	         Ultra-wideband
                   and Referencing System

       TIP	        Technology Innovation Program (NIST)
                                                                     V	    VCAT 	       Visiting Committee on Advanced
       TIS	        Trademark Information System                                         Technology

       TPA	        Trade Promotion Authority                               VoIP	        Voice over Internet Protocol

       TPCC	       Trade Promotion Coordinating Committee

       TRAM	       Trademark Reporting and Monitoring System         W	    WCF	         Working Capital Fund (DM)

       Treasury	   U.S. Department of the Treasury                         WMD	         Weapons of Mass Destruction

       TROR	       Treasury Report on Receivables                          WTO	         World Trade Organization

       TRP	        Take Reduction Plan

       TRT	        Take Reduction Team

       TSP	        Thrift Savings Plan

       TVA	        Tennessee Valley Authority




 442                                            F Y   2 0 1 2   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                  OW             LEDGEM
               KN                                       EN
                                                               TS
       AC




This Performance and Accountability Report was produced with the energies
and talents of the Department of Commerce staff. To these individuals we
would like to offer our sincerest thanks and acknowledgement.


                    In particular, we would like to recognize the following
                    organizations and individuals for their contributions:


                     Karen Hardy, Virna Winters, Valerie Revelez, Tim Hurr,
                     and Efrain Gonzalez of the Office of the Secretary, John
                     Webb and Rebecca Leng of OIG, Bryan Borlik and
                     Casey Muhm of EDA, James Belton and Camelia Carter
                     of Census, Doug Follansbee of ESA, Matthew Bright of
ITA, Divya Soni and Brad Burke of BIS, Ron Marin
of MBDA, Heidi Keller of NOAA, Robert Fawcett of
USPTO, Gail Ehrlich of NIST, Angie Martin of NTIS,
Charles Franz of NTIA, Tesfaye Wyes and Julie Tao
of the Office of Financial Management, Bill Tatter,
Bill Tootle, Anne Barrett, and Michael Phelps of the
Office of Budget, and the many other bureau and
Departmental staff who contributed to this report.


          We offer special thanks to Michael James, Sheri Beauregard, and
          Don James of The DesignPond for their outstanding contributions in
          the design and production of this report.


          To send comments or obtain additional information about this
          report, please email Bill Tatter at btatter@doc.gov.
STRATEGIC THEMES


 P R O G R A M M AT I C T H E M E S




           Economic Growth

        Science and Information

       Environmental Stewardship




  MANAGEMENT THEMES




           Customer Service

       Organizational Excellence

         Workforce Excellence
